U.S. Department of Justice
Office of the Inspector General




            A Review of 

     Federal Prison Industries’ 

Electronic-Waste Recycling Program





                                  Office of the Inspector General
                                  Oversight and Review Division
                                                    October 2010
                                      TABLE OF CONTENTS 

TABLE OF CONTENTS ................................................................................ i
 

INDEX OF CHARTS, DIAGRAMS, PHOTOGRAPHS, AND TABLES ................v
 

TABLE OF ATTACHMENTS .......................................................................vii
 

EXECUTIVE SUMMARY .............................................................................ix
 

I.	      Introduction .....................................................................................ix
 

II.	     Methodology of the Investigation ........................................................x
 

III.	    Summary of Findings ......................................................................xii
 

IV.	     OIG Recommendations ................................................................. xxiv
 

V.       Conclusion ................................................................................... xxvi
 

CHAPTER ONE INTRODUCTION ............................................................... 1
 

I.	      Introduction ..................................................................................... 1
 

II.	     Origin of the OIG Investigation.......................................................... 2
 

III.	    Methodology of the Investigation ....................................................... 3
 

IV.      Organization of this Report ............................................................... 7
 

CHAPTER TWO BACKGROUND................................................................. 9
 

I.	      Organization and Functions of UNICOR ............................................ 9
 

II.	     E-Waste.......................................................................................... 10
 

III.	    Overview of UNICOR’s E-Waste Recycling Program.......................... 13
 
         A.	     The Recycling Business Group .............................................. 13
 
         B.	     UNICOR’s E-Waste Recycling Operations ............................... 18
 

IV.	     Oversight of UNICOR’s Health, Safety, and Environmental 

         Practices......................................................................................... 26
 
         A.	     BOP Headquarters and Regional Office Oversight Duties ....... 27
 
         B.	     Institution Oversight Duties .................................................. 28
 



                                                         i
        C.	     External Audits and Inspections............................................ 29
 

V.	     Health, Safety, and Environmental Requirements ........................... 30
 
        A.	     OSHA Health and Safety Regulations..................................... 30
 
        B.	     National Fire Alarm Code ...................................................... 36
 
        C.	     Environmental Regulations ................................................... 36
 
        D.	     BOP Health and Safety Policies.............................................. 38
 

CHAPTER THREE FACTUAL OVERVIEW: EVOLUTION OF UNICOR’S 

    E-WASTE RECYCLING PROGRAM (1996-2009)............................... 39
 

I.	     Program-Wide Overview of UNICOR’s E-Waste Operations............... 39
 
        A.	     Initial Planning and the FCI Marianna Pilot Project 

                (1996-1997) .......................................................................... 39
 
        B.	     Establishment of Full Scale E-Waste Recycling Operations 

                at BOP facilities..................................................................... 43
 
        C.	     Early Health and Safety Practices .......................................... 44
 
        D.	     Incremental Improvements Following the Discovery of 

                Toxic Metal Contamination at USP Atwater in 2002 ............... 49
 
        E.	     Actions to Conceal Health and Environmental Issues ............ 51
 
        F.	     UNICOR’s Decision to Suspend Glass Breaking Operations 

                Nationwide ............................................................................ 51
 

II.	    E-Waste Recycling Operations at Individual BOP Facilities.............. 52
 
        A.	     FCI Elkton............................................................................. 52
 
        B.	     USP Atwater.......................................................................... 64
 
        C.	     FCI Texarkana....................................................................... 76
 
        D.	     FCI La Tuna .......................................................................... 80
 
        E.	     FCI Ft. Dix ............................................................................ 81
 
        F.	     FCI Marianna ........................................................................ 84
 
        G.	     USP Lewisburg ...................................................................... 87
 
        H.	     FCI Dublin ............................................................................ 89
 
        I.	     FCC Tucson .......................................................................... 90
 
        J.	     USP Leavenworth .................................................................. 91
 
        K.	     Other Recycling Projects........................................................ 92
 

III.    Conclusion ..................................................................................... 96
 


                                                       ii
CHAPTER FOUR RESULTS OF THE OIG’s HEALTH, SAFETY AND 

    ENVIRONMENTAL INVESTIGATION ................................................ 99
 

I.	      Toxic Metal Exposures and Health and Safety Controls ................... 99
 
         A.	     Exposures to Toxic Metals from Recycling Operations ...........100
 
         B.	     Assessment of UNICOR Engineering Controls and Work 

                 Practices ..............................................................................108
 
         C.	     Assessment of UNICOR Personal Protective Equipment 

                 for Lead and Cadmium .........................................................114
 
         D.	     Assessment of Administrative Controls .................................116
 
         E.	     Conclusions Regarding Toxic Metals Exposures and 

                 UNICOR Controls .................................................................119
 

II.	     Medical Findings .......................................................................... 121
 
         A.	     Biological Monitoring Results ...............................................122
 
         B.	     Medical Surveillance.............................................................123
 
         C.	     Staff and Inmate Health Complaints .....................................125
 

III.	    Other Hazards and Injuries........................................................... 125
 
         A.	     Injuries ................................................................................126
 
         B.	     Noise Exposure ....................................................................127
 
         C.	     Heat Exposure .....................................................................128
 
         D.	     Plastic Sanding ....................................................................129
 

IV.	     Environmental Compliance ........................................................... 129
 
         A.	     UNICOR’s Handling of Hazardous Wastes .............................130
 
         B.	     Lack of Technical Competence and Compliance Oversight ....132
 

V.	      Conclusions.................................................................................. 134
 

CHAPTER FIVE OIG FINDINGS ON MANAGEMENT DEFICIENCIES 

    AND THE INDIVIDUAL ACCOUNTABILITY OF UNICOR AND 

    BOP STAFF................................................................................... 137
 

I.	      Management Deficiencies.............................................................. 137
 
         A.	     Availability of Technical Resources .......................................137
 
         B.	     Hazard Assessments and Hazard Communication ................138
 
         C.	     Inspections and Oversight of UNICOR Operations.................140
 
         D.	     Health and Safety Management Systems ..............................144
 


                                                       iii
II.	     Misconduct and Performance Failures of UNICOR and BOP Staff .. 147
 
         A.	     Acts and Omissions Relating to Exposure and 

                 Endangerment .....................................................................148
 
         B.	     Misconduct Involving Dishonesty or Lack of Candor .............166
 
         C.      Conclusions Regarding Individual Accountability..................177
 

CHAPTER SIX CONCLUSIONS AND RECOMMENDATIONS ................... 183
 

I.	      OIG Analysis................................................................................. 183
 

II.	     Recommendations ........................................................................ 187
 

III.	    Conclusion ................................................................................... 196
 




                                                       iv
INDEX OF CHARTS, DIAGRAMS, PHOTOGRAPHS, AND TABLES 


                                                                   Page
Chart 2.1 	      Organization of UNICOR and BOP with Reference     14
                 to the Recycling Business Group

Chart 2.2 	      Key UNICOR and Recycling Business Group           15
                 Managers

Chart 2.3 	      Number of Inmates Employed by the Recycling       17
                 Business Group from 2000 to 2009

Chart 2.4 	      Volume of E-Waste Received by the Recycling       17
                 Business Group from 2002 to 2009

Chart 3.1 	      UNICOR Electronics Recycling Timeline of CRT      47
                 Hazard Warnings and Safety Measures (1997-2002)


Diagram 2.1 	    Cathode Ray Tube Components                       12

Diagram 2.2 	    Locations of UNICOR E-Waste Factories and         16
                 Collection Centers

Diagram 2.3 	    Glass Breaking Booth Diagram, FCI Texarkana,      24
                 2008


Photograph 2.1   E-Waste Warehouse, FCI Elkton, 2007               19

Photograph 2.2   E-Waste Disassembly Area, FCC Tucson, 2007        20

Photograph 2.3   Dust from Striking a Computer Monitor, UNICOR     21
                 E-Waste Recycling Factory

Photograph 2.4   Glass Breaking Booth, USP Lewisburg, 2008         22

Photograph 2.5   Inmate Feeding CRTs to Inmate Glass Breaker       25
                 Inside a Glass Breaking Booth, FCI Texarkana,
                 2008

Photograph 3.1 	 UNICOR Glass Breaking Table, 2002                 54




                                     v
Photograph 3.2   FCI Elkton Glass Breaking Area, November 2001      60

Photograph 3.3   FCI Elkton Glass Breaking Area, November 2001      60

Photograph 3.4   Glass Breaking Booth, FCI Elkton, 2007             64

Photograph 3.5   Glass Breaking Booth at USP Atwater, 2002          67

Photograph 3.6   Former Dining Area Inside the UNICOR Factory       75
                 at USP Atwater, 2007

Photograph 3.7   Glass Booth at FCI Marianna, 2007                  86

Photograph 3.8   Inside Glass Booth at FCI Texarkana, 2008          89

Photograph 3.9   Glass Breaking Booth, FCC Tucson, 2005             91

Photograph 3.10 PVC Pipe Ventilation System for Chip Recovery       94
                Project, FCI Elkton, 2006

Photograph 3.11 Ventilation System for Chip Recovery Project,       95
                FCI Elkton, 2006

Photograph 5.1   UNICOR Simulation of Glass Breaking Process –      170
                 Breaking Funnel Glass, FCI Elkton, 2002


Table 2.1        Toxic Metals in Computer Components                11

Table 2.2        Permissible Heat Exposure Threshold Limit Values   35

Table 3.1        Starting Dates of E-Waste Recycling and Glass      44
                 Breaking Operations at BOP Facilities




                                     vi
                     TABLE OF ATTACHMENTS 


Attachment 1 	   OIG Assessment of BOPs and UNICOR’s Implementation of
                 the OIG Technical Team’s Recommendations

Attachment 2 	   NIOSH-HETAB Reports (2008-2009)

Attachment 3 	   FOH Review of the UNICOR Document: “MARIANNA
                 RECYCLING FACTORY HEAT STRESS PROGRAM
                 Effective Date: January 12, 2009”

Attachment 4 	   October 14, 2010, Memorandum from Harley G. Lappin,
                 Director to Carol F. Ochoa, Assistant Inspector General

Attachment 5 	   October 8, 2010, Memorandum from Lee J. Lofthus,
                 Assistant Attorney General for Administration to
                 Carol F. Ochoa, Assistant Inspector General

Attachment 6 	   OIG Analysis of BOP and DOJ Responses




                                    vii
[PAGE LEFT INTENTIONALLY BLANK] 





               viii 

                              EXECUTIVE SUMMARY 


I.     Introduction

       This Executive Summary describes the results of an investigation by the
Office of the Inspector General (OIG) into the health, safety, and environmental
compliance practices of Federal Prison Industries’ (FPI) electronic waste (e­
waste) recycling program. Federal Prison Industries, which is known by its
trade name “UNICOR,” is a government corporation within the Federal Bureau
of Prisons (BOP) that provides employment to staff and inmates at federal
prisons throughout the United States. UNICOR sells a variety of consumer
products and services, such as office furniture and clothing, and industrial
products, such as security fencing and vehicle tags. As of June 2010, UNICOR
had 103 factories at 73 prison locations, employing approximately 17,000
inmates or 11 percent of the inmate population.

      Starting in 1997, UNICOR began to accept computers, monitors,
printers, and other types of e-waste for recycling at federal prisons. UNICOR
sold these e-waste items to its customers, sometimes following refurbishment,
or disassembled the items into their component parts and sold the parts to
recyclers for further processing.

      E-waste contains many toxic substances that can be harmful to humans
and to the environment. For example, a computer can contain toxic metals,
such as cadmium, lead, mercury, arsenic, and beryllium. Cathode ray tubes,
which are found in televisions and computer monitors, typically contain
between 2 to 5 pounds of lead. When e-waste is disassembled and recycled,
workers can be exposed to toxic metals which can cause serious health
implications.1

      UNICOR’s recycling of e-waste resulted in complaints from BOP and
UNICOR staff and inmates, most notably from Leroy A. Smith, Jr., a former
Safety Manager at the United States Penitentiary (USP) in Atwater, California.
In particular, the complaints asserted that UNICOR’s e-waste recycling
practices were not safe and had made UNICOR staff and inmates sick. As a
result of these complaints and at the request of the BOP, Department of
Justice (DOJ), and attorneys for Mr. Smith, the OIG investigated the safety of
UNICOR’s e-waste recycling operations, as well as other allegations of theft,


       1  As used in this report the term “exposure” refers to the airborne concentration of a
contaminant, such as cadmium or lead, that is measured in the breathing zone of a worker but
outside of any respiratory protection devices used.




                                              ix
conflict of interest, and environmental crimes that arose during our
investigation related to UNICOR’s e-waste operations.


II.    Methodology of the Investigation

      Due to the technical nature of the issues involved in the investigation,
the OIG sought assistance from four federal agencies with expertise in
occupational health, safety, and environmental compliance: the Occupational
Safety and Health Administration (OSHA), the Centers for Disease Control and
Prevention – National Institute for Occupational Safety and Health (NIOSH), the
Federal Occupational Health Service (FOH), and the United States
Environmental Protection Agency (EPA).2 Representatives from these agencies
assisted the OIG with field work and analysis of UNICOR’s operations. The
agencies’ representatives included Occupational Physicians, an Occupational
Health Nurse, Certified Industrial Hygienists, Environmental Specialists, and
Safety Specialists.3

      The OIG also coordinated its work with other components within DOJ to
complete its investigation, including the Environmental Crimes Section in the
Environment and Natural Resources Division; the United States Attorneys’
Offices for the Northern District of Florida, the Northern District of Ohio, and
the District of New Jersey; and the Federal Bureau of Investigation (FBI), as
well as the Internal Revenue Service.

       During our investigation, the OIG team conducted more than 200
interviews and examined documents from BOP institutions and headquarters
related to UNICOR’s recycling operations and health, safety, and environmental
practices. Among the witnesses we interviewed were UNICOR Chief Operating
Officers, the BOP Assistant Director for the Health Services Division, BOP
National Safety Administrators, staff of UNICOR’s Recycling Business Group
who managed UNICOR’s e-waste recycling program, UNICOR factory managers
and foremen, local Safety Managers, and inmates. We also reviewed more than
10,000 documents, examined numerous BOP and UNICOR e-mail accounts,
and performed forensic examinations on hard drives and laptop computers of
certain UNICOR personnel.

      Our investigation involved extensive field work conducted with the
federal agencies that assisted us. This field work evaluated e-waste recycling

       2 The OIG received assistance from two components within NIOSH: the Division of

Applied Research and Technology (DART) and the Hazard Evaluations and Technical
Assistance Branch (HETAB) within the Division of Surveillance, Hazard Evaluations, and Field
Studies.
       3 UNICOR authorized the expenditure of approximately $1.2 million for certain costs of

the technical team that supported the OIG’s investigation.




                                              x
at the 10 institutions where UNICOR performed this work, although 2 of these
(FCI Dublin and FCI La Tuna) had stopped recycling before our field work
began in November 2006. The remaining eight institutions we visited were USP
Atwater, Federal Correctional Institution (FCI) Ft. Dix, FCI Elkton, USP
Leavenworth, USP Lewisburg, FCI Marianna, FCI Texarkana, and Federal
Correctional Complex (FCC) Tucson.4 This field work concluded in February
2009 when NIOSH performed its last site visit, which was conducted at FCI
Marianna in Marianna, Florida.

       During our field work we examined staff and inmate exposures to toxic
metals, primarily cadmium and lead; the medical effects resulting from these
exposures; legacy contamination in UNICOR’s factories resulting from improper
recycling practices; exposures to noise and heat stress; the incidence of
injuries; environmental compliance; and general administrative control and
oversight of UNICOR’s e-waste operations. Due to the many hazards
associated with recycling cathode ray tubes (CRT), much of our field work
focused on UNICOR’s handling of CRTs. As a result of economic
considerations, UNICOR ceased all operations involving the breaking of CRT
glass in May 2009, although inmates still disassemble computer monitors by
removing the plastic casing and wiring.

       At the conclusion of the site visits to the BOP institutions, the federal
agencies that assisted the OIG provided written reports about their work to the
OIG. The OIG promptly shared all the reports it received with the BOP and
UNICOR. To consolidate this information, the OIG requested that FOH compile
and analyze the agencies’ findings, as well as information from OIG interviews
and documents; address any discrepancies; and provide the OIG with
comprehensive health, safety, and environmental reports on conditions from
2003 to 2009 for each of the eight UNICOR e-waste recycling factories that had
ongoing operations during the OIG’s investigation. These eight FOH reports
were subjected to peer review by OSHA and NIOSH. We compiled all of these
reports as an Appendix to this report, and posted them on the OIG’s website.
See http://www.justice.gov/oig/reports/BOP/index.htm. FOH submitted the
last of its eight reports to the OIG in May 2010.5


       4 A Federal Correctional Complex includes multiple BOP institutions at one location,
such as a high security prison with other lower security institutions.

        5 In the course of our investigation, we learned of allegations of theft and conflict of

interest at FCI Marianna relating to the e-waste recycling program. The OIG investigated these
allegations and referred the matter to the U.S. Attorney’s Office for the Northern District of
Florida. As a result of that case, one UNICOR employee pled guilty to charges of theft of
government property in January 2010 for stealing items that were to be recycled. In addition,
in July 2010 a former UNICOR Factory Manager, James Bailey, and his cousin, Lee Temples,
were indicted for conflict of interest, wire fraud, money laundering, and conspiracy, among
other charges. According to the indictment, Bailey was responsible for eBay sales of surplus
                                                                                            (Cont’d.)


                                                 xi
       This report summarizes the findings of FOH, NIOSH, OSHA (the “OIG
technical team”), and the OIG regarding recycling practices in UNICOR’s e-
waste factories and toxic metal exposure conditions from 2003 through 2009.
It also provides conclusions regarding historical exposures prior to 2003 based
on assessments performed by FOH and NIOSH-HETAB. In addition, the report
presents information about environmental compliance issues and summarizes
the OIG’s examination of allegations of misconduct and performance failures by
UNICOR and BOP staff.


III.   Summary of Findings

      Our investigation found that prior to 2009 UNICOR’s management of the
e-waste recycling program resulted in numerous violations of health, safety,
and environmental laws, regulations, and BOP policies. We concluded that
UNICOR’s Headquarters staff poorly managed UNICOR’s e-waste program prior
to 2009.6 UNICOR staff members often failed to perform hazard assessments
on new e-waste operations or did so incorrectly, and important health and
safety information was not shared with BOP executives and safety staff that
could have prevented the violations from occurring. We also found that
managers in UNICOR’s Recycling Business Group, primarily General Manager
Lawrence Novicky and his assistant, Bruce Ginther, concealed warnings about
hazards related to toxic metals from UNICOR and BOP staff and from inmates.

       Even after the hazards of e-waste recycling were clearly identified to the
leadership of UNICOR’s Recycling Business Group in 2002, primarily due to
the efforts of Safety Manager Smith at USP Atwater, UNICOR was slow to make
necessary changes. UNICOR sought advice from BOP safety staff concerning
issues on which the staff was not qualified to provide assistance, and at times
UNICOR failed to promptly act on the requests of Safety Managers when the
requests conflicted with UNICOR’s business priorities. The consequence was
that UNICOR and BOP staff and inmates were needlessly exposed to cadmium
and lead – two dangerous toxic metals – during recycling activities, and that
parts of some BOP facilities where recycling activities had previously occurred


computer equipment for UNICOR and directed the highest quality equipment to Temples’s
business, in which Bailey allegedly held a financial interest. On September 1, 2010, Temples
pled guilty to conflict of interest, money laundering, wire fraud, deprivation of honest services,
and obstruction of justice charges. On September 30, 2010, Bailey pled guilty to conflict of
interest, money laundering, wire fraud, deprivation of honest services, and false statement
charges.

       6  Unless otherwise noted, references to “we” in this report refer to the OIG and not to
the OIG technical team. The technical team’s review addressed field work and analysis of
UNICOR’s operations, while the OIG addressed additional issues, including misconduct
allegations and assessment of individual responsibility.




                                                xii
without proper engineering and hygiene controls were contaminated with these
metals and required remediation.

      Overall, we found a culture at UNICOR that did not sufficiently value
worker safety and environmental protection. We determined that the flawed
organization and poor communication between UNICOR and the BOP made
compliance difficult to achieve even with the best-intentioned employees.

       Our investigation identified numerous systemic deficiencies in UNICOR’s
and the BOP’s operations that we believe jeopardized UNICOR’s ability to
comply with applicable health, safety, and environmental requirements. These
include a lack of technical resources (during our investigation the BOP and
UNICOR only had a single Certified Industrial Hygienist to cover 98 UNICOR
factories at 71 prison locations), as well as weak oversight of UNICOR’s
operations by the BOP and DOJ.7

       We also found numerous instances of staff misconduct and performance
failures. These included actions that endangered staff and inmates:
dishonesty, dereliction of duty, and theft, among others. In all, we concluded
that 11 UNICOR and BOP employees committed either misconduct or
performance failures in their work related to the e-waste recycling program.

      We also identified potential criminal conduct by BOP and UNICOR staff,
which resulted in referrals to two other DOJ components. In February 2007,
we referred information to the Environmental Crimes Section in DOJ’s
Environment and Natural Resources Division indicating that UNICOR
managers had knowingly endangered staff and inmates, were aware of
unlawful disposals of hazardous waste, and had concealed information from
regulators. Following a lengthy investigation that the Environmental Crimes
Section conducted in conjunction with the OIG, EPA, FBI, and the U.S.
Attorneys’ Offices for the Northern District of Ohio and the District of New
Jersey, no action was initiated because of various evidentiary, legal, and
strategic concerns.

       Despite the many problems that our investigation identified with
UNICOR’s development of its e-waste program, we found that UNICOR began to
institute significant health and safety improvements to its e-waste recycling
operations starting in June 2003, primarily to control exposures to toxic
metals. Since that time, UNICOR has made substantial progress to improve
the safety of its e-waste operations. The improvements included changes to
CRT glass breaking methods in 2003 and 2004, enhanced staff and inmate
training beginning in late 2003 and 2004, development of written operating


      7   As of June 2010, UNICOR operated 103 factories in 73 federal prisons.




                                             xiii
standards by 2004, and formalized job orientation training for inmates in 2005.
UNICOR also has improved its exposure monitoring at its factories over time.

       Our review determined that by 2009, with limited exceptions, UNICOR’s
e-waste operations (including CRT glass breaking activities) were compliant
with OSHA requirements and were being operated safely, though the agencies
that assisted us recommended some additional improvements. Moreover, in
2009 UNICOR also hired a new General Manager of the Recycling Business
Group with more than 30 years of work experience for the EPA, Robert Tonetti,
who has initiated changes that we believe will further improve health, safety,
and environmental practices. For example, UNICOR is upgrading its
environmental, health, and safety management systems by pursuing
certification for all of its electronics recycling factories under a program
endorsed by the EPA – the Responsible Recycling (R2) Practices program.

      In addition, it is important to recognize that UNICOR employment
provides inmates with job skills and helps to reduce inmate idleness. Inmates
repeatedly told us during our investigation that they valued working for
UNICOR and preferred the work experience to other opportunities offered by
the BOP. We also believe that UNICOR deserves credit for seeking to provide
the federal government and the public with recycling services. UNICOR has
disassembled thousands of tons of e-waste since the inception of its recycling
program, some of which otherwise could have ended up in landfills or with less
responsible recyclers.

      However, according to the agencies that assisted the OIG in this
investigation, additional improvements are still needed in UNICOR’s e-waste
operations. For example, UNICOR and the BOP need to hire or retain staff that
is adequately trained to identify and correct health, safety, and environmental
compliance problems.

      Further details of the findings in 17 areas from our full report are
presented below.

            1.    Staff and Inmate Exposures to Toxic Metals

       Our findings concerning toxic metal exposures focused on different types
of recycling activities, such as glass breaking, disassembly of computers, and
cleanup activities, during two distinct periods of time. The first period was
from the start of UNICOR’s recycling program in 1997 through approximately
June 2003, when UNICOR first issued detailed glass breaking procedures and
began to institute significant health and safety improvements in its e-waste
recycling operations. The second period was from June 2003 to 2009, when
UNICOR hired a new manager of the Recycling Business Group and instituted
additional safety precautions.




                                       xiv
      Although our investigation evaluated potential exposures to 31 metals,
including arsenic, barium, and beryllium, our findings primarily address
cadmium and lead because exposures to these two metals were found at
various times to be above OSHA occupational exposure limits at UNICOR’s e-
waste factories. Other metal exposures generally were negligible.

                    a.     Exposures in Glass Breaking Areas

       With respect to glass breaking operations, where air exposure monitoring
data during glass breaking was available at certain BOP facilities prior to 2003,
such as at USP Atwater, our investigation found that worker exposures were at
times far higher than the applicable OSHA exposure limits for cadmium and
lead. When such data were not available (due to UNICOR’s failure to comply
with OSHA regulations that required monitoring) FOH and NIOSH-HETAB
concluded that it was not possible to quantify the severity of these early
exposures. However, they concluded there is a strong likelihood that worker
exposures in UNICOR glass breaking areas at times exceeded OSHA exposure
limits, and probably occurred repeatedly given UNICOR’s consistently poor
work procedures and conditions, such as the lack of adequate ventilation and
proper hygiene.8 This determination was based on UNICOR’s unsafe glass
breaking practices at its factories during the first five years of recycling
operations, the USP Atwater exposures prior to 2003, and the frequency of
documented exceedances of OSHA exposure limits at UNICOR recycling
factories after 2003, even though fewer numbers of CRTs were broken and
better exposure controls were in place after 2003.

       The OIG technical team also tested the levels of cadmium and lead
contamination present in surface wipe and bulk dust samples taken inside
glass breaking booths at UNICOR facilities. FOH and NIOSH-HETAB also
tested in areas where glass breaking activities previously had occurred. These
samples indicated that substantial toxic metals emissions occurred during
early glass breaking operations, potentially exposing staff and inmates to the
inhalation and ingestion of cadmium and lead.

      FOH also discovered legacy contamination from earlier recycling activities
at multiple UNICOR factories, particularly in areas of past glass breaking
operations. FOH and NIOSH-HETAB concluded that activities that disturb this
contamination still have the potential to create inhalation and ingestion
exposures if the operations are not properly conducted with hazard controls in
place, such as respiratory protection. In addition, particle size analysis
performed by FOH and NIOSH on various dust samples from recycling
operations revealed that 90 percent of the particles were small enough that

       8 FOH and NIOSH-HETAB evaluated exposures that occurred prior to 2003 using

available workplace sampling reports and data that UNICOR and the BOP provided.




                                          xv
they could remain airborne for relatively long periods of time and could travel
long distances before being deposited on surfaces.9 Small particles also
penetrate deeper into the pulmonary system for greater absorption into the
body.

       After June 2003, UNICOR gradually reduced worker exposures to
cadmium and lead during glass breaking operations. However, UNICOR
consultants found exposures above OSHA air exposure limits at various
factories through mid-2004 and at FCI Elkton until early 2007. The OIG
technical team also found violations of OSHA exposure limits had occurred,
including major exceedances of cadmium standards at FCI Elkton during filter
changing operations in the area where CRTs were broken.

       By 2009, UNICOR corrected the problem of exceedances of OSHA
occupational exposure limits for cadmium and lead at FCI Elkton, primarily
through improvements to its handling procedures for glass booth filters. In
addition, beginning in May 2009, UNICOR ceased all glass breaking operations
in its computer recycling facilities and is now sending its CRTs to private firms
for processing.

                      b.     Exposures in Disassembly Areas

      In addition to exposures in areas where glass breaking occurred, such as
inside glass breaking booths, we evaluated exposures in areas where e-waste
was being disassembled. Our investigation determined that prior to 2003
UNICOR recycling operations resulted in uncontrolled releases of contaminated
dusts to general factory areas where e-waste disassembly work was being
conducted, especially areas near unenclosed glass breaking operations. FOH
and NIOSH-HETAB concluded that these uncontrolled releases from glass
breaking, as well as contaminants from e-waste generally, contributed to
higher exposures in factory areas than what would be expected for disassembly
operations conducted in a manner that fully complied with OSHA
requirements.

       FOH and NIOSH-HETAB further concluded that the potential inhalation
and ingestion exposures for workers engaged in disassembly activities were
greater during the pre-June 2003 period than after, although the relative
decrease in risk and exposures could not be quantified due in part to UNICOR’s
failure to perform necessary monitoring prior to 2003.

      However, between 2007 and 2009, FOH, NIOSH, and OSHA conducted
on-site evaluations and exposure monitoring for disassembly activities at


      9 The particle size analysis revealed that 90 percent of the particles were less than10

micrometers (µm) in size and that 40 percent were in the 1-2 µm range.




                                              xvi
UNICOR factories and found that all exposures were less than OSHA exposure
limits for cadmium and lead. We concluded that current UNICOR e-waste
disassembly and related activities have minimal potential for inhalation
exposure.

            2.    Worker Protection Measures

      As noted above, our investigation determined that prior to June 2003
UNICOR did not implement adequate worker protection measures to control
exposures to hazards associated with e-waste recycling activities, particularly
cadmium and lead hazards. We found that UNICOR lacked proper engineering
controls, work practice controls, personal protective equipment, and
administrative controls such as hazard communication and training to mitigate
toxic metals exposures that resulted primarily from glass breaking operations.
As a result, UNICOR violated numerous OSHA regulations, including those
dealing with cadmium, lead, hazard communication, personal protective
equipment, and respiratory protection.

       For example, prior to 2003 UNICOR failed to perform adequate hazard
assessments in its recycling factories to identify necessary personal protective
equipment. As a result, BOP and UNICOR staff and inmates at times lacked
personal protective equipment to effectively mitigate exposures to cadmium and
lead. At the startup of glass breaking operations at many factories, UNICOR
either did not provide respiratory protection or provided paper dust masks that
were not approved by NIOSH for toxic metals. In addition, even when UNICOR
provided respiratory protection to inmate glass breakers, the respirators at
times were insufficient to adequately safeguard workers against the excessive
exposures, which violated OSHA respiratory protection and personal protective
equipment regulations.

      Engineering controls were similarly inadequate prior to 2003. We found
that UNICOR largely left the design of its glass breaking booths to local factory
and institution staff who lacked industrial hygiene and engineering expertise,
with the result that recycling factories either did not have exhaust ventilation
and containment systems when glass breaking started or used ineffective
make-shift systems that were improperly designed.

       Our investigation revealed that after June 2003 UNICOR made
substantial improvements to its worker protection practices for e-waste
recycling by: (1) issuing glass breaking and other operating procedures, (2)
implementing better engineering and work practice controls for glass breaking
in 2003 and 2004 and then gradually improving these controls over time, (3)
upgrading respiratory protection for glass breaking in 2003 and standardizing
the type of respirators used in late 2004, (4) improving other personal
protective equipment for glass breaking, and (5) providing increased training
for staff in late 2003 and 2004 and formalizing job orientation training for


                                       xvii
inmates. UNICOR also improved its exposure monitoring at its factories over
time.

            3.    Medical Effects from Toxic Metal Exposures

      NIOSH’s review of available staff and inmate medical records revealed
that the results of biological monitoring generally were unremarkable. NIOSH
did not identify any blood or urine testing in staff and inmates that revealed
exposures exceeding occupational standards for cadmium and lead. These
conclusions are subject to qualification, however. For example, because
UNICOR and the BOP failed to comply with OSHA biological monitoring
regulations (see discussion of medical surveillance below), the biological
monitoring records that NIOSH reviewed were incomplete and did not include
data from periods when exposures were likely greatest.

       In addition to reviewing medical records, NIOSH also evaluated a wide
array of adverse health symptoms that staff and inmates reported in their
interviews and attributed to their work in UNICOR’s e-waste factories. After
considering available evidence, including medical records and information
obtained during interviews, NIOSH concluded that none of the reported
ongoing health problems could be linked to recycling work. However, due to
variations in susceptibility to adverse health effects from toxic metal exposures,
some contribution to future health problems from exposures at UNICOR
cannot be completely ruled out.

            4.    Medical Surveillance of Staff and Inmates

       NIOSH found that the BOP’s and UNICOR’s medical surveillance of staff
and inmates at FCI Elkton and USP Atwater was inadequate and failed to
comply with OSHA regulations. NIOSH determined that medical examinations
were not completed on inmates as required by the OSHA cadmium and lead
standards, and that medical records were not properly retained by the BOP.
Biological monitoring also was not standardized, resulting in some staff and
inmates not receiving the testing required under OSHA regulations and some
staff and inmates not being informed of their testing results.

      Despite these problems, NIOSH concluded that the only persons
currently working in e-waste recycling that required continued medical
surveillance were inmates at FCI Elkton who performed glass breaking
operations or the monthly change of the glass booth filters and inmates at USP
Atwater who performed the same functions in the event that glass breaking
operations restarted there. However, because UNICOR ceased all glass
breaking operations in 2009, no persons currently meet these criteria.

       NIOSH also concluded that some former FCI Elkton inmates and staff
may require surveillance under the OSHA cadmium standard based on the
likelihood that they were exposed to cadmium prior to 2003. NIOSH also


                                      xviii
recommended that UNICOR or the BOP retain a board-certified, residency-
trained Occupational Medicine Physician to oversee future medical surveillance
activities.

      The BOP recently retained an Occupational Physician from FOH to
oversee medical surveillance of UNICOR staff and inmates in the e-waste
program. In March 2010, the BOP notified the OIG that biological monitoring
was underway for inmates that formerly worked in e-waste recycling at FCIs
Elkton and Texarkana (institutions that had glass breaking operations prior to
2003), that remained in the BOP’s custody, and that had not previously been
tested. The BOP has agreed to share these results with the OIG when they are
available.

            5.    Remedies for Toxic Metal Legacy Contamination

       FOH and NIOSH tested for cadmium and lead surface contamination in
bulk dust samples taken from areas likely to contain legacy contamination
from early recycling operations. High levels of contamination were found at
recycling factories with prior routine glass breaking and lead desoldering
operations on surfaces that were not subject to regular cleaning, such as
beams, light fixtures, in cable boxes, on roofs, inside general ventilation duct
work, around former glass breaking areas where uncontrolled releases
occurred, and in former disassembly areas. The extent of this contamination
creates the potential for additional exposures caused by worker contact with
the affected surfaces or other disturbance of the dust. As a result of these
findings, the OIG technical team made recommendations to UNICOR to abate
known areas of contamination and to perform additional testing in areas that
could be contaminated.

            6.    Health and Safety Planning – Hazard Assessments

      We determined that UNICOR failed to properly assess hazards related to
e-waste in its recycling factories and to warn staff and inmates in a timely
fashion about the presence of toxic metals in their work areas. In addition, we
concluded that due to UNICOR’s failure to conduct such assessments, UNICOR
did not properly integrate hazard controls into its e-waste work processes.
Instead, these control measures evolved slowly over periods of years, through a
process of “trial and error” at some factories, before cadmium and lead
exposures were controlled to levels below OSHA exposure limits.

      We also determined that UNICOR and the BOP did not have policies that
required UNICOR to have qualified personnel, including staff from the BOP’s
Health Services Division, conduct assessments on UNICOR’s new operations,
or on significant changes in existing operations, that would identify the
hazards that UNICOR is required to disclose under OSHA regulations. The




                                       xix
BOP Health Services Division recently drafted procedures that address these
assessments.

            7.	    Hazard Communication and Warnings to Staff and
                   Inmates

       Prior to 2003, UNICOR did not provide adequate hazard communication
and training programs for its recycling workers. For example, UNICOR staff
and inmates who worked in or supervised glass breaking operations during
1998 through 2002 told us that they repeatedly were reassured by UNICOR
managers that their work environment was safe, despite what they saw as
unsanitary conditions. We found that UNICOR only gradually developed
training that warned its workers of hazards associated with e-waste recycling.

            8.	    Exposures to Other Hazards and Injuries

       The OIG and OSHA found problems with UNICOR’s handling of inmate
injuries from e-waste recycling, and FOH and NIOSH indentified worker
exposures to noise and heat that exceeded relevant standards.

       Our interviews and review of inmate injury records revealed that inmates
who worked in glass breaking operations frequently were cut by the broken
glass, some resulting in serious injuries. Neither UNICOR nor the BOP shared
injury information between factories, and lessons learned to prevent
lacerations during glass breaking operations were not disseminated. We also
concluded that the BOP does not have the ability to identify injury trends in
UNICOR operations because it lacks procedures to collect and evaluate the
information.

       Our investigation also determined that the BOP and UNICOR violated
OSHA regulations by failing to record inmate injuries on an injury and illness
log that OSHA requires and inspects periodically. 29 C.F.R. § 1904 (describing
requirements of OSHA’s Form 300, Log of Work-Related Injuries and Illnesses).
Although the BOP identified staff injuries on this log, it omitted inmate injuries.
After consultations between OSHA and the BOP, the BOP concurred that
inmates should be included on the OSHA Form 300 log.

       Our investigation also determined that UNICOR and local safety staff
often failed to identify noise sources and conduct adequate noise surveys of
UNICOR recycling operations. Based on FOH and NIOSH noise monitoring
tests, and from a review of recent noise testing results obtained by UNICOR
and BOP consultants and safety personnel, we found inmate noise exposures
above OSHA standards at various UNICOR factories during glass breaking
operations, baling operations, hand-held power tool use, sander use, pallet
manufacturing, and other activities.




                                        xx
      We further determined that inmates had the potential for excessive
exposure to heat, which could result in violation of OSHA’s General Duty
Clause, during glass breaking and other operations. 29 U.S.C. § 654.
Evaluations conducted by NIOSH at FCI Marianna in Florida revealed
exceedances of heat stress standards for certain UNICOR workers. The BOP
and UNICOR did not have a heat stress program at the time of our field work at
FCI Marianna. During later field work, FOH found that no UNICOR factories
had conducted heat exposure assessments.

              9.      Violation of Health and Safety Regulations and Policies

       UNICOR’s e-waste recycling operations violated numerous OSHA
regulations, including those dealing with cadmium, lead, hazard
communication, personal protective equipment, and respiratory protection.10
FOH’s analysis of these violations revealed that the violations involved more
than 30 different regulatory provisions. OSHA also determined that several of
these violations would be considered “willful violations” within the meaning of
its enforcement guidance, if they had been discovered during OSHA
inspections.11

              10.     Inspections and Oversight of Recycling Operations

       We determined that oversight of UNICOR’s e-waste recycling program
was inadequate and failed to identify the violations of health, safety, and
environmental regulations and policies that we discovered during our
investigation. Internal inspection oversight was provided by local and regional
BOP safety staff, members of the Recycling Business Group, and the BOP’s
Program Review Division. The UNICOR Board of Directors also received reports
of inspection activity from UNICOR staff. However, this oversight was not
effective because the inspectors were not adequately trained to identify health,
safety, and environmental problems.

     External oversight by regulatory agencies was extremely rare prior to
2003. We found that the inspections that did occur, including those from
UNICOR’s e-waste suppliers, were in some instances compromised by
UNICOR’s concealment from inspectors of actual working conditions and

        10 See generally 29 C.F.R. § 1910.1025, Lead; 29 § C.F.R. 1910.1027, Cadmium; 29

C.F.R. § 1910.1200, Hazard communication; 29 C.F.R. § 1910, Subpart I, Personal protective
equipment; and 29 C.F.R. § 1910.134, Respiratory protection. Medical surveillance
requirements are specified in the OSHA lead, cadmium, and respiratory protection standards
cited above.
       11   OSHA makes “willful violations” subject to increased penalties. In the case of worker
fatalities, willful violations may result in criminal enforcement. Penalties are not available
against federal agencies for willful violations, although OSHA reports willful violations to the
head of the offending agency and to the White House.




                                              xxi
problems in the recycling factories. We also learned that DOJ did not, and still
does not, provide health, safety, and environmental compliance oversight of
UNICOR’s and the BOP’s operations.

              11.	   Availability of Technical Resources

       From its inception in 1997, UNICOR’s e-waste recycling program lacked
adequate technical resources. UNICOR and the BOP often assigned staff who
did not have sufficient expertise to carry out duties such as establishing
appropriate engineering controls in its e-waste recycling factories, identifying
and assigning adequate personal protective equipment, and ensuring the
effectiveness of exposure control measures and work practices. We also found
instances where BOP safety staff provided advice on recycling issues that was
incorrect. UNICOR’s reliance on unqualified personnel stemmed in part from
the lack of Certified Industrial Hygienists who evaluate workplace conditions
that may cause worker illnesses or injuries. During our investigation, BOP and
UNICOR only had 1 Certified Industrial Hygienist to service 98 UNICOR
factories located at 71 prison locations, which employed approximately 19,000
inmates or 16 percent of the inmate population.12 According to the OIG
technical team, this level of staffing is inadequate given the size and complexity
of UNICOR’s operations.

              12.    Procurement of Health and Safety Services

      We found that UNICOR’s and the BOP’s lack of internal technical
resources created problems when they retained industrial hygiene consultants
to evaluate its e-waste operations. For instance, FOH and NIOSH-HETAB
found numerous examples where consultant reports were inaccurate,
incomplete, or misleading, which was not recognized by UNICOR or BOP staff.
As a result of UNICOR’s ineffective consultant vetting or critical analysis of the
reports it received, UNICOR frequently did not obtain adequate information to
assess and improve worker protection and comply with pertinent health and
safety regulations.

              13.	   Sufficiency of BOP and UNICOR Health and Safety
                     Policies

       According to FOH, BOP and UNICOR lack cohesive safety policies and
procedures for e-waste recycling operations. UNICOR did not implement
policies that standardized health and safety practices between its recycling
factories, and FOH identified numerous instances where policies were
inconsistent or did not accurately reflect current work practices. With respect

       12  Due to the economic downturn and other factors, UNICOR has decreased its inmate
employment. As of June 2010, UNICOR employed approximately 17,000 inmates, or 11
percent of the federal inmate population.




                                           xxii
to many health and safety issues, rather than implement properly researched
policies, UNICOR effectively operated its factories as stand-alone entities and
left key safety-related decisions to the individual initiatives of local safety and
factory personnel. FOH determined that this approach resulted in inconsistent
standards of care and levels of compliance.

            14.    Assurances Concerning Exports of UNICOR E-Waste

      UNICOR staff reported that e-waste was sometimes sold to vendors that
exported it to other countries and that staff and inmates at times loaded
international shipping containers with e-waste. Prior to approximately mid­
2003, UNICOR did not seek any information about the fate of its e-waste and
whether it was being unlawfully disposed of abroad or used in ways that
created environmental and human health hazards. After mid-2003, UNICOR
began to require vendor self-certifications providing assurances that the e-
waste was being exported to other countries in compliance with national and
international laws.

       The current General Manager of the Recycling Business Group told the
OIG that he intends to improve due diligence procedures for UNICOR e-waste
that is exported.

            15.	   Environmental Compliance

       Our investigation determined that oversight of UNICOR’s compliance
with environmental regulations was inadequate, and that the e-waste recycling
program was responsible for generating hazardous wastes that were unlawfully
stored or disposed of at multiple BOP institutions. At times, UNICOR failed to
fully evaluate environmental permitting requirements before starting new
operations, did not properly evaluate hazardous wastes generated by its
operations, and did not share information about environmental compliance
requirements between recycling factories. For example, UNICOR initiated e-
waste recycling operations at FCI Ft. Dix without authorization from the New
Jersey Department of Environmental Protection.

            16.	   UNICOR and BOP Staff Misconduct and Performance
                   Failures

      As noted above, we concluded that 11 UNICOR and BOP employees
committed either misconduct or performance failures in their work related to
the e-waste recycling program. The misconduct included endangering staff and
inmates, dishonesty, and dereliction of duty. For example, we found that
Novicky, the former General Manager of the Recycling Business Group at
UNICOR Headquarters, committed numerous acts of misconduct. Other
UNICOR and BOP employees also committed misconduct, including disabling a
portion of a factory’s fire alarm system to prevent alarms that were being
caused by excessive dust from glass breaking operations, and disregarding a


                                       xxiii
Safety Manager’s directive to halt work due to safety considerations. We are
referring these matters to the BOP for appropriate action.

            17.	   The Safety of Manual Glass Breaking and Disassembly
                   Operations

       Assessments performed by FOH and NIOSH-HETAB revealed that
UNICOR’s past method of manually disassembling computer monitors and
breaking CRTs with hammers can be performed safely provided that careful
attention is paid to industrial hygiene. Although cadmium and lead-laden dust
is released during this type of monitor recycling, proper engineering controls,
work practice controls, and personal protective equipment can effectively shield
workers from cadmium and lead hazards.

      FOH, NIOSH-HETAB, and OSHA determined that current exposures to
toxic metals during disassembly activity are negligible, although thorough
cleaning is necessary to prevent the build-up of contamination on recycling
surfaces.


IV.	   OIG Recommendations

       During our investigation, the agencies that assisted the OIG made more
than 150 recommendations in their reports to address deficiencies they
identified during their field work at UNICOR’s e-waste factories. These reports
were provided to the BOP and UNICOR as they were completed. In all, these
recommendations addressed 47 issues in 12 general topic areas, including
toxic metal contamination, personal protective equipment, medical
surveillance, regulatory compliance, oversight, and glass breaking.

      In September 2009, the OIG requested that UNICOR and the BOP
provide the OIG with an update on their implementation of the
recommendations. The BOP and UNICOR provided a written update in
January 2010 (see Attachment 1). After reviewing this submission, we
concluded that the BOP and UNICOR had made significant progress to
implement the technical team’s recommendations, but that 16 of the 47 issues
required future updates to the OIG. These 16 issues involve matters such as
decontaminating prior glass breaking areas, improving record keeping for
medical surveillance data, monitoring surface contamination levels, and
improving compliance with the OSHA noise standard.

      In addition to the recommendations from the technical team, the OIG
also developed 12 recommendations that we provide in this report to address
the management and structural problems that we identified during our
investigation. These recommendations, which are presented in Chapter Six,
include strengthening the role of the BOP’s Health Service Division in oversight
of UNICOR’s compliance with health, safety, and environmental regulations,


                                      xxiv
and ensuring that UNICOR and the BOP hold their supervisors accountable for
such compliance. We also recommended that the BOP consider modifying the
supervision of its safety staff so that they report directly to qualified senior
health and safety managers.

      Our recommendations also address other issues involving factory
supervision and regulatory compliance. For example, we recommend that
UNICOR and the BOP implement procedures that will hold supervisors
accountable for compliance with health, safety, and environmental laws and
regulations. We also recommend that UNICOR and the BOP ensure that
supervisors’ performance appraisals account for performance that directly
impacts institution health and safety.

      We also found serious problems with the effectiveness of inspections and
oversight of UNICOR’s operations. We recommend that the BOP’s Health
Services Division adopt a rigorous program of compliance enforcement utilizing
inspectors with significant training in industrial hygiene and environmental
protection. We further recommend that within 18 months from the date of this
report, the Health Services Division, in conjunction with UNICOR and BOP
hygienists and regional and local safety staff, complete industrial hygiene
inspections for all UNICOR business groups.

       We also believe that DOJ should take a role in ensuring that components
within the Department, including UNICOR and the BOP, are fulfilling their
obligations to comply with health, safety, and environmental regulations. In
particular, we believe that DOJ should monitor UNICOR and the BOP’s
compliance performance and ensure that corrective action is taken in the event
that it appears that the non-compliance is not being adequately addressed.

       The OIG technical team concluded that UNICOR and the BOP have an
insufficient number of industrial hygienists. We recommend that the BOP and
UNICOR perform an evaluation to determine how many additional industrial
hygienists are needed.

       We also believe that UNICOR’s compliance performance would benefit
from enrollment in one of OSHA’s cooperative programs. We recommend that
UNICOR assess the feasibility of enrolling its factories in an OSHA cooperative
program, and that the UNICOR Board of Directors be briefed on the results of
this evaluation.

       Other recommendations address the need to improve training, injury
prevention, and communications between Safety Managers, and to better
ensure that exports of e-waste from UNICOR operations are in compliance with
U.S., host-nation, and international laws and do not result in harm to workers
or to the environment.




                                      xxv
      The BOP and DOJ provided responses to our recommendations, which
appear in Attachments 4 and 5. Our evaluation of these responses appears in
Attachment 6.


V.    Conclusion

      In conclusion, our investigation identified serious deficiencies with
UNICOR’s e-waste recycling program, especially prior to 2003. In recent years,
UNICOR has made substantial progress to improve the safety of its e-waste
operations. However, we believe that the success of these efforts in the future
could be hindered by lingering, systemic problems such as the lack of technical
resources, inadequate oversight, and a Health Services Division at BOP
Headquarters that lacks authority to manage the delivery of quality safety
services throughout the BOP and UNICOR. We believe our 12
recommendations can help ensure that BOP and UNICOR conduct its
operations, including its e-waste recycling program, in compliance with federal
regulations and BOP policies, and with the necessary concern for the health
and safety of BOP staff and inmates.




                                     xxvi
                               CHAPTER ONE 

                              INTRODUCTION 


I.    Introduction

       Federal Prison Industries (FPI), otherwise known by its trade name
“UNICOR,” is a government corporation within the Federal Bureau of
Prisons (BOP) that sells various consumer products and services, such as
office furniture and clothing, and industrial products, such as security
fencing and vehicle tags. UNICOR employs staff and inmates at federal
prisons throughout the United States to support its operations.

      Starting in 1997, UNICOR began to accept computers, monitors,
printers, and other types of electronic waste (e-waste) for recycling at federal
prisons. UNICOR sold these items to customers, sometimes following
refurbishment, or disassembled them and sold the component parts to
recyclers for further processing. This disassembly and recycling can release
toxic metals that can be harmful to humans and to the environment,
including cadmium, lead, mercury, arsenic, and beryllium.

       As a result of complaints raised about the e-waste recycling program
and at the request of the BOP and the Department of Justice (DOJ), the
Office of the Inspector General (OIG) investigated the safety of UNICOR’s e-
waste recycling operations, as well as allegations of theft, conflict of interest,
and environmental crimes that arose during our investigation. Due to the
technical nature of the issues involved in this investigation, the OIG sought
assistance from four federal agencies with expertise in occupational health,
safety, and environmental compliance: the Occupational Safety and Health
Administration (OSHA), the Centers for Disease Control and Prevention –
National Institute for Occupational Safety and Health (NIOSH), the Federal
Occupational Health Service (FOH), and the United States Environmental
Protection Agency (EPA). Representatives from these agencies assisted the
OIG with field work and analysis of UNICOR’s operations. The agencies’
representatives included Occupational Physicians, an Occupational Health
Nurse, Certified Industrial Hygienists, Environmental Specialists, and Safety
Specialists.

      The OIG also coordinated with other components within DOJ to
complete its investigation, including the Environmental Crimes Section in
the Environment and Natural Resources Division; the United States
Attorneys’ Offices for the Northern District of Florida, the Northern District
of Ohio, and the District of New Jersey; and the Federal Bureau of
Investigation (FBI), as well as the Internal Revenue Service.




                                        1

II.    Origin of the OIG Investigation

       UNICOR’s recycling of e-waste resulted in complaints from BOP and
UNICOR staff and inmates, including Leroy A. Smith, Jr., a former Safety
Manager at the United States Penitentiary (USP) in Atwater, California, that
staff and inmates were being exposed to toxic metals from UNICOR’s
processing of cathode ray tubes (CRT) found in computer monitors and
television sets.

       In November 2004, the Office of Special Counsel (OSC) referred to the
Attorney General for investigation allegations it had received from Smith
that UNICOR’s e-waste recycling operations resulted in staff and inmate
exposures to hazardous materials, including toxic metals such as cadmium,
lead, and beryllium.13 Pursuant to its standard practices, the OSC
requested the Attorney General to complete an investigation of the
allegations and to report his findings back to the OSC. In January 2005,
Attorney General Ashcroft delegated responsibility for the investigation to
BOP Director Harley Lappin.

      In June 2005, the BOP submitted a report to the OSC that
substantiated some of Smith's allegations but concluded that “BOP,
[UNICOR] and Safety Staff appeared to have adequately addressed” the
safety concerns raised in Smith's disclosure to the OSC. According to the
BOP, along with UNICOR it had taken “appropriate steps to ensure factories
were operating properly.” However, the BOP’s report noted that workers at
USP Atwater were exposed to cadmium and lead at levels above OSHA
regulatory standards, were not properly informed of testing results, and that
medical surveillance and biological monitoring were not instituted as
required. The report further concluded that if consultations with OSHA and
the completion of a risk assessment that had been proposed by Smith had
occurred prior to the start of recycling operations, those actions may have
prevented the exposures that occurred at USP Atwater. The report also
found that it was “reasonable to conclude” that some level of exposures

        13 Pursuant to 5 U.S.C. § 1213, OSC is authorized to receive disclosures of

information from federal employees who allege violations of any law, rule, or regulation;
gross mismanagement or gross waste of funds; abuse of authority; or a substantial and
specific danger to public health or safety. If the head of the OSC (the Special Counsel)
determines that there is a “substantial likelihood” that the information discloses a violation,
the Special Counsel is required to transmit the information to the appropriate agency head
and require the completion of an investigation and submission of a written report to the
OSC. The complainant is entitled to review the report and provide comments to the OSC.
After completing a review of the report to determine whether its findings “appear
reasonable” and contain certain required information, the Special Counsel is required to
transmit the report, any comments and recommendations, and any comments from the
complainant, to the President and to the congressional committees with jurisdiction over
the agency.




                                              2

occurred at two other BOP institutions, the Federal Correctional Institutions
(FCI) in Elkton, Ohio and Texarkana, Texas, where UNICOR processed
computer monitors and televisions.

        The BOP provided an addendum to its report in August 2005 advising
OSC that it had instituted disciplinary action against three BOP employees
for failing to take adequate safety precautions and had retained a contractor
to perform assessments at UNICOR’s recycling factories to ensure that they
meet relevant safety and environmental standards.

      After reviewing the BOP’s report, Smith disputed its findings and
provided OSC with documentary evidence to support his claims. Smith
asserted to OSC that BOP investigators failed to interview witnesses with
relevant information and that “FPI officials knowingly and willfully violated
OSHA guidelines” and that BOP’s investigation “was not impartial or
comprehensive.”

       In a letter dated April 3, 2006, to the Director of the BOP, OSC stated
that it had reviewed the BOP’s reports and Smith’s comments and had
determined that the BOP’s findings were “unreasonable” and “inconsistent”
with the documentary evidence provided by Smith. In particular, OSC
stated that the BOP’s reports made little effort to explain why the
documentary evidence furnished by Smith was unreliable or how it could be
reconciled with the conclusions of the BOP investigation. OSC also asserted
that the BOP conducted an investigation at institutions other than USP
Atwater that “appears to have been cursory at best,” and that offered
“strained interpretations of applicable rules and procedures in order to
justify past actions . . . .” OSC concluded that UNICOR and BOP managers
“recklessly, and in some cases knowingly, exposed inmates and staff to
unsafe levels of lead, cadmium, and other hazardous materials over a period
of years.” OSC also stated that it believed that an independent investigation
into UNICOR’s e-waste recycling activities was still required.

      After receipt of the OSC’s letter, the Director of the BOP requested
that DOJ seek an OIG investigation into UNICOR’s e-waste recycling
practices. In April 2006, attorneys for Smith also wrote to the OIG
requesting an investigation into Smith’s allegations against the BOP and
UNICOR.

       In May 2006, the OIG opened an investigation into this matter.


III.   Methodology of the Investigation

      We evaluated e-waste recycling at 10 BOP institutions. During our
investigation, UNICOR performed recycling at USP Atwater, FCI Ft. Dix, FCI
Elkton, USP Leavenworth, USP Lewisburg, FCI Marianna, FCI Texarkana,


                                      3

and Federal Correctional Complex (FCC) Tucson.14 The remaining two
institutions (FCI Dublin and FCI La Tuna) stopped recycling before our field
work began. UNICOR also suspended its recycling operations at FCI Elkton
in 2008 after we found extensive cadmium and lead contamination in
recycling areas there.

      We conducted more than 200 interviews, including of UNICOR Chief
Operating Officers, the BOP Assistant Director for the Health Services
Division, BOP National Safety Administrators, UNICOR factory managers
and foremen, local Safety Managers, and inmates. We also reviewed more
than 10,000 documents, examined numerous BOP and UNICOR e-mail
accounts, and performed forensic examinations on hard drives and laptop
computers of certain UNICOR personnel.

       The OIG also conducted extensive field work at UNICOR’s e-waste
recycling factories with the assistance of other federal agencies. After
opening its investigation, the OIG requested in May 2006 that OSHA, FOH,
and NIOSH participate on a team of health and safety professionals led by
the OIG (the OIG “technical team”) to collect data, analyze health and safety
issues concerning UNICOR’s recycling operations, and provide
recommendations for improvements to those operations. Each agency
agreed to assist the OIG with its investigation.

      OSHA assessed UNICOR’s existing recycling conditions for compliance
with OSHA safety and health regulations, and provided guidance on the
interpretation of OSHA regulations and enforcement policies. FOH
evaluated workplace exposures to toxic metals from the start of UNICOR’s e-
waste recycling operations in 1997 through 2009 and supplemented OSHA’s
evaluation of current exposure and safety conditions.15

       NIOSH provided technical assistance to FOH, such as laboratory
services, and peer reviewed all FOH work products. Additionally, NIOSH’s
Division of Applied Research and Technology (DART) helped assess existing
exposures of staff and inmates to toxic metals at UNICOR’s recycling
factories and evaluated heat stress and noise issues. NIOSH’s Division of
Surveillance, Hazard Evaluations, and Field Studies examined medical and


        14 A Federal Correctional Complex includes multiple BOP institutions at one

location, such as a high security prison with other lower security institutions.
       15 As used in this report the term “exposure” refers to the airborne concentration of
a contaminant (e.g., cadmium or lead) that is measured in the breathing zone of a worker
but outside of any respiratory protection devices used. Unless otherwise noted, “exposure”
should not be confused with the ingestion, inhalation, absorption, or other bodily uptake of
a contaminant. Concentrations reported and discussed in this report are not adjusted
based on respirator protection factors.




                                             4

industrial hygiene issues related to toxic metal exposures, including
historical exposures.

       FOH and NIOSH-DART made their first site visit to a BOP institution
in November 2006. That visit, to FCI Elkton in Ohio, was followed by
multiple inspections by FOH, NIOSH, and OSHA to UNICOR’s e-waste
recycling factories with ongoing operations. The OIG technical team visited
six of the institutions at least three times. FCI Elkton received seven visits,
the most of all the institutions.

      By mid-2007, FOH had received testing results from field work at FCI
Elkton, completed at least a preliminary site visit at six other institutions,
and obtained the findings from a preliminary medical review. Based on
information obtained from its site visits, FOH recommended that the OIG’s
investigation include a full medical review of the BOP’s medical surveillance
practices and staff and inmate medical records.

        The testing results from FCI Elkton led FOH to issue an interim report
to the OIG in November 2007 about exposure conditions at that
institution.16 In its report, FOH stated that significant contamination from
cadmium and lead had been found at various recycling locations at FCI
Elkton and that personal exposures of workers to those toxic metals likely
occurred in the past. FOH recommended that BOP develop a remediation
plan to abate the contamination. FOH and NIOSH also noted hazards
associated with the cleaning and replacement of local exhaust ventilation
filters and cleaning in areas where computer monitor glass breaking
activities occurred. The exposures recorded during filter-related operations
were so high that they exceeded the protection factor provided by the
inmates’ respirators that were in use during the maintenance operations.
FOH also expressed concerns to the OIG about potential toxic metals
exposures at other institutions, including FCI Texarkana.

       In light of the preliminary findings from the study of toxic metal
exposure conditions in UNICOR’s e-waste factories and FOH’s conclusions
regarding the need for a medical review, the OIG sought NIOSH’s assistance
in forming a medical team to evaluate whether staff and inmates were at
risk of harm from exposures to toxic metals from UNICOR’s e-waste
recycling operations. NIOSH assigned personnel to this work in December
2007 from its Division of Surveillance, Hazard Evaluations, and Field
Studies’s Hazard Evaluations and Technical Assistance Branch (HETAB),
including an experienced Occupational Physician. Representatives of the
NIOSH medical team visited four BOP institutions (FCIs Elkton, Texarkana,

        16 FOH issued another interim report in September 2007 which addressed heat

stress conditions at FCI Marianna.




                                           5

and Marianna, and USP Atwater) which had documented staff and inmate
exposures to toxic metals or had significant numbers of health-related
complaints from recycling staff.

      The OIG also sought assistance from the EPA starting in 2007 after
FOH and NIOSH site inspections revealed potential violations of
environmental regulations. At the request of the OIG, EPA conducted
inspections at FCI Elkton in 2007 and FCI Texarkana in 2008.

      The agencies’ field work concluded in February 2009 when NIOSH
performed its last site visit, which was conducted at FCI Marianna in
Marianna, Florida. The OIG also visited FCI Elkton in December 2009 to
examine the results of a remediation of UNICOR recycling areas that were
previously contaminated with cadmium and lead.

       At the conclusion of their site visits to BOP institutions, the federal
agencies provided written reports to the OIG about their work. To
consolidate this information, the OIG requested that FOH compile and
analyze the technical team’s findings, as well as information from OIG
interviews and documents; address any discrepancies; and provide the OIG
with comprehensive health, safety, and environmental reports on conditions
from 2003 to present for each of the eight UNICOR e-waste recycling
factories that had ongoing operations during the OIG’s investigation. These
reports were peer reviewed by OSHA and NIOSH, and are found on the
OIG’s website. See http://www.justice.gov/oig/reports/BOP/index.htm.
FOH submitted the last of its eight comprehensive reports to the OIG in May
2010. The OIG promptly shared all such reports it received with the BOP
and UNICOR.

      In addition, in June 2009 the OIG convened a meeting in Washington,
D.C. at which representatives of FOH, NIOSH, OSHA, and the EPA
discussed their preliminary conclusions with the BOP and UNICOR.
Following the meeting, BOP and UNICOR provided written comments on the
agencies’ technical reports. After considering UNICOR’s comments, FOH
made revisions as appropriate to its comprehensive reports.

      This report summarizes the findings of the OIG and the technical
team. It addresses toxic metal exposure conditions from 2003 through
2009 and, based on assessments performed by FOH and NIOSH-HETAB,
presents conclusions regarding historical exposures prior to 2003. In
addition to summarizing the technical findings, this report also includes the
OIG’s examination of allegations of misconduct and performance failures by
UNICOR and BOP staff.17 The report further identifies numerous

        Our investigation also resulted in criminal referrals. In July 2010, a former
       17

UNICOR Factory Manager, James Bailey, and his cousin, Lee Temples, were indicted for
                                                                                   (Cont’d.)


                                             6

management problems related to UNICOR’s and the BOP’s handling of
health, safety, and environmental protection issues in the e-waste recycling
program.

       The information presented in this report takes into account UNICOR’s
comments on the agencies’ reports. The OIG provided a draft of this report
to the BOP, UNICOR, and DOJ for any comments on the report’s factual
accuracy.


IV.    Organization of this Report

      Chapter Two of this report provides background information about
UNICOR, UNICOR’s e-waste recycling program, and the hazards associated
with e-waste. It also describes relevant industrial hygiene and
environmental laws, regulations, and policies that apply to UNICOR’s e-
waste recycling program, and how oversight of UNICOR’s operations is
provided.

       Chapter Three describes the development of UNICOR’s e-waste
recycling program from its inception as a pilot project in 1996 through
2009. Due to the special hazards associated with processing glass from
CRTs, we describe in detail UNICOR’s decisions regarding the handling of
such glass and the events at USP Atwater that gave rise to Safety Manager
Smith’s allegations against UNICOR and the BOP. This chapter devotes
significant attention to the improvements that UNICOR began to institute
starting in 2003 in response to events at USP Atwater and the attention that
UNICOR’s e-waste recycling practices received in the media.

      Chapter Four presents the findings of the OIG’s health, safety, and
environmental compliance investigation. It describes toxic metal exposure
findings that are relevant to all UNICOR e-waste recycling operations,
including an assessment of pre-2003 exposure conditions. It also describes


conflict of interest, wire fraud, money laundering, and conspiracy, among other charges.
According to the indictment, Bailey was responsible for eBay sales of surplus computer
equipment for UNICOR. While Bailey was with UNICOR, Temples became its sole eBay
contractor and was responsible for selling recycled UNICOR computers and equipment from
the UNICOR factory in Marianna, Florida. Bailey allegedly held a financial interest in
Temples’s business, directed the highest quality equipment to Temples, and took steps to
eliminate potential competition from other UNICOR contractors. On September 1, 2010,
Temples pled guilty to conflict of interest, money laundering, wire fraud, deprivation of
honest services, and obstruction of justice charges. On September 30, 2010, Bailey pled
guilty to conflict of interest, money laundering, wire fraud, deprivation of honest services,
and false statement charges.




                                             7

NIOSH-HETAB’s medical findings; problems with inmate injuries; hazards,
such as heat stress; and environmental compliance issues.

       Chapter Five evaluates the numerous management deficiencies that
the OIG and the technical team found with UNICOR’s operations and the
BOP’s and DOJ’s oversight of them. It also discusses the misconduct and
performance failures of BOP and UNICOR staff that we identified during our
investigation. We found that 11 staff members, including senior leadership
of the Recycling Business Group, committed misconduct or performance
failures.

      Chapter Six presents our conclusions about the role of safety in the
development of UNICOR’s e-waste recycling program; UNICOR’s compliance
with applicable health, safety, and environmental laws, regulations, and
BOP policies; the ramifications of the toxic metal exposures identified in this
report on staff and inmate health; and the lack of adequate oversight of
UNICOR’s operations. The chapter also includes recommendations designed
to address the problems and deficiencies identified during our investigation,
and it contains our analysis of UNICOR’s efforts to implement the
recommendations found in the institution reports from the federal agencies
that assisted the OIG.




                                      8

                                   CHAPTER TWO 

                                   BACKGROUND

      This chapter describes UNICOR’s organization and functions; hazards
associated with e-waste; UNICOR’s Recycling Business Group and its e-
waste operations; oversight of these operations by UNICOR, the BOP, and
DOJ; and the health, safety, and environmental regulations and policies
that apply to UNICOR’s e-waste program.


I.     Organization and Functions of UNICOR

       UNICOR is a government corporation within the BOP that was created
by Congress in 1934 to provide employment and training for federal
inmates.18 UNICOR is a “for profit” corporation and does not use taxpayer
funding to pay for its operations. According to the BOP, UNICOR seeks to
promote inmate rehabilitation, acquisition of job skills, and financial
responsibility, and generally contributes to institution security by reducing
inmate idleness.19 UNICOR operates under the control of a Board of
Directors whose members are appointed by the President and individually
represent agriculture, industry, labor, retailers and consumers, the Attorney
General, and the Secretary of Defense. The Director of the BOP is UNICOR’s
Chief Executive Officer and a BOP Assistant Director oversees day-to-day
activities and functions as Chief Operating Officer. Harley Lappin is the
Director of the Bureau of Prisons. Steve Schwalb was UNICOR’s Chief
Operating Officer from 1993 to 2007, when he was succeeded by Paul Laird
who currently serves in that position.20

      UNICOR has a headquarters located in Washington, D.C., and as of
June 2010 had 103 factories located at 73 BOP institutions. UNICOR also
has a Product Support Center (PSC) in Englewood, Colorado that performs
product development and evaluation services, and a customer service center
in Lexington, Kentucky.

      In fiscal year 2009, UNICOR operated seven business groups:
Clothing and Textiles, Electronics, Fleet Management and Vehicular

       18 A detailed history of UNICOR is found in Factories with Fences: The History of
Federal Prison Industries, printed by Federal Prison Industries, Inc. (1996) and available at:
http://www.unicor.gov/information/publications/showpub.cfm?pubid=57.
       19   Id. at 10-11.
       20Except for senior UNICOR and BOP executives and Safety Manager Smith, the
names used in this report are pseudonyms. We have provided their real names to UNICOR
and DOJ.




                                              9

Components, Industrial Products, Office Furniture, Recycling, and Services.
It employed approximately 19,000 inmates and generated total revenues of
roughly $1 billion.

       Federal inmates are not required by the BOP to work for UNICOR. As
of September 30, 2009, 16 percent of work-eligible federal inmates were
employed by UNICOR. Due to higher inmate wages in comparison to those
offered by the BOP for regular BOP jobs, UNICOR typically has wait lists of
inmates for each available position.

      According to UNICOR’s 2008 Annual Report, UNICOR “supports a
commitment to sound environmental leadership” and the safety of its
workers. The Report states that UNICOR “strives to become a ‘green
enterprise’ – minimizing negative environmental impact, complying with all
applicable regulations concerning safety and health conditions for both
inmates and staff, and reducing landfill and hazardous waste generation.”


II.    E-Waste

       Each year millions of used electronic items in the United States
become obsolete. The EPA recently estimated that more than 200 million
computer products, 140 million cell phones, and nearly 27 million
televisions are taken out of service annually in the United States.21 Of these
totals, less than 20 percent were recycled. In 2007, the EPA estimated that
more than 2.5 million tons of consumer electronics were discarded in the
United States and were placed in municipal waste streams, of which more
than half ended up in landfills.22 The EPA also has found that
approximately 70 percent of the toxic metals, such as lead, in municipal
solid waste landfills came from discarded electronic items.23 Some states
have banned certain electronics from their landfills, including CRTs.

      Chemicals contained in e-waste can be harmful to humans and to the
environment. Different toxic materials are associated with the various
individual components found in electronic equipment. A personal
computer, for example, is composed of plastic casing, circuit boards, a
central processing unit (CPU), a monitor, and a keyboard, among other

       21 U.S. Environmental Protection Agency, Electronic Waste Management in the
United States, Approach 1, EPA-530-R-08-009 (July 2008).
      22 U.S. Environmental Protection Agency Office of Solid Waste, Municipal Solid

Waste Generation, Recycling, and Disposal in the United States: Facts and Figures for 2006,
EPA-530-F-07-030 (November 2007), 5306.
       23  U.S. Environmental Protection Agency Office of Inspector General, Multiple
Actions Taken to Address Electronic Waste, But EPA Needs to Provide Clear National
Direction, Report No. 2004-P-00028 (September 2004).




                                            10 

components. Various peripheral devices also can be added, including
printers and external hard drives. As indicated in the table below, several
toxic metals are present in the components used to manufacture this
equipment.

                                TABLE 2.1 

                  Toxic Metals in Computer Components 



         Computer Component                       Toxic Metals
      Disk Drives                     Nickel, Cobalt
                                      Lead, Barium and Cadmium
      CRT Glass
                                      Coatings, Vanadium, Yttrium
                                      Lead, Mercury, Beryllium,
      Circuit Boards
                                      Cadmium
      Semiconductors                  Gallium, Cadmium

      Steel Housing                   Nickel, Chromium
      Connectors                      Beryllium
      Ni-Cad Batteries                Nickel, Cadmium
      Wiring                          Copper
      Switches                        Mercury
      Plastic                         Brominated Flame Retardants

       CRTs present special health and environmental problems.
Televisions, computer monitors, and other electronic devices contain CRTs,
which typically have between two to five pounds of lead. Florida, for
example, has estimated that more than 40 percent of the lead in its
municipal solid waste stream comes from CRTs in computer monitors and
televisions.

      An illustration of a CRT, which includes the front “panel glass” or
faceplate, funnel glass, a frit that is made of glass solder that joins the panel
and funnel glass, and an electron gun, appears below.




                                       11 

                          DIAGRAM 2.1 

                  Cathode Ray Tube Components 





                                                 Frit




Source: Maxfield, Clive and Brown, Alvin, “DIY Calculator: The origin of the
Computer Console/ Display/Screen/Monitor,”
http://www.diycalculator.com/sp-console.shtml (accessed July 30, 2008);
and ICER, New Approach to Cathode Ray Tube (CRT) Recycling, Report
prepared for DTI, GW-12.10-130 (2003).




                                     12 

      Approximately 75 percent of the frit, 25 percent of the funnel glass,
and 3 percent of the panel glass in a CRT is made up of lead. In addition,
coatings typically are applied to the panel glass, which can include
cadmium, especially in older CRTs.

      Cadmium and lead are both toxic to humans. According to the
Centers for Disease Control and Prevention, lead can affect nearly every
system in the body. Exposure to lead may result in damage to the kidneys,
anemia, high blood pressure, and infertility. Studies have also shown
impacts on renal function and cognition at low levels of concentration in the
blood. Symptoms of chronic lead poisoning include headache, joint and
muscle aches, weakness, fatigue, irritability, and depression. Long-term
exposure effects of cadmium may include loss of the sense of smell,
ulceration of the nose, emphysema, kidney damage, and an increased risk
of cancer of the lung, and possibly of the prostate.


III.   Overview of UNICOR’s E-Waste Recycling Program

       A.   The Recycling Business Group

        UNICOR’s Recycling Business Group, formerly known as the
Recycling Electronics Products and Services Group, is one of seven business
groups within UNICOR. Although UNICOR started e-waste recycling in
1997, it did not establish a separate business group for its recycling
operations until September 2000. According to the Recycling Business
Group’s first strategic plan, the mission of the group is: “to employ as many
inmates as practicable in recycling activities, while being cognizant of
community and environmental concerns related to such activities.”
According to the strategic plan, UNICOR sought to become “the premier
electronics recycler in the United States,” and to “meet the letter and spirit
of all federal, state, and local environmental laws and regulations . . . .”

      Prior to the establishment of a separate business group for recycling
in 2000, a UNICOR Program Manager, Pauline Quinn, administered the e-
waste program from UNICOR Headquarters. In 2000, Lawrence Novicky
assumed Quinn’s duties and later became the first General Manager of the
Recycling Business Group, a position Novicky held until 2009. Novicky
previously held several different positions with UNICOR, which he joined in
1983. Novicky was succeeded by Robert Tonetti, a longtime EPA scientist
with extensive knowledge of e-waste recycling practices. In later years,
UNICOR added additional Program Managers and support personnel to its
Headquarters office.

     Within BOP institutions, UNICOR typically has a Superintendent of
Industries or Associate Warden and a Factory Manager or Production


                                     13 

Controller to oversee recycling operations. They are assisted by Recycling
Technicians who oversee the work of inmates. UNICOR also has assigned a
limited number of Industrial Specialists to its e-waste factories who provide
assistance and guidance on marketing and production issues.

      The following chart shows the organization of UNICOR and the BOP
with reference to the Recycling Business Group.

                                CHART 2.1




                                     14 

      A chart of key UNICOR and Recycling Business Group managers, and their dates of service, appears
below:

                                               CHART 2.2




                                                   15 

       Between 1997 and 2009, UNICOR operated e-waste recycling factories at
ten BOP institutions, of which seven performed computer monitor disassembly
and glass breaking. UNICOR presently has seven recycling factories as well as
collection centers in five locations. A map showing the location of UNICOR’s e-
waste operations appears below:

                             DIAGRAM 2.2
      Locations of UNICOR E-Waste Factories and Collection Centers


                              UNICOR RECYCLING FACTORIES
        SHERIDAN USP LEAVENWORTH                                                              FCI FT. DIX
                                                                       FCI ELKTON

                          ENGLEWOOD
        FCI DUBLIN

                                                                           USP LEWISBURG
                                                                                                LANDOVER
                                    FCI LA TUNA
          USP ATWATER
                                                                                                    ATLANTA
        FCC TUCSON                                                                                      MIAMI
                                    FCI TEXARKANA                           FCI MARIANNA
         LEGEND
         Factories Currently Active; Factories No Longer Recycling; Factories that Recycled Glass Collection Centers



      The number of inmates employed at UNICOR’s e-waste factories has
fluctuated from less than 100 inmates prior to 2000, to over 1,000 inmates in
2006. UNICOR’s largest e-waste factories were located at FCIs Elkton and
Marianna, and USP Atwater. In some years, UNICOR processed more than 40
million pounds of e-waste. The charts below identify inmate employment and
the volume of materials received by the Recycling Business Group.




                                                            16 

                                                      CHART 2.3 


                                Number of Inmates Employed by the RBG from 2000 to 2009
                  1200




                  1000




                   800



      Number       600
     of Inmates


                   400




                   200




                     0
                            2000     2001    2002     2003      2004   2005   2006     2007      2008   2009



                                                      CHART 2.4 


             50
                                   E‐Waste Received  by the RBG from 2002 to 2009


             45




             40



    Millions
   of Pounds 35
   of E‐Waste

             30




             25




             20

                         2002        2003      2004          2005      2006     2007          2008      2009


      Revenues for the Recycling Business Group declined in 2009, due in
large part to falling commodity prices for metals such as copper. As a result,
UNICOR has suspended e-waste operations at one of its factories and reduced
inmate employment. As of June 2010, nearly 1,000 inmates were employed in
UNICOR e-waste factories.



                                                             17 

       B.     UNICOR’s E-Waste Recycling Operations

       UNICOR’s e-waste recycling operations typically involved four work
procedures: receiving and sorting, disassembly, glass breaking operations, and
packaging and shipping. UNICOR also performs cleaning and maintenance in
support of these processes. UNICOR suspended glass breaking operations at
all factories in May 2009 after the Recycling Business Group determined that
these operations were not economical.

       The recycling work often occurs in different buildings within the same
UNICOR factory location, and the physical layout of these areas varies by
institution. Most UNICOR e-waste factories consist of two facilities – a
warehouse located outside the perimeter fence of the main prison compound
where e-waste is received and sorted by inmates, and a recycling facility inside
the main prison where the majority of recycling operations, such as
disassembly, are performed. Limited disassembly work sometimes is done in
UNICOR warehouses. Other factories consist of a single building located at a
prison camp that houses a loading dock, warehouse, and recycling sections.
Certain activities, such as compacting plastic and other materials also are
conducted outdoors at some factories.

       Below we describe common characteristics in UNICOR’s e-waste work
procedures. We present this information as “typical” of UNICOR work
processes, although we identified many significant health and safety
differences between factories and often found that many functions, such as
design of glass booths and selection of personal protective equipment, were not
standardized. We also describe common physical features in UNICOR’s
factories that affected worker health and safety, such as ventilation systems.

              1.     Receiving and Sorting

      UNICOR obtains e-waste for recycling from various suppliers, including
federal agencies, local governments and schools, community collection drives,
and private industry. One of UNICOR’s largest suppliers of e-waste has been
the U.S. Department of Defense (DOD), working through its agency that
handles excess DOD property – the Defense Reutilization and Marketing
Service (DRMS).

       UNICOR received e-waste at its recycling factories at warehouses or
factory loading docks where it was sorted by inmates and inspected for
contraband.24 Monitors and other items that contain CRTs, such as
televisions, were separated, along with computer central processing units,


       24 UNICOR also operates five recycling centers where e-waste is collected for shipment

to UNICOR recycling factories.




                                             18 

servers, and similar devices. At some warehouse locations, electronic memory
devices such as hard drives were removed and demagnetized or shredded.
Inmates also segregated printers, copy machines, and any device that could
potentially contain toner or ink, which were removed before sending the
equipment for disassembly. Some items were also refurbished and prepared
for resale.

       In the past, monitors were sent to UNICOR glass processing areas for
disassembly and breakage of the CRT. As noted above, UNICOR halted its
glass breaking operations in May 2009. Currently, inmates disassemble the
monitors by removing the plastic casing and loading the bare CRTs on pallets
for shipment to one of two firms that have contracts with UNICOR to take the
tubes.

      Due to the large volumes of e-waste that UNICOR’s factories often
received, it was frequently necessary to store the e-waste at warehouses,
loading docks, or inside tractor trailers until space was available within the
disassembly facilities. A photograph of a UNICOR e-waste warehouse appears
below:

                            PHOTOGRAPH 2.1 

                   E-Waste Warehouse, FCI Elkton, 2007 





                                      19 

            2.     Disassembly

       In the disassembly process, inmates removed external cabinets, usually
plastic or metal, from all devices and segregated the materials by type.
Inmates conducted these activities using hand, electric, and pneumatic tools,
and placed the various parts and materials into collection bins. Work tasks
included removing screws and other fasteners from cabinets, unplugging and
clipping electrical cables, removing circuit boards, and using other methods to
break the equipment into its component parts. Valuable items such as copper
wiring and aluminum framing were sorted into separate containers, as were
circuit boards or chips that possibly contained precious metals such as gold or
silver. With some exceptions, each of the inmate workers in the factory
performed all tasks associated with the disassembly of a piece of equipment.
UNICOR sold essentially all components for some type of additional recycling.

      A photograph of a UNICOR disassembly area appears below:

                              PHOTOGRAPH 2.2 

                 E-Waste Disassembly Area, FCC Tucson, 2007 





      UNICOR’s ventilation systems for disassembly areas varied by type and
quality. Factory ventilation was a factor that affected the airborne suspension
and distribution of cadmium and lead bearing dust, as well as other potential
hazards such as heat stress. Depending on the factory, ventilation consisted of
general forced air ventilation provided by heating, ventilating, and air


                                      20 

conditioning (HVAC) systems; swamp coolers; passive ventilation from
windows, doors, and bay doors; and use of various types of fans, especially in
non-air conditioned areas. In recent years, UNICOR upgraded its ventilation
systems by installing HVAC systems in several, but not all, factories.

            3.    Glass Breaking Operations

      UNICOR’s glass breaking operations involved inmates manually breaking
CRT glass into smaller pieces using hammers. At one institution inmates
broke the CRTs for a brief period by smashing them on hard objects, such as
the bottoms of storage containers.

       UNICOR started glass breaking at various factories between 1998 and
2005 but discontinued these operations in May 2009 for economic reasons.
Our investigation determined that substantial amounts of cadmium and lead
containing dusts were generated from this work. A photograph of a dust plume
resulting from an inmate striking a CRT appears below:

                           PHOTOGRAPH 2.3 

   Dust from Striking a Computer Monitor, UNICOR E-Waste Recycling 

                               Factory 





      Prior to approximately June 2003, UNICOR conducted glass breaking in
various areas, including warehouses, loading docks, factories, and a barn.
During this period, UNICOR used few and ineffective measures to control
exposures to toxic metals. UNICOR generally did not use containment systems
or high-efficiency exhaust ventilation systems (an engineering control to
capture metal-containing dust emissions), or it used makeshift systems that
were poorly designed and constructed.

     After approximately June 2003, and during the OIG investigation,
UNICOR’s glass breaking operations were conducted only in glass breaking


                                      21 

booths (enclosed areas or small rooms) that isolated the glass breaking
operation from other factory activities. UNICOR equipped these containment
systems with local exhaust ventilation that served to draw metal dust
emissions away from the breathing zone of workers and into filtration systems
that removed the dust from the air.

       However, UNICOR’s glass breaking booths varied in design by factory.
By 2005, a typical glass breaking booth was approximately 200 to 250 square
feet in size with some combination of solid walls and walls constructed of
plastic sheeting. One wall, or part of a wall, was generally constructed of
plastic strip curtains to allow movement of personnel and material into and out
of the booth. The exhaust ventilation system drew air away from the glass
breaking work station and through a high-efficiency filtration system that
removed cadmium and lead bearing particulates. At most factories, the
exhausted air was then recirculated back to the glass breaking booth after
high-efficiency filtration. However, this recirculation process was not
recommended by FOH or NIOSH-DART because it did not achieve a “negative
pressure” condition relative to the general factory area housing the booth.
Negative pressure prevents cadmium and lead emissions in the booth from
migrating outside the booth.

      A photograph of a UNICOR glass booth appears below:

                            PHOTOGRAPH 2.4 

                Glass Breaking Booth, USP Lewisburg, 2008 





       Individual factories applied many variations to the configuration
described above, including the type and quality of the high-efficiency exhaust
ventilation system and the configuration of the glass breaking booth.




                                      22 

      UNICOR’s transition areas between its glass breaking booths and
disassembly areas varied widely.25 For example, the glass breaking booth at
FCI Marianna did not have any type of transition or decontamination area.
Inmates stored respirators and “clean” protective clothing in lockers adjacent to
the glass breaking area, which exposed the clean protective clothing to
contamination. Conversely in recent years, FCI Texarkana had a 7-zone glass
breaking area that included a decontamination area and separate clean locker
and storage areas. The differences in approach between these factories
resulted from local factory initiatives. UNICOR did not design and implement
an acceptable and uniform approach for its factories’ glass breaking booths
and transition areas.

       A diagram of FCI Texarkana’s glass breaking area appears below:




       25  In general, the transition area between a hazardous materials work area and a
standard occupied work area normally involves a 3-stage design that allows for workers to put
on and remove protective clothing in separate areas and to decontaminate protective and other
equipment within a contained space to prevent carry out of contamination. This type of design
also provides for appropriate separation and storage of contaminated materials and clean
materials, such as clothing and personal protective equipment, to prevent cross-contamination.
UNICOR did not use a consistent transition and decontamination configuration in its glass
breaking areas.




                                             23 

                             DIAGRAM 2.3 

           Glass Breaking Booth Diagram, FCI Texarkana, 2008 





       UNICOR’s work process for breaking glass involved glass breakers
working inside the containment area that were supported by glass feeders
generally working outside the booth. Inmate feeders (usually two) placed large
cardboard boxes containing CRTs in the area adjacent to the booth.
Periodically, they moved the boxes or individual CRTs through a strip curtain
wall or opening into the area where the breaking operation occurred. At some
factories, feeders placed the CRTs on manual roller-type conveyors to move
them toward the glass breakers. Feeders also removed gaylord, or pallet-sized,
boxes of broken glass from the booth. At some factories, inmates used forklifts
or other devices to remove boxes of broken glass. This movement of equipment
into and out of the booth area resulted in some dispersion of contaminants.

      A photograph of an inmate feeding CRTs to a glass breaker inside a glass
booth appears below:




                                      24 

                           PHOTOGRAPH 2.5 

           Inmate Feeding CRTs to Inmate Glass Breaker Inside 

              a Glass Breaking Booth, FCI Texarkana, 2008 





      When prepared to break glass, inmate glass breakers (usually two)
entered the change area adjacent to or associated with the booth, where they
put on protective equipment and then entered the glass breaking work area.
Glass breakers stood at each end of a rectangular grated work surface.
Exhaust hoods were located behind the breakers’ work stations and drew air
away from the workers. A plastic strip curtain partially separated the workers
from the CRT. Feeders placed or rolled the CRTs onto the grate, and the glass
breakers reached through the strip curtain and used a hammer to manually
shatter the CRT glass. One inmate broke funnel glass at one end of the grated
work station, and the other inmate broke panel glass at the other end. The
broken glass fell into gaylord boxes positioned below the grate.

      When the inmates finished breaking glass, they moved through any
transition areas to decontaminate their protective equipment and clothing,
remove their protective clothing, store respirators, and put on any regular work
clothing before returning to the general factory area. Staff members entered
the room only when there was no glass breaking underway to put away tools
and search the area for contraband. Otherwise staff observed the inmates in
the glass breaking booth through a window or plastic curtains.




                                      25 

              4.     Packaging and Shipping

      Following completion of disassembly activities, inmates placed
recyclables such as glass, plastics, and metals in containers and prepared
them for shipping. To facilitate packaging, inmates often compacted plastic
and metal materials using hydraulic baling equipment.

       UNICOR sells its e-waste, including items that have been refurbished, to
wholesale or retail vendors. In addition, UNICOR has marketing agreements
with persons who sell UNICOR’s e-waste on the Internet. Materials from
recycling, such as plastic, aluminum, and copper, are sold to brokers of those
materials. UNICOR currently delivers all CRTs to one of two private companies
for recycling or shipment to others recyclers.

      According to the current General Manager of the Recycling Business
Group, as with most e-waste, the majority of electronic material that is handled
by the Recycling Business Group eventually reaches international markets.26
UNICOR staff reported to the OIG that international shipping containers at
times were loaded with e-waste at UNICOR’s recycling factories.


IV.    Oversight of UNICOR’s Health, Safety, and Environmental Practices

       The BOP’s national Program Statement on “Occupational Health and
Environmental Safety” (Program Statement 1600.08, revised as
1600.09)(“National Safety Policy”), assigns responsibilities to institution Chief
Executive Officers, supervisors, and employees to ensure compliance with
applicable health, safety, and environmental requirements in BOP facilities. To
assist BOP and UNICOR staff with these duties, BOP health and safety
personnel at BOP Headquarters, regional offices, and correctional institutions
provide technical guidance and training. Routine compliance oversight
generally is limited to inspections performed by institution safety staff.

       In the following sections, we describe the duties and reporting hierarchy
for those employees and groups who assist in evaluating UNICOR’s regulatory
compliance performance. The first section describes the duties of the BOP
officials who work at BOP Headquarters in Washington, D.C. and at its six
regional offices around the country. The second section describes the duties of

         26 Due to the toxicity of the various metals that are found in e-waste, concerns also

have been raised about U.S. exports of e-waste to lesser developed countries. According to the
United Nations Environment Programme, e-waste is projected to reach nearly 50 million tons
annually and represents the world’s fastest growing waste stream, which developing countries
are ill-prepared to address. Open burning of e-waste, “backyard recycling,” and disposal to
surface waters are commonplace in many African and Asian countries.




                                              26 

a much larger group of officials who work inside the individual prisons,
including UNICOR’s sole Certified Industrial Hygienist. The third section
addresses the inspection activity of regulatory agencies as well as organizations
with contracts with UNICOR that call for onsite evaluation of UNICOR’s
recycling operations.

      A.     BOP Headquarters and Regional Office Oversight Duties

       Occupational safety and health-related programs within the BOP are
overseen at the national level by the BOP’s Health Services Division, which is
led by a BOP Assistant Director. The Health Services Division organizes the
delivery of medical, dental, and mental health services to BOP inmates, and it
coordinates the BOP’s national safety program, primarily through the
development and interpretation of national safety policies. The Health Services
Division Assistant Director supervises a National Safety Administrator, who
establishes and updates BOP policies related to occupational safety, fire
protection, and environmental regulations, and provides technical advice to
BOP Safety Managers when issues cannot be resolved at the institution or
regional levels.

      According to the BOP’s current National Safety Administrator, his office
has no supervisory or compliance oversight authority over the BOP’s prisons or
UNICOR factories. For example, the national safety staff does not typically
perform inspections to determine compliance with occupational safety and
health regulations, and does not otherwise regularly monitor institution
compliance performance.

       The Health Services Division also plays a significant role in setting the
BOP’s environmental policies and is coordinating efforts throughout the BOP to
implement environmental management procedures such as an Environmental
Management System (EMS) that federal agencies are required to establish.27
The Health Services Division is auditing institutions’ development of EMSs, and
is attempting to recruit environmental specialists to assist with this work. It
also participates in a “Central Office Environmental Task Force,” which
includes representatives from several BOP offices as well as UNICOR. The Task
Force reviews environmental requirements, discusses environmental best
management practices, and advises the Health Services Division Assistant
Director on compliance and other issues.



      27  Executive Orders 13148 and 13423 require federal agencies to establish
environmental management systems that create measurable environmental goals. Executive
Order 13423 requires that agency EMSs reflect the “elements and framework” found in the
International Organization for Standardization Environmental Management System standard,
ISO 14001:2004. That standard creates a “Plan, Do, Check, Act” management system model.




                                           27 

       In addition to its Headquarters safety personnel, the BOP has six
Regional Safety Administrators, each of whom reports to a BOP Regional
Director. Safety Administrators collect and evaluate information from
institution safety staff and provide technical assistance to institutions when
requested. Like the National Safety Administrator, Regional Safety
Administrators do not perform routine compliance inspections, although they
may assist institutions to prepare for audits, such as by the BOP’s Program
Review Division. According to the current National Safety Administrator,
regional safety staff function as “subject matter experts” and visit institutions
at their request or when authorized by the Regional Administrator.

      The BOP Program Review Division is responsible for periodically auditing
BOP programs. Program Review Division inspections typically are performed
every two to three years. We determined, however, that the guidelines that the
Program Review Division uses for its inspections do not address health, safety,
and environmental compliance issues in UNICOR operations. Although the
Program Review Division has inspection guidelines for UNICOR, they primarily
address inventory and accounting issues. Moreover, the Program Review
Division’s safety guidelines do not require inspectors to evaluate UNICOR
operations, though they may opt to do so. UNICOR safety inspections are not
mandatory under the Program Review Division’s current inspection protocols,
according to the Program Review Division’s Assistant Director.

      B.    Institution Oversight Duties

        According to the BOP’s National Safety Policy, each BOP institution’s
Chief Executive Officer – usually a Warden – is ultimately responsible for
ensuring the institution’s compliance with applicable health, safety, and
environmental requirements. This includes any UNICOR operations. Each
facility has a Safety Manager who is responsible for advising the Warden about
safety matters, including occupational safety and environmental compliance
issues. At some larger prisons, Safety Managers have one or more staff
members to help them with their duties, which include performing monthly
inspections, responding to inquiries from BOP and UNICOR staff, and
providing training. Safety Managers typically report to an Associate Warden.

       Safety inspection results typically are memorialized in a memorandum to
institution managers, including the Warden, with repeat violations highlighted.
These results also may be addressed at meetings of institution “safety
committees,” which include various managers and union representatives who
meet at specified intervals to review issues as diverse as pest control and
accidents.

      The qualifications of BOP safety staff vary. All have completed at least
some specialized training on occupational safety and health issues, including a
“basic training” curriculum followed by a series of courses on assorted topics.


                                        28 

In addition, some Safety Managers have college degrees in industrial hygiene-
related fields.

       UNICOR managers who supervise inmates, such as Factory Managers,
are responsible under BOP policies and OSHA regulations for ensuring that the
inmates use safe work methods, receive warnings about any hazardous
materials that they work with, and wear appropriate personal protective
equipment. Institution safety staff are responsible for providing guidance and
training on these issues, and for inspecting UNICOR operations to ensure
compliance with regulatory and policy requirements.

       In addition to their routine supervisory powers, BOP safety staff
members are authorized under the National Safety Policy to stop any work that
poses an “imminent danger” to workers, which is defined as a danger that
could “reasonably and immediately be expected to cause death or serious
physical harm.” Program Statement 1600.09, Chapter 1, Section C. If safety
staff members stop work for that reason, it can be restarted only after the
Safety Manager’s re-inspection and written approval.

       The National Safety Administrator told us there are no written policies or
procedures that require UNICOR or BOP managers to disseminate safety
information – either good or bad – found at one institution to another
institution. Similarly, he said there is no national collection of injury or
industrial hygiene data that would permit safety staff to identify trends across
institutions.

      In 2007, UNICOR hired a Certified Industrial Hygienist to help improve
the compliance performance and safety of its factories.28 During the OIG’s
investigation, he was the only hygienist within UNICOR and the BOP, though
UNICOR currently is attempting to recruit another hygienist. As with the BOP
Headquarters and regional safety staff, UNICOR’s hygienist functions as a
technical consultant who responds to questions from UNICOR factories and
assists with inspections when requested.

       C.     External Audits and Inspections

       Inspections by regulatory agencies at UNICOR’s e-waste operations have
been infrequent. Although both OSHA and the EPA have the authority to
inspect BOP institutions, OSHA did not conduct on-site inspections at UNICOR
e-waste operations until 2004 and the EPA did not conduct any inspections
until 2007. At two e-waste factories – FCIs Texarkana and Marianna – we

       28Certified Industrial Hygienists are scientists who evaluate workplace conditions that
may cause worker illnesses or injuries. They use environmental monitoring and analytical
methods to detect worker exposures to occupational hazards, and employ engineering controls,
work practice controls, and other methods to limit potential health hazards.




                                             29 

found that no regulatory agencies had ever performed a compliance inspection
prior to the initiation of our investigation. By contrast, UNICOR’s e-waste
operations at FCI Ft. Dix were subject to regular inspections by the New Jersey
Department of Environmental Protection (NJDEP) once regulators there became
aware of UNICOR’s recycling activities.

        Accrediting agencies also inspect BOP facilities. The American
Correctional Association evaluates each federal prison approximately every
three years, including for compliance with health and safety standards, among
other things. The Joint Commission, formerly known as the Joint Commission
on the Accreditation of Health Organizations, also inspects BOP health care
facilities, including the delivery of various services such as mental health
treatment and chronic disease management.

      In addition, UNICOR’s contracts with some of its e-waste suppliers, such
as the Defense Reutilization and Marketing Service, authorized inspections of
e-waste factories.


V.    Health, Safety, and Environmental Requirements

      Numerous health, safety, and environmental laws and policies apply to
UNICOR’s e-waste operations. Below we describe various OSHA regulations,
environmental regulations, and BOP policies. We also describe requirements of
the National Fire Alarm Code.

      A.    OSHA Health and Safety Regulations

      We identified six general categories of OSHA health and safety
regulations that are relevant to our investigation: hazard communication,
personal protective equipment and respiratory protection, abatement of unsafe
or unhealthful working conditions in federal agencies, cadmium and lead
standards, noise, and “general duty” requirements. We also discuss OSHA
guidance regarding the identification of “willful violations,” and the status of
inmates as “employees” under OSHA’s regulations.

            1.    Hazard Communication

       OSHA’s hazard communication regulations require employers to notify
their employees of hazardous chemicals in their work areas, which is
accomplished in part through labeling, the provision of material safety data
sheets, and employee information and training. 29 C.F.R. § 1910.1200(h)(2)(ii).
The timing of the notification is important. OSHA requires employers to
provide their employees with “effective information and training on hazardous
chemicals in their work area at the time of their initial assignment, and
whenever a new physical or health hazard the employees have not previously



                                       30 

been trained about is introduced into their work area.” 29 C.F.R. §
1910.1200(h)(1).

            2.	   Personal Protective Equipment and Respiratory
                  Protection

       In addition to warning employees about chemical hazards, employers
must furnish necessary personal protective equipment (PPE) to them, including
respirators. To determine the PPE that is required, the employer must “assess
the workplace to determine if hazards are present, or are likely to be present,
which necessitate the use of [PPE].” 29 C.F.R. § 1910.132(d)(1). The employer
is also required to verify that a hazard assessment has been performed and to
execute a written certification that identifies the workplace evaluated. Id. at
(d)(2). If hazards are identified or likely to be present, the employer then must
select the PPE that will protect employees from the hazards, communicate the
selection decisions to each affected employee, and ensure that the employees
use the PPE. Id. at (d)(1).

       Employers must follow a similar process with respect to respiratory
protection. Under OSHA’s respiratory protection standard, the employer must
evaluate respiratory hazards in the workplace and select and provide an
appropriate respirator for the hazards that are identified. 29 C.F.R. § 1910.134
(d)(1). Prior to furnishing a required respirator to an employee, the employer
must provide a medical evaluation to determine the employee’s ability to use a
respirator. Id. at (e).

            3.	   Abatement of Unsafe or Unhealthful Working Conditions
                  in Federal Agencies

      OSHA regulations specify basic elements for federal agencies’
occupational safety and health programs, including responsibilities such as
inspections, training, and recordkeeping. 29 C.F.R. § 1960. Under these
regulations, agencies are required to ensure the prompt abatement of unsafe
and unhealthful working conditions. 29 C.F.R. § 1960.30(a).

            4.	   Cadmium and Lead Standards

       OSHA has established regulations governing the exposure that is allowed
to particular chemicals, including the toxic metals cadmium and lead. The
cadmium and lead standards specify numerous requirements that employers
must follow to limit employee exposures, such as implementation of hygiene
practices and the use of PPE. Many requirements in these standards are
triggered when the concentration of the metals in the air exceeds a specified
level.

      In order to regulate occupational exposures to air contaminants, and
physical hazards, such as noise, OSHA establishes permissible exposure limits


                                       31 

(PELs). PELs are generally specified as time-weighted average concentrations
that cannot be exceeded over an 8-hour work day. In addition to PELs, OSHA
establishes action levels that typically are approximately half of the PEL.
Exceeding a PEL requires more remedial measures, such as drafting a written
compliance program, while exceeding an action level requires a response such
as performing additional monitoring. The OSHA PELs for cadmium and lead
are 5 and 50 ug/m3 (micrograms per cubic meter) respectively, and 2.5 and 30
ug/m3 for the action levels.29

      Contaminants may also be found on surfaces. Federal standards or
other definitive criteria have not been developed for acceptable levels of
cadmium or lead surface contamination or dust concentrations in industrial
areas where activities are performed involving materials that contain cadmium
or lead. Several recommendations or guidelines, primarily for lead, provide
points of reference to subjectively evaluate the significance of surface
contamination, and range from 40 to 1,100 μg/ft2.30

      Both the cadmium and lead standards specify air exposure monitoring
requirements to determine if any employee “may be exposed” above the
applicable action level. 29 C.F.R. § 1910.1027(d)(1); 1910.1025(d)(1). Initial
monitoring is required under the cadmium standard unless the employer has
other monitoring results or objective data obtained in conditions that “closely
resemble those currently prevailing” in the workplace showing that “exposure

       29  As NIOSH has stated, compliance with occupational exposure limits is not a
guarantee against adverse health effects in all employees. According to NIOSH: “[N]ot all
workers will be protected from adverse health effects even if their exposures are maintained
below these levels. A small percentage may experience adverse health effects because of
individual susceptibility, a pre-existing medical condition, and/or a hypersensitivity (allergy).
In addition, some hazardous substances may act in combination with other workplace
exposures, the general environment, or with medications or personal habits of the worker to
produce adverse health effects even if the occupational exposures are controlled at the level set
by the exposure limit. Also, some substances can be absorbed by direct contact with the skin
and mucous membranes in addition to being inhaled, which contributes to the individual’s
overall exposure.” Attachment 3 to FOH’s comprehensive report on FCI Elkton’s e-waste
operations. See http://www.justice.gov/oig/reports/BOP/index.htm.
       30    For example, the Department of Housing and Urban Development has established
clean-up levels for lead on surfaces following lead abatement. These levels range from 40 to
800 μg/ft2 depending on the type of surface. Generally, these levels apply to occupied living
areas where children reside and are not limited to industrial operations. According to FOH,
recommended lead decontamination levels vary from 40 to 1,100 µg/ft. OSHA’s Compliance
Directive for the Interim Standard for Lead in Construction, CPL 2-2.58, recommends use of a
decontamination guideline of 200 ug/ft2 for evaluating the cleanliness of change areas, storage
facilities, and eating areas. We apply this guideline in discussions of wipe sample test results
in this report. Additional discussion of these guidance levels is contained in FOH’s
comprehensive report on FCI Elkton’s e-waste operations. See
http://www.justice.gov/oig/reports/BOP/index.htm.




                                               32 

to cadmium will not exceed the action level under the expected [work]
conditions.” 29 C.F.R. § 1910.1027(d)(2). The lead standard requires initial
monitoring in circumstances where “the possibility of any employee exposure at
or above the action level” is present. 29 C.F.R. § 1910.1025(d)(4).

      If exceedances of the cadmium or lead action level or PEL are found,
further monitoring must be conducted within at least 6 months. 29 C.F.R. §
1910.1027(d)(3); 1910.1025(d)(6). Under the cadmium standard, if the initial
monitoring does not reveal exposures above the action level, monitoring may be
discontinued provided that the results are confirmed by a second monitoring
taken at least seven days later. Id. Otherwise, monitoring is required semi­
annually.

      Changes in production, processes, or raw materials that “may result” in
additional exposures, or when the employer has reason to suspect that a
change might result in exposures, necessitate additional monitoring. 29 C.F.R.
§ 1910.1027(d)(4); 1910.1025(d)(7). Employees must be informed of the results
of any monitoring within 15 days after they are received by the employer. 29
C.F.R. § 1910.1027(d)(5); 1910.1025(d)(8).

      If monitoring identifies exceedances of the PEL, the employer is required
to implement engineering and work practice controls to reduce the exposures.
29 C.F.R. § 1910.1027(f)(1); 1910.1025(e)(1). In general and whenever feasible,
OSHA requires the use of engineering and work practice controls as the
primary means to correct overexposures, rather than through use of PPE or
respiratory protection. Rotation of employees is also not a permissible method
to achieve compliance. 29 C.F.R. § 1910.1027(f)(5). Where the PEL is
exceeded, the employer must establish and implement a written compliance
program. 29 C.F.R. § 1910.1027(f)(2); 1910.1025(e)(3).

       The cadmium standard further requires employers to establish
designated “regulated areas” wherever an employee’s exposure to airborne
concentrations of cadmium is or can reasonably be expected to be in excess of
the PEL. 29 C.F.R. § 1910.1027(e). The areas must be demarcated from the
rest of the workplace in a way that alerts employees to their boundaries, and
employees who enter the areas must be provided respirators and prohibited
from eating, drinking, or applying cosmetics. Lunchroom facilities also must
be readily accessible to employees, and tables for eating must be “maintained
free of cadmium.” 29 C.F.R. § 1910.1027(j)(4)(i).

      If monitoring shows exceedances of the PEL, the employer is required to
provide, at no cost to the employee, appropriate PPE, such as respirators,
coveralls, gloves, head coverings, boots, and face shields. 29 C.F.R. §
1910.1027(g) and (i); 1910.1025(f) and (g). Removal of contaminated clothing
at the completion of the work shift must occur in designated “change rooms,”
and the employer must ensure that clothing contaminated with cadmium is


                                      33 

placed in impermeable bags or containers that prevent dispersion of cadmium
dust. 29 C.F.R. § 1910.1027(i)(2). Employers further are required to prohibit
the removal of cadmium or lead from protective clothing or equipment by
blowing, shaking or other means that disperses the contaminated dust into the
air. 29 C.F.R. § 1910.1027(i)(3); 1910.1025(g)(2)(viii).

      The cadmium and lead standards also specify housekeeping
requirements. Employers are required to maintain all surfaces “as free as
practicable” of accumulations of cadmium and lead. 29 C.F.R. § 1910.1027(k);
1910.1025(h). Surfaces where these metals are found cannot be cleaned with
compressed air, and dry sweeping may be used only where vacuuming has
been tried and found not to be effective. 29 C.F.R. § 1910.1027(k)(6);
1910.1025(h)(2).

        Medical surveillance is required under the cadmium and lead standards
for all employees who are or may be exposed at or above the action level for 30
or more days per year for cadmium, and for more than 30 days per year for
lead. 29 C.F.R. § 1910.1027(l)(1);1910.1025(j)(1). Medical examinations and
biological monitoring are required under both standards. 29 C.F.R. §
1910.1027(l)(2)&(4);1910.1025(j)(2)&(3). The results of the examinations and
testing must be shared with the employees who were examined or tested.
Under the cadmium standard, results must be shared within 2 weeks of
receipt. 29 C.F.R. § 1910.1027(l)(15). In addition, OSHA regulations require
employers, upon request, to provide their employees with access to their
medical records. 29 C.F.R. § 1910.1020.

            5.    Noise

      OSHA requires implementation of a hearing conservation program
whenever employee noise exposures equal or exceed an 8-hour time-weighted
average sound level of 85 decibels. 29 C.F.R. § 1910.95(c)(1). If administrative
or engineering controls fail to reduce sound levels, personal protective
equipment must be provided. 29 C.F.R. § 1910.95(b)(1).

            6.    “General Duty” Requirements and Heat Stress

       The OSHA “General Duty Clause” requires employers to provide a place
of employment which is “free from recognized hazards that are causing or are
likely to cause death or serious physical harm.” 29 U.S.C. § 654. This
provision addresses employer obligations to control worker exposure to hazards
even if they are not covered by specific OSHA standards.

      For example, OSHA has used the General Duty Clause to cite employers
that have allowed employees to be exposed to potential serious physical harm
from excessively hot work environments. The guidelines that OSHA uses to
determine overexposures to heat stress were developed by the American
Conference of Government Industrial Hygienists and are known as “Threshold


                                       34 

Limit Values.” Factors normally taken into consideration in evaluating heat
exposure include the temperature, the work rate of the worker, the clothing
and personal protective equipment worn, and the work load.

      The table below identifies heat threshold limit values for various work
rates and regimens.31

                                  TABLE 2.2 

               Permissible Heat Exposure Threshold Limit Values 

                                                      Work Load
                    Work Rate
                                            Light     Moderate           Heavy
                Continuous Work             86° F        80° F           77° F
             75% Work – 25 % Rest           87° F        82° F           78° F
             50% Work – 50% Rest            89° F        85° F           82° F
             25% Work – 75% Rest            90° F        88° F           86° F



               7.    Willful OSHA Violations

       OSHA’s Field Operations Manual for Compliance Officers provides
guidance on the identification of “willful violations” under the Occupational
Safety and Health Act, 29 U.S.C. § 651 et seq. According to the Manual, “[a]
willful violation exists under the Act where an employer has demonstrated
either an intentional disregard for the requirements of the Act or a plain
indifference to employee safety and health.” For example, an employer who
knows that a workplace condition or practice poses a serious hazard to the
safety and health of employees and makes little effort to determine the extent of
the problem or to take corrective action, commits a plain indifference violation.
See OSHA’s Field Operations Manual, CPL 02-00-148, 4-28. This
determination applies even if the employer was not aware of any legal
requirement to abate the hazard.

               8.    The Status of Federal Inmates as “Employees”

      OSHA’s longstanding interpretation of its regulation governing federal
agency health and safety programs (29 C.F.R. § 1960) is that inmates fall
within the definition of “employee” under 29 C.F.R. § 1960.2(g) for purposes of
occupational safety and health. Coverage for inmates is limited, however.
According to OSHA, “[t]he definition of employee with regard to the

      31   The temperatures presented are Wet Bulb Globe Temperatures.




                                            35 

occupational safety and health program does not mean that prisoners are to be
treated as employees for any other purpose. The occupational safety and
health program is intended to deal with hazardous working conditions, and it
is OSHA’s opinion that where prisoners are employed in work similar to that
outside prisons, such as farming, laundries, and machine operations, all the
protections available to anyone else in similar situations should apply,
including the right to file a report of hazards with appropriate safety and health
officials.” 45 Fed. Reg. 69796, 69797 (October 21, 1980).

      B.    National Fire Alarm Code

       We describe requirements of the National Fire Alarm Code, 2002 edition
(Code), which is published by the National Fire Protection Association (NFPA)
and applies to all BOP facilities. Our investigation determined that in 2002
staff at FCI Elkton disabled the fire alarm duct detectors in an e-waste
recycling factory in order to prevent fire alarms that were triggered by airborne
dust from glass breaking operations. The duct detectors, which sample
ventilation air, remained disabled for over 3 years. BOP fire policies require
compliance with NFPA guidelines.

      Under the Code, duct detectors should be inspected semi-annually to
ensure that the device will sample the airstream. Code 10.3; 10.4.2.2. The
owner of the system should be notified of impairments, and any defects and
malfunctions corrected. Code 4.6.1;10.2.1.2. If a defect is not corrected at the
conclusion of the inspection, the owner should be informed of the defect in
writing within 24 hours. Code 10.2.1.2.

      C.    Environmental Regulations

       Numerous federal and state environmental regulations apply to e-waste
recycling activities. In this section we briefly describe several federal
requirements that are relevant to UNICOR’s recycling operations, primarily
hazardous waste regulations under the Resource Conservation and Recovery
Act (RCRA), 42 U.S.C. § 6901 et seq. We also discuss requirements of the
federal Clean Water Act (CWA), 33 U.S.C. § 1251 et seq., and the Clean Air Act
(CAA), 42 U.S.C. § 7401 et seq.

       RCRA authorizes the EPA to regulate “hazardous waste” from “cradle-to­
grave,” including its generation, transportation, treatment, storage, and
disposal. RCRA defines “hazardous waste” to be a “solid waste” that “because
of its quantity, concentration, or physical, chemical, or infectious
characteristics may cause or contribute to mortality or illness, or pose a
substantial threat to human health or the environment if improperly handled.”
42 U.S.C. § 6903(5). A “solid waste” is any “discarded material” that is not
excluded under the regulations. 40 C.F.R. § 261.2(a)(1).




                                       36 

       RCRA’s regulatory requirements for generators of hazardous waste vary
depending on the amount of waste produced. Generators which produce more
than 1,000 kg of hazardous waste per month (“large quantity generators”) must
comply with numerous regulatory requirements. In contrast, generators who
produce 100 kilograms or less per month of hazardous waste are considered to
be “Conditionally Exempt Small Quantity Generators” and are subject to fewer
regulatory requirements. This exemption is not available to generators that fail
to determine whether their wastes are hazardous, however. 40 C.F.R. §
261.5(g); 262.11. Unless exempt, generators must properly package, label,
mark, and placard the waste container in accordance with 40 C.F.R. §§ 262.30­
33 when shipping hazardous waste off-site, and prepare and maintain a copy
of a shipping manifest, 40 C.F.R. §§ 262.20-23.

       Prior to 2007, many used, broken CRTs in operations like UNICOR’s were
subject to federal hazardous waste management standards due to the toxicity
of the lead contained in them. See generally 40 C.F.R. § 261.24; see also 71
Fed. Reg. 42928, 42930-31 (July 26, 2006). However, beginning in 2007 EPA
regulations excluded used, broken CRTs sent for recycling from the definition
of “solid waste.” 40 C.F.R. § 261.39(a); 71 Fed. Reg. 42928. The CRT
exemption is conditioned on the CRT not being disposed of, and the new
regulations require that used, broken CRTs be handled in particular ways in
order to avoid disposals that cause environmental contamination. For
example, the EPA regulations provide that broken CRTs must be either stored
in a building or placed in a container that is “constructed, filled, and closed to
minimize releases to the environment of CRT glass (including fine solid
materials).” 40 C.F.R. § 261.39(a)(1).

       In addition to RCRA, other environmental statutes can apply to e-waste
recycling activities. For example, recycling activities may involve stormwater
discharges that require a permit issued under the CWA.32 Recyclables that are
left outdoors can leach contaminants into stormwater runoff that is discharged
into local surface waters such as streams and rivers.33

      Air regulations may also apply if the recycling involves the venting of
pollutant emissions to the atmosphere. The CAA imposes various permitting
requirements depending on the nature of the emission and its source. As with
the CWA, the CAA allows exemptions for certain emissions from regulation,
such as those that are very small. 40 C.F.R. § 71.3.

       32 U.S. Environmental Protection Agency, Industrial Stormwater – Sector N: Scrap

Recycling and Waste Recycling Facilities, Fact Sheet EPA-833-F-06-029 (December 2006).
       33 The EPA’s stormwater regulations specify that facilities involved in recycling are
considered to be engaging in “industrial activity,” and are required to obtain a permit unless
otherwise shown to be exempt, such as by demonstrating that their industrial materials are not
exposed to stormwater. 40 C.F.R. § 122.26 (b)(14).




                                             37 

      D.    BOP Health and Safety Policies

       In addition, the BOP has its own health, safety, and environmental
policies at both the Headquarters and institution levels. The BOP’s National
Safety Policy states that it is “[t]he policy of the Bureau of Prisons and UNICOR
is to provide a safe and healthful environment for all employees and inmates.”
The National Safety Policy specifies various requirements to achieve this goal.
For example, it mandates the establishment of a “hazardous materials
communication program” that requires managers who oversee operations that
use hazardous materials to train staff and inmates about their dangers. Safety
inspections also are required at BOP institutions, including UNICOR factories,
and inmate injuries must be reported and documented. The policy further
specifies requirements for personal protective equipment and that a hazard
assessment be completed to determine which equipment is necessary.
UNICOR operations are the subject of a separate chapter in the policy, which
includes discussion of protective equipment and hazardous waste issues,
among others.

      Institutions can also develop their own local safety, health, and
environmental policies. The National Safety Policy directs institutions to create
supplemental policies on numerous topics, including respiratory protection,
hazard communications, and environmental concerns. The BOP institutions
with e-waste operations had such supplemental policies; although, as
described in Chapter Five, FOH found inconsistencies in the various policies
that applied to e-waste recycling operations.




                                       38 

                         CHAPTER THREE 

             FACTUAL OVERVIEW: EVOLUTION OF UNICOR’S 

              E-WASTE RECYCLING PROGRAM (1996-2009) 

      This Chapter describes the development of UNICOR’s e-waste recycling
program from its inception in 1996 through 2009. Section I provides an
overview of our factual findings that apply to all of UNICOR’s e-waste recycling
operations. Section II contains our findings regarding the evolution of
UNICOR’s e-waste operations at each BOP institution that performed recycling
during our investigation.


I.	    Program-Wide Overview of UNICOR’s E-Waste Operations

       Between 1997 and 2007, UNICOR established e-waste recycling
operations at 10 BOP institutions. During these operations, CRTs containing
hazardous metals were broken at seven of these facilities. This glass breaking
activity raised most of the health and safety issues that are the focus of our
report.

       Generally, we found that UNICOR’s e-waste recycling practices evolved
over time and that health and safety improvements occurred after 2002 when
testing at USP Atwater revealed significant problems with the safety of glass
breaking operations. As explained in greater detail in Chapter Four, staff and
inmate exposures to heavy metals were likely most common at UNICOR
recycling facilities prior to 2003.

       A.	    Initial Planning and the FCI Marianna Pilot Project (1996-
              1997)

       UNICOR’s interest in e-waste recycling started in 1996 after personnel
from UNICOR’s Product Support Center (PSC) identified potential business
opportunities involving computer recycling.34 A UNICOR Headquarters
Program Manager, Pauline Quinn, had requested that the PSC complete a
feasibility study on recycling household waste such as cans and paper at BOP
institutions, but PSC staff did not favor the idea because they did not believe it
would be profitable. As an alternative, PSC Industrial Specialist Maria
Lancaster and Senior Industrial Engineer James Unger proposed evaluating
whether UNICOR could recycle computers profitably, including reconditioning


       34  A congressionally-mandated market study of UNICOR recommended in 1991 that
UNICOR increase sales of services to the federal government. The Recycling Business Group’s
former General Manager, Lawrence Novicky, told the OIG that this study influenced UNICOR’s
decision to provide recycling services.




                                            39 

them for use in schools. In July 1996, Unger contacted several recyclers to
learn about computer recycling practices.

      After completing these limited inquiries, Lancaster and Unger performed
market research and evaluated regulatory requirements. They told the OIG
that they did not receive guidance on how to conduct this work and that
UNICOR lacked policies that required the completion of health, safety, and
environmental assessments on newly proposed operations. Unger said that
health and safety issues typically were addressed by the Safety Manager at
each institution.

       One health and safety concern that came to the PSC’s attention early in
its assessment was the lead content of computer monitor glass and potential
regulatory issues associated with the handling of broken monitor glass.
Memoranda prepared by the PSC in 1996 referred to monitor glass as
“hazardous” and stated that precautions were necessary to avoid improper
disposal of it. Unger said that he conferred with legal counsel about
requirements related to the handling of monitor glass. Quinn told the OIG that
lead was a concern with computer monitors “from day one” that UNICOR was
involved in e-waste recycling.

       To fully evaluate the economic feasibility of e-waste recycling, the PSC
recommended that UNICOR conduct a pilot project for 6 months at a single
BOP institution. PSC staff proposed the project to FCI Marianna in Florida,
which already had a small e-waste recycling operation in place. The purpose of
the pilot project was to develop operating procedures, verify that PSC’s cost and
revenue projections were accurate, and build relationships with new suppliers
and vendors of computer equipment and recyclable materials.

       With the support of an Associate Warden at FCI Marianna, the pilot
project started in late fall 1996 at the female prison camp adjacent to the main
prison at Marianna. Under the supervision of a UNICOR foreman, 15 inmates
processed approximately 2.5 semi-trailer truckloads of e-waste per week.
Inmates disassembled computers and prepared monitors for resale to vendors.
CRTs were not intentionally broken during this process. Lancaster said that
the pilot project was a success and that UNICOR opted to proceed with the e-
waste recycling project. By November 1997, UNICOR had expanded recycling
to a second BOP institution, FCI Elkton in Ohio, and was continuing to further
develop e-waste operations at its FCI Marianna factory.

       Lancaster and Unger told the OIG that in 1997 the PSC decided, as part
of its assessment of the feasibility of computer recycling, to further evaluate
hazards associated with the handling and processing of computer monitors
because their preliminary research had identified potential problems with lead
that is embedded in monitor glass. In April 1997, the PSC contracted with a
private consulting firm to perform industrial hygiene testing during monitor


                                       40 

disassembly (removing the plastic framing and other components) and
breakage of monitor glass to determine the applicability of OSHA’s lead
standard, 29 C.F.R. § 1910.1025. According to Lancaster and Unger, the
purpose of the testing was to assess any hazards during disassembly and in
the event that monitor glass was accidentally broken. They told us that the
testing was not designed to evaluate sequential breaking of CRTs because they
did not expect UNICOR to purposefully break CRTs after disassembling the
monitors.

      The testing was performed at PSC offices on April 28, 1997, by an
industrial hygienist who lacked certification from the American Board of
Industrial Hygiene.35 During the testing, Lancaster wore an air monitoring
pump and manually disassembled approximately five monitors, which included
smashing the CRTs by dropping them on the floor and hitting the glass with a
hammer. The hygienist collected air samples next to each monitor as it was
disassembled, which took roughly 20 minutes for each monitor, and during the
breaking and cleanup of the broken glass.

      The PSC received the testing results in May 1997. In a report to
UNICOR, the hygienist concluded that “over exposures to lead and other metals
during the dismantling of the [computer monitors] will be negligible. . . . These
data and our observations indicate that lead exposure at levels of regulatory
concern are [sic] not possible.” With regard to air monitoring results, the
hygienist stated that “general exposure to airborne contaminants are [sic] not
expected to approach regulatory levels even under the most extreme
circumstances.” The report stated that its findings were not limited to the
accidental breakage of a CRT, and instead were biased in favor of over­
exposure given that the testing was based on the assumption that UNICOR
employees would break CRTs and dry sweep the floor for 8 hours.36

      In his interview with the OIG, however, the hygienist stated that he
believed his report had no applicability to an operation where UNICOR would
be breaking upwards of 1,000 CRTs per day (such as UNICOR later established
at some facilities) because that size of an operation far exceeded what he
understood a “worst case scenario” would be for UNICOR’s handling of
computer monitors. He stated that even if UNICOR were breaking only 100
CRTs a day, he would have wanted to conduct retesting. Similarly, Lancaster


        35 The American Board of Industrial Hygiene is the certifying organization for Certified

Industrial Hygienists. Award of the Certified Industrial Hygienist certificate requires that
candidates meet rigorous education and experience requirements, pass an examination, and
recertify every five years by fulfilling continuing education requirements. More than 6,500
industrial hygienists worldwide currently hold the Certified Industrial Hygienist designation.
       36 NIOSH and FOH found significant deficiencies in the quality of this report. These

findings are discussed further in Chapter Four.




                                               41 

and Unger stated that they did not expect UNICOR to break large numbers of
CRTs and that the testing was not designed to evaluate such a scenario.
However, we found no evidence that the limitation the hygienist placed on his
conclusion was clearly communicated to or understood by UNICOR staff
outside of the PSC at the time.

       PSC staff told the OIG that based on the research that they conducted
through 1998, they recommended that UNICOR proceed with the development
of e-waste recycling but not break computer monitor glass. Sharon Eubanks, a
product development manager at the PSC and the supervisor of Lancaster and
Unger, told the OIG that due to concerns with lead contamination and lack of
expertise in UNICOR and the BOP to properly manage the glass after it was
broken, the PSC recommended that UNICOR avoid glass breaking altogether.
She further stated that she believed that UNICOR Headquarters as well as the
recycling Factory Managers and Superintendents of Industries at each
institution with recycling operations were aware of PSC’s recommendation not
to break glass.

       We received conflicting information from UNICOR officials regarding
whether they were aware of PSC’s concerns about computer monitor recycling.
Quinn and Dan Parker, the head of UNICOR’s Research, Activation, and
Corporate Support branch, told the OIG that they recalled that Eubanks had
concerns about the safety of recycling computer monitors. As discussed above,
Quinn also told us that lead contamination and exposures were a concern from
“day one” of the recycling program. However, former Recycling Business Group
General Manager Novicky told the OIG that he had no discussions with PSC
staff about concerns regarding lead and that he never received a warning not to
break glass. UNICOR’s former Chief Operating Officer, Steve Schwalb, also
said that he was not aware that the PSC had raised objections about glass
breaking and that he did not know that it had retained a hygienist to assess
the safety of monitor disassembly.

       The contemporaneous documents that UNICOR and the BOP provided to
the OIG do not reflect any recommendation by the PSC that UNICOR not break
glass. Indeed, at least one PSC document appears to contemplate that
UNICOR would break glass. In late 1998, the PSC produced a manual on
“Computer Demanufacturing” that presented the findings of its research and
included instructions on computer recycling procedures, potential suppliers of
e-waste, clean-up procedures for broken CRTs, and the reports of the
industrial hygienist that the PSC had retained to evaluate monitor disassembly
and glass breaking. Under the heading “Lead in Computers,” the manual
restated the hygienist’s conclusion that exposure to lead and other metals
during the dismantling of monitors was “negligible” and that airborne
contamination was not expected to approach regulatory levels. In addition, it
specified procedures for the “CRT Processing Area,” including “[b]reak CRT in



                                      42 

appropriate gaylord box (SAFETY EQUIPMENT MUST BE WORN).” The manual
did not contain a recommendation that UNICOR avoid glass breaking.

       By approximately February 1998, UNICOR had initiated glass breaking
operations at FCI Elkton. These operations were expanded to two locations at
FCI Elkton, and by 2000, inmates were processing more than 1,000 monitors
per day. As detailed below, UNICOR’s computer recycling activities by 2002
included the breaking of large quantities of CRT glass at multiple facilities.
PSC staff told the OIG that managers at UNICOR’s Recycling Business Group
did not consult with them about later changes in its recycling operations and
that its initial recycling instructions should have been revised to account for
those changes. However, as detailed below, Lancaster became aware of
changes with glass breaking operations at FCI Elkton in 2001. We found no
evidence that the PSC objected to UNICOR’s glass breaking operations at that
time.

      B.	   Establishment of Full Scale E-Waste Recycling Operations at
            BOP facilities

       Following the implementation of the Product Support Center’s pilot
project at FCI Marianna, UNICOR began establishing permanent e-waste
recycling operations at BOP institutions across the country. According to
former UNICOR Chief Operating Officer Schwalb, he wanted to create “the
preeminent computer recycling program in the country” that would be fully
compliant with applicable health, safety, and environmental requirements. He
said that he explained this goal to Novicky when Novicky became the General
Manager of the Recycling Business Group in 2000.

      As detailed in Section II, UNICOR established the operations identified in
the table below:




                                       43 

                                   TABLE 3.1 

                    Starting Dates of E-Waste Recycling and 

                   Glass Breaking Operations at BOP Facilities 

                                                                        Start of Glass
                                              Start of E-Waste            Breaking
        Facility                State            Recycling               Operations
 FCI Marianna              Florida                 1997                     2005*
 FCI Elkton                Ohio                    1997                     1998
 FCI Dublin                California              1998**                     n/a
 FCI Ft. Dix               New Jersey              1998                     2003*
 FCI Texarkana             Texas                   2001                     2001
 USP Atwater               California              2002                     2002
 FCI La Tuna               Texas                   2002**                   2002
 USP Lewisburg             Pennsylvania            2003                     2003
 FCC Tucson                Arizona                 2005                       n/a
 USP Leavenworth           Kansas                  2007                       n/a
      *Some staff at FCI Marianna reported breaking CRTs inside semi-trailers prior to
      this date; other staff disputed this account. At FCI Ft. Dix, the removal of
      electron guns from CRTs, which involves breakage of glass, started in 1999.
      **Recycling ceased at FCI Dublin in 2000, and at FCI La Tuna in 2003.

      Detailed facts about the evolution of operations at each facility are
provided in Section II of this Chapter.

      C.     Early Health and Safety Practices

       We found that UNICOR Headquarters initially provided limited guidance
regarding the design and operation of recycling facilities and associated health
and safety issues. UNICOR documents revealed that by late 2000, UNICOR
Headquarters officials, including Novicky, were aware that CRTs contained
toxic metals and that the glass breaking activities that were then underway at
FCI Elkton resulted in the release of visible dust into the factory air. For
example, minutes of a factory manager’s meeting in November 2000 discussed
the need for air testing due to hazards associated with processing CRTs.
However, despite repeated requests between 1998 and 2000 from BOP safety
staff and UNICOR Headquarters Program Manager Quinn for testing by
qualified personnel, until mid-2002, UNICOR and the BOP had conducted just
two tests for contamination, only one of which was in a recycling factory (FCI
Elkton), using staff and contractors who lacked industrial hygienist



                                            44 

certifications. These tests did not report any violations of applicable OSHA air
quality standards.

       As detailed in Section II, our review found that UNICOR adopted few
health and safety protections relating to glass breaking during the first 4 years
that this activity took place. Between 1998 and 2002, UNICOR conducted
glass breaking activities at FCI Elkton, FCI Texarkana, USP Atwater, FCI La
Tuna, FCI Ft. Dix, and, according to some staff at FCI Marianna, that
institution as well.37 During this time, UNICOR used crude methods and
equipment for breaking CRT monitors that resulted in the release of large
amounts of cadmium and lead laden dust into the factory air, and into the
outside environment at FCI Elkton. We found that UNICOR adopted these
methods without providing adequate health and safety training to workers,
including warnings about the presence of hazardous chemicals in its recycling
areas, and without providing sufficient respiratory protection. UNICOR also
lacked adequate written operating procedures and failed to implement
sufficient measures to protect the environment.38 For example, staff and
inmates reported that e-waste routinely was put into the trash, and items such
as broken glass often were left outdoors exposed to the elements.

      We also found that prior to 2002, UNICOR and the BOP did not conduct
adequate fact finding to determine if the glass breaking operations they
intended to implement were potentially hazardous. As mentioned above, the
limited air monitoring that UNICOR and the BOP conducted prior to June 2002
was not sufficient to test the larger glass breaking operations that were later
implemented, and this limitation on the findings was not clearly communicated
throughout BOP and UNICOR. One UNICOR staff member stated that visits
that UNICOR staff made to private recyclers prior to 2002 revealed that they
broke CRT glass “in the open” without ventilation controls, and that UNICOR
considered their practices to be the “industry standard.” UNICOR officials were
aware, however, that CRTs contained lead and that the dust from “crushing”
CRT glass was hazardous. Although UNICOR was not “crushing” glass, it was


       37 Glass breaking at FCI Ft. Dix during this period was likely limited to removal of the
electron gun from CRTs.
       38   According to former USP Atwater Warden Ron Tabor, the paucity of instructions was
unusual for the BOP and UNICOR, which he said normally provide detailed written procedures
for virtually every job. He told the OIG:
       What was so different about this particular UNICOR operation was they didn't
       have any paperwork. It was kind of a willy nilly, no written policy program
       design . . . [No] manual for recycling that you will do this, this way. . . The
       Bureau of Prisons is very policy oriented and you got a book on everything.
       Well, there was no book on recycling. That caused me a little concern. . . . They
       didn't have a plan. They said we're going to do this and they just [did it], by the
       seat of your pants.



                                               45 

readily apparent that large amounts of dust were being generated from its glass
breaking operations.

      Below we present a timeline of events concerning the warnings that
UNICOR recycling managers received from 1997 through 2002 regarding the
dangers of e-waste recycling. These events are summarized in greater detail in
Section II below.




                                      46 

              CHART 3.1
              UNICOR Electronics Recycling Timeline of CRT
              Hazard Warnings and Safety Measures (1997 - 2002)
                                                                                                                                      Aug 2000
                                                                                                                                                                               Jan 2001
                                                                                                                                      USP Atwater planning commences.
                                                                             Aug 1999                                                                                          Novicky receives proposal from private
                                                                             FCI Elkton Safety Office recommends                                                               firm to break glass at USP Atwater,
                                                                             air sampling. (Not Implemented)                                                                   which recommends isolating glass
Hazard Information                                                                                                            Feb 2000                                         breaking area and using a dust collector.
                                                                                                                              Ginther receives letter describing
                                                                                                                              cadmium exposures at a private
                                                                  Jul 1999
Respiratory                                                                                                                   company constituting serious                    Dec 2000
Protection                                                        BOP regional staff recommends air                           OSHA violations resulting from
                                                                  monitoring at FCI Elkton glass                              CRT dismantling, sorting and                    Novicky rejects request for air testing.
                                                                  breaking area. (Not Implemented)                            glass crushing.

Industrial Hygiene
Testing                                                                                                                 Dec 1999                                        Nov 2000
                                                   Jul 1998
                                                                                                                        FCI Elkton Safety                               Attendees at RBG Factory
                                                   FCI Elkton Safety Office                                                                                             Managers Meeting agree it
                                                                                                                        Office completes
                                                   inspection identifies deficiency                                                                                     would be “prudent” to perform
                                                                                                                        review and notes that
                                                   regarding lack of training related                                                                                   an air quality test on glass
                                                                                                                        air sampling still has
                                                   to “handling lead” from CRTs.                                                                                        breaking for health reasons.
                                                                                                                        not been completed.



                  May 1997   Jun 1997       Mar 1998   Apr 1998    May 1998     Jun 1998   Jul 1998     Jul 1999   Aug 1999      Dec 1999    Jan 2000   Feb 2000   Aug 2000   Sep 2000    Oct 2000    Nov 2000   Dec 2000   Jan 2001   Feb 2001




                             Mar 1998

                             FCI Elkton starts glass breaking
                             without respiratory protection.



      May 1997

      UNICOR Product Support Center receives industrial
      hygiene report on tests during disassembly and accidental
      breakage of CRTs which concludes that the potential for
      toxic metal exposures is negligible.
                                                          Oct 2001

                                                          RBG strategic business plan notes concern with “lead contained in the tubes”
                                                          and that “specialized equipment to handle this chemical will be required.”


                                                                                              Nov 2001
                                         Aug 2001
                                                                                              USP Atwater Safety Manager prepares memo to local UNICOR managers describing health
                                         Novicky and Ginther visit                            concerns with CRTs and requests a hazard assessment. (Not Implemented)
                                         New Jersey Department of
                                         Environmental Protection
    Apr 2001                             which expresses concerns
                                         about the safety of                                             Dec 2001
    Novicky and Ginther receive          UNCOR’s proposed glass
    OSHA materials from DRMS                                                                             USP Atwater Production Controller by this date proposes purchase of a machine to break
                                         breaking operations at FCI
    describing the need for                                                                              CRTs that contains the dust from glass breaking. UNICOR rejects for cost reasons.
                                         Ft. Dix.
    “metal dust control,”
    monitoring, and hazard
    communication in                         Aug 2001                                                                Jan 2002
    electronics demanufacturing
    operations.                              Ginther receives MSDSs                                                  USP Atwater Safety Manager prepares memo restating his concerns with CRTs, notes Novicky’s claim that
                                             for CRT panel and funnel                                                there are no hazards to evaluate, and renews his request for a hazard assessment. (Not Implemented)
                                             glass which describes the
    Apr 2001                                 need for respirator
                                             protection when glass is                                                      Jul 2002
    DRMS advises UNICOR of                   pulverized and warned
    lead hazards with CRT                    against “generation of                                                        USP Atwater Warden sends memo to Regional Director and UNICOR Chief Operating Officer Schwalb warning about
    breakage.                                excess dust.”                                                                 hazards of breaking CRTs, disposing of glass-booth filters, and possible regulatory violations at other UNICOR factories.



Mar 2001   Apr 2001   May 2001    Jun 2001     Jul 2001   Aug 2001   Sep 2001      Oct 2001   Nov 2001   Dec 2001    Jan 2002   Feb 2002   Mar 2002   Apr 2002   May 2002   Jun 2002   Jul 2002   Aug 2002   Sep 2002   Oct 2002   Nov 2002




            Aug 2001                                                                 Dec 2001                                   Apr 2002                                               Aug 2002                   Nov 2002

            Testing performed by the FCI Elkton Safety                               FCI Texarkana starts glass                 USP Atwater starts glass                               UNICOR requires            USP Atwater testing results
            Office revealed the presence of cadmium                                  breaking without respirators.              breaking without respirators.                          respirators for            obtained by UNICOR show
            and lead, but below regulatory levels.                                                                                                                                     glass breakers.            exceedances for cadmium and
                                                                                                                                                                                                                  lead.


                                                   Sep 2001                                                                        Jun 2002                                      Aug 2002                          Nov 2002
                                                   FCI Elkton offers respirators                                                   Atwater testing results obtained by           USP Atwater testing               FCI Texarkana testing results
                                                   to glass breakers.                                                              the Safety Manager show                       results obtained by               obtained by UNICOR show no
                                                                                                                                   exceedances for cadmium.                      UNICOR show                       exceedances.
                                                                                                                                                                                 exceedances for
                                                                                                                                                                                 cadmium and lead.
       D.	    Incremental Improvements Following the Discovery of Toxic
              Metal Contamination at USP Atwater in 2002

       Glass breaking operations began at USP Atwater in California in April
2002. In June 2002, Leroy Smith, the Safety Manager at USP Atwater, acting
on his own initiative, retained contractors who conducted testing that revealed
significant amounts of airborne cadmium and lead resulting from glass
breaking operations. Because the results showed that the concentration of
cadmium in the air far exceeded OSHA’s Permissible Exposure Limit (PEL),
Smith directed glass breaking operations to cease.39 Testing of filters in the
glass breaking area also revealed that they constituted “hazardous waste”
under applicable environmental regulations.

        In the wake of the information from USP Atwater, UNICOR began taking
more action to address health and safety concerns at its e-waste recycling
facilities. Improvements in procedures and equipment were introduced at the
individual UNICOR facilities, such as requiring the use of respirators and
forbidding the consumption of food and drink in glass breaking areas. In June
2003, the Recycling Business Group issued a 14-page policy on CRT
processing that covered issues including permitting, engineering controls,
safety equipment, respiratory protection, and cleaning requirements. It also
instituted medical surveillance of its recycling staff and inmates who worked in
glass breaking operations. Mandatory biological testing included evaluations
for cadmium and lead exposures. Standard operating procedures for e-waste
recycling activities were developed by 2004 and addressed issues such as
permitting, training, procedures for handling e-waste, and safety.

       Training and hazard communication also improved markedly between
2003 and 2008. In 2005, UNICOR developed an “Inmate Pre-Industrial
Manual” that described hazards found in recycling factories and safety
procedures. These materials were supplemented by training held at each
institution that addressed a wide variety of safety issues, including OSHA
regulations, lifting procedures, and eye protection.

      Our review of UNICOR documents and e-mail communications between
2003 and 2008 also revealed numerous instances where UNICOR managers
encouraged improved safety and hazard communication practices. For
example, in 2005 a UNICOR Program Manager, Carol Minnick, wrote an e-mail
to UNICOR recycling staff that emphasized the importance of training and
information sharing, and stated that test results should be shared with staff
and inmates and explained in group meetings. In 2006, one of the goals that
senior UNICOR leadership established for the General Manager of the Recycling

       39 The testing also showed high levels of lead, but not enough over 8 hours to exceed

the PEL. The FOH report on USP Atwater describes these results in greater detail.




                                              49 

Business Group, Novicky, was to “[p]romptly implement all recommendations
resulting from visits by environmental/health/safety agencies.” Novicky also at
times sent communications that encouraged improved environmental
compliance.

      Beginning in 2003, UNICOR also sought and obtained certification of its
operations from recognized standard setting organizations. All of UNICOR’s e-
waste factories have obtained ISO 9001 certifications, which signifies that they
have developed and support quality management systems.40 In addition, six of
the factories have obtained certification from the International Association of
Electronics Recyclers (IAER). The IAER certification includes an assessment of
health, safety, and environmental management issues. As of 2009, the
Recycling Business Group was also seeking additional certifications, including
the Recycling Industry Operating Standard (RIOS) from the Institute of Scrap
Recycling Industries.

       More recently, in March 2009, UNICOR hired a new General Manager of
the Recycling Business Group, Robert Tonetti, who has significant expertise in
environmental issues related to e-waste recycling. Prior to joining UNICOR in
2009, Tonetti was a senior environmental scientist in EPA’s Office of Solid
Waste and spent 32 years with the Agency. In 2004, he wrote the EPA
guidelines on the safe reuse and recycling of used electronics. Tonetti informed
the OIG that before joining UNICOR, he had visited approximately 60
electronics recyclers in the U.S., Canada, and Europe, including 5 UNICOR
factories that he visited in 2005 and 2006. Tonetti stated that in his view
UNICOR’s factories were now among the best electronics recyclers in the
country with respect to worker protection, health monitoring, and training,
among other aspects.

       However, despite these efforts to improve safety practices over time, our
investigation found that UNICOR significantly delayed correcting known
deficiencies at some of its recycling factories after 2003. As detailed for each
individual facility in Section II, these deficiencies included failures to upgrade
equipment and procedures in the glass breaking areas, to warn workers of
hazards in the recycling factories, to identify and clean up legacy
contamination, to prevent contamination of an employee dining area, to
properly characterize and handle hazardous waste, to abide by UNICOR safety
policies and inspection recommendations, and to prevent inmate injuries from
glass breaking.



       40 The International Organization for Standardization publishes standards for products
and services. The ISO 9001 standard addresses “quality management,” and specifies
requirements for management systems in organizations that must consistently produce
products that meet particular quality specifications.




                                             50 

      E.	   Actions to Conceal Health and Environmental Issues

       During our investigation we identified repeated attempts by UNICOR
officials to downplay or even conceal the health and environmental problems
caused by its glass breaking activities in communications with suppliers,
vendors, and regulatory authorities. These actions occurred at various times,
including during the period of our review.

       For example, UNICOR staff and inmates told the OIG it was common
prior to inspections and industrial hygiene testing to clean all recycling areas
extensively and to slow or stop the pace of glass breaking during such events,
thereby rendering the work conditions unrepresentative of normal conditions.
In addition, we found that UNICOR officials submitted a deceptive video
depicting its glass breaking operations to New Jersey state regulators in order
to obtain a permit for its operations at FCI Ft. Dix. We also determined that in
2007, UNICOR officials submitted misleading and inaccurate information to the
EPA in response to an information request regarding air emissions at FCI
Elkton in Ohio. These events are described in detail in Chapter Five.

      Our review of UNICOR’s reports to its Board of Directors also revealed
that important health and safety information was sometimes omitted and that
the impression created by the reports about the safety of its recycling
operations was more optimistic than the facts warranted. Our assessment of
these reports is provided in Chapter Five.

      F.	   UNICOR’s Decision to Suspend Glass Breaking Operations
            Nationwide

       As noted above, in May 2009, UNICOR ceased glass breaking operations
at all of its recycling factories. According to Tonetti, the General Manager of
the Recycling Business Group, he completed an economic evaluation of glass
breaking operations shortly after he joined UNICOR in March 2009 and
determined that substantial savings could be obtained by stopping those
operations. He told the OIG that UNICOR does not plan to resume glass
breaking operations in the future. However, UNICOR still accepts CRTs for
disassembling and recycling. For approximately 6 months, UNICOR shipped
bare monitor tubes to a recycling facility in Mexico as well as to a vendor that
also shipped them to the same facility. Tonetti told the OIG that UNICOR made
the decision to send the tubes to Mexico based on economic, environmental,
health, and safety considerations. Currently, UNICOR dismantles computer
monitors and televisions and sends the monitor tubes to two firms that have 2­
year contracts with UNICOR to handle the tubes. According to Tonetti, these
firms decide whether to ship the tubes or broken glass abroad for processing.




                                      51 

II.	   E-Waste Recycling Operations at Individual BOP Facilities

       In this section we describe the establishment and evolution of UNICOR’s
recycling operations at each BOP facility that was involved in e-waste
recycling.41 Because glass breaking activity raised most of the health and
safety issues that are the focus of our report, we discuss the institutions in
chronological order of when they began preparations for glass breaking
operations, and we describe the glass breaking operations at each facility in
detail. We also describe other recycling operations in those institutions, as well
as the Recycling Business Group’s knowledge of hazards and the information
shared with staff and inmates about them.

       A.	    FCI Elkton

       UNICOR started e-waste recycling operations at FCI Elkton in Ohio in
November 1997 at a UNICOR warehouse located outside the main prison
compound. E-waste operations ceased there in 2008 after the OIG identified
significant cadmium and lead contamination in areas where e-waste recycling
previously occurred.

       Before closing its e-waste operations, FCI Elkton historically was one of
UNICOR’s largest recycling factories. It typically employed approximately 7
staff members and between 150 to 250 inmates that recycled up to 13 million
pounds of electronics per year, or roughly 20 percent of all the electronics
recycled by the Recycling Business Group. Events at FCI Elkton are of
particular importance to this review because FCI Elkton was the first e-waste
factory to conduct large-scale glass breaking operations.

              1.	    Initiation of Glass Breaking Operations and Early
                     Warnings about E-Waste Hazards

      Early recycling operations at FCI Elkton focused on the disassembly of
computers and peripherals such as printers. According to UNICOR staff,
within months after these recycling operations began, large quantities of
monitors that UNICOR could not sell began to accumulate at the warehouse.
UNICOR decided by approximately February 1998 to initiate glass breaking
operations at the warehouse as a way to reduce its backlog of monitors to be
recycled.

      UNICOR staff and visitors at FCI Elkton told the OIG that the warehouse
frequently was overwhelmed with excess product, including monitors, and that

       41 We do not describe testing results for each of UNICOR’s e-waste factories in this
chapter. These results are summarized in FOH’s reports on each of the BOP institutions that
had e-waste operations, and can be found at:
http://www.justice.gov/oig/reports/BOP/index.htm.




                                             52 

on some days as many as 10 semi-trailers would be delivered for unloading. As
a result, UNICOR began storing e-waste outdoors and, after FCI Elkton began
glass breaking operations, the outdoor storage included boxes of broken
monitor glass. The Warehouse Foreman at the time, Bruce Ginther, attempted
to address this problem by diverting shipments of e-waste from federal agencies
directly to UNICOR customers, including to persons he considered friends,
rather than to FCI Elkton for recycling, and at times he did not charge for these
loads other than to assess trucking costs.42 However, the U.S. General
Services Administration Office of Inspector General (GSA OIG) investigated
Ginther’s conduct and determined that he had lied to UNICOR suppliers and to
its agents about the destination of the e-waste, and had accepted small gifts
from some vendors. Ginther’s conduct is discussed more fully in Chapter
Five.43

      UNICOR staff told the OIG that CRTs were broken inside the warehouse
and at times outdoors on the loading dock. Initially inmates were instructed to
break the monitors by placing them in a gaylord box and striking them with a
hammer. UNICOR later acquired a slatted table with rollers that allowed the
inmates to slide the CRTs while striking them over gaylord boxes of panel and
funnel glass, thereby obtaining better separation of the two types of glass. A
photograph of such a work area appears below.




       42  Our investigation also determined that Ginther concealed from inspectors that FCI
Elkton was receiving more e-waste than it could process. Staff at FCI Elkton told the OIG that
it was common practice for Ginther to order that excess material that could not be stored at
UNICOR’s warehouse or factory be moved away from the institution during inspections so that
the inspectors could not see it. One staff member said that various vendors would agree to
store the material temporarily, and that material would be hidden prior to inspections by the
BOP’s Program Review Division, visits by “dignitaries,” and suppliers, such as DRMS.
Investigation by the FBI corroborated the accounts of FCI Elkton staff.
       43 The DOJ Public Integrity Section of the Criminal Division determined not to initiate
any action against Ginther in July 2003. BOP subsequently issued Ginther a letter of
reprimand for his conduct, the mildest form of formal discipline in the BOP.




                                              53 

                            PHOTOGRAPH 3.1 

                     UNICOR Glass Breaking Table, 2002 





       UNICOR customers who came to the warehouse to purchase items told
the OIG that inmates used sledgehammers on the loading dock to break up
televisions, and that broken glass from this work as well as from the inside of
the semi-trailers, where CRTs often broke during shipping, was placed in the
trash. One UNICOR customer stated that inmates would throw electronics and
television tubes in a trash dumpster that was sent to a local landfill, especially
tubes from console televisions.

       Neither the BOP Safety Office at FCI Elkton nor regional or Headquarters
safety personnel assessed potential hazards with glass breaking operations
before they began. The Safety Manager at FCI Elkton, Dan Martin, told the
OIG that UNICOR did not ask him to evaluate glass breaking operations before
they started, and that he discovered that UNICOR was breaking monitor glass
during a routine inspection. He said that he repeatedly asked UNICOR to
conduct testing but that his requests were ignored. In July 1998, Martin
prepared an inspection report and identified as a “deficiency” the lack of
training for UNICOR staff and inmates who “handle lead” from computer
monitors. However, training on lead hazards from CRTs was not provided until
several years later.

       In January 1999, UNICOR began shipping its broken CRT glass to a
private company to process. By that time, UNICOR had expanded its glass
breaking operations from the warehouse to the UNICOR factory at the FCI and,
according to UNICOR staff, was breaking approximately 1,000 to 2,000
monitors per day. As with glass breaking operations at the warehouse, this
activity initially was conducted “in the open” inside the factory without



                                       54 

engineering controls such as ventilation or other measures to adequately
contain the resulting dust and debris. UNICOR staff told the OIG that the
glass breaking operations generated a lot of dust that was visible in the air
throughout the UNICOR warehouse and the FCI Factory.

      Over time local and regional BOP safety staff began to raise concerns
about the glass breaking operations which were not acted upon. In July 1999,
an industrial hygienist from the BOP’s Mid-Atlantic Regional Headquarters
performed a “staff assistance visit” at FCI Elkton and recommended that air
monitoring be conducted where CRTs were being broken because the area
contained “lead and dust.” These recommendations were provided to the
Regional Director and Safety Administrator. However, despite two additional
reports from Safety Manager Martin in August and December 1999 that noted
that the testing had not been performed, the testing was not completed.

       Ginther, who was then the Assistant Factory Manager for UNICOR’s
recycling operations at FCI Elkton, also obtained information from another
recycler in early 2000 that raised safety concerns about CRT glass recycling.
Our review of UNICOR files, including Ginther’s e-mail account, revealed that
in February 2000, Ginther received a copy of correspondence between the State
of Wisconsin and a processor of computer monitor glass summarizing testing
results which showed that an employee engaged in “crushing” of monitor glass
at a recycling facility was exposed to cadmium dust at approximately 48 times
the OSHA Permissible Exposure Limit (PEL), and another employee involved in
“dismantling and sorting” was overexposed at 1.5 times the PEL. The State
stated that “[t]hese overexposures would be considered ‘serious violations’ by
OSHA” and that respiratory protection was required. The correspondence also
noted that most of the cadmium exposures occurred when the monitors’ panel
glass was being crushed.

      Numerous UNICOR and BOP staff, including the FCI Elkton Safety
Manager and Assistant Safety Manager, the Factory Manager, Superintendent
of Industries, and Novicky, told the OIG that Ginther never disclosed the
contents of the Wisconsin letter to them, and that their approach to the glass
breaking operations would have been different if they had known about it. The
Assistant Safety Manager stated that had he been aware of potential cadmium
exceedances he would have sought assistance from an industrial hygienist
because he lacked the necessary training to properly evaluate the situation.
Following his resignation from the BOP in 2009, Ginther declined the OIG’s
request for an interview in our administrative case.44



      44 Ginther was interviewed by DOJ criminal investigators, including OIG agents,

pursuant to a proffer agreement.




                                            55 

       UNICOR Headquarters and recycling Factory Managers also discussed
the potential dangers from disassembling CRTs. In late November 2000,
Novicky, Ginther, UNICOR Headquarters Program Manager Quinn, and
recycling staff from all the BOP institutions then engaged in e-waste recycling –
FCIs Ft. Dix, Elkton, and Marianna – met for a Factory Managers’ conference at
FCI Elkton. Minutes from this meeting state that “[a] discussion resulted
about whether an air quality test should be done for health reasons, especially
given [that] Elkton ‘demanufactures’ CRTs. Most agreed that would be
prudent. [A former Associate Warden at FCI Marianna] suggested the BOP
hygienist is available for such.” However, following the meeting and without
conferring with safety professionals, Novicky decided that additional testing
was not warranted and did not seek assistance from an industrial hygienist.

            2.	   Problems with Glass Breaking Debris and Additional
                  Warnings about E-Waste Hazards

        By 2001, operations at the FCI Elkton recycling factory focused on
dismantling monitors and breaking CRTs. UNICOR staff told the OIG that
CRTs initially were broken in the middle of the factory with no ventilation of the
resulting dust other than through the factory’s general air handling system.
The BOP employed two HVAC technicians at FCI Elkton who told the OIG that
the dust from the recycling factory was so dense that it began to interfere with
the air handling units on the roof of the factory and resulted in the dust being
emitted directly to the outdoors. One HVAC technician stated that there was a
period when no filters were kept in the air handling units because staff could
not replace the filters fast enough. According to the HVAC technicians, the
filters that they removed were disposed of in the trash.

       Due to problems with the dust conditions in the recycling factory, the
HVAC technicians stated that they received a request to install a fan in the
ceiling of the UNICOR recycling factory to blow the airborne debris outdoors.
Both of the HVAC technicians stated that they told their supervisor Alan
Ferguson that they were unwilling to participate in the project because they
believed an evaluation was necessary. The technicians said that they instead
recommended bringing in an engineer as well an industrial hygienist to
evaluate what should be done with the factory’s dust problems. As explained
below, this recommendation was not followed and a fan was later installed
along with a paint booth by the Assistant Safety Manager.

      UNICOR received additional warnings in 2001 about potential e-waste
hazards from the Defense Reutilization Marketing Service (DRMS), which
supplied e-waste to UNICOR from the Department of Defense. In April and
May 2001, UNICOR was seeking to renew an agreement with DRMS to recycle
e-waste and was providing detailed information to DRMS about its FCI Elkton
operations. Before DRMS would agree to furnish its e-waste to UNICOR, it
sought assurances that UNICOR was complying with applicable health, safety,


                                       56 

and environmental laws and regulations. To assist UNICOR in obtaining
DRMS’s authorization to receive its e-waste, a senior DRMS representative
provided Assistant Factory Manager Ginther and Novicky with materials that
described OSHA requirements, the importance of implementing “dust and
particulate control” when disassembling electronics, and special hazards
related to metal contamination, including cadmium and lead.

      Although the OSHA materials contained no discussion relating to
hazards associated with breaking CRTs, DRMS’s industrial hygienist told the
OIG that he orally advised UNICOR staff about lead hazards associated with
breaking CRTs. The OSHA materials also described the need to establish a
monitoring program for hazardous materials, the procedures to perform air
sampling, and the elements of a hazard communication program. According to
UNICOR Program Manager Quinn, she spoke with DRMS personnel repeatedly
about the hazards of electronics recycling.

       To provide DRMS with the information it was seeking about recycling
operations at FCI Elkton, UNICOR staff consulted with the BOP Assistant
Safety Manager about noise, air, and wipe testing results that DRMS wanted.
In April, the Assistant Safety Manager informed Ginther and Factory Manager
Frank Shannon in an e-mail that he did not expect lead to be a concern with
monitor glass because “as long we don’t grind up the glass . . . there is no
hazard. Lead will not be released from the glass . . . .” He told the OIG that he
relied on a material safety data sheet that he obtained from a glass recycler for
this information.

       DRMS also sought industrial hygiene testing information from UNICOR.
One of its representatives told the OIG that the breaking of monitor glass at the
time was “one of our primary focus areas for compliance.” He said that DRMS
attempted to ensure that UNICOR was verifying that dust from UNICOR’s CRT
operations did not exceed OSHA regulatory levels and that UNICOR was
treating its broken monitor glass as a hazardous waste when disposing of it.
He stated that these issues were part of DRMS’s compliance evaluation and
believed that they would have been discussed with UNICOR. DRMS’s
industrial hygienist confirmed that he discussed these issues with
representatives of the Recycling Business Group.

       However, UNICOR did not pay for an industrial hygienist to perform an
assessment. Safety Manager Martin told the OIG that UNICOR refused to pay
for the testing and that the BOP Safety Office at FCI Elkton conducted it even
though he did not believe that his staff was qualified to perform an evaluation
on UNICOR’s operations. He stated that no one on his staff was an industrial
hygienist but that he felt obligated “to do the best we could do” given that no
one else was willing to perform the testing. The Safety Manager said he did not
use Safety Office funding to obtain a qualified contractor to complete the



                                       57 

testing because it would have depleted his budget and he felt the testing was
UNICOR’s responsibility.45

       FCI Elkton’s Assistant Safety Manager provided air and wipe sample
testing results to DRMS in August 2001. The samples showed that the
cadmium and lead in the air did not exceed OSHA occupational exposure
limits. After seeking advice from a BOP industrial hygienist on calculations
that are necessary to interpret the results, the Assistant Safety Manager
advised Ginther that the wipe samples showed “no problem” and that there was
no need for respiratory protection or implementation of a lead compliance plan.
UNICOR repeatedly relied upon these testing results through mid-2002 to
justify its view that its recycling practices at FCI Elkton and elsewhere should
not result in violations of OSHA air quality standards for cadmium and lead.
However, those tests results were later criticized by the industrial hygienist at
BOP headquarters and by experts on the OIG technical team.46

       Ginther also obtained CRT material safety data sheets in August 2001
from the same glass recycler that the Assistant Safety Manager had
communicated with previously and that described dust-related hazards. One
of the sheets warned against generating “excessive dust” and stated that a toxic
dust respirator was necessary “if the material has been pulverized.” It also
stated that ventilation should be sufficient to avoid exceedances of OSHA PELs
for lead and that glass can cause lead poisoning “when in dust form.”47

      UNICOR’s handling of the broken monitor glass during this period was
also problematic. UNICOR staff told the OIG that boxes of broken monitor
glass often were stored outdoors and frequently broke when the boxes became

       45 The Safety Manager position in BOP institutions is funded by the BOP. UNICOR’s
budget is based on revenues from sales of its products and services.
       46  In July 2002 (after tests at USP Atwater revealed more significant hazards, discussed
in Section II.B.2 below), the BOP industrial hygienist at Headquarters discounted the FCI
Elkton test results in e-mail communications with the Safety Manager at FCI La Tuna and
characterized them as “not complete.” In addition, experts who examined those tests in later
years criticized them. NIOSH and FOH also noted deficiencies with the reporting from this
testing. NIOSH found that it contained “no information regarding the type of sample (personal
sample versus area sample), sample volume, location, the work being performed, PPE, or
exposure control methods.” In short, we found, and the experts we consulted with concurred,
that it was not appropriate to rely on the testing because important facts were not recorded
when the air and wipe samples in question were taken.
       47   The material safety data sheets did not explicitly state that breaking CRTs (to the
extent that this is distinct from “pulverizing” it) is an activity that creates significant quantities
of hazardous dust requiring major protective procedures. However, as noted above, it was
readily apparent to persons in the FCI Elkton factory that glass breaking as practiced in that
facility generated significant amounts of visible dust. As explained in Chapter Four, FOH
studies on the particle sizes of the dust generated from glass breaking shows that some
material is pulverized by glass breaking.




                                                 58 

wet, depositing their contents onto the surrounding soil. These conditions
continued into 2004, according to UNICOR e-mails and Steve Heffner, a
Factory Manager who was hired in 2003.

      UNICOR also stored broken glass in large open top “roll-offs,” or
dumpsters, similar to those used for construction debris, that were left
outdoors uncovered. UNICOR staff and a vendor at the warehouse said that
rainwater would accumulate in the roll-offs and leak into storm drains that led
to a nearby creek. They also described how dust and debris were dispersed by
the wind when gaylord boxes of broken glass were dumped into the roll-offs. A
vendor said that after dumping the glass in this fashion, which occurred every
day that he visited the warehouse over a 3-year period, UNICOR staff would
use a hose to wash the debris down the storm drain. This person said that he
expressed concerns to Ginther about this practice because of the storm drain’s
connection to a creek.

      A UNICOR staff member also told the OIG that the forklift driver who
emptied the gaylord boxes was not given protective equipment and that he
repeatedly asked without success to be relieved of this work because of the
amount of dust that covered him after he dumped the boxes of glass. The
Safety Manager and UNICOR staff also stated that cuts from glass breaking
operations were commonplace.

      Despite the existence of the information above, staff at FCI Elkton who
worked in the e-waste recycling operations told the OIG that they were not
advised by Ginther, Novicky, or local safety personnel that there were potential
health and safety risks associated with e-waste recycling, including hazards
from CRTs. To the contrary, they said that Ginther repeatedly assured them
that there were no health risks related to computer disassembly and glass
breaking operations. They also stated that they did not receive any training
about hazards from CRTs until nearly five years after recycling operations
started.

            3.    Installation of UNICOR’s First Glass Breaking Booth

      In approximately late September 2001, the Assistant Safety Manager at
FCI Elkton started installation of a paint booth to contain the airborne glass
breaking debris. He told the OIG that he was receiving complaints from
inmates about the dust in the air and that he felt that something needed to be
done about the ventilation. The booth connected to a large vent pipe that
exhausted through the recycling factory roof. OIG interviews of UNICOR and
Safety Office staff at FCI Elkton determined that no assessment was made of
environmental requirements (such as permit requirements) related to
emissions from the paint booth in 2001, and neither an industrial hygienist
nor a ventilation engineer was consulted before the paint booth was installed.




                                       59 

      The paint booth in the recycling factory appears in the photographs
below:

                           PHOTOGRAPH 3.2
             FCI Elkton Glass Breaking Area, November 2001




                           PHOTOGRAPH 3.3 

             FCI Elkton Glass Breaking Area, November 2001 





                                      60 

       In October 2001, Maria Lancaster of the Product Support Center visited
FCI Elkton to evaluate the recycling operations. Lancaster sent an e-mail to
Ginther and Recycling Business Group Program Manager Carol Minnick (later
forwarded to Novicky) stating that recent testing was fine “for OSHA purposes”
but that FCI Elkton should check its compliance with EPA regulations or any
state or local regulations. She told the OIG that after seeing the paint booth
she advised Ginther that he needed to check to make sure it was in compliance
with EPA air requirements and should test its filters to determine whether they
constituted hazardous waste.

      The Assistant Safety Manager at FCI Elkton also told the OIG that
shortly after the paint booth was installed he informed Ginther that it needed
to have filters and that the filters should be tested to determine if they
constitute hazardous waste. Our investigation determined, however, that
UNICOR did not follow Lancaster’s or the Assistant Safety Manager’s
recommendations concerning the testing of glass booth filters. The filters were
not evaluated until 2005, when they were found to be hazardous. Testing also
was not conducted on the filters for the factory’s ventilation system until 2007,
when those filters also were determined to be hazardous.

      UNICOR and BOP staff told the OIG that the ventilation system in the
new paint booth was only partially successful in removing the airborne dust
and debris from the recycling factory and that it created new problems. Staff
and inmates at FCI Elkton began to complain that the debris that was being
blown onto the roof of the recycling factory started to rain down on the loading
dock of the factory and on the prison yard where inmates frequently
assembled. The HVAC technicians also stated that the debris on the roof was
being brought back into the recycling factory and other parts of the institution
through air intake ducts that were located on the roof. A General Foreman at
FCI Elkton who supervised the HVAC technicians told the OIG that the
technicians took him on the roof to see the debris and that he was “shocked”
by what he saw and that he prohibited them from going back on the roof.

      UNICOR continued sending the debris from the glass breaking operations
through an exhaust pipe on the roof of the UNICOR factory until approximately
February 2003. This activity continued despite multiple written requests from
Safety Manager Martin to former UNICOR Superintendent of Industries Adam
Norberg and Factory Manager Shannon requesting that filters be installed that
would prevent “particles from the glass recycling dust exhaust system [from]
being introduced into the outside environment.”

       Another problem that continued after installation of the paint booth in
the recycling factory was the build-up of dust on fire alarm duct detectors or
smoke sensors located on the factory’s air ventilation ducts. The electronics
technicians who serviced the fire alarm system said that the dust in the
recycling factory frequently caused the fire alarms to activate. One of the


                                       61 

technicians, Roger Hammond, told the OIG that he participated in meetings
with UNICOR and BOP managers where the problems with the dust in the
recycling factory and fire alarm system were discussed and that UNICOR did
not like the proposals that the BOP staff generated to address the problems
due to their cost. Hammond told the OIG that he eventually was instructed by
Alan Ferguson, former General Foreman and Facility Manager at FCI Elkton, to
prevent the duct detectors from activating. He complied by taping the
detectors so that they could not sample air. The detectors remained taped off
for more than 3 years, when they were inspected and repaired by technicians
in September 2005 following Hammond’s transfer to a different BOP
institution.

            4.    Delays in Upgrades to the Glass Breaking Booth

      As detailed below in parts II.B and II.D of this Section, UNICOR
experienced significant problems with glass breaking operations at USP
Atwater and FCI La Tuna during 2002, which resulted in suspending
operations at both institutions in July 2002. In response to these events, in
late July 2002, Carol Minnick, a Program Manager for the Recycling Business
Group, e-mailed Superintendent of Industries Norberg and Factory Manager
Shannon stating that they needed to make several procedural changes at FCI
Elkton concerning worker safety, including modifying the ventilation system for
the glass breaking operations, ensuring that workers in the “glass processing
area” wore respirators, and prohibiting food and drink in that area.

      The latter two requirements were subsequently included in UNICOR
Headquarters’ first written safety procedures for glass breaking, which were
issued to all recycling Factory Managers and Production Controllers on August
13, 2002. Minnick sent Norberg and Shannon another e-mail in September
2002, which was copied to Novicky, stating that she had not received a
response to her earlier e-mail and inquiring whether they had made a decision
on a “filter system.”

       Our investigation determined that although UNICOR authorized the
expenditure of funds for improvements to the FCI Elkton recycling factory’s
ventilation system in early July 2002, UNICOR staff at FCI Elkton failed to
order new equipment for a glass booth until 6 months later, in January 2003.
Construction of the improvements was not completed until April 2003. In the
interim 10 months (except for a few weeks in February and March), the glass
breaking operations continued at the FCI Elkton recycling factory using the
paint booth that the Assistant Safety Manager had installed in the fall of 2001.
Emissions from the paint booth were not halted and became a concern to
Martin, the Safety Manager, who cited UNICOR in his monthly safety
inspection reports in October and November 2002, and January 2003, for
exhausting debris from the glass breaking operations outdoors. Norberg,



                                       62 

Shannon, and the Wardens at FCI Elkton are identified on these reports as
recipients.

       UNICOR staff also delayed implementation of the recycling policies
UNICOR Headquarters issued in August 2002. For example, during an
inspection that the Recycling Business Group conducted in February 2003 at
FCI Elkton, UNICOR Program Manager Minnick observed that none of the
inmates in the glass breaking area had coveralls, only one of the inmates was
wearing a respirator, other inmates were wearing only “thin dust collection
masks,” and an inmate was consuming a beverage. According to a report
prepared by Minnick, when she asked Shannon about providing better
respiratory protection to the inmates, he responded that the “higher grade”
dust masks were twice the price and required special handling precautions due
to their expense, and therefore had not been purchased.48

             5.     Installation of a New Glass Booth

      In June 2003, UNICOR opened a new glass booth that was enclosed with
walls and a ceiling. Detailed information about testing performed on this booth
is provided in FOH’s report on e-waste recycling at FCI Elkton. Although the
booth improved the capture of airborne dust and debris, its ventilation system
required modifications to comply with OSHA’s lead standard. The booth
remained operational until 2008 when UNICOR ceased glass breaking
operations at FCI Elkton. A photograph of the booth appears below.




       48 Shannon was placed on a performance improvement plan following Minnick’s

inspection.




                                           63 

                             PHOTOGRAPH 3.4 

                   Glass Breaking Booth, FCI Elkton, 2007 





      B.    USP Atwater

      UNICOR began planning in August 2000 for an e-waste recycling factory
at USP Atwater in California. The new plant opened in April 2002, and within
weeks inmates began disassembling and breaking CRTs. Since that time
UNICOR typically has employed 5 to 8 staff members and up to 150 inmates at
USP Atwater. The volume of e-waste received has generally varied between 2
and 6 million pounds annually.

       Because problems at USP Atwater in 2002 led to significant changes the
following year in the Recycling Business Group’s policies and procedures, we
describe events at Atwater in detail below.

            1.    Planning for Glass Breaking Operations

      After planning for the new USP Atwater recycling factory began in 2000,
UNICOR officials held at least nine “activation” meetings before the factory
opened to discuss operational details. The activation meetings largely focused
on operational details, such as the size of the factory, the placement of closets
and drains, and the number of employees that would need to be hired, and
included only limited discussions about future glass breaking activities. For
example, the minutes from the second planning meeting for the activation of
the recycling factory, held in September 2000, show that UNICOR and USP
Atwater officials discussed “[t]he issue of handling hazardous materials related


                                       64 

to computer monitors.” However, UNICOR officials did little to follow through
on these concerns. Environmental and health issues were not mentioned in
the minutes of the final four planning meetings held between March 2001 and
April 2002.

       As described in Section II.A, while the planning for USP Atwater’s
recycling operations was underway between August 2000 and March 2002,
UNICOR staff obtained information revealing health and safety issues
associated with glass breaking operations at FCI Elkton. These included
Ginther’s receipt of a copy of correspondence between the State of Wisconsin
and a processor of computer monitor glass in February 2000 that showed
exceedances of the OSHA cadmium standard resulting from the dust of
crushed CRT glass, and warnings from DRMS about handling e-waste and
CRTs. We found no evidence that this information was shared with safety or
executive BOP staff at USP Atwater before its e-waste operations started, or
that the 2001 FCI Elkton testing results were shared. In addition, as described
in Section II.C, UNICOR started glass breaking operations at FCI Texarkana in
December 2001. The Factory Manager at FCI Texarkana, Eric Fabian, told the
OIG that he understood that there were no safety issues with glass breaking
and that he asked about it during a tour of FCI Elkton in September 2001 after
seeing debris in the air. He said that he was told by staff who participated in
the tour, which included Novicky, that the airborne dust and debris had been
tested and was “fine.” We found no evidence that safety information was
coordinated among UNICOR Headquarters, FCIs Elkton and Texarkana, and
USP Atwater.

      The USP Atwater employee with the most training in health, safety, and
environmental issues – Safety Manager Leroy Smith – did not attend any of the
Atwater recycling factory activation meetings. In fact, Smith said, he was not
included in the general planning process for the recycling factory until
November 2001, well after most of the planning was complete, and after
UNICOR had formally notified state and local environmental agencies in
October 2001 that the Atwater facility would be “handling” CRTs.

      Once Smith became involved, he tried to alert officials to possible
problems. In November 2001, Smith sent a memorandum to Factory Manager
Barry Harlow and Associate Warden Samuel Randolph, warning that CRTs
“contain lead, cadmium, and other harmful metals” and that recycling them
“may cause a health concern to staff and inmate workers.” Smith
recommended conducting an “environmental risk/health assessment” before
breaking any CRTs.

      Two months later, in January 2002, Smith sent a “reminder”
memorandum to the same officials. In the memorandum, Smith noted that
according to Associate Warden Randolph, Novicky had decided that an
environmental assessment was unnecessary since there were “no hazards”


                                      65 

associated with CRT recycling. Smith’s memorandum “strongly” urged the
completion of an environmental risk and health assessment, if only “to ensure
there is documented analytical data to support” Novicky’s claim that CRT
recycling was safe. Smith told us that in response to his two memoranda,
Randolph and Novicky told him that there was no reason to be concerned, that
Novicky was not willing to pay for “testing that was not necessary,” and that, in
any case, it was not Smith’s concern.

      Smith sent a third request in March 2002 to Randolph, shortly before the
factory opened, asking for a hazardous waste analysis of the contents of CRTs.
This request, which was more limited than the previous requests for a full
environmental and health assessment, also was not acted upon. A “second
reminder,” sent in May 2002, was ignored as well. Novicky told the OIG that
he was aware that Smith “had a lot of concerns” before the glass breaking
operations started at USP Atwater, but that he had never seen Smith’s
memoranda and wished he had.

       However, Smith was not the only official who was alarmed about the
risks associated with recycling CRTs who Novicky and Randolph ignored before
the factory opened. In 2001, the UNICOR Production Controller at USP
Atwater suggested buying a machine that would completely enclose the CRTs
before crushing them, thus containing any toxic metals released during the
destruction. The Production Controller told the OIG that in 2001 “everybody
knew what was in those monitors” and that they contained cadmium and lead.
She stated that she tried to “sell” the machine to Randolph and Novicky by
arguing that it would be safer and ultimately cheaper because it would contain
all the toxic debris from the CRTs. She told us Novicky and other UNICOR
officials refused to buy the machine because, at approximately $100,000, it
was deemed “too expensive.”

        At about the same time that the Production Controller was promoting the
glass breaking machine, Novicky was holding discussions with a private
company that wanted to help set up and operate the USP Atwater recycling
facility. The company’s proposal noted that a CRT disassembly area was
needed that would be “sealed off” with rubber curtains and include a dust
collection machine. Although those discussions ultimately were terminated,
UNICOR documents show that the private company told UNICOR that it would
be necessary to “make sure that the OSHA coordinator is up to speed on the
required training and protection of the workers involved in the different
operations” before opening any recycling facility.




                                       66 

              2.      Start of Glass Breaking Operations and Initial Problems

        After the new factory at USP Atwater opened in early April 2002, inmates
initially broke CRTs in a work area on the factory floor, not inside an enclosed
space. Starting on approximately May 1, 2002, UNICOR moved its glass
breaking operations into a glass breaking booth that was located in a
mezzanine area with walls on three sides and an opening to the factory on the
fourth. The booth, which was designed and sold as a paint booth but then set
up and modified for glass breaking by a UNICOR employee and several
inmates, had fans at the rear that drew air from the front of the booth towards
the back and then through two filters before exhausting it back into the main
factory.49

                                PHOTOGRAPH 3.5 

                    Glass Breaking Booth at USP Atwater, 2002 





      Procedures to handle the CRTs were crude. Inmates told the OIG that
they would hold two CRTs over a large box and smash them together, allowing
the pieces to drop into the box, or smash the CRTs onto other hard objects.
These practices were later criticized by the BOP’s industrial hygienist, Brett
Sachs, because they generated excessive dust and debris. Other inmates said
they used hammers to break the tubes in the boxes. Along with performing

       49 An inmate told us that inmates had asked the Factory Manager about venting the
exhaust to the outdoors, but had been told that it could not be done because “it would cost too
much” and would require BOP approval “to cut holes in the wall and redesign the building.”




                                              67 

other disassembly activities, the inmates broke approximately 500 CRTs per
day.50 Protective equipment furnished to the inmates who performed this work
included gloves, Kevlar sleeves (to protect their arms), safety glasses, ear plugs,
and dust masks. Respirators were not provided.

       Soon after glass breaking began, UNICOR staff and inmates started
noticing dust and particles in the factory air that appeared to have come from
the broken CRTs. They described the dust conditions in the USP Atwater
recycling factory in consistent terms, using words to describe the air such as
“filthy,” “foggy and dark,” and “like a foggy mist” or “haze.” Dust from the
handling of the filters from the glass booth was another serious problem.
Initially, dirty filters were re-used after they had been vacuumed by inmates
wearing dust masks (but not respirators approved for toxic metals). During the
cleaning, “dust would be flying everywhere” one inmate told us, and the dust
from the vacuums would be thrown into the regular trash. After the filters got
too dirty, they, too, would be thrown into the regular trash.

      In a May 1, 2002, memorandum, Safety Manager Smith expressed his
concern to USP Atwater and BOP supervisors regarding the hazardous metals
content of the used glass breaking booth filters and the procedures for
handling them during replacement, and recommended that an outside lab
analyze them.

       On May 9, 2002, Smith repeated a request he already had made several
times earlier for a full environmental and health risk assessment of the glass
breaking operations. Short of that, “as a precautionary measure,” Smith asked
UNICOR to provide respirators to anyone breaking glass. According to Smith,
both of these requests were denied. Smith told the OIG that he participated in
a conference call with Novicky and Associate Warden Randolph to discuss
inmate safety and that Novicky refused to purchase respirators due to their
cost, and that Randolph refused his initial requests for filter testing after he
conferred with the Recycling Business Group.

       Despite the concerns Smith expressed about the glass breaking
operations, we found that UNICOR personnel repeatedly reassured USP
Atwater staff and inmates that their work environment was safe. For example,
staff said that Randolph regularly told them that there was no reason for
concern. Randolph later told us that he made those assurances even though
he had been concerned about the safety of the glass breaking process, because
he had been assured by Novicky that there “ain’t nothing wrong with it” and
that UNICOR “had not conducted any exposure assessment tests because there
were no hazards to assess.” Novicky told the OIG that based on UNICOR’s

      50 This number was reduced to 450 after USP Atwater obtained an air permit

exemption in 2003.




                                           68 

prior testing, he did not believe that there was a problem with UNICOR’s glass
breaking operations.

      In response to concerns over the excessive dust, on June 20, 2002, over
2 months after glass breaking began, Smith used money from the Safety
Department budget to hire a consulting firm to test the quality of the air in the
factory.51 The results, which came back on June 27, showed that the air inside
the glass breaking booth was contaminated with cadmium at levels that greatly
exceeded the applicable OSHA standard.52 Smith, invoking his powers as a
safety officer, shut down the glass breaking booth the next morning.

      In a memorandum to his supervisors, Smith wrote that the booth could
be re-opened only after new safety measures had been implemented, including
blood tests of all staff and inmates for cadmium and lead exposure and the
purchase of respirators with cartridges that filter out toxic metals. In early
July 2002, Smith further advised his supervisors that tests of the used filters,
conducted at the expense of the USP Atwater Safety Department, found
concentrations of lead, barium, and cadmium that made them hazardous
wastes under EPA guidelines. Smith stated that the filters would have to be
handled as hazardous waste, with appropriate training, personal protective
equipment, and handling procedures.53

       On July 11, 2002, at UNICOR’s request, the BOP made its industrial
hygienist, Brett Sachs, available to assist with problems at USP Atwater.
Sachs began by helping UNICOR and Atwater officials to analyze the air quality
tests and understand what changes were needed. However, Sachs was never
deeply involved in solving USP Atwater’s contamination problems. Instead, he
told us he was generally “on the fringes” of the issue and was consulted only
from time to time to answer specific questions or conduct specific tests.

      In addition, Smith said that Novicky and Randolph prevented him from
obtaining information about recycling operations at other BOP institutions.
BOP e-mails show that on July 10, Randolph informed Novicky in an e-mail
that Smith was asking questions about the other e-waste factories. Randolph
informed Novicky that he had spoken with the Warden and obtained

       51Smith said that because UNICOR executives had refused to pay for the tests
using UNICOR money, Smith instead got permission from the Warden to use
approximately $2,500 from the Safety Department’s budget.
       52 The testing also revealed significant lead contamination, including possible

exceedances of the PEL, provided certain conditions were met. See FOH’s report on USP
Atwater for additional information on testing results.
       53  The former Production Controller at Atwater told us that disposing of the filters as
hazardous waste was expensive. The Production Controller advised Ginther in March 2003
that USP Atwater would spend $40,000 to $50,000 in the upcoming year on hazardous waste
disposal, an issue that Minnick promptly brought to Novicky’s attention.




                                               69 

assurances from him that Smith should only be concerned with events at USP
Atwater. Smith also told the OIG that after he halted glass breaking operations
at USP Atwater, Novicky told him in a conference call that he needed to “back
away” from issues regarding UNICOR’s glass breaking operations because he
did not have the ability to address those issues appropriately, and that
Recycling Business Group Program Managers and the BOP’s National Safety
Administrator, Steve Tussey, adopted a similar approach to his efforts. When
we asked Novicky about this, he told us that he did not want Smith telling
other Safety Managers that UNICOR was running unsafe operations until
UNICOR had more documentation.

      As described below, as a result Smith limited his communications with
other safety staff. However, Smith said he requested that Novicky provide him
with any UNICOR hazard assessments that showed that there were no health
and safety concerns with glass breaking operations elsewhere but that Novicky
refused to cooperate with him.

      In mid-July, the USP Atwater Warden, Ron Tabor, sent a 5-page
memorandum to the BOP’s Western Regional Director and UNICOR’s Chief
Operating Officer, Steve Schwalb, describing the recent test results and
outlining his concerns with the e-waste recycling program. He warned that
there were at least four similar UNICOR glass breaking operations that had not
had risk assessments performed.54 He urged UNICOR leaders to pay for and
develop a plan that would allow USP Atwater and the other recycling facilities
to operate safely. Tabor told us that he wrote the memorandum to keep the
Regional Director informed.

      Approximately a month later, Smith sent a memorandum to BOP Safety
Managers at three other institutions outlining the problems he had found at
USP Atwater.55 The memorandum, dated August 12, 2002, warned among
other things that inmates and staff were being exposed to dangerous levels of
toxic metals and that the filters that collected those metals should be treated
as hazardous wastes. Smith also suggested that UNICOR should be required
to fund safety initiatives. Smith told the OIG that with the exception of a
phone call to the Safety Department at FCI Elkton, he refrained from
contacting other institutions until he obtained approval from the USP Atwater
Warden to send his memo to other Safety Managers. He said that he delayed

       54 At that time, in addition to the glass breaking operations underway at FCIs Elkton,

Atwater, and Texarkana, FCI La Tuna had initiated glass breaking operations, beginning in
June 2002. In addition, planning was underway for additional glass breaking sites at FCI Ft.
Dix and USP Lewisburg. The operations at FCIs La Tuna and Ft. Dix and USP Lewisburg are
discussed in Sections II.D, II.E, and II.G.
       55According to Smith, he sent this memorandum at the instruction of the USP Atwater
Warden. Smith said that he sent the memorandum to safety staff at FCIs Elkton and Ft. Dix
and USP Lewisburg, although the memorandum was addressed to “All Safety Managers.”




                                              70 

these communications due to the “threats” he received from Novicky and others
about contacting institutions with glass breaking operations.

       We found no evidence that the memoranda prepared by Smith and Tabor
led UNICOR headquarters to address the health and safety issues associated
with CRT recycling by developing the suggested UNICOR-funded safety
program.56 Instead, UNICOR managers responded with incremental, ad hoc
adjustments.57 Novicky sent a memorandum to all recycling facilities on
August 13, 2002, that for the first time identified rudimentary procedures for
all glass breaking operations but did not require implementation of the
UNICOR-funded safety program recommended by Tabor and Smith. Instead,
Novicky prescribed adjustments to the factories’ existing practices, such as
requiring inmates in glass breaking areas to wear respirators, gloves, and
coveralls, as well as forbidding food, drink, and cigarettes in those areas. As
described below, this approach led to needless delays in fully protecting staff
and inmates at all UNICOR e-waste recycling facilities.

      Another UNICOR employee also told us he expressed concerns to Novicky
about health hazards associated with glass breaking operations during 2002
and 2003. Coleman Daggett, a Recycling Business Group Program Manager at
UNICOR Headquarters who initially was assigned responsibilities related to
glass breaking operations and environmental compliance, told the OIG that he
complained repeatedly to Novicky that the glass breaking operations that he
inspected, including USP Atwater’s, were not safe due to the heavy particulate
matter and lack of adequate ventilation. Dagget said that Novicky became
“visually upset” in response to his complaints. He said that after he
complained for the third time Novicky reassigned his glass breaking duties to
the Recycling Business Group’s other Program Manager, Carol Minnick.
Novicky told the OIG that he did not recall such a disagreement with Daggett,

       56  Smith also later wrote to BOP and UNICOR executives about his concerns. We
believe that Smith’s decision to elevate his concerns to senior managers was appropriate. For
In September 2004 he notified Director Lappin of hazards associated with breaking CRTs and
recommended that qualified professionals complete health and environmental assessments at
UNICOR’s e-waste factories. The BOP’s Health Services Division sent its industrial hygienist to
USP Atwater that month to address problems that Smith had identified. Moreover, Director
Lappin later recommended that the OIG investigate UNICOR’s e-waste recycling program after
learning that Smith’s complaints may not have been adequately addressed by a BOP internal
investigation.
       57  At some point, UNICOR officials apparently contacted an environmental consulting
firm with expertise in the necessary areas, for help with the problems at USP Atwater.
Documents found in UNICOR files show that in August 2002 the firm drafted a “compliance
plan” that proposed new UNICOR policies and procedures designed to “keep exposures to
hazardous chemicals . . . at the lowest practical levels.” Although this plan was developed
especially for USP Atwater, no USP Atwater or UNICOR official we interviewed said they
remembered seeing the proposed plan, and there is no indication that it was ever used to
improve safety in the recycling factory.




                                              71 

and that he reassigned glass breaking duties from Daggett to Minnick because
Minnick had more BOP experience.

              3.      Attempts to Resolve Problems with Glass Breaking

      During the 18 months following the adverse testing results in June 2002,
Atwater officials repeatedly modified the design of and equipment in the USP
Atwater glass booth, as well as the techniques used for breaking the glass, in
an attempt to restart operations and break CRTs safely. For example,
documents show that in September 2002 the booth was enlarged and plastic
curtains and additional fans were installed to help direct air flow towards the
back. Industrial hygienist Sachs made his first visit to a UNICOR recycling
factory that month, touring USP Atwater and making recommendations to
improve the booth’s design. He later told the OIG that the glass breaking booth
he saw at USP Atwater was a “Mickey Mouse hodgepodge.” Additional
modifications were made in November 2002.

      During the same time frame, in an additional attempt to reduce the dust,
UNICOR instructed the workers to break the CRTs using a few strategically-
placed taps with a small hammer. One UNICOR employee told us that UNICOR
stopped using the small dust masks and instead gave inmates who were
breaking glass respirators with high-efficiency particulate air (HEPA) filters that
did a better job of filtering the air they breathed.58 (This change was consistent
with the instructions issued by Novicky in August 2002, as discussed above).

      Although these and other changes led to some reduction in the
generation of dust, tests throughout 2002 and 2003 showed that the air quality
inside the glass booth still failed to meet OSHA standards. Moreover, these
tests were conducted in conditions that were not likely to detect the full scope
of contamination that occurred during routine glass breaking operations. Staff
and inmates told us that work was slowed while the testing was performed. As
a result, while computer disassembly continued during these years, glass
breaking was stopped after each test showing excessive contamination, and the
glass breaking re-opened some time later after some remedial modifications
had been made.

      Smith said that the booth was not closed as often as it should have been.
More than once, Smith said, he would order the booth closed but find several
days or weeks later that it had been re-opened without his permission.


       58  Besides these modifications, other proposed changes were rejected. Smith
stated in a July 2002 memorandum to his file that he had asked Randolph and Novicky
that HEPA filters be installed in the booth because the exhaust system discharged the
air back into the factory, but that they refused because of the cost of the HEPA filters.
These filters were not used at USP Atwater until sometime after June 2003.




                                              72 

      Novicky told the OIG that he would instruct Associate Warden Samuel
Randolph to restart operations in order to perform testing following a
modification to the glass booth. Randolph disputed this, stating that Novicky
would order him to restart operations to keep up with production and prevent a
backlog from developing.

      During the times the booth was operating, UNICOR staff was also not
consistently diligent in their efforts to operate it safely. For example,
documents reveal that in January 2003 the glass booth was operated for an
indeterminate length of time – possibly as long as 7 days – without any filters
on the exhaust fan. Because the air in the glass booth was sent directly into
the factory, the factory air was more contaminated during that period than
normal. According to Smith and memoranda that he prepared at the time,
when he was alerted about the problem he promptly ordered the booth shut
down until the filters could be installed, but Randolph overrode his
instructions.

       Events at USP Atwater resulted in the Recycling Business Group issuing
revised glass breaking procedures in June 2003. The new 14-page policy
replaced the single page of instructions that the Recycling Business Group
issued in August 2002, and provided guidance on numerous issues including
ventilation, personal protective equipment, medical surveillance, cleaning
procedures, and permitting.

       Inmate injuries from broken glass were also a problem when the booth
was operating. One staff member said that in the first few months of glass
breaking at USP Atwater one to three inmates a week would have to seek
medical attention due to serious glass cuts. Another UNICOR employee told us
that the cotton gloves initially purchased for the workers were not thick
enough, nor were the thin leather gloves that replaced them. The Kevlar
sleeves that were designed to protect the workers’ arms did not work well
either, he said. Eventually, according to the employee, UNICOR bought better
gloves and sleeves and modified the techniques for breaking the CRTs, which
resulted in fewer cuts to the inmates.

       In addition to insufficient protective equipment, inadequate tools also
contributed to inmate injuries. In October 2002, the Assistant Director of the
Health Services Division wrote to Warden Tabor at Atwater stating that BOP
industrial hygienist Sachs had learned from a recent inspection that
“numerous cuts and scrapes have been reported on the production lines” at
USP Atwater and that inmates were using tools incorrectly and lacked tools to
properly perform their duties. Sachs recommended that appropriate tools be
provided to the inmates in the USP Atwater recycling factory in order to limit
injuries. However, in April 2004, Program Manager Minnick inspected USP
Atwater’s recycling operations and determined that inmates still lacked
appropriate tools. In her trip report to Novicky, Minnick cited Sach’s earlier


                                       73 

observations. Minnick’s site visit was followed in October 2005 by an
inspection from OSHA, which also noted that inmates lacked access to proper
tools for certain disassembly operations.

       Safety Managers at FCIs Ft. Dix and Texarkana and USP Lewisburg told
us that information about inmate injuries was not shared between recycling
factories and that they were not informed before starting glass breaking
operations about problems with cuts and what gloves and protective gear were
being utilized elsewhere to protect inmates. These managers told the OIG that
they would have wanted to know what was being done at other institutions but
were not aware of the problem.

      Another concern associated with USP Atwater’s glass breaking activities
was potential dust contamination of food in the recycling factory’s inmate
dining area. Inmates complained that their food was exposed to dust by the
time they ate it. In May 2003, Smith wrote to the Factory Manager, Nicole Taft,
stating that he believed that testing needed to be performed. Wipe sampling
was not conducted on tables in the dining area until October 2004 by the BOP
industrial hygienist, who reported in December that the wipes showed
detectable levels of several toxic metals, including cadmium. After citing the
applicable OSHA regulation which provides that “[n]o employee shall be allowed
to consume food or beverages in a toilet room nor in any area exposed to toxic
material,” the hygienist recommended that the food service area be isolated
from the recycling factory “with doors, walls, and ceiling surfaces,” and a
separate ventilation system installed.59 Even after receiving this
recommendation in early December, UNICOR did not stop feeding inmates in
the unprotected dining area. Novicky informed Taft on January 5, 2005, that
he wanted to remove the dining area from the UNICOR factory “expeditiously.”
However, dining service was not halted until March 1, 2005. The Factory
Manager told the OIG that planning was underway in the interim concerning
the movement of the UNICOR inmates from the factory to the institution dining
hall.

       A photograph of the former inmate dining area appears below.




       59  29 C.F.R. 1910.141(g)(2). Single air samples were collected in January and February
2004 by a contractor, which showed small amounts of lead. FOH determined that these
limited tests were inadequate to draw conclusions about the safety of the dining area. See FOH
Report on USP Atwater.




                                             74 

                          PHOTOGRAPH 3.6 

  Former Dining Area Inside the UNICOR Factory at USP Atwater, 2007 





       In addition to problems with toxic metal contamination, storage of the
monitors created hazards for staff and inmates. For example, even though the
glass booth was closed at times, computers and TVs kept arriving. As a result,
USP Atwater started to overflow with unbroken CRTs and TV screens. UNICOR
staff told the OIG that the boxes of monitors were stacked to the rafters in the
factory and created a safety hazard due to the risk that the boxes would fall
over. By March 2003, documents show, USP Atwater officials had run out of
room inside and had taken 65 large cardboard boxes full of CRTs, plus another
2,500 televisions, and stored them outside.

      On November 1, 2003, a fire started in one of those outside boxes and
quickly spread. Substantial damage was done to the equipment that was
stored outside, and the water used to extinguish the blaze spread into the
surrounding area and a nearby drainage ditch. When officials learned that the
water was contaminated with hazardous metals, UNICOR had to pay
approximately $185,000 to have a private company clean up the resulting
contaminated soil, according to the Production Controller.

      In September 2004, Safety Manager Smith provided numerous
allegations of misconduct to the Director of the BOP and the Office of Special
Counsel regarding UNICOR’s e-waste program, including that staff and inmates
had been endangered by glass breaking operations at USP Atwater. On
November 15, 2004, the Office of Special Counsel requested an investigation of
Smith’s allegations after concluding that a substantial likelihood existed that



                                      75 

the actions taken by employees of the BOP and UNICOR violated laws, rules, or
regulations; amounted to an abuse of authority; or created a substantial and
specific danger to public health and safety. The BOP’s Office of Internal Affairs
conducted an investigation and found that Novicky committed “Inattention to
Duty” by failing to ensure that sufficient research on CRT recycling was
conducted before recycling operations started at USP Atwater. That
investigation further determined that Novicky was inattentive to his duties
when, after testing at USP Atwater showed exceedances of OSHA occupational
exposure limits, he failed to stop all CRT recycling long enough to guarantee
that additional exposures would not occur.60 The BOP also found that
Randolph endangered staff and inmates when he failed to immediately suspend
operations in the glass booth after learning that it lacked filters.

       UNICOR eventually decided to cease glass breaking operations at USP
Atwater in March 2005. By that time, UNICOR had moved the glass booth
from the main factory into a room on an adjacent loading dock and vented the
air from the booth to the outdoors. Even then, the glass booth was used only
sporadically because air testing continued to show unacceptably high levels of
contamination inside the booth.

       C.     FCI Texarkana

      Recycling operations at FCI Texarkana in Texas began in October 2001
with two recycling technicians and approximately 15 inmates. E-waste was
received at a warehouse outside the main prison compound and processed
there, as well as in the basement of the UNICOR factory inside the FCI.
UNICOR’s e-waste program at FCI Texarkana quickly expanded and employed
approximately 6 staff members and between 80 to 150 inmates that recycled
roughly 6 to 8 million pounds of electronics annually.

      According to the recycling Factory Manager, Eric Fabian, before opening
the new recycling factory, UNICOR staff from FCI Texarkana travelled to FCI
Elkton in September 2001 to observe recycling practices there. Fabian told the
OIG that the glass breaking operation at FCI Elkton “caught my attention”
because of the visible debris in the air and that the inside of the recycling
factory looked like a “flurry day.” Fabian said that along with other staff from

        60 The BOP issued a written reprimand to Novicky in 2006 for Inattention to Duty

related to the activation of the USP Atwater glass booth and for his failure to order a shut-down
of the booth after he learned that it was operating without filters in early 2003, as described
below. The letter subsequently was removed from Novicky’s personnel file, however, pursuant
to a settlement between Novicky and the BOP in 2007 that resolved a complaint that Novicky
filed with the Equal Employment Opportunity Commission alleging age discrimination.
Novicky told the OIG that he felt he was “being targeted as a scapegoat for the [BOP’s]
investigation and consequently I didn’t agree with their findings.”




                                               76 

FCI Texarkana he asked whether the factory was safe, and was told that air
samples had been taken and there was not a problem.

       Fabian stated that when he returned to FCI Texarkana he worked with
his staff to design procedures to eliminate the airborne particles resulting from
breaking CRTs. He said that he did not receive much assistance from UNICOR
Headquarters in designing the new factory and setting up operations. Fabian
recalled a visit from Ginther and staff from FCI Marianna, but he said that
decisions about the initial layout of the work areas were made locally. He
noted that UNICOR did not have written procedures to assist staff until 2003.

      In December 2001, UNICOR began glass breaking operations in the
basement of the UNICOR factory at the FCI. According to the recycling
technician who oversaw those operations, the inmates at times broke more
than 1,000 monitors per day. To limit the amount of visible debris in the air,
Fabian said that he installed a dust collection hood over the area where the
monitors were broken, and connected it to the ventilation system for the
furniture factory on the floor above the recycling operations. Staff told the OIG
that the ventilation system in the recycling factory lacked filters and the dust
from the glass breaking was collected in a box outside of the furniture factory
and placed in the trash.61 Fabian told the OIG that no one informed him that
the dust from glass breaking could be hazardous.

       UNICOR staff and inmates told the OIG that despite UNICOR’s efforts to
exhaust the glass breaking debris, large quantities of dust were generated from
breaking the monitor glass and were released into the factory. One UNICOR
staff member said that the area where monitors were broken “most days was
like a snowstorm,” and that containment of the dust was difficult because fans
used to cool the workers would blow the debris through the factory and staff
and inmates would track it around as they walked. Inmates who worked at
tables disassembling computers adjacent to the glass breaking area told the
OIG that UNICOR’s efforts to contain the debris were not successful and that
their work areas often were covered in dust.

      FCI Texarkana inmates who broke glass were not initially provided
respirators. Fabian stated that inmates were given paper dust masks, not
respirators, though the recycling technician who oversaw glass breaking said
that he did not distribute dust masks until approximately six months after the
glass breaking started. Respirator fit testing, or evaluating the respirator’s seal
on the user, was conducted by September 2002, according to Fabian, and
inmates breaking glass had respirators by October 2002, when industrial

       61 A former Associate Warden at USP Atwater who visited FCI Texarkana told the OIG
that the debris from the glass breaking operation was mixed with sawdust from the furniture
factory. He said that the sawdust was being sold to a particle board manufacturer.




                                             77 

hygiene testing was first performed on Texarkana’s recycling operations.62 This
was consistent with the first set of glass breaking procedures sent out by
UNICOR Headquarters in August 2002 in the wake of the June 2002 USP
Atwater test results. UNICOR records do not reflect whether glass breaking at
FCI Texarkana was suspended prior to inmates receiving their respirators.

       The Safety Manager at FCI Texarkana, Louis Gabriel, stated that
UNICOR did not inform him of any hazards associated with e-waste recycling,
including the breaking of CRTs. UNICOR staff and inmates also told the OIG
that they did not receive training on possible hazards from glass breaking
operations during 2001 and 2002. Gabriel told the OIG that “[w]e really didn’t
have a whole lot of information at the start of this” but that he had learned
from Fabian that the (August 2001) testing results at FCI Elkton had
established that the dust from glass breaking did not pose a hazard. He stated
that over time, however, he became concerned with the dust conditions
resulting from the glass breaking operations and insisted that UNICOR perform
testing.

       Fabian told the OIG that he became dissatisfied with the working
conditions at the UNICOR factory at the FCI in the spring of 2002 and decided
to relocate the glass breaking booth to a barn at a prison camp adjacent to the
FCI in approximately May of that year. UNICOR staff told the OIG that the
barn was extremely dirty and that the dust from the glass breaking operation
was exhausted directly outdoors using a large fan that was built into the wall.
Inmates were furnished the same protective equipment that they had at the
FCI and therefore lacked respirators. Fabian and other UNICOR staff said that
glass that was processed at the barn kept getting rejected by UNICOR’s glass
recycler due to contamination and mixing of panel and funnel glass, and that
UNICOR decided to bring the glass breaking back to the FCI where it could be
better supervised.

      In approximately September 2002, UNICOR returned its glass breaking
operations to the basement of the FCI. Fabian stated that he had his staff
construct a new glass breaking booth from plywood, screen, and plastic before
restarting the glass breaking operation because he wanted to better control the
debris from the broken glass. He said that he designed the new glass breaking
booth with assistance from his two recycling technicians.

      UNICOR staff told the OIG that the new glass breaking booth was an
improvement, but the recycling technician who oversaw it stated that debris
was still exiting the glass breaking area and “was everywhere” in the factory.
Fabian told the OIG that he never consulted with an engineering firm about the

      62 UNICOR documents show that inmates who broke glass wore dust masks as of

August 2002.




                                         78 

design of the glass breaking booth. He stated that he was not aware that there
were hazards that warranted seeking such advice. He also stated that he did
not recall anyone from UNICOR Headquarters sharing with him adverse testing
results from other factories, such as USP Atwater.

      Safety Manager Gabriel said that by late September 2002 he informed
Fabian that he was prepared to shut down the glass breaking operations if
testing was not performed. Gabriel stated that UNICOR agreed to perform the
testing and that the Warden was supportive. Fabian also told the OIG that
Gabriel insisted that the testing be conducted.

      Gabriel also told the OIG that UNICOR never notified him of the testing
results at USP Atwater in 2002 and 2003 showing exceedances of OSHA
occupational exposure limits for cadmium and lead. He said he felt it would
have been helpful to him as the Safety Manager to know about the tests. We
found that medical surveillance was not instituted at FCI Texarkana until more
than six months following the first USP Atwater test results in June 2002, even
though inmates had been breaking glass without respirators since December
2001.

       As noted above, in May 2003 the Recycling Business Group distributed
new glass breaking procedures that addressed permitting, engineering controls,
safety equipment, respiratory protection, cleaning requirements, and medical
surveillance of recycling staff and inmates. After receiving the new policy,
Fabian made repeated requests to Program Manager Minnick to upgrade the
glass breaking booth, stating that it was “not up to standard.” However, the
Recycling Business Group delayed the upgrade even though Minnick
acknowledged in an e-mail to Novicky 6 months following Fabian’s first request
that “Texarkana is currently operating a glass operation with no ‘booth’ (per se)
that is similar to the other locations.”

      UNICOR Headquarters eventually authorized approximately $19,000 in
funding to replace FCI Texarkana’s glass breaking area. The new “booth”
opened at the camp warehouse in June 2004, and eventually included a 7-zone
design that separated the glass breaking area from areas where inmates
change clothes and deliver CRTs to the glass breakers. The FCI Texarkana
glass booth is depicted in Diagram 2.3. Fabian told the OIG that he kept glass
breaking operations running following his requests for an upgrade in the
summer of 2003 because UNICOR Headquarters instructed him to do so.

      Our investigation also determined that as late as 2008, Fabian and
Gabriel were not aware that filters from glass breaking operations at other
UNICOR facilities were handled as hazardous waste. Testing performed by
UNICOR in 2009 on FCI Texarkana’s filters confirmed that they exceeded




                                       79 

toxicity-characteristic regulatory levels, making them hazardous waste.63 As
detailed above, UNICOR became aware in July 2002 that such filters at USP
Atwater failed EPA hazardous waste tests. In addition, we found that dust
from the glass breaking area at FCI Texarkana that was collected by the former
furniture factory ventilation system until 2004 was placed in the trash or
possibly sent to a particle board manufacturer.

      E-waste recycling operations continue at FCI Texarkana, although glass
breaking was halted in May 2009 as it was at other UNICOR e-waste factories.

       D.     FCI La Tuna

      UNICOR started recycling activities at FCI La Tuna in Texas in June
2002. Similar to other UNICOR recycling operations, e-waste was received at a
warehouse outside of the main prison compound where camp inmates sorted it
and prepared it for disassembly. Computers, monitors, and other e-waste were
sent inside the FCI to the UNICOR factory for disassembly. Some e-waste was
also disassembled at the warehouse. UNICOR employed approximately 125
inmates that were supervised by 4 staff members as well as a Factory Manager.

       Before recycling operations began, the Safety Manager at FCI La Tuna,
Vincent Talley, communicated with a UNICOR supervisor about the prospect of
initiating glass breaking operations. Talley told the OIG that the UNICOR
supervisor contacted him and requested information about respiratory
protection and potential hazards. UNICOR e-mail shows that Talley informed
the supervisor in April 2002 that “[b]efore any breaking of monitors occurs we
need more information from UNICOR on the procedures and process that are
going to occur to ensure the employees and inmates [have] protection.” Talley
told the OIG that UNICOR wanted to initiate the glass breaking operations
soon, but that by late April 2002 UNICOR had placed its glass breaking
proposal “on hold” pending resolution of his safety concerns.

       Talley told the OIG that after conferring with Brett Sachs, the BOP’s
industrial hygienist at BOP Headquarters, he believed that it was necessary to
consult with an industrial hygienist who could conduct testing at the factory,
and that he expected UNICOR to provide assistance with the testing. He said
that while UNICOR “probably” provided some information to him, it was not
sufficient for him to determine the safety of the proposed glass breaking
operations and that he did not recall UNICOR ever bringing a hygienist to the
institution to conduct testing. Talley told the OIG he had no recollection of
UNICOR personnel sharing the June 2002 testing results from USP Atwater

       63 After evaluating the volume of FCI Texarkana’s hazardous wastes for periods where
records were available, EPA found that FCI Texarkana currently was conditionally exempt from
hazardous waste regulation. Since 2004, FCI Texarkana disposed of its used glass booth filters
with a commercial waste company.




                                             80 

with him, and that he would have expected UNICOR to notify him if it was
aware of significant problems with its glass breaking operations at other
institutions.

      According to Talley, by late June 2002, UNICOR decided to initiate glass
breaking operations at the UNICOR factory at FCI La Tuna. UNICOR staff said
that the glass breaking area was set up by the UNICOR Factory Manager and
included a paint booth and two tables where the monitors were broken. The
broken glass was collected in gaylord boxes and sent to the warehouse before
being shipped to UNICOR’s glass recycler in Ohio. A UNICOR staff member
stated that the boxes were initially stored outdoors at the warehouse and that
the practice was discontinued because the Safety Office objected to the runoff
coming from the boxes following rain storms.

       Inmates who worked in the glass breaking area stated that the
ventilation was not adequate to control the resulting dust and debris, which
spread throughout the recycling factory. They also said that they lacked
proper respiratory protection and were provided only paper dust masks. One
inmate stated that after breaking glass with a paper dust mask for
approximately 2 weeks, he was fit tested for a respirator and broke glass for
another 2 weeks before the operations were permanently stopped.

      By mid-July 2002, Talley instructed UNICOR to halt the glass breaking
operation due to safety concerns. Afterwards, UNICOR made adjustments to
the design of the glass breaking area, including the installation of a ventilation
duct to the outdoors. However, glass breaking did not resume at FCI La Tuna.
Before allowing these operations to continue, the FCI La Tuna Safety Office
required UNICOR to establish that the inmates were medically cleared for
respirator use, a base-line lead study had been completed, area and personal
air monitoring performed, and glass samples tested. UNICOR did not satisfy
these conditions and the glass breaking operation therefore remained shut
down.

       UNICOR continued disassembly operations at FCI La Tuna after glass
breaking ceased. However, by December 2003, UNICOR decided to cease all
recycling at the institution due to financial losses. FCI La Tuna’s existing
inventory of e-waste was then sent to FCI Texarkana for processing.

      E.    FCI Ft. Dix

       UNICOR opened an e-waste recycling factory at FCI Ft. Dix in New Jersey
in 1999. UNICOR’s current Factory Manager at FCI Ft. Dix, Corey Saunders,
told the OIG that e-waste recycling at Ft. Dix during 1999 and 2000 focused on
refurbishing computers that could be resold and disassembling the others into
their component parts. Computer monitors that could not be resold were sent
to FCI Elkton for processing. Saunders said that 30-50 inmates typically were



                                        81 

assigned to recycling and were overseen by 3 UNICOR staff members. Since
2002, UNICOR’s e-waste program at FCI Ft. Dix has expanded and typically
has employed approximately 5 staff members and between 90 to 120 inmates
that recycle 4 to 5 million pounds of electronics per year.

       UNICOR failed to obtain authorization for its early e-waste recycling
activities from the New Jersey Department of Environmental Protection
(NJDEP) even though it was informed in 1999 that this approval was
necessary. We discuss this issue further in Chapter Five.

      In 2001, UNICOR decided to open a glass breaking operation at FCI Ft.
Dix comparable to its FCI Elkton operation. Factory Manager Saunders told
the OIG that Novicky informed him that it would be necessary to break CRTs.
Saunders said he felt that the operation was “shoved down my throat.” The
Safety Manager at FCI Ft. Dix also told the OIG that he expressed concerns to
Saunders about the safety of the proposed glass breaking operations. He
stated that UNICOR Headquarters was adamant about FCI Ft. Dix processing
CRTs, and “whether we had any issues with it or not, they said it was going to
happen anyway.”

       The Safety Manager stated that he proposed building three rooms – a
“clean room” for inmates to remove and put on their prison uniforms, a
changing room for glass breaking uniforms, and a room for the glass breaking.
He said that Saunders supported his approach but that they were
unsuccessful in getting approval for it from UNICOR. According to Saunders,
UNICOR Headquarters instead wanted him to use a paint booth from another
institution and “retrofit” it for glass breaking, which he did. He said that he
designed the glass breaking area with the assistance of a recycling technician.

       Saunders also said that Novicky and Minnick wanted him to start
breaking glass immediately but that he resisted and explained that he would
first need to consult with NJDEP. He said that his intention to contact NJDEP
“created a whole firestorm within itself” but that he insisted it was necessary
before FCI Ft. Dix proceeded with glass breaking.

      In August 2001, Novicky and Ginther travelled to New Jersey to meet
with regulators to learn about permitting requirements. According to a
representative of NJDEP who attended the meeting, Paula Steele, the State was
concerned about the safety of UNICOR’s proposal to break monitor glass
manually with hammers due in part to fears that it would result in
uncontrolled releases of lead laden dust from the broken CRTs. UNICOR
thereafter attempted to arrange for a representative of NJDEP to visit FCI
Elkton in Ohio in November 2001 to observe how UNICOR processed CRTs.
However, Steele advised UNICOR Program Manager Carol Minnick that she
would not be able to travel to FCI Elkton due to a lack of funding but that she
was willing to review a video of the glass breaking, or in the alternative still


                                       82 

photos, provided that “a very detailed description of the process” was also
furnished. Steele told the OIG that she expected the video to be a “true
representation” of UNICOR’s glass breaking process.

       We determined, however, that the video that UNICOR provided to NJDEP
with its permit application was deceptive and failed to accurately represent
UNICOR’s glass breaking procedures. We also found that the Recycling
Business Group rejected the first video that staff at FCI Elkton made for
NJDEP in part because it showed too much glass breaking dust and debris in
the air. We discuss these issues further in Chapter Five.

       Saunders told the OIG that at the time that he was trying to bring the
glass breaking operations on-line he was not aware of problems with the
operations at other institutions. He stated that he was not informed about the
testing results at USP Atwater in the summer of 2002 or that safety managers
at USP Atwater and FCI La Tuna had identified problems with UNICOR’s
processing of CRTs and had shut down the operations as a result. The former
Safety Manager at FCI Ft. Dix also told the OIG that he was not informed by
UNICOR of safety issues with USP Atwater’s glass breaking operations and was
not advised that lacerations were a problem. Saunders stated that whatever
safety initiatives were carried out in the recycling program at FCI Ft. Dix was
because of the local staff and not UNICOR Headquarters. He also stated that
training during the first few years of the recycling program was non-existent
and “there was nothing in writing.”

      According to Saunders, due to lengthy delays associated with permitting
requirements imposed by NJDEP and local regulators, UNICOR did not open an
enclosed glass breaking booth at FCI Ft. Dix until 2003. Following its
evaluation of UNICOR’s permit application materials submitted in early 2002,
NJDEP issued UNICOR a Certification of Authority to Operate (“Certificate of
Authority”) in May 2002 granting UNICOR permission to disassemble e­
waste.64 Saunders proceeded to design and install the new glass breaking
booth, which was completed by October 2002.

      Saunders obtained an air permit for the glass breaking operations in
February 2003, and an amendment to the Certificate of Authority in March
2003 that authorized FCI Ft. Dix to process CRTs. Saunders told the OIG that
glass was not broken at FCI Ft. Dix until the operation was “verifiably
permitted” by regulators and that for much of the first year glass was not being
broken because he was completing testing on the glass booth’s safety. UNICOR




        64 Following receipt of its Certificate of Authority, UNICOR renewed it until obtaining a

recycling permit in August 2005.




                                               83 

documents show that FCI Ft. Dix started making shipments of broken glass to
glass recyclers starting in June 2003.65

       Respirators and other personal protective equipment were provided to
FCI Ft. Dix inmate glass breakers starting in 2003, as required by UNICOR’s
August 2002 and June 2003 glass breaking procedures. Staff at FCI Ft. Dix
also provided detailed training to inmates on proper use of respirators, fit
checks, and cleaning and storage of the respirators. However, we found no
evidence that a hazard assessment was completed on glass breaking involving
electron gun removal from CRTs that was performed at FCI Ft. Dix prior to the
construction of a glass breaking booth. Moreover, inmates were not provided
respirators for this work.

      FCI Ft. Dix stopped glass breaking operations in approximately
September 2004, after an inmate who worked in the glass breaking area was
seriously cut while breaking monitors. According to a UNICOR staff member,
the severity of the inmate’s injury, a laceration on the inmate’s forearm that
exposed muscle and required approximately a dozen stitches, combined with
the refusal of custodial staff to authorize thicker gloves for the inmates who
broke glass, convinced local UNICOR managers that glass breaking should not
continue. Saunders told the OIG that the permitting and testing costs
associated with glass breaking, such as air emissions testing, had become
prohibitively expensive.

       F.     FCI Marianna

       The success of the Product Support Center’s pilot project discussed at
the beginning of this chapter led UNICOR to locate a permanent recycling
operation at FCI Marianna in Florida. Starting in mid-1997, the pilot project
concluded and approximately 15-20 female inmates began disassembling
electronic equipment and computers at the prison camp at FCI Marianna full-
time under the supervision of a UNICOR Factory Manager and Factory
Foreman.

      Since then the location of the recycling operations changed numerous
times and included rented buildings off prison grounds between 1998 and

       65  Although glass breaking operations involving processing of the entire CRT did not
begin until 2003, a former UNICOR Assistant Factory Manager, Ryan Upton, said that during
the time that he worked in the e-waste factory from 1999 through 2001, inmates were
instructed to remove the electron gun on the CRTs, which involved striking the CRT with a
hammer and breaking the glass seal that holds the gun in place. Upton said that during
removal of the electron gun dust would be released from inside the CRT and that the funnel
glass adjacent to the gun would at times shatter. He said that the dust was visible in the air
when this work was performed and that he obtained dust masks for the inmates to wear.
Upton estimated that FCI Ft. Dix received 10,000 to 15,000 monitors a month for disassembly
or refurbishing when he worked there.




                                              84 

2003. Recycling currently is performed at a factory inside the FCI and at a
warehouse in the female prison camp. During 2008 and 2009, Marianna was
UNICOR’s largest e-waste factory, employing approximately 6 staff members,
between 225 and 270 inmates, and receiving roughly 8 to 9 million pounds of
e-waste each year.

       UNICOR sought to establish glass breaking operations at FCI Marianna
in 2003 but was initially unsuccessful in persuading the Marianna Warden to
permit this work.66 UNICOR documents show that General Manager Novicky
wanted to open a glass breaking area at FCI Marianna in order to avoid the
cost of shipping monitors to FCI Texarkana (which as described earlier had
initiated glass breaking operations in late 2001) and because the FCI
Texarkana factory’s capacity to process additional glass was limited. In
February 2004, the FCI Marianna Warden responded to Novicky that due to
environmental concerns and other considerations, she did not want glass
breaking operations at FCI Marianna.67

       By early 2005, UNICOR succeeded in persuading the FCI Marianna
Warden to authorize glass breaking operations. By this time UNICOR had been
breaking CRTs in large quantities at other BOP facilities (FCI Elkton, FCI
Texarkana, USP Atwater, USP Lewisburg, and FCI Ft. Dix) for several years.
However, Factory Manager Blake Turner said that UNICOR Headquarters never
notified him of health and safety problems at other institutions, including those
related to glass breaking, and that he would have expected to receive such
information. After describing to us the lack of guidance, information sharing,
and safety instruction from UNICOR Headquarters, as well as the absence of
standard operating procedures for the first six years that UNICOR was
performing e-waste recycling, he said that the recycling program “was not being
handled properly from the get go.”

       66  Prior to 2002, computer monitors that arrived at FCI Marianna were resold or later
sent to FCI Elkton for further processing. Witnesses disagreed about whether glass breaking
occurred at FCI Marianna before that time. Some UNICOR staff and inmates stated that CRTs
were broken inside semi-trailers. UNICOR staff said that they used hammers to break the
CRTs in gaylord boxes to reduce the space that they took inside the trailers and to increase
shipping weight, and that UNICOR did not provide any respiratory protection for this work.
Other UNICOR recycling staff told the OIG that they never witnessed glass breaking inside
semi-trailers. NIOSH also reported that some staff members refuted the allegations and stated
that monitor glass was not broken inside semi-trailers. We were not able to locate documents
that corroborated either view.
       67  Witnesses told us that successive Wardens at FCI Marianna had resisted glass
breaking operations due to risks of birth defects in the female inmate population. According to
EPA, exposure to lead during pregnancy produces toxic effects on the human fetus, including
increased risk of preterm delivery, low birth weight, and impaired mental development. See
http://www.epa.gov/ttn/atw/hlthef/lead.html, citing Agency for Toxic Substances and Disease
Registry (ATSDR). Public Health Service, U.S. Department of Health and Human Services,
Case Studies in Environmental Medicine, Lead Toxicity, Atlanta, GA, (1992).




                                              85 

      Turner told the OIG that staff and inmates constructed the glass
breaking area at the female prison camp. He said that UNICOR did not seek
the advice of a professional engineer or industrial hygienist but that staff from
other UNICOR recycling factories came to Marianna to assist.68

       A photograph of the glass breaking area appears below.

                                PHOTOGRAPH 3.7 

                        Glass Booth at FCI Marianna, 2007 





      Prior to initiating glass breaking operations in 2005, consistent with the
May 2003 glass breaking procedures issued by the Recycling Business Group,
UNICOR provided staff and inmates with training and furnished warnings
about the potential hazards from this work. UNICOR also obtained advice from
the Florida Department of Environmental Protection on permitting issues.
Inmates who broke glass were provided respiratory and eye protection and
wore tyvek suits, which are disposable suits that protect against chemicals,
paint, and other contaminants.

       Turner told the OIG that an inmate was seriously cut from broken glass
after the glass breaking operation started. He stated that he was not aware

       68 Turner stated, however, that an inmate with experience in industrial hygiene

assisted with the set-up of the new glass breaking area. He said that the inmate proposed
creating a “clean room” and “changing area,” but that these ideas were rejected by UNICOR
Headquarters, as had occurred at FCI Ft. Dix.




                                             86 

whether similar injuries occurred at other UNICOR glass breaking operations.
As a result of injuries, glass breaking operations at FCI Marianna were
temporarily suspended in 2006.

      In May 2008, UNICOR closed its glass breaking operation at FCI
Marianna. Novicky said that economic considerations factored into the
decision to cease glass breaking at FCI Marianna.

      G.    USP Lewisburg

       Planning for an e-waste factory at USP Lewisburg in Pennsylvania started
in early 2002. UNICOR RBG General Manager Novicky was attempting to
identify another institution in the Northeastern United States, in addition to
FCIs Elkton and Ft. Dix, where a recycling factory could be located that could
help process the increasing volumes of e-waste that UNICOR was receiving
from DRMS and other sources. He was especially concerned with obtaining
additional capacity at USP Lewisburg to recycle CRTs, and requested that
Lewisburg staff visit FCI Elkton to observe its recycling operations.

      In approximately February 2002, Associate Warden Gerald Pace travelled
to FCI Elkton with other personnel from USP Lewisburg, including Michael
Rackley, the future Production Controller and Industrial Specialist. Pace said
that he was not impressed with the sanitation of the FCI Elkton recycling
operations, especially the glass breaking, and did not want to replicate FCI
Elkton’s glass breaking procedures at USP Lewisburg. Rackley said that the
FCI Elkton recycling factory was “fairly cloudy” from the airborne debris from
the glass breaking.

       Rackley and a newly hired recycling technician, Fred Waddell, told the
OIG that they received little guidance from UNICOR Headquarters concerning
the setup of the new factory at USP Lewisburg. Rackley said that he believed
that staff at UNICOR Headquarters lacked knowledge about how recycling
factories operate. He said that as he was supervising set up of the new factory,
no one from UNICOR warned him of potential hazards from recycling e-waste.
Rackley said that he was not aware that BOP safety personnel had expressed
concerns about the FCI Elkton and USP Atwater glass breaking operations and
stated that he would have wanted to know about their concerns. He said that
he also should have been told about the correspondence that Ginther received
in 2000 that concerned serious violations of the OSHA cadmium standard
related to processing CRT glass, and that he was not told about the June 2002
USP Atwater test results.

       The recycling factory at USP Lewisburg opened in August 2002, although
recycling operations did not start until April 2003 after a permit was obtained
from the Pennsylvania Department of Environmental Protection. Prior to




                                      87 

receiving the permit, USP Lewisburg resold electronic items that were
functional.

      All recycling was performed in facilities at a prison camp adjacent to the
penitentiary, including warehousing and disassembly of e-waste. Two staff
members, Rackley and Waddell, oversaw approximately 50 inmates. Since
2003, UNICOR’s e-waste program at USP Lewisburg expanded and typically
has employed three staff members and an Industrial Specialist, Rackley, from
the Recycling Business Group who is stationed at USP Lewisburg. Inmate
employment generally has fluctuated between 60 to 90 inmates that recycle 4
to 7 million pounds of electronics per year.

      Glass breaking operations did not start at USP Lewisburg until October
2003, more than a year after the recycling factory opened. Rackley told the
OIG that prior to that time UNICOR Headquarters wanted him to install a glass
breaking area like the ones that were in use at FCI Elkton and USP Atwater
and that relied on a metal hood to trap the airborne particles from the broken
glass. Rackley stated that his reaction to the pictures that UNICOR
Headquarters provided him of the other institutions’ glass breaking areas was
that they seemed to be “cobbled together [Rube] Goldberg operation[s].” He
said that he conferred with Waddell and that he decided to consult an engineer
who could assist with development of a design for USP Lewisburg’s glass
breaking area. The engineer rejected use of a collection hood and instead
recommended that UNICOR purchase HEPA filtration devices such as the ones
pictured below.




                                       88 

                               PHOTOGRAPH 3.8 

                   Inside Glass Booth at FCI Texarkana, 2008 





      After receiving the engineer’s recommendation, Rackley also conferred
with the BOP’s industrial hygienist about the proposed HEPA filtration system
as well as acquiring powered air purifying respirators for inmates who would be
working in the glass breaking area. Other UNICOR recycling factories were
using half or full mask respirators. Novicky agreed to use of the HEPA system,
provided that testing at USP Lewisburg confirmed its effectiveness. All UNICOR
glass breaking operations eventually adopted use of the HEPA system and
powered air purifying respirators that USP Lewisburg acquired.

      E-waste recycling operations are continuing at USP Lewisburg. However,
glass breaking ceased in May 2009 when UNICOR decided it would no longer
allow this activity at its factories because it was not cost effective.

       H.     FCI Dublin

       UNICOR operated a small electronics recycling facility at FCI Dublin in
California for about two years, from mid-1998 until late 2000.69 The facility,
which was in the corner of a warehouse, was used to receive and store supplies
for other UNICOR factories and employed approximately seven inmates and one
staff member.


        69 UNICOR documents also indicate the recycling may have occurred at FCI Dublin for

a brief period in approximately 1994-1995.




                                            89 

      Although the facility recycled small computers and other small electronic
equipment, most of the work involved taking apart and recycling large
“mainframe” computers that were no longer needed by the military. As at other
UNICOR recycling facilities, commodities such as copper, metal, and plastic
were retrieved from the computers and resold to recyclers.

      Unlike some other UNICOR facilities, FCI Dublin never broke any CRTs.
Instead, they were boxed and sent intact to a private recycler. According to
former UNICOR Program Manager, Pauline Quinn, Dublin’s e-waste operations
were so small that she did not perform routine oversight of activities there.

      I.     FCC Tucson

      In July 2004, UNICOR authorized development of an e-waste recycling
factory at FCC Tucson in Arizona to address the increasing volume of
computers and other electronics UNICOR was receiving from the West Coast
and Southwestern United States.70 The new recycling factory obtained its first
load of e-waste in February 2005.

      The layout UNICOR selected for its recycling operations at FCC Tucson
resembled the design used at most other BOP institutions. Incoming material
was received at a warehouse located at a prison camp within the FCC where it
was screened and sorted. It was then sent to a recycling factory at the FCI for
disassembly. Approximately 25 inmates initially were assigned to the recycling
program in 2005 and were overseen by a Production Controller and 4 recycling
technicians. By 2008, the number of inmates increased to approximately 80
and 25 inmates respectively at the FCI and minimum security camp.

      In a noteworthy departure from past practice, before initiating recycling
operations at FCC Tucson, UNICOR Headquarters furnished local staff with the
Recycling Business Group’s standard operating procedures and required that
the local staff document necessary training, perform air and wipe sampling,
and complete medical testing. UNICOR also sought and received guidance
from the Arizona Department of Environmental Quality on state regulations
related to CRT processing. Inmates told the OIG that they received training on
cadmium and lead hazards prior to starting their work for UNICOR.

      In addition to computer disassembly, UNICOR initially intended to
establish a glass breaking area at FCC Tucson. In December 2004,
construction began at the FCI on a room made from heavy plastic to which
UNICOR added a HEPA ventilation system. A photograph of the glass breaking
area appears below.


      70 The FCC includes a maximum security prison, a medium security FCI, and a

minimum security prison camp.




                                          90 

                            PHOTOGRAPH 3.9 

                 Glass Breaking Booth, FCC Tucson, 2005 





       An inmate who assisted with the room’s construction told the OIG that
he was given photographs of the glass breaking area at FCI Texarkana and told
to replicate it as best he could. He stated that he was selected for this work
because he was a welder and had construction experience.

      UNICOR never activated the glass breaking area, however. In December
2005, it was torn down and FCC Tucson’s glass breaking equipment was
shipped to FCI Texarkana. Monitors received by FCC Tucson for processing
were sent to other UNICOR recycling locations.

      Following UNICOR’s decision in May 2009 to suspend its glass breaking
operations nationwide, monitors received by UNICOR for recycling at FCC
Tucson are now disassembled and the glass tubes sent to contractors for
further handling.

      J.    USP Leavenworth

      USP Leavenworth in Kansas was the latest BOP institution to open a
UNICOR e-waste recycling operation. Efforts to set up the new factory started
in May 2007, and included the improved initiation practices that were used at
FCC Tucson, such as furnishing staff with the Recycling Business Group’s
standard operating procedures. Recycling operations, which are limited to
disassembling e-waste, began in August 2007 with 4 staff and 45 inmates at a
warehouse located at the prison camp at Leavenworth. Before starting these
operations, UNICOR obtained an e-waste recycling permit from the Kansas


                                     91 

Department of Health and Environment – the first such permit issued by the
State. Prior to UNICOR’s cessation of glass breaking operations in June 2009,
USP Leavenworth sent its nonfunctional monitors to FCI Texarkana for
processing.

      K.    Other Recycling Projects

       In addition to disassembling computers, monitors, and other peripheral
devices such as printers, the Recycling Business Group started other recycling
projects at UNICOR e-waste factories. For example, in 1999, UNICOR
established a program with the Department of Defense to disassemble used
military equipment (“de-mil” items) at the prison camp at FCI Marianna. The
current FCI Marianna Factory Manager, Blake Turner, told the OIG that the
“de-mil” operation frequently involved disassembling complex military
equipment, such as avionics and submarine parts, and that the items often
contained warning labels regarding hazardous chemicals. Turner said that the
UNICOR staff did not know what exactly was in the de-mil items but they
recycled them anyway. He stated that he did not receive any health or safety
training concerning this work and that UNICOR did not conduct a hazard
assessment before starting the de-mil project. In similar fashion, UNICOR
started another project at FCI Marianna in 2003 to refurbish monitors, which
involved sanding and repainting the plastic casing. Turner told the OIG that a
hazard assessment also was not conducted on these operations before they
started.

      FCI Elkton also started e-waste projects that involved work other than
disassembly. In August 2005, Novicky reached agreement with a private
company that called for UNICOR to recover computer chips from circuit boards
and to refurbish computer monitors at FCI Elkton. The chip recovery project
involved heating circuit boards over pots of molten solder and then plucking
the computer chips from the boards. Monitors were also refurbished by
sanding and painting, as at FCI Marianna.

       In September 2005, the FCI Elkton Factory Manager, Steve Heffner,
requested material safety data sheets from the company and e-mailed one of its
representatives along with Novicky and Ginther to explain that UNICOR was
“looking into ventilation options for the solder pots” and wanted to know where
the company purchased its “fume hoods.” The material safety data sheet for
the solder stated that it was “harmful by inhalation” and that “good
ventilation/exhaustion at the workplace” was necessary in order to ensure safe
handling of the solder.

       The new operations started in October 2005 at a factory at the Federal
Satellite Low (FSL) at Elkton where roughly 60 inmates disassembled




                                      92 

computers.71 UNICOR assigned approximately a dozen inmates to remove
computer chips while several others refurbished monitors at another location
within the factory. Prior to beginning this work, UNICOR did not install a
ventilation system at the FSL factory to remove fumes from the chip recovery
project. UNICOR and the BOP also did not complete an assessment of
potential hazards resulting from the new operations, including sanding of the
plastic casing for the computer monitors.72

       UNICOR staff and inmates told the OIG that the chip recovery work
generated smoke and fumes, which one UNICOR staff member characterized as
a “foul smelling haze” that filled the factory. He stated that he began to feel
light headed when he was on duty. Inmates reported similar experiences to the
OIG, and several inmates quit their jobs with UNICOR rather than work in the
FSL factory, resulting in a significant loss of pay to them.

      In January 2006, a Recycling Business Group inspection at FCI Elkton
noted that ventilation hoods should be installed immediately in the chip
recovery area at the FSL factory. The UNICOR Recycling Business Group’s
Superintendent of Industries at Elkton, Craig Dalton, authorized installation of
a ventilation system that month that was assembled by UNICOR staff and
inmates out of plastic buckets and PVC pipe. However, staff said that this
system was not effective in removing the fumes from the solder pots. A
photograph of a portion of this system appears below:




       71   The FSL is adjacent to the FCI and houses low and minimum security offenders.
       72  In contrast, a former Safety Manager at FCI Marianna told the OIG that he
intervened with the Warden when he learned that UNICOR wanted to start a chip recovery
project at FCI Marianna. He said that he did not believe that the work was safe and that the
Warden refused to allow it.




                                              93 

                            PHOTOGRAPH 3.10 

          PVC Pipe Ventilation System for Chip Recovery Project, 

                             FCI Elkton, 2006 





       Following continued complaints from staff and inmates about the poor
air quality in the FSL factory, UNICOR obtained the services of an engineering
firm in February 2006 to design and install a ventilation system that could
remove the fumes from the chip recovery project. The parts for the new
ventilation system did not arrive at FCI Elkton until the end of April, and it was
not functioning until mid-May. Work continued from February to May without
adequate ventilation. A photograph of the new ventilation system appears
below:




                                       94 

                           PHOTOGRAPH 3.11 

     Ventilation System for Chip Recovery Project, FCI Elkton, 2006 





       In October 2006, UNICOR stopped its chip recovery and monitor
refurbishment work at FCI Elkton for economic reasons. As described in
Chapter Four, the OIG found in November 2007 that the FSL factory was
heavily contaminated with lead dust and residue that had to be remediated at
significant expense.

      Shortly after the end of the chip recovery project, the Recycling Business
Group started another new operation at FCI Elkton and other institutions that
involved testing and repackaging customer returns of electronic and other
assorted items for a wholesaler who resold them. UNICOR staff at FCI Elkton
stated that they were not consulted about how the new project could be
implemented and that storage facilities at the institution were quickly overrun.
One staff member said that staff did not always know what was contained in
the boxes that were kept at the warehouse and in storage trailers that had to
be acquired to handle the overflow of boxes. The current Warden at FCI Elkton
told us that he decided to terminate the project in 2007 due to safety and
security concerns. He said that inmates had turned in two dart guns and a
box of carving knives found among the customer returns. Dalton stated that


                                      95 

UNICOR did not complete a safety and security assessment on the project
before it started at FCI Elkton.73


III.   Conclusion

        Our investigation found that UNICOR started e-waste recycling
operations, including glass breaking, without first obtaining adequate advice
about potential health and safety hazards. For example, the Health Services
Division at BOP Headquarters, including its industrial hygienist, was not
consulted about UNICOR’s e-waste recycling operations until 2001, over three
years after UNICOR started these operations, and then only in a limited
fashion. Instead, UNICOR primarily relied upon local safety staff at BOP
institutions, who lacked the background and training to adequately evaluate
hazards associated with e-waste, as well as a 1997 consultant report that,
unbeknownst to UNICOR, contained misleading conclusions about CRT
recycling. Because of this approach, the information that UNICOR obtained
and the conclusions it drew about the safety of its operations prior to 2002 was
flawed. Moreover, testing in the recycling factories was either not conducted at
all, or carried out in a cursory way that lacked reliability.

       We also determined that the guidance that UNICOR Headquarters
provided to its staff in the field and to BOP managers was limited and selective.
Written procedures were lacking, and Factory Managers were largely left to
their own ingenuity to plan and develop the new recycling factories. We found
that information that came to the attention of UNICOR managers prior to 2002
that revealed hazards with e-waste recycling was not disclosed to staff and
inmates, including Wardens and local safety personnel. Senior leadership of
the Recycling Business Group repeatedly ignored warnings that its glass
breaking operations were not safe, including from its own staff as early as
2000. Requests from the Safety Manager at Elkton for testing in 1999 were not
acted upon by the BOP or UNICOR.

      Events at USP Atwater in the summer of 2002 led to eventual changes in
UNICOR’s e-waste recycling operations that significantly improved safety.
These changes included publication of detailed glass breaking procedures and
improvements in training and hazard communication. However, we identified
delays in instituting these improvements, which placed staff and inmates at
further risk of harm, such as failing to promptly upgrade respiratory protection
and institute medical surveillance at FCIs Elkton and Texarkana. Overall, we
found that health, safety, and environmental considerations were consistently

       73  A similar project that UNICOR attempted at FCI Texarkana also resulted in that
institution being inundated with truckloads of unscreened scrap material. Included in the
items that were delivered to the institution were an air gun, ammunition, a hatchet, a grapple,
and knife.




                                              96 

subordinated to the efforts of the Recycling Business Group to maintain its
existing production and expand operations.

      In the next Chapter, we describe the exposures to toxic metals that
resulted from UNICOR’s e-waste recycling operations, as well as the results of
the OIG’s investigation into safety and environmental compliance issues.




                                      97 

[PAGE LEFT INTENTIONALLY BLANK]





              98 

                          CHAPTER FOUR

              RESULTS OF THE OIG’S HEALTH, SAFETY AND 

                   ENVIRONMENTAL INVESTIGATION 

       This chapter describes the conclusions of the OIG and federal agencies
that assisted the OIG with its evaluation of health, safety, and environmental
practices in UNICOR’s e-waste recycling program. The occupational health and
safety experts from FOH, NIOSH, and OSHA that participated in the OIG’s
investigation (the OIG “technical team”) made numerous findings set forth in
detail in individual facility reports.74 In this chapter we summarize those
findings that apply broadly across UNICOR’s e-waste recycling operations.

      We first describe the OIG technical team’s conclusions concerning staff
and inmate exposures to toxic metals and the hazard controls employed by
UNICOR to limit those exposures. We then present NIOSH’s findings
concerning the medical effects of the toxic metal exposures identified during
our investigation and its assessment of the BOP’s medical surveillance of staff
and inmates. We also discuss the technical team’s conclusions concerning
other hazards such as injuries from recycling operations, noise, and heat, as
well as environmental compliance.


I.      Toxic Metal Exposures and Health and Safety Controls

       As detailed below, FOH and NIOSH-HETAB determined that during the
early years of UNICOR’s e-waste recycling operations, from 1997 to
approximately mid-2003, UNICOR did not implement adequate worker
protection measures to control exposures to hazards associated with e-waste
recycling activities, particularly cadmium and lead hazards.75 UNICOR lacked
proper engineering controls, work practice controls, protective equipment, and
administrative controls such as hazard communication and training to mitigate
toxic metals exposures that resulted primarily from glass breaking operations.
As a result, UNICOR violated numerous OSHA regulations, including those
dealing with cadmium, lead, hazard communication, personal protective
equipment, and respiratory protection.76 FOH and NIOSH-HETAB further

       74 FOH prepared comprehensive assessments for each BOP institution that had an active

e-waste recycling program during our investigation. These assessments provide detailed
information on each UNICOR e-waste factory and incorporate the work of FOH, NIOSH, OSHA, and
the EPA. They are found at: http://www.justice.gov/oig/reports/BOP/index.htm.
        75   FOH and NIOSH-HETAB assisted the OIG with assessments of exposures prior to
2003.
        76See generally 29 C.F.R. § 1910.1025, Lead; 29 C.F.R. § 1910.1027, Cadmium; 29
C.F.R. § 1910.1200, Hazard communication; 29 C.F.R. § 1910, Subpart I, Personal protective
equipment; and 29 C.F.R. § 1910.134, Respiratory protection; and 29 C.F.R. § 1910.95 Noise.
                                                                                    (Cont’d.)


                                              99 

concluded that UNICOR’s lax approach to worker safety resulted at times in
staff and inmate exposures to unsafe levels of cadmium and lead, and that
these exposures were likely repeated due to the consistently poor work
procedures and conditions found in UNICOR’s factories prior to 2003.

       We determined that UNICOR began to institute comprehensive health
and safety improvements to its e-waste recycling operations starting in
approximately June 2003, primarily to control exposures to cadmium and lead.
We also determined that by 2009, with limited exceptions, UNICOR’s e-waste
recycling operations, including glass breaking activities, were compliant with
OSHA requirements and were being operated safely, though some additional
improvements were recommended.

       Despite this progress, our investigation found that UNICOR was at times
slow to correct safety and health deficiencies and maintain cadmium and lead
exposures at levels below OSHA exposure limits. While some UNICOR factories
such as USP Lewisburg showed consistent cadmium and lead exposure
control, other factories such as FCI Elkton showed exposures above OSHA
PELs at times, particularly for cadmium. In addition, after 2003 UNICOR
initiated new glass breaking operations or other hazardous recycling activities
such as desoldering and chip recovery at some factories in the same deficient
manner as it had during the period prior to June 2003. UNICOR failed to
perform adequate hazard assessments before starting work and relied upon
persons who were not fully qualified to render health and safety advice or
provide technical assistance. Through individual initiatives at the local level,
some factories demonstrated greater emphasis on hazard analysis and worker
protection. However, the efforts at other UNICOR factories were sometimes
hindered by poor technical guidance.77

       A.     Exposures to Toxic Metals from Recycling Operations

       In this section, we describe UNICOR staff and inmate exposures to toxic
metals. The most significant documented exposures occurred in glass breaking
operations, but we found that exposures could occur during other activities,
such as computer disassembly, ventilation maintenance, cleaning, and
activities that disturbed residual dust contamination. We limit our discussion
generally to cadmium and lead because of the 31 metals that the technical

Medical surveillance requirements are specified in the OSHA lead, cadmium, and respiratory
protection standards cited above.
       77 FOH and NIOSH-HETAB found that many reports prepared by UNICOR’s
consultants about UNICOR e-waste operations were either not accurate or did not provide
necessary evaluations of work conditions, hazards, control measures, and compliance with
OSHA standards. Moreover, until the UNICOR Certified Industrial Hygienist was hired in
2007, we found no evidence that either Recycling Business Group staff or local safety
managers recognized the inadequacies in the consultant reports.




                                            100 

team evaluated, including arsenic, barium, and beryllium, these 2 metals were
the only contaminants repeatedly found above OSHA occupational exposure
limits. As described in Chapter Two, exposure to lead may result in damage to
the kidneys, anemia, and high blood pressure, among other health effects.
Occupational exposure to cadmium is associated with lung cancer and kidney
damage.

            1.    Exposures from Glass Breaking

      FOH and NIOSH-HETAB determined that prior to June 2003 UNICOR’s
routine glass breaking operations failed to comply with applicable OSHA
regulations and that as a result UNICOR staff and inmates likely were
repeatedly exposed to cadmium and lead in excess of OSHA occupational
exposure limits.

       Our evaluation of these exposures during the early years of UNICOR’s
recycling operations was complicated by UNICOR’s failure to comply with an
important aspect of OSHA’s worker protection scheme that requires employer
monitoring of workplace hazards. We found that UNICOR failed to conduct
exposure monitoring and did not comply with recordkeeping requirements at
many of its recycling factories, in violation of the OSHA lead and cadmium
standards.

       As noted in Chapter Three, in 2002 USP Atwater became the first
institution where UNICOR and the BOP performed comprehensive industrial
hygiene testing. These tests showed multiple exceedances of OSHA
occupational exposure limits for cadmium and lead. Throughout 2002,
consultants and a BOP industrial hygienist repeatedly found that worker
exposures to cadmium during glass breaking operations were far higher than
the OSHA PEL. Their reports revealed that cadmium exposures ranging from
approximately 10 to 60 times higher than the PEL were not unusual. Lead
exposures were also up to four times higher than the lead PEL. Because
excessive levels of exposure were identified during all 2002 monitoring
episodes, FOH and NIOSH-HETAB concluded that these exposures were typical
of daily glass breaking exposures, which resulted from the processing of
approximately 300 to 500 CRTs per day. Testing conducted in early 2003
showed that cadmium exposures at USP Atwater were reduced from 2002
levels, but were still periodically above the OSHA cadmium PEL for various
workers.

      As detailed in Chapter Three, large quantities of monitors were processed
at FCI Elkton beginning in 1998 and at FCI Texarkana in 2001, and witnesses
reported visible dust emissions in heavy concentrations that some staff and
inmates described as resembling an indoor “snow storm.” FOH and NIOSH­
HETAB found that the extremely limited exposure monitoring conducted at




                                     101 

FCIs Elkton and Texarkana prior to 2003 was not properly documented and
therefore not conclusive regarding exposure levels.

       Reliable exposure monitoring data during glass breaking at facilities
other than USP Atwater was generally not collected prior to 2003. FOH and
NIOSH-HETAB concluded that while it is not possible to quantify the severity of
these early exposures, there is a strong likelihood that worker exposures
related to UNICOR glass breaking operations at times exceeded the OSHA PELs
and action levels (OSHA occupational exposure limits) for cadmium and lead.
This determination was based on UNICOR’s unsafe glass breaking practices at
its factories during the first 5 years of recycling operations, exposures from
testing at USP Atwater prior to 2003, and the frequency of documented
exceedances of OSHA exposure limits at UNICOR recycling factories after 2003
in circumstances where fewer CRTs were broken and better exposure controls
were in place than previously was the case.78 In addition, due to the
consistently poor work procedures and conditions we identified, such as lack of
adequate ventilation and proper hygiene, these exposures likely were not
isolated events and instead occurred repeatedly.

      Limited glass breaking operations also occurred at FCI Ft. Dix prior to
June 2003 that involved problems with CRT dust exposure. UNICOR staff at
FCI Ft. Dix told the OIG that before shipping CRTs to other institutions for
processing, inmates were instructed to remove the electron gun by hitting the
surrounding glass with a hammer. According to a former Assistant Factory
Manager at FCI Ft. Dix, this work was performed from 1999 to 2002 and
caused enough visible dust to be released from the CRT that he requested
respiratory protection for the inmates who performed the work. He also stated
that at times the CRT itself would shatter after being struck, potentially
releasing lead and cadmium contaminants into the air. We determined that
UNICOR did not conduct a hazard analysis and exposure monitoring or
implement hazard controls for this activity. In addition, starting in early 2003
UNICOR periodically performed glass breaking operations at FCI Ft. Dix to test
a newly constructed glass breaking booth. FOH found that the air exposure
monitoring for toxic metals that was conducted on these operations in early to
mid-2003 suffered from deficiencies that resulted in inaccurate results. Later
monitoring in 2003 found cadmium exposures that were approximately 7 to 16
times higher than the OSHA PEL.

     At FCI La Tuna, UNICOR started glass breaking operations in late June
2002. UNICOR staff and inmates both reported high levels of visible dust
       78 We found little surface wipe data available for USP Atwater, FCI Elkton, and FCI
Texarkana prior to June 2003. Several wipe sample results obtained from USP Atwater in
November 2002 were taken from inmate skin (arms) and clothing following a work shift. The
results showed that cadmium and lead contamination was present creating a potential
ingestion hazard.




                                            102 

emissions during glass breaking activities. UNICOR stopped work on
approximately July 16, 2002, based on the Safety Manager’s concerns.
Although monitoring data were unavailable, these conditions created the
potential for exceedances of OSHA limits similar to those found at other
UNICOR facilities.79

       After June 2003, UNICOR gradually reduced worker exposures to
cadmium and lead during glass breaking operations at UNICOR’s e-waste
recycling factories through enhanced engineering controls, improved work
practices, and other measures as described in Section I.B of this chapter.
However, UNICOR consultants found airborne exposures above OSHA action
levels or PELs at various factories through mid-2004 and at FCI Elkton until
September 2007. For example, at FCI Ft. Dix in 2003, tests by UNICOR
consultants indicated that glass breakers were exposed to airborne lead at 1.2
times the PEL and cadmium at up to 16 times the PEL. UNICOR consultants
also found exceedances in glass breaking operations at FCI Texarkana in 2004,
at USP Atwater in 2004, and at FCI Elkton in 2004 and 2006.

       OSHA and NIOSH-DART also conducted on-site air exposure monitoring
during glass breaking between 2006 and 2008 in support of the OIG
investigation. OSHA conducted inspections at four UNICOR factories and did
not find exceedances of OSHA occupational exposure limits, although in 2005
(before the start of the OIG’s investigation) it found that glass breaking at FCI
Elkton resulted in a glass breaker’s exposure above the cadmium PEL and lead
action level.80 NIOSH-DART conducted on-site exposure monitoring at
UNICOR factories beginning in 2007 and found that UNICOR had taken
measures to reduce routine glass breaking exposures to below the OSHA action
levels and PELs. However, NIOSH identified various deficiencies that merited
correction, including non-compliance with the OSHA cadmium and lead
standards, escape of airborne emissions that led to inmate exposures
approaching the action level for cadmium outside the glass booth (FCI
Marianna), carry-out of lead and cadmium dusts from some factory booths,
and very high cadmium and lead exposures during exhaust filter maintenance,
among others.


       79  FOH and NIOSH-HETAB also evaluated recycling operations at FCI Marianna but
received conflicting information about glass breaking activities there prior to 2003. Some BOP
and UNICOR staff reported that they broke CRTs in the back of semi-trailers from
approximately 1998 to mid-2001. Based on data from other factories, the lack of exposure
control measures, and limited ventilation that would be present in a semi-trailer, FOH and
NIOSH-HETAB concluded that cadmium and lead exposures for this method of glass breaking
could have been above OSHA exposure limits if the glass was broken as described and in
sufficient quantities.
       80 OSHA received complaints about UNICOR’s e-waste program prior to the start of the

OIG’s investigation.




                                             103 

       FOH and NIOSH-DART also arranged for particle size testing of various
bulk dust samples collected from surfaces located in proximity to recycling
operations in the main factory and warehouse at FCI Elkton and found that 90
percent of the particles were less than10 micrometers in diameter and that 40
percent were in the 1-2 micrometer range.81 Particles in this range can remain
airborne for relatively long periods of time, travel long distances before being
deposited on surfaces, and also penetrate deeper into the pulmonary system
for greater absorption into the body. Respirable particles are of particular
importance for cadmium and lead exposure because of their toxicity.

       In addition to air samples, UNICOR consultants and the OIG technical
team performed surface wipe sampling in glass breaking booths. Their reports
showed that work surfaces typically had substantial accumulations of lead.
Concentrations in the range of 500 micrograms per square foot (µg/ft2) to 2,500
µg/ft2 were present on surfaces such as tables, and results as high as 17,000
µg/ft2were found in areas that were more difficult to clean or that could be
missed during cleaning, such as grooves at the back of ventilation systems.
Floor samples from the FCI Elkton booth were as high as 10,200 µg/ft2 for
lead. Some bulk dust samples were also high in lead (3.5 percent in an FCI
Marianna booth sample and 1.4 percent in dust shaken from the FCI Elkton
exhaust system filter). Cadmium levels were generally lower, but still
significant given its toxicity. These results showed that without adequate
cleaning, significant concentrations of cadmium and lead could accumulate in
glass breaking booths, increasing the risk of inhalation and ingestion
exposures.

              2.      Other Exposures

      The OIG technical team attempted to determine if staff and inmates
working in operations other than glass breaking were exposed to excess levels
of cadmium and lead.82 One potential source of such exposure was the
migration of lead and cadmium from glass breaking operations to other parts of
the UNICOR facilities, such as areas where other computer disassembly
operations were conducted. As detailed in Chapter Three, in many facilities

       81Additional discussion of the particle size testing is contained in Attachment 7 to
FOH’s comprehensive report on FCI Elkton’s e-waste operations.
       82  NIOSH-HETAB further evaluated whether UNICOR staff members were carrying
contamination out of recycling areas to their automobiles and possibly home. NIOSH-HETAB
collected wipe samples from two personal vehicles and found a small amount of lead (3.3 µg­
lead/100 cm2) on the steering wheel in one vehicle. According to NIOSH-HETAB, this sampling
and the results of biological monitoring suggested that take-home contamination did not pose a
health threat at the time of its assessment. However, this contamination may have been higher
when adequate engineering controls were not in place. For example, when at FCI Elkton
NIOSH-HETAB recommended to staff with children that the family pediatrician be notified of
the potential past exposures and the children’s blood lead testing results be re-examined.




                                             104 

unenclosed glass breaking operations were located near other disassembly
activities, and numerous witnesses described visible clouds of dust from glass
breaking operations throughout other parts of the UNICOR factories. Due to
the uncontrolled nature of glass breaking operations and the absence of
engineering and work practice controls during the early years, FOH and
NIOSH-HETAB concluded that exposures in these areas were likely higher than
what would be expected for disassembly operations conducted in a manner
that fully complied with OSHA requirements. However, the magnitude of
excess risk and exposure could not be quantified, in part because UNICOR did
not conduct any reliable exposure monitoring in areas other than glass
breaking areas during the early years of operation.

       Starting in approximately 2005, UNICOR began monitoring exposures in
non-glass breaking areas at some factories on an annual basis. By this time
UNICOR had begun to implement measures to control releases of toxic metals.
The tests indicated that almost all levels were below the OSHA PELs and action
levels for cadmium and lead. Likewise, beginning in 2007, the OIG technical
team conducted testing in disassembly operations in UNICOR factories and
found that all exposures were below PELs and action levels.

        We also attempted to determine whether other e-waste recycling activities
were themselves the source of cadmium or lead exposures. We examined
whether cadmium and lead were present on or in e-waste materials at the time
of their receipt by UNICOR, and whether the receiving and sorting of e-waste
prior to disassembly poses a risk of personal exposure and facility
contamination. Based on surface wipe data collected from 2003 to 2009, FOH
concluded that contamination on outer surfaces of e-waste may be present but
it is a less significant contributor than other activities. However, data from
warehouse and sorting areas showed that this contamination can build up over
time, requiring preventive cleaning and maintenance activities.

      We examined whether disassembly activities other than glass breaking at
UNICOR could cause releases of hazardous contaminants. NIOSH-DART
confirmed that high levels of lead can be found on the internal surfaces of
computer equipment being disassembled, such as on fan blades. Based on an
evaluation of available surface wipe and bulk dust data, FOH and NIOSH­
HETAB determined that disassembly and related practices caused loose
cadmium and lead dusts within e-waste equipment to become dislodged and
then deposited on working surfaces. UNICOR consultants and the OIG
technical team found that the releases from disassembly activities other than
glass breaking did not result in inhalation exposures above OSHA limits.
However, they found that contamination far in excess of OSHA guidelines for
clean areas could build up on surfaces from such disassembly practices,
creating the potential for inhalation and ingestion exposures.




                                      105 

       UNICOR conducted desoldering and chip recovery operations at FCI
Elkton between October 2005 and October 2006. We determined that
UNICOR’s initial preparations for this work were inadequate, including failing
to monitor for inmate exposures initially after startup. Without exposure
monitoring, the OIG technical team was not able to quantify exposures during
this operation. However, based on NIOSH’s evaluation of blood lead levels,
staff and inmate reports of haze created by fumes from the solder pots,
numerous reported illnesses, and the substantial lead contamination that was
found in the recycling areas where this work was performed, FOH and NIOSH­
HETAB concluded that the lead exposures had the potential to be above OSHA
exposure limits and were certainly higher than they would have been if
UNICOR had conducted a hazard analysis and implemented proper controls at
startup.83

      The OIG technical team also found that certain maintenance activities at
UNICOR facilities led to excess exposures. For example, UNICOR workers who
changed out glass booth ventilation system filters were exposed to high levels of
cadmium and lead. In March 2007, NIOSH-DART and FOH found that workers
changing these filters were exposed to levels that exceeded both OSHA PELs
and the protective capacity of the respirators used. As detailed in Section I.B
below, these exposures were attributable to UNICOR's failure to adopt and
implement adequate work practices, with the result that contaminants were
released when employees used inappropriate methods, such as shaking and
banging the filters.84 Because UNICOR began using ventilation filters in 2002
and 2003, it is likely that these exceedances of OSHA levels occurred on
numerous occasions at several facilities before the issue was identified. Based
on NIOSH recommendations, UNICOR modified its work practices. Subsequent
evaluations at several facilities showed exposures below OSHA limits in most
cases and that exposures were well controlled through the use of respiratory
protection.

      The OIG technical team also determined that personnel who were present
during cleaning operations were potentially exposed to excess levels of
cadmium or lead. As detailed in Section I.B below, UNICOR utilized improper
cleaning methods, such as dry sweeping, that led to airborne dispersal of
contaminants. Although exposures from cleaning activities cannot be
quantified during the period prior to regular testing, the OIG technical team
concluded that if the same dry sweeping techniques were used in the past,

      83 UNICOR also conducted some desoldering for a short period of time at FCI

Texarkana on a much smaller scale than at FCI Elkton. We determined that the lead
exposures during this operation were likely limited.
       84 OSHA regulations prohibit the removal of cadmium from equipment by shaking or
other means that disperses cadmium into the air. 29 C.F.R. § 1910.1027(i)(3)(iii). UNICOR
written procedures also prohibited the filter change techniques observed at FCI Elkton.




                                           106 

periodic cleaning by improper methods was a source of potential cadmium and
lead exposures. Moreover, exposures during cleaning operations have occurred
in more recent years.

              3.     Exposures from Residual Dust Contamination

       FOH and NIOSH-HETAB tested for cadmium and lead surface
contamination in bulk dusts taken from areas likely to contain legacy
contamination from early recycling operations. High levels of contamination
were found at recycling factories with prior routine glass breaking and lead
desoldering operations on surfaces that were not subject to regular cleaning,
such as beams, light fixtures, in cable boxes, inside general ventilation duct
work, around former glass breaking areas where uncontrolled releases
occurred, and in former disassembly areas. The extent of this contamination
created the potential for additional exposures caused by worker contact with
the affected surfaces, such as during maintenance activities, or other
disturbance of the dust.

      Cadmium and lead surface contamination poses an ingestion hazard to
workers, such as from hand-to-mouth contact or from eating, drinking, and
smoking in a contaminated workplace. Surface contamination also poses an
inhalation hazard if work activities disturb the dust and re-suspend it to the
air. For example, in February 2006 an HVAC contractor’s work on the heating
and ventilation system at the recycling factory at FCI Elkton resulted in a
reverse flushing of the air ducts that filled the factory with a cloud of dust.
According to a memorandum prepared by a UNICOR staff member to the
Superintendent of Industries at FCI Elkton, the dust was “thick enough to
considerably limit visibility in the factory,” and all inmates were evacuated and
work cancelled for the remainder of the day.85

      FOH found extensive and very high levels of cadmium and lead
contamination at FCI Elkton on many building surfaces, inside ductwork, on a
UNICOR factory roof, and other areas.86 In 2008, following release of the OIG’s
findings regarding contamination at FCI Elkton, UNICOR conducted a factory-
wide surface remediation operation using a contractor. FOH also identified
areas at other BOP institutions that were contaminated or likely contaminated

        85 Other UNICOR activities that disturbed legacy contamination in recent years include

the refurbishment of the USP Lewisburg factory and relocation or modifications of glass
breaking booths at various factories.
       86  FOH found lead surface contamination in a recycling factory at FCI Elkton that was
above 100,000 µg/ft2 on many surfaces including 370,000 µg/ft2 on a wall ledge and 124,000
µg/ft2 on a steel support beam surface. In addition, FOH identified a bulk dust sample that
contained 16 percent lead. FOH found that the highest cadmium surface contamination
ranged from about 2,000 µg/ft2 to a high of 12,800 µg/ft2. This contamination can create
inhalation and ingestion hazards if not abated, especially during maintenance activities.




                                             107 

with dust and debris from glass breaking operations but that remained
unabated, including the exterior bag house and filters at FCI Ft. Dix, as well as
the exterior cyclone filter that remains from the former furniture factory at FCI
Texarkana.

       Although exposures from surface contamination prior to June 2003
could not be quantified, FOH and NIOSH-HETAB concluded that UNICOR
failed to prevent contamination build-up in work areas and that UNICOR and
the BOP did not take appropriate protective measures to mitigate risks to
workers from exposure to legacy contamination.

            4.	   Conclusions Regarding Exposures

       In sum, members of the OIG technical team made detailed findings
regarding worker exposures to toxic metals in various settings in UNICOR’s e-
waste operations, including during glass breaking operations, other activities,
and from contact with legacy contamination. The findings of each agency are
presented more fully in their site reports contained in the online appendix to
this report. The OIG technical team concluded that staff and inmates at times
were exposed to unsafe levels of cadmium and lead. Moreover, due to the
uniform nature of the inadequate work procedures and conditions at each
institution, we believe that these exposures likely occurred repeatedly,
especially prior to 2003. As detailed in the following sections, the OIG
technical team found that these exposures were attributable to numerous
deficiencies in UNICOR’s engineering controls, work practices, and
administrative controls. We assess medical issues associated with these
exposures later in this chapter.

      B.	   Assessment of UNICOR Engineering Controls and Work
            Practices

      The OSHA lead and cadmium standards require that worker exposures
be controlled at or below the OSHA PELs through the use of engineering and
work practice controls. 29 C.F.R. § 1910.1025(e); 29 C.F.R. § 1910.1027(f).
The OIG technical team found that deficient engineering controls and work
practices contributed significantly to the exposures above these levels that were
described above.

            1.	   Engineering Controls

       Engineering controls for toxic metal dusts include equipment such as
local exhaust ventilation systems that capture dust at its source to prevent or
reduce hazardous exposures, containment structures that keep contaminants
from reaching unprotected workers, physical barriers that separate workers
from hazards, and decontamination areas designed to prevent contaminants
from being carried out of the work area. OSHA requires employers to
implement engineering and work practice controls to reduce exposures if


                                      108 

monitoring identifies exceedances of the PEL. 29 C.F.R. §§ 1910.1027(f)(1);
1910.1025(e)(1). In general and whenever feasible, these controls are required
by OSHA regulations as the primary means to prevent overexposures, rather
than through the use of PPE, such as respiratory protection.

       FOH and NIOSH-HETAB determined that UNICOR did not implement
effective engineering controls for glass breaking operations prior to June 2003.
We found that UNICOR largely left the design of its glass breaking booths to
local factory and institution staff that lacked industrial hygiene and
engineering expertise, with the result that recycling factories either did not
have exhaust ventilation and containment systems when glass breaking started
or used ineffective make-shift systems that were improperly designed.

       For example, at USP Atwater, UNICOR started glass breaking operations
without an exhaust ventilation system, but added such a system shortly after
startup using a paint spray booth that had been modified by a UNICOR
recycling technician with the assistance of inmates. Subsequent exposure
monitoring demonstrated that this exhaust system was ineffective in limiting
worker exposures to levels below the lead and cadmium PELs. At FCI Elkton,
between 1998 and 2003, UNICOR performed glass breaking without the benefit
of properly designed exhaust ventilation systems and containment structures.
UNICOR’s former RBG General Manager, Lawrence Novicky stated that
generally it was up to each factory to design its own glass breaking booth.
Prior to 2004, staged decontamination areas were not used at any factory.

       We found that each UNICOR glass breaking booth was different. They
varied in size, type of ducting, the use of auxiliary ventilation, and filter
location. These differences are exemplified by the photographs of the glass
breaking areas at FCI Elkton and USP Atwater taken in 2001 and 2002
(Photographs 3.2 and 3.5 in Chapter Three).

      Other deficiencies we identified regarding UNICOR’s approach to
engineering controls included failing to adequately test glass breaking
engineering controls to confirm their effectiveness prior to starting full
operations. After exposures were found, UNICOR also relied upon trial-and­
error approaches to safety over extended time periods before adequate
engineering controls were finally installed or improved upon to effectively
reduce the exposures.

       Even after UNICOR began installing exhaust systems in 2003, it utilized
systems that were not properly designed to control toxic metals emissions, and
it delayed implementation of improvements to promptly abate unhealthful
working conditions in violation of OSHA regulations. See 29 C.F.R. § 1960.30
(requiring federal agencies to “ensure the prompt abatement of unsafe and
unhealthful conditions.”). For instance, UNICOR used a paint booth exhaust
system for USP Atwater after June 2003, used various systems including a


                                      109 

carpentry shop exhaust system for FCI Texarkana until adequate high-
efficiency filtration units were installed after May 2004, and used a retrofitted
paint spray booth at FCI Ft. Dix starting in 2003. UNICOR gradually improved
these systems, along with the use of other associated engineering controls such
as plastic strip curtains, but it did not consistently maintain exposures at or
below the PELs through the use of engineering or work practice controls until
April 2004 at FCI Ft. Dix, May 2004 at FCI Texarkana, early to mid-2004 at
USP Atwater, and after June 2006 at FCI Elkton. Until exposures were
successfully reduced, UNICOR was not in compliance with the OSHA cadmium
and lead standards at these institutions.

        We identified a noteworthy exception to these results at USP Lewisburg.
UNICOR started glass breaking there in 2003 using a high-efficiency air
filtration system that was designed for hazards such as toxic metals. Unlike
every other UNICOR e-waste recycling factory, UNICOR managers at USP
Lewisburg selected this system after consulting with a professional engineer
who rejected the make-shift collection hood systems in use at other factories.
UNICOR at USP Lewisburg has never recorded an exposure above the cadmium
or lead PEL.87 UNICOR later implemented the same type of air filtration system
at FCIs Texarkana and Marianna. As with USP Lewisburg, these institutions
have not found an exposure above the cadmium or lead PEL after these
systems were installed.88

       We also found that the quality of UNICOR’s glass breaking booths varied
but improved over time. UNICOR typically constructed its glass breaking
booths with some combination of solid walls and plastic sheeting and plastic
strip curtains for entry and egress. To reduce exposures, UNICOR improved
these systems with the placement of strip curtains between the worker and the
glass breaking grate. During the OIG investigation, NIOSH found that UNICOR
did not design these systems with appropriate decontamination areas that
typically include a 3-stage area for putting on and removing protective
equipment, storing protective equipment and clothing, conducting personal
and equipment decontamination, and conducting hygiene practices such as
hand washing.


       87 NIOSH-DART and FOH noted that the filtration systems at USP Lewisburg and FCI
Marianna re-circulated 100 percent of the air from the glass breaking booths and no fresh air
was provided. This is not a recommended practice because it did not achieve a “negative
pressure” condition relative to the general factory area housing the booth. Negative pressure
prevents cadmium and lead emissions in the booth from migrating outside the booth into the
general factory.
       88  However, at FCI Marianna NIOSH found that inmates who delivered CRTs to the
glass breaking booth (“feeders”) had cadmium exposures that were near the action level
indicating that airborne emissions were escaping the glass breaking booth. According to FOH,
exposures above the action level at times could not be ruled out.




                                             110 

       The quality of the decontamination or transition areas also varied greatly
by factory. At FCI Marianna, UNICOR had no transition area, and inmate glass
breakers put on, removed, and stored protective equipment immediately
adjacent to the contaminated booth in the same room where the e-waste was
stored and the feeder inmates worked by passing CRTs to the breakers. Such a
system is prone to contamination of clean equipment and personnel, as well as
likely to allow contaminants to be carried out.89 As shown in Diagram 2.3, at
FCI Texarkana UNICOR had a 7-zone system where decontamination areas and
clean storage and locker areas were separated. Without adequate
decontamination areas, the OIG technical team found that carry-out of
contamination occurred from glass breaking booths to the factory areas. At
USP Lewisburg, OSHA conducted an inspection in April 2007 and issued a
violation to UNICOR under its lead standard (29 C.F.R. § 1910.1025) for,
among other things, the carry out of contamination from the glass breaking
booth to the factory area.

       FOH and NIOSH-HETAB determined that UNICOR’s engineering controls
for its desoldering and chip recovery operations at FCI Elkton were deficient for
the first 7 months of operations. Initially, UNICOR did not implement
engineering controls for this work. After approximately 2 months, UNICOR
installed a make-shift exhaust system from plastic piping and, after this
system proved ineffective, completed installation of an improved system in May
2006. UNICOR’s failure to provide engineering controls contributed to heavy
lead contamination in the factory where the desoldering work occurred and
required later remediation at significant expense. OSHA found UNICOR’s
operation violated numerous OSHA regulations, including those governing PPE
and respiratory protection, hazard communication, lead exposure monitoring,
and requirements that federal agencies promptly abate any unsafe work
conditions.90 If these violations had been identified during an OSHA
inspection, they would have been deemed “willful” violations according to
OSHA.

              2.      Work Practice Controls

      Work practice controls are work methods and procedures that limit
worker exposure to hazards, including rules and requirements that promote
safe working conditions. FOH and NIOSH-HETAB concluded that prior to June
2003 UNICOR did not implement effective work practice controls to protect
workers from toxic metal hazards. For example, UNICOR allowed eating and


       89 Such contamination can present special risks if it is carried into areas where

children or pregnant women are present, such as automobiles or homes.
       90 See 29 C.F.R. § 1910.132(d); 1910.134(d); 1910.1200(h); 1910.1025(d); and 29

C.F.R. § 1960.30.




                                             111 

drinking in recycling work areas where cadmium and lead emissions and
contamination were present.

      UNICOR also did not implement adequate cleaning and hygiene
practices. UNICOR’s work practices for changing out ventilation system filters
were particularly deficient and contributed to cadmium and lead exposures.
Beginning in approximately 2002, UNICOR used exhaust ventilation systems
equipped with filters for some of its glass breaking operations. These exhaust
systems and filters were used at USP Atwater, FCI Elkton, FCI Texarkana, FCI
Ft. Dix, FCI Marianna, and USP Lewisburg. The filters collected cadmium and
lead emissions and became heavily loaded with these toxic metals over time.

       However, UNICOR failed to ensure that staff and inmate workers who
changed the filters from these systems, as well as from general factory
ventilation and other glass breaking exhaust systems, did so using appropriate
methods. OSHA regulations prohibit the removal of cadmium from equipment
by shaking or other means that disperses cadmium into the air. 29 C.F.R. §
1910.1027(i)(3)(iii). We determined that inmates at times removed filters in a
dry condition rather than wetting the filters to limit dusts from becoming
airborne, sometimes purposefully or inadvertently shook dust off the filters
creating airborne dusts, and cleaned the area using dry methods or improper
vacuum systems. Staff and inmates indicated that extensive dusts were
released during this activity. UNICOR did not monitor exposures for the filter
change activity.

      Even in later years, UNICOR used improper filter changing practices at
some facilities. For example, in March 2007, as part of the OIG investigation at
FCI Elkton, NIOSH and FOH found that inmates used inappropriate practices
to change the filters, including shaking and banging them, which created a
thick cloud of dust and caused significant exceedances of OSHA’s cadmium
standard.

        According to FOH, staff and inmates at FCI Elkton informed its
inspectors that the practice of banging the filters as observed during the site
visit was not an isolated occurrence. UNICOR subsequently better enforced its
filter changing policy following the FOH/NIOSH inspection and instructed
inmates not to strike the filters. NIOSH subsequently found that proper
procedures were being utilized at other BOP facilities.

      UNICOR’s cleaning practices were also deficient. UNICOR periodically
conducted cleaning of factory areas, typically at the end of each work shift and
at the end of each week. Our investigation determined that prior to June 2003,
UNICOR cleaned in a manner that did not maintain surface contamination at
acceptable levels to avoid potential personal exposures. UNICOR used dry
sweeping, which is prohibited by the OSHA cadmium and lead standards
because it re-suspends dust into the air, creating an inhalation hazard.


                                      112 

UNICOR also used shop vacuums, which do not have high-efficiency
particulate air (HEPA) filters to trap toxic dusts. Like dry sweeping, using shop
vacuums can create airborne hazards.

       The OIG technical team observed cleaning practices at recycling factories
and performed exposure monitoring during cleaning of the glass breaking
booth at FCI Elkton. NIOSH-DART found that cadmium exposure was above
the action level at FCI Elkton during cleaning of its glass breaking booth. The
technical team concluded that exposures above the PEL for this activity could
not be ruled out because of the daily variability in the cleaning practices, but
that appropriate respiratory protection was in use. OSHA also issued a
violation to UNICOR at USP Lewisburg for dry sweeping in the disassembly
area. During subsequent field work at other institutions, FOH and NIOSH also
observed inmates using dry sweeping methods. As late as May 2009, a
UNICOR consultant observed and recommended against dry sweeping at
UNICOR’s USP Leavenworth factory.

      We found that by mid-2003, however, UNICOR had begun using various
improved work practice controls to protect workers against cadmium and lead
hazards. Following the engagement of BOP’s Health Services Division in some
matters involving e-waste recycling due to the events at USP Atwater, UNICOR
Headquarters devoted more attention to cleaning routines and housekeeping
practices in its recycling factories. For example, UNICOR adopted glass
breaking procedures that specified daily and weekly cleaning routines, and
inspections conducted by Recycling Business Group personnel at the factories
typically devoted substantial attention to the issue.

      FOH also determined that, with proper technical support, planning,
hazard analysis, and oversight, UNICOR demonstrated that it was able to
conduct maintenance operations in a safe and successful manner. In early
2009, UNICOR at USP Lewisburg conducted a clean-up of contaminated
surfaces in the UNICOR warehouse. With assistance from an industrial
hygiene consultant, UNICOR planned for and conducted this work in a highly
competent manner, according to FOH.

      Despite these improvements, for periods well after mid-2003, UNICOR
continued to employ certain work practices that members of the OIG technical
team believed were unsanitary and not compliant with OSHA cadmium and
lead standards, but that have since been discontinued. For example, UNICOR
did not prohibit eating and drinking in general recycling work areas, excluding
glass breaking booths, until 2005. It also continued several improper cleaning
practices, including dry sweeping, use of shop vacuums that are not
appropriate for toxic metal dusts, and use of compressed air guns that blow
deposited dusts into the air. As noted above, OSHA conducted an inspection of
USP Lewisburg in April 2007 and issued a violation to UNICOR under its lead
standard (29 C.F.R. § 1910.1025) for improper cleaning practices in


                                      113 

disassembly areas. OSHA cited UNICOR’s use of improper dry sweeping and
pedestal fans, as well as the carry-out of contamination from the glass
breaking booth.

       C.	    Assessment of UNICOR Personal Protective Equipment for
              Lead and Cadmium

      Personal protective equipment controls include respiratory protection;
protective clothing; and other protective equipment for the hands, head, face,
eyes, ears, and feet. OSHA requires that personal protective equipment be
selected and specified based on a hazard analysis of the workplace. See 29
C.F.R. Subpart I; 29 C.F.R. § 1910.132. For respiratory protection, OSHA also
requires a written program to define practices regarding medical clearance; fit
testing; training; record keeping; and respirator use, maintenance, and storage.
29 C.F.R. § 1910.134.

       Prior to 2003, UNICOR failed to perform adequate hazard assessments in
its recycling factories to identify necessary personal protective equipment. As a
result, staff and inmates at times lacked personal protective equipment to
effectively mitigate exposures to cadmium and lead. At the startup of glass
breaking operations at many factories, including FCI’s Elkton and Texarkana
and USP Atwater, UNICOR either did not provide respiratory protection or
provided paper dust masks that were not approved for toxic metals, thereby
violating OSHA standards for respiratory protection, personal protective
equipment, cadmium, and lead.

        In addition, UNICOR at times did not comply with various aspects of
OSHA regulations governing personal protective equipment and respiratory
protection (29 C.F.R. § 1910.132, General; 29 C.F.R. § 1910.134, Respiratory
protection). For example, we found that the respirators used by UNICOR at
times were not sufficiently protective.91 In late 2004, UNICOR directed all
factories to use powered air purifying respirators for glass breaking operations,
which was sufficient to protect against exposures found after mid-June 2003
for all routine operations.

      Besides problems concerning the selection of sufficiently protective
respirators, we determined that UNICOR’s respiratory protection practices for
glass breaking suffered from other deficiencies. We found that: (1) UNICOR’s
and BOP’s written respiratory protection programs did not always specify the

       91 At FCI Ft. Dix, UNICOR relied upon the P-100 air purifying respirator, later changing

to powered air purifying respirators in 2004. We found that the P-100 respirator and dust
mask did not have an adequate protection factor for exposures that were measured at FCI Ft.
Dix in November 2003. FOH and NIOSH identified similar problems at FCI Elkton in 2007
concerning inmate handling of glass booth filters.




                                             114 

types of respirators to be used in recycling factories, (2) UNICOR’s selection of
respirators was not based on a hazard analysis and UNICOR did not verify the
adequacy of its respirators through exposure testing, (3) work practices
regarding respiratory protection were not consistent with written procedures,
(4) respirator storage and maintenance practices at some factories left
respirators prone to contamination, (5) UNICOR used unauthorized respirator
parts for maintenance purposes, (6) UNICOR did not consistently ensure that
inmates had received medical examinations prior to using respirators, and (7)
UNICOR staff at times did not change respirator cartridges with adequate
frequency.

       We also found that UNICOR provided dust masks for voluntary use to
workers at various factories during disassembly and related operations, as well
as for the FCI Elkton desoldering operation. UNICOR did not inform workers of
the limitations of this type of respirator in accordance with OSHA regulations
(Appendix D of the 29 C.F.R. § 1910.134). As a result, we determined that
UNICOR failed to comply with the OSHA respiratory protection standard (29
C.F.R. § 1910.134). Also, we believe that, in many instances, the types of dust
masks used were made out of light paper and were inferior to, for example,
NIOSH-approved dust masks which would have provided workers significant
additional protection against cadmium and lead dusts.

      Even in 2009 after glass breaking was discontinued, UNICOR required
dust masks for cleaning up accidentally-broken CRTs at facilities such as USP
Leavenworth, used dust masks that were not approved for toxic metal dusts,
and did not have a respiratory protection program, resulting in non-compliance
with the OSHA respiratory protection standard.

      UNICOR also did not adequately assess the need for respiratory
protection for desoldering and chip recovery operations at FCI Elkton. A few
weeks after start-up, UNICOR began to provide half face piece air purifying
respirators for certain workers at the solder fountains. UNICOR as well as the
BOP did not perform a hazard analysis or exposure monitoring to document
the rationale to provide respirators to some but not other inmates and to verify
that the type of respirators selected for use were adequately protective.
Inmates reported that filters for these respirators were not changed very often
and that workers provided with dust masks had to re-use previously used
masks at times.

       In addition to respiratory protection, we also determined that UNICOR
instituted improvements to its inmate protective clothing procedures between
2003 and 2005. For example, after mid-2003 UNICOR authorized requests for
use of disposable coveralls for all glass breaking operations. It also issued
improved laundry procedures in 2005 that prohibited mixing of contaminated
clothing with the clothing of the general inmate population.



                                       115 

      During our field work, we observed that inmate workers breaking glass
inside UNICOR glass breaking booths wore disposable coveralls, gloves,
protective sleeve guards, and boots with boot covers. Eye and face protection
were provided by the hoods of powered air purifying respirators. Photograph
2.5 in Chapter 2 shows a UNICOR worker dressed in this protective clothing.

      For disassembly and related activities in general factory areas that did
not include glass breaking, UNICOR’s typical protective equipment included
cloth work clothes that varied in type; gloves; safety glasses; work shoes; the
voluntary use of dust masks; and the voluntary use of hearing protection,
although this was required for some activities at some factories.

       During our investigation, NIOSH and OSHA identified several instances
where UNICOR was using deficient protective equipment practices in its
recycling factories. For example, NIOSH reported that contaminated clothing
was not properly isolated from clean clothing in some cases. NIOSH also found
that practices for removing protective clothing were not adequate to prevent
contamination of skin and clothing. OSHA found that the protective clothing
worn by glass breakers at FCI Marianna was not properly sealed, which
resulted in skin contamination. A UNICOR consultant had reported the same
condition 10 months earlier.

      D.    Assessment of Administrative Controls

       Administrative controls include policies, programs, and procedures that
identify and control occupational hazards, define and ensure safe work
practices, verify safe work conditions, and respond to and correct incidents
that result in unsafe work conditions.

            1.    Policies, Programs, and Procedures

       UNICOR’s Recycling Business Group conducted e-waste recycling
operations without written health and safety policies for nearly 4 years before it
began to issue such procedures to its recycling factories. Some of UNICOR’s
factories prepared their own procedures, but certain of these procedures
conflicted with each other, did not reflect actual work practices, were prepared
without the benefit of a hazard analysis, or were not implemented. We
determined that prior to 2003, UNICOR was not in compliance with OSHA
standards governing cadmium, lead, hazard communication, and respiratory
protection with regard to their requirements for written programs and
procedures.

      However, the Recycling Business Group made substantial efforts to
improve the scope and content of its written policies and procedures starting in
2003. The Recycling Business Group later issued detailed glass breaking
procedures, developed standard operating procedures (SOPs), and issued a Pre-
Industrial Manual for inmate worker job orientation and general training in


                                       116 

safe work practices. Individual UNICOR factories also prepared various
procedures and work instructions for specific operations.

       In addition to policies within the Recycling Business Group, FOH
examined the BOP’s and UNICOR’s health and safety policies that applied to
the e-waste recycling program. FOH identified various omissions in these
policies that have important implications for exposure control, OSHA
compliance, and establishing the safe and healthful workplace that BOP policy
dictates. For example, FOH found that the BOP’s national health and safety
policy (PS 1600.08/09 Occupational Safety and Environmental Health) does
not adequately address work planning and job hazard analysis. FOH also
found that UNICOR and BOP policies sometimes conflicted with each other and
provided inconsistent and incomplete guidance.

      We further concluded that UNICOR violated the BOP’s national health
and safety policy. Our investigation found that UNICOR disregarded many
requirements of this policy, including control of hazardous materials, reporting
and correcting unsafe and unhealthy work conditions, use of personal
protective equipment, hazard training, and hazard communication, among
others.

            2.    Training and Hazard Communication

       Administrative controls also include training and hazard communication
to inform workers of hazards in their workplace. OSHA requires employee
communication and training under various standards including those dealing
with cadmium, lead, hazard communication respiratory protection, and noise.

       We determined that prior to 2003 UNICOR did not conduct hazard
analyses in its recycling work areas that was necessary to fully identify the
hazards associated with e-waste recycling, and thereafter failed to develop and
to provide appropriate hazard communication and training programs. For
example, prior to 2002, UNICOR managers repeatedly informed staff that dusts
from glass breaking operations were not hazardous and failed to provide
training to adequately address this hazard. We found that this was due in part
to incomplete information that UNICOR obtained from a consultant in 1997,
and from testing performed by the Safety Department at FCI Elkton in 2001.
As explained in Chapter Three, FOH and NIOSH-HETAB concluded that the
BOP’s reliance on this work was misplaced. For example, the consultant’s
study did not evaluate UNICOR’s actual work operations, which involved high
volume glass breaking, and the hygienist who performed the work said it had
no applicability to circumstances where as many as 1,000 CRTs a day were
being broken.

      Even after testing revealed toxic metal exposure problems at USP Atwater
in June 2002, UNICOR failed to promptly warn staff and inmates of dangers



                                      117 

associated with these exposures. UNICOR did not alert recycling factories at
other locations about the hazardous conditions that had been identified at USP
Atwater, and failed to require that additional industrial hygiene assessments
and control measures be completed for all of its recycling operations.

      According to OSHA, UNICOR should have taken prompt measures to
inform employees at other institutions about cadmium and lead hazards
associated with its glass breaking practices and should have reevaluated and
upgraded respiratory protection as necessary following receipt of the first USP
Atwater testing results. Instead, for example, glass breaking continued at FCI
Texarkana for more than 7 weeks without safety modifications. OSHA advised
the OIG that if it had identified such conduct during one of its inspections, it
would have found “willful” violations of its hazard communication and
respiratory protection standards. 29 C.F.R. § 1910.1200; 29 C.F.R. §
1910.134. Staff at FCI Marianna also stated that they were not informed of
hazards related to the “de-mil” project that involved disassembly of items that
contained hazardous chemicals.

       Starting in 2003, UNICOR developed a variety of new training policies
and procedures, and improved its hazard communication. For example, the
Recycling Business Group’s standard operating procedures (SOPs) required a
32-hour course for all staff that included training on the BOP’s health and
safety policy, PS 1600.08. UNICOR factories provided various training and
hazard communication to supplement UNICOR’s training requirements in some
cases.

       FOH reviewed UNICOR’s training policies and documents and identified
several deficiencies, however. FOH determined that the Inmate Manual
conflicted with actual work practices in some important ways, and it did not
contain all required training content under the OSHA cadmium and lead
standards.92

       UNICOR’s training also did not address all requirements of the OSHA
hazard communication standard, 29 C.F.R. § 1910.1200, which identifies
specific hazard information and training that UNICOR was required to provide
to its workers regarding hazardous chemicals such as cadmium and lead.

       92  For instance, the Inmate Manual and associated orientation training did not: (1)
address the content of the standards and their appendices, including such details as exposure
monitoring requirements; (2) inform employees of the specific operations that could result in
exposure above the action levels; (3) provide information on respiratory protection, such as use,
limitations, storage, and maintenance; (4) describe medical surveillance requirements; and (5)
address contents of the compliance programs because written cadmium and lead compliance
programs were not in place. The OSHA cadmium and lead standards further require that
training be provided prior to job assignment; therefore, the timing of UNICOR’s training was
not in compliance with the standards for existing workers.




                                              118 

       In addition to training deficiencies, UNICOR did not consistently inform
inmates of cadmium and lead exposure monitoring results as required by the
cadmium and lead standards, 29 C.F.R. § 1910.1027 and 29 C.F.R. §
1910.1025, and the OSHA regulation governing employee access to exposure
records. 29 C.F.R. § 1910.1020. UNICOR corrected this deficiency in recent
years.

            3.	   Use of Worker Rotation and Production Rate Limits

         Worker rotation practices in and out of hazardous work areas and work
volume and production limits are administrative controls that can reduce
exposures. However, the OSHA cadmium standard (29 C.F.R. § 1910.1027
(f)(1)(iv)) explicitly prohibits the use of worker rotation as a means to reduce
exposures below the PEL.

       During the OIG technical team’s field work at UNICOR’s recycling
factories, we found that UNICOR was using worker rotation techniques to
reduce exposures during glass breaking operations. At some factories,
UNICOR limited glass breaking to a single 2 to 3-hour shift per day, rather
than shifts of about 6 hours that had been worked in earlier years. After
completing the reduced glass breaking shift, UNICOR then rotated workers
from glass breaking activities to disassembly activities on the general factory
floor. This rotation reduced exposures over an 8-hour period by combining a
higher exposure activity, such as glass breaking, with a lower exposure activity,
such as disassembly. At other factories, UNICOR performed both a morning
and an afternoon glass breaking shift but rotated personnel between feeder and
glass breaker duties in the morning versus afternoon shifts. This rotation
reduced average exposure over an 8-hour period by combining the higher
exposure activity of glass breaking with the lower exposure activity of feeding.

       In reviewing UNICOR consultant, OSHA, and NIOSH exposure
monitoring data, FOH and NIOSH-HETAB identified several instances where
exposures would likely have been above the cadmium PEL (5 µg/m³) or action
level (2.5 µg/m³) if the work shift were extended for a full shift. In some
instances, either NIOSH or UNICOR consultants found that exposures would
likely have exceeded OSHA PELs or action levels for cadmium if the work shifts
were not shortened.

      E.	   Conclusions Regarding Toxic Metals Exposures and UNICOR
            Controls

      FOH and NIOSH-HETAB determined that some UNICOR staff members
and inmates probably were repeatedly exposed to unsafe levels of cadmium and
lead prior to June 2003, and that UNICOR conducted e-waste recycling
operations in violation of many OSHA standards, including those dealing with
cadmium, lead, personal protective equipment, hazard communication, and



                                       119 

respiratory protection. UNICOR’s non-compliance with these standards
applied to recycling operations involving glass breaking, computer disassembly,
cleaning, and activities such as ventilation maintenance, among others.93

      After June 2003 UNICOR made substantial improvements to its worker
protection practices for e-waste recycling by: (1) issuing glass breaking and
other operating procedures, (2) implementing better engineering and work
practice controls for glass breaking in 2003 and 2004 and then gradually
improving these controls over time, (3) upgrading respiratory protection for
glass breaking in 2003 and standardizing the type of respirators used in late
2004, (4) improving other personal protective equipment for glass breaking,
and (5) providing increased training for staff in late 2003 and 2004 and
formalizing job orientation training for inmates in 2005. UNICOR also
improved its exposure monitoring at its factories over time.

       Even with these improvements, however UNICOR was slow to
consistently control exposures below the cadmium and lead PELs and
demonstrated persistent non-compliance with various OSHA standards and
BOP and UNICOR health and safety policies after the June 2002 USP Atwater
tests revealed exceedances for cadmium and lead. For glass breaking
operations at many factories, UNICOR assembled make-shift engineering
controls such as exhaust ventilation systems that were not originally designed
for toxic metals dust control. With the exception of USP Lewisburg, UNICOR
did not use adequate engineering or industrial hygiene support in designing,
fabricating, testing, or validating these systems. For extensive periods of time
at several factories, sometimes years, UNICOR did not refine these systems in a
manner that provided adequate exposure control. While UNICOR’s
inappropriate use of worker rotation contributed to reduced exposures when
calculated as 8-hour time-weighted averages, UNICOR should have in the first
case reduced exposures to below the PEL through engineering and work
practice controls rather than in combination with worker rotation.

      Based on surface contamination testing, we also determined that
UNICOR’s current disassembly operations release cadmium and lead
contamination that accumulates on surfaces over time. Even though various
UNICOR consultants, and FOH and NIOSH-HETAB, found that these releases
do not result in inhalation exposures above OSHA exposure limits during

       93   Specific violations included: (1) failing to maintain lead and cadmium exposures at or
below PELs through the use of engineering and work practice controls; (2) failing to maintain
local exhaust ventilation systems; (3) failing to conduct initial and follow-up exposure
monitoring; (4) using inadequate or improper cleaning, housekeeping, and hygiene practices;
(5) failing to perform a hazard analysis to select protective equipment including respiratory
protection; (6) failing to adopt written programs and procedures for cadmium and lead
compliance and respiratory protection; and (6) omitting cadmium, lead, and hazard
communication training for its workers.




                                              120 

normal disassembly operations, they represent a potential ingestion hazard
and a possible inhalation hazard if dusts are substantially disturbed. In past
years UNICOR has used improper practices for cleaning but has largely
corrected these practices in recent years.


II.   Medical Findings

       As described in Chapter Two, cadmium and lead are both toxic to
humans and can cause harm when absorbed by the body. Exposure to lead
may result in damage to the kidneys, anemia, high blood pressure, and
infertility. Long-term exposure effects of cadmium may include emphysema,
kidney damage, and an increased risk of cancer.

      In light of these dangers, the OIG sought NIOSH’s assistance in
evaluating the medical effects resulting from the exposure conditions described
above and in the individual site reports that the OIG technical team members
prepared. We also requested that NIOSH assess the BOP’s and UNICOR’s
medical surveillance of staff and inmates. NIOSH assigned an experienced
Occupational Physician and industrial hygienist from its Hazard Evaluations
and Technical Assistance Branch (HETAB) to provide assistance.

       Between February 2008 and February 2009, NIOSH-HETAB staff
completed site visits to four BOP institutions – FCI Elkton, FCI Texarkana, FCI
Marianna, and USP Atwater – including return visits to FCIs Elkton and
Texarkana. While at the institutions, NIOSH’s medical team toured the
recycling factories and met with staff and inmates to listen to their concerns.
The team also requested documents from the BOP and UNICOR and reviewed
materials provided by the OIG that we collected during our investigation,
including medical surveillance records, personal medical records of staff and
inmates, and industrial hygiene testing reports.

      After completing its assessment at each of the institutions, NIOSH­
HETAB sent a letter report to the OIG describing its findings. These reports
were peer reviewed within NIOSH and appear in Attachment 2. In addition,
NIOSH-HETAB provided its final report on its health hazard evaluation to the
OIG in December 2009, which also appears in Attachment 2. The medical
team’s findings address the results of its review of biological monitoring data
obtained from staff and inmate medical records, UNICOR’s and the BOP’s
medical surveillance procedures, and medical symptoms that staff and inmates
described in their interviews with the medical team. The OIG requested that
the BOP and UNICOR provide NIOSH’s reports to all concerned staff and
inmates. The following sections summarize the findings of those reports.




                                      121 

       A.     Biological Monitoring Results

      NIOSH’s review of available staff and inmate medical records revealed
that the results of biological monitoring generally were unremarkable. NIOSH
did not identify any blood or urine testing that exceeded occupational
standards for cadmium and lead. However, according to NIOSH, these
conclusions are subject to three qualifications.

       First, because UNICOR failed to comply with OSHA biological monitoring
regulations (see discussion of medical surveillance below), the biological
monitoring records that NIOSH reviewed from each institution were incomplete
and did not include data from periods when exposures were likely greatest. For
example, UNICOR’s biological monitoring for lead at FCI Elkton did not start
until 2003, more than 5 years after e-waste recycling operations began there.
In addition, because cadmium and lead are not retained for long periods in the
bloodstream, blood testing in 2003 did not provide reliable information about
early exposures. As a result, NIOSH was not able to provide staff and inmates
with assurances about their cadmium and blood lead levels for the first several
years of operations. Similarly, although urine cadmium results at all
institutions were at acceptable levels, the number of records for inmates who
worked in glass breaking operations prior to 2002 was limited. For example,
only one inmate at FCI Elkton who worked in glass breaking operations prior to
2001 had urine cadmium testing performed.94

       Second, although staff and inmate medical records did not reveal
exceedances of OSHA standards for blood lead, NIOSH did identify increases in
inmate blood lead levels indicating lead exposures following activation of glass
breaking operations at USP Atwater, during glass breaking operations at FCI
Elkton prior to installation of the glass breaking booth in 2003, and following
start of the Elkton chip recovery project. Due to the initiative of Safety
Manager Smith, pre-placement, baseline blood testing was performed at USP
Atwater in March 2002 on 10 inmates who later worked in glass breaking
operations. Testing performed in July showed that the average blood lead
levels increased, indicating exposures to lead.95 At FCI Elkton, NIOSH found
that blood lead levels for inmates working in the glass breaking booth declined
between 2003 and 2007. However, the medical team concluded that the
testing results from 2003 indicated some bodily uptake of lead. NIOSH also
evaluated the medical records of 14 inmates who worked in the Elkton chip

       94 By the time biological monitoring for inmates started, this inmate was the only pre­

2001 glass breaker who remained at FCI Elkton. The BOP did not seek to perform testing on
inmates who were transferred to other institutions until 2010. The results of these tests
should be available by the fall of 2010.
        95 NIOSH also found that blood cadmium levels decreased for these inmates, likely due

to a reduction in smoking.




                                             122 

recovery project. Because UNICOR and the BOP failed to conduct blood testing
until 4 months after the project ended, the medical team concluded that it
could not determine the extent of lead exposures given that lead is not retained
for long periods in the bloodstream. However, based on staff descriptions of
the work environment and the lead levels found in one inmate, NIOSH
concluded that lead exposures during the chip recovery project did occur.

       Third, there is the possibility of future medical effects resulting from past
cadmium and lead exposures. While NIOSH concluded that the biological
monitoring data that it reviewed generally was unremarkable, due to variations
in individuals’ susceptibility to illness from toxic metal exposures, the results
do not mean that staff and inmates who previously were exposed to these
metals will not later become ill. NIOSH determined, for example, that while the
blood lead levels at FCI Elkton were well below levels that would require
removal from the workplace under OSHA regulations, adverse health effects,
such as impaired renal function and cognition, had been reported in the
medical literature at levels found in the inmates’ medical records. Cadmium is
also a carcinogen, but cancer may not appear for many years following
exposure. According to NIOSH, even if a staff member or inmate were to
develop cancer later in life, it would not be possible to link its cause to e-waste
recycling operations due to confounding influences, such as smoking and the
general incidence of cancer in males, which approaches 50 percent.

       Overall, NIOSH concluded that UNICOR staff and inmates might have
some additional collective risk of health problems because of the lack of
exposure control measures and the many OSHA violations that the OIG
technical team identified during its investigation. However, according to
NIOSH, the amount of this additional risk and its significance to particular
individuals was not possible to estimate. As described above, this result is a
consequence of the lax medical surveillance practices instituted by UNICOR
and the BOP. For example, the opportunity to properly assess the medical
effects of early exposures to lead has been lost because testing was not
performed in a timely manner. At this time it is not possible to isolate the
medical effects of the exposures from many other intervening influences,
making it impossible to single out the toxic metal exposures as the cause of
future staff and inmate health problems.

      B.    Medical Surveillance

       NIOSH concluded that the BOP’s and UNICOR’s medical surveillance of
staff and inmates at FCI Elkton and USP Atwater was inadequate and failed to
comply with OSHA regulations. NIOSH determined that medical examinations
were not completed on inmates as required by the OSHA cadmium and lead
standards, and medical records were not properly retained by the BOP.
Biological monitoring also was not standardized, resulting in some staff and
inmates failing to receive testing as required under OSHA regulations. At FCI


                                        123 

Elkton, biological monitoring for lead was not completed as required, and tests
that were not appropriate for occupational exposures, such as for arsenic, were
performed. Testing results were also not consistently communicated to the
staff and inmates, as required by OSHA regulations. At USP Atwater, in
addition to the deficiencies above, NIOSH reported that inmates did not receive
medical clearance for respirator use.

       Despite these problems, NIOSH concluded that the only persons
currently working in e-waste recycling who required continued medical
surveillance in accordance with OSHA requirements were inmates at FCI
Elkton that performed glass breaking operations or the monthly change of the
glass breaking booth filters, and inmates at USP Atwater that would perform
the same functions in the event that glass breaking operations restart there.96
The results of air monitoring at these institutions revealed exceedances of
OSHA exposure limits that triggered the need for such surveillance.97 NIOSH
also found that some former Elkton inmates and staff may require surveillance
under the OSHA cadmium standard based on the likelihood that they were
exposed to cadmium prior to 2003. This also applies to all inmates and staff at
any location who may have been exposed to cadmium over the action level for
more than 30 days. NIOSH recommended that UNICOR or the BOP retain a
board-certified, residency-trained Occupational Medicine Physician to oversee
future medical surveillance activities.

       The BOP requested FOH to provide these services. In December 2008,
an occupational physician at FOH advised the Warden at FCI Elkton that a
medical examination including various laboratory work should be provided to
UNICOR staff who previously worked in e-waste recycling.98 The physician also
visited FCI Elkton in April 2009 to meet with concerned staff. In December
2009, the BOP advised the OIG that medical testing had been completed on
staff members at FCI Elkton and that all results were normal. In addition,
medical testing to determine the individuals to be included in a medical
surveillance program was planned for other institutions where UNICOR
previously conducted glass breaking operations. In 2010, based on
recommendations from the FOH physician, the BOP instituted medical
surveillance for inmates who previously worked in recycling at FCIs Elkton and

       96 At the time that NIOSH made these conclusions, UNICOR was still breaking glass at
FCI Elkton.
         97 According to NIOSH, UNICOR should voluntarily follow the more protective

guidelines for lead exposure and blood lead levels set forth by an expert panel [Kosnett et al.
2007]. These guidelines were endorsed by the California Department of Public Health and the
Council of State and Territorial Epidemiologists in 2009, and therefore were not included in the
initial NIOSH letters sent to Elkton and Texarkana, but they should be applied to all UNICOR
facilities where exposure to lead occurs.
       98   E-waste recycling operations were suspended at FCI Elkton in May 2008.




                                             124 

Texarkana, institutions where glass breaking occurred prior to 2003 and
medical surveillance was not performed.

       C.      Staff and Inmate Health Complaints

       In addition to assessing UNICOR’s and the BOP’s medical surveillance
procedures and examining biological monitoring results, NIOSH also evaluated
adverse health symptoms that staff and inmates reported in their interviews
and attributed to their work in UNICOR’s e-waste factories, including memory
loss, fatigue, hypertension, anemia, chest pain, effects from radiation exposure,
and bipolar disorder, among others. Several staff also reported problems with
skin lesions, and one staff member was alleged to have died from toxic metal
exposures related to UNICOR’s e-waste recycling operations, according to
relatives. In all, more than 50 staff and inmates provided complaints to the
OIG or NIOSH.99

       After considering available evidence, including medical records and
information obtained during interviews, NIOSH concluded that none of the
reported health problems could be linked to recycling work.100 NIOSH made
this determination after providing photos of the skin lesions in question to an
Occupational Dermatologist for evaluation, and examining the medical records
of the deceased BOP employee, among other information. NIOSH relied on its
expertise regarding the health effects of radiation, lead, and cadmium to
determine if the reported symptoms or illnesses were likely due to exposures
resulting from e-waste recycling. NIOSH also examined detailed medical
records for several individuals and found that non-occupational illnesses were
documented in the records while occupational illnesses were not. With regard
to the deceased employee, NIOSH found that the employee had a medical
problem that was not related to work exposures, and that evidence of such
exposures was not otherwise documented by the employee’s health care
providers in the medical or death records.


III.   Other Hazards and Injuries

       In addition to hazards from toxic metals, we identified various other
hazards in UNICOR e-waste recycling operations, including physical hazards
resulting in injuries such as cuts from broken glass or other sharp objects and
tools; noise hazards from equipment, powered hand tools, and various
disassembly operations; heat hazards from conducting physically taxing work

        99 In addition, as of June 2010, five lawsuits have been filed in various jurisdictions

related to exposures from UNICOR’s e-waste operations. Of these, two have been dismissed.
       100  This conclusion does not encompass temporary discomfort from dust or fumes
during the work shift, which was reported at multiple institutions and was caused by recycling
activities.




                                              125 

in high heat while wearing protective equipment; and other exposure hazards,
such as dust from the sanding of plastics. We found that UNICOR failed to
implement an effective hazard analysis program to identify, evaluate, and
control these hazards.

      During our field work at UNICOR recycling factories with the OIG
technical team, we further determined that UNICOR violated the OSHA noise
standard (29 C.F.R. § 1910.95), and OSHA regulations concerning injury
reporting and record keeping (29 C.F.R. § 1904).

     Below we present information on injuries, noise exposure, and heat
exposure in UNICOR’s e-waste recycling factories.

      A.    Injuries

      Our interviews and review of inmate injury records revealed that inmates
who worked in glass breaking operations frequently were cut by the broken
glass. For example, staff and inmates at USP Atwater told the OIG that
inmates were being cut “constantly” in the first few months of glass breaking in
2002 and being sent to the infirmary. The former Safety Manager at FCI
Elkton also stated that inmate cuts from glass breaking were commonplace
and were a concern to him. At FCI Ft. Dix, glass breaking operations were
stopped permanently in 2004 after an inmate severely lacerated his forearm,
exposing muscle and requiring approximately a dozen stitches.

      Some inmates also stated that they injured their hands because they
lacked access to proper tools to disassemble the e-waste, which was confirmed
by some of UNICOR’s own inspections. For example, in April 2004, UNICOR
inspected the recycling operations at USP Atwater and found that inmates at
both the factory and warehouse lacked access to proper tools and consequently
were having to use undue force to disassemble the e-waste. The UNICOR
inspector noted that the same problem had been identified by the BOP
industrial hygienist two years earlier.

       UNICOR and the BOP did not share injury information between factories,
and lessons learned to prevent lacerations during glass breaking operations
were not disseminated. As a result, successive factories that started glass
breaking operations repeated errors in failing to initially provide adequate
personal protective equipment for inmate glass breakers, such as specialized
gloves and Kevlar sleeves for their arms. For example, unlike other UNICOR
recycling factories, inmates at FCI Ft. Dix who broke glass did not have access
to Kevlar sleeves as late as 2004 and, according to UNICOR staff, after UNICOR
purchased heavier gloves the custodial staff prohibited the inmates from using
them. The local Safety Manager also told the OIG that he was not aware that
inmate cuts from glass breaking were a problem at other institutions and that
he would have wanted to know more about those incidents.



                                      126 

      Our investigation further determined that the BOP does not collect or
retain the data needed to identify injury trends in UNICOR operations. The
frequency of glass breaking injuries therefore was not apparent to the BOP’s
Health Services Division, which oversees the BOP’s safety programs. The
BOP’s National Safety Administrator, Ron Day, told the OIG that the BOP
currently does not require the collection and evaluation of injury,
environmental, and fire protection information from its institutions for trends.
He said that local safety managers with similar UNICOR operations, such as
automotive, textiles, and recycling, typically do not confer with each other on
conference calls to discuss common problems and issues. He stated that it
would be valuable to have a system to collect injury data and to share
information but that nothing was currently in place.

       During our investigation, we also learned that the BOP was violating
OSHA regulations by failing to record inmate injuries on an injury and illness
log that OSHA requires and inspects periodically. 29 C.F.R. § 1904 (describing
requirements of OSHA Form 300 log). While the BOP identified staff injuries on
this log, it omitted inmates’ injuries. In one instance, the BOP received
inaccurate advice from an OSHA regional office about this requirement. After
consultations between OSHA and the BOP on the scope of BOP’s obligations
concerning inmates under the OSHA regulation governing federal agency
occupational safety and health programs, 29 C.F.R. § 1960, the BOP concurred
that inmates should be included on the OSHA Form 300 log.101

       B.     Noise Exposure

       The OSHA noise standard (29 C.F.R. § 1910.95) establishes an action
level for noise exposure at 85 decibels (dBA) and a PEL of 90 dBA. OSHA
requires that employers implement a hearing conservation program when noise
exposures are at or above the OSHA action level as an 8-hour time-weighted
average. A hearing conservation program requires audiometric testing, training
in noise control, availability of hearing protection, noise monitoring, and other
elements. OSHA requires that employers ensure that workers use hearing
protection when exposures exceed the PEL, or when exposures exceed the
action level and an employee has not yet had a baseline audiogram or has
experienced initial signs of hearing loss.

      We determined that UNICOR and local safety staff often did not identify
noise sources and conduct adequate noise surveys of UNICOR recycling
operations. Based on FOH and NIOSH noise monitoring and from review of

       101 This requirement is based upon inmates’ status as “employees” with respect to
occupational health and safety programs. OSHA’s longstanding interpretation of its regulation
governing federal agencies, 29 C.F.R. § 1960, is that inmates fall within the definition of
“employee” under the regulation, 29 C.F.R. § 1960.2(g), for the limited purpose of occupational
safety and health.




                                             127 

recent noise testing results obtained by UNICOR and BOP consultants and
safety personnel, FOH found noise exposures above the OSHA action level or
PEL at various UNICOR factories during glass breaking operations, baling
operations, hand-held power tool use, sander use, pallet manufacturing, and
other activities. UNICOR generally made hearing protection available, but did
not adequately enforce its use across all factories. Except for FCI Texarkana,
UNICOR has not implemented a hearing conservation program as required by
the OSHA noise standard (29 C.F.R. 1910.95) at factories with documented
exposures above the action level.

      C.    Heat Exposure

      OSHA does not have a specific standard that regulates heat exposure,
but the American Conference of Governmental Industrial Hygienists (ACGIH)
has adopted “Threshold Limit Values” that are generally accepted as reasonable
guidelines for the control of heat exposure. NIOSH has also adopted
“Recommended Exposure Limits” for heat exposure. Although OSHA does not
have a heat exposure standard, it can enforce worker protection measures
under its “General Duty Clause.” 29 U.S.C. § 654.

      During the OIG technical team’s field work at FCI Marianna in Florida,
UNICOR staff and inmates reported that past UNICOR operations had
excessive heat exposures in buildings that UNICOR rented between 1998 and
2002. They described the heat condition in one of these buildings as
“unbearable,” “horrible,” and “like an oven.” The OIG technical team found
that UNICOR glass breaking operations at the female prison camp were
especially susceptible to heat stress conditions.

      During an inspection in November 2006, OSHA recommended a heat
stress evaluation, which the BOP and UNICOR did not perform. In August
2007, NIOSH and FOH conducted a heat hazard evaluation and found that
glass breakers and feeders were exposed to heat above exposure limits
established in the ACGIH Threshold Limit Values and the NIOSH
Recommended Exposure Limits. Due to the seriousness of the exposures, FOH
issued an interim report in September 2007. FOH reported that inmates
performing glass breaking were at particular risk because they performed
physical activities in a hot, humid, and unventilated room and wore protective
clothing that increased the risk of heat stress. In addition, FOH and NIOSH
testing revealed that heat exposure is a hazard for operations other than glass
breaking, and various warehouse activities and factory disassembly operations
exceeded the ACGIH Threshold Limit Values and NIOSH Recommended
Exposure Limits.

      The BOP and UNICOR did not have a heat stress program at the time of
our inspections at FCI Marianna in 2007. FOH and NIOSH advised the BOP
and UNICOR in September 2007 of the need to develop a program including


                                      128 

engineering controls, medical surveillance, personal protective equipment,
training, acclimation, and work and rest regimens. FOH and NIOSH also
recommended that the BOP adopt the ACGIH Threshold Limit Values for heat
exposure as its standard for exposure limits and controls.

      In response, the BOP developed two policies for heat exposure, an
operational requirements document and a heat stress procedure. FOH
reviewed these policies in May 2008 and found them to be largely inadequate.
BOP then developed a revised policy in September 2008 entitled “Heat Stress
Program” that included substantial improvements over the previous policies.102

       During later field work, FOH found that no UNICOR factory had
conducted a heat exposure assessment even though inmates had the potential
for excessive exposure to heat. However, some factory managers were aware of
the heat issue and described measures to mitigate heat exposure.

      D.       Plastic Sanding

       As part of e-waste recycling operations at FCIs Elkton, Marianna, and
Texarkana, UNICOR sanded the plastic casing around computer monitors in
preparation for painting. Hazards associated with this activity included
inhalation of fine dust particles and brominated flame retardants, such as
polybrominated diphenyl ethers. These substances also are found in
televisions and computers. The scientific community and the public have
become concerned over these substances because studies have reported that
they accumulate in human tissue.

        As with other operations, UNICOR did not conduct an analysis of
hazards related to sanding plastic casings and failed to specify necessary
hazard controls according to the results. Because UNICOR did not conduct
initial exposure monitoring after startup to determine the extent of worker
exposures, and discontinued those operations prior to the start of the OIG’s
investigation, we could not estimate staff and inmate exposures.


IV.   Environmental Compliance

      We also examined UNICOR’s compliance with environmental
requirements at its e-waste facilities. We conducted site visits, reviewed
documents, and interviewed witnesses regarding environmental issues. At our
request, after we received allegations of improper disposals of hazardous waste




      102   The OIG technical team’s assessment of this document appears in Attachment 3.




                                            129 

at UNICOR’s recycling factories, the EPA conducted air, water, and waste
inspections at FCI Elkton in 2007 and FCI Texarkana in 2008.103

       Our investigation determined that oversight of UNICOR’s compliance
with environmental regulations was inadequate, and that the e-waste recycling
program was responsible for generating hazardous wastes that were unlawfully
stored or disposed of at multiple BOP institutions. We also found that UNICOR
at times failed to fully evaluate environmental permitting requirements before
starting new operations and did not share information about environmental
compliance requirements between recycling factories. Similar to the
occupational exposures to cadmium and lead that we identified, most of the
environmental violations we discovered occurred in the period prior to 2004,
before the Recycling Business Group adopted written operating procedures.
Although we did not identify major environmental harm resulting from these
violations, such as extensive soil contamination or fish kills, the violations
demonstrated a disregard of legal requirements and in some cases resulted in
pollution to the environment. We concluded that the violations were
preventable and should not have occurred.

       A.     UNICOR’s Handling of Hazardous Wastes

      As detailed in Chapter Two, generators that produce more than 1,000
kilograms of hazardous waste per month must comply with numerous
regulatory requirements relating to the generation, treatment, storage,
transportation, and disposal of the waste. Generators of small quantities of
hazardous waste, less than 100 kilograms per month, generally are exempt
from these requirements provided they make the required hazardous waste
determinations.104 According to EPA estimates, the disposal of only seven color
computer monitors typically will exceed the threshold for conditionally exempt
status.

      Broken glass from color CRTs typically is subject to hazardous waste
regulation due to lead in the glass. During much of the period of our review,
broken CRT glass was subject to numerous hazardous waste requirements,
including labeling and storage requirements. Effective in January 2007, EPA’s

       103 EPA’s reports for these inspections can be found in the respective FOH institution
reports found at: http://www.justice.gov/oig/reports/BOP/index.htm.
       104   According to EPA, hazardous waste recyclers such as UNICOR frequently generate
waste in the course of their recycling activities, which is considered a new point of generation
under the RCRA regulations. 40 C.F.R. § 261.5 (c) & (d) identifies the types of hazardous waste
that must be counted in calculating the volume of hazardous waste generated by generators
that believe they qualify for conditionally exempt small quantity generator status. Waste that
is in fact recycled need not be counted, but the recycler must determine the RCRA status of
waste generated by the recycling operation itself, and if found to be hazardous, this waste must
be counted toward the 100 kg/month exemption limit.




                                             130 

CRT rule granted CRTs being recycled a conditional exclusion, provided that
the recycler complied with certain requirements, which also included labeling
and storage requirements. In addition, spent ventilation filters contaminated
with cadmium and lead may also qualify as hazardous wastes, as do other
wastes generated at UNICOR facilities such as batteries.

       UNICOR failed to manage its wastes in compliance with hazardous waste
regulations at several facilities. Federal environmental regulations require that
a container holding hazardous waste must always be closed during storage, 40
C.F.R. § 265.173(a), and disposal of used, broken CRT glass is prohibited. 40
C.F.R. §§ 261.39; 261.2(c). According to staff, inmates, and UNICOR
customers, open gaylord boxes and dumpster containers containing broken
CRTs were routinely left outdoors at the UNICOR warehouse at FCI Elkton,
some for months at a time, allowing for the release of dust and glass debris to
the air, soil, and storm drains through wind or rainwater runoff. Staff at USP
Atwater also stated that boxes of broken monitor glass were stored outdoors
uncovered.105 After conferring with the EPA, we concluded that the activities
described above constitute unlawful disposals and storage of hazardous waste.

       UNICOR’s management of waste ventilation filters containing cadmium
and lead was also deficient. Witnesses told us that at FCI Elkton, filters from
the glass breaking booth, which exceeded regulatory levels (40 C.F.R. § 261.24)
and had to be handled according to hazardous waste requirements, were stored
in the UNICOR warehouse for more than 2 years, at times without labels.
Filters from general ventilation systems in areas where glass breaking
operations took place, which exceeded regulatory levels when tested in 2007,
were also placed in the regular trash, along with nickel cadmium batteries,
lead-based paint, light bulbs, televisions, and other items that may have
qualified as hazardous wastes if disposed of. 106 When the EPA inspected FCI
Elkton in 2007, it found that UNICOR was improperly storing used filters from
the glass breaking booth and that the BOP had not fully characterized
hazardous wastes at the institution. According to the EPA, the only waste that
the BOP identified on a hazardous waste log it had maintained at FCI Elkton
since 1997 was 13 gallons of solvents that were acquired in 2007.



       105 In November 2004, a fire broke out in boxes of monitors stored outdoors at USP

Atwater, which required that UNICOR undertake an environmental cleanup. UNICOR staff told
us that after the Atwater fire they were instructed to better manage their CRTs and broken
monitor glass.
       106   According to EPA, Ni-Cd batteries and leaded paint nearly always exceed the 40
C.F.R. 261.24 toxicity characteristic (TC) criteria. Color CRTs frequently exceed the TC value
for lead (although black and white monitors do not), and fluorescent lamps manufactured
before the mid-1990’s generally fail the TC value for mercury, while those with later
manufacture dates are less likely to fail.




                                              131 

       We also discovered that some BOP and UNICOR institutions claimed to
regulators that they were exempt from hazardous waste requirements as
“conditionally exempt small quantity generators.” However, this exemption is
not available to generators that fail to determine whether their wastes are
“hazardous” under applicable waste regulations. 40 C.F.R. §§ 261.5(g); 262.11.
For example, we found that FCI Elkton claimed conditionally exempt status,
but that evaluations were not adequately performed to determine the volume of
hazardous wastes that were generated at that institution. FCI Texarkana also
claimed to be “conditionally exempt” from hazardous waste regulation.
However, our investigation determined that for several years after UNICOR
initiated glass breaking operations at FCI Texarkana in 2001, the BOP and
UNICOR failed to make hazardous waste determinations as required to claim
conditionally exempt small quantity generator status under 40 C.F.R. 261.5.107

      UNICOR’s handling of dust and other wastes from glass breaking also
potentially implicated environmental requirements pertaining to air and water.
The EPA determined that UNICOR and the BOP failed to properly evaluate
permitting requirements before starting recycling operations. The EPA found
that UNICOR’s outdoor storage of e-waste may have required a permit for
stormwater, and that UNICOR had not evaluated whether its air emissions
from glass breaking operations and the chip recovery project qualified for an
exemption from air regulations.108

       B.     Lack of Technical Competence and Compliance Oversight

       Our investigation determined that the lack of knowledge about
environmental compliance responsibilities that we found at some recycling
factories was due in part to poor information dissemination and the absence of
written guidance from the Recycling Business Group. Personnel at the BOP
institutions, including recycling technicians and local safety staff, received
minimal instruction and guidance on environmental compliance
responsibilities related to e-waste recycling, such as on the proper handling of
glass booth filters, prior to 2004. Although we found numerous e-mails and
documents as early as 2000 indicating that the leadership of the Recycling
Business Group was keenly aware of regulatory developments in the states
where its factories operated, we did not find corresponding attention to the
education of staff and inmates on environmental compliance obligations. We
did note much greater attention to environmental compliance issues at the



       107 After evaluating the volume of FCI Texarkana’s hazardous wastes in 2008, the EPA
found that FCI Texarkana was a conditionally exempt small quantity generator.

       108 In addition, as detailed in Chapter Five, we found that UNICOR submitted

inaccurate, incomplete, and misleading information to the EPA about these emissions.




                                            132 

factories located in New Jersey (FCI Ft. Dix) and California (USP Atwater), two
states that were at the forefront of regulating e-waste recycling operations.

       The problems resulting from the lack of environmental knowledge in the
field were compounded by the absence of qualified environmental oversight of
UNICOR’s operations. For example, at FCI Elkton repeat inspections by BOP
personnel, including the local safety office, regional safety staff, and the
Headquarters Program Review Division, failed to identify the unlawful disposal
of hazardous waste, lack of proper hazardous waste inventory practices, and
inadequate permit assessments that the EPA identified in its inspection. The
BOP’s Headquarters Environmental Program Manager told the OIG that he has
observed significant differences in compliance performance between UNICOR
factories and believed that strong environmental oversight from BOP
Headquarters is necessary to ensure compliance with environmental
requirements.

       We also determined that DOJ does not oversee UNICOR’s or the BOP’s
compliance with its environmental obligations. Our interview with the
Environmental Program Manager in DOJ’s Justice Management Division
revealed that DOJ does not require components within DOJ, such as the
Bureau of Alcohol, Tobacco, Firearms and Explosives; the BOP; or the FBI, to
provide adverse environmental compliance information to her, such as citations
issued by environmental regulators, and that she does not otherwise regularly
collect this information. She further stated that DOJ managers had not
inquired with her about compliance performance within the Department,
including for the BOP or UNICOR. She said that she felt “at the very least” that
DOJ should have an environmental auditing program to ensure that there is an
internal Headquarters review process.

       The BOP recently has attempted to strengthen its oversight of its
environmental compliance performance. In 2007, the BOP established a new
policy that created an Environmental Management System (EMS) to improve its
adherence to environmental requirements. PS 1600.10. The BOP’s
Environmental Management System implemented Executive Order 13423,
which required federal agencies to develop Environmental Management
Systems. The Health Services Division at BOP Headquarters also is attempting
to hire environmental specialists who will assist with environmental audits,
and is conducting site visits at institutions to certify their EMS programs.

       Although compliance enforcement is identified as an important element
of the BOP’s Environmental Management System, we found that only a few of
the “environmental responsibilities” it assigns to various offices and staff within
the BOP address compliance matters. The policy directs Chief Executive
Officers of BOP institutions to assign a “top manager” to serve as a point of
contact for the EMS and environmental compliance, and specifies that Safety
Managers should function as “EMS Coordinators” and “technical expert[s].”


                                       133 

However, the policy does not identify how compliance will be achieved at the
local level and does not assign oversight responsibility for inspections or
compliance at the Headquarters level.109 After conferring with the EPA’s Office
of Enforcement and Compliance Assurance, we believe that the policy’s failure
to assign compliance enforcement duties above the institution level will result
in insufficient oversight of UNICOR’s operations. In addition, we believe the
policy does not specify adequate consequences for identified non-compliance,
such as whether violations of environmental laws and regulations will be
considered in managers’ performance evaluations.

       We also found that that the Environmental Management System policy
does not adequately define UNICOR’s obligations within the EMS. The policy
states that UNICOR will “ensure that it operates its factories, vocational
training programs, and education programs in compliance with environmental
laws, regulations, and requirements.” It does not identify responsibilities
within UNICOR to achieve this result.

       We are also concerned that the demands placed on Safety Managers as
environmental “technical experts” will surpass the training that they are
afforded. Too often in our investigation we identified circumstances where
safety staff members were requested to provide guidance on matters on which
they lacked adequate expertise. We believe that local safety staff should work
in close consultation with trained environmental specialists who do not have
other collateral duties.

      In sum, although our investigation determined that the BOP has made
recent progress to improve its environmental compliance performance, we
believe that vigilant oversight is needed to ensure UNICOR’s adherence to
environmental requirements.


V.     Conclusions

       Our investigation identified many deficiencies with UNICOR’s e-waste
recycling program. We found that UNICOR failed to follow well-established
OSHA regulations concerning exposure monitoring, respiratory protection, the
use of engineering controls, and medical surveillance, and often failed to warn
staff and inmates about dangers in their work areas. As a consequence,

       109  The Health Services Division’s Occupational Safety and Environmental Health
Branch lacks compliance enforcement authority under the policy and instead is merely to
develop and interpret environmental policy and training. Regional Safety Administrators are in
charge of “monitoring” audit results and providing technical assistance visits to institutions.
According to the BOP’s Environmental Program Manager, the BOP’s regional offices have had
no role in environmental compliance enforcement at BOP institutions. The Program Review
Division, which performs audits within the BOP, also is not mentioned in the policy.




                                             134 

UNICOR and BOP staff and inmates were exposed to cadmium and lead in
circumstances that should have been avoided. OSHA further determined that
some of the violations, had they been discovered during OSHA inspections,
would be deemed “willful” because they showed “plain indifference” to worker
health and safety.

       UNICOR’s recycling practices resulted in contamination of BOP facilities,
some of which required remediation. For example, at FCI Elkton UNICOR had
to retain a remediation contractor to clean extensive cadmium and lead
contamination that was found by FOH and NIOSH in three recycling locations
at that institution. Although the vast majority of the contamination that we
identified at UNICOR’s e-waste factories resulted from unsafe methods used to
disassemble CRTs, including glass breaking, significant contamination can
accumulate from disassembly of CPUs and other e-waste if rigorous cleaning
and housekeeping practices are not adopted and strictly enforced.

      NIOSH’s review of staff and inmate medical records that were available at
the institutions where e-waste recycling occurred revealed that the results of
biological monitoring generally were unremarkable. However the records were
incomplete and did not include data from periods when exposures were likely
greatest. NIOSH’s evaluation of adverse health symptoms that staff and
inmates reported in their interviews and attributed to their work in UNICOR’s
e-waste factories showed that none of the reported health problems could be
linked to recycling work. However, due to variations in susceptibility to
adverse health effects from toxic metal exposures, some contribution to future
health problems from exposures at UNICOR cannot be completely ruled out.

      We also found that by 2003 UNICOR began to make significant
improvements to its e-waste operations, and that by 2009 these operations
incorporated safe work practices and hazard control measures, including for
the manual breaking of CRT glass. However, we identified significant delays in
UNICOR’s implementation of necessary changes, which increased the amount
of time that UNICOR’s e-waste program failed to comply with health, safety,
and environmental requirements.




                                      135 

[PAGE LEFT INTENTIONALLY BLANK]





              136 

                        CHAPTER FIVE 

      OIG FINDINGS ON MANAGEMENT DEFICIENCIES AND THE 

     INDIVIDUAL ACCOUNTABILITY OF UNICOR AND BOP STAFF 

       In this chapter we evaluate the causes for the violations of law and
policies that we identified during our investigation, including management
deficiencies, misconduct, and performance deficiencies by UNICOR and BOP
staff. Part I discusses the numerous management deficiencies we found in the
health, safety, and environmental protection programs administered by
UNICOR and the BOP, including a lack of technical resources and inadequate
oversight of the e-waste recycling program. Part II assesses misconduct and
performance deficiencies by UNICOR and BOP staff.


I.     Management Deficiencies

      We identified management problems that contributed to the BOP’s and
UNICOR’s failure to comply with health, safety, and environmental regulations
and policies. We found that these deficiencies were pervasive and largely
originated from faulty administrative practices at UNICOR and BOP
Headquarters. They also involved lax implementation practices at UNICOR’s e-
waste recycling factories where improper and unsafe work practices were found
during our investigation.

      Members of the OIG technical team identified particular weaknesses
related to: (1) the availability of technical resources, (2) hazard assessments
and hazard communication, (3) oversight of UNICOR operations, and (4) health
and safety management systems. UNICOR and the BOP did not dispute these
findings. We also concluded that deficiencies in these areas likely are not
limited to UNICOR’s e-waste operations and are found in other UNICOR
business lines.

       A.   Availability of Technical Resources

       Our investigation determined that UNICOR’s e-waste recycling program
lacked adequate technical resources from its inception in 1997. UNICOR and
the BOP often assigned staff who did not have sufficient expertise to carry out
duties such as establishing appropriate engineering controls in its e-waste
recycling factories, identifying and assigning adequate personal protective
equipment, and ensuring the effectiveness of exposure control measures and
work practices. The reliance on unqualified personnel stemmed largely from
the lack of Certified Industrial Hygienists or other sufficiently trained safety
specialists within the BOP and UNICOR to service 115 institutions and 103
UNICOR factories, which currently employ approximately 17,000 inmates. As
of June 2010, UNICOR had a single Certified Industrial Hygienist who was the


                                      137 

only certified hygienist within all of the BOP. The BOP expects to have an
additional hygienist on its staff by summer 2010. According to the technical
team, this level of staffing is inadequate given the size and complexity of
UNICOR’s operations.

      Although UNICOR sometimes retained outside industrial hygiene
consultants, we believe this was not a substitute for sufficient personnel with
appropriate professional and technical expertise. FOH and NIOSH-HETAB
found that UNICOR’s and the BOP’s lack of internal technical resources
created problems when they retained industrial hygiene consultants who
provided ineffective evaluations of UNICOR’s e-waste operations. For instance,
FOH found numerous examples where consultant reports were inaccurate,
incomplete, or misleading, including cases where exposures above occupational
exposure limits were not properly reported. These deficiencies were not
recognized by UNICOR or BOP staff.

      In addition, according to the FOH, these reports often lacked important
technical detail and did not provide insightful conclusions and
recommendations. For example, the consultants would frequently report air
sampling data for a factory glass breaking operation and compare the results to
OSHA PELs for cadmium and lead, but would make no mention of important
interpretive factors such as the quantity of CRTs broken during the sampling
period, the extrapolation of exposure data over the duration of a worker’s shift,
whether respirators and local exhaust ventilation were being used and the
extent to which such controls were judged to be effective, whether the
operations complied with OSHA regulations, and what measures were
necessary to ensure OSHA compliance. As a result of UNICOR’s ineffective
vetting of its consultants and lack of critical expert analysis of their work,
UNICOR frequently did not obtain adequate information to assess and improve
worker protection and comply with pertinent health and safety regulations.

       Despite these limitations, we determined that the BOP’s safety staff was
active in the field and appropriately identified and reported upon various safety
related deficiencies and requirements. For example, Safety Managers at USP
Atwater and FCI La Tuna raised serious concerns regarding glass breaking
when recycling operations were introduced at those institutions.

      B.    Hazard Assessments and Hazard Communication

      OSHA hazard communication regulations require employers, including
federal agencies, to provide employees with “effective information and training
on hazardous chemicals in their work area at the time of their initial
assignment, and whenever a new physical or health hazard the employees have
not previously been trained about is introduced into their work area.” 29 C.F.R.
§ 1910.1200(h)(1); 29 C.F.R. § 1960.16. We determined that UNICOR and the
BOP do not have policies that require UNICOR to conduct assessments by


                                      138 

qualified personnel of its new operations, or on significant changes in existing
operations, that would identify the hazards that UNICOR is required to disclose
under OSHA regulations. As a result, UNICOR failed to properly assess
hazards related to e-waste in its recycling factories and to warn staff and
inmates in a timely fashion about the presence of toxic metals in their work
areas. In addition, we found that due to UNICOR’s failure to conduct such
assessments, it did not properly integrate hazard controls into its e-waste work
processes.

       According to FOH, an effective work planning and hazard analysis
program involves a well-defined job hazard analysis process that is integrated
with work planning and that is conducted prior to the start of work. Following
completion of the hazard analysis, work instructions are then developed that
integrate necessary hazard controls into the work process. Protective measures
such as hazard communication training, engineering controls, and assignment
of PPE should be put into place prior to the start of work. Verification of the
effectiveness of work instructions and hazard control measures should also be
performed at startup and during initial operations.

       UNICOR did not utilize this assessment process with its e-waste
operations. Instead, its recycling hazard control measures evolved slowly over
periods of years through a process of “trial and error” at some factories before
cadmium and lead exposures were controlled to levels below OSHA exposure
limits. For instance, rather than specifying respirators at startup based on
sound hazard analysis, UNICOR instead gradually upgraded respiratory
protection over several years from nothing to dust masks, to half face piece air
purifying respirators, to full face piece air purifying respirators, and finally in
2004 to powered air purifying respirators. Similarly, instead of implementing
engineering controls specifically designed to control toxic metal dusts, UNICOR
implemented make-shift systems and then gradually improved them over time.

        According to FOH, UNICOR’s lack of an integrated work planning and
hazard analysis process resulted in inadequate worker and environmental
protection and non-compliance with applicable OSHA and EPA regulations.
For example, at USP Atwater, it was only at the initiative of the Safety Manager,
Leroy Smith, rather than based on an established UNICOR assessment
program, that exposure monitoring during glass breaking operations occurred
at that institution in 2002. UNICOR eventually initiated exposure monitoring
for glass breaking and disassembly operations at other factories, but because it
lacked a documented program to define monitoring requirements, UNICOR’s
approach was inconsistent across factories. UNICOR’s assessments depended
heavily on the aptitude and willpower of the local Safety Manager and at times
local UNICOR staff to challenge UNICOR Headquarters’ assertion that its
operations had been proven safe. For example, USP Lewisburg performed
effective worksite monitoring and evaluation while FCI Marianna performed
little exposure monitoring. While USP Atwater and FCIs Elkton and Texarkana


                                       139 

performed exposure monitoring, their monitoring was prone to errors and
lacked data analysis, worksite evaluation, compliance evaluation, and crucial
recommendations for worker protection and compliance. As a result of the lack
of comprehensive evaluation, UNICOR was slow to implement corrective
actions.

       In sum, our investigation determined that UNICOR has not had an
integrated work planning and hazard analysis program. We believe this
deficiency resulted in worker exposures to cadmium and lead above exposure
limits, regulatory violations, uncontrolled releases of toxic metals, and the need
for expensive remedial actions. Hazard communication also was deficient, and
workers were not informed of dangers from toxic metals and other hazards in
their work areas.

      C.    Inspections and Oversight of UNICOR Operations

       We found that oversight of UNICOR’s e-waste recycling program was
inadequate and failed to identify the many violations of health, safety, and
environmental regulations and policies that we discovered during our
investigation. Internal inspection oversight was provided by local and regional
BOP safety staff, members of the Recycling Business Group, and the BOP’s
Program Review Division. The UNICOR Board of Directors also received reports
of inspection activity from UNICOR staff. External oversight by regulatory
agencies was extremely rare prior to 2003, and the inspections that did occur,
including those from UNICOR’s suppliers, were in at least some instances
compromised by the concealment from inspectors of actual working conditions
and problems in the recycling factories. In addition, DOJ provides no health,
safety, and environmental compliance oversight of UNICOR’s and the BOP’s
operations.

            1.    Internal Oversight

        BOP safety staff at each institution regularly performs inspections of
UNICOR operations. They sometimes are assisted with their work by safety
staff from BOP regional offices, who also perform their own site evaluations at
the request of institution staff. During the period of our investigation, these
inspections addressed general safety issues such as fire safety, labeling, pest
control, personal protective equipment, and electrical safety.

      Our review of safety staff reports revealed that they at times identified
problems related specifically to e-waste recycling, such as the need for baseline
air sampling, enforcement of work practices and food and drink restrictions,
enforcement of personal protective equipment requirements, housekeeping
improvements, control of dust emissions from the glass breaking operations,
and noise surveys. However, safety staff members were not provided guidance
at the start of recycling operations that provided instruction in how properly to



                                       140 

evaluate this work. As a consequence inspection results varied and some
Safety Managers identified problems that went undetected in other factories.

       According to FOH, the safety inspection procedures used by the BOP and
UNICOR did not result in comprehensive assessments of the recycling
operations’ compliance with OSHA and EPA regulations. FOH found that
although safety staff members are typically knowledgeable in their field of
expertise, they are not professional industrial hygienists skilled in the
identification, evaluation, and control of worker exposures to chemical hazards
such as toxic metals. Some safety managers also stated that their findings
were sometimes ignored by UNICOR and BOP managers. We further
determined that the BOP’s Health Services Division, which had some expertise
in industrial hygiene, had no oversight role concerning UNICOR’s e-waste
operations.

       In addition to inspections by BOP safety staff, the Recycling Business
Group conducted its own evaluations of recycling factory operations. Although
the reports that resulted from these inspections at times referred to health and
safety issues, they typically focused on production and cost-related
considerations. FOH determined that besides failing to identify many OSHA
and EPA regulatory violations, these reviews also failed to address non-routine
activities such as filter changes that resulted in excessive worker exposures
because they were not being properly performed. We also identified numerous
examples where problems that Recycling Business Group staff identified were
not promptly resolved. Overall, we determined that the Recycling Business
Group reviews failed to identify the extent of e-waste recycling hazards,
improper work practices, and OSHA and EPA compliance issues.

       The BOP Program Review Division also conducts inspections at UNICOR
factories. According to its current Assistant Director, VaNessa Adams, the
mission of the Division includes preventing waste, fraud, and abuse and
providing oversight of compliance with laws, regulations, and BOP policy.
Program Review Division staff typically complete inspections at each BOP
institution every two to three years that include evaluation of UNICOR
operations.

       We examined the guidelines that the Program Review Division uses to
assess UNICOR factories and found that they do not address health and safety
issues. Instead, they focus on matters such as production planning,
scheduling, quality, cost control, and customer satisfaction. The guidelines
also are not tailored to specific UNICOR product lines, such as e-waste
recycling or textiles, and are written to apply generally to all UNICOR field
activities. We further determined that the Division’s safety and health
guidelines do not specifically address UNICOR operations.




                                      141 

       According to BOP Assistant Director Adams, Program Review Division
safety inspectors will not always evaluate UNICOR operations during their field
inspections. We found that this gap in data collection, combined with the
insufficient guidelines for assessing health and safety issues, resulted in failure
by Division staff to report significant health and safety problems in some
circumstances. For example, Program Review Division inspections of UNICOR
operations at FCI Elkton in 2001 and 2005 did not identify health, safety, or
environmental problems in the e-waste program. The Division inspector who
performed Elkton’s UNICOR assessment in October 2001 told the OIG that he
recalled inmates and some staff complaining about the dust from the glass
breaking operations and also remembered seeing debris in the factory air that
was quite noticeable. He stated that because the inspection guidelines that he
relied upon did not address health and safety issues, he did not note these
glass breaking problems in his report.

       UNICOR relied upon the facts of the inspections that are described above
to enhance the perceived compliance performance of the Recycling Business
Group with auditors. For example, UNICOR provided to its lead auditing firm a
report entitled Federal Prison Industries, Inc. FY 2006 Report on Environmental
Compliance and Recycling Program Issues that summarized the status of
UNICOR’s compliance with OSHA and environmental requirements. The report
credited the Program Review Division with conducting a “comprehensive”
review of each institution’s programs, including environmental programs. We
identified little environmental information that the Program Review Division
collects during its inspections, however. According to Adams, the Division does
not perform environmental audits, though limited environmental information is
collected during its inspections.

       The FY 2006 report to the audit firm also cited a series of “third party”
inspections and reviews that were conducted by OSHA, environmental
regulators, and UNICOR consultants. The report noted that these inspections
did not find compliance violations. However, the report did not mention
numerous deficiencies, such as an exceedance of the permissible exposure
limits for cadmium at FCI Elkton, raised by OSHA and UNICOR’s own
consultants and later identified by the OIG technical team. With respect to this
report, FOH advised the OIG as follows:

      We find that this type of report performs a disservice to the BOP
      and UNICOR in that it does not provide management with the
      necessary and objective information to make informed decisions,
      establish corrective action initiatives, and allocate resources to
      comply with federal and state regulations, correct non-
      compliances, and provide for a safe and healthful work
      environment.




                                       142 

       We found similar examples of incomplete disclosures in reports to
UNICOR’s own Board of Directors. As with the fiscal year 2006 summary, we
found that many of these reports failed to identify important deficiencies and
generally were overly optimistic about UNICOR’s performance. For example, we
determined that UNICOR’s first report in December 2004, covering the period
from October 2003 through September 2004, failed to disclose test results
showing excessive levels of airborne cadmium (up to 16 times the PEL) and
lead at FCI Ft. Dix, air samples taken at USP Atwater showing airborne
cadmium levels 3 times higher than the PEL, air samples taken at FCI Elkton
showing airborne cadmium levels nearly 2 times higher than the PEL, and test
results from FCI Texarkana showing that airborne cadmium levels were above
the PEL.110 Instead, the report stated that “[c]urrent test results from the 4
active CRT processing factories are all below the OSHA permissible action [sic]
levels for exposure to lead and cadmium.” That statement was not correct,
however, because no additional testing was conducted at FCI Texarkana during
the fiscal year after receipt of its adverse testing results. The report also did
not describe a fire that broke out on October 31, 2003, in boxes of CRTs stored
outside at USP Atwater, resulting in the contamination of surrounding soil with
toxic metals. We found similar deficiencies in subsequent reports.

       UNICOR Chief Operating Officer Steve Schwalb told the OIG that he
relied upon Novicky to prepare the part of the reports that addressed the
activities of the Recycling Business Group, and that he expected the reports to
be complete. He said that he did not know why the reports omitted the
information identified above. Novicky did not have an explanation for why
negative information was omitted from the reports and agreed that it should
have been provided.

              2.     External Oversight

       Our investigation also determined that external oversight of UNICOR’s e-
waste program was inadequate and did not identify most of the compliance
deficiencies discovered during our investigation.

      Inspections by external regulatory agencies of UNICOR’s e-waste program
were rare, with only limited exceptions such as NJDEP’s site visits to FCI Ft.
Dix after 2002. OSHA’s first visit to a UNICOR e-waste factory did not occur


       110  In 2009, FOH and NIOSH reviewed the 2004 results and determined that the
airborne lead levels had been miscalculated in 2004. In fact, the technical team found,
airborne lead levels were below the OSHA PEL but above the OSHA action level. In 2004,
however, the only information available to the Recycling Business Group was that the airborne
lead levels were above both the action level and PEL. In any case, the Recycling Business
Group did not report any information about those FCI Texarkana tests to the Board of
Directors.




                                            143 

until 2004, and the EPA’s first compliance inspection at an e-waste factory
occurred in 2007 as part of the OIG’s investigation.

       We further determined that the regulatory inspections that were
conducted were sometimes compromised by UNICOR’s manipulation of the
work conditions that inspectors were permitted to observe. This practice also
occurred with industrial hygiene testing. For example, at FCI Elkton, UNICOR
cleaned the glass breaking area so thoroughly prior to permitting sampling by
one of its contractors in 2004 that the a wipe taken from the glass breaking
booth floor showed lead levels of only 7.7µg/ft2. In contrast, sampling by FOH
and NIOSH taken during full production and without any extensive cleaning
prior to sampling, revealed levels as high as 10,200µg/ft2.

       We also found that DOJ does not monitor the health, safety, and
environmental compliance performance of components in the Department,
including the BOP and UNICOR. According to the Program Managers in the
Justice Management Division for environmental issues and health and safety
issues, components within DOJ are not required to report compliance-related
information to the Department, including inspection findings by regulatory
agencies and penalty assessments, and the Department has no role in tracking
implementation of remedial measures once regulatory violations are found.111
Both Program Managers told the OIG that they believed that DOJ should be
provided with such information. The Program Manager for health and safety
issues stated that he believed that three types of information should be
reported to him: (1) OSHA violations identified by OSHA inspectors; (2) OSHA
violations that inspectors, including industrial hygienists and local safety staff,
identified as serious and that are repeated; and (3) any imminent danger or
hazard findings, including those made by local safety staff.

       D.     Health and Safety Management Systems

       FOH determined that UNICOR and the BOP lacked important
management systems that were needed to conduct work safely in its recycling
factories. These included systems that would foster standardized safety
practices between factories; establish cohesive national, local, and
programmatic safety policies and procedures; implement effective tracking of
deficiencies and corrective actions; and promote sharing of safety information
and best management practices between institutions. We discuss FOH’s
findings below.




       111 Examples of other DOJ activities with potential significant health, safety, and
environmental issues include laboratory services, automotive and airplane maintenance
operations, and arson and bomb response.




                                              144 

            1.     Standardized Safety-Related Systems and Practices

       UNICOR did not implement policies that standardized health and safety
practices between its recycling factories. With respect to many health and
safety issues, UNICOR effectively operated its factories as stand-alone entities
and left key safety-related decisions to the individual initiatives of local safety
and factory personnel. FOH determined that this approach resulted in an
inconsistent standard of care and levels of compliance. An important
contributing factor to this problem was that the BOP Health Services Division
did not participate in the early development of the e-waste program and had no
role in assessing the safety of the new operations.

       For example, UNICOR used varying approaches to the design, selection,
and implementation of engineering controls that were essential to control
worker exposures to cadmium and lead during glass breaking operations.
UNICOR glass breaking standard operating procedures adopted between 2002
and 2004 were not specific in guiding the factories in the selection of their
ventilation systems. Many factories used make-shift systems for local exhaust
ventilation that were not designed for toxic metals and were fabricated by local
factory personnel that were not professionally trained for this work. UNICOR
struggled for years at some factories to improve these systems to effectively
control toxic metal exposures. In comparison, at USP Lewisburg, UNICOR staff
consulted an engineer to select an exhaust system prior to starting work and
then installed the system with much better success.

       The factories also used varied configurations of glass breaking booths
and the associated transition and decontamination systems, again with
differing results in the effectiveness of containing contaminants. As with the
ventilation systems, UNICOR’s glass breaking procedures did not specify the
design for the booths and transition areas.

       Members of the technical team identified many other examples of
UNICOR’s lack of standardized, consistent approaches to health and safety
issues among its factories, including the selection of respirators and the
performance of exposure monitoring. The BOP’s Health Services Division had
no established role in decision-making concerning UNICOR operations that
affected worker health and safety.

            2.     Policies and Procedures

       According to FOH, the BOP and UNICOR lack cohesive and tiered safety
policies and procedures for e-waste recycling operations. The BOP’s national
health and safety policy is found in Program Statement 1600.08 (revised to
1600.09). FOH reviewed this policy and found that it failed to adequately
address UNICOR operations, including e-waste recycling, even though these
operations account for a significant portion of the health and safety hazards at



                                       145 

BOP institutions. At the program level, UNICOR established some basic e-
waste standard operating procedures starting in mid-2002, but these
procedures were not comprehensive and lacked key elements such as hazard
analysis and controls (discussed above in Section I.B). At the institution level,
we found that individual factories took differing approaches to develop
implementing procedures for safe work operations, with some relying on BOP
institution procedures and programs, while others prepared their own work
instructions or procedures or used an ISO 9001 process to develop safety-
related procedures.112 UNICOR and the BOP also did not effectively oversee the
development of the various procedures, which resulted in inconsistencies,
redundancies, and omissions among the various policies, according to FOH.

       FOH also found that UNICOR and the BOP did not apply an effective
document control system for its various policies. During its document reviews,
FOH found that many safety-related documents lacked effective dates and
status identification, such as whether the documents were still in draft and not
final, and staff at times could not readily identify which polices remained in
effect. In other cases, UNICOR drafted but did not finalize or implement
procedures it had created, such as its draft cadmium and lead compliance
plans, and the status of the document was not apparent.

               3.     Tracking Deficiencies and Corrective Actions

       Our investigation also determined that UNICOR did not consistently
correct deficiencies in a timely manner after they were identified during
inspections and audits. FOH found many instances where UNICOR staff failed
to implement corrective action recommendations without a documented
justification. For example, in 2002 at USP Atwater, a consultant reported that
a cadmium and lead compliance program was needed and drafted the
necessary plan, but UNICOR failed to implement important aspects of it in
violation of OSHA regulations. At multiple factories, OSHA or others
recommended that complete noise surveys be conducted or that hearing
conservation programs be instituted, but UNICOR did not follow through in a
timely manner in many cases and could not explain its rationale for failing to
do so when asked by FOH.

               4.     Information Sharing

       Our investigation further determined that leadership of the Recycling
Business Group routinely failed to disseminate information to Wardens,
Factory Managers, and Safety Managers concerning problems with the e-waste
recycling program, such as adverse testing results, the incidence of injuries,
and inspection findings. Factory Managers told the OIG that communications

      112   For a description of the ISO 9001 standard, see footnote 40, above.




                                              146 

within the Recycling Business Group prior to 2009 were poor and, other than
conferences that were held every 2 to 3 years, they did not recall participating
in group meetings or conference calls to discuss common issues and concerns.
We found similar problems with the dissemination of “lessons learned” from
past operations.


II.    Misconduct and Performance Failures of UNICOR and BOP Staff

       Our investigation also found misconduct and performance failures that
resulted in violations of law and policies. The most serious misconduct
concerned acts that either resulted in the endangerment of workers or involved
dishonesty, both of which are disciplinary offenses under the BOP’s Standards
of Employee Conduct. PS 3420.09, Attachment A. This misconduct involving
worker endangerment included serious violations of applicable health and
safety standards or policies and, we believe, showed particular carelessness or
indifference to safety issues. In making these determinations, we consulted
with OSHA about whether the acts or omissions in question constituted
“willful” OSHA violations within the meaning of its enforcement policies. A
“willful violation” occurs where an employer demonstrates either an intentional
disregard for the requirements of the Occupational Safety and Health Act, 29
U.S.C. § 651 et seq., or demonstrates plain indifference to employee safety and
health. These violations are subject to increased penalties and, in the case of
federal agencies, reporting to the White House.

       In addition to acts of misconduct, we also identified numerous
performance failures by UNICOR and BOP staff which demonstrated poor
judgment. These concerned, in part, the failure to exercise adequate oversight
of e-waste operations. Overall, we found significant problems with the conduct
of staff in the Recycling Business Group at UNICOR Headquarters.113


        113 In response to a draft of this report, Safety Manager Smith expressed concern that

we did not conclude that senior BOP and UNICOR executives committed misconduct in their
oversight of the e-waste recycling program, and that we did not address the BOP’s alleged
retaliation against a former industrial hygienist based on his assessments of UNICOR’s e-waste
operations. Smith also described exposures to toxic metals at FCI Marianna, and that staff
were not timely informed of health dangers related to e-waste recycling.
        We investigated the activities of senior BOP and UNICOR executives and did not find
evidence of misconduct. We found that they often were not provided with accurate or complete
information about the e-waste program, which resulted in part from numerous management
deficiencies that impeded the BOP’s and UNICOR’s response to Smith’s concerns, including a
lack of technical expertise. For example, UNICOR’s former Chief Operating Officer, Steve
Schwalb, said that he did not recall hearing that anything was “amiss” at e-waste factories
other than USP Atwater, and that he recalled on several occasions being told by safety staff at
BOP Headquarters that Smith’s advice about e-waste operations was wrong. The former
National Safety Director told us that he was not aware that the Recycling Business Group was
continuing to break glass after Smith identified problems at USP Atwater in the summer of
                                                                                       (Cont’d.)


                                             147 

       A.     Acts and Omissions Relating to Exposure and Endangerment

       We determined that UNICOR recycling managers repeatedly ignored
information about hazards that should have caused them to suspend, modify,
or postpone glass breaking operations and other activities in UNICOR facilities,
or at least to conduct further evaluation and testing. This conduct began prior
to Lawrence Novicky’s appointment in September 2000 as General Manager of
the Recycling Business Group (RBG), but continued with his participation and
that of his subordinates despite the accumulation of warnings about the
hazards of CRT glass breaking. This conduct sometimes resulted in violations
of OSHA regulations and exposures of staff and inmates to toxic metals. As a
pattern, we believe this conduct evidenced willful indifference to the safety of
staff and inmates, and constituted gross mismanagement. We believe that, in
some instances, the acts or omissions of Novicky and others rose to the level of
misconduct, due to the endangerment of employees or the willfulness of the
violations. The incidents described below are the most serious instances of
management indifference to safety issues that we found, but they are not the
only examples.

              1.     Ignoring Early Warnings about Glass Breaking Hazards

       As detailed in Chapter Three, the UNICOR Product Support Center (PSC)
was aware of safety issues relating to lead in CRTs in 1997 and conducted
exposure testing during initial planning prior to the start of the FCI Marianna
computer recycling pilot project. The monitoring was based on incidental
breakage of CRTs during disassembly, not on large-scale intentional glass
breaking. However, the Product Support Center (PSC) did not effectively
convey any concerns about large-scale glass breaking to UNICOR. In 1998 the
PSC produced a manual on computer recycling that included references on
how to break CRTs into gaylord boxes but did not mention potential hazards
resulting from breaking large volumes of CRTs.

      UNICOR management at FCI Elkton in particular missed several
opportunities to learn about and address the hazards from large-scale glass
breaking operations. After FCI Elkton began large-scale glass breaking in
1999, a BOP industrial hygienist recommended air monitoring for lead. This
recommendation was not implemented despite reports from the Safety
Manager, Dan Martin, which identified the need for testing. These reports were


2002. As described below, we further found that the UNICOR Board of Directors was not fully
informed about problems with the e-waste program.
        We concur with Smith’s assessment that staff was not timely informed of problems with
the e-waste program, and we address these issues in Chapter Five when we discuss
deficiencies with hazard communication. We also describe what witnesses told us about glass
breaking at FCI Marianna in Chapter Three.




                                            148 

provided to the FCI Elkton Warden, Gary Price, as well as the BOP Regional
Director, Margaret Hambrick, and Regional Safety Administrator, Dennis
Stamper. Yet, we found no evidence that Martin spoke with the Regional Safety
Administrator or Headquarters safety staff after it was apparent that the
testing was not being promptly performed.114

       Bruce Ginther, the Assistant Factory Manager at FCI Elkton, also missed
several warning signs in 2000 and 2001. In February 2000 he received a copy
of correspondence from Wisconsin regulators showing that an employee
engaged in “crushing” monitor glass was exposed to airborne dust containing
cadmium at 48 times the PEL, while another who was “involved in dismantling
and sorting” was exposed at 1.5 times the PEL, triggering a requirement for
respiratory protection. Although UNICOR was “breaking” glass rather than
“crushing” it, Ginther also knew that UNICOR’s processes were releasing large
quantities of visible dust from CRT glass. Ginther should have recognized that
“breaking” CRT glass in a manner that released a lot of dust might create
similar hazards as “crushing” it. We found no evidence that Ginther ever
raised a concern about the Wisconsin letter with anyone in UNICOR or the BOP
Safety Office at FCI Elkton.

      Another opportunity was missed in late November 2000 during a meeting
between Novicky, who had just assumed his duties as head of the Recycling
Business Group, and recycling Factory Managers at FCI Elkton. According to
minutes of the meeting, most of the participants agreed that air testing should
be conducted for health reasons in light of the glass breaking activity. Within
two weeks of the meeting, a UNICOR Associate Warden at FCI Marianna also
prepared and shared a draft memorandum with the Recycling Business Group,
which Novicky received, that requested the BOP’s industrial hygienist evaluate
the safety of the e-waste operations. The memorandum stated that the
assessment was needed because “our factories have grown both in size, inmate
workers, staff, and the number and variety of materials that we handle and
process.”

      Novicky rejected both recommendations without consulting with health
or safety professionals. Novicky told us he rejected the requests because
Ginther had told him there was not a problem, he understood that earlier

       114 Testing did not occur until 2001 when Martin’s assistant, who was not a hygienist,
took several air and wipe samples. We asked Martin why he did not use funding from the FCI
Elkton Safety Department budget to pay for the testing, as Smith did at USP Atwater, rather
than waiting several years to conduct testing. Martin stated that he believed that UNICOR
should have paid for it and he did not want to deplete his office’s budget. Martin also
acknowledged that he ordinarily would not want his assistant to conduct air testing because
the assistant, along with Martin, were not “professionals in that area.” We found no written
requests from Martin to his supervisors other than routine inspection reports that highlighted
the need to complete the testing.




                                             149 

testing had not shown safety concerns, and he did not believe that UNICOR
was recycling enough CRTs to endanger anyone. We found Novicky’s
explanations to be unpersuasive excuses. Novicky had no basis to rely on
Ginther, who had no training or expertise in industrial hygiene. Ginther told
the OIG that he recommended to Novicky that he hire an industrial hygienist
after Novicky proposed opening a glass breaking operation at the UNICOR
factory at FCI Elkton.115 Novicky also should not have relied on the prior
testing conducted by the PSC without determining whether it was relevant to
large-scale glass breaking, which it was not, and Novicky knew or should have
known that FCI Elkton was processing sufficient numbers of CRTs to generate
clouds of dust in the recycling factory.

      In addition, in the spring of 2001, UNICOR was seeking to renew an
agreement with a major supplier of e-waste, the Defense Reutilization
Marketing Service (DRMS). DRMS was concerned about UNICOR’s compliance
with health and safety regulations and provided Ginther and Novicky with
materials that described OSHA requirements; the importance of implementing
“dust and particulate control” when disassembling electronics; and special
hazards relating to metal contamination, including cadmium and lead. We
found no evidence that Ginther or Novicky took any action in response to this
information.

      UNICOR obtained air and wipe tests at FCI Elkton in August 2001 in
response to inquiries from DRMS. UNICOR relied on these results for the next
year to justify its view that its recycling practices at FCI Elkton and elsewhere
were safe. Yet, these tests were later criticized by a BOP Headquarters
industrial hygienist and by NIOSH-HETAB and FOH as inadequately
documented, so that their reliability could not be confirmed.

               2.	    Mismanagement and Misconduct in Responding to USP
                      Atwater Test Results

       As detailed in Chapter Three, Safety Manager Leroy Smith raised
concerns about the safety of UNICOR’s planned CRT recycling activities at USP
Atwater in late 2001 and early 2002. Smith’s warnings, which were largely
ignored by Novicky and managers at USP Atwater, were accurate. By the time
Smith issued his warnings, Novicky was aware of the potential hazards of CRT
recycling from his dealings with representatives of the New Jersey Department
of Environmental Protection (NJDEP), the Defense Reutilization and Marketing
Service, and his own staff. In June 2002, tests that Smith arranged at USP
Atwater revealed cadmium exposures many times higher than the applicable

       115  As described earlier in footnote 44, although Ginther refused to be interviewed in
our administrative investigation, he consented to be interviewed in our related criminal
investigation.




                                              150 

OSHA standard and significant lead exposures as well. Under the authority
that BOP policy gave him to stop work that created an “imminent danger,”
Smith directed that UNICOR halt glass breaking operations at USP Atwater
until modifications could be made and additional testing completed. He also
directed that inmate glass breakers be furnished respirators and provided
blood testing.

      Novicky should have taken Smith’s and others’ warnings seriously and
ordered a thorough evaluation of health and safety issues before initiating glass
breaking operations at USP Atwater. However, in light of the earlier test results
from FCI Elkton indicating that exposure levels were within permissible limits,
as well as the PSC test results, we could not conclude that his inaction
constituted misconduct. Although FOH and NIOSH-HETAB told us that the
reporting of the FCI Elkton and PSC tests was deficient, we have no evidence
that UNICOR management knew or should have known of this deficiency at the
time. After learning of the many concerns about glass breaking that had been
expressed to him, we believe Novicky should have more carefully attempted to
determine the safety of these operations. We believe that it was, at the least,
mismanagement and poor judgment for him not to have done so.

      However, circumstances changed in June 2002, when the safety and
health concerns became even clearer. The tests from USP Atwater that month
confirmed information that Novicky previously received from DRMS, NJDEP,
and others that there were in fact potential serious health and safety risks
associated with large-scale CRT glass breaking, and revealed that the FCI
Elkton and PSC tests were no longer a viable basis for concluding the opposite.
We believe Novicky’s conduct in responding to the new information was
seriously deficient.

      According to OSHA, the USP Atwater tests triggered specific, immediate
obligations within UNICOR. After learning of the USP Atwater testing results,
UNICOR was required under OSHA regulations to reevaluate and provide
appropriate respiratory protection, and to take prompt measures to inform its
employees about cadmium hazards associated with its glass breaking
operations. 29 C.F.R. §§ 1910.1027(g); 1910.1200(h). Medical surveillance
also should have been instituted. 29 C.F.R. § 1910.1027(l)(1).

       E-mail traffic shows that Novicky learned about the problems at USP
Atwater by no later than July 10, 2002. On July 16, 2002, Associate Warden
Samuel Randolph sent a memorandum to Novicky, “formally requesting
assistance (legal and otherwise) with current conditions regarding the breaking
of CRT glass in the UNICOR factory in USP Atwater, California.” Even if
Novicky was not aware of UNICOR’s obligations under OSHA regulations before
this time, the testing results and Randolph’s request should have made
paramount the need to become aware of those obligations.



                                      151 

      After receiving the June test results, Smith insisted that inmates be
promptly provided respirators and training on hygiene practices. Although the
glass breaking operations were suspended temporarily on Smith’s instructions,
they had resumed by July 24. At that time, Smith cited UNICOR for allowing
inmate glass breakers to wear their dirty respirators and clothing outside the
booth. By August 6, a second round of testing also revealed exceedances of the
PEL for cadmium and lead, resulting in Smith again ordering a halt to the glass
breaking operations. UNICOR, however, restarted the operations without
Smith’s knowledge within 2 weeks.

        Moreover, the implications of the USP Atwater tests were not limited to a
single UNICOR facility. At the time of the USP Atwater test results, UNICOR
also had large-scale CRT glass breaking operations at FCIs Elkton and
Texarkana, and was just starting such operations at FCI La Tuna. There were
no significant differences between the operations at USP Atwater and the other
facilities with regard to the potential release of toxic metals. Staff and inmates
at those institutions reported that contamination from the glass breaking
operations was widespread. The USP Atwater test results that Novicky received
by July 10 put him on notice that any upgrading of health and safety practices
needed at USP Atwater would also be relevant to the other facilities. At the
very least, the USP Atwater test results demonstrated an immediate need to
perform testing at the other facilities or to suspend glass breaking operations
there until such testing could be completed. However, exposure testing was
not conducted at FCI Texarkana until October 2002 and at FCI Elkton until
May 2003, after a new glass booth had been installed. In the interim 3 months
at FCI Texarkana and 10 months at FCI Elkton, glass breaking operations
continued at these facilities. Medical surveillance also was not instituted at
these institutions until 2003.

        Novicky acknowledged that he did not notify factory managers at other
facilities about the problems at USP Atwater. When asked why, he said that
“[i]t just wasn’t done. I don’t know why. We didn’t tell them when a truck
didn’t show up either. It wasn’t on the to do list.” Although the safety manager
at FCI La Tuna also shut down the glass breaking operations at that facility in
July 2002, Novicky permitted operations to continue unchanged at FCIs Elkton
and Texarkana for several weeks. When we asked Novicky what was done with
respect to respiratory protection at the other UNICOR factories where glass
breaking was occurring during the first few weeks after the USP Atwater tests,
he responded, “Not much at all.” Inmates continued to work at FCI Elkton
without respirators until at least July 24, approximately 1 month after UNICOR
staff at USP Atwater were notified of the cadmium exceedance.

      The Factory Manager at FCI Texarkana reported to Novicky on August 2,
2002, about a tour at the recycling factory the previous day where a guest had
“expressed concern” about lead in the monitor glass. The Factory Manager told



                                       152 

Novicky that inmates were using dust masks instead of respirators in the glass
booth at that time.

      It was not until August 13, 2002, one month after he received the USP
Atwater test results and at least eight months after Safety Manager Smith first
raised his safety concerns to Randolph and Novicky, that Novicky sent a
memorandum to all recycling facilities that for the first time identified
rudimentary procedures for all glass breaking operations. The memorandum
prescribed adjustments to the factories’ existing practices in glass breaking
areas, such as requiring inmates to wear respirators, gloves, and coveralls, as
well as forbidding food, drink, and cigarettes.

      Novicky told us he had doubts at the time that the USP Atwater tests
were accurate and that he was seeking more documentation. He wrote to
Randolph shortly after the testing results arrived stating that he believed that
the testing could have been inaccurately performed. We found no justifiable
basis to doubt the tests, which were conducted by a Certified Industrial
Hygienist. Even if he thought the testing results were in error, we do not
believe it was appropriate to maintain regular glass breaking operations at the
other factories or delay testing there until that conclusion could be confirmed
weeks later, due to the risk that the results were in fact accurate. OSHA
concurred with this assessment.

        Novicky told us that the BOP Safety Office was aware that glass breaking
activities were continuing at other facilities during this period. However,
according to the BOP’s former National Safety Administrator, John Lee, he
understood from a meeting at BOP Headquarters after the first USP Atwater
testing results arrived that UNICOR had ceased glass breaking at other
institutions pending further evaluation, and that if they continued “it was
unbeknownst to us in Safety.” Moreover, we found a contemporaneous
memorandum prepared by Smith that memorialized a conversation with Lee
and Steve Tussey, then the BOP’s National Safety Administrator, on August 28,
2002, which showed that Tussey was not aware that UNICOR had continued
glass breaking operations at other factories after the USP Atwater test results
were obtained. We concluded that Novicky never informed Lee and Tussey –
key members of BOP safety staff – that glass breaking was continuing at other
facilities.

      As detailed in Chapter Four, FOH and NIOSH-HETAB’s evaluation of
exposure conditions in 2002 found that staff and inmates were likely exposed
repeatedly to cadmium and lead at concentrations above OSHA occupational
exposure limits. Beginning with the USP Atwater test results that Novicky
received notice of in July 2002, Novicky bears responsibility for allowing those
exposures to continue. By failing to immediately perform testing at facilities
other than USP Atwater or to suspend glass breaking operations there until
such testing could be completed, and, absent such testing, to allow inmate


                                      153 

glass breakers to work without respirators at a minimum of approximately a
month after UNICOR staff at USP Atwater learned of cadmium exceedances in
its glass breaking booth, Novicky endangered staff and inmates.116

       After conferring with OSHA, we also believe that Novicky’s acts and
omissions caused UNICOR to violate OSHA regulations governing personal
protective equipment and federal agency occupational safety and health
programs and to commit “willful” violations of OSHA’s hazard communication
and respiratory protection standards.117 According to OSHA’s Field Operations
Manual for Compliance Officers, “[a] willful violation exists under the
[Occupational Safety and Health Act, 29 USC 651 et seq.] where an employer
has demonstrated either an intentional disregard for the requirements of the
Act or a plain indifference to employee safety and health.” In this case, Novicky
had clear indication that UNICOR’s glass breaking operations were exposing
staff and inmates to unacceptable levels of toxic metals. These exposures
triggered a requirement for immediate increased respiratory protection and
prompt hazard communication. 29 C.F.R. §§ 1910.1027(g); 1910.1025(f), (l);
1910.1200(h). We found that Novicky either ignored these requirements or
made an inadequate effort to learn what they were.

      Novicky not only failed to act expeditiously in response to information
about hazards at USP Atwater, he attempted to keep this information from
other facilities. Shortly after Smith reported the adverse testing results at USP
Atwater, Novicky and Randolph sought to ensure that Smith not “interfere”
with operations at other UNICOR recycling factories. On July 10, 2002,
Novicky and Randolph spoke on the telephone after Randolph learned that
Smith was seeking information about the other factories. Randolph later e­

       116 The first written communications we identified where Novicky discussed the USP

Atwater testing results are dated July 10, 2002, 12 days after Smith provided a memorandum
to Randolph informing him that glass booth operations were temporarily suspended. On July
24, Minnick, who worked under Novicky, instructed staff at FCI Elkton that inmate glass
breakers should have respirators. We did not find similar written instructions for FCI
Texarkana until Novicky issued new glass breaking procedures to all Factory Managers on
August 13, 2002. OSHA advised the OIG that, if identified during one of its inspections, it
would consider the failure to provide respiratory protection to be a “willful” violation in
circumstances where glass breaking continued for more than 8 work days after UNICOR was
informed of the exceedance of the cadmium PEL. Even if we assume that Novicky knew
nothing of the USP Atwater cadmium exceedance until July 10, Minnick’s instructions to FCI
Elkton did not occur until 2 weeks later. Inmates at FCI Texarkana were still not using
respirators as of at least August 2, 2002.
       117 See 29 C.F.R. § 1910.132(d) (requiring employers to perform hazard assessments to
determine what personal protective equipment is needed and to furnish such equipment); 29
C.F.R. § 1910.1027(d) (requiring employers to perform monitoring for cadmium); 29 C.F.R. §
1910.1200(h) (requiring employers to inform workers of hazardous chemicals in their work
area); and 29 C.F.R. § 1910.134(a) (requiring employers to provide respirators to protect the
health of workers).




                                            154 

mailed Novicky stating, “per our phone call [Smith] is looking for info on other
UNICOR Factories such as who, how many staff, inmates our [sic] breaking
glass. I spoke to the Warden after your call. He made it clear [Smith] should
only be concerned about ATWATER.” Novicky told us he believed that USP
Atwater was “a big enough job” for Smith and that Smith needed to concentrate
on that. Novicky stated that he did not want Smith telling other Safety
Managers that UNICOR was running unsafe operations until UNICOR had
more documentation. Smith told the OIG that as a result he limited his
communications with other Safety Managers until he received the USP Atwater
Warden’s permission to send a memorandum to them on August 12, 2002,
which outlined problems with UNICOR’s glass breaking operations.

      We found that Novicky and Randolph interfered with Smith’s
performance of his duties as Safety Manager by inhibiting his consultations
with other Safety Managers and the reporting of potential dangers to them.
According to OSHA, these were protected communications under its
regulations, which means that managers were not allowed to interfere with the
dissemination of this information.118

       We also concluded that Novicky’s initial inaction in response to warnings
raised by a Safety Manager and to the USP Atwater test results reflected
indifference to worker and inmate safety and to UNICOR’s obligation to comply
with OSHA regulations. In our view, Novicky’s acts and omissions violated his
duty under BOP policy not to endanger staff and inmates and constituted
misconduct.

              3.	    Resumption of Glass Breaking Operations at USP Atwater
                     Over the Objections of the Safety Manager

       BOP policy required the Safety Manager’s re-inspection and written
approval to restart an operation that previously was closed due to the presence
of an “imminent danger,” a finding that Safety Manager Smith made when he
halted glass breaking operations at USP Atwater. PS 1600.08. The BOP’s
Standards of Employee Conduct, which applied to Novicky and Randolph, also
prohibited staff from failing to observe written and oral safety instructions. PS
3420.09, Attachment A. We found that during 2002 and 2003, Novicky and
Randolph, the Associate Warden for USP Atwater, violated these Standards by
ordering that glass breaking operations be resumed at USP Atwater following
shutdowns that were ordered for safety reasons, without the required re-
inspection and written approval from Smith.


       118 See 29 C.F.R. § 1960.8(e)(requiring agency heads to authorize safety and health
personnel to utilize expertise “from whatever source available.”); 29 C.F.R. §
1960.46(1)(prohibiting restraint or interference from employee participation in agency
occupational safety and health program activities).




                                             155 

       Smith and Randolph both described a repetitive scenario during this
period. According to Randolph, Smith would order the glass breaking booth
shut down after testing showed exceedances of occupational exposure limits,
and Novicky would tell Randolph to keep it running. Novicky told the OIG that
he would instruct Randolph to restart operations in order to perform testing
following a modification to the glass booth. However, Randolph stated that
Novicky would order him to restart operations to keep up with production and
prevent a backlog from developing. Smith told the OIG that during 2002 and
2003 the glass booth would only cease operation for a couple days at a time,
and he would return to the factory to find it operating again.

      For example, on August 6, 2002, Smith provided a memorandum to
Randolph notifying him that work in the glass booth needed to be temporally
suspended because recent testing revealed exceedances above the PEL for
cadmium and lead. Smith discovered that glass breaking operations were
occurring as of August 22, and he drafted another memorandum to Randolph
reminding him that glass breaking was to halt until measures could be
implemented to ensure the safety of staff and inmates.

      The UNICOR Production Controller at USP Atwater corroborated Smith’s
version of events. She told the OIG that she ordered staff a number of times to
stop glass breaking based on Smith’s instructions but that Randolph
countermanded her orders.

      As another example, in January 2003, Randolph failed to act on Smith’s
instruction to close the glass booth after he discovered it was operating without
necessary filters. We believe that Randolph’s conduct endangered staff and
inmates because the booth vented to areas where staff and inmates were not
wearing respirators.119 According to FOH, a UNICOR consultant report showed
that this condition resulted in toxic metal dusts being distributed to other
parts of the factory through the exhaust ventilation system. OSHA also
determined that this conduct would constitute a “willful” violation of its
cadmium and lead standards. 29 C.F.R. § 1910.1027; 29 C.F.R. § 1910.1025.

       We concluded that Novicky and Randolph failed to comply with BOP
policies when they restarted or continued glass breaking operations at USP
Atwater over the objection of Safety Manager Smith. We believe that some of
these actions exposed inmates and employees to toxic metal dust and
constituted misconduct.




      119 The BOP’s internal investigation sustained an allegation against Randolph of

“Endangering the Safety of Others” based on this conduct.




                                            156 

            4.	    Delays in Installing Engineering Upgrades to the FCI
                   Elkton Glass Breaking Booth

        We concluded that UNICOR management at the FCI Elkton facility
delayed installing upgrades to the glass breaking booth that were ordered by
UNICOR Headquarters. As detailed in Chapter Three, in July 2002, in the
wake of the air monitoring tests at USP Atwater, Recycling Business Group
Program Manager Carol Minnick instructed managers at FCI Elkton to add an
air filtration system for the glass breaking area, to ensure that workers in that
area wore respirators, and to prohibit food and drink in the area. These
instructions were conveyed to FCI Elkton Superintendant of Industries Adam
Norberg and Factory Manager Frank Shannon.

       Although UNICOR authorized expenditures for this work, Norberg and
Shannon delayed action in response to these instructions, and the upgrade
was not started until February 2003 and not completed until April 2003. In
the interim, FCI Elkton continued to break CRT glass and contaminated dust
was released into the factory and exhausted through the large vent pipe onto
the roof until at least February 2003. The FCI Elkton Safety Manager cited
UNICOR for these emissions on several occasions. Norberg and Shannon did
not provide to us any persuasive explanation for this delay. In addition, during
a Recycling Business Group inspection of FCI Elkton in February 2003,
Minnick observed that only one of the inmates in the glass breaking area was
wearing a respirator, other inmates were wearing inadequate dust masks, and
an inmate was consuming a beverage. We believe that Norberg and Shannon
showed inadequate performance with regard to these delays and failures to
install required equipment and enforce protective procedures.

            5.	    Failure to Install Engineering Upgrades to the FCI
                   Texarkana Glass Breaking Operation

       We believe that UNICOR management also exhibited indifference to staff
and inmate safety in 2003 to 2004, when UNICOR failed to install engineering
upgrades in the FCI Texarkana glass breaking operation. As noted in Section
II.B.3 of Chapter Three, in May 2003 the Recycling Business Group distributed
new glass breaking procedures that addressed permitting, engineering controls,
safety equipment, respiratory protection, cleaning requirements, and medical
surveillance of recycling staff and inmates. Shortly thereafter, the Factory
Manager at FCI Texarkana, Eric Fabian, began raising concerns with Novicky
and Recycling Business Group Program Manager Carol Minnick that the glass
breaking booth at FCI Texarkana was not in compliance with UNICOR’s glass
breaking policies and needed to be quickly upgraded. Fabian told the OIG that
FCI Texarkana’s booth was “inadequate” and did not compare well to other
glass breaking booths that UNICOR was using at the time. He also stated that
the Recycling Business Group’s efforts to provide him with a paint booth from
FCI La Tuna failed because it was severely damaged during shipping, but even


                                       157 

if it could have been used, he did not believe it would have been adequate for
FCI Texarkana’s glass breaking operations.

       After requesting assistance from Minnick in May 2003, Fabian reminded
her in July of deficiencies with FCI Texarkana’s glass breaking operations, and
requested that Ginther, then an Industrial Specialist with the Recycling
Business Group, be sent to the factory to help with the design of a new booth.
In August, Fabian contacted Minnick again requesting that efforts to upgrade
the glass breaking booth be expedited. Fabian wrote that “Safety is getting
really concerned on the issue,” and that the Safety Manager’s “initial comment
was to shut the area down until [the] booth is operational,” but that he was
willing to defer such action for the time being.

       Minnick forwarded Fabian’s request to Novicky and Ginther, stating that
she was “inclined to wait” until additional testing data were received from other
recycling locations that could be used in the design of FCI Texarkana’s new
booth. By November 2003, Minnick was still waiting to receive the testing
results in question and wrote to Novicky that the Warden and Safety Manager
at FCI Texarkana were expressing concerns about the status of the glass
breaking area. She stated that, “Texarkana is currently operating a glass
operation with no ‘booth’ (per se) that is similar to the other locations.”

      Fabian told the OIG that he kept glass breaking operations running at
FCI Texarkana following his requests for an upgrade in the summer of 2003
because UNICOR Headquarters instructed him to do so. By early 2004,
UNICOR Headquarters had authorized funding to replace FCI Texarkana’s
glass breaking booth. The new booth opened at the camp warehouse in June
2004.

      Novicky told the OIG that the delays at FCI Texarkana were caused by
problems with the delivery of a paint spray booth from FCI La Tuna that
UNICOR wanted to use at FCI Texarkana, and that he also was waiting to hear
whether the air filtration system that was proposed by USP Lewisburg would be
suitable.

      We recognize that inmates were given respirators during the relevant
time period.120 However, as detailed in Chapter Four, FOH and NIOSH-HETAB
concluded that exceedances of OSHA exposure limits likely occurred at the
time. Such exceedances would have triggered requirements under OSHA
regulations for improvements to engineering and work practice controls. See
29 C.F.R. § 1910.1027(f)(1) (requiring employers to reduce and maintain


       120 The BOP’s internal investigation determined that Minnick “Endangered the Safety of
Others” when she directed Fabian to continue operations without testing the glass booth
workers for exposures. However, the BOP did not discipline for Minnick for this conduct.




                                            158 

employee exposures to cadmium at or below the PEL using engineering and
work practice controls unless the employer can demonstrate that such controls
are not feasible). Despite adverse testing results for other UNICOR glass
breaking booths in early to mid-2003, the Recycling Business Group did not
arrange for testing on FCI Texarkana’s glass booth that year.

      Novicky was aware of exceedances of the occupational exposure limits at
USP Atwater and FCI Ft. Dix during 2003, at the same time UNICOR was
continuing glass breaking operations at FCI Texarkana without upgrades. In
the absence of additional testing, we believe that Novicky should have adopted
an expedited approach as requested by the FCI Texarkana Factory Manager in
August 2003 to the upgrade rather than deferring the upgrade for as long as he
did. Alternatively, he could have suspended glass breaking operations at FCI
Texarkana pending the arrival of the equipment and information he told us he
was waiting for. Likewise, we believe Minnick should not have recommended
postponing the upgrades that were needed at FCI Texarkana.121 We found that
the performance of Novicky and Minnick were deficient and reflected poor
judgment and mismanagement.

              6.      Mismanagement of Contaminated Filters

        Another example of the failure of UNICOR management to exercise
adequate supervision occurred in connection with the handling of ventilation
filters contaminated with cadmium and lead, especially at FCI Elkton. Two
types of filters were at issue: filters from dedicated glass breaking booth
ventilation systems and filters from the general factory HVAC systems.

      UNICOR received repeated warnings that glass booth ventilation filters
became contaminated with lead and cadmium dust and may be hazardous
waste. In October 2001, Maria Lancaster of the Product Support Center visited
FCI Elkton to evaluate the recycling operations. She told the OIG that after
seeing the glass booth, which was a converted paint booth, she advised Ginther
that he needed to check to make sure it was in compliance with EPA air
requirements and should test its filters to determine whether they constituted

        121 After reviewing a draft of this report, Minnick’s attorney submitted comments

arguing that Minnick should not be faulted for this recommendation because she was aware of
an earlier inspection report from FCI Texarkana indicating no concerns with the glass breaking
operation, and because she received an e-mail dated March 18, 2003, indicating that three
inmates had been tested for lead and one for cadmium, and all were normal. However, the fact
that the inspection report did not document the repeated complaints from the Safety Manager
did not mean that he had withdrawn them, and Minnick’s recommendation to Novicky did not
cite the inspection report. Moreover, the very limited blood testing referenced briefly in the e­
mail (which predated the Safety Manager’s repeated complaint by several months) did not
establish compliance with UNICOR’s regulatory obligations. As detailed in Chapter Four,
exceedance of OSHA exposure limits likely occurred at this time, triggering requirements under
OSHA regulations for engineering and work practice controls.




                                              159 

hazardous waste. The Assistant Safety Manager at FCI Elkton also told the
OIG that shortly after the glass booth was installed he informed Ginther that it
needed to have filters and that they should be tested to determine if they were
hazardous waste. We found no evidence that Ginther took action in response
to these recommendations, however. We concluded that Ginther’s failure was a
significant deficiency.

       The handling of the filters from the glass booth was also identified as a
serious problem at USP Atwater. In May of 2002, Safety Manager Leroy Smith
expressed concern to USP Atwater and BOP supervisors regarding the
hazardous metals content of the used glass breaking booth filters and the
procedures for handling them during replacement, and recommended that an
outside lab analyze them. This request was denied. In early July 2002, Smith
told his supervisors that tests of the used filters, conducted at the expense of
the USP Atwater Safety Department, found concentrations of lead, barium, and
cadmium that made them hazardous wastes under EPA guidelines. Smith
wrote to Randolph that the filters would have to be handled as hazardous
waste, with appropriate training, personal protective equipment, and handling
procedures.122 Warden Tabor then sent a memorandum to the Regional
Director and UNICOR’s Chief Operating Officer, Steve Schwalb, noting, among
other things, that USP Atwater had not previously “handled or disposed of [the
used air filters from the glass booth] as hazardous waste,” as required by the
EPA. In August 2002, Smith sent a memorandum to other BOP safety
managers that warned, among other things, that the filters which collected
metals from breaking CRTs were not being treated as hazardous wastes.

       Although we determined that USP Atwater began to treat its used glass
booth filters as hazardous waste and to properly dispose of them after Smith
received testing results, the Recycling Business Group did not have a
consistent approach to its handling of these filters, and institutions at times
failed to test the filters or to account for them in their hazardous waste totals.
For example, in February 2004 Recycling Business Group Program Manager
Carol Minnick met with Craig Dalton, Superintendent of Industries at FCI
Elkton, during an inspection and noted as an “area of concern” in her
inspection report that boxes labeled “hazardous waste” were being stored in the
UNICOR warehouse. UNICOR staff at FCI Elkton told us that these were boxes
of used filters from the glass breaking booth ventilation system and were
stockpiled at the warehouse for over 2 years. Testing conducted in April 2005
showed that the filters were hazardous waste. We determined that the filters

       122  The former Production Controller at USP Atwater told us that disposing of the glass
booth filters as hazardous waste was expensive. The Production Controller advised Ginther in
March 2003 that USP Atwater would spend $40,000 to $50,000 in the upcoming year on
hazardous waste disposal, an issue that was promptly brought to Novicky’s attention by
Minnick.




                                             160 

from the glass breaking booth continued to accumulate at the warehouse and
were not properly disposed of until August 2005, 18 months following
Minnick’s inspection.

       We also determined that during the period before these tests, UNICOR
did not properly label the boxes of contaminated filters at times, and did not
include this waste in calculating FCI Elkton’s hazardous waste totals. FCI
Elkton was claiming “conditionally exempt small quantity generator” status
and could generate no more than 100 kg of hazardous waste in any given
month. UNICOR staff told the OIG that Dalton told them to remove the
hazardous waste labels from the boxes in 2005 prior to their testing. Dalton
told the OIG that he did not realize that the filters were piling up at the
warehouse and that he had no recollection of instructing staff to remove labels
from the boxes. The current Safety Manager at FCI Elkton told the OIG that he
was not aware that UNICOR was stockpiling filters and that he would have had
them removed because their storage could trigger environmental reporting
requirements.

      Steve Heffner, Factory Manager at FCI Elkton, also said that he received
Minnick’s inspection report of February 2004. He also did not address the
problem of hazardous waste storage in the UNICOR warehouse. Heffner
acknowledged to the OIG that it was his responsibility to address issues raised
in Minnick’s inspection report, but he had no explanation why he delayed
doing so until the following year.

      We concluded that Dalton and Heffner did not respond to Minnick’s
concerns about the glass breaking filters in a timely manner, with the result
that hazardous waste was improperly stored at the FCI Elkton facility for many
months.

        In November 2005, UNICOR Headquarters learned that, like the glass
booth filters, the general HVAC filters at the USP Atwater recycling factory also
constituted hazardous waste under California law, and that the BOP’s National
Safety Administrator had recommended that all recycling factories test their
filters to determine how they should be handled. Minnick instructed Factory
Managers that month to test the HVAC filters in their factories and copied
Associate Wardens and Superintendents of Industries with this directive.

        Starting in August 2006, UNICOR contracted with a company to perform
filter changes and maintenance on its HVAC systems at FCI Elkton. UNICOR
did not have manifests for its used filters documenting that they were disposed
of as hazardous waste until the following year, however, and the Factory
Manager, Heffner, told us he did not recall notifying the company that the
filters potentially were hazardous waste.




                                      161 

        The FCI Elkton HVAC filters were not tested until March 2007, 16
months after Minnick’s instruction to test them. Dalton and Heffner had no
explanation for this delay in performing the testing. The tests revealed that
filters collected from the general ventilation systems at the recycling factories at
FCI Elkton exceeded the hazardous waste criteria for cadmium and lead. In
May 2007, FCI Elkton finally began handling the used HVAC filters as
hazardous waste. HVAC technicians at FCI Elkton told the OIG that they
threw the HVAC filters in the trash prior to UNICOR’s contractor assuming
responsibility for the disposal of the filters.

      Problems with handling contaminated glass breaking filters at FCI Elkton
continued to crop up, even after the initiation of our investigation. In
December 2007, the EPA inspected FCI Elkton with the OIG, FOH, and NIOSH­
DART. We discovered that used glass breaking booth filters were being
improperly stored in a trailer that was leaking rainwater, and that rain and
snow were found on the boxes of filters. Dalton told the OIG that he was
“exasperated” with Heffner for failing to call the hazardous waste disposal
company, with which UNICOR had a contract, to come and pick up the boxes
of used filters that were found in the trailer.

      FOH and NIOSH also found that inmates were cleaning the filters by
shaking and banging them on the floor of the glass breaking area, which
created a thick cloud of dust and caused significant exceedances of OSHA’s
cadmium standard. This practice violated the glass procedures that the
Recycling Business Group issued in June 2003. UNICOR staff and inmates
reported to FOH that the improper handling practices that FOH and NIOSH
observed were not an isolated occurrence. We believe that Dalton and Heffner
demonstrated inadequate performance by failing to exercise competent
oversight of the inmates’ handling of used filters.

            7.	    Failing To Obtain Adequate Ventilation for the FCI
                   Elkton Chip Recovery Project

       As discussed in Chapter Three, in August 2005 UNICOR initiated a chip
recovery project at FCI Elkton that involved heating circuit boards over pots of
molten solder and then plucking the computer chips from the boards. This
process generated fumes containing lead. UNICOR obtained Material Safety
Data Sheets in connection with the project that stated the solder was “harmful
by inhalation” and that “good ventilation/exhaustion at the workplace” was
necessary. The chip recovery operation began in October 2005 without any
ventilation system. Novicky told the OIG that from the outset of the chip
recovery project UNICOR hoped to install fume hoods over the operation but
that this installation was postponed until UNICOR could determine whether
the project was feasible.




                                        162 

      UNICOR management allowed the chip recovery operation to continue
without adequate ventilation for several months. According to FCI Elkton’s
former Safety Manager, Dan Martin, respirators were provided to inmates who
worked on the project, although some inmates told us that they received paper
dust masks and that only a limited number of inmates had respirators. We
also determined that Martin failed to arrange for air testing, or otherwise
perform a hazard assessment, despite many complaints from staff and inmates
about the poor air quality in the factory.

       In January 2006, a Recycling Business Group inspection reported the
need for the immediate installation of ventilation hoods. Dalton authorized the
installation of a jerry-rigged ventilation system made out of plastic buckets and
PVC pipe. FCI Elkton staff told the OIG that this system was ineffective. An
effective ventilation system was not installed until mid-May 2006. UNICOR
continued to run its chip recovery operation in the meantime.

       According to OSHA, UNICOR’s operation of the chip recovery project
without fume hoods violated numerous OSHA regulations, including those
governing personal protective equipment and respiratory protection, hazard
communication, lead exposure monitoring requirements, and OSHA’s
requirement that federal agencies promptly abate any unsafe work
conditions.123 OSHA told us that it would have deemed such violations to be
“willful” violations if they had been found during an OSHA inspection. NIOSH
also concluded that lead exposures during the chip recovery project occurred;
although, without contemporaneous test data, NIOSH could not state with
certainty whether these would have exceeded the PEL for lead.

       Novicky had no explanation for why the fume hoods were not obtained
until seven months after the project started. Dalton told the OIG that he had
conversations with Novicky about the ventilation problems and understood
that Novicky was going to obtain the fume hoods. Dalton said that Novicky
“dropped the ball” and they were not delivered as he expected. The evidence
shows that Novicky and Dalton were aware of the need for a dedicated
ventilation system for this operation soon after it began. We believe that they
should have suspended the operation until such a system could be installed
and that their failure to do so was a serious deficiency that was part of the
larger pattern of inadequate attention to staff and inmate safety.

              8.     Tampering with the Fire Alarm System at FCI Elkton

    We concluded that Alan Ferguson, the General Foreman and Facilities
Manager at FCI Elkton, committed misconduct when he instructed Roger

       123 See 29 C.F.R. §§ 1910.132(d); 1910.134(d); 1910.1200(h); 1910.1025(d); and 29

C.F.R. § 1960.30.




                                            163 

Hammond, an electronics technician at FCI Elkton, to tamper with the fire
alarm system in the recycling factory because of the false alarms that the duct
detectors caused after sensing dust from the e-waste recycling operations. We
further determined that Hammond committed misconduct when he taped the
fire alarm duct detectors and thereafter failed to report in annual inspections of
the UNICOR factory’s fire alarm system that they had been disabled.

       As noted in Chapter Three, after UNICOR started glass breaking
operations at its e-waste factory at FCI Elkton, one problem that developed was
the build-up of dust on the fire alarm duct detectors located on the factory’s air
ventilation ducts. The electronics technicians who serviced the fire alarm
system said that the dust in the recycling factory frequently caused the fire
alarms to activate. Hammond told the OIG that he eventually was instructed
by Ferguson to prevent the duct detectors from activating. He said that the fire
alarm system started going off during an inspection, and Ferguson told him to
“plug those stupid things up.” Hammond said that he protested the
instruction but complied by taping the duct’s sensors so that they could not
sample air.124

      Ferguson told the OIG that he recalled that dust in the UNICOR recycling
factory would cause the fire alarms to “go off all the time” and that the constant
alarms became “an issue” for him. Ferguson denied to the OIG that he ever
instructed electronics technicians to disable the alarms other than to silence
them in order to reset and fix them. He stated that “I did not give anybody an
order to go tape any duct detectors.”

      Ferguson’s version of events was contradicted by another electronics
technician and a work order that Hammond prepared. The electronics
technician stated that he recalled Ferguson approached him and Hammond,
that Ferguson explained that there was an inspection coming, that the alarms
needed to be silenced, and that Ferguson really didn’t care what it took to get
that accomplished. The electronics technician stated that he recalled that
Hammond explained to Ferguson that the only way to properly fix the problem
was to install adequate ventilation in the factory that could handle the dust.

       During our investigation we also located a work order that corroborated
Hammond’s interpretation of events. It was dated May 29, 2002, and stated:
“Problem occurred during ACA [American Correctional Association] inspection.
Intake into the duct detectors in the recycling side of UNICOR were capped off
to alleviate further alarms until the ventilation exhaust problem is solved. This
is per the facilities manager.”

       124 After the OIG learned of this misconduct, we requested that the BOP promptly
examine the fire detection systems in all UNICOR e-waste factories. The BOP found no
evidence of tampering from its inspections.




                                            164 

       According to electronics technicians at FCI Elkton, the duct detectors
remained taped and unable to detect smoke for over 3 years, until September
2005. Prior to 2005, the duct detectors were tested each year using a magnet
to determine whether they were operational. In 2005, the test was modified
and smoke introduced into the detector, which is when the technicians
discovered that the detectors had been taped off. Hammond said that he left
FCI Elkton in January 2005, and that prior to that time he performed the
testing on the duct detectors. He said that he tested for “alarm notification,”
which he could do with a magnet, and that he did not need to introduce smoke
to the detector to complete the test. Hammond stated that he did not include
in his fire inspection reports any notations that the duct detectors had been
blocked from detecting smoke.

       In light of the testimony of Hammond, the other electronics technician,
and the work order that Hammond prepared, we are not persuaded by
Ferguson’s denials of his responsibility for the disabling of the duct detectors.
We also believe that Ferguson’s instructions to Hammond were highly improper
in two respects. First, they caused Hammond to tamper with an important
component of the UNICOR factory’s fire protection system and placed staff and
inmates who worked in the factory in danger because the duct detectors were
not fully operational.125 Second, Ferguson gave these instructions to prevent
inspectors from the American Correctional Association from learning that there
was a problem with the fire alarm system in the UNICOR factory. We believe
that Ferguson’s actions were deceptive, endangered staff and inmates, and
violated BOP fire protection policies.

      With respect to Hammond, although we recognize that he was acting
pursuant to instructions from his supervisor Ferguson when he disabled the
duct detectors, we do not believe he should have followed these instructions,
which compromised an important part of the UNICOR factory’s fire alarm
system. In his interview with the OIG, Hammond referred to his familiarity
with the National Fire Alarm Code and BOP policy and acknowledged that his
actions were prohibited. We believe that, rather than acquiescing to Ferguson,
he should have elevated his disagreement to BOP managers and safety staff
who could respond to his concerns.

       Hammond told the OIG that his actions were known to his superiors and
that “everybody was aware because I made a big stink about it.” He also stated
that he believed that the Warden was made aware of his actions at meetings
with staff from the Facilities Department where Hammond worked. However,
another foreman who regularly attended the same meetings told the OIG that
he never heard anything about the duct detectors being disabled. While we

     125 We recognize that the duct detectors were not the only type of fire protection in the

UNICOR factory and that the fire system there was redundant by design.




                                             165 

understand that it is not easy to elevate an issue for resolution over one’s
superiors, Hammond should have done so given the danger involved.

      We further determined that after Hammond disabled the duct detectors
in 2002, he performed annual inspections of the UNICOR factory fire alarm
system and failed to note that the duct detectors were not functional.
Hammond said that he tested the duct detectors for alarm notification, which
he could do with a magnet, and “the device worked.” According to Hammond,
the duct detectors were “100% operational but [they] could not detect smoke . .
. .”

       We did not find Hammond’s explanation persuasive. BOP policies in
effect at the time required compliance with applicable fire codes, including the
National Fire Alarm Code (NFPA 72, 2002 edition). PS 4200.09; 1600.08. The
Code requires that notification be provided to the owner of a fire alarm system
when the system or a part of it is impaired. Code 4.6.1. Duct detectors are
required to be tested at least annually and “must be tested or inspected to
ensure that the device will sample the airstream.” Code 10.4.3; Table 10.4.2.2.
The Code further provides that “[i]f a defect or malfunction is not corrected at
the conclusion of system inspection, testing, or maintenance, the system owner
or the owner’s designated representative shall be informed of the impairment in
writing within 24 hours.” Code 10.2.1.2. Hammond should have informed BOP
managers that the duct detectors were disabled and could not sample the
airstream as they were designed to do. His failure to do so violated BOP policy
and the National Fire Alarm Code.

     We therefore concluded that Ferguson and Hammond committed serious
misconduct when they tampered with the fire alarm system.

      B.    Misconduct Involving Dishonesty or Lack of Candor

     We also found a pattern of disturbing conduct by Lawrence Novicky and
some of his subordinates involving false or misleading statements or lack of
candor to regulators in connection with UNICOR’s e-waste recycling activities.

            1.     Misleading Representations to the New Jersey
                   Department of Environmental Protection

      We found that UNICOR managers, including UNICOR Program Manager
Pauline Quinn, disregarded instructions from the New Jersey Department of
Environmental Protection (NJDEP) regarding obtaining State approval before
conducting electronics recycling at FCI Ft. Dix. According to Ginther, Quinn
informed him that FCI Ft. Dix did not need permits. We also determined that
Novicky and Recycling Business Group Program Manager Carol Minnick
attempted to mislead New Jersey regulators regarding the true nature of the
glass breaking procedures that UNICOR intended to use for recycling CRTs at
FCI Ft. Dix.


                                       166 

                  a.     Facts

       As detailed in Chapter Three, UNICOR began recycling computers at FCI
Ft. Dix in 1999. Prior to the inception of these operations, UNICOR’s General
Counsel, Jane Merrifield, wrote to the NJDEP regarding State permitting
requirements. In February 1999, NJDEP responded in a letter stating that any
demanufacturing of computers and monitors requires a “Certificate of
Authority to Operate.” Merrifield told us that she provided the letter to
UNICOR and discussed it with UNICOR staff, and that Quinn was the “primary
person” she would have contacted. Merrifield said she assumed that UNICOR
either obtained the Certificate from the State or was “added by the State” to
receive a Certificate. However, UNICOR did not obtain any approval from the
State prior to starting e-waste recycling at FCI Ft. Dix.

      UNICOR’s recycling operations at FCI Ft. Dix included using hammers to
remove the electron gun from the monitors, which resulted in the release of
dust. Initially UNICOR was not intentionally breaking monitors to reclaim the
funnel glass or the panel glass. However, by mid-2001, Novicky decided to
open a full-scale CRT monitor recycling operation at FCI Ft. Dix, with glass
breaking activities similar to those in use at FCI Elkton.

       The UNICOR Factory Manager at FCI Ft. Dix, Corey Saunders, advised
Novicky that it would be necessary to obtain authorization from NJDEP to
break glass, and Novicky and Ginther travelled to New Jersey in the summer of
2001 to meet with regulators to learn about permitting requirements.
According to Paula Steele, the representative of NJDEP who attended the
meeting, UNICOR proposed to break monitor glass manually with hammers.
Steele said the State was skeptical of UNICOR’s proposal due in part to
concerns that the operations would generate uncontrolled releases of lead
laden dust from the broken CRTs and would be unsafe. Steele said that at that
time other glass recyclers in New Jersey were using machines that contained
the glass breaking debris. UNICOR e-mail, which was copied to Novicky and
Ginther, also showed that the Recycling Business Group received similar
resistance from local regulators that also had to approve UNICOR’s proposed
glass breaking operations.

       According to Steele, UNICOR officials told her at the meeting that they
were currently processing e-waste at FCI Ft. Dix and she informed them that
they needed to have a Certificate of Authority. She said that Novicky and
Ginther both attended the meeting and that it was her understanding after the
meeting that UNICOR was going to cease operations until it received the
Certificate. As shown below, UNICOR and NJDEP e-mails show that UNICOR
continued to recycle and that Steele did not learn of this fact until March 2002.




                                      167 

Novicky told us he did not realize that the State was unaware that UNICOR was
still recycling in 2002.126

      Novicky’s notes of the meeting indicate that “glass crushing” was
discussed with NJDEP. Novicky told us he was aware that the State was
concerned about dust from breaking monitor glass. Minnick did not attend
this meeting, but e-mails from July 2001 show that Minnick was aware that
the State was concerned about the generation of excessive dust from glass
breaking operations.

      In an effort to obtain NJDEP approval for its glass breaking operations,
UNICOR attempted to arrange for Steele to visit FCI Elkton in Ohio in
November 2001 to observe how UNICOR processed CRTs. However, Steele
subsequently advised Minnick that she would not be able to travel to FCI
Elkton due to a lack of funding but that she was willing to review a video of the
glass breaking operation. On November 29 and 30, Minnick sent e-mails to
Ginther, the Industrial Specialist at FCI Elkton, and Adam Norberg, the
Superintendent of Industries at FCI Elkton, requesting a video of FCI Elkton’s
glass breaking operation and emphasizing that it was needed to obtain New
Jersey’s approval of UNICOR’s glass breaking procedures.

       Minnick received the FCI Elkton video by mid-December.127 On
December 18, 2001, Minnick e-mailed Ginther, Norberg, and Novicky notifying
them that the video that FCI Elkton provided was unsatisfactory. Minnick
thanked Ginther “for all your work on the video,” but stated “[u]nfortunately,
the video needs to be re-done. We need to find a way to tape it without so
much matter in the air (light reflected off and it appears to be a lot of floating
matter) and background noise.” She further stated that the new video needed
to be made “the sooner the better, as the permit for Ft. Dix hinges on EPA New
Jersey accepting our methods.” Minnick followed-up her request with another
e-mail on January 8, 2002, reminding Norberg that UNICOR could not proceed
with its permit application for FCI Ft. Dix without it. She stated, “[r]emember –
we need a good clean – little noise video. This video is to be used to convince
EPA in New Jersey that our glass process is a good way to go.”

      Novicky, who was Minnick’s boss, was involved in the decision to send a
revised video to NJDEP. Ginther told the OIG that Novicky told him to make
the second video. Novicky told us that UNICOR did not send the first video


       126 Steele stated that the State could have found a violation for operating without

authorization from NJDEP, but that the State was not enforcing this provision at that time.
She stated: “Once we knew they wanted to process electronic waste, we worked with them to
get them the approval that they needed.”
       127 The OIG was not able to locate the first video. Recycling Business Group e-mail

shows that Minnick likely returned it to FCI Elkton.




                                             168 

because, “It was very poor quality, significant noise in the video, you could
hardly hear them talking. It wasn’t reflective of what we did and the proper
way we did it.”

      When we asked Norberg about the creation of a second video, he said he
told Factory Manager Frank Shannon and Ginther to “take whatever steps you
have to. Eliminate some of the background noise, try to make it more
professional because it was for central office and you don’t know who’s going to
be looking at it so they had to do it over and it was fixed.”

       In February 2002 Minnick provided a different video to Steele. In her
letter to NJDEP that included the video, Minnick stated that it showed “the
CRT glass recycling operation.” The video lasts approximately three minutes
and shows the removal of a single monitor’s electron gun and the breaking of
its funnel glass with a few lightly placed hammer strikes. The video did not
show the breaking of an entire CRT as was UNICOR’s practice, including the
breaking of the monitor’s panel glass. The video also did not show the
substantial dust and debris that is generated from manual glass breaking or
the shattering of the monitor’s panel glass, which typically is more difficult to
break and contains a phosphor coating that often becomes airborne particulate
matter when struck. At that time, UNICOR was breaking panel glass at FCI
Elkton and was planning to do so at FCI Ft. Dix. Ginther told the OIG that
Minnick instructed him not to break the panel glass. He said that if the panel
glass was not broken, particles would not fly into the air. UNICOR staff at FCI
Elkton who reviewed the video during our investigation stated that it was not
an accurate portrayal of UNICOR’s glass breaking operations. Ginther also
said that the second video was “deceptive,” and that it was “probably wrong” to
create such a video knowing that it would be sent to New Jersey. He further
stated that “getting the job done was the most important thing” at UNICOR,
and that “one did what he needed to do to get the job done, including deception
if necessary.”

      A photograph from the video appears below.




                                      169 

                             PHOTOGRAPH 5.1 

                 UNICOR Simulation of Glass Breaking Process -

                   Breaking Funnel Glass, FCI Elkton, 2002 





     Minnick told us that she had no recollection of providing the video to
NJDEP.128 Minnick identified the voice narrating the video as belonging to
Ginther.129 Minnick stated that she knew that breaking monitor panel glass
was part of UNICOR’s glass breaking process, but she had no explanation for
why the video did not show this step. Norberg said he did not review the
second video.

      Novicky told the OIG he reviewed the second video before it was sent to
NJDEP and that it “was an accurate portrayal of how we were going to do, the
process we were going to utilize.” He admitted, however, that the second video
did not show UNICOR breaking the face panel. He stated he did not recall the
reason this step in the CRT glass recycling process was omitted. Novicky also
admitted that in actual operations, breaking monitors results in emissions of

        128 Notwithstanding this denial, another Program Manager in the Recycling Business

Group told us that Minnick discussed an incident as recently as 2008 involving Ginther’s
filming years earlier of a video of glass breaking at FCI Elkton that showed extensive
contamination. The Program Manager said that he understood from conversations with
Minnick that the contents of this tape were something that UNICOR did not want revealed
outside of UNICOR. We are skeptical that Minnick lost all memory of this incident subsequent
to that conversation.
       129 The OIG located two copies of the second video. One copy had no sound while the

other was narrated by Ginther.




                                            170 

dust. He stated that the reason that a video showing such dust was not sent to
NJDEP was that, “We didn’t think that video was a real time operational video.
It was showing the process of what we were going to do, separate the glass, the
CRTs. I would have welcomed them to come and personally observe our
operations.”

        Steele, the NJDEP official, told us that the State received the video from
UNICOR in February 2002. She said that when she saw the video she could
tell it was not a true representation of the actual process, but that she
understood that this was because there were legal impediments to videotaping
prisoners. She said that the State accepted it because it did show the basics of
how UNICOR was going to go about breaking the monitors. However, Steele
told the OIG that she would have been concerned if UNICOR’s glass breaking
procedures resulted in the generation of significant amounts of dust, and that
she would have expected UNICOR to provide the video that showed such dust
emissions. Steele said that the breaking of the panel glass should have been
included in the video if it was UNICOR’s practice to break it.

      Steele stated that NJDEP eventually issued a Certificate of Authority to
UNICOR for its recycling activities in 2002, but that it did not include authority
to process CRTs because that activity required an air permit. She stated that
NJDEP modified the Certificate of Authority to grant this authority in March
2003. Steele said that NJDEP’s understanding that the video was an accurate
representation of UNICOR’s process “was not the only factor in issuing the
approval, but it was one of the factors.”

                     b.      OIG Analysis

       We concluded that to obtain authorization for glass breaking operations
at FCI Ft. Dix, Novicky and Minnick intentionally submitted a video to NJDEP
that omitted information about the process used at FCI Elkton that they knew
would be relevant to NJDEP’s assessment of UNICOR’s process. The second
video showed a monitor being gently tapped with hammers to break the funnel
glass, when in fact UNICOR’s process involved a more violent procedure that
resulted in the release of dust. The second video did not show workers
breaking panel glass, which was being broken at FCI Elkton.130 Breaking the
panel glass required the application of much more force and resulted in the
release of more visible airborne debris than the breaking of funnel glass did.
The second video did not show the generation of large amounts of dust from

       130 In comments submitted to the OIG, Minnick’s attorney pointed out that UNICOR’s
permit application disclosed to NJDEP that front panel glass would be broken. While true, this
observation misses the point. The application did not disclose the force required to break
panel glass or the amount of dust generated as a result. This could have been made clear in a
video that accurately portrayed UNICOR’s process, and the omission of this step was part of
what made the video misleading.




                                            171 

breaking monitors, even though such dust was routinely generated in actual
FCI Elkton operations. Indeed, it was the visibility of dust in the first video
that led Novicky and Minnick to create a new, sanitized video. Novicky ordered
the preparation of a new video despite knowing that NJDEP was specifically
concerned about dust from breaking CRTs.

      Novicky argued that there was no intent to mislead NJDEP because
UNICOR invited NJDEP to visit FCI Elkton in person to observe the process.
We did not find this persuasive. By the time the second video was made,
Novicky and Minnick knew that NJDEP would not be visiting FCI Elkton and
would instead be relying on the video for information about the process. They
then created a video that provided a misleading picture of the FCI Elkton
operation.

      Minnick denied to the OIG that she had any recollection of having
requested or reviewed either of the videos. We are skeptical about this claim.
In any event, the e-mails described above establish without question that
Minnick was centrally involved in arranging for the preparation of a sanitized
version of the video, in order to persuade NJDEP to authorize glass breaking at
FCI Ft. Dix.

       We concluded that Novicky and Minnick intentionally sought to mislead
NJDEP regarding the true nature of the FCI Elkton operations. We believe
their actions in submitting the sanitized video constituted serious
misconduct.131

      We also considered the conduct of Ginther, Shannon, and Norberg in this
matter. Minnick sent Ginther and Norberg e-mails directing them to create a
second, “clean” video and instructing Norberg to place a “high priority” on the
project. Norberg told us that he instructed Ginther and Shannon to make
another, “more professional” video with less background noise, but that he
never saw the video that was sent to NJDEP. Ginther told the OIG that he
made the second “sanitized” video at the insistence of Novicky. Shannon told
the OIG that he was not aware that the second video had been made until it
was shown to him by investigators.

      Although Norberg said that he never saw the video that was sent to
NJDEP, Minnick’s e-mails to him emphasized that dust and debris should not
be apparent in the video and that it was to be used to persuade NJDEP to issue
a permit to UNICOR. Norberg told the OIG that no “red flag” was apparent to

       131  The OIG referred this matter to the Environmental Crimes Section of the DOJ
Environment and Resources Division for consideration of criminal prosecution. After a lengthy
investigation conducted in conjunction with the OIG, the EPA, the FBI, and the U.S. Attorneys’
Offices for the Northern District of Ohio and the District of New Jersey, no action was initiated
because of various evidentiary, legal, and strategic concerns.




                                              172 

him based on Minnick’s requests for a “clean” video, even though he
acknowledged to the OIG that her request was not realistic given UNICOR’s
glass breaking methods, in his words, “how are you going to break the glass
without creating some dust?” We believe that Norberg and Ginther should
have recognized that Minnick was requesting a video that did not fairly
represent FCI Elkton’s glass breaking operations and that they should have
objected or produced a video for UNICOR’s permit application that accurately
portrayed FCI Elkton’s glass breaking process. We also believe, that as
Superintendent of Industries at FCI Elkton with accountability for Ginther’s
work, Norberg was “inattentive to his duties,” a BOP disciplinary offense, PS
3420.09, Attachment A, and that he shares responsibility for delivery of the
misleading video to NJDEP.

            2.     False and Incomplete Statements to the EPA

       We determined that Novicky and Craig Dalton, Superintendant of
Industries for FCI Elkton, knowingly provided false and incomplete information
to the EPA in response to an information request about air emissions at FCI
Elkton.

      In July 2007, after the OIG expressed concerns to the EPA about
UNICOR’s environmental compliance performance, EPA Region V sent
information requests to UNICOR and FCI Elkton requesting information about
air emissions at FCI Elkton. The EPA’s information request required UNICOR
to “provide a list of all air emissions units . . . owned or operated by UNICOR”
at FCI Elkton, and to describe changes in recycling procedures at Elkton since
1995, “including changes in the venting of emissions to the atmosphere.” The
request required UNICOR to provide a certification attesting to the accuracy
and completeness of the information furnished. Yet, the responses provided by
Novicky and Dalton did not disclose emissions from the glass breaking booth
that was installed at FCI Elkton in 2001, as appears in Photographs 3.2 and
3.3.

       Novicky told the OIG that the request was initially misplaced and that he
did not see it until near the deadline for responding. He said that after
receiving the request he conferred with a representative of theEPA, and he told
the EPA representative that UNICOR did not have a lot of the information that
was being requested and that it “could take months to collect all this
information.” He said that the EPA representative told him that he needed “to
get this done,” and to “just tell me what you have and put it in a letter to us so
we can see what you have over there.” Novicky said he understood this
instruction to mean that the EPA only wanted information about current
emissions, not prior emissions. Novicky said that Jane Merrifield, UNICOR’s
General Counsel, participated in the call as well as another UNICOR employee.




                                       173 

       We interviewed the EPA representative, who stated that Novicky
contacted her and said that the information that the EPA was seeking was
quite voluminous and that he would not be able to collect all the information
that the EPA was seeking by the deadline. She said that she told Novicky to
“get me what you can by the deadline” and then depending on how much more
information needed to be collected, a schedule could be worked out to provide
it. However, she said that UNICOR never provided supplemental information
after the EPA received UNICOR’s response. The EPA representative also stated
that if Novicky was aware of an emission source at the time that he provided
his response, he should have disclosed it. The EPA representative said he did
not tell Novicky that UNICOR was not required to disclose information about
prior, discontinued operations and needed only to address current operations.

       We also interviewed Merrifield, who had no explanation why the earlier
ventilation system was not disclosed to the EPA other than that Novicky had
not known about it or remembered it. She stated that she would have
disclosed the ventilation system if she had known about it.

      Novicky signed UNICOR’s response to the information request in
September 2007. Craig Dalton, the Superintendent of Industries at FCI
Elkton, signed an identical response from FCI Elkton bearing the same date.132
Novicky and Dalton each signed a certification attached to their respective final
responses stating:

       I certify under penalty of law that I have examined the information
       provided in the modified September 21, 2007 response and am
       familiar with the information in the enclosed documents, including
       all attachments. Based on my inquiry of those individuals with
       primary responsibility for obtaining the information, I certify that
       the statements and information are, to the best of my knowledge
       and belief, true and complete. I am aware that there are
       significant penalties for knowingly submitting false statements and
       information, including the possibility of fines or imprisonment
       pursuant to section 113c 2 of the Act, and 18 U.S.C. § 1001 and
       1341.

       The final information responses from UNICOR and FCI Elkton stated that
the only active air emission unit associated with the FCI Elkton e-waste
recycling operation was the glass breaking booth and air filtration system that
was installed in 2003. The responses also stated: “Prior to the installation of
the glass breaking booth, no emissions were generated necessitating the

       132 Novicky had provided a response in August 2007, but superseded it with final
responses dated September 21, 2007, after learning that the first response contained errors.
Dalton also provided a response at that time.




                                             174 

venting to outside air emissions.” This statement was false. In fact, there were
significant emissions from the glass breaking operation at FCI Elkton
beginning in the fall of 2001, prior to the installation of the glass breaking
booth in 2003. These emissions were routed through a large vent pipe from the
glass breaking area, as shown in Photographs 3.2 and 3.3 in this report, and
were vented to the outside through the roof. As detailed in Chapter Three, staff
and inmates at FCI Elkton described the accumulation of metal particles on
the roof and complained that the debris that was being blown onto the roof of
the recycling factory drifted down onto the prison yard and loading dock of the
factory.

       Dalton told us that when the responses to the EPA information request
were being prepared, he had a conversation with Novicky in which Novicky
instructed him that based on his discussions with the EPA there was no need
to include information about the large vent pipe used to vent emissions from
the glass breaking operation before installation of the glass booth in 2003.

      Yet, UNICOR and FCI Elkton did not follow a consistent practice of
excluding all information about prior, discontinued emissions. The responses
described a paint booth for touch-up painting of reconditioned monitors that
vented to the outside and was in use from September 2005 to May 2006. They
also described the chip recovery initiative that vented fumes to the outside that
was dismantled in August 2006.

        The UNICOR and FCI Elkton responses both also stated: “No major
changes have occurred in the electronics recycling process operations besides
those cited above since 1997.” This statement also omitted the introduction of
glass breaking emissions in 2001 vented through the large pipe onto the roof,
which was later changed with the introduction of the glass breaking booth and
filter system in 2003.

       The EPA later learned through information gathered from our
investigation and from its own interviews that the information in the responses
was not true and complete. In 2007, the EPA conducted an inspection of FCI
Elkton with the OIG, FOH, and NIOSH-DART, and conducted interviews of staff
members who revealed the pre-2003 glass breaking emissions through the
large vent pipe. We did not find any evidence that the EPA relied on the false
statements in any action.133

      In sum, we concluded that Novicky and Dalton made false statements to
the EPA by stating there were no glass breaking emissions prior to the

       133  The OIG also referred this issue, along with waste disposal practices at FCI Elkton,
for potential criminal prosecution. As discussed in footnote 131, following a lengthy
investigation, no action was initiated because of various evidentiary, legal, and strategic
concerns.




                                              175 

installation of the 2003 booth and filtration system, and that Novicky was not
candid about this matter with the OIG. For several reasons, we did not credit
Novicky’s claim that he understood the EPA was not seeking historical
emissions information. First, the EPA representative denied providing any
instruction that would have limited the EPA’s request to just current
operations, and UNICOR’s General Counsel did not describe the EPA
representative’s instructions as a reason why UNICOR’s response did not
identify the earlier emissions. Second, Novicky and Dalton did not follow this
alleged instruction consistently; they included information about two other
discontinued emissions in their responses. Third, if the EPA had given
permission not to provide this information, the logical way to respond to a
question asking for it would have been to cite to the oral instruction that the
EPA representative had imparted, rather than concocting an affirmatively false
statement that no glass breaking emissions were generated prior to 2003.

       We considered and rejected the possibility that Novicky did not know
about the prior glass breaking emissions or had forgotten about them.
Significantly, Novicky did not claim poor memory or ignorance. Instead, he
claimed that the EPA had sanctioned this omission, a claim we did not find
credible for the reasons stated above. In fact, Novicky included information
about prior omissions in his response but omitted those associated with glass
breaking operations.

       We do not know for certain what Novicky’s motivation was for
withholding information about the pre-2003 emissions from the EPA. He may
have believed there could be penalties associated with the unpermitted
emissions or that disclosing them would potentially tarnish the image of the
Recycling Business Group. As detailed in Chapter Three, Novicky was warned
at least once in 2001 by personnel from UNICOR’s Product Support Center that
UNICOR should evaluate its EPA air pollution permit requirements at FCI
Elkton.

      We also recognize that the misrepresentations did not have any apparent
material effect on any decision reached by the EPA, and that the EPA
ultimately learned about the emissions through staff interviews, as well as from
the OIG. However, regardless of the motive or impact of the misrepresentation,
it was serious misconduct for Novicky to falsely certify that a statement to a
government regulator is “true and complete.” It was likewise misconduct for
him to induce Dalton to make the same misrepresentations. It was also
misconduct for Novicky to give an untruthful account of this incident to the
OIG.

      Dalton was in a different position. He claimed that Novicky told him that
the EPA had sanctioned the omission of information about pre-2003 glass
breaking emissions. It is not disputed that Dalton knew about the pre-2003
emissions. He therefore should have recognized that the responses were not


                                      176 

“true and complete,” as he was being asked to certify. Dalton was Novicky’s
subordinate, so Dalton would feel pressure to comply with Novicky’s
instructions and provide identical information in the Elkton response.
However, Dalton should have recognized that the way the responses were
phrased were not consistent with the instruction that Novicky told him the EPA
gave. Instead of citing the instruction, the responses simply denied the truth
about the pre-2003 emissions. We believe that notwithstanding Novicky’s
instructions, Dalton should have declined to sign the certification or raised
concerns about it to Novicky or his supervisors. Therefore, we found that
Dalton’s actions also constituted misconduct.

            3.	    Failing to Disclose Adverse Health and Safety
                   Information to the UNICOR Board of Directors

      As described in Part I, beginning in 2004 the Recycling Business Group
provided the UNICOR Board of Directors with reports that described
inspections and industrial hygiene testing at its e-waste recycling factories that
we believe should have identified unfavorable information. Novicky reviewed
these reports. We determined that the Recycling Business Group’s
submissions for 2004 through 2007 omitted important testing information
related to exceedances of OSHA occupational exposure limits.

      Novicky acknowledged to the OIG that the adverse testing information
should have been brought to the Board’s attention. He said he could not
explain why the adverse testing information was not presented to the Board.
Novicky’s supervisor at the time, Steve Schwalb, also told the OIG that the
Board should have been informed of the adverse testing results.

      Given Novicky’s position in the Recycling Business Group, we believe
that he was fully aware of the adverse testing results during fiscal year 2004
and other years. We believe that the reporting that he approved could have
created a false impression for the Board that the Recycling Business Group
had not experienced difficulty bringing its factories into compliance with OSHA
occupational exposure limits and other requirements.

      C.	   Conclusions Regarding Individual Accountability

            1.	    Lawrence Novicky

      We believe that much of the mismanagement of health, safety, and
environmental matters at UNICOR e-waste facilities described in this report
arose from the acts or omissions of the General Manager of the Recycling
Business Group, Lawrence Novicky. Among other things, Novicky failed to
ensure that UNICOR met its regulatory obligation to provide respirators and
hazard communication at UNICOR facilities in a timely manner. After being
informed in August 2001 by the New Jersey Department of Environmental
Protection that glass breaking presented hazards, after being warned prior to


                                       177 

April 2002 of safety risks by Safety Manager Smith, and after receiving the USP
Atwater test results in July 2002 indicating exposures far above the PEL for
cadmium, Novicky failed to take prompt action to safeguard staff and inmates.
Instead, he allowed inmates to continue breaking CRTs without adequate
warnings or protection. He repeatedly ordered the resumption of glass
breaking activity at USP Atwater without the approval of the Safety Manager, in
violation of BOP rules; he inhibited the Safety Manager’s communications with
staff at institutions with other recycling operations; and he led the BOP’s
national safety staff to believe that glass breaking operations had been
suspended at institutions besides USP Atwater. He failed to ensure a needed
upgrade of the glass breaking booth at FCI Texarkana without justification and
failed to obtain adequate ventilation for the FCI Elkton chip recovery project.
In general, Novicky demonstrated willful indifference to the safety of staff and
inmates.

       We also found a pattern of repeated deception in statements that Novicky
made to regulators and others. We believe that he participated in the
preparation of a misleading video sent to NJDEP in an effort to obtain a permit
for that facility, and he made false and incomplete statements to the EPA in a
certified response to a formal information request. He also failed to disclose
adverse information to UNICOR’s Board of Directors.

      Novicky retired from federal service in 2009 and therefore no disciplinary
action can be taken against him. However, we are forwarding a copy of this
report to the DOJ Security and Emergency Planning Staff for consideration of
inclusion in its security files in the event that Novicky should seek employment
with the Department of Justice in the future.

            2.    Bruce Ginther

       Ginther held various positions with the Recycling Business Group,
including Assistant Factory Manager at FCI Elkton, Industrial Specialist, and
Program Manager. Although he had no formal training in industrial hygiene,
he became a major authority within UNICOR regarding the design and
construction of glass breaking operations. We found serious deficiencies in
Ginther’s performance, primarily regarding glass breaking operations. Ginther
failed to alert his supervisors, staff, or inmates to information he received
regarding the hazards associated with dust generated during the recycling of
CRTs. He participated in the preparation of a misleading video to NJDEP and
concealed e-waste from BOP inspectors and at least one supplier, the Defense
Reutilization and Marketing Service, at FCI Elkton. These incidents led us to
conclude that Ginther at times lacked candor with regard to operations in the




                                      178 

Recycling Business Group and that he did not sufficiently ensure that UNICOR
complied with its obligations under health, safety, and environmental laws.134

      Ginther retired in 2009 and therefore no disciplinary action can be taken
against him. However, we are forwarding a copy of this report to the DOJ
Security and Emergency Planning Staff for consideration of inclusion in its
security files in the event that Ginther seeks employment with DOJ in the
future.

              3.     Carol Minnick

      Carol Minnick was the Program Manager for the Recycling Business
Group from 2001 to 2006. As detailed above, we determined that Minnick
exercised poor judgment when she recommended to Novicky that he defer a
decision on upgrading FCI Texarkana’s glass breaking booth despite a request
from the local Factory Manager for expedited improvements. We believe that
delays in implementing the upgrade likely caused violations of OSHA
regulations that require primary reliance on engineering and work practice
controls to limit occupational exposures, 29 C.F.R. § 1910.1027(f)(1), and
Minnick had reason to know that such improvements were needed given that
the UNICOR glass breaking booths at USP Atwater and FCIs Elkton and Ft. Dix
recorded exceedances of OSHA occupational exposure limits.

      We also determined that Minnick participated in the effort to persuade
NJDEP to approve glass breaking at FCI Ft. Dix by submitting an inaccurate
and misleading video of the glass breaking operation at FCI Elkton. We were
skeptical of Minnick’s claim that she has no memory of this activity.

       However, in assessing Minnick’s conduct we reviewed thousands of
internal Recycling Business Group e-mails and correspondence, and we
identified many instances where Minnick attempted to promote and enforce
compliance with BOP and UNICOR policies dealing with health and safety. We
also found that Minnick often functioned more as an administrative assistant
to Novicky than as a manager of a program, as her job title described.

       Because we believe that Minnick engaged in misconduct when she
participated in the effort to provide a misleading video to NJDEP, we are
referring her actions to the BOP for appropriate action.



       134 As noted in Chapter Three, Ginther was previously disciplined by the BOP for
conduct involving dishonesty. In 2004 BOP reprimanded Ginther based on findings of the GSA
OIG that Ginther had diverted loads of e-waste from UNICOR’s FCI Elkton factory and lied to
federal agencies about the destination of their e-waste as well as to a federal agent who
interviewed him about these activities.




                                           179 

                4.     Samuel Randolph

       Samuel Randolph was the Associate Warden at USP Atwater. As detailed
above, we found that, acting on Novicky’s orders, he interfered with Leroy
Smith’s performance of his duties as Safety Manager by inhibiting
communications with other Safety Managers that were protected
communications under OSHA regulations. Randolph also violated BOP policies
by ordering that glass breaking operations be resumed at USP Atwater
following shutdowns that were ordered for safety reasons, without the required
re-inspection and written approval from the USP Atwater Safety Manager.

      Randolph retired from the BOP in 2006 and therefore no disciplinary
action can be taken against him. If Randolph had remained with the BOP, we
would refer his misconduct to the BOP for disciplinary action.

                5.     Craig Dalton

       Craig Dalton was the Superintendent of Industries at FCI Elkton. As
detailed above, we found that Dalton participated in the mismanagement of
contaminated ventilation filters that should have been treated as hazardous
waste.135 Along with Novicky, Dalton also failed to provide an adequate
ventilation system for the chip recovery project and failed to shut down the
project until the system was installed, thereby exposing staff and inmates to
noxious fumes. We believe that his mismanagement of contaminated filters
constituted a serious performance deficiency, and his lapses in the chip
recovery project endangered staff and inmates.

      In addition, Dalton signed a certified response to an EPA information
request that he knew contained inaccurate information. We recognize that
Dalton was instructed to give this response by Novicky, but we believe he
should have declined to sign an inaccurate response.136

       Dalton retired from the BOP in 2008 and therefore no disciplinary action
can be taken against him. If Dalton had remained with the BOP, we would
refer his misconduct concerning the chip recovery project and the EPA’s
information request to the BOP for disciplinary action.

                6.     Adam Norberg and Frank Shannon

      During 2002-2003, Adam Norberg was the Superintendent of Industries
at FCI Elkton, and Frank Shannon was the Factory Manager there. We found
that Norberg and Shannon failed to timely implement an upgrade of the FCI
       135As detailed above, we found that Steve Heffner, the Factory Manager at FCI Elkton
and a subordinate of Dalton, also participated in the mismanagement of contaminated filters.
       136   We believe that Dalton’s conduct was potentially mitigated by       .




                                               180 

Elkton glass booth as instructed by Minnick in 2002, which resulted in the
emission of cadmium and lead bearing dust into the factory and the outside
environment. Norberg and Shannon also failed to enforce other protective
procedures, such as requiring all glass breaking workers to use respirators and
prohibiting food and drinks in the work area. We believe these were significant
performance issues.

      We also found that Norberg was inattentive to his duties and committed
misconduct when he failed to review a video that was submitted with a permit
application to determine that it fairly represented UNICOR’s glass breaking
process.

      Norberg retired from the BOP in 2003 and therefore no disciplinary
action can be taken against him. If Norberg had remained with the BOP, we
would refer his misconduct to the BOP for disciplinary action.

            7.    Alan Ferguson and Roger Hammond

      We determined that Alan Ferguson, the General Foreman and Facilities
Manager at FCI Elkton, instructed Roger Hammond, an electronics technician
at FCI Elkton, to tamper with the fire alarm system in the recycling factory
because of the false alarms that the duct detectors caused after sensing dust
from the e-waste recycling operations. Hammond taped the fire alarm duct
detectors and thereafter failed to report in annual inspections of the UNICOR
factory’s fire alarm system that they had been disabled.

      We believe that Ferguson and Hammond committed serious misconduct
in connection with this incident. We are referring their actions to the BOP for
consideration of appropriate discipline.

            8.    Steve Heffner, UNICOR Factory Manager, FCI Elkton

       As with Dalton, we determined that Heffner demonstrated performance
deficiencies by failing to ensure that ventilation filters from FCI Elkton’s
recycling factory locations and filters from the glass breaking booth were
properly handled. Heffner also disregarded instructions that he received from
Minnick in November 2005 to test the factory ventilation filters. He said that
he received Minnick’s inspection report of February 2004 but failed to address
the problem of hazardous waste storage in the UNICOR warehouse.

      In addition, we determined that Heffner failed to oversee proper handling
of used glass breaking booth filters in 2007, including their removal from the
booth and storage.

      We recommend that the deficiencies identified above be addressed in
Heffner’s performance evaluation.



                                      181 

            9.    Dan Martin, former Safety Manager, FCI Elkton

      During the period when Martin was Safety Manager at FCI Elkton,
UNICOR started several projects that we determined were not properly
evaluated and were not safe, including glass breaking operations, the chip
recovery project, and a monitor refurbishment project. We believe that Martin
should have been more assertive in protecting the safety of staff and inmates.
We concluded that Martin’s job performance was deficient.

      Martin retired from the BOP in June 2010.




                                     182 

                      CHAPTER SIX 

            CONCLUSIONS AND RECOMMENDATIONS


I.    OIG Analysis

      In this chapter we summarize our conclusions regarding UNICOR’s e-
waste recycling program, and we provide recommendations to address the
problems we identified in this program.

       The OIG’s investigation examined the safety of UNICOR’s e-waste
recycling program from its inception in 1996 through 2009. We obtained
assistance from four federal agencies with expertise in health, safety, and
environmental compliance matters – the Federal Occupational Health
Service (FOH), the National Institute for Occupational Safety and Health
(NIOSH), the Occupational Health and Safety Administration (OSHA), and
the U.S. Environmental Protection Agency (EPA).

       UNICOR performed e-waste recycling at 10 BOP institutions, and with
the help of the federal agencies above we completed extensive field work to
evaluate UNICOR’s operations. Our investigation examined staff and inmate
exposures to toxic metals, primarily cadmium and lead; the medical effects
resulting from these exposures; legacy contamination in UNICOR’s factories
from improper recycling practices; exposures to noise and heat stress; the
incidence of injuries; environmental compliance; and general administrative
control and oversight of UNICOR’s e-waste operations.

       Our investigation identified significant problems with the e-waste
program and a troubling lack of adequate measures to address the safety of
staff and inmates who participated in the program. UNICOR failed to
properly evaluate the safety of its recycling operations before starting them,
and staff and inmates at several BOP institutions were exposed to levels of
cadmium and lead that exceeded OSHA standards. Due to variations in
susceptibility to adverse health effects from toxic metal exposures, some
contribution to future health problems from exposures at UNICOR cannot
be completely ruled out.

        We identified particular problems with UNICOR’s handling of
computer monitors and breakage of monitor glass. Especially during the
first five years of the e-waste program, UNICOR lacked proper engineering
controls; work practice controls; personal protective equipment; and
administrative controls, such as hazard communication and training to
mitigate toxic metals exposures that resulted primarily from glass breaking
operations. As a result, UNICOR violated numerous OSHA regulations,
including those dealing with cadmium, lead, hazard communication,


                                     183 

personal protective equipment, and respiratory protection. OSHA concluded
that some of these violations were “willful” and showed indifference to the
safety of workers.

        We determined that testing was undertaken at the United States
Penitentiary in Atwater, California at the initiative of the institution Safety
Manager following his earlier recommendations to UNICOR that a hazard
assessment should be completed on glass breaking operations due to
possible health and safety risks. After testing results in 2002 from these
operations showed exceedances of OSHA’s occupational exposure limits, the
leadership of UNICOR’s e-waste program was slow to institute adequate
remedial measures at USP Atwater and other e-waste factories. For
example, respiratory protection was not promptly provided at other glass
breaking operations and additional monitoring was delayed. FCI Texarkana
did not upgrade its glass breaking booth with adequate ventilation and air
filtration until nearly two years after the first adverse USP Atwater testing
results were received.

       The medical evaluation conducted pursuant to this investigation
revealed that UNICOR and the BOP failed to institute proper medical
surveillance at some institutions for UNICOR staff and inmates who
required it and, in some circumstances, failed to share testing results with
staff and inmates. Necessary medical examinations were not completed on
inmates as mandated by OSHA’s cadmium and lead standards, and
biological monitoring was not standardized, resulting in some staff and
inmates not receiving the testing required under OSHA’s regulations. We
did not identify any blood or urine testing results that exceeded
occupational standards for cadmium and lead, but UNICOR failed to
complete monitoring as required by OSHA and the records that we were able
to review were incomplete and did not include data from periods when
exposures were likely greatest. However, of the many symptoms of illness
that staff and inmates reported in their interviews and attributed to their
work in UNICOR’s e-waste factories, none could be linked to recycling work.

       In addition, we found that recycling operations created problems
related to injuries, noise, and excessive heat. Our interviews and review of
inmate injury records revealed that inmates who worked in glass breaking
operations were frequently cut by the broken glass. Neither UNICOR nor
the BOP shared injury information between factories, and the BOP does not
collect injury information to identify injury trends in UNICOR operations.
We found staff and inmate noise exposures above OSHA limits at various
UNICOR factories during glass breaking operations, baling operations, and
other activities. We also determined that inmates had the potential for
excessive exposure to heat during certain recycling operations.



                                     184 

       UNICOR’s Recycling Business Group’s (RBG) environmental
compliance performance also was inadequate. We found that UNICOR at
times did not fully evaluate environmental permitting requirements before
starting new operations, properly characterize its hazardous wastes, and
lawfully store or dispose of such wastes at multiple BOP institutions. We
also determined that the Recycling Business Group provided misleading
information to environmental regulators who sought information about
UNICOR’s e-waste operations at FCIs Elkton and Ft. Dix.

       Overall, we concluded that prior to 2009, UNICOR’s e-waste program
was poorly managed by its Headquarters staff. The leadership of the
Recycling Business Group failed to institute policies in a timely way to
protect staff and inmates from the hazards associated with e-waste
recycling; to properly advise staff and inmates about hazards once they were
identified; to correct hazards in a timely way once they were identified; and
to conduct e-waste operations in compliance with applicable health, safety,
and environmental regulations.

       We found numerous instances of staff misconduct and performance
failures. These included actions that endangered staff and inmates,
dishonesty, dereliction of duty, and theft, among others. In all, we
concluded that 11 UNICOR and BOP employees committed either
misconduct or performance failures in their work related to the e-waste
recycling program.

      Our investigation concluded that the General Manager of the RBG,
Lawrence Novicky, committed significant acts of misconduct, including
discounting warnings about the hazards associated with e-waste recycling
and failing to respond appropriately after testing confirmed exceedances of
OSHA occupational exposure limits. We also found that Novicky repeatedly
countermanded the instructions of Safety Manager Smith, directing that
glass breaking operations be restarted after Smith had ordered them shut
down, and sought to inhibit Smith’s communications with other BOP Safety
Mangers about the safety of UNICOR’s glass breaking operations.

       We believe that Smith deserves special credit for his resolve in
attempting to protect the health and safety of staff and inmates at USP
Atwater. He was required to work under adverse circumstances, including
mistreatment from Associate Warden Randolph, the senior UNICOR
representative who oversaw the recycling program at USP Atwater. To his
credit, Smith repeatedly highlighted to UNICOR staff their obligations under
the law and BOP policy and attempted to enforce compliance.

      Our investigation also identified numerous acts of deception by
Novicky and his assistant, Ginther. For example, we concluded that they,
along with others, arranged for the New Jersey Department of


                                    185 

Environmental Protection to receive a video that deceptively presented
UNICOR’s glass breaking practices and that was submitted as part of a
permit application. Novicky further provided inaccurate and misleading
information to the EPA in response to an information request about
activities at FCI Elkton. In addition, interviews with UNICOR staff and
customers showed that Ginther deceived inspectors at FCI Elkton by
concealing e-waste during inspections. Overall, we believe that a significant
contributing cause of the problems we identified within the Recycling
Business Group was that Novicky and Ginther lacked judgment and at
times acted dishonestly.

      Aside from problems caused by individuals’ misconduct and
inadequate performance, we also identified numerous systemic deficiencies
in UNICOR’s and the BOP’s operations that continue to jeopardize UNICOR’s
future ability to comply with applicable health, safety, and environmental
requirements. For example, too often we identified circumstances where
inadequate technical expertise was utilized in the e-waste program,
primarily because of UNICOR’s over-reliance on BOP safety staff that was
inadequately trained to handle many of the health and safety issues that
UNICOR’s operations presented. As a result, BOP safety staff at times
assumed duties that they were not qualified to perform because UNICOR
would not take responsibility for them. For example, UNICOR’s lack of
adequate protection of the health and safety of staff and inmates is reflected
by the fact that it has only 1 Certified Industrial Hygienist to service 103
UNICOR factories that are scattered across the United States. The BOP has
no Certified Industrial Hygienists.

       BOP and UNICOR’s inspection oversight and follow-up on problems in
the e-waste program also were inadequate and failed to identify many of the
issues we found during our investigation. We were especially concerned
that the Health Services Division at BOP Headquarters provides no
compliance oversight of health and safety functions. In addition, the quality
of the oversight provided by local safety departments was inconsistent and
would benefit from additional Headquarters scrutiny. Further, DOJ has no
compliance monitoring or enforcement role with regard to health, safety,
and environmental matters within the Department. Despite the
Department’s longstanding commitment to upholding enforcement of the
nation’s environmental laws, the Department does not collect information
about its own component’s compliance performance, including UNICOR and
the BOP, and does not provide oversight to ensure that compliance is
achieved.

      It is important to note that, despite the many problems we found, our
investigation also identified improvements that UNICOR has made to its e-
waste recycling operations since 2003. These include developing written
procedures, enhancing staff and inmate training, and improving industrial


                                     186 

hygiene at its factories. Some factories performed much better than others
with respect to industrial hygiene, such as USP Lewisburg and USP
Leavenworth. UNICOR’s e-waste factories have also obtained certifications
from standard-setting organizations, and the Recycling Business Group’s
new General Manager is a recognized expert on e-waste recycling and has
more than 32 years of experience with the EPA.

       UNICOR also has made progress in implementing more than 150
recommendations that the federal agencies that assisted the OIG provided
during our field work. We provided these recommendations to UNICOR as
our investigation was progressing. Overall, we determined that by 2009,
UNICOR’s e-waste operations were generally operating in a safe manner,
including the practice of manually breaking CRTs with hammers, though
some additional improvements were recommended. We also concluded that
UNICOR’s e-waste program has made significant environmental
contributions since its inception in 1996 to address the problems caused by
e-waste, and has provided employment to thousands of inmates over the
years.

       However, to further address the problems identified during our
investigation, and to ensure that health and safety issues do not recur in
the e-waste program, we provide the following 12 recommendations to
UNICOR, the BOP, and DOJ for needed improvements. Our
recommendations seek to ensure UNICOR’s compliance with applicable
health, safety, and environmental regulations; promote accountability for
such compliance among UNICOR and BOP managers; encourage acquisition
of sufficient technical expertise by UNICOR and the BOP to identify and
remedy non-compliance; improve oversight over UNICOR’s operations by the
BOP and DOJ; and to strengthen the role of the BOP’s Health Services
Division in the management of health, safety, and environmental issues
related to UNICOR’s operations.


II.	   Recommendations

Implement the OIG Technical Team’s Recommendations

1. 	   UNICOR and the BOP should complete implementation of the OIG
       technical team’s recommendations.

       FOH, NIOSH, OSHA, and the EPA made numerous recommendations
during our investigation to address deficiencies that they identified from
their field work at UNICOR’s e-waste factories. The OIG technical team’s
recommendations addressed 47 issues in 12 general topic areas, including
toxic metal contamination, personal protective equipment, medical
surveillance, regulatory compliance, hazard assessments, oversight, and
glass breaking procedures.


                                   187 

      Following a request by the OIG to describe the progress that had been
made to implement the technical team’s recommendations, the BOP and
UNICOR provided a written update in January 2010, which is found in
Attachment 1. After reviewing this submission, we determined that UNICOR
and the BOP have made significant progress to implement the
recommendations. However, 16 of the 47 issues require future updates to
the OIG.137 These 16 issues involve matters such as decontaminating prior
glass breaking areas, improving record keeping for medical surveillance
data, monitoring surface contamination levels, and improving compliance
with the OSHA noise standard.

Enhance Accountability and Improve Inspections and Oversight

2. 	   UNICOR and the BOP should hold their supervisors accountable
       for compliance with health, safety, and environmental
       requirements. In particular, the performance appraisals of
       UNICOR and BOP supervisors should address compliance with
       these requirements.

      UNICOR and the BOP are required to comply with the OSHA and EPA
regulations cited throughout our report. We believe that supervisors in
UNICOR and the BOP should be held accountable for ensuring compliance
with these requirements.

       OSHA regulations provide that “[e]ach agency head shall ensure that
any performance evaluation of any management official in charge of an
establishment, any supervisory employee, or other appropriate management
official, measures that employee's performance in meeting requirements of
the agency occupational safety and health program, . . . .” 29 C.F.R. §
1960.11. Executive Order 13148 on Greening the Government Through
Leadership in Environmental Management also requires that the
implementation of pollution prevention and environmental management
efforts be accounted for in the performance reviews of federal supervisory
personnel.

      According to OSHA, UNICOR and the BOP’s past and current
performance appraisals are inadequate. For example, our review of BOP
performance appraisals for Wardens revealed that their performance
measures made no reference to ensuring occupational safety and health.
We believe that UNICOR and the BOP should ensure that their performance
appraisals account for performance that directly impacts institution health
and safety.

       137 The issues that require additional information from UNICOR and the BOP are

issue numbers 1, 2, 7, 8, 9, 14, 16, 17, 19, 20, 23, 26, 32, 35, 36, and 38 in Attachment 1.




                                            188 

      In addition, we believe that supervisors’ performance appraisals
should include input from the Health Services Division and account for
inspections made by local and regional safety staff, the Program Review
Division, UNICOR and BOP industrial hygienists, and external auditors.

3. 	   UNICOR and the BOP should develop inspection checklists and
       guidelines for each UNICOR business group and complete
       inspections of all business groups within 18 months from the
       date of this report.

       An important tool to assist with the detection of non-compliance with
health and safety regulations and policies is an inspection checklist.
UNICOR does not have an inspection checklist that is specifically designed
for its recycling operations. Although we do not believe that checklists are a
substitute for well-trained staff, the use of checklists by local and regional
safety staff during their inspections of UNICOR’s e-waste operations should
improve the detection of health, safety, and environmental problems. We
also recommend that checklists should be developed for new operations at
the time that their initial hazard assessments are performed.

      Our discussions with UNICOR and BOP staff revealed that the
regulatory non-compliance that we identified in the Recycling Business
Group’s operations likely exists in other UNICOR business groups. We
believe that the development of inspection checklists for UNICOR’s six other
business groups is important based on the general lack of effective oversight
that we identified during this investigation.138

       In addition, our investigation found that the Program Review
Division’s guidelines for UNICOR’s operations omit evaluation of health and
safety issues, and that the Guidelines for Health Services and Safety do not
reference UNICOR. The Assistant Director for the Program Review Division
told us that it is not guaranteed that Program Review Division safety
inspections will include UNICOR operations. To remedy this deficiency, we
believe that the Program Review Division should develop guidelines that
specifically address health and safety issues in UNICOR’s factories, and that
the Health Services Division and UNICOR’s Environmental and
Occupational Health Services Manager should assist with this effort.
Moreover, to ensure that Program Review Division auditors are properly
trained on use of the new guidelines, Health Services Division or UNICOR
hygienists should provide instruction to the auditors and a hygienist should
participate in the inspection when practicable.
       138  The other business groups are Textiles, Fleet Services, Electronics, Office
Furniture, Industrial Products, and Services. According to the UNICOR Certified Industrial
Hygienist, the Recycling Business Group ranks in the middle of UNICOR’s business groups
in terms of health, safety, and environmental compliance.




                                           189 

       We therefore recommend that within 18 months from the date of this
report, the Health Services Division, in conjunction with UNICOR and BOP
hygienists and regional and local safety staff, should complete industrial
hygiene inspections for all UNICOR business groups. Results showing
significant non-compliance with regulatory requirements should be reported
to DOJ, consistent with Recommendation 4 below.

4. 	   DOJ should monitor health, safety, and environmental
       compliance by UNICOR and the BOP and establish internal
       compliance oversight procedures to address repeat non-
       compliance.

       Our interviews with the environmental and occupational health and
safety program managers in DOJ’s Justice Management Division revealed
that DOJ does not monitor or collect health, safety, and environmental
compliance information from Department components, including UNICOR
and the BOP, such as the issuance of fines or notices of violation from
regulatory inspections. Both JMD program managers told the OIG that they
thought that DOJ should receive and review compliance-related health and
safety information from components within the Department. The
occupational health and safety program manager said that three types of
information should be reported to him: (1) OSHA violations identified by
OSHA inspectors; (2) OSHA violations that inspectors, including industrial
hygienists and local safety staff, identified as serious and that are repeated;
and (3) any imminent danger or hazard findings, including those made by
local safety staff.

      We believe that DOJ should monitor UNICOR’s and the BOP’s health,
safety, and environmental compliance performance, and should be prepared
to ensure that corrective action is taken in the event that it appears that the
non-compliance is not being adequately addressed.

Acquire Necessary Technical Resources

5. 	   UNICOR and the BOP should perform an evaluation to determine
       how many additional industrial hygienists are needed. UNICOR
       and the BOP and should use hygienists to oversee the selection
       and use of industrial hygiene contractors.

       The OIG technical team concluded that UNICOR and the BOP have an
insufficient number of industrial hygienists. According to the team, the
increasing complexity of the occupational health and safety fields requires
trained safety staff with ample skills and competencies.

      According to UNICOR’s sole industrial hygienist, UNICOR’s operations
frequently require evaluation by personnel with training that exceeds that
typically possessed by BOP safety staff. The Assistant Director of the Health


                                     190 

Services Division, Dr. Newton Kendig, told the OIG that he was aware of the
need to improve the technical competency of safety staff and that he is
attempting to professionalize the discipline within the BOP. He stated that
there is probably more technical expertise required for the safety discipline
than almost any other in the BOP; although, BOP safety staff members have
not had the depth of training that is needed for their positions.

      To increase the technical resources available to UNICOR and the BOP,
we believe that UNICOR and the Health Services Division should perform an
evaluation to determine how many hygienists are needed. The Chief
Operating Officer of UNICOR, Paul Laird, told the OIG that it would not be
unreasonable for UNICOR and the BOP to obtain four additional hygienists
pending the outcome of the evaluation above.

      We believe that oversight of the hygienists should be performed by the
Health Services Division, under the leadership of an experienced Chief
industrial hygienist and safety professional who can manage the delivery of
industrial hygiene and safety services throughout UNICOR and the BOP.
The complexity of the industrial hygiene and safety services required by
UNICOR and the BOP warrants overall supervision of those services by an
experienced hygienist with familiarity in managing a large industrial hygiene
and safety program. Recommendation 6 also discusses the need for
hygienists or other safety professionals from the Health Services Division to
supervise regional and institution safety staff.

       Our investigation also found that UNICOR and the BOP often
obtained industrial hygiene consulting services that were deficient and that
UNICOR and BOP staff lacked sufficient training to recognize the
deficiencies. We believe that this problem can be addressed by requiring
UNICOR and BOP industrial hygienists to participate in drafting the scope
of work for the contractors, overseeing their selection and use, and
evaluating their work product.




                                    191 

Strengthen the Role of the Health Services Division

6. 	   The Health Services Division should oversee the delivery of
       health, safety, and environmental services at BOP institutions
       and UNICOR factories. We believe that the BOP and UNICOR
       should consider requiring that local and regional safety staff, as
       well as BOP and UNICOR industrial hygienists, report to the
       Health Services Division rather than to institution or regional
       correctional managers. In addition, compliance enforcement of
       health, safety, and environmental regulations should be an
       integral part of the Division’s responsibilities.

       Our investigation revealed that the quality of services that institution
safety offices provided to the BOP and UNICOR varied significantly, and that
local safety staff at times provided inaccurate information and advice. We
found that BOP regional and Headquarters safety personnel are not
responsible for the management of local safety programs, including the
performance of institution safety staff, and that important safety
information often was “stove piped” at the institution level and not shared.
We believe that this method of furnishing industrial hygiene and safety
services exacerbated problems with the e-waste recycling program, primarily
by delaying both the recognition of the hazards associated with e-waste and
the formulation of a sufficient response to these hazards that was
implemented consistently between factories.

      To avoid similar problems in the future, as well as to improve UNICOR
and the BOP’s compliance performance, we believe that the BOP should
evaluate whether the Health Services Division should be assigned
management responsibility for the delivery of industrial hygiene and safety
services throughout the BOP and UNICOR. The Health Services Division
presently establishes health, safety, and environmental policies, and is
knowledgeable about regulatory requirements that must be carried-out in
BOP’s institutions. We believe that for the BOP and UNICOR to achieve
compliance with regulatory requirements and ensure that the advice of
safety staff is consistent and accurate, regional and local safety personnel
should be overseen by experienced industrial hygienists or other safety
professionals from the Health Services Division who are familiar with
regulatory requirements and are committed to seeing that they are
respected.

      This change would also ensure that local safety staff would not be
overseen by managers whose performance evaluations depend in part on the
outcome of safety staff inspections. OSHA regulations require that the
performance appraisals of UNICOR and BOP supervisors include an
assessment of their performance in meeting the requirements of the BOP’s
occupational safety and health program (see Recommendation 2), which


                                     192 

mandates compliance with applicable health, safety, and environmental
regulations. 29 C.F.R. § 1960.11. Requiring safety staff to report to
institutional correction managers whose performance evaluations depend in
part on the results of safety inspections could compromise the
independence of safety staff.

       We also believe that the Health Services Division should adopt a
rigorous program of compliance enforcement. The Division should oversee
regular, unannounced inspections of UNICOR operations and UNICOR and
BOP managers should be held accountable for the results. When regulatory
violations are found, the Health Services Division should issue warnings to
institution and regional BOP managers. Large numbers of single instance
violations or repeated serious violations should be addressed in manager
performance appraisals, and the violations should also be reported to DOJ.

       In addition, UNICOR’s issuance of health, safety, and environmental
policies should be contingent on the Health Services Division’s review and
approval. UNICOR currently is able to issue its own health and safety
policies without review and approval from any oversight entity. We believe
that the BOP should consider making the Health Services Division the sole
authority on health, safety, and environmental matters within UNICOR and
the BOP. We believe that without centralized BOP control over policy
development, inconsistent advice will be provided to UNICOR and BOP
managers.

7. 	   The BOP should evaluate the need to establish an occupational
       health program administered by the Health Services Division.

      Our investigation determined that the BOP lacks an adequate
occupational health program that seeks to reduce illnesses and injuries in
the workplace. According to the Assistant Director for the BOP’s Health
Services Division, Dr. Kendig, BOP health staff is currently not assigned
occupational health duties. We believe that the deficiencies we identified
with the BOP’s medical surveillance of UNICOR staff and inmates were
caused in large part by the lack of occupational health resources within the
BOP. The BOP should evaluate the need to create an occupational health
program that would be overseen by the Health Services Division.




                                    193 

Enhance Training

8. 	   UNICOR and the BOP need to improve their ability to detect
       violations of health, safety, and environmental regulations, and
       should develop a joint plan to enhance site-specific training for
       regional and institution staff with oversight responsibilities of
       UNICOR operations.

       Our investigation found an unacceptably high number of regulatory
violations, the vast majority of which were not identified by UNICOR and
BOP staff. To improve staff members’ ability to identify health, safety, and
environmental problems, UNICOR and the BOP should jointly formulate and
implement intensive training on regulatory requirements for safety staff,
UNICOR Factory Managers, Production Controllers, Associate Wardens, and
Superintendents of Industries. This training should supplement annual
training and be focused on the particular operations that the managers are
required to supervise.

Improve Communications

9. 	   Safety Managers who oversee similar UNICOR operations should
       communicate regularly about health, safety, and environmental
       issues that they identify in their UNICOR’s factories. The results
       of industrial hygiene and environmental testing and inspections
       should be shared promptly between institutions and with UNICOR
       Program Managers.

       We found during our visits to BOP institutions that Safety Managers
who oversaw e-waste recycling operations did not regularly communicate
with each other about problems that they were finding with the e-waste
operations, and that the results of industrial hygiene testing and
inspections were not consistently shared between institutions and with
UNICOR Program Managers. This “stove piping” of information and the lack
of communication between institutions and with UNICOR and BOP
Headquarters placed workers in jeopardy. For example, information on
injuries from glass breaking operations was not shared, resulting in delays
in furnishing adequate protective equipment to inmate glass breakers at
some factories.

      To avoid problems related to poor communications, we believe that
safety staff with similar UNICOR operations should consult through
conference calls at least bi-annually, that information about problems
should promptly be shared with other factories, and that testing and
inspection results should be promptly distributed to institutions with
similar UNICOR operations and to UNICOR Program Managers following
receipt.



                                    194 

Evaluate Use of OSHA Cooperative Programs

10. 	 UNICOR should complete an assessment of the feasibility of
      enrolling its factories in OSHA cooperative programs and report
      the results to the OIG.

        During our investigation, OSHA encouraged UNICOR to enroll in one
of its cooperative programs to improve compliance performance. Many
agencies in the federal government participate in programs such as the
OSHA Voluntary Protection Program, including the Postal Service and the
Navy. A Voluntary Protection Program establishes performance related
criteria for the management of safety and health systems and uses the
criteria to assess the progress of the program participant.

      We believe that UNICOR currently may not be in compliance with
federal health and safety regulations, and that enrollment of its factories in
an OSHA cooperative program could significantly improve compliance
performance. UNICOR should assess the feasibility of enrolling its factories
in an OSHA cooperative program and report the results of its evaluation to
the OIG. We recommend that the UNICOR Board of Directors be briefed on
the results of this evaluation.

Evaluate Controls on Exports of E-Waste

11. 	 The Recycling Business Group should evaluate ways to better
      ensure that exports of its e-waste are in compliance with U.S.,
      host-nation, and international laws and do not result in harm to
      workers or to the environment.

       According to current General Manager of the Recycling Business
Group, Robert Tonetti, UNICOR currently sells e-waste products to other
recyclers and brokers who export them to smelters in other countries in
order to complete the recycling process. Tonetti told the OIG that this
practice is common in e-waste recycling. For example, he stated that
recycled CRT glass from the U.S. goes to only four plants in the world that
manufacture new CRTs – two are in India, one is in Korea, and one is in
Malaysia. However, investigations of e-waste recycling practices in many
nations abroad have revealed serious health, safety, and environmental
problems. To address this issue, since approximately 2003, UNICOR has
required its vendors to self-certify that they do not send e-waste to landfills
for disposal and that their exports of e-waste comply with all national and
international laws. Tonetti told the OIG that while the vendor self-
certifications “are a start,” he stated that, “it is nowhere near where we need
to be.” He said that he is seeking to obtain third-party certifications for the
Recycling Business Group’s operations that address the issue of
“downstream” due diligence.



                                     195 

       We concur with Tonetti’s actions and believe that the Recycling
Business Group should institute procedures to better ensure that its e-
waste that is sold to vendors does not end up later causing harm to workers
or to the environment. We recommend that within six months from the
release of this report, the Recycling Business Group should identify current
“best practices” for performing due diligence on downstream vendors and
develop a written plan to put those practices into use.

Prevent Injuries

12. 	 UNICOR and the Health Services Division should track injury
      trends in UNICOR operations. UNICOR Program Managers should
      be informed of all injuries in factories that they oversee.

       Our investigation determined that the BOP was failing to comply with
OSHA regulations governing the recording of inmate worker injuries.
UNICOR and the BOP have advised the OIG that they intend to comply with
this requirement.

       We believe that UNICOR and the Health Services Division should use
the inmate injury data that is collected to determine whether injury trends
are evident in UNICOR operations, such as would have been apparent from
examination of injuries sustained by inmate glass breakers. In addition, all
injuries in UNICOR operations should be reported to Headquarters’ Program
Managers. This will enable UNICOR Headquarters staff to assist in
monitoring the safety of the operations for which they are responsible. The
Assistant Director for the Health Services Division, Dr. Kendig, told the OIG
that he is attempting to upgrade the Division’s ability to collect and manage
occupational health and injury data, and he is evaluating web-based
options to perform this work.


III.	   Conclusion

       In conclusion, our investigation identified serious deficiencies with
UNICOR’s e-waste recycling program, especially prior to 2003. In recent
years, while UNICOR has made substantial progress to improve the safety of
its e-waste operations, we believe that the success of these efforts in the
future will be hindered by lingering, systemic problems such as the lack of
technical resources, inadequate oversight, and a Health Services Division at
BOP Headquarters that lacks authority to manage the delivery of quality
safety services throughout the BOP and UNICOR. We believe that our 12
recommendations can help ensure that the BOP and UNICOR conduct their
operations, including the e-waste recycling program, in compliance with
federal regulations and BOP policies and with the necessary concern for the
health and safety of BOP staff and inmates.



                                    196 

ATTACHMENT 1 

OIG REQUEST 

                                           u.s. Department of Justice
                                           Office of the Inspector General




 November 18,2009

 MEMORANDUM FOR VANESSA P. ADAMS
                ASSISTANT DIRECTOR
               'PROGRAM REVIEWDIVlSION
                FEDERAL BUREAU OF PRISONS


 FROM: 

                       INVESTIGATIVE COUNSEL
                       OVERSIGHT AND REVIEW DIVISION

 SUBJECT:              UNICOR Recycling Investigation


        During the Office of the Inspector Gen~ral's (OIG) investigation of 

  UNICOR's e-waste recycling program, the Occupational Safety and Health 

  Administration (OSHA), the Federal Occupational Health Service (FOH), the 

  U.S. Environmental Protection Agency (EPA), and two divisions within the
  National Institute for Occupational Safety and Health (NIOSH), provided the
  OIG with variollsreports that evaluate UNICOR's and the Federal Bureau of
  Prison's (BOP) health, safety, and environmental compliance practices. These
, reports typically have included recommendations for improvements. ,The OIG
  expects to provide an update in its final report on UNICOR's and the BOP's
  progress in implementing thes'e recommendations. We therefore request that
  you provide written responses to the questions below byDeceniber 18,2009.
  For recommendations related exclusiv.ely to United States Penitentiary' (USP)
  Atwater, please provide a status update by January 15, 2010.

       We have organized our questions by topic and attached a listing of the
outstanding recommendations from the agencies for your convenience. These
also are organized by topic an4 correspqnd to the citations in the questions.,
We understand that UNICOR has ceased all glass breaking operations and,
with limited exceptions, we therefore are not seeking information on
recommendations concerning that topic.

        Please ,provide answers to the following questions as well as any
documents that support your responses (e.g., new written poliCies or guidance
to ,the field).
Toxic Metal Contamination

- Legacy Contamination

 1. 	 Please describe the status of decontamination and decommission
      activities recommended for Federal Correctional Institutions (FCI) Ft. Dix
      and Marianna, and how these activities complied with the cleanup
      procedures specified by FOH in its recommendations. [Reports 8, 15]

 2. 	 Please describe the results of all additional surface testing recommended
      in the FOH reports with respect to 1) elevated surfaces above the
      UNICOR factory ceiling at USP Lewisburg; 2) the tunnel from the
      basement of the UNICOR factory at FCr Texarkana to the power plant,
      the former LEV system in the furniture factory, the outdoor cyclone filter,
      and the dairy barn; and 3) the Atwater warehouse and ventilation
      systems serving the former glass breaking areas. Please describe any
      Operations and Maintenance (O&M) plans, cle"anup, or remediation
      activities that have been planned or undertaken in response to such test
      results. [Reports 3, 10, 18]

-Development of Operations and Maintenance Plans

 3. 	 Please describe any recycling factory refurbishment, remodeling,
      demolition, or similar activity planned or taken since November 2007 at
      any UNICOR recycling facility that could disturb contaminated surfaces,
      and describe the steps planned or taken to control worker exposure and
      environmental releases, as recommended by FOH. [Report 4,7, 10]

 4. 	 Please describe the status of O&M plans developed and implemented for
      the purpose of minimizing surface contamination and preventing
      inhalation or ingestion exposures as recommended by FOH with respect
      to USP Lewisburg and Fcr Texarkana. [Reports 10, 18]
                                                                                    I
-Disassembly Operations - Contamination
                                                                                    [

 5. 	 Please describe the status and results of any evaluation you have
      conducted of the feasibility of controlling potential contamination from e­
      waste during general disassembly operations. [Report 10]

 6. 	 Please describe the status and results of the follow-up evaluation of lead
      and cadmium exposures recommended for FeI Tucson [Report 20]

-Evaluation and Monitoring Plans

 7. 	 Please describe how UNrCOR or the BOP intend to identify and monitor          I

      changes in exposure conditions resulting from new activities or
                                        2                                           I
                                                                                    I

                                                                                    t
      modifications in e-waste work operations, production rates, work
      processes/practices, personal protection, and other practices. Describe
      whether such changes have been introduced at UNICOR factories since
      2008 and whether monitoring was performed. [Reports 7, 10, 18]

 8. 	 Please describe how UNICOR or the BOP intend to evaluate surface
      contamination levels and exposure conditions in e-waste factories to
      ensure that lead and cadmium contamination is not increasing over time
      and to verify that clean-up, housekeeping, and operations and
      maintenance practices are effective. [Reports 8, 10,21]

 9. 	 Please describe UNICOR's efforts to specify a surface contamination 

      criteria for use in evaluating the cleanliness of its e-waste recycling 

      factories. [Report 21] 


-Housekeeping and Hygiene Activities

 10. 	 Please describe the status of dry sweeping in UNICOR e-waste factories
       and the actions that have been taken to eliminate this practice, including
       any communications with Factory Managers on this issue. [Reports, 3
       16, 21]

 11. 	 Please describe the status of activities to promote cleaning in e-waste
       factories using HEPA-vacuuming and wet mopping. [Reports 1,3,6,9]

 12. 	 Please describe the status of activities to promote hand washing in e­ 

       waste factories [Reports 1, 6, 9] 


 13. 	 Please describe the status of activities to prohibit consumption of food
       and drink in recycling areas. [Report 7]

-FCI Elkton Remediation

 14. 	Please describe the status of the FCI Elkton remediationan.d provide any
      final reports or testing results from the contractor, UNICOR or BOP after­
      action reports, diagrams of the areas that were remediated, and
      photographs of the remediation. [Reports 4, 7]


Personal Protective Equipment

- Respiratory Protection

 15. 	 Please describe the status of any UNICOR self-assessment to ensure
       compliance with OSHA respiratory protection requirements, including
       medical clearance, training, fit testing, cleaning and maintenance, and
                                         3
      furnishing Appendix D of 29 C.F.R. 1910.134 to workers. [Reports 7, 9,
      20]

 16. 	 Please describe the status of any UNICOR efforts to implement a
       respiratory protection program in accordance with 29 C.F.R. 1910.134
       for the cleanup of broken CRT glass. [Report 211.

Medical Surveillance
                                                                                   fI
 17. 	 Please describe the status and results of any efforts by UNICOR or the
       BOP to improve recordkeeping for medical surveillance and exposure
       monitoring data to meet OSHA requirements for types of information
       maintained, records retention, and employee (staff and inmate)
       notification of results. [Report 7J

 18. 	Please describe the work of the FOH physician who was retained to assist
      with medical surveillance at FCI Elkton, and provide all resulting written
      reports or recommendations provided to UNICOR or the BOP. [Reports
      5,7J
                                                                                   !

 19. 	 Please specify whether any staff or inmates at FCI Elkton require 
         \
       continued surveillance under the cadmium standard based on past 

       exposures. Explain the justification for your response. [Report 7J 


Other Hazards

- Noise

 20. 	 Please describe the status and results of any efforts by UNICOR or the
       BOP to improve compliance in e-waste factories with OSHA's noise
       standard (29 C.F.R. 1910.95). [Report 18J

 21. 	 Please describe the status and results of any noise testing by UNICOR or
       the BOP of USP Atwater's e-waste recycling operations since February
       2009. [Report 1 J

 22. 	 Please describe the status of any UNICOR efforts to implement a hearing
       conservation program for inmates performing baling operations. [Reports
       3,21J

- Heat Stress

 23. 	 Please describe the implementation status of the heat stress program for
       FCI Marianna and whether UNICOR intends to institute heat stress
       programs at other UNICOR factories. [Reports 10, 11, 12, 13, 20J

                                       4
 24. 	 Please describe the status and results of any evaluation by UNICOR or
       the BOP of whether fan use at USP Atwater contributes to surface
       contamination and constitutes a violation similar to the one issued by
       OSHA to USP Lewisburg for pedestal fan use. [Report 3]

- Ergonomics

 25. 	 Please describe the status and results of any efforts by UNICOR or the
       BOP to evaluate ergonomic issues in e-waste recycling factories. Identify
       any changes that have been made as a result of such assessments.
       [Reports 1, 3, 6, 7, 9, 10, 20]

BOP Health and Safety Policies

 26. 	 Please specify whether the BOP intends to revise the "imminent danger"
       provision found in PS 1600.09 in accordance with FOH's
       recommendations. [Report 3]

Institution Health and Safety Documentation

 27. 	 Please describe the status of any efforts by UNICOR or the BOP to
       prepare a concise safety and health guidance document for each e-waste
       recycling factory. [Reports 3, 8, 10}

 28. 	 Please describe the status of any efforts by UNICOR to revise its work
       instructions, process descriptions, and respiratory protection program to
       ensure accuracy and internal consistency, and to reflect actual work
     . practices in its e-waste recycling factories. [Reports 3,18]

 29. 	 Please describe the status of any efforts by UNICOR to implement a
       document control system for its e-waste recycling operations to clearly
       define document status, establish review and revision cycles, and ensure
       that they consistently reflect work practices. [Report 181     .

Health and Safety Regulatory Compliance

 30. 	 Please identify any efforts by UNICOR to improve compliance with OSHA
       regulations in its e-waste recycling factories sinc~ January 2008.
       [Reports 2, 5, 6, 9]

Environmental Compliance

 31. 	 Please identify any efforts by the BOP and UNICOR to better coordinate
       their environmental control efforts. [Report 7]



                                       5

 32. 	 Please describe the status and results of any efforts by UNICOR and FCI
       Elkton to evaluate wastewater, stormwater, air emissions, and hazardous
       waste streams to ensure compliance with applicable environmental
       requirements. [Report 7]

 33. 	 Please describe the results of all TCLP analyses on air filters (general 

       ventilation) from the UNICOR e-waste recycling factory at FCI Ft. Dix 

       since December 2008. [Report 8] 


 34. 	 Please identify the date when UNICOR or the BOP notified the owners of
       the formerly leased 'Blue' and 'Gold' buildings at FCI Marianna of FOH
       and NIOSH testing results at those properties. [Report 15]

UNICOR Assessments

- Job Hazard Analysis

 35. 	 Please describe the status and results of any efforts by UNICOR to
       develop and implement a hazard analysis program that includes baseline
       hazard analysis for current operations and also job (activity-specific)
       hazard analysis (JHA) for both routine and non-routine activities.
       [Reports 15, 18]

 36. 	 Please identify any policies that UNICOR has instituted that require the
       performance of a detailed job hazard analysis prior to beginning any new
       operation or before making changes to existing operations. [Reports 2, 5,
       7, 8, 10]

 37. 	 Please describe the status and results of any efforts by UNICORto
       conduct self assessments in its e-waste recycling factories to determine
       the effectiveness ofits safety and health and hazard control programs.
       [Report 7]

- Evaluations of UNJ:COR Operations

 38. 	 Please describe the status and results of any efforts by the BOP and
       UNICOR to perform management assessments of all UNICOR operations,
       not just e-waste recycling, for compliance with applicable environmental,
       safety and health requirements. [Reports 1, 6, 7, 9]

Industrial Hygiene and Environmental Expertise·

-Technical Resources

 39. 	 Please describe the status and results of any efforts by the BOP and 

       UNICOR to establish a program to assure that health, safety, and 

                                         6
      environmental issues in UNICOR factories are adequately addressed by
      competent trained and certified individuals. Please identify whether the
      BOP or UNICOR have any plans to hire certified industrial hygienists.
      [Reports 6, 9J

-Procurement of Testing and Consulting Services

 40. 	 Please describe whether the duties of the UNICOR industrial hygienist
       includes overseeing all procurement of industrial hygiene consultant and
       testing services in UNICOR factories. [Reports 2, 5, 10]

 41. 	 Please describe how UNICOR and the BOP intend to ensure that staff
       and consultants conducting industrial hygiene and environmental
       assessments, evaluations, inspections, and monitoring activities are
       qualified for their assigned tasks and led by certified or highly qualified
       professionals. [Report 15J

-Training

 42. 	 Please describe any changes in training for UNICOR e-waste recycling
       staff and inmates resulting from recommendations made by FOH, OSHA,
       or NIOSH, especially as concerns dust suppression, personal protection
       equipment (e.g., coveralls, respirators, gloves) and hazard
       communication. [Reports 1,6,8, 9J

-Information Sharing

 43. 	 Please describe the status of any efforts by UNICOR to operate its
       recycling factories in an integrated fashion and to ensure that all of its e­
       waste recycling factories (as well as BOP safety staff) are informed of
       health, safety, and environmental violations and deficiencies that are
       found at individual factories along with any recommended corrective
       actions. [Reports 3, 10]

Oversight

- Recommendation Tracking

 44. 	 Please describe the status and results of any efforts by the BOP and
       UNICOR to implement a system to list, track, and document closure of
       any identified deficiencies or recommendations, regardless of the source,
       at UNICOR factories. [Report 101




                                          7

Miscellaneous 	                                                                f
-Union Representation
                                                                               f
  45. 	 Please describe any actions taken to implement NIOSH's 

        recommendation that union safety and health representatives be 

        appointed to joint labor-management safety committees that meet 
      f
        quarterly. [Reports 2, 5, 14, 171 


Glass Breaking 	                                                               r

 46. 	 Please describe the assessment that resulted in UNICOR's decision to
       cease glass breaking operations.                                        1
 47. 	 Please describe how UNICOR is currently handling cathode ray tubes 

       and whether you expect these procedures to change in the next year. 



     If you have any concerns or questions, please contact me at (202) 353­
0332. We appreciate your assistance.

Attachment




                                                                               1


                                                                               t




                                      8

ATTACHMENT TO OIG REQUEST 

                INSTITUTION REPORT RECOMMENDATIONS

 Report Titles
 USP Atwater, California

   1. 	    Walk-Through Survey Report: Electronic Recycling Operation At 

           United States Penitentiary Atwater, California, February 2009, 

           National Institute for Occupational Safety and Health, Division of 
   f
           Applied Research and Technology 


  2. 	 HETA 2008-0055 Report, USP Atwater, California, June 25, 2009, 
           f
       National Institute fo"r Occupational Safety and Health 


  3. 	 Evaluation of Environmental, Safety, and Health Information Related 

       to Current UNICOR E-Waste Recycling Operations at USP Atwater, 

       December 2009, Federal Occupational Health Service 


FCI Elkton, Ohio

 4. 	 Summary Findings and Recommendations Pertaining to
      Air/Wipe/Bulk/TCLP Sampling Data from Electronics Recycling
      Facilities, FCI Elkton (Lead and Cadmium Data Only), November 15,           {
      2007, Federal Occupational Health Service

 5. 	 HETA 2008-0055 Report, FCI Elkton, Ohio, July 16, 2008, National 

      Institute for Occupational Safety and Health 
                              1
 6. 	     Control Technology and Exposure Assessment for Electronic Recycling 

          Operations Elkton Federal Correctional Institution Elkton, Ohio, 

          August 2008, National Institute for Occupational Safety and Health, 

          Division of Applied Research and Technology 


 7. 	     Evaluation of Environmental, Safety, and Health Information Related 

          to Current UNICOR E-Waste Recycling Operations at FCr Elkton, 

          Ohio, October 10, 2008, Federal Occupational Health Service 


FCI Ft. Dix, New Jersey

8. 	 Evaluation of Environmental, Safety, and Health Information Related 

     to UNICOR E-Waste Recycling Operations at FCI FT. DIX, New Jersey, 

     December 19,2008, Federal Occupational Health Service 





                                         1
                                                                                  l

                                                                                  l

USP Lewisburg, Pennsylvania

 9. 	 Control Technology and Exposure Assessment for Electronic Recycling
      Operations United States Penitentiary, Lewisburg, Pennsylvania,
      January 2009, National Institute for Occupational Safety and Health,
      Division of Applied Research and Technology

10. 	 Evaluation of Environmental, Safety, and Health Information Related
      to UNICOR E-Waste Recycling Operations at USP Lewisburg,
      Pennsylvania, June 2, 2009, Federal Occupational Health Service

FCI Marianna, Florida

11. 	 Worker Heat Stress Measurements - FCI Marianna, Florida,
      September 21, 2007, Federal Occupational Health Service

12. 	 Review of 'Heat Stress Procedures'and 'Operational Requirements'
      Documents Associated with Electronics Recycling Operations at FCI
      Marianna, Florida, May 15,2008, Federal Occupational Health
      Service

13. 	 Control Technology and Exposure Assessment for Electronic Recycling
      Operations, UNICOR Marianna Federal Correctioncil Institution
      Marianna, Florida, October 2008, National Institute for Occupational
      Safety and Health Division of Applied Research and Technology

14. 	 HETA 2008-0055 Report, FCI Marianna, Florida, June 1, 2009,
      National Institute for Occupational Safety and Health

15. 	 Evaluation of Environmental, Safety, and Health Information Related
      to UNICOR E-Waste Recycling Operations at FCI Marianna, Florida,
      June 5, 2009, Federal Occupational Health Service

FCI Texarkana, Texas

16. 	 Resource Conservation & Recovery Act Compliance Evaluation
      Inspection Report, FCI Texarkana, Texas, January 23,2009, U.S.
      Environmental Protection Agency

17. 	 HETA 2008-0055 Report, FCI Texarkana, Texas, February 9,2009,
      National Institute for Occupational Safety and Health

18. 	 Evaluation of Environmental, Safety, and Health Information Related
      to UNICOR E-Waste Recycling Operations at FCI Texarkana, Texas,
      September 24,2009, Federal Occupational Health Service

                                    2

FeI Tucson, Arizona

19. 	 Walk-Through Survey Report: Electronic Recycling Operation at
      Federal Correctional Institution Tucson, Arizona, February 2009,
      National Institute for Occupational Safety and Health Division of
      Applied Research and Technology

20. 	 Evaluation of Environmental, Safety, and Health Information Related
      to UNICOR E-Waste Recycling Operations at FCC Tucson, Arizona,        f

      March 20,2009, Federal Occupational Health Service

USP Leavenworth, Kansas.

21. 	 Evaluation of Environmental, Safety, and Health Information Related
      to Current UNICOR E-Waste Recycling Operations at USP
      Leavenworth, November 5,2009, Federal Occupational Health
      Service




                                                                            l
                                                                            I
                                     3
                                                                            I
                                                                            l
                   Recommendations by Category
Toxic Metal Contamination

-Legacy Contamination

-Development of Operations and Maintenance Plans

-Disassembly Operations - Contamination

-Evaluation and Monitoring Plans

-Housekeeping Activities

-FCI Elkton Remediation


Personal Protective Equipment

- Respiratory Protection


Medical Surveillance


Other Hazards

-Noise

-Heat Stress

-Ergonomics

BOP Health and Safety Policies


Institution Health and Safety Documentation


Health and Safety Regulatory Compliance


Environmental Compliance




                                   4

                                                  !
                                                  j
 UNICOR Assessments

 - Job Hazard Analysis 


 - Evaluations of UNICOR Operations 



 Industrial-Hygiene and Environmental Expertise

 -Technical Resources

-Procurement of Testing and Consulting Services

-Training

-Information Sharing


Oversight

- Recommendation Tracking


Miscellaneous

-Inmate Work Assignments

-Union Representation


Glass Breaking




                                                  !
                                                  l
                                                  I
                                                  I
                                  5
                                                  I
                                                  !
Toxic Metal Contamination
Legacy Contamination

1.     UNICOR should decontaminate and decommission the Torit LEV
system and associated bag house and filters that served the glass breaking
operations conducted between 2003 and 2005 [at FCI Ft. DixJ. In
performing this D&D operation, UNICOR should draw upon the experience
and lessons learned from FeI Elkton and FCI Mariana regarding filter
change-out and remediation processes. UNICOR should ensure the
following:

      • 	 A written plan for worker and environmental protection should be
          developed following completion of a hazard evaluation. This plan
          should include appropriate work practices, hazard controls, and
          waste disposal methods.

      • 	 Work practices should include such techniques as wet methods,
          HEPA vacuuming, containment of emissions, bagging methods,
          housekeeping, and final cleanup. UNICOR's FCI Elkton and FCI
          Mariana filter change-out and other remediation methods should
          be reviewed for applicability to FCI Ft. Dix.

      • 	 Worker protection should include appropriate PPE, respiratory
          protection, hygiene practices, and other hazard control measures.

      • 	 Personal and area exposure monitoring should be conducted.
          Surface sampling should be used to confirm successful
          decontamination.

      • 	 Hazardous waste sampling should be performed to determine and
          implement proper disposal techniques, and those techniques
          should be applied and documented.

      • 	 Records should be developed and maintciined to demonstrate
          worker protection, environmental compliance, and successful
          decontamination. [Report 8J

.2.    Should UNICOR decide to permanently stop CRT breaking at FCI
Marianna, it should decontaminate and decommission the LEV and
enclosure systems. If performed, this activity should be preceded by proper
hazard analysis, training, preparation, development and implementation of
work practices and hazard controls, exposure monitoring, hazardous waste
testing and disposal, and clearance sampling. Depending upon the hazard

                                     6

analysis results, this could be performed by a remediation contractor or
inmate workers under an O&M Plan. If the latter option is chosen, UNICOR
should ensure the preparations 'described above are in place and should
ensure that inmate workers are trained and qualified to perform this task.
[Report 15J

3.     Based on a limited number of bulk dust samples collected by
NIOSH/ DART and FOH from areas in proximity to where CRT glass had,
been broken in the past (e.g., the warehouse and GBO-associated exhaust
systems), UNICOR should further delineate contamination in these former
GBO locations and compare results with applicable surface contamination
assessment criteria. UNICOR should address any contamination found
through an O&M plan, clean-up, and/ or remediation activities, depending
on the results of the evaluation. UNICOR should ensure that the work is
performed with the benefit of sound planning, hazard analysis, training,
preparation, development and implementation of effective work practices
and hazard controls, exposure monitoring, hazardous waste testing and
disposal, and clearance sampling. Depending upon the results of the           I
hazard analysis, this work could be performed by a remediation contractor
or inmate workers under an O&M plan. If the latter option is chosen,
UNICOR should ensure the preparations described above are in place and        1
that inmate workers are trained and qualified to perform their assigned
duties. [Report 3J
                                                                              \
4.    UNICOR should specifically conduct additional surface testing of
elevated surfaces above the [USP Lewisburg] factory ceiling. FOH found that
bulk dust samples in this area had high levels of toxic metals                I
contamination. Depending on the degree and extent of surface
contamination, UNICOR should determine appropriate methods to control
the hazard: that is, through O&M activities when access to the area is
required, surface clean-up by inmate workers similar to that conducted for
warehouse elevated surfaces, or remediation by a professional contractor.
[Report 10]

5.    Based on FOH bulk dust samples from a cable box near the former
glass breaking area [at FCI Texarkana], UNICOR should further evaluate
surface contamination in this and nearby areas. This evaluation should
include the tunnel from the FCI basement to the power plant and former
LEV system.' UNICOR should control any contamination found through
O&M, clean-up, and/ or remediation, depending on sample results. The FCI
Texarkana Safety Manager stated that he recollected that the tunnel had
been cleaned. UNICOR should verify this and conduct surface testing to        I
confirm the area is adequately clean. [Report 18J

6.    As part of the surface contamination testing program, UNICOR should     l
also evaluate other legacy GBO areas [at FCI Texarkana], such as the old
                                     7

dairy barn, for potential legacy contamination. UNICOR should clean-up or
remediate these areas, if indicated by the results. [Report 18]


Development of Operations and Maintenance Plans

1.     UNICOR should ensure that any recycling factory refurbishment,
remodeling, demolition, or similar activity that could disturb contaminated
surfaces is conducted in a manner that controls worker exposure and
environmental release. Preparation processes for the activity should include
hazard analysis with surface testing, work planning, procedure
development, worker training, and selection and implementation of hazard
controls and measures to prevent worker exposures and environmental
releases. Appropriate ES&H oversight, exposure monitoring, TCLP waste
testing, and other ES&H support should be provided during the activity.
The February 2009 clean-up of elevated surfaces in the USP Lewisburg
warehouse is an example of a smaller activity that incorporated such
preparation, oversight, and control measures. The same type of process
should be applied to other activities that could disturb contaminated
surfaces and create potential for worker or environmental exposures.
[Report 10]

2.     The USP Lewisburg activity for cleaning elevated surfaces in the
warehouse can serve as a model process for standardizing clean-up
activities for elevated or other surfaces conducted under an. O&M plan for
all UNICOR facilities. Noteworthy approaches included advance preparation
and training, development of task-specific safety and health and work
practices including worker protection measures, safety and health oversight
by an industrial hygiene professional, exposure monitoring, and clearance
testing. Should UNICOR conduct future non-routine clean-up activities by
inmate workers at USP Lewisburg and/or its other factories, as a
prerequisite to authorizing the work, UNICOR should ensure that the level
of worker training, capabilities, and qualifications are appropriate for the
scope of the activity (e.g., degree and extent of contamination, location of
contamination, degree of difficulty, and presence of other safety hazards,
etc.). [Report 10]

3.    UNICOR should develop and implement an operations and
maintenance (O&M) plan to ensure that surface contamination is minimized
and that existing contamination does not result in inhalation or ingestion
exposures. Elements of this plan could include:

      • 	 Identification of activities that could disturb contamination (e.g.,
           HVAC maintenance, periodic or non-routine cleaning of elevated or
          other surfaces, access to areas where higher levels of surface

                                      8
                                                                                 r

         contamination are present, and various building maintenance
                                                                                 I
         functions) ;
                                                                                 r
      • 	 Processes to identify and control hazards for routine and non­
          routine activities (e.g., job hazard analysis process prior to
          conducting certain work activities with identification of mitigating
          actions);

      • 	 Mitigating techniques and procedures during activities of concern
          (e.g., dust suppression and/or clean-up and capture, filter removal
          and bagging processes, and use of PPE and respiratory protection);

      • 	 Training and hazard communication;

      • 	 Disposal of contaminated materials based on testing data such as
          TCLP tests; and

      • 	 Periodic inspection, monitoring and evaluation of existing
          conditions, as appropriate. Exposure monitoring is particularly
          recommended for activities that can disturb surface dust. [Note:
          Follow-up surface sampling is important to ensure that surface
          contamination does not build up and to take preventive and
          corrective action, if it does.J
                                                                                 1
At UNICOR's discretion, the O&M plan could also include periodic clean-up
of surfaces by inmate or other workers; that is, surfaces that are not subject
to routine clean-up and housekeeping activities. If this element were
adopted, however, UNICOR should ensure that practices to control
                                                                                 I

exposures are included in the plan and implemented, such as appropriate
worker training, PPE, respiratory protection, exposure monitoring, medical
surveillance (if required based on hazard analysis and monitoring results),
clean-up methods (e.g., HEPA vacuuming and wet methods), waste disposal,
hygiene practices, and others deemed appropriate by UNICOR. Initial
exposure monitoring should be conducted to determine whether exposure
during clean-up is above the action levels for lead and cadmium. TCLP
testing should also be conducted on waste materials generated to ensure
proper disposal. Controls for future clean-up activities should then be
based on exposure results. [Note: See FOH report for USP Lewisburg [FOH
2009J that describes the preparation, hazard analysis, training, controls,
work practices, and performance of a clean-up activity conducted for
warehouse elevated surfaces. This is a noteworthy practice that could serve
as a model for other activities conducted under an O&M plan.] [Reports 3,
10, 18, 21]



                                       9

4.     An operations and maintenance (O&M) plan should be immediately
developed and implemented [for FeI Elkton] in order to protect, staff,
inmates, contractors, and the environment from lead and cadmium residues
found on various surfaces throughout the Recycling Factory, Warehouse
and FSL. The O&M plan should identify policies and procedures for
minimizing personal exposures and the spread of contamination during any
activities which might result in the disturbance of or contact with
contaminated building surfaces and components. Given the very high
concentrations of lead and cadmium found in many dust deposits, special
emphasis should be on preventing re-entrainment and release to the
workplace air or exposure via ingestion. Elements of the O&M plan should
include:

      • 	 Specific identification of activities and operations which may
          disturb the contamination (e.g., duct maintenance, work involving
          contact with structural supports, etc.);

      • 	 Pre-job identification, delineation and assessment of 

          areas/surfaces of concern; 


      • 	 When and how to use exposure mitigating techniques (e.g.,
          techniques for dust suppression, local capture ventilation, etc.)
          and personal protection equipment (e.g., coveralls, respirators,
          gloves) during any activities/operations of concern;

      • 	 Training and hazard communication;

      • 	 Emergency scenario contingencies (e.g., should inadvertent
          release / exposures occur);

      • 	 Disposal of dust-contaminated materials/wastes (possibly
          classified as hazardous waste); and

      • 	 Ongoing monitoring and evaluation of conditions (via air, skin,
          surface sampling)

The O&M plan should also include safe work procedures and hazard
controls to change-out the filters on the general air handling system,
particularly if these filters are confirmed as needing to be treated as
hazardous waste.

At UNICOR's discretion, the O&M plan could also include periodic clean-up
of surfaces by inmate workers. If this element were adopted, however,
UNICOR should ensure that practices to control exposures are included in
the plan and implemented, such as appropriate PPE, respiratory protection,

                                      10 

exposure monitoring, clean-up methods (e.g., HEPA vacuuming and wet
methods), waste disposal, hygiene practices, and others deemed appropriate
by UNICOR. Initial exposure monitoring should be conducted to determine
whether exposure during clean-up is above the action limits for lead and
                                                                                 !

cadmium. Controls for future clean-up activities should then be based on
exposure results. [Reports 4 & 7]                                                I

Disassembly Operations - Contamination                                           \
1.    UNICOR should evaluate the feasibility of controlling potential
contamination from component parts during handling and disassembly.              f
This could include control of incoming materials, HEPA vacuuming of parts
prone to dust deposits during disassembly, and other measures. [Report
10]

2.     UNrCOR should conduct follow-up evaluation of lead and cadmium
exposures [at Fcr Tucson] including additional personal exposure (breathing
zone) monitoring during disassembly and associated activities to determine
the significance of the one cadmium area exposure result that was above
the action level, but below the PEL. Guidance for further analysis and
monitoring is recommended below:

      • 	 The minimum requirement specified in the OSHA cadmium                  1
          standard is that breathing zone samples be taken at least every six
          months (and possibly more often) when any initial or periodic
          monitoring sample exceeds the action level. To justify                 1

          discontinuation of monitoring for the personnel represented, two
          additional monitoring episodes at least seven days apart must
          indicate exposures to be below the action level. It is recommended
          that UNICOR conduct monitoring beyond the minimum
          requirement to ensure that variability in exposures be evaluated
          and to ensure that all activities that could result in exposure be
          captured.
                                                                                 I

      • 	 Additional monitoring should concentrate on the use of b:(eathing
          zone samples,and represent the breadth of activities related to
                                                                                 !

          disassembly, including both routine and non-routine activities.
          UNICOR should ensure that additional exposure monitoring
          characterizes the activities and location represented by the area
                                                                                 l

          sample collected by its consultant in 2006 that exceeded the action
          level. Cleaning and any other activities that could disturb existing
          dust should also be monitored.




                                      11
      • 	 The follow-up monitoring and analysis should involve more than
          just collecting samples. It should involve an analysis and
          documentation of the operations and activities conducted, their
          duration, pertinent observations, locations, types and quantities of
          materials processed, and any other information that is important
          to evaluate exposure levels and take preventive or corrective action
          in the future should exposures be elevated.


Evaluation and Monitoring Plans

1.      UNICOR should promptly conduct monitoring of any new activities
(e.g., non-routine or certain O&M activities) and future changes in work
operations, production rates, work processes/practices, personal protection,
and other practices. Exposure monitoring is an OSHA requirement when
any change is made that could result in a new or additional lead or
cadmium exposure. An example of a production change that should have
been monitored more promptly is the increase in CRT breakage [at USP
Lewisburg] to between 450 - 600 CRTs per day of processing. Monitoring is
scheduled for this increased production in June 2009, but should have
been performed shortly after ramp up. The factory refurbishment
conducted between mid-2006 and early 2007 should have also been
monitored. Conversely, the monitoring performed for the new non-routine
activity involving clean-up of elevated warehouse surfaces in 2009 is an
excellent example of the proper way that initial/additional monitoring
should be conducted for a new/additional exposure. [Reports 3, 10]

2.    As required by OSHA lead and cadmium standards, UNICOR should
also promptly conduct exposure monitor:ing for any future changes that
could result in an increased level of exposure, such as changes in work
operations, work processes/practices, quantities or types of materials
processed, new activities, and non-routine activities. Periodic monitoring
should be conducted to evaluate any existing or newly developed
engineering controls to make sure that the controls are operating at the
design parameters. [Reports 3, 18]           .

3.    Any time that a change or improvement is made to the LEV system or
work practice that reasonably could be foreseen to change exposure
conditions, UNICOR should perform exposure monitoring to verify that the
desired effect is achieved. [Report 7]

4.     UNICOR should periodically conduct at least a limited amount of
personal exposure monitoring that characterizes exposures resulting from
current work activities conducted on the factory floor. This monitoring will
serve to document continued control of the lead and cadmium hazards. An

                                      12 

annual monitoring program would be appropriate. Alternately, assuming 

results are low, as found by FOH (at FCI Ft. Dix], two annual monitoring 

episodes would suffice to document minimal exposures. Subsequently, 

monitoring could be limited to any future changes that could result in an 

increased level of exposure, such as changes in work operations, work 

processes/practices, or quantities or types of materials processed. Given 

the low exposures found by FOH, this recommendation goes beyond the 

requirements of the OSHA lead and cadmium standards, but would provide 

important documentation to establish consistently low exposures. (Report 

8]
                                                                               I
5.    UNICOR should continue its exposure monitoring program that has          f
been conducted annually since 2004. This monitoring will serve to
document continued control of the lead and cadmium hazards. This
recommendation, which goes beyond the requirements of the OSHA lead
and cadmium standards, would provide important documentation to
                                                                               !
establish consistently low exposures and provide a basis for continued
improvements. This recommendation applies to recycling activities even if
glass breaking remains suspended. This recommendation is consistent with
                                                                               !
NIOSH/HETAB Recommendations 1 and 2 of Attachment 3. [Reports 3, 18,
21]                                                                            i
6.    UNICOR should ensure that non-routine practices are included as
part of its monitoring program. These non-routine practices could include      1
maintenance activities and cleaning performed under an O&M plan, among
others. [Report 3]           .

7.     As part of its monitoring.program, UNICOR should continue to
implement the consultant's recommendation of 2006, 2007, and 2008 to
evaluate surface contamination levels to ensure that lead and cadmium
contamination is not increasing over time and to verify that clean-up,
housekeeping, and operations and maintenance (O&M) practices are
effective. This monitoring should be part of the annual monitoring program
and the O&M program discussed below. The surface: sampling should
include elevated surfaces that are not routinely cleaned to ensure that
contamination is not building up over time. Such monitoring results should
also be used to focus activities conducted under the O&M plan. [Reports 3,
10]

.8.     In addition to personal exposure monitoring, the UNICOR exposure
 assessment program should continue to 'evaluate surface contamination
 levels. ,UNICOR should establish a surface contamination criteria that it
 intends to use to evaluate results and plan any clean-up or O&M actions.
 UNICOR should take preventive action to keep contamination of elevated
 surfaces (e.g., mechanical systems) from building up to problematic levels.
 [Reports 3, 21]
                                      13
Housekeeping and Hygiene Activities

1.     Daily and weekly cleaning of work areas by HEPA-vacuuming and wet
mopping should be continued. The BG/BIA guidelines [2001] recommend
daily cleaning of tables and floors with a type-H vacuum cleaner. Type H is
the European equivalent of a HEPA vacuum, where the H class requires that
the filter achieve 99.995% efficiency, where 90% of the test particles are
smaller than 1.0 urn and pass the assembled appliance test, 99.995%
efficiency where 10% of the particles are smaller than 1.0 urn, 22% below
2.0 urn, and 75% below 5.0 urn. While some surface contamination was
measured in work areas, this would be much greater if it were not for the
good housekeeping practices in effect in all locations observed. Other
practices not observed during the time of this evaluation, but which have
been observed at other facilities should be discouraged; these include the
use of compressed air to clean parts or working surfaces, and the
consumption of food, beverage or tobacco in the workplace. [Reports' 6, 9]

2.     Daily and weekly cleaning of work areas by HEPA-vacuuming-and wet
mopping should be conducted, taking care to assure no electrical or other
safety hazard is introduced. [Report 1]

3.     Discontinue dry sweeping. Use a floor squeegee to carefully collect
large pieces of debris that cannot be effectively vacuumed from the floor.
Whenever possible, use a HEPA-filtered vacuum cleaner and/or wet
methods for removing dust from all other surfaces. [Report 3, 16,21]

4.    Due to the levels of surface contamination oflead measured in the
recycling facility, workers should wash their hands before eating, drinking,
or smoking. [Reports 1, 6, 9]

5.     FCI Elkton should re-enforce the importance of hand washing to
prevent the potential for hand-to-mouth ingestion exposures. Pre-job
briefings, end-of-shift discussions, and general supervision are
opportunities to ensure that workers apply proper hand washing and
hygiene practices. FCI Elkton should ensure rigorous enforcement of no
eating and drinking from open cup restrictions in recycling areas. [Report
7]

FeI Elkton Remediation

1.    Air monitoring in the general factory work areas of each of the three
buildings indicates that the presence of surface contamination containing
lead and cadmium is not posing an imminent inhalation threat that requires
immediate evacuation and remediation but rather one that can be
responded to in a prompt but well-coordinated manner. Assuming that the
industrial hygiene assessment and the ongoing monitoring of conditions are
                                     14
favorable and do not show that degradation or other factors are resulting in
increased exposure potential, some flexibility in scheduling the clean-up
activities is deemed acceptable. However, it is recommended that cleanup
activities should be completed in accordance with approved project
                                                                                !

specifications within three years. As such, abatement activities may be
coordinated with and integrated into other building upgrade plans (e.g.,
ventilation retrofits, rooftop filter cleaning and/ or replacement, expansion
                                                                                I

operations, etc.). [Report 4]

2.      It is recommended that comprehensive plans be developed and
implemented to remediate the contamination (inside ducts, on surfaces,
etc.) in accordance with sound hazardous material abatement specifications      1
(such as, for example, adaptations of specifications currently used to
remove lead paint from residences). These plans should address
considerations such as the containment of the remediation areas, method of
remediation (removal, isolation/enclosure, encapsulation, etc.), worker
protection, clearance levels to be achieved, disposal of hazardous wastes,
etc. [Report 4]                                                                 i

3.    Especially in the Warehouse and FSL [FCI Elkton] where some
areas/surfaces were found to exist with little/no contamination, it may be
prudent to more precisely delineate which building locations and
                                                                                !

components warrant clean-up and which do not. [Report 4]

4.    It is recommended that additional characterization be performed of
possible environmental impacts from the release to the FSL building exterior
[FCI Elkton] of lead exhaust air from the de-soldering operation. [Report 4]

5.    Based on the testing performed, bulk quantities of settled dusts
originating from the glass breaking and de-soldering operations should be
treated as hazardous waste, unless additional testing permits otherwise.
[Report 4]

6.    Clean-up operations to remediate lead and cadmium legacy
                                                                                l

contamination appear to be imminent. Prior to the implementation of this
work, in order to prevent release to the air or work areas of legacy surface
contamination deposited on various structural and general ventilation
                                                                                l

systems, FCI Elkton should implement operations and maintenance (O&M)
practices for any non-routine activities that could disturb this
contamination. Such activities could include contractor maintenance of
ventilation systems or non-routine internal activities. Should this
contamination be disturbed for any reason, FeI Elkton should immediately
apply clean-up practices using HEPA filtered vacuums, wet methods, and
other remediation techniques to mitigate the release. After remediation of
a1llegacy contamination is completed under contract, these O&M actions
should no longer be necessary. At that point, current housekeeping and
                                      15 

cleaning activities to control any dust migration from the glass breaking
room should suffice to keep contamination in check. [Report 7]

7.    Given the very high concentrations of lead and cadmium in some dust
samples (one sample from the FSL was as high as16% lead), periodic
industrial hygiene evaluations and facility inspections are recommended to
confirm that conditions remain acceptable until corrective actions are
completed. Such evaluations (air sampling, hand wipe sampling,
assessments of dust disturbance potential, etc.) should be performed to
better characterize current exposures during various routine and non­
routine operations and activities. [Reports 4, 6, 7, 9]

Personal Protective Equipment
Respiratory Protection

1;     UNICOR should self-assess and ensure that its respiratory protection
program meets OSHA requirements for medical clearance, training, fit
testing, cleaning and maintenance, and other items. [Report 7]

2.    Per OSHA requirements regarding voluntary respirator use, UNICOR
should provide Appendix D of 29 CFR 1910.134 to workers and ensure that
the workers read and understand the information. In addition, UNICOR
should ensure that workers understand the proper uSe and limitations of
the respirators that UNICOR provides. For good practice documentation
purposes, UNICOR should have inmate workers read and sign Appendix D
of 29 CFR 1910.134, and UNICOR and FCI Tucson should maintain the
Appendix D signed records. [Report 20]

3.    The respiratory protection program for [USP Lewisburg] should be
evaluated for this operation in order to ensure that it complies with OSHA
regulation 1910..134. [Report 9]

4.     UNICOR should develop and implement a respiratory protection
program in accordance with 29 CFR 1910.134, Respiratory protection, for
the cleanup of broken CRT glass. UNICOR should also upgrade respiratory
protection for this glass cleanup operation and all other operations (e.g.,
disassembly) consistent with the N-95 or better recommendation made by
its consultant. For voluntary respirator use, UNICOR should implement the
consultant's recommendation for informing workers of Appendix D
information in the respiratory protection standard. These respiratory
protection recommendations for cleanup of broken glass and for voluntary
use during disassembly apply to all UNICOR factories. [Report 21]




                                     16
 Medical Surveillance

 1.     UNICOR should improve its recordkeeping for medical surveillance
 and exposure monitoring data to meet OSHA requirements for types of
 information maintained, records retention, and employee (staff and inmate)
 notification of results. [Report 7]

 2.     Contract a board-certified, residency-trained occupational medicine
 physician who is familiar with OSHA regulations and exposures at [FCI
 Elkton] to oversee the medical surveillance program. BOP may be able to
 find a local physician, or contract with Federal Occupational Health. This
 contractor should also oversee medical clearance for respirators. [Reports
 5,7]

 3.   UNICOR and FCI Elkton should consistently inform personnel of 
          r
 medical surveillance and biological monitoring results and retain and 

 maintain records consistent with OSHA standards. [Report 7] 


4.    UNICOR and FCI Elkton can discontinue medical surveillance for staff
and inmates who are not involved in glass breaking, clean-up in the glass
breaking room, and filter change-out. An occupational physician should be
retained to confirm this recommendation and determine whether some staff
or inmates could require continued surveillance under the cadmium
standard based on past exposures. [Report 7]

5.   NIOSHjHETAB states that there is no need to perform any further 

medical surveillance if the GBO remains closed. [Report 3] 



Other Hazards
Noise
                                                                               t
1.     UNICOR should improve its hearing conservation program to include
all elements defined by 29 CFR 1910.95, Occupational noise exposure. The
means of providing the training component of this program should be
                                                                               L
defined. [Report 18]

2.    Noise levels in the USP [Atwater] recycling factory should be measured
during normal operations to evaluate the potential for occupational
exposures in this area. (Report 1]

3.     To control hazards from noise exposures, the BOP should evaluate the
adequacy of the FCI Elkton hearing conservation program and ensure that it
is effectively implemented. UNICOR should ensure the proper use of

                                     17 

hearing protection for recycling areas and operations where it is required.
[Report 7]

4.    UNICOR should conduct a complete noise evaluation for its recycling
operations at USP Lewisburg. A hearing conservation program should be
implemented based on test results. NIOSH/DART noise monitoring results
found a hearing conservation program is required for glass breakers and
baler operators. [Report 10]

5.    UNICOR should implement hearing conservation practices as
indicated by FOH noise monitoring results and should prepare a written
hearing conservation program for the FCI Marianna recycling activities.
[Report 15]

6.     UNICOR should conduct a noise survey [at FCI Marianna] as
recommended by OSHA in 2006 (Enclosure 2) to ensure compliance with 29
CFR 1910.95, Noise. Some noise monitoring was conducted by a safety
representative at FeI Marianna in 2005, but this data was questionable (see
Section 4.5). UNICOR has not conducted noise monitoring in response to
the OSHA recommendation of November 2006. UNICOR should not rely
solely upon the FOH noise monitoring conducted as part of the OIG
investigation. UNICOR should implement a hearing conservation program
as indicated by its monitoring results and FOH data. [Report 15]

7.     UNICOR should perform an assessment [at Fcr Texarkana] to ensure
that the hearing conservation program is fully implemented as indicated by
the Factory Manager and Safety Specialist. [Note: Consultants performing
noise monitoring in 2006,2007, and 2009 did not seem to be unaware that
such a program was implemented.] [Report 18]

8.    UNICOR should implement a hearing conservation program for
inmates performing metal baling at all factories, including USP Leavenworth
unless repeated exposure monitoring clearly shows that it is not required at
a particular factory. Although the metal baler's exposure was slightly less
than the OSHA noise action level at USP Leavenworth, monitoring was only
conducted on one day, and this operation has been shown to exceed the
action level at other factories. UNICOR should also repeat noise monitoring
as part of its annual program to confirm exposure levels and determine any
variability in the metal baler's exposure. [Reports 3, 21]


Heat Stress

1.    The BOP should develop a site specific heat stress program that
accounts for the heat stress datal information provided in this document,
and at a minimum, should incorporate the following:
                                      18 

a.    Engineering controls are the preferred method to reduce and/ or
eliminate occupational stressors in the workplace; therefore, cooling
methods, such as, air conditioning systems, should be investigated to
reduce the heat load in this work place;

b.    A medical surveillance component should be included in the program
with pre-placement and periodic screening to identify health conditions
which may be aggravated by elevated temperatures;

c.    In lieu of implementing engineering controls, the BOP needs to
reassess its current use of PPE (i.e., the use of Tyvek, PAPR's, gloves, etc.)
and consider adding personal cooling devices, such as, cooling vest or packs
for workers in the GBO;

d.     An initial and periodic training program informing employees about
the effects of heat stress, and how to recognize heat-related illness
symptoms ahd prevent heat-induced illnesses;

e.    An acclimation program for new employees or employees returning to
work from absences of three or more days;

f.   The development of specific procedures to be followed for heat-related
emergency situations;                                                            I
g.    Provisions that first aid be administered immediately to employees
displaying symptoms of heat-related illness;                                     \

h. Annual and periodic heat stress monitoring should be performed to
reflect seasonal changes and assist in updating the site specific heat stress    \
program.

        The BOP should establish provisions for a work/rest regimen so that
exposure time to high temperatures and/ or the work rate is decreased; the
BOP should permit workers access to water at liberty; and it is strongly
recommended that the current 2007 version of the ACGIH-TLV's be
referenced to assist in adding additional specific information to the
Marianna Site Specific Heat Stress program. Therefore, a thorough
understanding of the various clothing ensembles worn throughout the year
at Marianna (especially during the warmer seasons) and the role that PPE
(i.e., the use ofTyvek suites, hoods, gloves, etc.) may play on the effects of
heat stress. Additional emphasis should be placed on the TLV's Guidelines
for Limiting Heat Strain and the Guidelines for Heat Stress Management.
We also recommend that additional materials on heat stress be investigated,
such as OSHA's Heat Stress Card (OSHA Publication 3154) which can be
found on OSHA's web page
                                      19                                             l

                                                                                     l

http:lhvww.osha.gov/SLTC/heatstress/index.html and
http:lh.vww.osha.gov/SLTC/heatstress/index.html [Reports 11, 12, 13J


2.     UNICOR has prepared a draft Heat Stress Program dated 09/26/08,
which will be evaluated prior to the completion of the OIG investigation.
UNICOR should implement the heat hazard analysis elements of this
program for USP Lewisburg and its other facilities and implement any
required controls actions that are warranted based on heat exposure
results. UNICOR has implemented heat controls at USP Lewisburg,
including installation of air conditioning in the recycling factory and has
implementing use of "breathable" PPE to reduce heat exposure during glass
breaking. However, through appropriate hazard analysis, UNICOR should
confirm and document that these measures are adequate to control the heat
hazard. [Report 10J

3.    ACGIH-TLVs, Heat Stress and Heat Strain lists general controls for
consideration and incorporation, as appropriate, into the FCI Marianna heat
stress procedure. The OSHA-Recommended Elements of a Heat Stress
Program should also be addressed in the procedure. Some of these as well
as other general controls are discussed below, as applicable or not
applicable to the preparation of a revised FCI Marianna heat stress
procedure.

   • 	 Water/Fluids: Provision of water/fluids should be addressed in the
       procedure. As a possible example if feasible, water should be made
       available during rest periods in a cool down area (free of toxic metal
       exposure).

  • 	 Acclimation of Workers: Approaches to acclimate workers to the hot
      environment with necessary accommodations should be addressed.
      The ACGIH-TLV Heat Stress and Heat Strain section provides some
      information on this topic. OSHA-Recommended Elements of a Heat
      Stress Program also states that re-acclirriation of workers is necessary
      if they are away from the job for more than three days.

  • 	 Training: The means of training, its general content, and its periodic
      reinforcement should be addressed in the heat stress procedure.

  • 	 First Aid and Emergency Response: The procedure should address
      how first aid and emergency response will be provided to workers
      suffering acutely from heat exposure.




                                      20 

   • 	 Record Keeping: Heat stress exposure and monitoring data and 

       information must be maintained for staff and inmates involved in the 

       GBO operations. 


   • 	 Heat Strain Physiological Monitoring: Physiological monitoring 

       approaches are also discussed in ACGIH-TLVs Heat Stress and Heat 

       Strain; however, this monitoring is not a desired approach, unless 

       absolutely necessary. Usually this monitoring is reserved for cases 

       where impermeable PPE is required. If FCI Marianna should require 

       use of impermeable PPE, then physiological monitoring may need to 

       be added to the heat stress procedure. [Report 12, 13] 


4.    An initial and periodic training program should be implemented,
informing employees about the hazards of heat stress, predisposing factors
and how to recognize heat-related illness signs and symptoms, potential
health effects, first aid procedures, precautions for work in hot
environments and preventing heat-induced illnesses, worker
responsibilities, and other elements [NIOSH 1986]. [Report 13]

5.     Specific procedures ::;;hould be developed for heat-related emergency
situations, including provisions that first aid be administered immediately
to employees displaying symptoms of heat related illness. [Report 13]

6.    NIOSH/DART recommends that UNICOR evaluate the heat exposure
hazard [at FCC Tucson] to determine any precautions necessary to prevent
heat strain and heat stress (see Attachment 1, Recommendation 3.) [Report
20)"

7.   Although the Production Controller stated that all operations are 

conducted in air conditioned areas, UNICOR should verify that heat
exposure is not a factor at USP Leavenworth. [Report 21] 

                                                                                 I

8.    UNICOR should ensure that USP Atwater has implemented heat                 (

exposure assessments and controls as required by the UNICOR heat stress 

program. [Report 3] 


9.      UNICOR should evaluate whether the fans used at the working level 

(height) constitute a similar violation as issued by OSHA to UNICOR at USP 

Lewisburg. UNICOR should implement alternate methods of ventilation and 
        t
cooling if these fans have potential to disturb, re-suspend, and .redistribute
surface contamination or contamination that could be released from
equipment being recycled. [Note: UNICOR issued a violation for pedestal
fan use at USP Lewisburg even though exposures were less than the action
                                                                                 l
levels.] [Report 3]
                                                                                 !
                                     21
                                                                                 t


                                                                                 I   I
Ergonomics

1.    Frequently while conducting the on-site work, NIOSH researchers
observed tasks (such as lifting and using screwdrivers) being conducted in
an awkward manner which could produce repetitive stress injuries. Tasks
should be evaluated to determine if they are biomechanically taxing and if
modifications in procedures or equipment would provide benefit to this
workplace. [Reports 1, 6, 7, 9, 10, 20]

2.     FCI Elkton should evaluate heat stress and ergonomic hazards
(specifically lifting loads and twisting while carrying loads) and ensure that
controls are implemented to mitigate any identified hazards and comply
with OSHA standards. For workers at risk for ergonomic injury from lifting
loads, FCI Elkton should implement training for lifting and carrying
techniques. Also see the NIOSH Revised Lifting Equation
(http://www.cdc.gov/niosh/dos/94-1101) for information on this topic.
[Report 7]

3.    UNICOR should evaluate USP Lewisburg work activities for hazards
related to lifting and repetitive stress, and implement any appropriate
procedures, training, or equipment to address the hazards. [Report 10]

4.    UNICOR should evaluate FCI Marianna work activities for hazards
related to lifting and repetitive stress, and implement any appropriate
procedures, training, or equipment to address the hazards. [Report ISJ

5.    UNICOR should also ensure that other hazards are evaluated and
controlled [at USPs Atwater and Leavenworth] such as tasks that are
potentially biomechanically taxing (e.g., lifting and repetitive stress).
[Reports 3, 211


BOP Health and Safety Policies
1.     BOP and UNICOR should clarify its stop-work policy and lessen the
technical threshold for its use. In particular, FOH recommends that stop­
work authority under BOP and UNICOR policies not be reserved for just
"imminent hazards that could reasonably and immediately be expected to
cause death or serious physical harm" but relaxed somewhat to allow for an
expanded applicability to other safety and health hazards that, although
significant, may fall short of this definition. Also, stop-work authority
should be expanded to others besides just the Occupational Safety staff
members. Other federal components have adopted less restrictive stop work
policies than the one currently in use by the BOP. (Attachment) In general,
potential ambiguities in any stop-work policy should be clarified so that

                                      22 

terms like 'imminent', 'danger' and 'serious physical harm' can be properly
and consistently understood in the context of the UNICOR work
environment. [Report 3]

2.     BOP should modify, clarify, and expand its stop-work policy when
unsafe work conditions are identified and prepare implementation guidance
to detail the stop-work and restart process. BOP and UNICOR should
clearly communicate this policy to its staff and ensure compliance with the
policy. This policy and associated implementing guidance should clearly
establish the general conditions under which it is the "responsibility" of
authorized personnel to stop work, define stop-work authority, identify
personnel/positions with stop-work authority, detail the methods to achieve
immediate but safe shutdown of work, describe the process for follow-up
analyses and corrective action processes after work is stopped, and describe
the verification and authorization processes for work start-up. Stop-work
actions should always be communicated to all factories as lessons learned
information along with any associated UNICOR-wide directives. BOP and
UNICOR should expand authority to stop work to more personal than just
the safety staff. In many work settings, all staff, particularly supervisors,
have the responsibility to stop work when conditions are identified that
could cause excessive exposure to hazards, injuries, death, or significant.
risk outside the established safe work parameters. Stop-work conditions
should be expanded to include any work or condition that is outside of
established safe work parameters, which would include work being
conducted with a failed or improperly operated engineering control. The
means for inmates and other workers to promptly communicate unsafe
conditions to appropriate staff should be established in policy and
procedures and effectively communicated to all. [Report 3]


Institution Health and Safety Documentation
1.     UNICOR should improve its recordkeeping for medical surveillance
and exposure monitoring data to meet OSHA requirements for types of
information maintained, records retention, and employee (staff and inmate)
notification of results .. [Report 7]

2.    As a "good practice" approach, UNICOR should prepare a concise
written safety and health document specifically for its recycling operations
at USP Lewisburg as well as for each of its other recyc1ingJactories that lack
such a document. Such a document should be developed and implemented
and would serve to supplement and consolidate ISO 9000 documents that
contain safety and health practices and other documents with safety and
health content. The existing documents are vague in some ways and
contain some conflicting information that is not consistent with actual

                                      23 

practices. A written safety and health document would ensure that
practices are consistent with written requirements and would benefit
verification processes. Additionally, the document should prescribe
inspection, verification, assessment, and hazard analysis processes. This
document should address both routine and non-routine activities. [Reports
3,8, 10,21]

3.    For all its factories, UNICOR should revise its work instructions,
process descriptions, respiratory protection program and other
documentation to ensure consistency in work practice and hazard control
content among the documents and to ensure all written documents are
consistent with actual work practices and processes. [Reports 3, 18]

4.    UNICOR should revise the USP Leavenworth work instruction for
housekeeping to emphasize the restriction on dry sweeping and to add the
process for weekly cleaning using a de-leading agent. [Report 21]

5.     UNICOR should implement a document control system to clearly
delineate the status of existing work instructions, procedures, and safety
and health programs/plans and other documents. Such a system should
clearly define the status of the document (e.g., operational, expired,
superseded, revised, etc.). Review and revision cycles and dates should be
established. Redundant and inconsistent work instructions, procedures,
and other documents should be corrected, consolidated and avoided
through document control. [Reports 3, 18J


Health and Safety Regulatory Compliance
1.    Ensure full compliance with all applicable OSHA standards, including
the General Industry Lead Standard [29 CFR 1910.1025], the Cadmium
Standard [29 CFR 1910.1027], the Hazard Communication Standard [29
CFR 1910.1200J, and the Respiratory Protection Standard [29 CFR
1910.134]. This includes record keeping requirements, hazard
communication requirements, compliance plans, and medical surveillance.
In addition to the OSHA requirements, we recommend that the
preplacement examination for cadmium exposure be identical to the
periodic examinations so that baseline health status may be obtained prior
to exposure. [Reports 2, 5, 6, 9J


Environmental Compliance

1.   UNICOR and FCI Elkton should evaluate their wastewater,
stormwater, air emissions, and hazardous waste streams to ensure

                                    24 

                                                                                  I

                                                                                  r
compliance with applicable environmental requirements. The BOP and
UNICOR should coordinate their environmental control efforts. [Report       7J
2.    In implementing clean-up methods and the O&M plan, UNICOR
should periodically evaluate the wastes from HEPA vacuums, mop rinse
water, and other potentially contaminated debris to determine acceptable
disposal methods per U.S. EPA regulations. [Report 10, 15J
                                                                                  I

3.    UNICOR should develop a list of waste materials and/ or wastes
generated from specific activities that should be periodically and/ or
                                                                                  l

routinely TCLP tested to determine proper disposal methods per U.S. EPA
RCRA re"gulations. This would include wastes generated from clean-up of           r
elevated surfaces and other O&M activities, as well as other wastes from
routine and non-routine activities. This recommendation applies to all
UNICOR recycling factories. [Report 10J                                           I

4.      FCI Ft. Dix should conduct/continue periodic internal inspections for
compliance with environmental regulations and, in particular, the
requirements of the Class D permit should be performed. The report of
findings issued in 2005 by the NJDEP provides a good listing of criteria for
these assessments. UNICOR should perform TCLP analysis of the air filters
from the general factory to determine if filters are to be treated as hazardous
waste. This testing should be conducted after the filters are next changed to
confirm the findings reported in Section 4.4.3 of this report. During the
filter change-out process, appropriate safety and environmental precautions
should be implemented to ensure that workers are protected against
possible lead and cadmium exposure and to ensure that the filters are
properly bagged and stored pending test results. Future filter change-out
                                                                                  I

procedures should be developed based on the test results and these
procedures should be incorporated into an O&M plan. [Report 8J                        l

5.    UNICOR should ensure that the scrap metal wastes deposited in the
outside roll-offs are covered, that dusts and runoff from the containers are
not released into the environment, and that any other provisions of the DEP
                                                                                      l

conditional exemptions for e-wastes are being met. Also, UNICOR should
perform additional testing to better characterize this waste and share the            t
results with the scrap metal vendor and the DEP. Modify work practices
and environmental controls based on testing. [Report 10J

6.    The testing results from samples collected at the formerly leased 'Blue'
                                                                                      l

and 'Gold' buildings should be provided to the building owners. [Report 15J

7.    UNICOR should ensure proper management of its hazardous wastes
(tracking volumes, labeling, characterization, etc.) in light of all applicable
regulatory requirements (federal, state and local). [Report 3J

                                       25
8.      UNICOR should share salient lessons learned regarding the
environmental aspects of its e-waste operations among all its recycling
facilities (e.g., waste characterization testing results, compliance strategies,
etc.) [Report 3]


UNICOR Assessments

Job Hazard Analysis

1.     UNICOR should develop and implement a hazard analysis program
that includes baseline hazard analysis for current operations and also job
(activity-specific) hazard analysis (JHA) for both routine and non-routine
activities. UNICOR and FCI Marianna should conduct JHAs for any new,
modified, or non-routine work activity prior to the work being conducted. It
should also conduct hazard analyses of existing processes that have not had
such an analysis. The JHA process is intended to identify potential hazards
and implement controls for the specific work activity prior to starting the
work. For instance, the JHA process should be integral to an effective O&M
plan, as described in Section 6.1. [Reports 3, 15, 18,21]

2.    Perform a detailed job hazard analysis prior to beginning any new
operation or before making changes to existing operations. This will allow
UNICOR and BOP to identify potential hazards prior to exposing staff or
inmates, and to identify appropriate controls and PPE. Involve the UNICOR
and/ or BOP industrial hygienists in these job hazard analyses. If medical
surveillance is needed then UNICOR and BOP should perform pre­
placement evaluations of exposed staff and inmates. This medical
surveillance should be overseen by an occupational medicine physician.
[Reports 2, 5, 7, 8, 10]

3.     UNICOR should conduct self assessments at the working level to
determine the effectiveness of its safety and health and hazard control
programs. Examples include the hearing conservation program, respiratory
protection program, lead and cadmium compliance program, medical
surveillance program, hazard communication program, among others. Self­
assessments can, of course, be conducted using safety and health
contractors and/ or UNICOR safety and health staff in support of internal
safety and health staff, as desired. Any deficiencies should be documented
and corrective actions should be implemented and documented to close out
any deficiencies. [Report 7]




                                       26 

                                                                               I

                                                                               l

Evaluations of UNICOR Operations

1.     The BOP and UNICOR should perform management assessments of
all UNICOR operations, not just recycling, for compliance with applicable
environmental, safety and health requirements. These assessments should
be designed at the management level to ensure that the individual
institutions have and implement the required ES&H programs, as well as
conduct their own self-assessments to determine effectiveness. [Report 7J

2.    A program should be established within the Bureau of Prisons to
assure that all UNICOR operations, including but not limited to recycling,
should be evaluated from the perspective of health, safety and the
environment in the near future. This program should be overseen by
competent, trained and certified individuals. [Reports 1, 6, 7, 9J


Industrial Hygiene and Environmental Expertise
Technical Resources

1.     A program should be established within the Bureau of Prisons to
assure that [health, safety, and environmentalJ issues are adequately
addressed by competent trained and certified individuals. While a written
program to address these issues is necessary at each facility, adequate
staffing with safety and health professionals is required to ensure its
implementation. One indication of adequate staffing is provided by the
United States Navy, which states "Regions/Activities with more than 400
employees shall assign, at a minimum, a full time safety manager and
adequate clerical support" [USN 2005J. That document also provides
recommended hazard-based staffing levels for calculating the "number of
professiorial personnel needed to perform minimum functions in the safety
organization." [Reports 6, 9]

2.    A comprehensive program is needed within the Bureau which
provides sufficient resourCes, including professional assistance, to assure
each facility the assets needed to assure both staff and inmates a safe and
healthy workplace. [Reports 6, 9]

3.    BOP and UNICOR should ensure that they have proper personnel
resources, consulting resources, and material resources to effectively
implement the management systems, such as corrective action tracking,
information disbursement, and assessment processes to ensure effective         l
ES&H and work processes. The need for sufficient resources also applies to
the evaluation of and response to assessment, investigation, inspection, and



                                     27 

monitoring findings and data to ensure prompt corrective action and
information distribution. [Report 10]


Procurement of Testing and Consulting Services

1.     Carefully evaluate the qualifications and expertise of consultants who
are hired to assess occupational or environmental health and safety issues.
One useful benchmark for vetting individuals who provide industrial
hygiene services is the designation of Certified Industrial Hygienist (CIH).
Certification by the American Board of Industrial Hygiene (ABIH) ensures
that prospective consultants have met ABIH standards for education,
ongoing training, and experience, and have passed a rigorous ABIH
certification examination. The UNICOR and/ or BOP industrial hygienists
can assist in the selection of your consultants. [Reports 2, 5, 10]

2.     BOP, UNICOR and FCI Marianna should ensure that staff and
consultants conducting ES&H assessments, evaluations, inspections, and
monitoring activities are qualified for their assigned tasks and led by
certified or highly qualified professionals. One benchmark for vetting
individuals performing industrial hygiene services is to ensure certification
in the practice of industrial hygiene (CIH) by the American Board of
Industrial Hygienists (AIHA). [Reports 3, 15]

3.     UNICOR should scope the work activities of its exposure assessment
consultants to include a critical review and evaluation of work practices and
hazard controls. The consultants should evaluate exposure results in the
context-of its evaluation of such practices and controls and provide
recommendations for continued improvements. For example, as
consultants provide data and results regarding metal exposures, noise
exposures, effectiveness of engineering controls, and surface contamination
levels, they should also offer expert interpretation of results with any
recommendations for improvements of controls, practices, and systems.
[Note: Recent consultant reports for USP ~ewisburg could serve as an
example of the scope of the consultants' evaluations and content of reports.]
[Report 3]


Training

1.     Training of workers should be scheduled and documented in the use
of techniques for dust suppression, personal protection equipment (e.g.,
coveralls, respirators, gloves) and hazard communication. Additional
training, recordkeeping and other restrictions apply if a formal respiratory
protection program is implemented. [Reports 1, 6, 8, 9]

                                      28
Information Sharing

1.    UNICOR should operate its recycling factories in an integrated
fashion. Across its factories, UNICOR should share information such as
exposure data, controls, corrective actions, accidents and incidents,
regulatory violations, successes, adverse events, lessons learned, and stop­
work directives. UNICOR should accompany any directed actions that are
required across the factories with commensurate opportunities for sharing
information related to their implementation. UNICOR should develop
management systems to address this recommendation. [Report 3]

2.    UNICOR should also develop other essential management systems for
information sharing, lessons learned, and factory-wide directives. BOP and
UNICOR should ensure that staff responsibilities for verifying and enforcing
hazard controls are established and carri~d out. [Report 3]

3.     UNICOR should ensure that all of its recycling facilities are informed   \
of violations and other deficiencies, along with corrective actions, that are
found at any individual facility. Effective practices demonstrated at one
factory should also be shared with others. UNICOR should develop and            I

implement a system to achieve this communication and information
sharing, which could possibly be part of the tracking system recommended
above. [Report 10]

4.    UNICOR should share information among its factories to ensure
proper work practices, correction of violations, and implementation of
actions for effective worker protection. Specific to the findings of this FOR
report for USP Leavenworth, UNICOR shOl.ild inform all factories of the
respiratory protection recommendations above regarding cleanup of broken
glass and regarding voluntary use during disassembly. UNICOR should also
emphasize the prohibition on dry sweeping. [Report 21]


Oversight
                                                                                    l

Recommendation Tracking

1.    BOP and UNICOR should implement a system to list, track, and                  l

document closure of any identified deficiencies or recommendations,
regardless of the source. Closure of deficiencies and recommendations with
documentation of those accepted and implementation details, along with
those not accepted or pending (and why) is important to document
improvement actions. This recommendation applies to all UNICOR recycling


                                      29 

factories. This topic will be discussed in further detail in the final OIG
report. [Reports 3, 10]


Miscellaneous
Inmate Work Assignments

1.    This facility [FCI Elkton] is a Federal prison, and the workers are
Federal prisoners. The Belmont Report [HEW 1979J notes that," ...under
prison conditions they [prisonersJ may be subtly coerced or unduly
influenced to engage in research activities for which they would not
otherwise volunteer." Although we did not observe this, Elkton managers
should ensure that prisoners are not unduly influenced to perform work
which is considered unsafe or unhealthy. [Report 6J


Union Representation

1.     Appoint a union safety and health representative. This individual
should be a regular participant on the joint labor-management safety
committee that meets quarterly. Since inmates do not have a mechanism
for representation on this committee, ensure that they are informed of its
proceedings and that they have a way to voice their concerns about and
ideas for improving workplace safety and health. [Reports 2, 5J


Glass Breaking
Assessment of Glass Breaking Methods

1.     The use of alternative methods to break cathode-ray tubes should be
investigated by management. Lee et al. [2004] present different methods to
separate panel glass from funnel glass in CRT recycling (sec 2.1) and for
removing the coatings from the glass (sec 2.2). The hot wire and vacuum
suction methods (supplemented with local exhaust ventilation) described by
Lee et al. may produce fewer airborne particulates than breaking the glass
with a hammer. The authors [Lee et al. 2004J describe a commercially­
available method in which an electrically-heated wire is either manually or
automatically wound around the junction of the panel and funnel glass,
heating the glass. After heating the glass for the necessary time, cool (e.g.,
room temperature) air is directed at the surface, fracturing the glass-to­
glass junction using thermal shock. The separated panel and funnel glass
can then be sorted by hand. They also describe a method wherein a
vacuum-suction device is moved over the inner surface of the panel glass to

                                       30 

remove the loose fluorescent coating [Lee et al. 2004]. The vacuum used
must be equipped with HEPA filtration. Industrial central vacuum systems
are available; they may cost less in the long run than portable HEPA
vacuum cleaners. These modifications may also reduce the noise exposure
to glass breakers. [Reports 6, 7, 9]




                                                                           l




                                 31 

BOP RESPONSE 

                                                                u.s. Department of Justice .
                                                                Federal Bureau of Prisons
                                                                                                                                  f


     - - - - - - - ' - - - - - - - - - ' - ' - - - - - - - - - ' - - - - - ' - - - - ' - - - - - _... _.. _............ '- ....   [

Office <?t"the. Director 	                                      Washillgton. DC 20534

                                                                January 19, 2010 	                                                r
                                                                                                                                  r

                                                                                                                                  r
MEMORANDUM FOR                                  INVESTIGATIVE COUNSEL
                             . OVERSIGHT AND REVIEW DIVISION 





FROM: 
                                                     Director

SUBJECT:                     Status' Update Regarding NIOSH/FOH Reports Issued

Attached is the response to your November 18, 2009, memorandum.
As you will. see, we are making progress. If you have any
                                                                                                                                  I
                                                                                                                                  .
questions regarding this update, please contact VaNessa P. Adams,
Assistant Director, Program Review Division, at 202-353-2302.                                                                     I
                                                                                                                                  I

                                                                                                                                  I

                                                                                                                                  l


                                                                                                                                  I

                                                                                                                                  I

                                                                                                                                  I

Toxic Metal Contamination

       Legacy Contamination

1. 	   Please describe the status of decontamination and decommission activities recommended
       for Federal Correctional Institutions (FCI) Ft. Dix and Marianna, and how these activities
       complied with the cleanup procedures specified by FOH in its recommendations.
       [Reports 8, 15]

Response: The decontamination and decommission activities used at Lewisburg are currently
being reviewed by the Recycling Business Group's (RBG) General Manager and UNICOR's
Environmental and Occupational Health Services Manager for applicability to all other factories
that have glass breaking equipment. The FOH recommendations are being carefully considered
in the development of these procedures. Thus, planning for cleanup and disposition of the glass
breaking equipment at Ft. Dix (Torit system) and at Marianna will begin shortly. The
remediation stage at Ft. Dix and Marianna is expected to be completed by summer 2010.

2. 	   Please describe the results of all additional surface testing recommended in the FOH
       reports with respect to 1) elevated surfaces above the UNICOR factory ceiling at USP
       Lewisburg; 2) the tunnel from the basement of the UNICOR factory at FCI Texarkana to
       the power plant, the former LEV system in the furniture factory, the outdoor cyclone
       filter, and the dairy barn; (i,nd 3) the Atwater warehouse and ventilation systems serving
       the former glass breaking areas. Please describe any Operations and Maintenance
       (O&M) plans, cleanup, or remediation activities that have been planned or undertaken in
       response to such test results. [Reports 3, 10, 18]

Response:

Lewisburg: No further surface testing or cleanup is required above the factory ceiling at this
time. This area is completely isolated from the working area. If renovation or other work is
performed in the future that would disturb this isolated area, the area will be cleaned prior to
commencement of the work, consistent with the FOH recommendation.

Texarkana: According to Texarkana staff, the tunnel to the power plant has been cleaned and
painted on several occasions since glass breaking ceased near the tunnel in 2004. In the 2010
annual factory testing for toxic metals, wipe samples will be taken in the tunnel. There is no
portion of the LEV system inside the former furniture factory that remains. This was removed in
2004. The only portion of the former LEV system that remains outside the factory is the
cyclone, which is not in use. UNICOR will perform surface testing of the cyclone during the
2010 annual factory testing for toxic metals. The former dairy barn is a very old building that is
used only for long-term storage. UNICOR intends to remove the remaining few pieces of old
equipment and cease use of this building. No further testing or cleanup of the building is
required at this time.

Atwater: Wipe sampling was performed in 2009 by contractor, Bill Collier and Associates, to
evaluate surface contamination. Measured levels from several work surfaces in the warehouse

                                                 2

were found to exceed the OSHA guidance level for lead on work surfaces. Since this testing,
more rigorous daily cleaning procedures have been implemented. Per the September 14, 2009,
recommendation by the contractor, the factory continues to REPA-vacuum and mop/wet wipe
work surfaces. This facility has also incorporated the use of D-Lead solution in the cleaning
procedures. The LEV system at the USP, which has not been in use since March 2005, will be
tested, cleaned, de-installed and surplused by Spring 2010.

       Development of Operations and Maintenance Plans

3. 	   Please describe any recycling factory refurbishment, remodeling, demolition, or similar
       activity planned or taken since November 2007 at any UNICOR recycling facility that
       could disturb contaminated surfaces, and describe the steps planned or taken to control
       worker exposure and environmental releases, as recommended by FOH. [Reports 4, 7,
       10]

Response: No such activities have taken place at UNICOR recycling factories since November
2007, and none are currently planned. However, should such activities be planned, UNICOR
will utilize its technical resources to evaluate and control potential environmental and
occupational health hazards.

4. 	   Please describe the status of O&M plans developed and implemented for the purpose of
       minimizing surface contamination and preventing inhalation or ingestion exposures as
       recommended by FOH with respect to USP Lewisburg and FCI Texarkana. [Reports 10,
        18]

Response: Existing O&M documentation for each factory will be improved and made more
comprehensive as the RBG progresses toward having all factories achieve accreditation under
the Recycling Industry Operating Standard (RlOS) and the Responsible Recycler (R2)
certification programs. These programs build on the certifications UNICOR's recycling factories
have held under the International Association of Electronics Recyclers and the ones they
currently hold (with the exception of Leavenworth) under ISO 9001. O&M documentation for
each factory, including specific procedures for minimizing surface contamination and preventing
inhalation and ingestion exposures, will form part of the documents that are necessary to hold
RlOSand R2 certifications. The plan is that at least two recycling factories (Lewisburg and
Leavenworth) will achieve third-party certification under the RlOS and R2 programs by
Fall 2010. Thus, O&M documentation will be substantially upgraded for those factories by that
time. This same documentation will then be used as the basis for other factories to become RIOS
and R2 certified. This improved O&M documentation is anticipated to be in place, as part of the
RlOS and R2 documents for the remaining factories, by Spring 2011.

       Disassembly Operations - Contamination

5. 	   Please describe the status and any results of any evaluation you have conducted of the
       feasibility of controlling potential contamination from e-waste during general
       disassembly operations. [Report 10]



                                               3

                                                                                                  I
Response: As indicated previously, UNICOR contracted with Bill Collier and Associates to
conduct air and wipe sampling at the recycling factories. UNICOR received the final reports for
all of the factories in September 2009. These reports confirm that all air monitoring results in all
factories were far below OSHA regulatory levels for lead, cadmium and beryllium, and in many
samples these toxic metals were below laboratory detection limits. However, the reports did
indicate elevated levels of lead and cadmium in some surface wipe samples. The elevated levels
that were sometimes found on work surfaces, as well as non-work surfaces, indicate that further
improvements in daily and periodic cleaning activities can still be made at most of our factories.
All of the electronics recycling factories (with the exception of Tucson, see #6 below) have
reevaluated their daily and periodic cleaning procedures and have implemented, or are in the
process of implementing, more rigorous cleaning procedures for both work surfaces and non­
work surfaces.

6. 	    Please describe the status and results of the follow-up evaluation of lead and cadmium
        exposures recommended for FCI Tucson. [Report 20]

Response: UNICOR's contractor took air and wipe samples in March 2009 at the Tucson
factory and camp operations. The documentation of this sampling, as well as the results, is
described in the contractor's report dated May 27,2009. All results for lead and cadmium were
below laboratory detection levels, and consequently, far below allowable OSHA levels. Based
on this sampling, it is clear that electronics recycling activities at Tucson are extremely effective
at controlling toxic metal exposures. Though not required, based on the March 2009 monitoring
results, UNICOR will include Tucson operations in the annual RBG testing.

Please note that the elevated cadmium measurement documented in the July 2006 industrial
hygiene report was not representative of worker exposures. Contrary to that report, the
contractor has since indicated the elevated cadmium level was measured approximately 6 inches
above the work table, and not in the breathing zone where the action level would be applicable.

       Evaluation and Monitoring Plans

7. 	   Please describe how UNICOR or the BOP intend to identify and monitor changes in
       exposure conditions resulting from new activities or modifications in e-waste work
       operations, production rates, work processes/practices, personal protection, and other
       practices. Describe whether such changes have been introduced at UNICOR factories
       since 2008 and whether monitoring was performed. [Reports 7, 10, 18]

Response: By policy, institution safety staff are required to inspect the recycling operations on
at least a monthly basis. UNICOR will continue to work with institution safety staff to evaluate
operational changes in our factories. In addition, UNICOR has internally mandated that factory
management staff assess environmental and occupational health considerations prior to new
factory activations and/or factory modifications.

Other than activities such as moving work stations or equipment, adjusting to a variable rate of
incoming material, or initiating or restarting an activity at one of our factories that is routinely
conducted at others (for which we have conducted assessments and monitoring at other recycling


                                                 4

factories), no more significant changes have been introduced to the electronics recycling
factories since 2008.

8. 	    Please describe how UNICOR or the BOP intend to evaluate surface contamination levels
        and exposure conditions in e-waste factories to ensure lead and cadmium contamination
        is not increasing over time and to verify that clean-up, housekeeping, and operations and
        maintenance practices are effective. [Reports 8, 10, 21]
                                                                                                    I
Response: The sampling and analysis conducted by the contractor in 2009 was the initiation of
an annual assessment of work and non-work surfaces at UNICOR recycling factories. Such
                                                                                                    I
annual testing will be used in the future for determining whether further changes to daily and/or
periodic cleaning procedures are necessary at any of our factories.

9. 	    Please describe UNICOR's efforts to specify a surface contamination criteria for use in
        evaluating the cleanliness of its e-waste recycling factories. [Report 21]

Response: Designation of a specific surface contamination criterion, like many FOH
recommendations, is not based upon a regulatory requirement. UNICOR will base its O&M,
housekeeping, and cleaning procedures for electronics recycling on the regulatory goal of
maintaining all surfaces as free of toxic metals as practicable.

        Housekeeping and Hygiene Activities

10. 	   Please describe the status of dry sweeping in UNICOR e-waste factories and the actions
        that have been taken to eliminate this practice, including any communications with
        Factory Managers on this issue. [Reports 3, 16, 21]

Response: Dry sweeping is prohibited in areas of UNICOR' s electronics recycling factories,
where electronics dismantling is performed. This prohibition was communicated in a
presentation to recycling factory managers at the 2008 factory managers' conference. This           l
prohibition was re-emphasized in a directive from the RBG General Manager to f~ctory
management staff in January 2010. (Attachment 1)
                                                                                                    l
11. 	   Please describe the status of activities to promote cleaning in e-waste factories using
        HEPA-vacuuming and wet mopping. [Reports 1,3,6,9]

Response: HEPA-vacuuming and wet wiping or wet mopping is routinely used at all UNICOR
recycling factories. Some of these practices are used daily and some are used on a weekly basis.
                                                                                                    1
12. 	   Please describe the status of activities to promote hand washing in e-waste factories.
        [Reports 1, 6, 9]
                                                                                                    \
Response: An emphasis on hand washing has been part ofUNICOR's electronics recycling
program since its inception, and was included in the original RBG's Standard Operating
Procedures in 2003. Hand washing is emphasized at every UNICOR recycling factory, in
training sessions and in oral directions from UNICOR staff


                                                  5

13. 	   Please describe the status of activities to prohibit consumption offood and drink in
        recycling areas. [Report 7]

Response: OSHA's prohibition on food and drink consumption is dependent on lead and
cadmium personal exposures. Based on recent personal exposure monitoring, this prohibition
would not be required by OSHA for electronic recycling operations. Though not required, the
RBG is committed to maintaining its prohibition of food consumption within recycling work
areas. Drinking fountains are available in the recycling factories. Several factories also allow
workers to have water bottles, with coverings over areas of mouth contact, at their work stations.
The RBG is reviewing the appropriateness of water bottles at work stations under the specific
conditions now permitted at several factories.

        FCI Elkton Remediation

14. 	   Please describe the status of the FCI Elkton remediation and provide any final reports or
        testing results from the contractor, UNICOR or BOP after-action reports, diagrams of the
        areas that were remediated, and photographs of the remediation. [Reports 4, 7]

Response: The remediation ofFCI Elkton was completed in two phases. The first phase 'was
awarded to Precision Environmental and consisted of remediation of the interior of the FCI
factory, warehouse, and the FSL factory. This phase began in November 2008 and was
completed in June 2009. The second phase was awarded to GB Hawk Construction and
consisted of roof abatement of the FCI factory and the remediation of the HV AC systems in the
FCI factory and warehouse. This phase began in June 2009 and was completed in
September 2009. Attached are copies of the related statements of work and project completion
clearance letters. (Attachment 2)

Personal Protective Equipment

        Respiratory Protection

15. 	   Please describe the status of any UNICOR self-assessment to ensure compliance with
        OSHA respiratory protection requirements, including medical clearance, training, fit
        testing, cleaning and maintenance, and furnishing Appendix D of 29 CFR 1910.134 to
        workers. [Reports 7, 9, 20]

Response: Based on recent industrial hygiene monitoring (see previously provided reports from
Bill Collier and Associates), respiratory protection is not required for current electronic recycling
operations. However, dust masks are made available to staff and inmate workers for voluntary
use. Appendix D of29 CPR 1910.134 is made available to all workers voluntarily utilizing dust
masks.

16. 	   Please describe the status of any UNICOR efforts to implement a respiratory protection
        program in accordance with 29 CFR 1910.134 for the cleanup of broken CRT glass.
        [Report 21]

                                                  6

Response: All electronics recycling factories currently have procedures in place for cleanup of
broken CRT glass. The adequacy and consistency of these procedures will be reviewed by
Summer 2010, following an assessment of worker exposures to lead and cadmium during the
cleanup of accidental CRT breakage. This assessment will be conducted by a Certified Industrial
Hygienist. Should measured exposures warrant, a respiratory protection program will be
developed, implemented and maintained for cleanup of accidental CRT breakage.

Medical Surveillance

17. 	    Please describe the status and results of any efforts by UNICOR or the BOP to improve
         recordkeeping for medical surveillance and exposure monitoring data to meet OSHA
         requirements for types of information maintained, records retention, and employee (staff
         and inmate) notification of results. [Report 7]

Response: Medical monitoring for staff is being coordinated by Federal Occupational Health
(FOH) under the direction of Dr. Sylvie Cohen, Director of Medical Employability Program,
FOH. 	 Exit exams were offered to UNICOR staff working at FCI Elkton glass breaking
operation. The exam, which was conducted by FOH medical staff at a designated FOH site,
consisted of a complete occupational history and physical exam paired with the following
diagnostic testing, which was sent to Quest Labs: .

          Blood and Urine Cadmium levels
          Beta-2-microglobulin level in urine
        . Elec,trolytes including blood urea nitrogen and createnine level
          Blood lead level
          Blood Zinc Protopophyrin level (ZPP)
          Pulmonary Function Test (PFT)
          Chest x-ray [Posterior Anterior (PA)]
                                                            ,
An examination consisting of a complete history and physical exam, for those inmates still in
BOP custody, was completed by institution medical staff The Clinical Director and Health
Services Administrator at each institution housing inmates who had worked in the Elkton
operations received online Centra training from Dr. Cohen prior to the beginning of any
examination and diagnostic testing. Inmates are receiving the same diagnostic testing thr~ugh
the Quest Lab utilized for staff testing.

18. 	    Please describe the work of the FOH physician who was retained to assist with medical
         surveillance at FCI Elkton, and provide all resulting written reports or recommendations
         provided to UNICOR or the BOP. [Reports 5, 7]

Response: Dr. Cohen has been retained in an advisory capacity, She has visited FCI Elkton and
met with institution staff explaining the issued and listening to their concerns. She has reviewed
all available staff medical data and provided letters to each employee, who completed the testing,
regarding their results. She provided online Centra training to medical staff that would be



                                                   7

completing the inmates' exams and assessments. She has been available to institution medical
staff to answer or address any questions, issues, or concerns which may arise.

19. 	   Please specify whether any staff or inmates at FCI Elkton require continued surveillance 

        under the cadmium standard based on past exposures. Explain the justification for your 

        response. [Report 7] 


Response: Based on medical surveillance results to date, there is no clinical reason to conclude
that ongoing surveillance is required. Dr. Cohen will continue to evaluate diagnostic test results
and make recommendations regarding the need for further testing. 	                     .

Other Hazards



20. 	   Please describe the status and results of any efforts by UNICOR or the BOP to improve
        compliance in e-waste factories with OSHA's noise standard (29 CFR 1910.95). [Report
        18]

Response: Compliance with 29 CFR 1910.95 is addressed in Chapter 2, Section D, of BOP
Program Statement 1600.09. As a supplement to this program statement, UNICOR's RBG plans
to develop, implement, and maintain a hearing conservation plan for each of its factories to better
ensure compliance with this regulation.

21. 	   Please describe the status and results of any noise testing by UNICOR or the BOP of
        USP Atwater's e-waste recycling operations since February 2009. [Report 1]

Response: Personal noise dosimetry was conducted by a contractor in April 2009 to evaluate
noise during various operations at FPI Atwater. Ten personal noise exposure measurements
were collected. Noise exposures ranged from approximately 12 to 53 percent of the allowable
OSHA limits. Measured personal noise dosimetry levels at the USP factory were below the
allowable OSHA limits. However, one worker at the Camp (the baler operator) recorded a dose
in excess of OSHA's Hearing Conservation Level (e.g., recorded a dose higher than fifty
percent). Please see the response to #22 below regarding baling operations.

22. 	   Please describe the status of any UNICOR efforts to implement a hearing conservation
        program for inmates performing baling operations. [Reports 3,21]

Response: All baler operators will be included in the RBG's hearing conservation program. In
addition, hearing protection will be required for all workers operating balers.

        Heat Stress

23. Please describe the implementation status of the heat stress program for FCI Marianna and
    whether UNICOR intends to institute heat stress programs at other UNICOR factories.
    [Reports 10, II, 12, 13, 20]


                                                8

Response: A heat stress program was first initiated with heat monitoring at Marianna in
May 2008. The program was modified, formal training for staff was provided in
September 2008, and the current program was finalized in January 2009. Beginning in the
Summer 2010, the RBG plans to evaluate the need for a heat stress program at its other factories.

24. Please describe the status and results of any evaluation by UNICOR or the BOP of whether
                                                                                                    I

    fan use at USP Atwater contributes to surface contamination and constitutes a violation
    similar to the one issued by OSHA to USP Lewisburg for pedestal fan use. [Report 3]             I

Response: The OSHA violation issued to USP Lewisburg from inspection number 310227467
pertained to housekeeping. The instance referencing pedestal fans was included to illustrate that
low levels of lead dust could be generated within the general disassembly area should surfaces
not be maintained as free as practicable from lead accumulations. The inspector did not specify
to what extent pedestal fans contributed to the airborne levels measured, which were well below
allowable limits.

UNICOR recognizes the importance of housekeeping in the electronic recycling operations and
has implemented housekeeping practices to minimize surface contamination (see response to
question #4 above).

        Ergonomics
                                                                                                    I

25. 	   Please describe the status and results of any efforts by UNICOR or the BOP to evaluate
        ergonomic issues in e-waste recycling factories. Identify any changes that have been
                                                                                                    I

        made as a result of such assessments. [Reports 1,3, 6, 7, 9, 10, 20]

Response: The "awkward" use of screwdrivers at Tucson has been effective'Iy resolved with the
issuance of additional screwdriver bits for the hand-held pneumatic drill-drivers. Subsequent
ergonomic changes will continue to be implemented, as necessary, on a case-by-case basis.

BOP Health and Safety Policies

26. 	   Please specify whether the BOP intends to revise the "imminent danger" provision found
        in PS 1600.09 in accordance with FOH's recommendations. [Report 3]

Response: The BOP will discuss the impact ofFOH's recommendations regarding "imminent
danger" and determine if revisions are necessary for PS 1600.09

Institution Health and Safety Documentation

27. 	   Please describe the status of any efforts by UNICOR or the BOP to prepare a concise
        safety and health guidance document for each e-waste recycling factory. [Reports 3, 8,
        10]




                                                9
Response: Existing safety and health documentation for each factory will be improved as the
RBG progresses toward having all factories achieve accreditation under the RIOS and R2
certification programs. These programs build on the certifications that UNICOR's recycling
factories have held under the International Association of Electronics Recyclers and the ones
they currently hold (with the exception of Leavenworth) under ISO 9001. Safety and health
documentation for each factory will form part of the documents that are necessary to hold RIOS
and R2 certifications. The plan is that at least two recycling factories (Lewisburg and
Leavenworth) will achieve third-party certification under the RIOS and R2 programs by Fall
2010. Thus, safety and health documentation will be substantially upgraded for those factories
by that time. This same documentation will then be used as the basis for other factories to
become RIOS and R2 certified. This improved safety and health documentation is anticipated to
be in place, as part of our RIOS and R2 documents for our remaining factories, by Spring 2011.

28. 	   Please describe the status of any efforts by UNICOR to revise its work instructions,
        process descriptions, and respiratory protection program to ensure accuracy and internal
        consistency, and to reflect actual work practices in its e-waste recycling factories.
        [Reports 3, 18]

Response: The principal efforts to revise work instructions, process descriptions, and safety and
health procedures will take place as part of the effort to achieve third-party certification under
the RIOS and R2 certification programs (described above in response to questions #4 and #27).
However, updates and improvements in this documentation are constantly being made at the
factory !evel. For example, through implementation of a Lean Six Sigma project, Texarkana has
revised its procedures for the handling and dismantling of computer monitors and televisions.
Tucson has revised its work instructions by adopting procedures used by Marianna for the
dismantling of monitors and televisions. Texarkana has a1so, as a result of 2009 monitoring data
from the contractor, revised its daily and periodic factory cleaning procedures. Ft. Dix is
currently in the process of rewriting its factory cleaning procedures.

29. 	   Please describe the status of any efforts by UNICOR to implement a document control
        system for its e-waste recycling operations to clearly define document status, establish
        review and revision cycles, and ensure that they consistently reflect work practices.
        [Report 18]

Response: Certainly, there is a need for the RBG to improve document tracking and control. As
the recycling factories progress toward third-party certification under RIOS and R2, the RBG
will examine options for improving these systems at both the factory and Central Office levels.

Health and Safety Regulatory Compliance

30. 	   Please identify any efforts by UNICOR to improve compliance with OSHA regulations in
        its e-waste recycling factories since January 2008. [Reports 2, 5,6, 9]

Response: UNICOR has taken several steps towards improving OSHA compliance within its
electronic recycling operations. For instance, the RBG contracted ~ Certified Industrial
Hygienist to assess compliance with OSHA's noise, lead, and cadmium standards at each ofthe


                                                10 

                                                                                                       I

current recycling facilities. Also, UNICOR plans to hire a second industrial hygienist to assist
                                                                                                       I

with environmental and occupational health compliance. Lastly, the REG plans to develop
compliance plans for each of its facilities as part ofthe RIOS and R2 certification processes.

Environmental Compliance

31. 	   Please identify any efforts by the BOP and UNICOR to better coordinate their
        environmental control efforts. [Report 7]

Response: The BOP issued a policy to implement its Environmental Management System
(EMS), PS 1600.10 (12/14/2007). As part of this policy, institutional staff, including UNICOR,
are required to regularly meet to discuss environmental issues. In addition, a newly-formed            f
Central Office EMS Committee has been established that meets regularly, and includes senior
level representatives, to discuss environmental issues affecting BOPIUNICOR and measures to
improve its EMS.                                                                                       r
32. 	   Please describe the status and results of any efforts by UNICOR and FCI Elkton to
        evaluate wastewater, storm water, air emissions, and hazardous waste streams to ensure         f
        compliance with applicable environmental requirements. [Report 7]

Response: UNICOR is committed to evaluating our environmental requirements prior to the
activation of a new facility, or the modification of an existing operation, and has developed an
EOH Checklist. This evaluation will be conducted by trained, competent, and certified
professionals. UNICOR will assess its environmental responsibilities should operations resume
at FCI Elkton.

33. 	   Please describe the results of all TCLP analyses on air filters (general ventilation) from
        the UNICOR e-waste recycling factory at FCI Ft. Dix since December 2008. [Report 8]

Response: Since the visit by FOH to the Ft. Dix factory iIi January 2008, the frequency with
which the air filters for general building ventilation are replaced has been increased. Further, per
the recommendation contained in the December 2008 FOH report, the air ventilation filters were
sent for TCLP analysis in March 2009. The building ventilation filters were analyzed by a
certified laboratory and determined to be non-hazardous using the TCLP test. In
December 2009, the building ventilation filters were again tested by a certified laboratory using
the TCLP, and again, the filters were determined to be non-hazardous.

34. 	   Please identify the date when UNICOR or the BOP notified the owners of the formerly
        leased 'Blue' and 'Gold' buildings at FCI Marianna ofFOH and NIOSH testing results at          I
        those properties. [Report 15]

Response: The notifications were sent on October 19, 2009, via USPS certified mail. Attached
are copies of the notifications along with the signed USPS receipts. (Attachment 3)

UNICOR Assessments



                                                 11
        Job Hazard Analysis

35. 	   Please describe the status and results of any efforts by UNICOR to develop and
        implement a hazard analysis program that includes ba~eline hazard analysis for current
        operations and also job (activity-specific) hazard analysis (JHA) for both routine and
        non-routine activities. [Reports 15, 18]

Response: Baseline hazard analysis was recently conducted by a Certified Industrial Hygienist
for all current electronics recycling operations to evaluate noise and airborne/surface levels of
toxic metals. Except for a few elevated noise levels, all measured exposures were below
allowable OSHA limits. In the future, additional exposure assessments will be conducted for
certain non-routine tasks.

36. 	   Please identify any policies that UNICOR has instituted that require the performance of a
        detailed job hazard analysis prior to beginning any new operation or before making
        changes to existing operations. [Reports 2, 5, 7, 8, 10]

Response: BOP's Program Statements 1600.09 and 1600.10 require the institution Safety
Manager to conduct a hazard assessment, a Personal Protective Equipment (PPE) hazard
assessment, and a monthly review of operations.

Prior to undertaking a new operation or changing operations, UNICOR has taken additional
measures to ensure that an environmental and occupational health review is conducted
beforehand. UNICOR hired an Environmental and Occupational Health Services Manager to
assist in addressing EOH issues. Recently, UNICOR issued guidance to staff seeking to reiterate
that EOH issues are reviewed prior to new operations or changing operations, and an EOH
checklist is being utilized (Attachment 4). UNICOR plans to hire an additional staff person to
assist UNICOR EOH Services Manager with these efforts. In addition, a review is also
conducted by the BOP's newly formed Central Office EMS Committee.

37. 	   Please describe the status and results of any efforts by UNICOR to conduct self
        assessments in its e-waste recycling factories to determine the effectiveness of its safety
        and health and hazard control programs. [Report 7]

Response: As previously noted, during 2009, a contractor conducted air and wipe sampling and
analysis at our recycling factories. UNICOR received the final reports for our factories in
September 2009. These reports made it clear that all air monitoring results in all factories were
far below OSHA regulatory levels for lead, cadmium, and beryllium, and in many samples, these
toxic metals were below laboratory detection limits. However, the reports did indicate elevated
levels of lead and cadmium in some surface wipe samples. The elevated levels that were
sometimes found on work surfaces, as well as non-work surfaces, indicate further improvements
in daily and periodic cleaning activities can still be made at most of our factories. All factories
(with the exception of Tucson, see response to question #6 above) have reevaluated their daily
and periodic cleaning procedures and have implemented, or are in the process of implementing,
more rigorous cleaning procedures for both work surfaces and non-work surfaces.



                                                 12
        Evaluations ofUNICOR Operations

38. 	   Please describe the status and results of any efforts by the BOP and UNICOR to perform
        management assessments of all UNICOR operations, not just e-waste recycling, for
        compliance with applicable environmental, safety and health requirements. [Reports 1, 6,
        7,9]

Response: BOP Health Services Division is conducting national self declaration environmental
management system audits to evaluate conformance with ISO 14001. Also, third party
environmental audits are being conducted within the BOP and where present, UNICOR
operations will be included in these audits. Additional management assessments will occur as
part of the RIOS and R2 certification processes.

Industrial Hygiene and Environmental Expertise

        Technical Resources                                                                        I
39. 	   Please describe the status and results of any efforts by the BOP and UNICOR to establish
        a program to assure that health, safety, and environmental issues in UNICOR factories      f
        are adequately addressed by competent trained and certified individuals. Please identify
        whether the BOP or UNICOR have any plans to hire certified industrial hygienists.          f   !

        [Reports 6, 9]

Response: Efforts are being made by BOP and UNICOR to ensure that health, safety, and
environmental issues are being adequately addressed by competent trained and certified
                                                                                                   I
                                                                                                   .
individuals. UNICOR plans to hire an additional industrial hygienist to assist UNICOR's EOH
Services Manager develop, implement, and maint~in EOH plans for UNICOR operations. These
                                                                                                   I
plans will supplement existing BOP policy to better ensure EOH compliance. BOP's Health
Services Division is also in the process of hiring additional staff to assist with EOH issues.

        Procurement of Testing and Consulting Services

40. 	   Please describe whether the duties of the UNICOR industrial hygienist include
        overseeing all procurement of industrial hygiene consultant and testing services in
        UNICOR factories. [Reports 2, 5, 10]

Response: One responsibility ofUNICOR's Environmental and Occupational Health Services
                                                                                                   l
Manager is to provide oversight in the procurement of industrial hygiene services for UNICOR
operations.

41. 	   Please describe how UNICOR and the BOP intend to ensure that staff and consultants
        conducting industrial hygiene and environmental assessments, evaluations, inspections,
        and monitoring activities are qualified for their assigned tasks and led by certified or
        highly qualified professionals. [Report 15]
                                                                                                   !

                                                13                                                 l
Response: UNICOR's Environmental and Occupational Health Services Manager will utilize
his extensive academic and professional experiences to vet and coordinate with EOH consultants
for UNICOR projects.

        Training

42. 	   Please describe any changes in training for UNICOR e-waste recycling staff and inmates
        resulting from recommendations made by FOH, OSHA, or NIOSH, especially as
        concerns dust suppression, personal protection equipment (e.g., coveralls, respirators,
        gloves) and hazard communication. [Reports 1, ~, 8, 9]

Response: The RBG provided heat stress, housekeeping, and hygiene general awareness level
training to factory management staff at the November 2008 factory manager's conference. Also,
site specific heat stress training was provided to FPI Marianna staff on September 8, 2008.
Additional training is under development by both UNICOR and the BOP Environmental
Management System Task Force.

        Information Sharing

43. 	   Please describe the status of any efforts by UNICOR to operate its recycling factories in
        an integrated fashion arid to ensure that all of its e-waste recycling factories (as well as
        BOP safety staff) are informed of health, safety, and environmental violations and
        deficiencies that are found at individual factories along with any recommended corrective
        actions. [Reports 3, 10]

Response: Under the new RBG General Manager, a number of changes have been made and
other steps are planned toward further integration ofRBG operations. First, communications
from Central Office to the factories, and communication among the factories, has increased.
Frequent memoranda are sent from the. Central Office to all recycling factories regarding a wide
variety of topics, including fiscal performance, operational aspects, environmental goals, etc.
Conference calls are held with all of the factories to share information from the Central Office,
as well as an opportunity for the factories to share important information with each other. A set
ofRBG "principles" has been developed (Attachment 5). With the addition of several new staff
in the Central Office, oversight ofRBG operations has been enhanced significantly, particularly
in areas such as consistency of performance and the ach,ievement of third-party certifications
under RIOS and R2 for aU factories. Where appropriate, personnel from one factory are sent to
another in order to share operational information and experiences. All marketing personnel in
the RBG have been placed under a single team leader. Equipment and commodity sales for all
RBG factories are likely to largely be centralized, offering significant economic and
environmental performance advantages among others. Some consolidation of sales functions has
already taken place and options for further centralization of sales are being examined. By policy,
each recycling factory is to be visited on a monthly basis by its institution safety officer. These
safety visits are an opportunity for the factory staff and inmate workers to share information
about recycling operations with the institution safety officer.

Oversight


                                                 14 

        Recommendation Tracking

44. 	   Please describe the status and results of any efforts by the BOP and UNICOR to
        implement a system to list, track, and document closure of any identified deficiencies or
        recommendations, regardless of the source, at UNICOR factories. [Report 10]

Response: UNICOR has sought to track implementation of the IG recommendations for its
recycling operations, with the assistance of its EOH Services Manager, and is considering other
tracking mechanisms specific to its operations. In furtherance of the BOP's EMS and
compliance efforts, the BOP's Central Office EMS Committee is also reviewing the use ofa new
tracking system and centralized reporting mechanism, developed by U.S. Army Corps of
Engineers, whereby institution information, reports, and findings can be incorporated onto a
centralized data base that can be shared internally by appropriate staff for BOPIUNICOR
operations. This is planned to be implemented by Fall 20 I 0, and possibly sooner.

Miscellaneous

        Union Representation

45. 	   Please describe any actions taken to implement NIOSH's recommendation that union
        safety and health representatives be appointed to joint labor-management safety
        committees that meet quarterly. [Reports 2, 5, 14, 17]

Response: Union representation is included in at least quarterly Institution Safety Committee
meetings per BOP Program Statement 1600.09, Chapter 1, Section E. Union participation is also
included for meetings of the Monthly Central Office Task Force and the bi-annual Institution
Environmental Management Committees per BOP Program Statement 1600.10.

Glass Breaking

46. 	   Please describe the assessment that resulted in UNICOR's decision to cease glass
        breaking operations.

Response: In April and May of2009, UNICOR's new RBG General Manager conducted a
cost/revenue analysis ofUNICOR's glass breaking operations. This analysis (Attachment 6) was
conducted at the same time the RBG was considering bids from prospective downstream vendors
for various forms of glass or CRTs that UNICOR produced or could produce. This analysis, and
the downstream vendor bid data, helped the RBG to determine that UNICOR was losing a
significant amount of money per year by breaking CRT glass, and that instead of breaking CRT
glass UNICOR should be producing whole bare CRT tubes. As of June 1,2009, UNICOR
ceased all glass breaking operations and now produces whole, bare CRT tubes for further
processing by downstream recyclers.

47. 	   Please describe how UNICOR is currently handling cathode ray tubes and whether you
        expect these procedures to change in the next year.


                                                15
Response: UNICOR currently continues to produce whole, bare CRT tubes for processing by
downstream recyclers. In late 2009, UNICOR awarded two-year contracts to two downstream
recyclers for the processing of whole, bare CRT tubes that UNICOR produces from its recycling
factories. Although UNICOR does not anticipate changing its handling ofCRTs during the next
two years, UNICOR must remain responsive to market changes. However, given that the
economic analysis ofUNICOR glass breaking was, and remains to be, so unfavorable, UNICOR
plans its cessation of glass breaking to be permanent.




                                             16 

ATTACHMENT 2 

     DEPARTMENT OF HEALTH AND HUMAN SERVICES                                      Public Health Service


                                                                                  National Institute for Occupational
                                                                                   Safety and Health
                                                                                  Robert A. TaffLaboratories
                                                                                  4676 Columbia Parkway
                                                                                  Cincinnati OH 45226-1998




                                                                                     July 16, 2008
                                                                                 HETA 2008-0055



Investigative Counsel
Oversight and Review Division
Office ofthe Inspector General
United States Department of Justice, Suite 13100
Washington D.C. 20530

Dear_:

On November 27,2007, the Nationallnstitute for Occupational Safety and Health (NIOSH)
received your request for technical assistance in your health and safety investigation of the
Federal Prison Industries (UNICOR) electronics recycling program at Federal Bureau of Prisons
(BOP) institutions in Elkton, Ohio; Texarkana, Texas; and Atwater, California. You asked us to
assist the United States Department of Justice, Office of the Inspector General (USDOJ, OIG) in
assessing the existing medical surveillance program for inmates and staff exposed to lead and
cadmium during electronics recycling, and to make recommendations for future surveillance. In
addition, you asked us to assess past exposures to lead and cadmium, and to investigate the
potential for take home exposure. This interim letter summarizes our findings and provides
recommendations to improve the safety and health of the inmates and staff at the Federal
Correctional Institution (FCI) in Elkton, Ohio. These findings will be included in a final report
that will contain findings from the evaluations at all three institutions identified in your request.

Electronics recycling at FCI Elkton appears to have been performed from 1997 until May 2003
without adequate engineering controls, respiratory protection, medical surveillance, or industrial
hygiene monitoring. The current GBO is a significant improvement, but can be further enhanced
to limit exposure to those performing glass breaking, as well as limiting the migration of lead
and cadmium from the room into other areas.


Background
FCI Elkton opened in 1997, and began electronics recycling soon thereafter. The recycling of
electronic components is done in three separate buildings: 1) the main factory located within the
FCI main compound (which will be referred to as the factory in this report); 2) the Federal
Satellite Low (FSL); and 3) the warehouse.
Page 2­

The glass breaking operation (GBO) is where cathode ray tubes (CRTs) from computer monitors
or televisions are processed. Disassembly and glass breaking occurred at the factory from 1997
until early 2003 and the warehouse until about 2003, although staff at Elkton were unsure when
glass breaking ended at the warehouse. Based upon our review of documents and interviews
with staff and inmates conducted by DO] and by us, it appears that there was no respiratory
protection used or any type of engineering control in place to minimize exposures during the
GBO until about 2001. At this time a "sawdust collection system" was installed at the factory,
but not in the warehouse. It was also reported that some inmates began to use respiratory
protection at this time. The type of respiratory protection is unknown. In April of2003,
construction of a glass breaking room was completed in the factory.

The glass breaking room is divided into four areas by vinyl strip curtains hanging from the
ceiling: an entry area, the GBO workstations, the ventilation discharge area, and the "clean area"
where inmates don and doff coveralls and other personal protective equipment (PPE). There is a
walk-off mat immediately outside the entrance to the room to reduce dust carryout on shoes.
A local exhaust ventilation (LEV) system adapted from a spray painting operation is installed in
the room. Two inmate glass breakers, who stand facing each other at the ends of a rectangular
grated work surface (table), are oriented at 90 degrees to the LEV airflow entering the prefilter.
Each workstation has two small rectangular hoods and fans mounted behind and just below the
work surface that are intended to capture airborne dust above the Gaylord boxes containing
broken CRT glass. The fans/hoods are not ducted, but discharge into the work area
approximately 2 Y2 to 3 feet from the face of the retrofitted spray painting LEV system. The
discharge is directed toward the face of the LEV system.

An inmate receives large open-top wooden and cardboard boxes with CRTs for the GBO, and
stages the boxes outside the glass breaking room. Periodically, he uses a manual pallet jack to
roll the boxes through the strip curtain into the area where the operation actually occurs, and to
remove Gaylord boxes of broken glass from the room.

Inmates who perform the GBO ("glass breakers") enter the clean area where they don cloth
coveralls, gloves, and a hooded powered air purifying respirator (PAPR), and then enter the glass
breaking area. CRTs are placed on the grate where they are manually shattered with hammers.
The glass breakers reach through a strip curtain at opposite ends of the grate to break funnel
glass at one work station, and panel glass at the other. Broken glass falls into Gaylord boxes
positioned below the grate. When inmates finish breaking glass, they return to the clean area in
their coveralls and PAPR, use a high-efficiency particulate air (REP A) filtered vacuum on their
coveralls before removing them, then remove their PPE and leave the area. Staff enter the room
only when there is no glass breaking going on to put away tools and search the area, otherwise
they observe the inmates in the glass breaking room through the window or vinyl curtains.

While housekeeping is a routine component of all production processes, a weekly extensive
cleaning is conducted in the glass breaking area. During that operation no production takes place
and all workers in this area remove settled dust by vacuuming and wet mopping. All surfaces,
including walls, equipment, and floors are cle.aned. The blanket pre-filter on the LEV system is
vacuumed using the REP A vacuum cleaner.
Page 3­

Additionally, at approximately monthly intervals, the filters in the LEV system are removed and
either cleaned or replaced. Prior to an evaluation by Federal Occupational Health (FOH) and the
NIOSH Division of Applied Research Technology (DART) in March 2007, filters were removed
and cleaned by vacuuming, shaking, or banging on the floor to shake dust out. This took most of
the work shift and reportedly created a thick cloud of dust within the enclosed glass breaking
room. This process was changed after the FOH-NIOSH/DART evaluation, and is reported to
now be a wet process where the filters are wetted, removed, and bagged for disposal and new
filters used as replacements.

A chip recovery program began at the FSL in October 2005, and ended in October 2006.
Computer chips were removed from the mother board by holding the mother board over either a
lead solder pot or a lead solder wave fountain. Although the solder temperature was supposed to
be maintained just above the melting point (reportedly 400 to 600 degrees F), staff reported that
the solder temperature was set subjectively (i.e., the temperature was not measured), which may
have resulted in overheating, producing lead fume. There was no LEV for the first several
months of this operation until what was described by staff as a "make-shift PVC system" was
installed. This LEV system was replaced the following year with a LEV system designed by a
consultant. Despite the use of LEV at chip recovery stations, staff described a visible haze in the
FSL, and expressed concern about exposure to lead fume from this operation.


Assessment
In response to your request we reviewed the following documents:
• Results of medical surveillance provided by your office; 

• Results of biologic monitoring provided by the medical clinic at FCI Elkton; 

· Work instructions for the GBO and maintenance;                    .

· Rosters for inmates working in recycling that provided location and dates of work, provided by 

  the factory manager;
• Timelines for recycling operations provided by the American Federation of Government
  Employees (AFGE) Local 607;
· DO] interviews with staff and inmates;
• Industrial hygiene sampling performed by consultants to UNICOR;
• Findings and recommendations of industrial hygiene assessments performed by FOH; and
• Draft report of the industrial hygiene assessment performed by the NIOSHIDART

We conducted a site visit on February 21-22,2008 with you and a representative ofFOH .
During this site visit we held an opening conference with FCI and UNICOR management, AFGE
representatives, UNICOR recycling staff, and the health service administrators and regional
medical director. After the conference we toured the FCI, including the recycling factory, the
warehouse, and the FSL. We conducted informational meetings for FCI and UNICOR staff, and
inmates. We spoke to several UNICOR staff who approached us after the meetings about their
medical issues and how they might relate to exposures at the FC!. We also met with the safety
manager, factory manager, and health services administrator. We ended the site visit with a
closing conference where we presented our initial impressions and recommendations.
Page 4­

We were told that BOP has had an industrial hygienist on staff for several years, and that
UNICOR recently hired one. Neither of these individuals was present during our visit, and it is
unclear what, if any role, they may have had in setting up or monitoring the electronic recycling
program.

On March 25,2008, we conducted an industrial hygiene survey to determine iflead- and
cadmium-bearing dust had migrated from the glass breaking room to other FCI buildings and
work areas and if there was evidence of "take-home" contamination in inmate housing and
privately-owned staff vehicles. The purpose of this survey was to gather additional information
to complement the extensive body of industrial hygiene data collected by FOH and
NIOSHIDART.

The survey was preceded by a brief opening meeting with FCI and UNICOR management,
AFGE representatives, and UNICOR recycling staff to explain the purpose of the site visit.
Following the meeting, we were escorted to the factory and automated data processing (ADP),
where we set up area air sampling pumps to assess airborne concentrations of lead, cadmium,
and other elements (minerals and metals). Air samples were collected, digested, and analyzed
according to NIOSH Method 7303 [NIOSH 2003a] with modifications for digestion.

Wipe samples were collected from undisturbed dusty surfaces in ADP, as well as at air diffusers
in ADP, inside air handling units serving the laundry, visiting room, education, chapel, ADP
offices, and from the floor mat at the entrance to the glass breaking room. Wipe samples were
collected from the floor in three inmate cubicles where inmates place their boots, and from
combination locks on lockers in the cubicles. Wipe samples were collected from personal
vehicles used by UNICOR staff. Flat surfaces (e.g., ADP work stations) were sampled by wiping
a 100 square centimeter (cm2) area (10 cm2 x 10 cm2) according to the sampling procedure
outlined in NIOSH Method 9102 [NIOSH 2003b]. Surface area was not considered when
collecting wipe samples from non-flat surfaces such as padlocks and vehicle steering wheels.
Hand wipe samples were collected according to the dermal sampling procedure outlined in
NIOSH Method 9105 [NIOSH 2003c] Hand wipe samples were collected after workers had
washed their hands at the end of the workday. All wipe samples were collected using Ghost
Wipes, which were digested and analyzed for elements according to NIOSH Method 9102
[NIOSH 2003b] with modifications for digestion. Bulk samples of material were collected from
beneath the stone roof ballast on the factory roof at the exhaust fan of the sawdust collection
system that was in use from 2001 until May 2003. Bulk samples were digested and analyzed for
elements according to NIOSH Method 7303 [NIOSH 2003a] with modifications for digestion.
 Page 5­


 Results and Discussion 1

 Medical surveillance


 Inmates

 Medical surveillance began in March 2003, immediately prior to the installation of the glass
 breaking room, for inmates in glass breaking and disassembly, and staff. It is performed annually
 and consists of limited biological monitoring but no physical examinations. Biological
 monitoring consists of blood lead levels (BLL), blood cadmium (CdB), urine cadmium (CdU),
 and urine beta-2-microglobulin (B-2-M), although not all inmates involved in GBO and
 disassembly received all of these tests. In addition, some inmates had urine lead, blood or urine
 arsenic or mercury, and serum B-2-M, none of which seem to have been based upon work
 exposures or indicated by work history. Paper copies of test results are maintained in both the
 inmate's personal medical record and with UNICOR management; however, the factory manager
 has been unable to locate any medical surveillance results at this time. Each inmate's medical
 records are transferred with them; no medical records are retained at Elkton after an inmate is
 either transferred or released. Inmates are only informed of the results of their biological
 monitoring if the results are abnormal. Although start dates were not available to us for all
 inmates working in the GBO, it does not appear that ~my inmate had biological monitoring
 performed preplacement. Because smoking can increase cadmium and lead burdens in the body,
 it is important to note that smoking has been banned throughout the FCI for inmates since 2004,
 although staff may smoke in designated areas. The results of the available inmate biological
 monitoring are summarized below by area. Because measurements on individual inmates and
 staff were sporadic and the number tested small, no group analyses were performed.

 Glass Breaking Operation

  We received biological monitoring results for 26 inmates who performed glass breaking. Each
  inmate was tested 1 to 5 times, for a total of 54 rounds of testing. Table 1 shows inmate BLLs by
  year collected. The laboratory's limit of detection (LOD) for blood lead was 1.0 microgram per
  deciliter of whole blood (llg/dL). In general, BLLs declined over time. Five of the seven tests
. done in early 2003 were done in March or April and may reflect exposures to lead prior to
  installation of the glass breaking room, but do not reflect exposures prior to the installation of the
  sawdust ventilation system in 2001 because the half-life oflead in blood is too short.

 There were 50 CdB tests done on inmates from 2003-2007. The laboratory's LOD for CdB was
 0.5 microgram per liter (llglL). Twenty-seven were below the LOD; the remainder ranged from
 0.5-1.2 Ilg/L. The earliest CdB were done in June 2003. Six inmates were tested in June 2003,
 and three were below the LOD; the remainder ranged from 0.5-1.11lg/L. These six CdBmay



 1   See Occupational exposure limits and health effects in Appendix.
Page 6­

reflect exposures to cadmium prior to installation of the glass breaking room, but do not reflect
exposures prior to the installation of the sawdust ventilation system in 2001 because the half-life
of cadmium in blood is too short.

There were 28 CdU measurements. More than one laboratory was used for this analysis. At the
lab most commonly used the LOD was 1 flglL and 23 measurements were below this LOD.
Other labs had lower LODs. If the CdU was above the LOD, then it was adjusted to the urinary
concentration of creatinine to control for the variability in urine dilution. The five that were
above the LOD ranged from 0.5 micrograms per gram of creatinine (flg/g/Cr) to 1 flg/g/Cr.
These CdU measurements do integrate exposure over time because the half-life of cadmium in
the urine is years to decades. However, only one of these inmates worked in GBO prior to May
2001; his CdU was less than I flg/L. Six inmates had urinary B-2-M measured; these ranged
from less than 10 to 54 flg/g/Cr.

Glass Breaking Room Maintenance

One inmate who performed cleaning and filter change-outs in the GBO was monitored for lead
and cadmium exposure from April 2003 until 2007, prior to the change in the filter change-out
process. His annual BLLs ranged from 10-4 flg/dL, with a progressive decline over time. His
CdBs ranged from 0.5 to 0.8 flglL, and his CdUs were less than the LOD of 1 flglL. Another
inmate who performs maintenance in the room was monitored in 2007 and 2008. His BLL was 5
in 2007, and was not done in 2008. CdB was 0.6 flglL in 2007, and less than the LOD of 0.5
flglL in 2008. CdUs were less than 1 flg/L.

Chip Recovery

We reviewed biological monitoring for 14 inmates who worked in the chip recovery area; all
were tested on February 16,2007,4 months after the operation ceased. BLLs ranged from 1-5
flg/dL. CdB was below the LOD for four inmates, and the remainder ranged from 0.5-1.1 flg/dL.
All but one CdU were below the LOD, and the remaining one was 0.6 flg/g/Cr. No inmates had
urine B-2-M measured.

Factory (not GBO)

We reviewed the results of biological monitoring done in April 2007 for 14 inmates who worked
in the factory, but did not perform glass breaking. Two had BLLs less than the LOD, and the
others ranged from 1-3 flg/dL. A BLL of 8 flg/dL was found in one inmate monitored in 2003.
Seven had CdBs below the LOD, and the remainder ranged from 0.5-1.0 flg/L. Twelve had CdU
below the LOD of 1 flg/L, and the other two were 0.2 and 0.6 flg/g/Cr. None had urine B-2-M
performed.
Page 7­

Warehouse

Fourteen inmates who worked in the warehouse, but did not perform glass breaking, had
biological monitoring done in February 2007, almost 4 years after the GBO ceased in the
warehouse. BLLs ranged froml-5 llg/dL. Seven had CdBs below the LOD, and the remainder
ranged from 0.5-0.8IlglL. All 14 had CdU below the LOD, and none had urine B-2-M
performed.

Clerks

We reviewed biological monitoring results for 2 clerks, one from the factory and one from the
FSL. One had testing annually from 2003-2005, the other was tested in 2007. There were three
BLLs ranging from 1-2Ilg/dL. Three of four CdBs were less than the LOD of 0.5 Ilg/L, and one
was 0.6IlglL. Two CdUs were less than the LOD of 1 IlglL, and one B-2-M was 40 Ilg/g/Cr.

Results of other tests

We reviewed biological testing results for which we were unable to determine the reason the
testing was done on inmates. Two inmates had serum B-2-M above normal. This test is often
used to determine prognosis in hematologic malignancies and for dialysis patients. It is difficult
to interpret in this setting because no medical history is available. In addition, three inmates had
elevated urinary total arsenic, and one also had an elevated blood arsenic. The arsenic results
were speciated and found to be organic arsenic, the type of arsenic which is found in seafood and
is not considered toxic. All other tests (urine lead, blood or urine arsenic and mercury) were
within normal limits.

UNICOR Staff

UNICOR staff see their private physicians for medical surveillance so their exams are not
standardized. We reviewed available medical records and found that most staff members had
records for CdB, CdU, urine B-2-M, and zinc protoporphyrin (ZPP). Some had physical exams
documented, some had urinalysis, complete blood count, pulmonary function tests, or chest x­
rays.

We reviewed the biological monitoring and medical exams provided for 10 UNICOR staff,
including nine of 11 recycling technicians who had worked in electronics recycling. Each was
tested between 1 and 5 times between 2003 and 2007. Their testing was done by a number of
different laboratories, and thus, the LOD and range of normal for the tests varied. For example
the LOD for BLL was either 1 or 3 Ilg/dL. Eighteen BLLs were below the LOD, and seven
ranged from 1-2.5 Ilg/dL. One employee had a BLL of 10 Ilg/dL, however his BLLs the year
before and after were below the LOD. His urine B-2-M was elevated at 445 Ilg/g/Cr, but he had
normal B-2-M levels the year before and after this test result. Standard medical practice usually
dictates that a physician repeat a lone elevated test result to determine whether the result is
spurious (such as from lab error) or actually elevated. The tests were not repeated at the time, so
laboratory error cannot be ruled out. Twenty-five CdB were done; 12 were below an LOD of 0.5
Page 8­

IlglL, 2 were reported as zero, and the remainder ranged from 0.2-2.1 IlglL. Twenty-one CdU
were done; 13 were below the LOD of Illg/L and the rest ranged from 0.1-0.7 Ilg/L. Eighteen
urine B-2-M were done between 2003 and 2007, and all were normal with the exception noted
above. Twenty-two ZPPs were done between 2003 and 2007, and all were normal.


Interviews with Staff

Five staff asked to speak with us after NIOSH's public meeting with concerned Elkton staff on
February 21, two of the five worked in recycling. One of the recycling staff reported having been
diagnosed with iron deficiency anemia in the past year. This condition is not related to recycling
work or other occupational exposures at FCI Elkton. The other reported an increase in the blood
zinc level over the past year, however, when we reviewed this employee's biological monitoring
results, we found that it was the ZPP that had risen, and that the levels were still well within
normal limits. ZPP is not related to blood zinc. Of note, both staff noted these reported
conditions in the recent past, well after construction of the glass breaking room. An employee
from an adjacent area reported bipolar disorder, and one from another building reported
transverse myelitis, neither of which can be related to this workplace. Finally, another employee
from the adjacent area reported seeing a private physician and being tested for lead and
cadmium, and that both were below the LOD.


Industrial Hygiene
Records Review

The OIG provided consultant reports, inpustrial hygiene sampling results, and laboratory
analysis results for 13 surveys conducted at FCI Elkton between summer 2001 and November
2007. Twelve surveys were conducted by consultants to UNICOR, and one was conducted by
FOH in conjunction with a NIOSH/DART evaluation. Five reports contained sampling data
indicating worker exposures to cadmium at levels exceeding the OSHA action level, and two
reports documented exposures above the OSHA permissible exposure limit (PEL) for cadmium.
One of the reports documented lead exposure above the PEL during a now-discontinued filter
change procedure.

No industrial hygiene reports, sampling data, or laboratory analysis reports were provided for the
period from 1998 until August 2001. According to information provided by the OIG, it appears
that there are no industrial hygiene reports for this period; thus, we have no information or data
to help us assess the potential for early exposures to lead, cadmium, and possible other agents
when glass breaking occurred in other locations without local exhaust ventilation. Assuming that
we received reports for all industrial hygiene evaluations and/or laboratory analyses conducted
from 2001 through 2007, we noted that only two evaluations were conducted prior to 2004. Two
surveys were performed in 2004; no industrial hygiene evaluations were conducted in 2005,
other than an OSHA inspection which resulted in a serious citation for exposure above the
cadmium PEL and inadequate engineering/work practice controls.
Page 9­

Our review of the consultant reports found that two consultants hired by UNICOR measured
worker exposures exceeding the OSHA action level for cadmium, but did not discuss the
findings or the implications of exceeding the action level. This omission occurred during one of
two surveys conducted in 2004, and two of five surveys in 2006. The quality of the reports, i.e.,
observations, discussion, recommendations, was greatly improved in 2007 when the most recent
consultant and FOR independently evaluated the glass breaking process, ventilation, and work
practices.

2001
A laboratory report of sample analysis, dated August 20,2001, was provided to us. This
analytical report contains no information regarding the type of sample (personal sample versus
area sample), sample volume, location, the work being performed, PPE, or exposure control
methods. Lead was measured in one of the two air samples that were analyzed for lead; cadmium
was not detected. Wipe samples indicated quantifiable amounts of lead and cadmium on
surfaces.

June 2003
A laboratory report of sample analysis, dated June 3, 2003, was provided to us. Although this
analytical report contains no information regarding sample type, work processes, PPE, or
exposure control methods, the report does contain a record of sample volume along with results
for cadmium and lead. Based on an average sample volume of744 liters, and assuming that
sampling was conducted at the usual rate of two liters per minute, the nine samples from late
May 2003 provide an estimate of airborne concentrations throughout a 370 minute sampling
period. The analytical results indicate that the airborne lead concentrations were likely below the
OSHA action level; however, airborne cadmium concentrations may have exceeded the OSHA
PEL in five of the nine samples, and may have exceeded the action level in one other sample
(range: 3-37 micrograms per cubic meter of air [llg/m3]). It is important to note that, at best,
these samples only provide an estimate of airborne concentrations at unknown sampling
locations under unspecified conditions. If sampling flow rates were higher or lower than the
typical rate of two liters per minute, the concentration estimates could be higher or lower than
those noted here.

2004
Consultant reports were provided for two evaluations conducted during June 2004. On June 2,
personal breathing zone (PBZ) samples were collected for three glass breakers and one feeder;
four area samples were collected on June 2. All results were below the action level for lead and
cadmium. Wipe samples determined the presence of lead and cadmium on surfaces in the work
area. Sampling was repeated on June 18, and the consultant reported that samples collected on
this date revealed "no overexposure;" however, results in the sample summary sheet show that a
PBZ sample collected on one of three glass breakers indicated exposure to airborne cadmium at
the OSHA PEL of 5 Ilg/m3. Although this sample did not prove statistical exceedance of the
PEL, the report should have contained a recommendation for further evaluation, and guidance
regarding OSHA requirements for periodic air and medical monitoring where workers are
exposed above the action level. In addition, one of four area samples indicated an airborne
cadmium concentration of 5 Ilg/m3. Wipe samples collected on June 18 indicated that surface
contamination had been reduced in locations previously sampled on June 2. Wipe sampling was
repeated on July 9; results were similar to those for the June 18 wipe samples. The consultant
Page 10­

measured air velocity at three locations on June 18 to assess the direction and velocity of air into
and through the GBO. The consultant's report did not interpret these measurements with respect
to the effectiveness of the LEV system.

2005
No consultant reports were provided for 2005. On September 8, 2005, OSHA conducted air
monitoring for lead and cadmium that determined one of two glass breakers was exposed to
cadmium above the PEL, and lead above the action level. UNICOR was cited for the
overexposure and for inadequate engineering and work practice controls.

2006
A different environmental consulting firm was hired to conduct air sampling during glass
breaking during site visits in January, February, June, July and September 2006.

PBZ sampling results for two glass breakers and two workers outside the booth did not exceed
the action level for cadmium or lead on January 17. Several air velocity measurements were
obtained "to determine if sufficient general ventilation is provided within the glass breaking
area." No authoritative industrial hygiene references or guidelines were used to support the
consultant's conclusion that adequate ventilation was provided.

Sampling and air velocity measurements were repeated on February 17. Air sampling results for
this visit indicate that cadmium exposures exceeded the action level for one handler and one
glass breaker. As in one of the 2004 consultant reports, this report did not note that the action
level had been exceeded.

The consultant returned on June 26 and 27 to conduct air sampling and assess ventilation in the
GBO and chip recovery. Sample results indicate that a glass breaker was exposed to cadmium
above the PEL, and a handler was exposed above the action level. As in earlier consultant
reports, the report for June 26 did not mention or discuss the significance of exceeding the action
level, nor did it provide guidance regarding medical surveillance, a written compliance program,
and other OSHA requirements triggered when air sampling indicates worker exposure above the
PEL. Air sampling conducted on June 27 at chip recovery in the FSL did not detect lead or
cadmium above the analytical LODs. The consultant also collected air samples for ethylene
glycol and n-propanol at chip recovery. It is not clear why these chemicals were selected for
evaluation.

The OIG provided two laboratory reports of sample analyses (both reports are dated July 10,
2006) which appear to be for wipe samples collected in GBO and chip recovery during the June
evaluation. We did not find these laboratory results in the industrial hygiene reports that were
provided to us. One report indicates small quantities of cadmium in five samples collected from
surfaces in chip recovery (less than 4.8 Ilg/sample). The average quantity of lead in the five wipe
samples was much greater: 1600 Ilg/sample (range 190 to 6800 Ilg/sample). Small quantities of
cadmium and lead were measured ,in one sample collected from an inmate's hands. The other
laboratory report indicates that the average quantities of cadmium and lead in six surface wipe
samples collected in the GBO was 35 Ilg/sample and 290 Ilg/sample respectively. The average
amount of cadmium and lead in three hand wipe samples was 40 Ilg/sample for both elements.
Page 11­

A consultant report for a July 7 survey indicates concentrations of cadmium and lead to be well
below occupational exposure limits in five PBZ and five area air samples. A second report for
this survey notes that cadmium and lead were measured in five surface wipe samples and three
hand wipe samples. This report noted a need for more thorough cleaning of surfaces and hands.

On September 6, the consultant collected five PBZ and five area samples. All results were below
OELs. Rand wipe samples from three individuals (one staff, two inmates) measured 5.8,340,
and 870 /lg-cadmium on their hands. The corresponding quantities oflead in the hand wipes was
26,250, and 710 /lg-leadlsample. The average quantity of cadmium and lead in five surface wipe
samples was 240 /lg (range 10 to 640 /lg), and 19,000 /lg (range 57 to 85,000 /lg) respectively.

2007
On February 27 and 28, FOR collected air, wipe, bulk dust, and waste samples in the factory,
warehouse, and FSL where electronics recycling had been conducted in the past, or was currently
being conducted. Air sampling during two days of glass breaking indicated that worker
exposures were below applicable occupational exposure limits (OELs). The report noted that the
LEV system was adequately controlling exposure at the GBO during routine operations;
however, air sampling during LEV filter change-out, a maintenance function, found airborne
cadmium and lead concentrations well above the PELs. This overexposure, which exceeded the
respirator protection factor, resulted from poor change-out procedures that included banging the
dirty filters together to knock the dust off. The results of personal air monitoring in the
warehouse and FSL were well below OELs. (Note: chip removal in the FSL had been
discontinued in 2006.) Wipe samples in the factory, warehouse, and FSL found significant lead
and cadmium contamination on various surfaces. This report concluded that the surface
contamination does not pose an "imminent inhalation threat," but could "be responded to in a
prompt but well-coordinated manner." FOR noted that migration oflead- and cadmium-bearing
dust from the current GBO could be reduced by installing a three-stage decontamination room.

On September 7, the third industrial hygiene consultant, for which we received reports, evaluated
the GBO with PBZ sampling, surface wipe sampling, and assessment of the LEV system.
Airborne cadmium was above the action level. Ventilation measurements and observations
indicated apparent leakage in the LEV system. This report contained numerous recommendations
regarding ventilation system repair, testing, and maintenance, as well as recommendations for
improving work practices and use ofPPE.

On November 6, the industrial hygiene consultant conducted a subsequent evaluation ofthe
GBO. Although all air sampling results were below the action levels for lead and cadmium, the
results for one glass breaker indicated that his exposure approached the action level for
cadmium. Wipe samples found various concentrations of lead and cadmium on surfaces in the
glass breaking area.
Page 12­

HHE Sampling, March 25, 2008
Wipe sample results are presented in Table 2. Wipe samples collected from three ceiling heating,
ventilating and air-conditioning (HVAC) diffusers in ADP indicated concentrations of cadmium
and lead ranging from 11-14 Ilg/100 cm2 and 49-55 Ilg/100 cm2 respectively. Lead and cadmium
were found in a wipe sample of undisturbed dust on a ledge along the north wall of the ADP
mezzanine, and in the mixed air plenum of air handler AH-3, which serves the factory tool room
and ADP offices. These results indicate that undetermined concentrations of lead and cadmium
migrated from the factory to ADP, possibly via the HVAC system. Given the low concentrations
of airborne lead and cadmium determined by air sampling in 2007, it seems unlikely that
significant migration of contaminants is occurring at this time. It is our opinion that the wipe
sample results reflect much earlier workplace conditions, i.e., when glass breaking occurred in
the middle of the factory with only a roof exhaust fan to remove airborne dust.

Wipe samples, collected in three air handlers serving the laundry, education, visiting room, and
chapel found quantifiable concentrations of lead and cadmium. Concentrations inside these air
handlers were much lower than those inside AH-3 in the ADP. The route whereby these
contaminants migrated to these air handlers is not clear.

Two bulk samples of material beneath stone roof ballast on the factory roof at the exhaust fan of
the sawdust collection system that was in use from 2001 until May 2003 contained 1000 and
1400 parts per million (ppm) lead (by weight), and 5000 and 7400 ppm cadmium (by weight).
These samples provide evidence that glass breaking operations during the time the sawdust
collection system was in use generated cadmium- and lead-bearing dust that was exhausted to the
roof.

Cadmium and lead contamination was found on the return air damper of rooftop air handler
AHU-5HV1, which serves the factory. Given the low contaminant concentrations indicated by
air sampling conducted by FOH and the current industrial hygiene consultant, we believe
contamination inside this unit primarily reflects conditions prior to construction of the present
glass breaking room.

As shown in Table 2, quantifiable amounts of cadmium were present on the floor in three inmate
cubicles where shoes are kept. Some lead was present in one cubicle. The presence of these
metals on the floor indicates that some lead and cadmium is being tracked out of the glass
breaking room. This finding is consistent with sample results showing lead on the soles of inmate
and staff footwear (Table 2, samples W-27 and W-28).

Hand wipe samples following hand washing by inmate workers demonstrated lead contamination
on hands ranging from approximately 1.5 to 130 Ilg/wipe. This demonstrates that handwashing
needs to be improved.

Lead and cadmium contamination in two staff personal vehicles was generally below the limits
of detection and/or quantitation; however, 3.3 Ilg-lead/100 cm2 was present on the center of the
steering wheel in one vehicle. This indicates a potential for take-home contamination, but the
concentration is minimal.
Page 13­

Area air sampling results are shown in Table 3. One air sample indicated a quantifiable airborne
concentration of lead and cadmium. This sample, which was collected within a few feet of the
glass breaking operation (behind the strip curtain separating the GBO from the entry and change­
out areas), was well-below applicable OELs. The area sample collected at the window in the
GBO entry detected a trace concentration of lead and cadmium. The other six area air samples
collected in the glass breaking room, factory, and ADP did not detect lead or cadmium.


Conclusions
Electronics recycling at FCI Elkton appears to have been performed from 1997 until May 2003
without adequate engineering controls, respiratory protection, medical surveillance, or industrial
hygiene monitoring. Because of the lack of both biological monitoring and industrial hygiene
data, we cannot determine the extent of exposure to lead and cadmium that occurred during that
time frame, but descriptions of work tasks from staff and inmates indicate that exposures during
that time frame were likely higher than current exposures. The current GBO is a significant
improvement, but can be further enhanced to limit exposure to those performing glass breaking,
as well as limiting the migration of lead and cadmium from the room into other areas. While
some take-home contamination does occur, surface wipe sampling and biological monitoring
suggest that take-home contamination does not pose a health threat at this time. Take-home
contamination can be further reduced by changes to the GBO, work practices, and improved
personal hygiene as recommended below.

We cannot determine the extent of exposure to lead that occurred in the chip recovery process
because of the lack of data. Descriptions of work tasks from staff, and a BLL of5 flg/dL in an
inmate 4 months after the process ended indicate that exposure to lead during this process did
occur. We found no evidence that actions were taken to prevent exposure to lead at the outset in
the chip recovery process and found that no medical surveillance was performed until after the
process ended.

Medical surveillance that has been carried out among inmates and staff has not complied with
OSHA standards. No medical exams (including physical examinations) are done on inmates;
staff receive inconsistent examinations and biological monitoring by their personal physicians;
biological monitoring for lead is not done at established standard intervals; and results are not
communicated to the inmates. Inappropriate biological monitoring tests have been done. Records
of medical surveillance are not maintained by the employer for the appropriate length of time.

At this time, after careful review of existing records and current operations, we conclude that the
only persons with current potential for exposure to either lead or cadmium over the action level
are the inmates who perform glass breaking or the monthly filter change-out. We believe that
medical surveillance can be discontinued for all other inmates and staff. Some former inmates
and/or staff may require surveillance under the OSHA cadmium standard.

Wipe and bulk sample results indicated that lead- and cadmium-containing dust migrated out of
the GBO in the past. Low levels of lead- and cadmium-containing dust on staff and inmate shoes
and the floor mat outside the glass breaking room suggest that this is still occurring, although in
small amounts. Contamination of inmate housing and staff vehicles is occurring, but is minimal;
Page 14­

we have no data regarding the extent of past contamination in these locations. Hand washing is
less than optimal for some individuals, including both staff and inmates. There is legacy
contamination of the factory, FSL, and warehouse, which is scheduled to be remediated. We
concur with FOH that surface contamination does not present an imminent hazard at this time,
and should be remediated in a "prompt but well-coordinated manner."


Recommendations
The following recommendations are provided to improve the safety and health of both the staff
and inmates involved with electronics recycling at the Elkton FC!.

1. Continue to work with the current industrial hygiene consultant to increase the effectiveness of
the LEV system. Improvements in the LEV system will not only reduce worker exposure to
airborne contaminants, but will capture dust that would otherwise contribute to surface
contamination, which could lead to an ingestion hazard (hand-to-mouth) or inhalation hazard if
re-entrained. Conduct an industrial hygiene assessment to determine inmate exposure to lead and
cadmium after the LEV is modified.

2. The change-out room should be reconfigured to ensure that GBO workers do not carry
cadmium or lead out of the glass breaking room. Separate storage should be provided for non­
work uniforms and GBO work appareVPPE. All potentially-contaminated work clothing and PPE
should remain in the "dirty" chamber of the change-out room; non-work clothing should never
come in contact with work items. As a minimum requirement, workers should be required to
wash hands and all potentially exposed skin after doffing PPE, before putting on uniforms when
exiting the GBO. Work clothes and PPE should never be worn outside of the GBO to minimize
migration of cadmium- and lead-contaminated dust to other parts of the institution. Laundry
personnel should be made aware of the potential exposure to lead and cadmium from work
clothes and take action to minimize exposure to themselves.

3. Ensure full compliance with all applicable OSHA standards, including the General Industry
Lead standard [29 CFR 1910.1025], the Cadmium Standard [29 CFR 1910.1027], the Hazard
Communication Standard [29 CFR 1910.1200], and the Respiratory Protection Standard [29
CFR 1910.134]. This includes record keeping requirements, communication requirements,
compliance plans, and medical surveillance. In addition to the OSHA requirements, we
recommend that the preplacement examination for cadmium exposure be identical to the periodic
examinations so that baseline health status may be obtained prior to exposure.

4. Contract a board-certified, residency-trained occupational medicine physician who is familiar
with OSHA regulations on exposures at the FCI to oversee the medical surveillance program.
BOP may be able to find a local physician, or contract with Federal Occupational Health. This
contractor should also oversee medical clearance for respirators.

5. Carefully evaluate the qualifications and expertise of any consultant who may be hired to
assess occupational or environmental health and safety issues. Anyone can present himlherself as
an "industrial hygienist," regardless of education, training, or expertise. One useful benchmark
for vetting individuals who provide industrial hygiene services is the designation of Certified
Page 15­

Industrial Hygienist (CIH). Certification by the American Board ofIndustrial Hygiene (ABIH)
ensures that prospective consultants have met ABIH standards for education, ongoing training,
and experience, and have passed a rigorous ABIH certification examination. The UNICOR
and/or BOP industrial hygienists can assist in the selection of your consultants.

6. Perform a detailed job hazard analysis prior to beginning any new operation or before making
changes to existing operations. This will allow BOP to identify potential hazards prior to
exposing staff or inmates, and to identify appropriate controls and PPE. Involve the BOP and/or
UNICOR industrial hygienists in these job hazard analyses. If medical surveillance is needed
then BOP should perform pre-placement evaluations of exposed staff and inmates.

7. Appoint a union safety and health representative. This individual should be a regular
participant on the joint labor-management safety committee that meets quarterly. Since inmates
do not have a mechanism for representation on this committee, ensure that they are informed of
its proceedings and that they have a way to voice their concerns about and ideas for improving
workplace safety and health.

This interim letter will be included in a final report that will include visits to two other BOP
facilities. Please post a copy of this letter for 30 days at or near work areas of affected staff and
inmates. Thank you for your cooperation with this evaluation. If you have any questions, please
do not hesitate to contact us at 513-841-4382.

                                               Sincerely yours,




                                               Elena H. Page, M.D., M.P.H.
                                               Medical Officer




                                               David Sylvain, M.S., C.I.H.
                                               Industrial Hygienist
                                               Hazard Evaluations and Technical
                                                Assistance Branch
                                               Division of Surveillance, Hazard
                                                Evaluations and Field Studies

cc:
J. T. Shartle, Warden, FCI Elkton
Bill Meek, Vice-President, AFGE Local 607
Paul Laird, Assistant Director, UNICOR
Page 16­


Tables

           Table 1. Blood lead levels of inmates doing glass breaking, by year

           HETA 2008-0055, Federal Bureau of Prisons, FCI Elkton, Elkton, OH

                          Mean Bll                  Median Bll      Range              Number
              Year
                            (~g/dL)                   (~g/dL)       (~g/dL)            sampled

              2003             5.6                     4.5               3-9              7

              2004             3.7                      3.0              2-7              7

              200.5            3.7                      3.9             2-10             12

              2006             2.3                      2.0              1-5             13

              2007             1.7                      1.5              1-4             10




                                                                                                      HETA 2008-0055
Table 2.                                                                                      Federal Bureau of Prisons
Wi                                      2008                                                    FCI Elkton Elkton OH
                                         Approx.
                                         Elevation                Area




              ADP                                                 200            21      11            97        49

                                                                   100         trace                   nd




W-5                     HVAC diffuser          15                 200            28      14           110        55

W-6                                                                100           nd                    nd
Page 17-


                                                                                                                     HETA 2008-0055
Table 2. (Continued)                                                                                         Federal Bureau of Prisons
                                                                                                                FCI Elkton Elkton OH
                                        Approx.
                                        Elevation                           Area




                                                                             100             820           820       970
          Factory
         Mezzanine


                                                                             315             70            22        430
        AOP                                           ledge along
                                             8        north wall             100


                                                                             not
                                            n/a


                                                                             not




                                                                             315             2.1           0.67       19        6.0


                                                      serves
                                                      education                              8.3           3.1        46        17



                                                                                             2.7           2.7        16        16


          C/O Unit                           0
          O-A cube
            51U        combination
                       lock on inmate                                         not
W-16                   locker               1%                            determined          13
                       floor, inmate                  where shoes
W-17      C/O Unit     cubicle               0        are kept               100            0.19
          O-A cube
                       combination
            29L
                       lock on inmate                                         not
W-18                   locker               1%                            determined        0.19
                       floor, inmate                  where shoes
W-19      C/O Unit     cubicle                        are kept                               0.23
          O-B cube
            005        combination
                       lock on inmate                                        not




                                                        hand wipe after
                                                        washing hands
                           hands, inmate                at end of             not
           Factory
                     f-..!!#::::3_ _ _ _+_...!n!!.:/a~~ workday in        determined
                                                                                       1---"..:'::':::"-
                           hands, inmate                glass breaking
W-24                   #4
                       hands, inmate
W-25                   #5                                                                     11
 Page 18­


                                         H ETA 2008-0055
  Table 2. (Continued)           Federal Bureau of Prisons
                                    FCI Elkto Elkton OH




                Factory
1--'-':"":'::""--1 (continued)




                  personal
                   vehicle
                   (Jeep)




                  personal
                   vehicle
                  (Mazda)

  W-44
Page 19­

      Table 3. Area air sampling for lead and cadmium

      HETA 2008-0055, Federal Bureau of Prisons, Fel Elkton, Elkton, OH

                               Sampling      Sample            Cadmium                       Lead
                                Period       Volume          Concentration               Concentration
                                                                     3                           3
            Location           (minutes)     (liters)           (pg/m )                     (pg/m )
      HEPA discharge
      area behind glass
      breaking                    407          810                  nd                          nd
      At window in glass
      breaking                    408          816                trace                       trace
      Stanchion next to
      glass breaking              376          753                 0.31                        4.6
      Change-out area
      near clock                  406          808                  nd                          nd
      Mezzanine rail
      above glass
      breaking                    403          802                  nd                          nd
      At vinyl strip curtain
      in glass breaking
      entry                       387          774                  nd                          nd
      ADP, east center            380          760                  nd                          nd
      ADP, west center            381          762                  nd                          nd
      NIOSH REL·TWA                                                 Ca                          50
      OSHA PEL·TWA                                                   5                          50
      ACGIHTLV                                                      10                          50


     "nd" (not detected) indicates that the sample result is below the analytical limit of detection. The limits of detection for
     cadmium and lead are 0.02 ug/wipe and 0.6 ug/wipe, respectively.

     "trace" indicates that the sample result is between the analytical limits of detection and quantitation. The limits of quantitation
     for cadmium and lead are 0.077 ug/wipe and 1.9 ug/wipe, respectively.

     See the Appendix for a discussion of NIOSH recommended exposure limits (RELs), OSHA permissible exposure limits
     (PELs), and ACGIH Threshold Limit Values (TLVs).

     "Ca" indicates that NIOSH regards cadmium as a potential occupational carcinogen and that exposures should be reduced
     to the lowest feasible concentration.




References

NIOSH [2003a]. Elements by ICP: Method 7303. In: NIOSH Manual of Analytic Methods, 4th
ed, 3rd Suppl. Cincinnati, OH: U.S. Department of Health and Human Services, Centers for
Disease Control and Prevention, National Institute for Occupational Safety and Health, DHHS
(NIOSH) Publication No. 03-127.

NIOSH [2003b]. Elements on wipes: Method 9102. In: NIOSH Manual of Analytic Methods, 4th
ed, 3rd Suppl. Cincinnati, OH: U.S. Department of Health and Human Services, Centers for
Disease Control and Prevention, National Institute for Occupational Safety and Health, DHHS
(NIOSH) Publication No. 03-127.

NIOSH [2003c]. Lead in dust wipes by chemical spot test (colorimetric screening method):
Method 9105. In: NIOSH Manual of Analytic Methods, 4th ed, 3rd Supp!. Cincinnati, OH: U.S.
Department of Health and Human Services, Centers for Disease Control and Prevention,
National Institute for Occupational Safety and Health, DHHS (NIOSH) Publication No. 03-127.
Page 20­

Appendix
Occupational exposure limits and health effects

In evaluating the hazards posed by workplace exposures, NIOSH investigators use both
mandatory (legally enforceable) and recommended occupational exposure limits (OELs) for
chemical, physical, and biological agents as a guide for making recommendations. OELs have
been developed by Federal agencies and safety and health organizations to prevent the
occurrence of adverse health effects from workplace exposures. Generally, OELs suggest levels
of exposure to which most workers may be exposed up to 10 hours per day, 40 hours per week
for a working lifetime witJIout experiencing adverse health effects. However, not all workers will
be protected from adverstthealth effects even if their exposures are maintained below these
levels. A small percentage may experience adverse health effects because of individual
susceptibility, a pre-existing medical condition, and/or a hypersensitivity (allergy). In addition,
some hazardous substances may act in combination with other workplace exposures, the general
environment, or with medications or personal habits of the worker to produce health effects even
if the occupational exposures are controlled at the level set by the exposure limit. Also, some
substances can be absorbed by direct contact with the skin and mucous membranes in addition to
being inhaled, which contributes to the individual's overall exposure.

Most OELs are expressed as a time-weighted average (TWA) exposure. A TWA refers to the
average exposure during a normal 8- to lO-hour workday. Some chemical substances and
physical agents have recommended short-term exposure limit (STEL) or ceiling values where
health effects are caused by exposures over a short-period. Unless otherwise noted, the STEL is a
15-minute TWA exposure that should not be exceeded at any time during a workday, and the
ceiling limit is an exposure that should not be exceeded at any time.

In the U.S., OELs have been established by Federal agencies, professional organizations, state
and local governments, and other entities. Some OELs are legally enforceable limits, while
others are recommendations. The U.S. Department of Labor Occupational Safety and Health
Administration's (OSHA) permissible exposure limits (PELs) (29 CFR2 1910 [general industry];
29 CFR 1926 [construction industry]; and 29 CFR 1917 [maritime industry]) are legal limits
enforceable in workplaces covered under the Occupational Safety and Health Act. NIOSH
recommended exposure levels (RELs) are recommendations based on a critical review of the
scientific and technical information available on a given hazard and the adequacy of methods to
identify and control the hazard. NIOSH RELs can be found in the NIOSH Pocket Guide to
Chemical Hazards [NIOSH 2005]. NIOSH also recommends different types of risk management
practices (e.g., engineering controls, safe work practices, worker education/training, personal
protective equipment, and exposure and medical monitoring) to minimize the risk of exposure
and adverse health effects from these hazards. Other OELs that are commonly used and cited in
the U.S. include the threshold limit values (TLVs) recommended by the American conference of
Governmental Industrial Hygienists (ACGIH), a professional organization, and the Workplace




2   Code ofFederal Regulations. See CFR in references.
Page 21­

environmental exposure limits (WEELs) recommended by the American Industrial Hygiene
Association, another professional organization. ACGIH TLV s are considered voluntary exposure
guidelines for use by industrial hygienists and others trained in this discipline "to assist in the
control of health hazards" [ACGIH 2007]. WEELs have been established for some chemicals
"when no other legal or authoritative limits exist" [AIHA 2007].

Outside the U.S., OELs have been established by various agencies and organizations and include
both legal and recommended limits. Since 2006, the Berufsgenossenschaftlichen Institut fUr
Arbeitsschutz (German Institute for Occupational Safety and Health) has maintained a database
of international OELs from European Union member states, Canada (Quebec), Japan,
Switzerland, and the U.S. [http://www.hvbg.de/elbia/gestis/limit_valueslindex.html]. The
database contains international limits for over 1250 hazardous substances and is updated
annually.

Employers should understand that not all hazardous chemicals have specific OSHA PELs, and
for some agents the legally enforceable and recommended limits may not reflect current health­
based information. However, an employer is still required by OSHA to protect its employees
from hazards even in the absence of a specific OSHA PEL. OSHA requires an employer to
furnish employees a place of employment free from recognized hazards that cause or are likely
to cause death or serious physical harm [Occupational Safety and Health Act of 1970 (Public
Law 91-596, sec. 5(a)(I))]. Thus, NIOSH investigators encourage employers to make use of
other OELs when making risk assessment and risk management decisions to best protect the
health of their employees. NIOSH investigators also encourage the use of the traditional
hierarchy of controls approach to eliminate or minimize identified workplace hazards. This
includes, in order of preference, the use of: (1) substitution or elimination of the hazardous agent,
(2) engineering controls (e.g., local exhaust ventilation, process enclosure, dilution ventilation),
(3) administrative controls (e.g., limiting time of exposure, employee training, work practice
changes, medical surveillance), and (4) personal protective equipment (e.g., respiratory
protection, gloves, eye protection, hearing protection). Control banding, a qualitative risk
assessment and risk management tool, is a complementary approach to protecting worker health
that focuses resources on exposure controls by describing how a risk needs to be managed
[http://www.cdc.gov/nioshltopics/ctrlbanding/].This approach can be applied in situations where
OELs have not been established or can be used to supplement the OELs, when available.


Lead

Occupational exposure to lead occurs via inhalation of lead-containing dust and fume and
ingestion from contact with lead-contaminated surfaces. In cases where careful attention to
hygiene (for example, handwashing) is not practiced, smoking cigarettes or eating may represent
another source of exposure among workers who handle lead. Industrial settings associated with
exposure to lead and lead compounds include smelting and refining, scrap metal recovery,
automobile radiator repair, constructio~ and demolition (including abrasive blasting), and firing
range operations [ACGIH 2001]. Occupational exposures also occur among workers who apply
and/or remove lead-based paint or among welders who bum or torch-cut metal structures.
Page 22­

Acute lead poisoning, with blood lead levels (BLLs) usually over 70 micrograms per deciliter of
whole blood (J..lg/dL), presents with abdominal pain, hemolytic anemia, neuropathy, and has in
very rare cases progressed to encephalopathy and coma [Moline and Landrigan 2005].
Symptoms of chronic lead poisoning include headache, joint and muscle aches, weakness,
fatigue, irritability, depression, constipation, anorexia, and abdominal discomfort [Moline and
Landrigan 2005]. Overt symptoms usually do not develop until the BLL reaches 30-40 J..lg/dL
[Moline and Landrigan 2005]. Overexposure to lead may also result in damage to the kidneys,
anemia, high blood pressure, impotence, and infertility and reduced sex drive in both sexes.
Studies have shown subclinical effects on heme synthesis, renal function, and cognition at BLLs
<10 J..lg/dL [ATSDR 2007]. Inorganic lead is reasonably anticipated to cause cancer in humans
[ATSDR 2007].

In most cases, an individual's BLL is a good indication of recent exposure to lead, with a half-life
(the time interval ittakes for the quantity in the body to be reduced by half its initial value) of 1­
2 months [Lauwerys and Hoet 2001; Moline and Landrigan 2005; NCEH 2005;]. The majority of
lead in the body is stored in the bones, with a half-life of years to decades. Bone lead can be
measured using x-ray techniques, but these are primarily research based and are not widely
available. Elevated zinc protoporphyrin (ZPP) levels have also been used as an indicator of
chronic lead intoxication, however, other factors, such as iron deficiency, can cause an elevated
ZPP level, so the BLL is a more specific test for evaluating occupational lead exposure.

In 2000, NIOSH established an REL for inorganic lead of 50 micrograms per cubic meter of air
(J..lg/m3) as an 8-hour TWA. This REL is consistent with the OSHA PEL, which is intended to
maintain worker BLLs below 40 J..lg/dl; medical removal is required when an employee has a
BLL of60 J..lg/dL, or the average of the last 3 tests at 50 J..lg/dL or higher [29 CFR 1910.1025; 29
CFR 1962.62]. NIOSH has conducted a literature review of the health effects data on inorganic
lead exposure and finds evidence that some of the adverse effects on the adult reproductive,
cardiovascular, and hematologic systems, and on the development of children of exposed
workers can occur at BLLs as low as 10 J..lg/dl [SussellI998]. At BLLs belo~ 40 J..lg/dl, many of
the health effects would not necessarily be evident by routine physical examinations but
represent early stages in the development of lead toxicity. In recognition of this, voluntary
standards and public health goals have established lower exposure limits to protect workers and
their children. The ACGIH TLV for lead in air is 50 J..lg/m3 as an 8-hour TWA, with worker
BLLs to be controlled to :s 30 J..lg/dl. A national health goal is to eliminate all occupational
exposures that result in BLLs >25J..lg/dl [DHHS 2000]. The Third National Report on Human
Exposure to Environmental Chemicals (TNRHEEC) found the geometric mean blood lead
among non-institutionalized, civilian males in 2001-2002 was 1.78 J..lg/dL [National Center for
Environmental Health 2005].

OSHA requires medical surveillance on any employee who is or may be exposed to an airborne
concentration oflead at or above the action level, which is 30 J..lg/m 3 as an 8-hour TWA for more
than 30 days per year [29 CFR 1910.1025]. Blood lead and ZPP levels must be done at least
every 6 months, and more frequently for employees whose blood leads exceed certain levels. In
Page 23­

addition, a medical examination must be done prior to assignment to the area, and should include
detailed history, blood pressure measurement, blood lead, ZPP, hemoglobin and hematocrit, red
cell indices, and peripheral smear, blood urea nitrogen (BUN), creatinine, and a urinalysis.
Additional medical exams and biological monitoring depend upon the circumstances, for
example, if the blood lead exceeds a certain level.


Cadmium

Cadmium is a metal that has many industrial uses, such as in batteries, pigments, plastic
stabilizers, metal coatings, and television phosphors [ACGIH 2001]. Workers may inhale
cadmium dust when sanding, grinding, or scraping cadmium-metal alloys or cadmium­
containing paints [ACGIH 2001]. Exposure to cadmium fume may occur when materials
containing cadmium are heated to high temperatures, such as during welding and torching
operations; cadmium-containing solder and welding rods are also sources of cadmium fume. In
addition to inhalation, cadmium may be absorbed via ingestion; non-occupational sources of
cadmium exposure include cigarette smoke and dietary intake [ACGIH 2001]. Early symptoms
of cadmium exposure may include mild irritation of the upper respiratory tract, a sensation of
constriction of the throat, a metallic taste and/or cough. Short-term exposure effects of cadmium
inhalation include cough, chest pain, sweating, chills, shortness of breath, and weakness [Thun et
al. 1991]. Short-term exposure effects of ingestion may include nausea, vomiting, diarrhea, and
abdominal cramps [Thun et al. 1991]. Long-term exposure effects of cadmium may include loss
of the sense of smell, ulceration of the nose, emphysema, kidney damage, mild anemia, and an
increased risk of cancer of the lung, and possibly of the prostate [ATSDR 1999].

The OSHA PEL (29 CFR 1910.1027) for cadmium is 5 Jlg/m3 TWA [CFR 1993]. The ACGIH
has a TLV for total cadmium of 10 Jlg/m3 (8-hour TWA), with worker cadmium blood level to
be controlled at or below 5 Jlg/dL and urine level to be below 5 Jlg/g creatinine, and designation
of cadmium as a suspected animal carcinogen [ACGIH 2007]. NIOSH recommends that
cadmium be treated as a potential occupational carcinogen and that exposures be reduced to the
lowest feasible concentration [NIOSH 1984].

Blood cadmium levels measured while exposure is ongoing reflect fairly recent exposure (in the
past few months). The half-life is biphasic, with rapid elimination (half-life approximately 100
days) in the first phase, but much slower elimination in the second phase (half-life of several
years) [Lauwerys and Hoet 2001; Franzblau 2005]. Urinary cadmium levels are reflective of
body burden and have a very long half-life of 10-20 years [Lauwerys and Hoet 2001].

OSHA requires medical surveillance on any employee who is or may be exposed to an airborne
concentration of cadmium at or above the action level, which is 2.5 Jlg/m3 as an 8-hour TWA for
more than 30 days per year [29 CFR 1910.1027]. A preplacement examination must be provided,
and shall include a detailed history, and biological monitoring for urine cadmium (CdU) and
beta-2-microglobulin (B-2-M), both standardized to grams of creatinine (g/Cr), and blood
cadmium (CdB), standardized to liters of whole blood (lwb). OSHA defines acceptable CdB
levels as < 5 JlglL, CdU as < 3 Jlg/g/Cr, and B-2-M as < 300 Jlg/g/Cr. NHANES III found
geometric mean CdB of 0.4 JlglL among men in 1999-2000. The geometric mean CdU for men
in 2001-2002 was 0.2 Jlg/g/Cr. Smokers can have CdB levels double that ofnop-smokers
Page 24­

[Lauwerys and Hoet 2001]. Periodic surveillance is also required one year after the initial exam
and at least biennially after that. Periodic surveillance shall include the biological monitoring,
history and physical examination, a chest x-ray (frequency to be determined by the physician
after the initial x-ray), pulmonary function tests, blood tests for BUN, complete blood count
(CBC), and Cr, and a urinalysis. Men over 40 years of age require a prostate examination as
well. The frequency of periodic surveillance is determined by the results of biological monitoring
and medical examinations. Biological monitoring is required annually, either as part of the
periodic surveillance or on its own. We recommend that the preplacement examination be
identical to the periodic examinations so that baseline health status may be obtained prior to
exposure. Termination of employment examinations, identical to the periodic examinations, are
also required. The employer is required to provide the employee with a copy of the physician's
written opinion from these exams and a copy of biological monitoring results within 2 weeks of
receipt.

Biological monitoring is also required for all employees who may have been exposed at or above
the action level unless the employer can demonstrate that the exposure totaled less than 60
months. In this case it must also be conducted one year after the initial testing. The need for
further monitoring for previously exposed employees is then determined by the results of the
biological monitoring.


Zinc

Zinc is a very common element in the earth's crust, and is found in air, soil, water, and foods. It
has many industrial uses. For example, metallic zinc is used to galvanize other metals, and zinc
compounds are used in paints, ceramics, rubber products, and in many drug products, like
ointments, sunscreen, vitamins, and shampoos. Zinc is an essential element, which means it is
required for the body to function properly. Zinc is not well absorbed through the skin, but is
absorbed through the gastrointestinal system. Inhalational exposure to high levels of zinc oxide
fume (generally above 75 mg/m3) can cause metal fume fever. [ATSDR 2005]. Metal fume fever
is a syndrome of cough, shortness of breath, fever, aches, chills, and a high white blood cell
count that occurs within hours of exposure, and can last up to 4 days. Normal serum or plasma
zinc levels are about I mg/mL [ATSDR 2005]. The OSHA PEL and the NIOSH REL for zinc
oxide are 5 mg/m3 . This is 100 times higher than the PEL for lead, and reflects the relatively low
toxicity of zinc. There is no mandated medical surveillance for workers exposed to zinc.

References
ACGIH [2001]. 2001 Documentation of the threshold limit values and biological exposure
indices. Cincinnati, OH: American Conference of Governmental Industrial
Hygienists.

ACGIH [2007]. 2007 TLVs® and BEIs®: threshold limit values for chemical substances and
physical agents and biological exposure indices. Cincinnati, OH: American Conference of
Governmental Industrial Hygienists.
Page 25­

AIHA [2007]. 2007 Emergency response planning guidelines (ERPG) & workplace
environmental exposure levels (WEEL) handbook. Fairfax, VA: American Industrial Hygiene
Association.

ATSDR [1999]. Toxicological profile for Cadmium. Atlanta, GA: U.S. Department of Health
and Human Services, Public Health Service.

ATSDR [2005]. Toxicological profile for Zinc. Atlanta, GA: U.S. Department of Health and
Human Services, Public Health Service.

ATSDR [2007]. Toxicological profile for Lead. Atlanta, GA: U.S. Department of Health and
Human Services, Public Health Service.

CFR. Code of Federal Regulations. Washington, DC: U.S. Government Printing Office, Office
of the Federal Register.

CFR [29 CFR 1910.1027 (1993)]. Code of Federal Regulations. Washington, DC: U.S.
Government Printing Office, Office of the Federal Register.

CFR. OSHA lead standard for general industry. 29 CFR, Part 1910.1025. Washington, DC: U.S.
Government Printing Office, Office of the Federal Register.

CFR. OSHA construction industry lead standard. 29 CFR, Part 29 CFR 1926.62. Washington,
DC: U.S. Government Printing Office, Office of the Federal Register.
                                                                           nd
DHHS [2000]. Healthy people 2010: Understanding and Improving Health. 2 ed.
Washington, DC: U.S. Department of Health and Human Services. Available on the
internet at: www.health.gov/healthypeople/Documentidefault.htm

Franzblau A [2005]. Cadmium. Chapter 39.4. In: Textbook of clinical occupational and
environmental medicine, Rosenstock L, Cullen MR, Brodkin CA, and Redlich CA, eds., 2nd ed.
Philadelphia, PA: Elsevier Saunders, pp. 955-958.

Lange JR, [2001]. A Suggested Lead Surface Concentration Standard for Final Clearance of
Floors in Commercial and Industrial Buildings; Indoor Built Environment 10:48-51.

Lauwerys RR, Hoet P [2001]. Chapter 2. Biological monitoring of exposure to inorganic and
organometallic substances. In: Industrial chemical exposure: guidelines for biological
monitoring. 3rd ed. Boca Raton, FL: CRC Press, LLC, pp. 21-180.

Moline JM, Landrigan PI. [2005]. Lead. Chapter 39.8. In: Textbook of clinical occupational and
environmental medicine, Rosenstock L, Cullen MR, Brodkin CA, and Redlich CA, eds., 2nd ed.
Philadelphia, PA: Elsevier Saunders, pp. 967-979.

NCEH [2005]. Third national report on human exposure to environmental chemicals. Atlanta,
GA: U.S. Department of Health and Human Services, Public Health Service, Centers for Disease
Control and Prevention. NCEH Publication number 05-0570.
Page 26­

NIOSH [1978]. Occupational exposure to inorganic lead. Cincinnati, OH: U.S.
Department of Health, Education, and Welfare, Public Health Service Center for Disease
Control and Prevention, National Institute for Occupational Safety and Health, DHEW
(NIOSH) Publication No. 78-158.                                                .

NIOSH [1984]. Current Intelligence Bulletin #42: Cadmium. Cincinnati, OH: U.S. Department
of Health and Human Services, Public Health Service, Centers for Disease Control, National
Institute for Occupational Safety and Health, DHHS (NIOSH)/DOL (OSHA) Publication No.84­
116.

NIOSH [2005]. NIOSH pocket guide to chemical hazards. Cincinnati, OH: U.S. Department of
Health and Human Services, Centers for Disease Control and Prevention, National Institute for
Occupational Safety and Health, DHHS (NIOSH) Publication No. 2005-149.
[http://www.cdc.gov/nioshlnpg/]. Date accessed: March 2008.

Thun 1M, Elinder C, Friberg L [1991]. Scientific basis for an occupational standard for
cadmium. American Journal ofIndustrial Medicine 20:629-642.

62 Fed. Reg. 206 [1997]. National Institute for Occupational Safety and Health;
occupational exposure to inorganic lead: request for comments and information.
Page 27­


bcc:

B. Bernard (electronic copy)
N. Burton (electronic copy
E. Page (electronic copy)
D. Sylvain (electronic copy)
J. Riley (electronic copy) 

HETAB file room, HETA 2008-0055 (paper copy) 

     DEPARTMENT OF HEALTH AND HUMAN SERVICES                                    Public Health Service


                                                                                National Institute for Occupational
                                                                                 Safety and Health
                                                                                Robert A. Taft Laboratories
                                                                                4676 Columbia Parkway
                                                                                Cincinnati OH 45226-1998



                                                                                 February 9, 2009
                                                                                HETA 2008-0055




Investigative Counsel
Oversight and Review Division
Office of the Inspector General
United States Department of Justice, Suite 13100
Washington D.C. 20530



On November 27,2007, the National Institute for Occupational Safety and Health (NIOSH)
received your request for technical assistance in your health and safety investigation of the
Federal Prison Industries (UNICOR) electronics recycling program at Federal Bureau of Prisons
(BOP) institutions in Elkton, Ohio; Texarkana, Texas; and Atwater, California. You asked us to
assist the United States Department of Justice, Office of the Inspector General (USDOJ, OIG) in
assessing the existing medical surveillance program for inmates and staff exposed to lead and
cadmium during electronics recycling, and to make recommendations for future surveillance. In
addition, you asked us to assess past exposures to lead and cadmium, and to investigate the
potential for take home exposure. This interim letter summarizes our findings and provides
recommendations to improve the safety and health of the inmates and staff at the Federal
Correctional Institution (FCI) in Texarkana, Texas. These findings will be included in a final
report that will contain findings from the evaluations at all three institutions identified in your
request.

Background

Information available to us indicates that electronics recycling at FCI Texarkana was performed
from 2001 until May 2004 without appropriate engineering controls, respiratory protection,
medical surveillance, or industrial hygiene monitoring. In late 2001, the glass breaking operation
(GBO) commenced in the basement of the FCI. The GBO is where cathode ray tubes (CRTs)
from computer monitors or televisions are processed. As reported to us, the first GBO had been
retrofitted with an exhaust ventilation system that had been used in the FCI's furniture factory.
Large fans used for cooling the work area reportedly disseminated dust from the GBO
throughout the basement. In the summer of 2002, the GBO was moved to an old dairy bam at the
camp (the lower security part of the FCI) while a containment area was built for the GBO in the
factory in the basement of the FCI. This containment consisted of wooden walls topped by a
Page 2­

screen, which was designed to decrease dissemination of "silver floating material" in the air from
the GBO. Managers, employees, and inmates had no knowledge that lead or cadmium exposure
was a potential health hazard. The GBO moved back to the FCI basement in the fall of 2002 and
medical surveillance for inmates performing glass breaking and staff in recycling was begun in
mid-late 2003. Recycling moved to its current location at the camp in May 2004, where a glass
breaking booth was constructed. The booth is reported to have undergone various modifications
since its initial construction.

At the time of the NIOSH site visits, the GBO reportedly processed 300 to 400 CRTs per day
during two work shifts, which run for three hours in the morning and two hours after lunch.
From a pool of approximately eight inmates, four are assigned to work as glass breakers (2) and
feeders (2) during each work shift. Each inmate is allowed to work as a glass breaker for a
maximum of one shift per day.

Electronics recycling at the camp consists of manual disassembly of computers and other
electronics, manual chip recovery, and glass breaking. The glass breaking booth is divided into
seven areas, identified as zones 1 through 7 on the enclosed diagram (See Figure 1). Except for
the inmate locker area and storage closet which are enclosed by walls, the zones are separated by
vinyl strip curtains suspended from the ceiling.

Two stand-alone high efficiency particulate air (HEPA) filtered ventilation units provide local
exhaust ventilation (LEV) to control dust emissions at the panel and funnel glass breaking
stations in zone 7. Vinyl strip curtains at the face (intake) of each HEPA unit enclose the CRT
while it is manually broken. The HEPA units discharge filtered air into the glass breaking booth.
Two additional HEPA ventilation units provide general air filtration to remove dust from glass
booth air. One of these units is in the feeder area, and the other is along a wall in zone 7. In 2007,
air-conditioning was installed in the GBO, and four large exhaust fans were installed on opposite
walls of the factory (two fans on each wall).

Two inmate glass breakers, one at each workstation, use hammers to break CRTs. CRTs are
provided to the breakers by two inmate feeders, who place intact CRTs onto a manual roller
conveyor that allows CRTs to be rolled into the vinyl strip curtain enclosures at each ofthe
breaking stations. At the right breaker station, the funnel glass breaker reaches through the vinyl
strip curtain and breaks the funnel glass, which drops into a Gaylord box beneath the conveyor.
The panel glass is then rolled into the enclosure at the panel glass station, where the panel glass
breaker breaks the panel glass into pieces that drop into a second Gaylord box. The electron gun,
frit, and metal components are also removed during the breaking process and are deposited into
containers.

At the start of morning and afternoon shifts, glass breakers and feeders take personal protective
equipment (PPE) from their lockers and don the PPE in the change-out area in zone 4. Glass
breakers and feeders wear hearing protection, Tyvek® suits, Kevlar® sleeves, Kevlar® gloves,
and steel-toe footwear. Glass breakers wear hooded powered air-purifying respirators (P APRs)
with HEPA filters as prescribed in the FCI Texarkana Respiratory Protection Program. Feeders
(who remain in zone 6) do not wear respiratory protection, but do wear safety glasses in lieu of
the protective P APR facepiece. At the end of the shift, workers return to zone 4 where they
remove the PPE. At the time of the two site visits, workers stored P APRs and other PPE in a
Page 3­

single locker. Shortly after the July 2008 sampling visit, new lockers were installed so that
workers can store PAPRs separately from other PPE, thereby reducing the chance that residual
dust on gloves and other PPE will contaminate PAPRs.

Movement of workers and equipment within the glass booth, and between the booth and areas
outside the booth, is controlled to reduce dust carryout on shoes and equipment. Glass breakers
are the only workers allowed in zone 7 during glass breaking, and they remain in zone 7
throughout the work shift. The pallet jack that is used in zone 7 never leaves zone 7. Forklifts
enter the booth no further than zone 5. Full Gaylord boxes are shrink-wrapped before being
moved to the edge of zone 5, where the boxes are removed with a forklift.

At the end of a shift, glass breakers and feeders dry-sweep the GBO floor, then wet mop it with a
dilute mixture of Simple Green® and water. A REP A vacuum cleaner is used to remove dust
from various surfaces in zone 7, and from the face of the pre filters on the REPA units at the glass
breaking stations. Workers remain in PPE while performing end-of-shift cleanup. Dry sweeping
and shovels are also used to clean the floor after full Gaylord boxes are removed from the GBO.

Pre filters installed in REP A units are changed weekly. The REP A filter in each unit is changed
annually by inmates wearing PPE. This is accomplished by removing the prefilter, REP A
vacuuming accessible surfaces, removing the REPA filter, and sliding the filter into a plastic bag
which is then double-bagged for disposal.

Assessment

We reviewed the following documents:

   • 	 Results of medical surveillance performed between 2003 and 2007 (provided by your
       office);

   • 	 Medical records for two inmates reported to have serious medical problems secondary to
       work in recycling;

   • 	 Results of biologic monitoring (provided by the medical clinic at FeI Texarkana);

   • 	 Work instructions for the GBO and maintenance;

   • 	 Rosters for inmates working in recycling that provided location and dates of work 

       (provided by the factory manager); 


   • 	 Timelines for recycling operations (provided by you);

   • 	 DOJ interviews with staff and ill1I)ates and;

   • 	 Results of industrial hygiene sampling performed by consultants to UNICOR.
Page 4­

We conducted a site visit on June 24-25,2008 with you. During this site visit we held an opening
conference with FCI and UNICOR management, American Federation of Government
Employees (AFGE) representatives, UNICOR recycling staff, and the health services
administrator and regional medical director. After the conference we toured the former recycling
locations in the basement of the FCI and in the dairy bam at the camp, and the current recycling
operation at the camp. We conducted informational meetings with FCI and UNICOR staff, and
inmates. We also met with the safety manager, factory manager, and health services
administrator. We ended the site visit with a closing conference where we presented our initial
findings and recommendations.

We were told that BOP has had an industrial hygienist on staff for several years, and that
UNICOR recently hired one. Neither of these individuals was present during our visit, and it is
unclear what, if any role, they may have had in setting-up or monitoring the electronic recycling
program.

On July 16, 2008, we conducted an industrial hygiene survey to assess worker exposures to
cadmium and lead during glass breaking. Full-shift personal breathing zone (PBZ) air sampling
for cadmium and lead was conducted for each worker who performed glass breaking or feeder
duties on this date. Area air samples were collected inside and outside the glass breaking booth.
Air samples were collected, digested, and analyzed according to NIOSH Method 7303 [NIOSH
2009].

Surface wipe samples were collected in inmate lockers, and from PAPR face shields, the table
where inmates don and doff PPE, the floor where the forklift accesses the glass breaking booth,
and desktops outside the glass breaking booth. These samples were collected by wiping a 100
square centimeter (cm2) area (10 cm2 x 10 cm2) according to the sampling procedure outlined in
NIOSH Method 9102 [NIOSH 2009]. Hand wipe samples were collected according to the dermal
sampling procedure outlined in NIOSH Method 9105 [NIOSH 2009] Hand wipe samples were
collected after workers had washed their hands at the end of each work shift. All wipe samples
were collected using Ghost Wipes, which were digested and analyzed for elements according to
NIOSH Method 9102 [NIOSH 2009] with modifications for digestion (a nitriclhydrochloric acid
mix was used in place of perchloric acid).

Results and Discussion 1
Medical surveillance
Inmates

Medical surveillance began in late 2003 for inmates in the GBO.1t is performed annually by the
FCI clinic and consists oflimited biological monitoring, a medical and occupational history
questionnaire, and respirator clearance. Preplacement testing is performed on inmates prior to
being cleared to work in the GBO, with the exception of those already working there when
surveillance began. The inmates are seen by a physician's assistant and their test results are
discussed with them. Biological monitoring consists of blood lead levels (BLL), blood cadmium

1   See Occupational exposure limits and health effects in Appendix.
Page 5­

(CdB), urine cadmium (CdU), urine beta-2-micro.glo.bulin (B-2-M), and zinc pro.to.po.rphyrin
(ZPP). Paper co.pies o.ftest results are maintained in the inmate's perso.nal medical reco.rd but no.t
with UNICOR management. Each inmate's medical reco.rds are transferred with them; no.
medical reco.rds are retained at Texarkana after an inmate is either transferred or released. The
results o.fthe available inmate bio.lo.gical mo.nito.ring are summarized in the fo.llo.wing sectio.ns.
Because measurements o.n individual inmates and staff were sporadic and the number tested
small, we did no. gro.up analyses o.f the data.

Bio.lo.gical mo.nito.ring results were available fo.r 28 inmates, altho.ugh no.t all inmates had all tests
perfo.rmed. Preplacement BLLs were available fo.r 13 inmates who. perfo.rmed glass breaking.
The labo.rato.ry's limit o.f detectio.n (LOD) fo.r blo.o.d lead was either 1.0 micro.gram per deciliter
o.fwho.le blo.o.d (llg/dL) o.r 3.0 llg/dL, depending o.n the lab used. One o.fthe 13 was less than the
LOD o.f 1.0 llg/dL, and the o.thers ranged from 1.1-5.0 llg/dL. Seventeen perio.dic o.r terminatio.n
BLLs were available: seven were less than the LOD o.f3.0 llg/dL and o.ne was less than the LOD
o.f 1.0 llg/dL. The remaining nine ranged from 1.2-2.411g/dL. One inmate who. wo.rked in the
GBO since 2001 had a BLL in March 2004 that was less than the LOD o.f3.0 llg/dL. Ano.ther
inmate had a BLL o.f 5 llg/dL in August 2002, but his start date in GBO was listed as 2004. He
likely wo.rked in GBO at two. separate times. This BLL reflects expo.sure prio.r to. the installatio.n
o.fthe current GBO in May 2004, but the o.thers do. no.t because the half-life o.flead in blo.o.d is
to.o. sho.rt.

Results were available fo.r 24 inmates who. had preplacement CdB tests do.ne. The labo.rato.ry's
LOD fo.r CdB was either 0.5 micro.grams per liter (llg/L) o.r 1.0 llglL. Seventeen were less than
the LOD o.f 1.0 llg/L and o.ne was less than the LOD o.f 0.5 llglL. The remainder ranged fro.m
1.1-6.6 llg/L. The two. inmates with the highest levels (2.7 and 6.6) were no.t cleared to. wo.rk in
GBO. It is unclear if they were evaluated to. determine why their levels were high. Twenty-eight
perio.dic o.r terminatio.n CdB tests were available: 20 were less than the LOD o.f 1.0 llglL and
three were less than the LOD o.fO.5 llg/L. The remainder ranged from 0.5-2.5 llg/L. In general,
these CdB results do. no.t reflect expo.sures prio.r to. the installatio.n o.f the current GBO in 2004
because the half-life o.f cadmium in blo.o.d is to.o. sho.rt. Ho.wever, results were available fo.r three
inmates who. had wo.rked in the GBO since 2001, altho.ugh it appears o.ne o.fthem ceased GBO
wo.rk fo.r a while, then returned to. it. The CdB in the two. who. apparently co.ntinued wo.rk fro.m
2001 until the time o.ftesting in No.vember 2003 were 1.8 llg/L and 2.5 llg/L. Bo.th smo.ked at the
time. The o.ther inmate's No.vember 2003 testing was no.ted to. be preplacement, and was belo.w
the LOD. This inmate was a no.n-smo.ker. We canno.t determine if the higher levels in the
smo.kers were from expo.sure to. cadmium during glass breaking o.r from smo.king. Smo.king is
kno.wn to. increase CdB levels. Fo.r example, 10 inmates who. smo.ked had CdB available; o.nly
o.ne was less than the LOD and the o.thers averaged 2.3 llg/L. No.nsmo.kers had lo.wer CdB levels.
There were 32 CdB results fo.r no.nsmo.kers, and 30 were less than the LOD.

Twenty-fo.ur preplacement CdU test results were available. The LOD was 0.5 llg/L and 14
measurements were belo.w this LOD. If the CdU was abo.ve the LOD, then it was adjusted to. the
urinary co.ncentratio.n o.f creatinine to. co.ntro.l fo.r the variability in urine dilutio.n. The five that
were abo.ve the LOD ranged fro.m 0.29 micrograms per gram o.f creatinine (llg/g/Cr) to. 2.2
llg/g/Cr. There were 20 perio.dic or terminatio.n CdU results available fo.r review. Fifteen were
belo.w the LOD, and the remaining five ranged from 0.3-1.3 llg/g/Cr. These CdU measurements
integrate expo.sure o.ver time because the half-life o.f cadmium in urine is years to. decades.
Page 6­

However, only three of these inmates worked in GBO beginning in 2001; the highest result
among these three was 0.61 ~g/g/Cr.

There were 38 urinary B-2-Ms and 26 ZPPs and all were normal.

One inmate identified himself to us at the meeting as having been removed from the GBO due to
abnormal test results. We obtained his results from the medical clinic, and noted that his CdB in
late 2003 was 6.2 ~g/L, while CdU and B-2-M were below the LOD. His BLL was 4 ~g/dL. His
questionnaire noted he had been working for UNICOR over 1 year at the time ofthese tests.
There was a note in the chart to repeat the tests in 6 weeks, but this was never done. It is unclear
if this represents significant exposure to cadmium or a laboratory error, especially in
consideration of the low CdU result. After our visit, this inmate was retested and his CdB was
1.0 ~glL and CdU was 0.8 ~g/g/Cr.

Forty-one initial or annual questionnaires were available for review. None noted any medical
complaints that could be related to recycling work. Medical records were reviewed for the two
inmates reported to have serious medical problems secondary to work in recycling. One died of
causes unrelated to recycling work, and the other inmate's medical issues were clearly not
related to recycling work, either.

UNICOR Staff

UNICOR staff see their private physicians for medical surveillance, which is paid for by
UNICOR, so their exams are not standardized. There are seven staff that work in recycling, a
factory manager, an accountant, and five recycling technicians. Test results were available for
seven staff members, each of whom was tested between one and four times. There were emails
from several staff members to the factory manager, documenting that they chose not to undergo
annual physicals and testing. Sixteen BLL results were available: 14 were below the LOD of 3
~g/dL; one was below the LOD of 1 ~g/dL, and one was 2.0 ~g/dL. Fifteen CdU results were
available: eight were less than the LOD of 0.5 ~glL and the remainder ranged from 0.3-0.7
~g/g/Cr. Fifteen CdB results were available: twelve CdB were less than the LOD of 0.5 ~g/L and
the remainder ranged from 0.5-1.4 ~g/L. The two highest were in a smoker; the rest of the staff
were non-smokers. There were 13 ZPP and 15 B-2-M results, and all were normal. Two initial or
annual questionnaires were available for review. Neither noted any medical complaints that
could be related to recycling work.

In summary, results of biological monitoring ofboth staff and inmates were generally
unremarkable. It is important for medical staff to follow up on abnormal test results in a timely
manner. It is standard medical practice to repeat an abnormal test result that is unexpected, for
example, the elevated pre-placement CdB noted on more than one inmate. If the test result is still
abnormal, then a cause for the abnormality should be sought.
Page 7­


Industrial Hygiene
Records Review

The OIG provided five sampling reports prepared by UNICOR consultants, a letter from the
Occupational Safety and Health Administration (OSHA) summarizing OSHA sampling results,
and a chart containing Federal Occupational Health (FOH) wipe sample results. No consultant
reports or sampling data were provided for the first 9-10 months that glass breaking was
reportedly performed in the basement of the factory (October 2001 until July or August 2002).

The first consultant report of air and wipe sampling was in October 2002, following relocation of
the GBO from the dairy barn back to the FCI during the previous summer. One of the two PBZ
samples collected on October 24, 2002 approached but did not exceed the OSHA action level
(AL) for lead during a 480-minute sampling period. Cadmium was not detected in PBZ or area
air samples. Low concentrations of lead were detected in the two area samples collected in
unidentified locations. Low concentrations of cadmium and lead were detected in wipe samples.
A bulk dust sample, collected from an unidentified location, contained 3810 ppm lead by weight;
cadmium was not detected in the bulk sample. This report provided no description of sampling
locations, the size and duties of the workforce, operations performed by workers, housekeeping
procedures, the work area, LEV, other workplace controls, PPE, or housekeeping procedures.
Based on the limited data obtained on this date, the consultant concluded that the air
concentrations did "not pose an immediate health threat to personnel working in this operation,"
and recommended using a HEPA vacuum cleaner and wet methods to clean surfaces before
installing a ventilation system or modifying the work area.

A different consultant conducted air and wipe sampling for barium, beryllium, cadmium, and
lead during I-day site visits in August 2004, May 2005, December 2006, and December 2007.
The report for each of these visits consisted ofa boilerplate letter with several appendices
containing sampling data. Ventilation assessments, consisting of face velocity measurements at
HEPA units and smoke tube visualization of air flow, were conducted during the 2006 and 2007
visits; sound level meter readings were obtained in 2006. These reports contain no
recommendations or industrial hygiene guidance, and provide very little descriptive information
beyond sampling results.                  .

Reports for site visits conducted in 2004 through 2006 indicate that all barium results were
below occupational exposure limits (OELs) established by NIOSH, OSHA, and the American
Conference of Governmental Industrial Hygienists (ACGIH®). Beryllium was not detected in
any of the samples for this period. Although reported airborne concentrations of lead and
cadmium were below OELs, the OSHA AL for cadmium was exceeded in 2004. (Note: the
consultant incorrectly reported that the cadmium permissible exposure limit (PEL) had been
exceeded in 2004.) It should be noted that NIOSH regards cadmium as a potential occupational
carcinogen; therefore, NIOSH recommends that occupational exposure to cadmium be limited to
the lowest feasible concentration. Low concentrations of lead and cadmium were detected in
most surface wipe samples collected in 2004-2006. Post-shift hand wipe samples collected
before and after hand washing indicate that hand washing reduced the amount of metals on
workers' hands.
Page 8­


On December 14, 2006, OSHA conducted air sampling for metals during glass breaking and
teardown. The results for all metals, including lead and cadmium, were reported to be below the
LOD. Likewise, no metals were detected in surface wipe samples collected from the front
surfaces and buttons of snack and soda machines in the break area of "the inside facility."

Surface wipe samples collected by FOH in March 2007 detected lead and cadmium on a number
of surfaces in the camp glass breaking area. Wipe samples collected behind and on top of HEPA
units and "near disassembly tables" indicated lead concentrations of 2,000 to 17,000 micrograms
of lead per square foot (Jlg/ft2). Cadmium concentrations in these locations were 200 Jlg/~ to
2,700 Jlg/~. Lower concentrations were found in other locations, e.g., on top of worker lockers.
Wipe samples collected from a cable box in the former FCI glass breaking area indicated lead
and cadmium concentrations of3,300 and 7,700 Jlg/~, respectively. Wipe samples collected in
both glass breaking areas indicated the presence of lead and cadmium in dust.


NIOSH Exposure Assessment, July 16, 2008
Airborne concentrations oflead and cadmium are presented in Table 1, on page 11 of this letter.
These concentrations are calculated over the actual sampling periods, i.e., these results are not
reported as 8-hour time-weighted average (8-hr TWA) concentrations.

PBZ samples collected during morning and afternoon shifts on July 16, 2008, indicate that
worker exposures were well-below the OSHA ALs for cadmium and lead. Area air samples,
collected outside the glass breaking booth during glass breaking did not detect lead or cadmium
above the minimum detectable concentrations for either of these elements. Air samples indicate
that the HEP A units were effective at removing cadmium- and lead-bearing dust at the point of
generation.

The results of wipe samples collected on July 16,2008 results are presented in Table 2 on page
12. Wipe samples collected from inmate lockers and the table in the change-out area indicated
concentrations of cadmium and lead ranging up to 0.89 Jlg/IOO cm2 and up to 59 Jlg/I00 cm2 ,
respectively. Although concentrations inside lockers were generally low, the highest lead
concentrations in locker #9 and on the change-out table indicate that some lead is being
transported from the glass breaking area.

Wipe samples collected from face shields ofPAPRs in two lockers (including locker #9)
detected very little contamination. However, it appeared that the potential existed for spreading
contamination from other PPE, such as Kevlar gloves and sleeves, to PAPRs stored in lockers.
As noted above, new lockers for storing PAPRs separately from reuseable PPE were installed
after the NIOSH evaluation.

Wipe samples collected from the floor in and near the forklift traffic area where Gaylord boxes
are removed from the glass breaking booth, indicate that some lead and cadmium contamination
is being carried out of the glass breaking booth despite work practice controls, such as restricting
use of the glass breaking booth pallet jack to zone 7 and not allowing the forklift to enter the
booth beyond zone 5. This suggests that although these work practice controls should help limit
Page 9­

the amount of carry-out contamination~ some lead- and cadmium- containing dust is still being
carried out of the glass breaking booth.

Low, but quantifiable concentrations of cadmium and lead were present on the inmate clerk's
desk which is located a few feet from the forklift traffic area. A trace amount of lead was
detected on a desk in the UNICOR staff office. Although these results do not represent a serious
health hazard, they show a need to maintain good housekeeping throughout the glass breaking
area.

 Hand wipe samples, collected at the end of each shift after hand washing, suggest that hand
 washing removes most, but not all contaminants. Glass breakers should be encouraged to wash
 hands carefully to remove as much contamination as possible, especially before going to lunch.

 Conclusions

Electronics recycling at FCI Texarkana appears to have been performed from late 2001 until
May 2004 without appropriate engineering controls, respiratory protection, medical surveillance,
or industrial hygiene monitoring. Because of the sparse biological monitoring and industrial
hygiene data, we cannot determine the extent of exposure to lead and cadmium that occurred
during that time. Descriptions of work tasks from staff and inmates indicate that exposures
during that time frame were likely higher than current exposures. Based on information provided
to us, we believe that the current GBO is a significant improvement with respect to controlling
worker exposures to cadmium and lead.

  Exposures since May 2004 are sufficiently low that the OSHA mandated medical surveillance
  has not been required since that time. In addition, the results of medical surveillance conducted
  since 2003 on both inmates and staff were generally unremarkable. It is not possible to determine
  whether the exposures were high enough to trigger the standard prior to that time. Inmates are 

  advised of the results of their monitoring and do see the physician's assistant; however, records 

  of medical surveillance are not maintained by the employer for the appropriate length of time . 

. Some staff members have refused to participate in medical surveillance paid for by UNICOR at 

  their personal physicians

At this time, after careful review of existing records and current operations, we conclude that
medical surveillance can be discontinued for inmates and staff who work in electronics recycling
and GBO. UNICOR may choose to continue to perform the limited biological monitoring that is
currently in place as an additional safeguard against excessive exposure and to provide
reassurance to inmates and staff.

 Recommendations

The following recommendations are provided to improve the safety and health of both the staff
and inmates involved with electronics recycling at the FCI Texarkana.:

1. Although engineering controls and work practices in the current GBO appear to provide 

reasonably effective control of worker exposure to cadmium and lead, UNICOR needs to 

Page 10­

maintain an ongoing program of environmental monitoring to confirm that engineering and work
practice controls are sufficiently protective. Environmental monitoring also provides data needed
to determine which provisions of the OSHA cadmium and lead standards should be applied for
theGBO.

2. While air sampling in the GBO suggests that the level of protection afforded by PAPRs may
not be needed, we feel that continued use of PAPRs provides added protection against exposure
to lead- and cadmium- containing dust. Additional periodic air sampling should be conducted to
help ensure that exposures remain consistently below all applicable OELs before considering a
reduction in the level of respiratory protection in the GBO.

3. Ensure full compliance with all applicable OSHA standards, including the General Industry 

Lead Standard [29 CFR 1910.1025], the Cadmium Standard [29 CFR 1910.1027], the Hazard 

Communication Standard [29 CFR 1910.1200], and the Respiratory Protection Standard [29 

CFR 1910.134]. This includes record keeping requirements, communication requirements, 

compliance plans, and medical surveillance. 


4. Discontinue dry sweeping. Use a floor squeegee to carefully collect large pieces of debris that
cannot be effectively vacuumed from the floor. Whenever possible, use a HEPA-filtered vacuum
cleaner and/or wet methods for removing dust from all other surfaces.

5. Ensure that separate storage is provided for non-work uniforms and GBO work apparellPPE.
All potentially-contaminated work clothing and PPE should remain in the "dirty" chamber of the
change-out room; non-work clothing should never come in contact with work items. As a
minimum requirement, workers should be required to wash hands and all potentially exposed
skin after doffing PPE and before putting on uniforms when exiting the GBO. To minimize
migration of cadmium-and-Iead-contaminated dust to other parts of the institution, work clothes
and PPE should never be worn outside the GBO. Laundry personnel should be made aware of
the potential exposure to lead and cadmium from work clothes, and take action to minimize
exposure to themselves.

  6. Carefully evaluate the qualifications and expertise of consultants who are hired to assess 

  occupational or environmental health and safety issues. Anyone can present himlherself as an 

. "industrial hygienist," regardless of education, training, or expertise. One useful benchmark for
  vetting individuals who provide industrial hygiene services is the designation of Certified
  Industrial Hygienist (CIH). Certification by the American Board ofIndustrial Hygiene (ABIH)
  ensures that prospective consultants have met ABIH standards for education, ongoing training,
  and experience, and have passed a rigorous ABIH certification examination. The UNICOR
  and/or BOP industrial hygienists can assist in the selection of your consultants.

7. Perform a detailed job hazard analysis prior to beginning any new operation or before making
changes to existing operations. This will allow BOP to identify potential hazards prior to
exposing staff or inmates, and to identify appropriate controls and PPE. Involve the BOP and/or
UNICOR industrial hygienists in these job hazard analyses. If medical surveillance is needed
then BOP should perform pre-placement evaluations of exposed staff and inmates. This medical
surveillance should be overseen by an occupational medicine physician.
Page 11­

8. Appoint a union safety and health representative. This individual should be a regular
participant on the joint labor-management safety committee that meets quarterly. Since inmates
do not have a mechanism for representation on this committee, ensure that they are informed of
its proceedings and that they have a way to voice their concerns about and ideas for improving
workplace safety and health.

This interim letter will be included in a final report that will include visits to two other BOP
facilities. Please post a copy of this letter for 30 days at or near work areas of affected staff and
inmates. Thank you for your cooperation with this evaluation. If you have any questions, please
do not hesitate to contact us at (513) 841-4382.

                                               Sincerely yours,




                                               Elena H. Page, M.D., M.P.H.
                                               Medical Officer




                                               David Sylvain, M.S., C.I.H.
                                               Industrial Hygienist
                                               Hazard Evaluations and Technical
                                                Assistance Branch
                                               Division of Surveillance, Hazard
                                                Evaluations and Field Studies

cc:
Keith Roy, Warden, FCI Texarkana
Wade Stovall, President, AFGE Local 2459
Paul Laird, Assistant Director, UNICOR
Page 12­


Figure 1. 





                                     --'f'''' ---­
              ~=''';:''''''--.........




                                           ........
Page 13­

Tables
Table 1                                                                                HETA 2008-0055
Air sampling, July 16, 2008                                                    Federal Bureau of Prisons
Glass Breaking Area                                                                 Fel Texarkana
                                   Sampling
                                                Sample Volume            Cadmium                   Lead
             Location               Period                                          3                      3
                                                   (liters)                (llg/m       )         (llg/m       )
                                   (minutes)
PBZ*-funnel glass breaker, a.m.       174              345                    1.5                   3.9
PBZ-panel glass breaker, a.m.         175              350                    1.7                   6.0
PBZ-feeder, a.m.                      174              347                 trace1l                 trace
PBZ-feeder, a.m.                      173              344                  trace                  trace
PBZ-funnel glass breaker, p.m.        129              256                    1.3                    7.0
PBZ-panel glass breaker, p.m.         127              253                   0.59                   4.0
PBZ-feeder, p.m.                      125              249                  trace                  trace
PBZ-feeder,p.m.                       124              247                  trace                   4.5
Areat-top of air handler #4           397              793                   0.24                    3.0
Area- table in change-out area        426              844                   0.25                    1.5
Area-forklift traffic area, right
                                       421             838                  0.13                     1.8
side, approx. 5.5' above floor
Area-inmate clerk desk, approx.
                                       414             820                   nd**                    nd
3.5' from forklift entry
Area-approx. 10' from feeder
                                       404             801                   nd                      nd
area, 3' above floor
         Minimum detectable concentration (MOC):j: ­ PBZ                    0.07                      1.
         Minimum quantifiable concentration (MQC)§ - PBZ                    0.21                     2.9
          Minimum detectable concentration (MOC) - Area                     0.02                     0.4
NIOSH REL-TWA                                                               Catt                     50
OSHA PEL-TWA                                                                  5                      50
ACGIHTLV®                                                                    10                      50
    * PBZ-Personal breathing zone sample
      t Area-Area sample
      :j: MOC-Minimum detectable concentration. MOC is determined by the analytical limit of detection (LOD) for an analyte and
      the average sample volume. LOO for cadmium and lead are 0.02 ug/sample and 0.3 ug/sample, respectively. The average 

      sample volumes for PBZ and area samples are 299 liters and 819 liters respectively. 


      § MQC-Minimum quantifiable concentration. MQC is determined by the analytical limit of quantitation (LOQ) for an analyte 

      and the average sample volume. LOQ for cadmium and lead are 0.063 ug/sample and 0.86 ug/sample, respectively. 


      ~   trace-Sample result is between the MOC and MQC.

      ** nd (not detected)-Sample result is below the MOC.

      tt Ca-NIOSH regards cadmium as a potential occupational carcinogen and that exposures should be reduced to the lowest 

      feasible concentration. 


      See the Appendix for a discussion of NIOSH recommended exposure limits (RELs), OSHA permissible exposure limits 

      (PELs), and ACGIH Threshold Limit Values (TLVs® ). 

Page 14­

    Table 2                                                                                      HETA 2008-0055
    Surface wipe sampling, July 16, 2008                                                 Federal Bureau of Prisons
    Glass          Area                                                                                Texarkana

           Surface                    Description                Area Wiped           Cadmium                 Lead




      * trace-Sample result is between the analytical limits of detection and quantitation. The limits of quantitation for cadmium
      and lead are 0.29 ug/sample and 1.3 ug/sample, respectively.

      t nd (not detected)-Sample result is below the analytical limit of detection. The limits of detection for cadmium and lead
      are 0.09 ug/sample and 0.4 ug/sample, respectively.
Page 15­

References

NIOSH [2009]. NIOSH manual of analytical methods (NMAM®). 4th ed. Schlecht PC,
O'Connor PF, eds. Cincinnati, OH: U.S. Department of Health and Human Services, Public
Health Service, Centers for Disease Control and Prevention, National Institute for Occupational
Safety and Health, DHHS (NIOSH) Publication 94-113 (August, 1994); 18t Supplement
Publication 96-135, 2nd Supplement Publication 98-119; 3rd Supplement 2003-154.
[www.cdc.gov/nioshlnmaml].



Appendix
Occupational Exposure Limits and Health effects

In evaluating the hazards posed by workplace exposures, NIOSH investigators use both
mandatory (legally enforceable) and recommended occupational exposure limits (OELs) for
chemical, physical, and biological agents as a guide for making recommendations. OELs have
been developed by Federal agencies and safety and health organizations to prevent the
occurrence of adverse health effects from workplace exposures. Generally, OELs suggest levels
of exposure to which most workers may be exposed up to 10 hours per day, 40 hours per week
for a working lifetime without experiencing adverse health effects. However, not all workers will
be protected from adverse health effects even if their exposures are maintained below these
levels. A small percentage may experience adverse health effects because of individual
susceptibility, a pre-existing medical condition, and/or a hypersensitivity (allergy). In addition,
some hazardous substances may act in combination with other workplace exposures, the general
environment, or with medications or personal habits of the worker to produce health effects even
if the occupational exposures are controlled at the level set by the exposure limit. Also, some
substances can be absorbed by direct contact with the skin and mucous membranes in addition to
being inhaled, which contributes to the individual's overall exposure.

Most OELs are expressed as a time-weighted average (TWA) exposure. A TWA refers to the
average exposure during a normal 8- to 10-hour workday. Some chemical substances and
physical agents have recommended short-term exposure limit (STEL) or ceiling values where
health effects are caused by exposures over a short-period. Unless otherwise noted, the STEL is a
15-minute TWA exposure that should not be exceeded at any time during a workday, and the
ceiling limit is an exposure that should not be exceeded at any time.

In the U.S., OELs have been established by Federal agencies, professional organizations, state
and local governments, and other entities. Some OELs are legally enforceable limits, while
others are recommendations. The U.S. Department of Labor Occupational Safety and Health
Administration's (OSHA) permissible exposure limits (PELs) (29 CFR2 1910 [general industry];
29 CFR 1926 [construction industry]; and 29 CFR 1917 [maritime industry]) are legal limits
enforceable in workplaces covered under the Occupational Safety and Health Act. NIOSH


2   Code ofFederal Regulations. See CFR in references.
Page 16­

recommended exposure levels (RELs) are recommendations based on a critical review of the
scientific and technical information available on a given hazard and the adequacy of methods to
identify and control the hazard. NIOSH RELs can be found in the NIOSH Pocket Guide to
Chemical Hazards [NIOSH 2005]. NIOSH also recommends different types of risk management
practices (e.g., engineering controls, safe work practices, worker education/training, personal
protective equipment, and exposure and medical monitoring) to minimize the risk of exposure
and adverse health effects from these hazards. Other OELs that are commonly used and cited in
the u.s. include the threshold limit values (TLVs) recommended by the American conference of
Governmental Industrial Hygienists (ACGIH), a professional organization, and the Workplace
environmental exposure limits (WEELs) recommended by the American Industrial Hygiene
Association, another professional organization. ACGIH TLV s are considered voluntary exposure
guidelines for use by industrial hygienists and others trained in this discipline "to assist in the
control of health hazards" [ACGIH 2008]. WEELs have been established for some chemicals
"when no other legal or authoritative limits exist" [AIHA 2007].

Outside the U.S., OELs have been established by various agencies and organizations and include
both legal and recommended limits. Since 2006, the Berufsgenossenschaftlichen Institut fUr
Arbeitsschutz (German Institute for Occupational Safety and Health) has maintained a database
of international OELs from European Union member states, Canada (Quebec), Japan,
Switzerland, and the U.S. [http://www.hvbg.de/elbia/gestis/limit_values/index.html]. The
database contains international limits for over 1250 hazardous substances and is updated
annually.

Employers should understand that not all hazardous chemicals have specific OSHA. PELs, and
for some agents the legally enforceable and recommended limits may not reflect current health­
based information. However, an employer is still required by OSHA to protect its employees
from hazards even in the absence of a specific OSHA PEL. OSHA requires an employer to
furnish employees a place of employment free from recognized hazards that cause or are likely
to cause death or serious physical harm [Occupational Safety and Health Act of 1970 (Public
Law 91-596, sec. 5(a)(1))]. Thus, NIOSH investigators encourage employers to make use of
other OELs when making risk assessment and risk management decisions to best protect the
health of their employees. NIOSH investigators also encourage the use of the traditional
hierarchy of controls approach to eliminate or minimize identified workplace hazards. This
includes, in order of preference, the use of: (1) substitution or elimination of the hazardous agent,
(2) engineering controls (e.g., local exhaust ventilation, process enclosure, dilution ventilation),
(3) administrative controls (e.g., limiting time of exposure, employee training, work practice
changes, medical surveillance), and (4) personal protective equipment (e.g., respiratory
protection, gloves, eye protection, hearing protection). Control banding, a qualitative risk
assessment and risk management tool, is a complementary approach to protecting worker health
that focuses resources on exposure controls by describing how a risk needs to be managed
[http://www.cdc.gov/nioshltopics/ctrlbanding/].This approach can be applied in situations where
OELs have not been established or can be used to supplement the ~ELs, when available.
Page 17­


Lead

Occupational exposure to lead occurs via inhalation oflead-containing dust and fume and
ingestion of lead particles from contact with lead-contaminated surfaces. In cases where careful
attention to hygiene (for example, handwashing) is not practiced, smoking cigarettes or eating
may represent another route of exposure among workers who handle lead and then transfer it to
their mouth through hand contamination. Industrial settings associated with exposure to lead and
lead compounds include smelting and refining, scrap metal recovery, automobile.radiator repair,
construction and demolition (including abrasive blasting), and firing range operations [ACGIH
2001]. Occupational exposures also occur among workers who apply and/or remove lead-based
paint or among welders who bum or torch-cut metal structures.
Acute lead poisoning, caused by intense occupational exposure to lead over a brief period of time
can cause a syndrome of abdominal pain, fatigue, constipation, and in some cases alteration of
central nervous system function [Moline and Landrigan 2005]. Symptoms of chronic lead
poisoning include headache, joint and muscle aches, weakness, fatigue, irritability, depression,
constipation, anorexia, and abdominal discomfort [Moline and Landrigan 2005]. These
symptoms usually do not develop until the blood lead level (BLL) reaches 30-40 micrograms per
deciliter of whole blood (llg/dL)[Moline and Landrigan 2005]. Overexposure to lead may also
result in damage to the kidneys, anemia, high blood pressure, impotence, and infertility and
reduced sex drive in both sexes. Studies have shown subclinical effects on heme synthesis, renal
function, and cognition at BLLs <10 Ilg/dL [ATSDR 2007]. Inorganic lead is reasonably
anticipated to cause cancer in humans [ATSDR 2007].

In most cases, an individual's BLL is a good indication of recent exposure to lead, with a half-life
(the time interval it takes for the quantity in the body to be reduced by half its initial value) of 1­
2 months [Lauwerys and Hoet 2001; Moline and Landrigan 2005; NCEH 2005;]. The majority of
lead in the body is stored in the bones, with a half-life of years to decades. Bone lead can be
measured using x-ray techniques, but these are primarily research based and are not widely
available. Elevated zinc protoporphyrin (ZPP) levels have also been used as an indicator of
chronic lead intoxication, however, other factors, such as iron deficiency, can cause an elevated
ZPP level, so the BLL is a more specific test for evaluating occupational lead exposure.

In 2000, NIOSH established an REL for inorganic lead of 50 micrograms per cubic meter of air
(llg/m3) as an 8-hour TWA. This REL is consistent with the OSHA PEL, which is intended to
maintain worker BLLs below 40 Ilg/dl; medical removal is required when an employee has a
BLL of60 Ilg/dL, or the average of the last 3 tests at 50 Ilg/dL or higher [29 CFR 1910.1025; 29
CFR 1962.62]. NIOSH has conducted a literature review of the health effects data on inorganic
lead exposure and finds evidence that some of the adverse effects on the adult reproductive,
cardiovascular, and hematologic systems, and on the development of children of exposed
workers can occur at BLLs as low as 10 Ilg/dl [SussellI998]. At BLLs below 40 Ilg/dl, many of
the health effects would not necessarily be evident by routine physical examinations but
represent early stages in the development of lead toxicity. In recognition of this, voluntary
standards and public health goals have established lower exposure limits to protect workers and
their children. The ACGIH TLV for lead in air is 50 Ilg/m3 as an 8-hour TWA, with worker
Page 18­

BLLs to be controlled to:S 30 Ilg/dl. A national health goal is to eliminate all occupational
exposures that result in BLLs >25 Ilg/dl [DHHS 2000]. The Third National Report on Human
Exposure to Environmental Chemicals (TNRHEEC) found the geometric mean blood lead
among non-institutionalized, civilian males in 2001-2002 was 1.78 Ilg/dL [NCEH 2005].

OSHA requires medical surveillance on any employee who is or may be exposed to an airborne
concentration oflead at or above the action level, which is 30 Ilg/m3 as an 8-hour TWA for more
than 30 days per year [29 CFR 1910.1025]. Blood lead and ZPP levels must be done at least
every 6 months, and more frequently for employees whose blood leads exceed certain levels. In
addition, a medical examination must be done prior to assignment to the area, and should include
detailed history, blood pressure measurement, blood lead, ZPP; hemoglobin and hematocrit, red
cell indices, and peripheral smear, blood urea nitrogen (BUN), creatinine, and a urinalysis.
Additional medical exams and biological monitoring depend upon the circumstances, for
example, if the blood lead exceeds a certain level.


Cadmium

Cadmium is a metal that has many industrial uses, such as in batteries, pigments, plastic
stabilizers, metal coatings, and television phosphors [ACGIH 2001]. Workers may inhale
cadmium dust when sanding, grinding, or scraping cadmium-metal alloys or cadmium­
containing paints [ACGIH 2001]. Exposure to cadmium fume may occur when materials
containing cadmium are heated to high temperatures, such as during welding and torching
operations; cadmium-containing solder and welding rods are also sources of cadmium fume. In
addition to inhalation, cadmium may be absorbed via ingestion; non-occupational sources of
cadmium exposure include cigarette smoke and dietary intake [ACGIH 2001]. Early symptoms
of cadmium exposure may include mild irritation of the upper respiratory tract, a sensation of
constriction ofthe throat, a metallic taste and/or cough. Short-term exposure effects of cadmium
inhalation include cough, chest pain, sweating, chills, shortness of breath, and weakness [Thun et
al. 1991]. Short-term exposure effects of ingestion may include nausea, vomiting, diarrhea, and
abdominal cramps [Thun et al. 1991]. Long-term exposure effects of cadmium may include loss
of the sense of smell, ulceration of the nose, emphysema, kidney damage, mild anemia, and an
increased risk of cancer of the lung, and possibly of the prostate [ATSDR 1999].

The OSHA PEL for cadmium is 51lg/m3 TWA [29 CFR 1910.1027]. The ACGIH has a TLV for
total cadmium of 10 Ilg/m3 (8-hour TWA), with worker cadmium blood level to be controlled at
or below 5 llg/dL and urine level to be below 5 Ilg/g creatinine, and designation of cadmium as a
suspected human carcinogen [ACGIH 2008]. NIOSH recommends that cadmium be treated as a
potential occupational carcinogen and that exposures be reduced to the lowest feasible
concentration [NIOSH 1984].

Blood cadmium levels measured while exposure is ongoing reflect fairly recent exposure (in the
past few months). The half-life is biphasic, with rapid elimination (half-life approximately 100
days) in the first phase, but much slower elimination in the second phase (half-life of several
years) [Lauwerys and Hoet 2001; Franzblau 2005]. Urinary cadmium levels are reflective of
body burden and have a very long half-life of 10-20 years [Lauwerys and Hoet 2001].
Page 19­

OSHA requires medical surveillance on any employee who is or may be exposed to an airborne
concentration of cadmium at or above the action level, which is 2.5 ~g/m3 as an 8-hour ~WA for
more than 30 days per year [29 CFR 1910.1027]. A preplacement examination must be provided,
and shall include a detailed history, and biological monitoring for urine cadmium (CdU) and
beta-2-microglobulin (B-2-M), both standardized to grams of creatinine (g/Cr), and blood
cadmium (CdB), standardized to liters of whole blood (lwb). OSHA defines acceptable CdB
levels as < 5 ~glL, CdU as < 3 ~g/g/Cr, and B-2-M as < 300 ~g/g/Cr. NHANES III found
geometric mean CdB of 0.4 ~glL among men in 1999-2000. The geometric mean CdU for men
in 2001-2002 was 0.2 ~g/g/Cr. Smokers can have CdB levels double that of nonsmokers
[Lauwerys and Hoet 2001]. Periodic surveillance is also required one year after the initial exam
and at least biennially after that. Periodic surveillance shall include the biological monitoring,
history and physical examination, a chest x-ray (frequency to be detelmined by the physician
after the initial x-ray), pulmonary function tests, blood tests for BUN, complete blood count
(CBC), and Cr, and a urinalysis. Men over 40 years of age require a prostate examination as
well. The frequency of periodic surveillance is determined by the results of biological monitoring
and medical examinations. Biological monitoring is required annually, either as part of the
periodic surveillance or on its own. We recommend that the preplacement examination be
identical to the periodic examinations so that baseline health status may be obtained prior to
exposure. Termination of employment examinations, identical to the periodic examinations, are
also required. The employer is required to provide the employee with a copy of the physician'S
written opinion from these exams and a copy of biological monitoring results within 2 weeks of
receipt.

Biological monitoring is also required for all employees who may have been exposed at or above
the action level unless the employer can demonstrate that the exposure totaled less than 60
months. In this case it must also be conducted one year after the initial testing. The need for
further monitoring for previously exposed employees is then determined by the results of the
biological monitoring.
Page 20­

References

ACGIH [2001]. 2001 Documentation of the threshold limit values and biological exposure
indices. Cincinnati, OH: American Conference of Governmental Industrial
Hygienists.

ACGIH [2008]. 2008 TLVs® and BEIs®: threshold limit values for chemical substances and
physical agents and biological exposure indices. Cincinnati, OH: American Conference of
Governmental Industrial Hygienists.

AIHA [2008]. 2008 Emergency response planning guidelines (ERPG) & workplace
environmental exposure levels (WEEL) handbook. Fairfax, VA: American Industrial Hygiene
Association.

ATSDR [1999]. Toxicological profile for cadmium. Atlanta, GA: US. Department of Health and
Human Services, Public Health Service.

ATSDR [2007]. Toxicological profile for Lead. Atlanta, GA: US. Department of Health and
Human Services, Public Health Service.

CFR. Code of Federal Regulations. Washington, DC: US. Government Printing Office, Office
of the Federal Register.

DHHS [2000]. Healthy people 2010: Understanding and Improving Health. 2nd ed.
Washington, DC: US. Department of Health and Human Services. Available on the
internet at: www.health.gov/healthypeople/Document/default.htm

Franzblau A [2005]. Cadmium. Chapter 39.4. In: Textbook of clinical occupational and
environmental medicine, Rosenstock L, Cullen MR, Brodkin CA, and Redlich CA, eds., 2nd ed.
Philadelphia, PA: Elsevier Saunders, pp. 955-958.

Lauwerys RR, Hoet P [2001]. Chapter 2. Biological monitoring of exposure to inorganic and
organometallic substances. In: Industrial chemical exposure: guidelines for biological
monitoring. 3rd ed. Boca Raton, FL: CRC Press, LLC, pp. 21-180.

Moline JM, Landrigan PI [2005]. Lead. Chapter 39.8. In: Textbook of clinical occupational and
environmental medicine, Rosenstock L, Cullen MR, Brodkin CA, and Redlich CA, eds., 2nd ed.
Philadelphia, PA: Elsevier Saunders, pp. 967-979.

NCEH [2005]. Third national report on human exposure to environmental chemicals. Atlanta,
GA: US. Department of Health and Human Services, Public Health Service, Centers for Disease
Control and Prevention. NCEH Publication number 05-0570.

NIOSH [1984]. Current Intelligence Bulletin #42: Cadmium. Cincinnati, OH: US. Department
of Health and Human Services, Public Health Service, Centers for Disease Control, National
Institute for Occupational Safety and Health, DHHS (NIOSH)IDOL (OSHA) Publication No.84­
116.
Page 21­


NIOSH [2005]. NIOSH pocket guide to chemical hazards. Cincinnati, OH: u.s. Department of
Health and Human Services, Centers for Disease Control and Prevention, National Institute for
Occupational Safety and Health, DHHS (NIOSH) Publication No. 2005-149.
[http://www.cdc.gov/nioshlnpg/]. Date accessed: March 2008.

Sussell A [1998]. Protecting workers exposed to lead-based paint hazards: a report to
congress. Cincinnati, OH: u.S. Department of Health and Human Services, Centers for
Disease Control and Prevention, National Institute for Occupational Safety and Health,
DHHS (NIOSH) Publication No. 98-112. January 1998-revised with minor technical
changes.



Thun JM, Elinder C, Friberg L [1991]. Scientific basis for an occupational standard for
cadmium. American Journal ofIndustrial Medicine 20:629-642.
     DEPARTMENT OF HEALTH AND HUlVIAN SERVICES                               PubliC Health Service


                                                                             National Institute for Occupational
                                                                             Safety and Health
                                                                             Robert A. Taft Laboratories
                                                                             4676 Columpia Parkway
                                                                             Cincinnati OH 45226-1998



                                                                                June 1,2009
                                                                             HETA 2008-0055




Investigative Counsel
Oversight and Review Division
Office of the Inspector General
United States Department of Justice, Suite 13100
Washington D.C. 20530

De~

On November 27,2007, the National Institute for Occupational Safety and Health (NIOSH)
received your request for technical assistance in your health and safety investigation of the
Federal Prison Industries (UNICOR) electronics recycling program at Federal Bureau of Prisons
(BOP) institutions in Elkton, Ohio; Texarkana, Texas; and Atwater, California. You asked us to
assist the United States Department of Justice, Office of the Inspector General (USDOJ, OIG) in
assessing the existing medical surveillance program for inmates and staff exposed to lead and
cadmium during electronics recycling, and to make recommendations for future surveillance. In
addition, you asked us to assess past exposures to lead and cadmium, and to investigate the
potential for take home exposure. You later asked us to perform a similar evaluation for the BOP
institution in Marianna, Florida. We conducted a site visit at the Marianna BOP institution on
February 17-18, 2009. This interim letter summarizes our findings and provides
recommendations to improve the safety and health ofthe inmates and staff at the Federal
Correctional Institution in Marianna, Florida. These findings will be included in a final report
that will summarize the evaluations at all four institutions.

Background
The Federal Correctional Institution (FCI) in Marianna, Florida, consists of a medium security
facility housing male inmates, and an adjacent prison camp housing minimum security female
offenders. Electronics disassembly and refurbishment began in 1996 as a UNICOR pilot project
and then as a small operation at the camp. Glass breaking was not performed, and televisions and
computer monitors were shipped offsite for recycling. As the operation grew, it was moved to an
offsite leased building (known as the blue building). In approximately 1999, a demilitarization
(demil) operation was started at the camp. This involved disassembly and refurbishment of
electronics from local military bases. UNICOR staffwas required to be certified in demilto work
Page 2

in that area due to security reasons. The demil operation was closed after a couple of years.
Electronics disassembly and refurbishment moved into another offsite leased building in 200l.
(known as the gold building) after recycling operations were discontinued at the blue building.
After the furniture factory closed in the FCr in late 2002, the recycling operation was moved into
the. Fe! from the gold bUilding. In late 2005~ the glass breaking operation (GBO) commenced at
the camp. Prior to beginning this operation, the safety officer conducted a job hazard analysis,
and inmates were medically cleared to work in the area. The irunates had preplacemefit
biologicalm.onitoring and respirator clearance performed. The GSO was where catl10de ray
tubes (CRrs) from computer monitors or televisions were processed. TheGBO ceased operation
in May 2008. At the time of ol'l;I visit~ only refurbishment and "sanitization" ofcomputers took
place at the camp. Sanitization involves checking equipment for contraband prior to sending it to
the Fcr factory for disassembly. Electronics recycling at the Fcr factory consists of manual.
disassembly ofcomputers and other electronics, and manual chip recovery.

Assessment

We reviewed the following documents:

   • 	 Results of biological monitoring performed between.2005 and 2008 (provided by your
       office and the Health Services Administrator).

   • 	 Medical records and report frOIl1 the medical examiner for a staff member who died in
       2008 after being medically retired from work (provided by the lawyer for her estate).

   • 	 Medical records for two staff members and one inmate (provided by you).

   • 	 Work instructions for the GBOand maintenance.

   • 	 Rosters for inmates working in the GSO that provided dates of work (provided by the
       f'actorymanager).

   • 	 DOl interviews with staff and inmates.

   • 	 Results ofindustrial hygiene sampling perfonned by a consultant to UNICOR.

   • 	 Occupational Safety and Health Administration (OSHA) report and an internal
       memorandum describing an OSHA inspection of electronics recycling at FCI Marianna.

   • 	 Final report ofthe industrial hygiene assessment performed by the NIOSH Division of
       Applied Research and TechnOlogy (DART).

   • 	 Draft Federal Occupational Health {FOH) report ofenvironmental, safety, and health
         infonnation related to electronics recycling at FCr Marianna.

Priorto the NIOSH site visit on February 17-18, 2009, we interviewed the factory manager,
Health Services Administrator, American Federation of Government Employees (MGE) Local
Page 3

4036 President and the AFGE UNICORtepresentative. During the site visit we held an opening
conferel1ceWith FCI and UNICOR management, AFGE representatives, the UNICOR factory
manager, and the Health Services Administrator. After the conference we toured the recycling
locations in the Fel and at the camp. We conducted informational meetings with Fcr and
UNICOR staff, and camp inmates. We met with concerned staff and inmates individually to do
medical interviews and address their concerns. We also met with curtentand former staff and
Inmates ihdividuallyat 0111' hotel in the evenings to do medical interviews and address their
concerns. We ended tbe she visit with a closing conference where we presented our initial
finding~ and recommendations. After the site visit we interviewed the Radiation Safety Officer
and a representative ofthe Defense Reutilization Marketing Office (DRMO)at Eglin Air Force
Base, Florida.


Results and Discussion 1
Medical surveillance
Inmates

Medical surveillance began in late 2005 for inmates in the GBO. It is performed annually by the
FCI clinic and consists ofbiological monitoring for blood lead levels (BLL), blood cadmium
(CdB), urine cadmiUin (CdU), urinebeta-2-microglobulin (B-2-M), and zinc protoporphyrin
(ZPP). Preplacement testing.is performed on inmates prior to being cleared to work in the GBO.
The inmates are seen by a physician's assistant and their test res.ultsare discussed with them.
Paper copies oftest results are maintained in the inmate's personal medical record but not With
UNICOR managemel1t. Each inmate's medjcal records are transferred with them; no medical
records are retained at Marianna after an.m.mate is either transferred or released. The results of
the available inmate biological monitoring are summarized in the following sections.

Preplacemel1t BLLs were available for ·14 inmates who performed glass breaking. The mean
BLL was 1.17 micrograms per deciliter of whole blood{~g/dL) (range: 0.5-2,1 ~gldL). Four
periodic or tennination BLLs.w~e available. The. mean BLL for these four was 1.35 ~g/clL
(range: 0.4-2.2 flg/dL).

Results were available for 11 inmates who had preplacement CdB tests done. The mean CdB
concentration was 1.28 micrograms per liter (~g/L) (range: 0.1..4.0 ~gIL). The mean CdB
concentration for the seven inmates known to be smokers.. was 1..73 J.Lg/L (range: 0.2-4.0 ~g/L)
and for the three known to be .nonsmokers was 0.3 J.LgIL (range: 0.1-0.6 ~g/L). Smoking is
known to increase CdB levels, sometimes dramatically. Four periodic or termination CdB tests
were available and the mean CdB concentration was 0.5 ~g/L (range: 0.4-0.6 ~g/L). Smoking for
inmates was banned between the preplacement and follow-up tests.                               .

Fourteen preplacementCdU test results were available. The mean CdU concentration was 0.62
micrograms per gram of creatinine (~g/g/Cr) (range 0.2,..1.7 pglglCr). There were four periodic
or termination CdUresults available for review. The mean CdUconcentration was 0.55 }1g/g/Cr

I   See Occupatii:mal e;cposur~ limits and health effects in Appendix.
Page4 _ _

(range: 0.3-0.8 J.lg/g/Cr). There were 12 urinary B-2-Ms, all ofwhich were nonnal~ and 16 ZPPs,
one ofwhich was elevated. The rest were nonna!. Some inmates had Urine lead and zinc levels
performed (these tests were not indicated or necessary based on the inmates' workplace
exposUres, however, the results were normal).

UNlCOR Staff

The Fcr clinic performs the same biological monitoring for UNICOR staffas for inmates. Te.st
results were available for seven staff members, each of whom was t.ested once. Three. were tested
in April 2005 and four in Mm-ch 2007. The l11ean BLL was 1.2 llg/dL (range: 0.3-2.7llg/dL).
The mean CdB concentration was 0.2 llgIL(range: 0-05 llg/L), The mean CdD concentration
was 0.43 p,g/g/Cr (range: 0.2:..1.2 J.LglglCr). There were six B-2-M results, and all were normal.
There were six ZPP results and One was elevated.

In summary, results ofhiological monitoring ofboth staff and inmates were unremarkable.


Medical Records Review

Extensive medical records.Were reviewed for one former staff mel11ber who was never assigned
to recycling, one current staff member who worked overtime in recycling in the past, and an
inmate who apparently never worked in glass breaking, but did work in recycling~ We also
received extensive records on a staff member who died in 2008 after being medically retired. The
inmate' srecords documented a variety ofnonoccupational health problems. The records of the
tWo living staff members also document a number of nonoccupational health problems. Both
medical records document that the patients relate their problems to exposures from electronics
recycling, including ionizing radiation, however, in the records the physicians do not attribute the
medical problems to recycling exposures. Both had skin problems; one person's was documented
prior to work in recycling. Both sent photos, which we reviewed and also sent to an occupa.tional
dermatologist for review. One had skin biopsies done. Neither had. skill conditions related to
work in recy<::ling or proxjmity to recycling, ()donizing radiation. The staff member who died
had a medical problem that was unrelated to any work exposures. There was nothing
documented by the health care providers in the medical ordeath records relating any health
problems to recycling exposures. Our review ofall these records tevealed.no evidence ofany
health problems to recycling exposures or ionizing radiation, either.


Public Meeting and Interviews with Staff

During our public meeting with staff, allega.tions of exposUre to ioniZing radiation were. raised.
Staffreported that items arrived from miHtary bases and that the "radiation alarms" had gone off
when the trucks left the base on occasion. Some also noted that some items were marked with
skull andcro~sbones. Some staff members reported that CRTswere broken on purpose inside
enclosed semi-trailers in the past, prior to the installation ofthe GBO. Others denied these
allegations to us.
PageS_

Fotirteen staff asked to speak With us after our public meeting with Goncemed M¢anna staff on
February 18. None worked in. electronics recycling. Some reported that they did pat-downs on
inmates who worked in recycling or interacted with inmates from recycling in other ways.
Medical problems reported were varied; and included shingles, hypertension, sleep apnea,
narcolepsy, hypothyroidism, occasional sores on the scalp, poor memory, chronic fatigueafier an
episode ofsevere flu-like symptoms, I1on-melanoma skin cancer~ pleutisy, celhllitis (skin
infection),broncmolitis obliterans organizing pneumonia, night sweats; and insomnia. One
personllad elevated liver enzymes that resolved without treatment, one had a mildly elevated
blood selenium level, and one had an elevated urinary arsenic that was nofinal upon retesting
after abstinence from seafood. ThiS.arsenic level was not:speciated. None ofthe reported health
effects are related to potential exposures from electronics recycling.


Public Meeting and Interviews with Inmates

Several inmates expressed concern about exposure to heavy metals when a monitor was
accidentally broken. It was stated that this occurred about twice a week. Some inmates reported
that posted procedures were not followed when cle~gup these breakages; however, one
inmate reported always following posted procedures. During the NIOSH site visit, no inmates
reported breaking glass on purpose outside the booth, either currently or in the past.

Twelve inmates .at the camp asked to speak with us after our public meeting with concerned
Marianna inmates on February 18. All had worked in recycling at some time, with time frames
beginning as early ~s 2000. None had performed glass breaking. Several wished.to know if they
should be tested for exposure to lead or cadmium. Medical issues reported Were again varied,
and included sun damage to the skin on the hands, recurrent utinary tract .and tesl?iI:atory
infections, :fungal pneumonia, deep venous thr01l1bosis, neck and back spasms, rash on neck,
headache, hypertension, cough, and Grave's Disease, None of the reported health effects are
related to potential e?Cposures from electronics recycling.

Interviews at the Hotel

Nirie people came to the hotel to be interviewed by us. Two were. fonner UNICOR staff assigned
to recycling. One was a FCr staff member who did overtime for a brief period in recycling. Four
were former staff members who did not work in recycling. Two were former inmates, neither of
whom was assigned to recycling. Reported health effects included swollen joints, rash at the
waistband, irritability, anxiety,arthritis,.hypertel1sion, hyperlipidemia, having the g~lbladder
removed, poison ivy~ sinus infectionS, recurrent urinary tract infection,. hysterectomy, twitching
and tingling sensations, white matter lesions in the brain on magnetic resonance imaging, skin
lesions, stabbing chest pain, organic brain syndrome secondary to a motor vehicle accident, and
asthma. Some individuals reported family members with health problems. inclUding septicemia
and secondary acute renal failure, interstitial cyStitis, breast and bladder capper. NOlle of the
reported health effects can be related to. exposures from recycling ofelectronics.
Page 6

Interviews with Eglin AFB Personnel

Both the Radiation Safety Officer and the :DRMOrepresentativehad been working at Eglin since
the time that electronics recycling began at Marianna in themid-1990s. They reported that Eglin
receivedIllaterials for disposal or disposition from military bases in the southeastern United
States. When itell1s are received in DRMO, they are looked up by stock n.umber. If there is any
indication that items contain radioactive materials, these items are segregated and the. Radiation
Safety Officer is notified.. the Radiation Safety Officer chooses the appropriate meter for the
type of radiation and goes to DRMO to evaluateihe items. Ifthey are found to be radioactive,
they are either returned to the sender for proper disposal or sent to Battle Creek, Michigan for
disposaL No radioactive items are supposed to be disposed of in any other manner.

Industrial Hygiene
Records Review

The OIG provided an environmental monitoring report prepared by KAM Envlro1iIl1ental, Inc.,
and OSHA documents describing an inspection of the GBO on November 7-8, 2006. The KAM
report contains· sampling data and descriptive information for a site visit conducted on January
19, 2006. This appears to be the only site visit conducted by a UNICOR consultant at the GBO.
No industrial hygiene reports or sampling data were provided for any electronics recycling
operations .at Fel Marianna for the period prior to January 2006.

The KAM report notes that personal air samplhlg was conducted for two glass breakers and two
glass breaker assistants. Air samples were analyzed for barium, beryllium, cadmium,a1ld .lead
according to Environmental Protection Agency method 6010B. All results were reported to be
below the analytical1imits of detection for this method, which indicates that eight-hour time­
weighted average exposures were belowthe.action levels (ALs) and permissible exposure"limits
(fELs) established by OSHA. Short-duration samples (30-minutes, maximum) were not
collected to determine if the OSHA ceiling limit for beryllium was exceeded. (Based on
sampling results at other Fels, we believe it is unlikely that a hazardous concentratioIiof
beryiIhun would have been present at FCI Marianna. ) Workers in the glass booth wore powered
air-purifying respirators (PAPRs), "disposable suits," hoods with face shields, steel-toe boots;
and heavy workgloyes. The report provided no information indicating how personal protective
equipment (PPE) is donned or doffed~ nor did the report provide a description of work activities
during the sampling period.

The KAMconsultant collected eight surface wipe samples and four hand wipe samples that were
analyzed for cac:lmium and lead. As we found during our review of most consultant. reports from
other Fels, this report did not Clearly describe what the sample results represented. It appears
that two of the. "hand wipe" samples Were ac.tually collected from gloves Worn by.a breaJ.<etand
assistant breaker, and two samples were obtained from each worker's hands .. The latter samples
appear to indicate that lead, Was not detected on workers' skin, while cadmium was detected on
theha.nd of one glass breaker. Cadmium and lead were detected on work surfaces and
equipment, including. the pallet jack, booth table, booth floor, and workers' gloves. Cadmium
 Page7_

 and Iea.d were detected outside the booth on the "outdoor floor or walkway to building" (noted in
 the hand-written chain-of-custody sheet),

 The KAM consultant concluded that this is a "clean" effiCient, and safe operation when
 considering the nature ofthe work perIonned.", The report noted that airborne exposures were
 not "significant;" however, wipe samples indicate a l1e,ed for better control oflead on hands, as
 well as housekeeping improvements to reduce the tracking oflead out ofthe work area. The
 consultant provided several recoOlfllendations for improving worker hygiene and workplac,e
 housekeeping.

  The OSHA inspection report, which was provided tt.) the warden, and the internal metp.prandum
, from QSBA Region 4 Admi.ni.strat.or Cindy Coe Laseter descdbe the glass breaking operation in
  detail. Personal air monitoring for barium, beryllium, cadmium, and lead was conducted for two
  glass breakers, two feeders, and one helper. With the exception of one cadmium sample, the
  results of all personal samples were below the limit or detectio,a The results. of the cadmium .
  samPlewerewell-b~lowtheOSHA ALior cadmium. LeadancLcadtnium were detected in wipe
  samples colIe.cted frPlfiPPE and surfaces·in the work area, too.

 In addition to the sample results, the OSHA inspection report indicated that:

     • 	 Glass breakers wore PPE as described by the KAM consultant (above).

     • 	 Feeders' PPE differed fromthal Worn by glass breakers in that feeders wore nuisance
         dUst masks.                            '.

     • 	 "Full compliance with the QSJlA respiratory standard was reviewed. An OSHA violation
         could not be substantiated at this time;~'

     • 	 Glass breakers used pump-up sprayers to moisten glass and surfaces to control dust.

     • 	 High efficiency powered air (HEPA)-filtered vacuum cleaners were used to clean the
         surfaces of boxes of broken glass before. boxes are removed from the booth; however,
         colorimetric teststo ascertain the effectiv~nessof cleaning were not done. (No violation
         could be substantiated atthis time.)

     • 	 Worker rotatiol1 was used "'to. help minimize the inmates' exposure, and to change work
         locations to allow everyone the chance to experience each job duty." (No violation was
         noted.)

     • 	 Engineering controls were utilized (Atmos-Tech Industries HEPA units).

     •	   G~assbreakers wore PPEwhile cleaning theGBO with brooms, dust pans, and HEPA
          vaCuums at the end ofthe, wotk shift or at the end ofthe day.

     • 	 Clea11-)lp/sanitation facilities were provided for GBO workers, i.e" restroom with soap
         and water.
                                                                                                   """   r-.   ,<,.~
                                                                                                                   ;




page8 _ _

   • 	 Eating andlor drinking were prohibited in the glass breaking building. Inmates were
       trained in the hazards of heavy metals and the importance. of good hygiene;

   • 	 Inmates used HEPA vacuum cleaners to remove. dust from clothing and shoes before
       exiting the giass breaking bUilding.

Written recommen4ations from OSHA to the warden;

   • 	 Continue using hooded PAPRseven though air sampling results were below ALs and
       PELs.

   • 	 Tape wrists and other openings inPPE.

   • 	 Ehsure that the PAPR hood completely covers the neck and shoulders.

   • 	 Ensure that respirators are clean and free of heavy metals.

   • 	 Perform a baseline noise survey;

   • 	 Ensure that the correct HEPA filter is used in Vacuum #3.

   • 	 Perform "Qllality assurance checks" to ensure that boxes leaving the glass breaking
       building are clean, and do not expose the inmate population to lead and cadmium.

   • 	 Perform "quality assurance checks" of other iteIlls"wblch ate exposing employees to
       possible ingestion hazards. (This recommendation did not identify the "items of possible
       environmental contamination..")

   • 	 Perform a heat stress evaluation.

NIOSHIDART and ·FOH conducted environmental, safety, and he~lth assessments of electronics
equipment recycling operations at FCI Marianna in August, 2007. There.sults ofair sampling
conducted by NIOSHIDART during routine and non..:routine operations onAugust 8 and 9, 2007
indicatedthatworker exposures to metals did not exc.eed occupational eXPQsure limits
(OELs). l{Qwever, the feeders' exposures to cadmium were unexpectedly high on August 8. On
that day, cadmium exposures for the two feeders were 6.8 llg/m3 and 3.8 llg/m3 for the 143­
minute sampling period. Those concentrations were much greater than the air sampling
results reported for glassbteakers.on either ofthe two sampling dates, as.weU as the results for
feeders on August 9. lfwork on August 8 had not been terminated early clue to excessive heat,
and the CRTs were processed at the same rate for the remainder ofthe shift, it is possible that
one ofthe feeders would have been exposed to an 8-hour TWA cadInium concentration above
the AL on that day. The difference be.tween the feeders' results on the two days suggests that
1) there was considerable day-to-dayvariability in worker exposures, and 2) engineering controls
at Marianna did not always controlairbome dust effectively.
                                                                                                       1
                                                                                                       !
                                                                                                       i



Page9_
Lead, cadmium and other heavy metals were detected in the surface, Wipe and bulkdllSt samples.

Environmental heat monitoring and estimates ofwork rate indicated that ,some workers in this
facility were exppseq to heat stJ;ess (e.g., above the American Conference ofGovernmental
Industrial Hygienists (ACGIH®) threshold limit value or at risk of heat stress (e.g., exceeding
the ACGIH AL) during this asSessment.             '

Re.commendations provided by NIOSHIDART include:

   • 	 Implementing a site-specific health and safety program at Marianna that includes a heat
       s~ss program.


   • 	 Evaluating the respiratory protection program to ensure that it complies With OSHA
       regulations.

    • 	 Focusing on practices to prevent accidental ingestion of lead and other metals, such as
        housekeeping to reduce s).1rface contamination and hand washing to prevent hand-to­
        mouth transfer of contaminants.

    • 	 Evaluating the feasibility of providing and laundering work clothing for all workers in the
        recycling facility.

    • 	 Equipping change rooms with separate storage facilities for 'Work clothing and for street
        clothes to prevent cross;.contamination.

    • 	 EvalUating all UNICOR operations in regard to health, safety and. th¢ environment.

    • 	 Providing a comprehensive program within the BOP to assure both staff and inmates a
        safe anel healthy workplace.

FOH characterized legacy contamination at the blue arid gold buildings Where electronics
recycling was performedbetweeil1998 and August 2002. Wipe samples ~ollected pn beams and
duc.twork in these buildings detected average lead concentrations of 1600 micrograms per square
foot (J.l.glft2) in the blue building, and 610 J.Lg/rrin the gold building. Cadmium in these samples
was reported to be 220 J.Lglft2 in the blue building, and 92 IlglYr in the gold building. Four
sampies collected from the floor in each building indicated lead and cadmium concentrations
were one to two orders of magnitude less at floor level than on beams and ductwork. The specific
Sources and/or Qperatiotlsthat generated this contamination have not been determined.


ConclusiOns

Limited exposure monitpring data suggests that exposure~ to metals in the FCI GBO may have
been ,sufficiently low such that the OSHA mandated medical surveillance has not been required.
In addition~the results ofmedical surveillance conducted. on inmates'and stafIwere
unremarkable. However, We believe that if the GBO reopens, UNICOR should continue to
PagelO _ _

perform thellinited biological monitoring that is curren#y in place as an additional safeguard
against ex.cessive .expo~ure and to provide reassurance to inmates and staff. There is no need to
perform any medical surveillance ifthe GSO remains closed. Ex.posure to metals from
electronics refurbishment and disasseinbly are minimal and do not pose a risk to the health of
staff or inmates. There is no evidence to support allegations of exposure to ionjzing radiation.
There Were cotrllictingreports aboutwhether or not monitors were routinely broken in the back
ofsexni-trailers, however,. none ofthe health effectsreportedare due to exposure to lead,
cadlllium, or other exposures that would occur from.thebreaking ofxnonitor glass.


Recommendations
The following recommendations are provided to improve the safety and health ofboth the. staff
and inmates involved with electronics recycling at the'FCI Marianna.

1. Although engineerhlg controls and work practices in the current GBO appear to provide
effective control of worker exposure to cadmium and lead based upon review ofindustrial ,
hygiene sampling, comply with the recommendations from NIQSHlDART for imprbvements to
the GBO booth ifthe GBO reopens. Exposure to feeders should be well characterized, and if
similar to breakers, additional engineeringconitols will be n\:}cessary.

2. UNICOR needs to maintain an ongoing program ofenvironmental monitoring to confirm that
engineering. and work practice controls are sufficiently protective. Environmental monitoring
also prOVides data needed to determine which provisions of the OSHA cadmium and lead
standards should be applied for the G:an.

3. While air sampling in the GBO suggests that the level ofprotection afforded by PAPRs may
not be. needed, we feel thafcontinued use of PMRs does have benefits ih lhissetthig.Loose
fittihgPAPRs are comfortable and provide cooling in the potentially hot work environment. In
.addition, fit testing is. not required. Additionalperiodic air sampling should be conducted to help
ensure that exposures remain consistently below all applicable OELs before considering a
reduction in the level of respiratory protection in the GBO.

4. Ensure that inmates follow posted procedtiresfor handling accidental breakages.ofmo.n1tors.

5. Ensure full complianee with all applicable OSHA stiilldards~ including the General Industry
Lead Standard [29 CFR 1910.1025], the Cadmium Standard [29 CFR 1910.1027], the Hazard
Communication Standard [29 CFR 1910.1200], and the Respiratory Protection Standard [29
CFR 1910.134]. This includes record keeping requirements, communication requirements,
compliance,plans, and medical sttrVeillance.

6. Carefully evaluate the qualifications and expertise of consultants who are hired to assess
occupational or environmental health and safety issues. One useful benchmark for vetting
individuals. who provide irtdustrialhygiene services .is the designati()n of Certified Industrial
Hygienist (eIH). Certificatiouby the American :Board of Industrial Hygiene (ABIH) ensures that
prospective consultants have met ABIH standards for education, ongoing training, and
                                                                                                        1
                                                                                                        !




PageU_
experience, and have passed a rigorous ABIH certification examination. The UNICOR andlor
BOP industrial hygientstscanassist in the selection of your consultants.

7. Petfortna detailed job hazard analysis prior to beginning any new operation or before making
changes tp existing operations. This will allow"UNICOR and BOP to identify potential hazards
prior to exposing staff or inmates, and to identify appropriate controls and PPE. Involve the
UNICOR and/or BOP industrial hygienists in these job hazard analyses. Ifmedical surveillance
is Ileeded then UNICOR and BO)? shou14 perform pre~placement evaluations of exposed staff
and inmIltes. This medical surveillance should be overseen by an occupational medicine
phYsician.

8. Appoint a union safety and health representative. This individual sh(mld be a regular
participant on the joint labor-management safety committee that meets quarterly. Since inmates
do not have a mechanism for representation on this committee; ensure that they are infotmed"of
its proceedings and that they have a way to voice their concerns about and ideas for improving
workplace safety and health.

This interim letter Will be included in a final report that will include evaluations at three other
BOP facilities~ Please post ~ CpPy of this letter for 30 days at or near work areas of affected staff
and innlates; Thank you for your cooperation with this evaluation. Jfyou have any questions,
please do not hesitate to contact us at (513) 841-4382.

                                               Sincerely yours,


                                                   ~f}-IJ/
                                               ElenaH. Page, M,n.,M.p./
                                               Medical Officer




                                               ;(~~
                                               David Sylvain, M.S., C.I.H.
                                               Regional Industrial Hygienist
                                               H~ard Evaluations and Technical
                                                Assistance Branch
                                               Division of Surveillance, Hazard
                                                Evaluations and Field Studies

cc: 

Louis" Eicheiliaub, Warden, Fcr Marianna 

Joey Williams, President, AFGE Local 4036 

Paul Laird, Assistant Director, UNICOR 

                                                                                                      1
                                                                                                      ,;


Page 12,....

Appendix
OccLlpational Exposure Limits and Health effects

In evaluating the hazards posed by workplace exposures, National Institute for Occupational
Safety and Health investigators use .hoth mandatory (legally enforceable) and recommended
occupational exposure limits (OELs) for chemical, physical, and biological agents as a guide for
making reconunendaticms. OELshave been developed hy Federal agencies and safety and health
organizations to prevent the occurrence ofadverse health effects from workplace exposures,
Generally, OELs suggest levels ofexposure to which most wo.rkers may be exposed\lp to 10
hours per day, 40hQUrs per week for a working lifetime without experiencing adverse health
effects. I-Iowever,not all workers will be protected from adverse health effects even if their
exposures are maintained below these levels. A small percentage may experience adverse health
effects because ofindividual susceptibility, Ii pre~existing medical condition, and/or a
hypersensitivity(allergy). In addition, Some hazardous substances may act in combination with
other workplace exposures, the general environment, or with medications or personal habits of
the worker to produce health effects even if the occupational exposures are controlled at the level
setby the exposure limit. Also, some substances can be absorbed by direct contact with the skin
and mucous membranes in addition to being inhaled, which contributes to the individual's
overall exposure.

Most OELsare expressed as a time-weighted .average (TWA) exposure. A TWA refers to the
average exposure during a normal 8~ to 10-hour workday. Some chemiCal substances and
physical agents have recommended short~tertn exposure limit (STEL) or ceiling 'Values where
health effects are caused by exposures over a short-period, Unless otherwise noted, the STEL is a·
15-minute TWA exposure that should not be exceeded at any time during.a workday, and the
ceiling limit is an exposure that should not be exceeded at any time.

In the U.S., OELs have been established by Federal agencies, professional organizations,state
andJocal gove11l1hents, arid other entities. Some OELs are legallyenfotceable limits,whlle
others are recommendations. The U.s. pepartment of Labor Occupational Safety and Health
Administration's (OSHA) permissible exposure limits (PELs) (29 CFR2 19iO [general industry];
                                                            r
29 CFR 1926 [collstructionindustry]; and 29 CFR 1917 maritime industry])are legalJirnits
enforceable in workplaces covered under the Occupational Safety and Health Act. NIOSH
recommended exposure levels (RELs) are recommendations based ona critical review of the
scientific and technical information available on a given hazard and the adequacy ofmethods to
identify and control the hazard. NIOSH RELs canbe found in the NIOSH Pocket Guide to
ChemiCal Hazards [NIOSH 2005]. NIOSH also recommends different types of risk management
practices (e.g., engineering controls, safe work practices, worker education/training, personal
protective equipment, and exposure and medical monitoring) tomi.nimize the risk ofexposure
and.adverse health effects· from these hazards. Other OELs that are commonly used and cited in
the U.S. include the threshold limit values (TLVs) recommended by the AmericaIl Conference of
Governmentallndustrial Hygieni,sts (ACGIH), a professional organization, and the Workplace
environmental exposure limits recommended by the American Industrial Hygiene AssociatiQn,
another professional organization. ACGIHTLVsare considered voluntary exposure guidelines

2   Code ofFederal RegtllatiOils. Bile CFR in references.
Page 13

for use by industrial hygienists and others trained in tIlls discipline "to assist in the control of
health hazards" [ACGIH 2009]. WEELs have been established for some chemicals "when no
other legal or authoritative H:m:itsexist" [AlHA 2008).

Outside the U.s" OELshave been established \:Iy various agencies and organizations and include
both legal and recommended limits. Since 2006, the Berufsgenossens~haftlichen Institut filr
Arbeitsschutz (Gel1l1art Institute for Occupational Safety and Health) has maintained a database
ofinternational OELs from European Union member states, Canada (Quebec), Japan,
Switzer1and~ and the U.S. [http://www.hvbg.de/efbialgestis/limit..yalueslindex.html]. The
database contains intemationallimits for over 1250 hazardous substances and is updated
annually.

Employers should understand that not all hazardous chemicals have .specific OSHA PELs, and
for some agents the legally enforceable and recommended limits may not reflect current health­
based information. However, an employer is still required by OSHA to protect its employees
from hazards even in the absence of a specific OSHA PEL. OSHA requires an employer to
furnish employees aplace of employment free from recognized hazards that cause or are likely
to cause death or seri.ous phYsical harm [Occupational Safety and Health Act of 1970 (Public
Law 91~596, sec. 5(a)(1)]. Thus, NIOSH investigators encourage employers to make use of
other OELs whel1 m~ng risk assessment and risk management decisions to best protect the
health oftheir employees. NIOSH investigators also encourage the use ofthe traditional
hierarchy of controls approach to eliminate at minimize identified workplace hazards. This
includes, in order ofpreference, the use of: (I) substitution or elimination ofthe hazardous agent,
(2) engineering controls (e.g., local exhaust ventilation~ process enclosure, dilution ventilation),
(3) admin,istrativecontrols (e.g.; limiting time of exposure, employee training~ work practiCe
changes, medical surveillance), and (4) personal protective equipment (e.g., respiratory
protection, gloves, eye protection,heating protection). Control banding, a qualitative risk
assessment and risk marta.gement tool, is a complementary approach to protecting worker health
that focus~s resources on exposure controls by describing how a risk needs to be managed
[http://www.cdc.gov/nioshitopicslctrlbartdingl].This approach can be applied in situations where
OELs have not been established or can be used to supplement the: OELs, when available.


Lead

Occupational exposure to inorganic lead ocems via inhalation oflead-containingdust and fume
and ingestion of lead particles from contact with lea<i~eontamjnated surfaces. Incases where
careful attention to hygiene (for example, handwashing) is not practiced, smol9.ng cigarettes or
eating may represent another route of exPosure among workers who handle lead artd then
transfer it to their mouth through hand contamination. Industrial settings associated'with
exposure to lead:and leadcompOUilds include smelting and refining, scrapmetaI l'eCovery,
automobile ra<iiator repair, construction and demolition (including abrasive blasting), and firing
range operations [ACGIH 2007]. Occupationale:xposures also occur among workers who apply
andlor remove lead-based paint or among welders who bum or torch-cut metaIStrUctures.

Acute lead poisoning, caused by intense occupational.exposure to lead over a brief period oftitne
can cause a syndrome of abdominal pain, fatigue, constipation, and in some caseS alteration of
                                                                                                          1

Page.14·_

central nervous systel11 function [Moline and Landrigan 2005]. Symptoms of chronic lead
poisoning include headache, joint and muscle aches, weakness, fatigue~ irritability, depression,
constipation, anorexia, and abdominal discomfort [Moline and Landrigan 2005]. These
symptoms usually do not develop until the blood lead level (BtL) reachesatleast 30-40
microgra,ms per deciliter ofwhule blood Olg/dL) [Moline and Landrigan 2005]. Psychiatric
symptoms sllch as depression, anxiety and irritability appear to be related to high levels of
current lead exposure,. while decrements in cognitive function are related to both recent and
cumulative dose [Schwartz and Stewart 2007]. One study documented a significant positive
relationship between white matter lesion of th.e brain noted on magnetic r¢sonance imaging
(MR.l)andtibia lead levels in former organolead workers [Stewart etal. 2006]. However, the
strongest predictors ofwhite matter lesions are sex~ age, blood pressure, education, smoking
history, alcohol consumption, andApoE genotype [Stewart et al.. 2006]. Overexposure to lead
may result in damage to the kidneys, anemia, high blood pressure, impotence,and infertiHty and
reduced sex drive in,both sexes. Studies have shown subclinical effects on heme synthesis, renal
function, and cognition at BLLs <10 llg/dL [ATSDR 2007]. Inorganic lead is reasonably
anticipated to cause cancer in humans [ATSDR 2007].

In most cases, an individuaI's.BLL is a good indication ofrecent exposure to lead,with a half-life
(the time interval it takes for the quantity in the body to be reduced by half its initial vahle) of 1­
2 months [Lauwerysand Hoet 2001; Moline and Landrigan 2005; NCEH 2005]. The majority of
lead in the body is stored in the bones, with a half-life of years to decades, Bone lead can be
measured using K-shell x-ray fluorescence instruments, but these are primarily research based
and are not Widely available. Elevated zinc protoporphyrin (ZPP) levels have also been used as
an indicator ofchronic lead intoxication, however, other factOrs, such as fron deficiency. can
Cause an elevated ZPP level, so the BLf!. is a more specific test for evaluating occupational lead
exposure.

The NIOSH REL for inorganic lead is 50 micrograms per cubic meter of air (f.1.g/m3) as an 8-hour
TWA. This REL is consistent with the OSHA PEL, which is intended to maintain worker BLLs
below 40 Ilg/ClL; medical removal is required when an employee has a BLL of60 llg/ctL. or the
average pfthe last 3 tests at 50 Ilg/dL or higher [29 CFR 1910.1025; 29 CFR 1962.62]. This is
intended to prevent overt symptoms oflead poisoning, but is not sufficient to protect workers
from more subtle adverse health effects like hypertension, renal dysfunction, and reproductiVe
and cognitive effects [Schwartz and Stewart 2001; Schwartz andHu 2007; Brown-Williamset a1.
2009]. Adverse effects onthe adultreproduct~ve, cardiovascular, and hematologic systems,and
on the <;I.evelopment of children ofexposed workers, can occur at BLLs as low as 10 llg/dL
[Sussell1998J. At BLLs below 40 J..I.g/dL, many ofthe health effects would not necessarily be
evident by routine physical examinations but represent early stages in the development of lead
toxicity. In recognition ofthls, voluntary standards and public health.goals have established
lower exposure limits to protect workers and their children. The ACGIH TLV for lead in aids 50
llg/m3as an 8-hour TWA, ~th worker BLLsto be controlled to ~ 30 Ilg/dL [ACGIH 2009]. A
national health goal is to eliminate all occupational exposures that result in BLLs >25 Jlg/dL
[DFlliS 20001. A panel of experts recently published guidelines for the management of adult Jead
exposure Intended to prevent both acute and chronic effects of lead poisoning [Kosnett et al.
20071. Theyrecommended that an employee be removed from exposure if a single BLL exceeds
30 IlgfdL, pr iftwo measurements taken over 4 weeks exceed 20 llg/dL. Removal should be
considered jf control measures over an extended period do not decrease BLLs to < 10 llg/dL. The
pagelS_

panel also recommended quarterly aLL testing if the BtL is ~tween 10-19 llg/dL, and
semianrtual testing Ifthe BLLis < 10 flgldL. Pregnant womenshOl,Ucl avoid BLLs> 5 j.Lgldt The
third National Report on Hl,lIIlan Exposure to Environmental Chemicals (TNRHEEC) found the
geometric mean blood lead among non-institutionalized, civilian males in 2001-2002 was 1.78
j.Lg/dL [NCEH 2005]. However, widespread co~tamination ofthe environm:entfrom leaded
gasolinein the past led to sigfiifi~ant lead exposure a1110ng the general population. This
contamination peaked between 1950 and the efll'ly 1970s. The average blood lead in Americans
in 1965 was over20 /lgldL [patterson 1965]. Therefore, persons bomprior to the 1970s may
have substantial body burdens of lead.

os HA requires medical surveillanc.e on any employe(! who is or may be exposed to an airborne
concentration of lead lit or above the action level, which is 30 /lg/m3, as an 8-hour TWA ,for
m.orethan 30 days per year [29 CFR 1910.1025]. Blood lead and ZPP levels must be done at
least every 6 months, and more frequently for employees whose blood leads exceed certain
levels~Jn addition, a medical examination must be done prior to assignment to the area,and
should include detailed history, blood pressure measurement, blood lead, ZPP, hemoglobin and
hematocrit, red cell indices, @d peripheral smear, blood urea nitrogen (BUN), creatinine, and a
urin,alysis. Additional medical exams and biological monitoring depend upon the circUinstances,
for example, if the blood lead .exceeds a certain level.


Cadmium

Cadmium is a metal that has many industrial uses, such as in batteries, pigmeIlts~ plastic
stabilizers, metal coatings, and television phosphors [ACGIH 2Q071. Workers may inhale
cadmium dust when sanding, grinding, or scraping cadmium-metal alloys or cadmium­
containing paints [ACGIH 2007]. Exposure to cadmium fume may occur when materials
containing cadmium are heated to high temperatures, .suchas during welding and. torching
operations; cadmium-containing solder and welding rods are also sources ofcadtnium fume. In
addition to inhalation, cadmium may be Il.bsorbed via ingestion; non,..occupational sources of
cadmium exposure include cigarette smoke and dietary intake [ACGIH 2007]. Early symptoms
of cadmium exposure may include mild irritation of the upper respiratory tract, a sensation of
constriction ofthe throat, a metallic taste and/or cough. ShortMterm exposure effects of cadmium
inhalation include cough, chest pain, sweating, chills, shortness of brell.th, and weakness [Thun et
al. 1991]. Short-term exposure effects ofingestion may iIlc1ude nausell, vomiting., diarrhea, and
abdominal cramps [Thun et al. 1991]. Long-term. exposure effects of cadmium may include loss
ofthe s.ense of smen" ulceration of the nose, emphysema, kidney damage, mild anemia, and an
increased risk ·of cancer of the lung, and possibly ofthe prostate [ATSDR 1999].

The OSHA PEL for cadmium is 5 J,lglm3 as an 8-hourTWA [29 CFR 1910.1027]. The ACGIH
has. a TLV for total cadmium of 10 /lg/mJ (8-hour TWA), with worker cadmium blood level to be
controlled at or below 5 micrograms per liter (j.Lg/L) and urine level to be below 5 micrograms
per gram creatinine (J.lg.{g/Cr), and. designation of cadmium. as a suspected human carcinogen
[ACGIH 2009]. NIOSH recommends that ca'dmium be. treated as a potential occupational
carcinogen @dthat exposures he re4uced to the lowest feasible cuncentration [NIOSH 1984].
Page 16

Blood cadmium level~ ~as'!ll'ed while exposure is ongoing reflect fairly recent eXPos'!ll'e (in the
past few months). The half-life is biphasic, with.rapid elimination (half-lifeapproxim:ately 100
days) in the first phase, but much slower elimination in the se.cond phase (half-life ofseveral
years) [Lauwerys and Hoet 2001; Franzblau 2005]. Urinary cadmium levels are reflective of
body burden and have a very long half·liie of 10-20 years [Lauwerys and Hoet 2001].

OSHA requires medical surveillance on any employee who is or may be exposed to an airborne
concentration of cadmitim at or above the action level, which is 2.5 J.l.g/m3 as an 8-ho:tlt rwA,
for·Itlorethan 30 days per year [29 CFR 1910.10271. A preplacemeni examin.ation must be
provided, and shall include a detailed history, and biological monitoring for urine cadmium
CCdU)and beta,.2-microglobulin CB-2-M), both standardized to grams ofcreatinine (g1Cr),.and
blood cadmium CCdB), standardized to liters of whole· blood. OSHA defines acceptable CdB
levels as < SllglL, CdU as < 3 J.l.glg/Cr, and B-2-M as< 300llglglCr. 1NRHEEC fOll11d
geometricItlean CdB of0.4 !J.g/L among men in 1999-2000. Smokers can have CdB levels much
higher than nonsmokers, with levels up to 6.1J.l.g/L [Martin et al. 2009J. The geometric mean
CdU for men in 2001..2002 was 0.2 J.l.g/g/Cr in NHANES III. Periodic surveillance is .also
required one year after the initial exam and at least biennially after that. Periodic surveillance
shall include the biological monitoring, history and physical examination, a chest x-ray
(frequency to be determined by the phYsician after the initial x-:ray), pulmonary function tests,
blood tests fot BUN, complete blood count, and Cr, and a llrlnalysis. Men over 40 years ofage
require a prostate examination as well. The frequency ofperiodic surveillance is determined by
the results ofbiologieal monitoring and medical examinations. Biological monitoring is required
annually, either as part of the periodic surveillance or on its own. We recQmmend that the
preplacement examination be identical to the periodic examinations so that baseline health status
may be obtained prior to exposure. Tennination of employment examinations, identical. to the
periodic examinations, are also required. The employer is required to provide the employee with
a copy ofthe physician's written opinion from these exams and a copy ofbiological monitoring
results within 2 weeks ofteceipt

Biologic!il:r:nonitoring is also required for all employees who lllay have been exposed at or above
the action level unless thl':: employer can demonstrate that the exposure totaled less than 60
months. In tHis case it must also be conducted one year afier'the initial testing. The need for
further monitoring for previously expOsed employees is then determined by the results of the
biological monitoring.
                                                                                                        1
                                                                                                        !
                                                                                                        !

Page 17

References

ACGIH [2007].2007 Documentation of the threshold limit values and biological exposure 

indices. Cincinnati, OR: America.tlC~mferel1ceof Governmental Industrial 

Hygienists. 


ACGIH [2009]..2009 TLVs® and aEls®: threshold limit values for chemical substances and 

physical agents and biological exposure indices. Cincii1nati, OH: American Conference of 

Governmental Industrial fJygiehists. 


AlfJA [2008]. 2008 Emergency response planning guidelines (ERPG) & workplace 

environmental exposure levels (WEEL) handbook. Fairfax, VA: American Industrial Hygiene 

Association. 


ATSDR [1999]. Toxicological profIle for cadmium. Atlanta,.GA: U.S. Department ofHealth and 

fJuman Services. Agency for Toxic Substances and Disease Registry. 


ATSDR[2Q07]. Toxicological profile for lead. Atlanta, GA: U.R Department ofHealth and 

Human Services. Agency for Toxic Substances and Disease Registry. 


Brown-Williams H, Lichterman J,Kosnett M [2009]. Indecent exposure: lead puts workers and 

families at risk. Health Research in Actiol1. University ofCalifornia, Betkeley. Perspectives 4(1). 


CFR. Code of Federal Regulations. Washington, DC: U.S. Government Printing Office, Office 

ofthe Federal Register. 

DHHS [2000]. Healthy people 2010: understanding and improving health. 2nd ed. WaShington, 

DC: U.S. Department of Health artd Human Services. 

[www.health.govlhealthypeople/Documentidefaultht1l1]. Date accessed: March 20Q9. 


Franzblau A [2005]. Cadmhnn. Chapter 39.4. In: Textbook ofclinical occupational and . 

environmental medicine. RosenstockL, Cullen MR. Brodkin CA, and Redlich CA,eds.,2nd .ed. 

Philadelphia, PA: Elsevier Saunders, pp. 955-958. 


Kosnett MJ, Wedeen RP. R.othenberg SJ, Hipkins KL, Materna BL, Schwartz BS, Hu H, Woolf 

A [2007]. Recommendations for medical management ofadult blood lead exposure. Environ 

Health Perspect 115(3):463-471. 


Lauwerys RR, Hoet P [2001]. Chapter 2. Biological monitoring of exposure to inorganic and 

organometallic substances. In: Industrial chemical exposure: guidelines for biological 

monitoring. yd ed. BocaRaton,FL: CRC Press, LLC. pp. 21-180. 


Martin CJ, Antonini JM, Doney BC [2009]. A case report .of elevated blpodcadnfium. Occup 

Med 59(2):130-132.' 


Moline 1M, LllI1drigan PJ [2005]. Lead. Chapter 39.8. In: Textbook of clinicaloccupatlonal and 

environmental medicint}, Rosenstock L,CuIlen MR, Brodkin CA, and Redlich CA, eds., 2nd ed. 

Philadelphia, PA: Elsevier Saunders, pp. 967....;.979.          .

Page 18


NCEH [2005J. Thirdnationl;l! report on human exposure to environmental chemicals. Atlanta. 

GA: U.S. Department of Health and Human Services" Centers for· Disease Control and 

Prevention. National Center for Environmental Health Publication number 05;"'()570. 


NIOSH [1984]. Cment Intelligence Bulletin #42: Cadmium. Cincinnati, OR: U$. Department 

of Health and Hilman SerVices, Centers for Disease Control and Prevention, National Institute 

for OccupatioUii1 Safety and Health, DHHS (NIOSH)IDOL (OSHA) Publication No.84--116. 


NIOSH [2005]. NIOSH pocket guide to chemical hazards. Cincinnati, OH: U.S~ Department of 

Health and HUIIlan Services, Center!; for Disease Control and Prevention, National Institute for 

Occupational SafetyaI)d Health, DHHS (NIOSH) Publication No. 2005-149. 

[www;cdc.gov/nioshinpgl]. Date accessed: March 2009. 


Patterson CC [1965]. Contarninatedand natural lead environments ofman. Arch Environ Health 

11:344--60. 


Schwartz BS, Hu H [2007]. Adult lead exposure: time for change. Environ HealthPerspect 

115(3):451-454. 


Schwartz BS, Stewart WF [2007]. Lead and cognitive function in adults: A question and answers 

approach to ,a review of the evidence for cause, treatment, and prevention. Int Rev Psychiatry 

19(6):671-692.                                        .

Stewart WF, SchwartzBS, Davatzikos C, Shen D, Liu D, Wu X, Todd AC, Shi W, Bassett S, 

YoussemD [2006]. Pastadult lead exposute is linked to neurodegeneration measured by brain 

MID. Neurology 66(10):147.6-84. 

Sussell A [1998]. Protecting workers exposed to lead-based paint hazards: a report to congress. 

Cincinnati, OH:U.S. Department of Health and Human Services, Centers for Disease Control 

and Prevention, National Institute for Occupational Safety and Hel;l!th" DHHS (NlOSH) 

Publlcatiol1 No. 98-112. 


Thun MJ, Elinder C,FribergL[1991]. Scientific basis for an occupational standard for 

cadmium. Am J Ind Med 20(5}:629-642. 

     DEPARTMENT OF HEALTH AND HUMAN SERVICES                                    Public Health Service


                                                                                National Institute for Occupational
                                                                                 Safety and Health 

                                                                                Robert A. Taft Laboratories 

                                                                                4676 Columbia Parkway 

                                                                                Cincinnati OH 45226-1998 




                                                                                    June 25, 2009

                                                                                HETA 2008-0055




Investigative Counsel

Oversight and Review Division

Office of the Inspector General

United States Department of Justice, Suite 13100

Washington D.C. 20530



Dear_:



On November 27,2007, the National Institute for Occupational Safety and Health (NIOSH)

received your request for technical assistance in your health and safety investigation of the

Federal Prison Industries (UNICOR) electronics recycling program at Federal Bureau of Prisons

(BOP) institutions in Elkton, Ohio; Texarkana, Texas; and Atwater, California. You asked us to

assist the United States Department of Justice, Office of the Inspector General (USDOJ, OIG) in

assessing the existing medical surveillance program for inmates and staff exposed to lead and

cadmium during electronics recycling, and to make recommendations for future surveillance. In
Page2­

addition, you asked us to assess past exposures to lead and cadmium, and to investigate the

potential for "take home" exposure. You later asked us to perform a similar evaluation for the

BOP institution in Marianna, Florida. We conducted a site visit at the Atwater BOP institution on

October 15, 2008. This interim letter summarizes our findings and provides recommendations to

improve the safety and health of the inmates and staff at the United States Penitentiary (USP) in

Atwater, California. These findings will be included in a final report that will summarize the

evaluations at all four institutions we evaluated.



Inmates were exposed to cadmium and lead above occupational exposure limits during the glass

breaking operation (GBO) from 2002-2003. It appears that inmates worked without adequate

respiratory protection from April 2002 until July 2002. Exposures seem to have been better

controlled with the relocation ofthe GBO to the spray booth, however, one sample taken after

the relocation demonstrated significant cadmium exposure.


Background


The USP in Atwater, California, is a high security facility housing adult male offenders. The

institution also includes a minimum security satellite camp. Information provided to us indicates

that the UNICOR computer recycling program began at USP Atwater in April 2002. In May

2002, a "3-stage powder booth" was installed for the GBO. Glass breaking continued for 2

months before being suspended pending the results of biological testing for lead, cadmium, and

barium. It appears that respirator fit testing was conducted at about the time when glass breaking

resumed in mid to late July 2002. An environmental consultant to UNICOR developed a written

cadmium and lead compliance plan in August 2002, after air sampling indicated that airborne

lead and cadmium concentrations exceeded Occupational Safety and Health Administration
Page 3­

(OSHA) permissible exposure limits (PELs). Glass breaking continued, and in December 2002,

UNICOR installed what they termed a "ventilation system that exceeded OSHA standards." In

June 2003, the GBO was relocated to take advantage of an existing spray booth on a loading

dock. With the exception of several periods when glass breaking was reportedly suspended, glass

breaking continued until March 2005 when all glass breaking operations ceased. Throughout this

period, UNICOR provided biological monitoring, air sampling, and respirator fit-testing.


Assessment



We reviewed the following documents:



   • 	 Results of biological monitoring performed between 2002 and 2008 (provided by your

       office, the USP clinic, and the factory manager).

   • 	 Medical records from seven staff members (provided by your office).

   • 	 Work instructions for the GBO and maintenance.

   • 	 Rosters for inmates working in the GBO (provided by the factory manager).

   • 	 DOJ interviews with staff and inmates.

   • 	 Results of industrial hygiene sampling performed by a consultant to UNICOR.



During the site visit on October 15, 2008, we held an opening conference with USP and

UNICOR management, American Federation of Govemment Employees (AFGE)

representatives, and the UNICOR factory manager. After the conference we toured the former

recycling location in the USP. We met with two inmates individually who had worked in the

GBO from its inception to do medical interviews. We spoke to the laundry manager who was
Page 4­

concerned about exposures to his staff. We ended the site visit with a closing conference where

we presented our initial findings and recommendations.


                                              1
Results and Discussion


Medical surveillance


Inmates



Biological monitoring is performed by the USP clinic and consists of blood lead levels (BLLs),

blood cadmium (CdB), urine cadmium (CdU), urine beta-2-microglobulin (B-2-M), and serum

barium. Not all tests were done for each inmate. The test results are reviewed by a physician.

Paper copies of test results are maintained in the inmate's personal medical record but not with

UNICOR management. No physical examinations are performed and inmates did not receive

medical clearance to wear a respirator. Each inmate's medical records are transferred with them;

no medical records are retained at Atwater after an inmate is transferred or released. The time line

provided states that blood testing for inmates working in the GBO began in July 2002; however,

a handwritten list of test results done in July 2002 had prior test results noted in parentheses. The

Health Services Administrator from that time frame reported that tests noted in parentheses were

from March 2002 for inmates in the GBO. There was also a typed list of seven inmates' CdB and

CdU results dated March 31, 2003. No units of measurement were given on this list, but

reference ranges for CdB were given in micrograms per liter (llglL). The remainder of the

biological monitoring results reviewed was provided on the actual laboratory reports. The results

ofthe available inmate biological monitoring are summarized in the following sections.


I   See Occupational exposure limits and health effects in Appendix.
Page 5­



Preplacement test results from March 2002 were available for 10 inmates who performed glass

breaking. All had BLLs, CdB, and serum barium testing. The BLL was below the limit of

detection (LOD) of2 micrograms per deciliter of whole blood (f.lg/dL) for six inmates, 2 f.lg/dL

for two inmates, and 3 f.lg/dL for two inmates. CdB was below the LOD of 0.5 f.lglL for the one

inmate documented to be a nonsmoker. The mean CdB for the remaining inmates was 1.4 f.lglL

(range: 0.7-2.3 f.lglL). Three inmates noted to be smokers had CdBs of 1.7,2.0, and 2.3 f.lglL.

Smoking is known to increase CdB levels, sometimes drastically. The mean CdB for the six

remaining inmates, for whom smoking status was unknown, was 1.0 f.lglL (range: 0.6-2.1 f.lglL).

No CdU testing was documented. The mean serum barium level was 76.4 f.lglL (range: 59-116

f.lglL). The reference range provided by the laboratory for serum barium was 0-400 f.lglL.



Results were available for 18 inmates who had biological monitoring performed in early July

2002, prior to respirator use but about a week after the temporary shutdown of the GBO. The 10

inmates tested in March 2002 were retested along with eight other inmates who were tested for

the first time. The BLLs of the 10 inmates previously tested increased, with all BLLS being

above the LOD in July 2002. The mean BLL for these 10 inmates was 4.6 f.lg/dL (range: 2-9

f.lg/dL). In contrast, CdBs decreased. The nonsmoking inmate with a nondetectable CdB in

March 2002 remained below the LOD. Three others dropped below the LOD of 0.5 f.lglL, as

well. The remainder had a mean CdB of 1.3 f.lglL (range: 0.6-1.8 f.lglL). No CdU testing was

documented, and mean serum barium was 105.5 f.lglL (range: 78-150 f.lglL). These test results

are the best indication of inmate exposure during the time frame when glass breaking was

occurring without controls or respiratory protection. The slightly increased BLLs indicate
Page 6­

exposure to lead, however, the decreased CdB results likely represent an inability to leave the

work area to smoke.



The eight inmates tested for the first time in July 2002 had a mean BLL of 3.8 J!g/dL (range: 2-8

J!g/dL). CdB results were below the LOD for four inmates; one nonsmoker, one smoker, and two

whose smoking status was unknown. The mean for the other four was 1.4 J!glL (range: 0.7-2.2

J!glL). Two were smokers, one was a nonsmoker, and the status of the other is unknown. No

CdU testing was documented, and mean serum barium was 103.1 J!glL (range: 66-240 J!glL).

The value of 240 was an outlier, with the next highest value being 96 J!glL.



Ten inmates were tested between one and four times each between March 2003 and November

2004. Thirteen BLLs were available. Four BLLs were below the LOD of2 J!g/dL. The mean of

the other nine BLLs was 3.6 J!g/dL (range 2-6 J!g/dL). Seventeen CdB were available. Three

were below the LOD of of 0.5 J!glL. The mean of the remaining 14 CdB was 1.8 J!glL (range

0.6-4.0 J!glL). Seven inmates known to be smokers had a mean CdB of 1.8 J!g/L (range: 0.9-4.0

J!glL). Four inmates were documented nonsmokers: two had CdB below the LOD and two had

CdB of 0.6 J!glL. Smoking status of the remaining six inmates was not known. Fourteen CdU

test results were available. Five were noted to be "negative" and three were below the LOD of

1.0 J!glL. Three CdU concentrations were quantified at 0.6, 1.2, and 1.3 micrograms per gram of

creatinine (J!g/g/Cr). Another three were noted to be 1.2, 1.8, and 2.8 but no units of

measurement were provided. There were 11 serum barium levels, with a mean concentration of

122.2 J!glL (range: 47-385 J!glL). There were three urinary B-2-Ms, all of which were normal,

and no zinc proto porphyrins (ZPP).
Page 7­

UNICOR Staff



Records were reviewed from seven staff members who filed workers' compensation claims for

exposures from recycling. These seven were seen by an occupational medicine physician and a

toxicologist. Two reported no symptoms; five reported cough productive of brown sputum and

brown nasal discharge. They had biological monitoring for lead and cadmium; chest x-rays;

spirometry; complete blood counts; blood chemistries; blood beryllium, barium, cobalt, arsenic,

mercury, and zinc; erythrocyte sedimentation rate; sputum culture and sensitivity; prothrombin

time and partial prothrombin time; and electrocardiograms and a variety of other tests performed.

Test results were available for eight staff members (the safety manager was also tested during

this time frame), each of whom was tested one to four times between February 2003 and

December 2004. Ten BLLs were available. Two were above the LOD, both in the same

individual, and measured 3.5 and 5 f!g/dL. The LOD varied, and was either 2, 3 or 5 f!g/dL.

Twelve CdB were available, and six were below the LOD of 0.5 f!glL. The remainder ranged

from 0.5-0.9 f!glL. The highest was in a smoker. Nine CdU results were available, and six were

below the LOD of 0.5 f!glL. Two were 0.1-0.3 f!g/g/Cr, and one was 0.7 f!glL. There were five

zpp results and seven B-2-M results; all were within the normal range. There were seven serum

beryllium test results and all were below the LOD. Eight serum barium levels were available.

The mean concentration was 43.4 f!glL (range: 3.1-86 f!glL). In addition, blood arsenic, mercury,

cobalt, and zinc levels were done. These tests are not based upon occupational exposures, but

were noted to be normal. The remainder of the tests was unremarkable and did not suggest an

occupational hazard. The toxicologist determined that none of the individuals evaluated had any

occupational medical problems.
Page 8­

Results of medical surveillance that 10 UNICOR staff received from private physicians between

2007 and 2008 were available. There were eight BLLs, all below the LOD, and nine CdBs, eight

of which were below the LOD and one that was 0.8 /!g/L. There were nine CdU results; six were

below the LOD of 0.5 /!g/L and the other three ranged from 0.3-0.4 /!g/L. Eight B-2-M results

were within the normal range. The mean of nine serum barium levels was 30.9 /!g/L (range: 17­

47/!g/L).



Finally, five laundry staff had biological monitoring done once each at the USP clinic during

2003. Two BLLS were below the LOD, the others ranged from 2-3/!g/dL. Four CdBs from

nonsmokers were below the LOD. One smoker had a CdB of 1.3 /!g/L. All five CdUs were

reported as 0.0 /!g/L. B-2-M measurements were normal, and mean serum barium was 56.2 /!g/L

(range:42-68 /!g/L).



In summary, results of biological monitoring of both staff and inmates were unremarkable with

regards to potential occupational exposure to lead, cadmium, and barium.




Interviews with Inmates



Neither inmate reported medical issues related to work in recycling.


Industrial Hygiene


Records Review
Page 9­

The OIG provided 13 reports of occupational exposure assessments of glass breaking operations

performed at USP Atwater between June 2002 and March 2005. Eleven reports were prepared by

consultants to UNICOR, and two by the BOP industrial hygienist.



2002

A consultant conducted the first exposure assessment on June 20, 2002. During this visit, the

consultant collected one 65-minute personal breathing zone (PBZ) sample that indicated an

airborne cadmium concentration of 50 micrograms per cubic meter of air (llg/m3) in glass

breaking. (The OSHA PEL for cadmium is 5 Ilg/m3 as an 8-hour time-weighted average

[TWA]). The airborne lead concentration was reported to be 99 Ilg/m3 (the PEL for lead is an 8­

hour TWA concentration of 50 Ilg/m3). The consultant recommended that respiratory protection

be provided and that "personal hygiene procedures" be reviewed. The report contained no other

information regarding the work environment, work practices, engineering controls, or personal

protective equipment (PPE).



The consultant returned on July 24,2002, and collected seven full-shift PBZ samples for

cadmium and lead. The consultant reported that four samples exceeded the cadmium PEL and

two other samples exceeded the cadmium action level (AL) of 2.5 Ilg/m3. Cadmium

concentrations were reported to be as high as 270 Ilg/m3; however, the report did not state the

results for the individual samples. The lead PEL was exceeded in one sample; the lead AL (30

Ilg/m3) was exceeded in two other samples. The report does not indicate if the results were

reported for the sampling period (approximately 6Yz hours) or calculated as an 8-hour TWA.

Cadmium and lead were detected in each of eight surface wipe samples collected on this date.

The highest concentrations were found on surfaces in the glass breaking area; lower
Page 10­

concentrations were reported on inmate workers' skin and on surfaces in the food service area.

The report repeated the recommendations presented in the previous report.



On September 4-5,2002, the BOP industrial hygienist conducted a technical assistance visit. He

conducted PBZ exposure monitoring in and around the GBO. Five of 11 PBZ samples indicated

8-hour TWA concentrations exceeding the cadmium PEL; one worker was exposed to lead

above the PEL. The panel breaker's exposure to cadmium exceeded the PEL on both dates. The

panel breaker's exposure to cadmium was an 8-hour TWA concentration of90 /-lg/m3 (18 times

the PEL) while breaking glass outside of the booth under the mezzanine. Ofthe six samples that

did not indicate overexposure to airborne cadmium, five were collected outside the glass

breaking area. Shoveling and sweeping of floor debris, and an "aggressive" glass breaking

technique were reported as factors contributing to excessive airborne dust concentrations.

Recommendations for changing the glass breaking technique, and changing glass breakers'

locations relative to the ventilation system were made.



The consultant returned on November 4, 2002, and collected six surface wipe samples, and six

full-shift PBZ samples in the GBO. The sampling period was approximately 6 hours. Five of the

six samples exceeded the cadmium PEL; one exceeded the lead PEL. PPE worn by workers

included half-face piece air purifying respirators fitted with high efficiency particulate air

(HEPA) filter cartridges. Both glass breakers were exposed to airborne cadmium concentrations

that greatly exceeded the assigned protection factor of 10 for the half-face piece respirators. One

glass breaker's lead exposure exceeded the PEL. Lead and cadmium were present in all wipe

samples. No recommendations were provided in the report.
Page 11­

2003



On January 21 and February 27, 2003, the consultant assessed worker exposures to barium,

beryllium, cadmium, and lead. The report for January 21,2003, indicates that four of eight PBZ

samples exceeded the PEL for cadmium; none were reported to exceed the PEL for lead. Barium

concentrations were reported to be very low (beryllium was not detected). The report states that

the airborne cadmium concentration near the "exhaust outlet of the booth" exceeded the PEL;

however, the report does not describe the location of the outlet, i.e., indoors, outdoors, or

proximity to workers. (It is our understanding that the ventilation system used at this time

exhausted indoors.) Values reported for barium and beryllium in skin wipe samples were

incorrectly interchanged in the report, i.e, the consultant reported beryllium in all wipes samples,

while the laboratory analysis report for this visit clearly indicates that beryllium was below the

LOD in all wipe samples.



Three PBZ and one area air sample were collected on February 27, 2003. Barium and lead

exposures were below PELs; cadmium exposures exceeded the PEL and AL. One PBZ exposure

reportedly exceeded the PEL and ACGIH Threshold Limit Value® (TL V) for beryllium;

however no supporting documentation (e.g., laboratory analysis reports) was provided to

substantiate this finding. In 2003, the PEL and TL V for an eight-hour TWA exposure to

beryllium were 0.002 mg/m3• Given the low beryllium concentrations found in relatively few air

samples collected by NIOSH Division of Applied Research Technology (DART) investigators at

other UNICOR recycling facilities, the incompleteness of data provided for this visit, and the

error in the January report, it is uncertain whether an overexposure to beryllium occurred on this

date.
Page 12­



Neither of the reports for 2003 contained recommendations, or provided additional information

regarding the work environment, work practices, engineering controls, or PPE.




UNICOR used a different consultant starting in 2004. Another change appears to be the location

of the GBO; it is our understanding that in June 2003 the GBO moved from beneath a mezzanine

to an existing spray booth on a loading dock, which we toured during our October 2008 site visit.



The consultant conducted four exposure assessments from January through March 2004. During

these visits, the consultant collected 18 PBZ and six area air samples that were analyzed for

barium, beryllium, cadmium, and lead. With one exception, air sampling indicated airborne

concentrations below the LOD and/or occupational exposure limits. The exception was a PBZ

sample collected at panel glass breaking on February 9, 2004, which indicated an airborne

cadmium concentration of 28 Ilg/m3 during a 287 minute sampling period (17 Ilg/m3 as an 8­

hour TWA, assuming no additional cadmium exposure during the unsampled time). No

explanation for this singular overexposure was given in the report or in either of the two

subsequent reports for 2004. We noted that two reports were written for the February 9, 2004,

visit, the first of which suggested that the panel breaker had not been overexposed to cadmium

because the worker had been wearing a full-face piece respirator. The transmittal memo for the

first report erroneously stated that because a full-face piece respirator was worn, " ... the PEL for

cadmium has been increased to 250." It appears that the second report for this visit was provided

a month later in order to correct the errors contained in the initial report; however, the second
Page 13­

report merely omitted the errors, and did not provide a correction, per se. We mention the

erroneous statements in the report as another example of incorrect or incomplete information that

has been provided to UNICOR by environmental consultants.



Reports for the latter three consultant visits in 2004 state that workers wore disposable suits and

full-face piece respirators (presumably air-purifying, not powered air-purifying) while breaking

cathode ray tubes (CRTs).



On September 28-30, 2004, the BOP industrial hygienist assessed exposure to metals while

workers handled computer monitors in the UNICOR factory and warehouse; the purpose of this

visit was not to assess exposure during glass breaking. All air sampling results (barium,

beryllium, cadmium, lead) were below the LODs and PELs. Air sampling where six monitors

were broken in a Gaylord box produced results below the OSHA PELs for the four elements.

Wipe samples were collected from workers' hands, table tops in the production area, and in the

food service/dining area located in the comer of the UNICOR factory. Metals were reported in

wipe samples obtained from table tops in production areas. Wipe samples from workers' hands

were generally below the LOD; however, barium and lead were detected in some samples.

Cadmium was detected in one hand wipe sample. Barium and cadmium were detected in a

sample from a dining room table top that was reportedly used and cleaned each day. Barium,

cadmium, and lead were detected in a wipe sample from the top of cabinet in the dining area.

The report recommended using butcher paper or other disposable covering on dining tables, wet

wiping or HEPA vacuuming surfaces, and wearing disposable gloves to prevent contamination

of workers' skin.
Page 14­

2005



Reports were provided to us for two consultant visits conducted in March 2005. Six PBZ and one

area air sample were collected. Air samples during these visits indicated concentrations that were

low or below the LOD. The most notable result was a PBZ sample on a glass breaker assistant

that indicated a cadmium exposure of3 ~g/m3 during a 206 minute sampling period (an 8-hour

TWA of 1.3 ~g/m3 assuming no cadmium exposure during the unsampled period). Low

concentrations of cadmium and lead were detected in wipe samples. The report for the first

March visit correctly noted that PELs are applied without regard for PPE. Worker exposures

were described as insignificant.



No other reports of exposure assessments were provided to us.




Conclusions



Inmates were exposed to cadmium and lead above occupational exposure limits during glass

breaking from 2002-2003. It appears that inmates worked without adequate respiratory

protection from April 2002 until July 2002. Exposures seem to have been better controlled with

the relocation of the GBO to the spray booth, however, one sample taken after the relocation

demonstrated significant airborne cadmium exposure. No inmates or employees had blood or

urine levels of lead or cadmium which exceeded occupational standards. Medical surveillance

was not in compliance with the OSHA lead and cadmium standards, and medical clearance was

not performed for respirator use, a violation of the OSHA respiratory protection standard. If the
Page 15­

GBO reopens, UNICOR should thoroughly characterize exposures to lead and cadmium, and

perform medical surveillance in compliance with the applicable OSHA standards until it is

documented that exposures are controlled below the OELs. There is no need to perform any

surveillance if the GBO remains closed. It is unclear if there was exposure to beryllium. The

industrial hygiene reports often lacked information needed to interpret findings.


Recommendations



The following recommendations are provided to improve the safety and health of the staff and

inmates involved with electronics recycling at the USP Atwater.



1. Although engineering controls and work practices in the GBO generally appear to provide

effective control of worker exposure to cadmium and lead based upon review of industrial

hygiene sampling, exposures should be better characterized if the GBO reopens. UNICOR needs

to maintain an ongoing program of environmental monitoring to confirm that engineering and

work practice controls are sufficiently protective. Environmental monitoring also provides data

needed to determine which provisions of the OSHA cadmium and lead standards should be

applied to the GBO.



3. Ensure full compliance with all applicable OSHA standards, including the General Industry

Lead Standard [29 CFR 1910.1025], the Cadmium Standard [29 CFR 1910.1027], the Hazard

Communication Standard [29 CFR 1910.1200], and the Respiratory Protection Standard [29

CFR 1910.134]. This includes record keeping requirements, hazard communication

requirements, compliance plans, and medical surveillance. In addition to the OSHA
Page 16­

requirements, we recommend that the preplacement examination for cadmium exposure be

identical to the periodic examinations so that baseline health status may be obtained prior to

exposure. We also strongly recommend UNICOR to voluntarily follow the more protective

guidelines for lead exposure and BLLs set forth by the expert panel, [Kosnett et al. 2007], that is

outlined in the appendix to this letter.



4. Carefully evaluate the qualifications and expertise of consultants who are hired to assess

occupational or environmental health and safety issues. One useful benchmark for vetting

individuals who provide industrial hygiene services is the designation of Certified Industrial

Hygienist (CIH). Certification by the American Board ofIndustrial Hygiene (ABIH) ensures that

prospective consultants have met ABIH standards for education, ongoing training, and

experience, and have passed a rigorous ABIH certification examination. The UNICOR and/or

BOP industrial hygienists can assist in the selection of your consultants.



5. Perform a detailed job hazard analysis prior to beginning any new operation or before making

changes to existing operations. This will allow UNICOR and BOP to identify potential hazards

prior to exposing staff or inmates, and to identify appropriate controls and PPE. Involve the

UNICOR and/or BOP industrial hygienists in these job hazard analyses. Ifmedical surveillance

is needed then UNICOR and BOP should perform pre-placement evaluations of exposed staff

and inmates. This medical surveillance should be overseen by an occupational medicine

physician.



6. Appoint a union safety and health representative. This individual should be a regular

participant on the joint labor-management safety committee that meets quarterly. Since inmates
Page 17­

do not have a mechanism for representation on this committee, ensure that they are informed of

its proceedings and that they have a way to voice their concerns about and ideas for improving

workplace safety and health.



This interim letter will be part of the final report that will include evaluations at three other BOP

facilities. Please post a copy of this letter for 30 days at or near work areas of affected staff and

inmates. Thank you for your cooperation with this evaluation. If you have any questions, please

do not hesitate to contact us at (513) 841-4382.



                                               Sincerely yours,




                                               Elena H. Page, M.D., M.P.H.

                                               Medical Officer




                                               David Sylvain, M.S., C.I.H.
Page 18­

                                           Regional Industrial Hygienist

                                           Hazard Evaluations and Technical

                                            Assistance Branch

                                           Division of Surveillance, Hazard

                                            Evaluations and Field Studies



cc:

Paul Laird, Assistant Director, UNICOR

Timothy Herchenback, AFGE Local 1242

John Grandstaff, Associate Warden of Industries and Education
Page 19­




Appendix


Occupational Exposure Limits and Health Effects



In evaluating the hazards posed by workplace exposures, NIOSH investigators use both

mandatory (legally enforceable) and recommended occupational exposure limits (OELs) for

chemical, physical, and biological agents as a guide for making recommendations. OELs have

been developed by Federal agencies and safety and health organizations to prevent the

occurrence of adverse health effects from workplace exposures. Generally, OELs suggest levels

of exposure to which most workers may be exposed up to 10 hours per day, 40 hours per week

for a working lifetime without experiencing adverse health effects. However, not all workers will

be protected from adverse health effects even iftheir exposures are maintained below these

levels. A small percentage may experience adverse health effects because of individual

susceptibility, a pre-existing medical condition, and/or a hypersensitivity (allergy). In addition,

some hazardous substances may act in combination with other workplace exposures, the general

environment, or with medications or personal habits of the worker to produce health effects even

if the occupational exposures are controlled at the level set by the exposure limit. Also, some

substances can be absorbed by direct contact with the skin and mucous membranes in addition to

being inhaled, which contributes to the individual's overall exposure.



Most OELs are expressed as a time-weighted average (TWA) exposure. A TWA refers to the

average exposure during a normal 8- to lO-hour workday. Some chemical substances and
Page 20­

physical agents have recommended short-term exposure limit (STEL) or ceiling values where

health effects are caused by exposures over a short-period. Unless otherwise noted, the STEL is a

15-minute TWA exposure that should not be exceeded at any time during a workday, and the

ceiling limit is an exposure that should not be exceeded at any time.



In the U.S., OELs have been established by Federal agencies, professional organizations, state

and local governments, and other entities. Some OELs are legally enforceable limits, while

others are recommendations. The U.S. Department of Labor Occupational Safety and Health

Administration's (OSHA) permissible exposure limits (PELs) (29 CFR 1910 [general industry];

29 CFR 1926 [construction industry]; and 29 CFR 1917 [maritime industry]) are legal limits

enforceable in workplaces covered under the Occupational Safety and Health Act. NIOSH

recommended exposure levels (RELs) are recommendations based on a critical review of the

scientific and technical information available on a given hazard and the adequacy of methods to

identify and control the <hazard. NIOSH RELs can be found in the NIOSH Pocket Guide to

Chemical Hazards [NIOSH 2005]. NIOSH also recommends different types of risk management

practices (e.g., engineering controls, safe work practices, worker education/training, personal

protective equipment, and exposure and medical monitoring) to minimize the risk of exposure

and adverse health effects from these hazards. Other OELs that are commonly used and cited in

the U.S. include the threshold limit values (TLVs) recommended by the American Conference of

Governmental Industrial Hygienists® (ACGIH), a professional organization, and the Workplace

environmental exposure limits (WEELs) recommended by the American Industrial Hygiene

Association, another professional organization. ACGIH TL Vs are considered voluntary exposure

guidelines for use by industrial hygienists and others trained in this discipline "to assist in the
Page21­

control of health hazards" [ACGIH 2009]. WEELs have been established for some chemicals

"when no other legal or authoritative limits exist" [AIHA 2009].



Outside the U.S., OELs have been established by various agencies and organizations and include

both legal and recommended limits. Since 2006, the Berufsgenossenschaftlichen Institut fUr

Arbeitsschutz (German Institute for Occupational Safety and Health) has maintained a database

of international OELs from European Union member states, Canada (Quebec), Japan,

Switzerland, and the U.S. [www.hvbg.de/elbialgestis/limit_values/index.html]. The database

contains international limits for over 1250 hazardous substances and is updated annually.



Employers should understand that not all hazardous chemicals have specific OSHA PELs, and

for some agents the legally enforceable and recommended limits may not reflect current health­

based information. However, an employer is still required by OSHA to protect its employees

from hazards even in the absence of a specific OSHA PEL. OSHA requires an employer to

furnish employees a place of employment free from recognized hazards that cause or are likely

to cause death or serious physical harm [Occupational Safety and Health Act of 1970 (Public

Law 91-596, sec. 5(a)(1»]. Thus, NIOSH investigators encourage employers to make use of

other OELs when making risk assessment and risk management decisions to best protect the

health of their employees. NIOSH investigators also encourage the use of the traditional

hierarchy of controls approach to eliminate or minimize identified workplace hazards. This

includes, in order of preference, the use of: (1) substitution or elimination of the hazardous agent,

(2) engineering controls (e.g., local exhaust ventilation, process enclosure, dilution ventilation),

(3) administrative controls (e.g., limiting time of exposure, employee training, work practice

changes, medical surveillance), and (4) personal protective equipment (e.g., respiratory
Page22­

protection, gloves, eye protection, hearing protection). Control banding, a qualitative risk

assessment and risk management tool, is a complementary approach to protecting worker health

that focuses resources on exposure controls by describing how a risk needs to be managed

[http://www.cdc.gov/nioshltopics/ctrlbanding/].This approach can be applied in situations where

OELs have not been established or can be used to supplement the OELs, when available.




Lead



Occupational exposure to inorganic lead occurs via inhalation of lead-containing dust and fume

and ingestion of lead particles from contact with lead-contaminated surfaces. In cases where

careful attention to hygiene (for example, handwashing) is not practiced, smoking cigarettes or

eating may represent another route of exposure among workers who handle lead and then

transfer it to their mouth through hand contamination. Industrial settings associated with

exposure to lead and lead compounds include smelting and refining, scrap metal recovery,

automobile radiator repair, construction and demolition (including abrasive blasting), and firing

range operations [ACGIH 2007]. Occupational exposures also occur among workers who apply

and/or remove lead-based paint or among welders who bum or torch-cut metal structures.




Acute lead poisoning, caused by intense occupational exposure to lead over a brief period of time

can cause a syndrome of abdominal pain, fatigue, constipation, and in some cases alteration of

central nervous system function [Moline and Landrigan 2005]. Symptoms of chronic lead

poisoning include headache, joint and muscle aches, weakness, fatigue, irritability, depression,

constipation, anorexia, and abdominal discomfort [Moline and Landrigan 2005]. These
Page 23­

symptoms usually do not develop until the blood lead level (BLL) reaches at least 30-40

micrograms per deciliter of whole blood (!!g/dL) [Moline and Landrigan 2005]. Psychiatric

symptoms such as depression, anxiety and irritability appear to be related to high levels of

current lead exposure, while decrements in cognitive function are related to both recent and

cumulative dose [Schwartz and Stewart 2007]. One study documented a significant positive

relationship between white matter lesion of the brain noted on magnetic resonance imaging

(MRI) and tibia lead levels in former organolead workers [Stewart et al. 2006]. However, the

strongest predictors of white matter lesions are sex, age, blood pressure, education, smoking

history, alcohol consumption, and ApoE genotype [Stewart et al. 2006]. Overexposure to lead

may result in damage to the kidneys, anemia, high blood pressure, impotence, and infertility and

reduced sex drive in both sexes. Studies have shown subclinical effects on heme synthesis, renal

function, and cognition at BLLs <10 !!g/dL [ATSDR 2007a]. Inorganic lead is reasonably

anticipated to cause cancer in humans [ATSDR 2007a].


In most cases, an individual's BLL is a good indication of recent exposure to lead, with a half-life

(the time interval it takes for the quantity in the body to be reduced by half its initial value) of 1­

2 months [Lauwerys and Hoet 2001; Moline and Landrigan 2005; NCEH 2005]. The majority of

lead in the body is stored in the bones, with a half-life of years to decades. Bone lead can be

measured using K-shell x-ray fluorescence instruments, but these are primarily research based

and are not widely available. Elevated zinc protoporphyrin (ZPP) levels -have also been used as

an indicator of chronic lead intoxication, however, other factors, such as iron deficiency, can

cause an elevated ZPP level, so the BLL is a more specific test for evaluating occupational lead

exposure.
Page 24­

The NIOSH REL for inorganic lead is 50 micrograms per cubic meter of air (/lg/m3) as an 8-hour

TWA. This REL is consistent with the OSHA PEL, which is intended to maintain worker BLLs

below 40 /lg/dL; medical removal is required when an employee has a BLL of 60 /lg/dL, or the

average of the last 3 tests at 50 /lg/dL or higher [29 CFR 1910.1025; 29 CFR 1962.62]. This is

intended to prevent overt symptoms of lead poisoning, but is not sufficient to protect workers

from more subtle adverse health effects like hypertension, renal dysfunction, and reproductive

and cognitive effects [Schwartz and Stewart 2007; Schwartz and Hu 2007; Brown-Williams et al.

2009]. Adverse effects on the adult reproductive, cardiovascular, and hematologic systems, and

on the development of children of exposed workers, can occur at BLLs as low as 10 /lg/dL

[SussellI998]. At BLLs below 40 /lg/dL, many of the health effects would not necessarily be

evident by routine physical examinations but represent early stages in the development of lead

toxicity. In recognition of this, voluntary standards and public health goals have established

lower exposure limits to protect workers and their children. The ACGIH TLV for lead in air is 50

/lg/m3 as an 8-hour TWA, with worker BLLs to be controlled to :::; 30 /lg/dL [ACGIH 2009]. A

national health goal is to eliminate all occupational exposures that result in BLLs >25 Ilg/dL

[DHHS 2000]. A panel of experts recently published guidelines for the management of adult lead

exposure intended to prevent both acute and chronic effects of lead poisoning [Kosnett et al.

2007]. They recommended that an employee be removed from exposure if a single BLL exceeds

30 Ilg/dL, or if two measurements taken over 4 weeks exceed 20 Ilg/dL. Removal should be

considered if control measures over an extended period do not decrease BLLs to < 10 Ilg/dL. The

panel also recommended quarterly BLL testing if the BLL is between 10-19 Ilg/dL, and

semiannual testing if the BLL is < 10 Ilg/dL. Pregnant women should avoid BLLs > 5 Ilg/dl. The

Third National Report on Human Exposure to Environmental Chemicals (TNRHEEC) found the

geometric mean blood lead among non-institutionalized, civilian males in 2001-2002 was 1.78
                              /




Page 25­

/!g/dL [NCEH 2005]. However, widespread contamination of the environment from leaded

gasoline in the past led to significant lead exposure among the general population. This

contamination peaked between 1950 and the early 1970s. The average blood lead in Americans

in 1965 was over 20 /!g/dL [Patterson 1965]. Therefore, persons born prior to the 1970s may

have substantial body burdens of lead.



OSHA requires medical surveillance on any employee who is or may be exposed to an airborne

concentration of lead at or above the action level, which is 30 /!g/m 3 as an 8-hour TWA ,for

more than 30 days per year [29 CFR 1910.1025]. Blood lead and ZPP levels must be done at

least every 6 months, and more frequently for employees whose blood leads exceed certain

levels. In addition, a medical examination must be done prior to assignment to the area, and

should include detailed history, blood pressure measurement, blood lead, ZPP, hemoglobin and

hematocrit, red cell indices, and peripheral smear, blood urea nitrogen (BUN), creatinine, and a

urinalysis. Additional medical exams and biological monitoring depend upon the circumstances,

for example, if the blood lead exceeds a certain level.




Cadmium



Cadmium is a metal that has many industrial uses, such as in batteries, pigments, plastic

stabilizers, metal coatings, and television phosphors [ACGIH 2007]. Workers may inhale

cadmium dust when sanding, grinding, or scraping cadmium-metal alloys or cadmium­

containing paints [ACGIH 2007]. Exposure to cadmium fume may occur when materials

containing cadmium are heated to high temperatures, such as during welding and torching
Page 26 ­

operations; cadmium-containing solder and welding rods are also sources of cadmium fume. In

addition to inhalation, cadmium may be absorbed via ingestion; non-occupational sources of

cadmium exposure include cigarette smoke and dietary intake [ACGIH 2007]. Early symptoms

of cadmium exposure may include mild irritation of the upper respiratory tract, a sensation of

constriction of the throat, a metallic taste and/or cough. Short-term exposure effects of cadmium

inhalation include cough, chest pain, sweating, chills, shortness of breath, and weakness [Thun et

al. 1991]. Short-term exposure effects of ingestion may include nausea, vomiting, diarrhea, and

abdominal cramps [Thun et al. 1991]. Long-term exposure effects of cadmium may include loss

of the sense of smell, ulceration of the nose, emphysema, kidney damage, mild anemia, and an

increased risk of cancer of the lung, and possibly of the prostate [ATSDR 1999].



The OSHA PEL for cadmium is 5 Ilg/m3 as an 8-hour TWA [29 CFR 1910.1027]. The ACGIH

has a TLV for total cadmium of 10 Ilg/m3 (8-hour TWA), with worker cadmium blood level to be

controlled at or below 5 micrograms per liter (llglL) and urine level to be below 5 micrograms

per gram creatinine (llg/g/Cr), and designation of cadmium as a suspected human carcinogen

[ACGIH 2009]. NIOSH recommends that cadmium be treated as a potential occupational

carcinogen and that exposures be reduced to the lowest feasible concentration [NIOSH 1984].



Blood cadmium levels measured while exposure is ongoing reflect fairly recent exposure (in the

past few months). The half-life is biphasic, with rapid elimination (half-life approximately 100

days) in the first phase, but much slower elimination in the second phase (half-life of several

years) [Lauwerys and Hoet 2001; Franzblau 2005]. Urinary cadmium levels are reflective of

body burden and have a very long half-life of 10-20 years [Lauwerys and Hoet 2001].
Page 27­

OSHA requires medical surveillance on any employee who'is or may be exposed to an airborne

concentration of cadmium at or above the action level, which is 2.5 ~g/m3 as an 8-hour TWA,

for more than 30 days per year [29 CFR 1910.1027]. A preplacement examination must be

provided, and shall include a detailed history, and biological monitoring for urine cadmium

(CdU) and beta-2-microglobulin (B-2-M), both standardized to grams of creatinine (g/Cr), and

blood cadmium (CdB), standardized to liters of whole blood. OSHA defines acceptable CdB

levels as < 5 ~glL, CdU as < 3 ~g/g/Cr, and B-2-M as < 300 ~g/g/Cr. TNRHEEC found

geometric mean CdB of 0.4     ~glL   among men in 1999-2000. Smokers can have CdB levels much

higher than nonsmokers, with levels up to 6.1     ~glL   [Martin et al. 2009]. The geometric mean

CdU for men in 2001-2002 was 0.2       ~g/g/Cr   in TNRHEEC. Periodic surveillance is also required

one year after the initial exam and at least biennially after that. Periodic surveillance shall

include the biological monitoring, history and physical examination, a chest x-ray (frequency to

be determined by the physician after the initial x-ray), pulmonary function tests, blood tests for

BUN, complete blood count, and Cr, and a urinalysis. Men over 40 years of age require a

prostate examination as well. The frequency of periodic surveillance is determined by the results

of biological monitoring and medical examinations. Biological monitoring is required annually,'

either as part of the periodic surveillance or on its own. We recommend that the preplacement

examination be identical to the periodic examinations so that baseline health status may be

obtained prior to exposure. Termination of employment examinations, identical to the periodic

examinations, are also required. The employer is required to provide the employee with a copy

of the physician's written opinion from these exams and a copy of biological monitoringresults

within 2 weeks of receipt.
Page 28 ­

Biological monitoring is also required for all employees who may have been exposed at or above

the action level unless the employer can demonstrate that the exposure totaled less than 60

months. In this case it must also be conducted one year after the initial testing. The need for

further monitoring for previously exposed employees is then determined by the results of the

biological monitoring.




Barium



Barium is a silver-white metal found in the earth's crust [ATSDR 2007b; NCEH 2005]. It binds

with a variety of chemicals to form barium salts. About half of these salts (including barium

oxide) are soluble in water, and the other half are not (i.e. barium sulfate used in medical

procedures). Barium can be found in food and water, and can be released into the air during

mining and certain industrial processes. It is used to make drilling muds, paints, bricks, tiles,

ceramics, insect and rat poisons, and a variety of other products. Barium oxide is incorporated

into the glass of CRT monitors. Ingestion of large amounts of soluble barium compounds leads

to numbness around the mouth, diarrhea, vomiting, weakness or paralysis, and cardiac rhythm

disruption [ATSDR 2007b; NCEH 2005]. These symptoms are due to hypokalemia, or low blood

potassium levels. Studies of humans or animals exposed to barium compounds in the air are

conflicting. Some workers have developed baritosis, a benign lung condition that shows x-ray

changes but does not cause abnormal lung function. No routine medical tests are available to

determine exposure to barium, and barium levels in blood or urine cannot determine the level of

exposure or whether health effects will occur [ATSDR 2007b]. TNRHEEC found geometric

mean urine barium levels of 1.32 llg/g/Cr among men in 2001-2002.
Page 29­



The OSHA PEL and the NIOSH REL for soluble barium compounds (except barium sulfate) is

0.5 mg/m3 as an 8-hour TWA.


References




ACGIH [2007]. 2007 Documentation ofthe threshold limit values and biological exposure

indices. Cincinnati, OR: American Conference of Governmental Industrial

Hygienists.



ACGIH [2009]. 2009 TLVs® and BEIs®: threshold limit values for chemical substances and

physical agents and biological exposure indices. Cincinnati, OH: American Conference of

Governmental Industrial Hygienists.



AIHA [2009]. 2009 Emergency response planning guidelines (ERPG) & workplace

environmental exposure levels (WEEL) handbook. Fairfax, VA: American Industrial Hygiene

Association.



ATSDR [1999]. Toxicological profile for cadmium. Atlanta, GA: U.S. Department of Health and

Human Services. Agency for Toxic Substances and Disease Registry.



ATSDR [2007a]. Toxicological profile for lead. Atlanta, GA: U.S. Department of Health and

Human Services. Agency for Toxic Substances and Disease Registry.
Page 30­

ATSDR [2007b]. Toxicological profile for barium. Atlanta, GA: U.S. Department of Health and

Human Services. Agency for Toxic Substances and Disease Registry.


Brown-Williams H, Lichterman J, Kosnett M [2009]. Indecent exposure: lead puts workers and

families at risk. Health Research in Action, University of California, Berkeley. Perspectives

4(1)1-9.




CFR. Code of Federal Regulations. Washington, DC: U.S. Government Printing Office, Office

of the Federal Register.



DHHS [2000]. Healthy people 2010: understanding and improving health. 2nd ed. Washington,

DC: U.S. Department of Health and Human Services.

[www.health.gov/healthypeople/Documentldefault.htm]. Date accessed: March 2009.



Franzblau A [2005]. Cadmium. Chapter 39.4. In: Textbook of clinical occupational and

environmental medicine, Rosenstock L, Cullen MR, Brodkin CA, and Redlich CA, eds., 2nd ed.

Philadelphia, PA: Elsevier Saunders, pp. 955-958.



Kosnett MJ, Wedeen RP, Rothenberg SJ, Hipkins KL, Materna BL, Schwartz BS, Hu H, Woolf

A [2007]. Recommendations for medical management of adult blood lead exposure. Environ

Health Perspect 115(3):463-471.
Page31­

Lauwerys RR, Hoet P [2001]. Chapter 2. Biological monitoring of exposure to inorganic and

organometallic substances. In: Industrial chemical exposure: guidelines for biological
             rd
monitoring. 3 ed. Boca Raton, FL: CRC Press, LLC, pp. 21-180.



Martin CJ, Antonini 1M, Doney BC [2009]. A case report of elevated blood cadmium. Occup

Med 59(2):130-132.



Moline 1M, Landrigan PJ [2005]. Lead. Chapter 39.8. In: Textbook of clinical occupational and

environmental medicine, Rosenstock L, Cullen MR, Brodkin CA, and Redlich CA, eds., 2nd ed.

Philadelphia, PA: Elsevier Saunders, pp. 967-979.



NCEH [2005]. Third national report on human exposure to environmental chemicals. Atlanta,

GA: U.S. Department of Health and Human Services, Centers for Disease Control and

Prevention. National Center for Environmental Health Publication number 05-0570.



NIOSH [1984]. Current Intelligence Bulletin #42: Cadmium. Cincinnati, OH: U.S. Department

of Health and Human Services, Centers for Disease Control and Prevention, National Institute

for Occupational Safety and Health, DHHS (NIOSH)IDOL (OSHA) Publication No.84-116.



NIOSH [2005]. NIOSH pocket guide to chemical hazards. Cincinnati, OH: U.S. Department of

Health and Human Services, Centers for Disease Control and Prevention, National Institute for

Occupational Safety and Health, DHHS (NIOSH) Publication No. 2005-149.

[www.cdc.gov/nioshlnpg/]. Date accessed: March 2009.
Page32­

Patterson CC [1965]. Contaminated and natural lead environments of man. Arch Environ Health

11 :344-360.



Schwartz BS, Hu H [2007]. Adult lead exposure: time for change. Environ Health Perspect

115(3):451-454.



Schwartz BS, Stewart WF [2007]. Lead and cognitive function in adults: A question and answers

approach to a review of the evidence for cause, treatment, and prevention. Int Rev Psychiatry

19(6):671-692.



Stewart WF, Schwartz BS, Davatzikos C, Shen D, Liu D, Wu X, Todd AC, Shi W, Bassett S,

Youssem D [2006]. Past adult lead exposure is linked to neurodegeneration measured by brain

MR!. Neurology 66(10):1476-1484.



Sussell A [1998]. Protecting workers exposed to lead-based paint hazards: a report to congress.

Cincinnati, OH: U.S. Department of Health and Human Services, Centers for Disease Control

and Prevention, National Institute for Occupational Safety and Health, DHHS (NIOSH)

Publication No. 98-112.



Thun MJ, Elinder C, Friberg L [1991]. Scientific basis for an occupational standard for

cadmium. Am J Ind Med 20(5):629-642.
Page 33­


bcc:

B. Bernard (electronic copy)
N. Burton (electronic copy
E. Page (electronic copy)
D. Sylvain (electronic copy)
J. Riley (electronic copy) 

HETAB file room, HETA 2008-0055 (paper copy) 

CONTENTS
REPORT                               Highlights of the NIOSH Health Hazard Evaluation ............. ii 


                                     Executive Summary .............................................................1 


                                         Introduction ....................................................................1 


                                         Facility Evaluations .........................................................1 


                                         Overall Conclusions .......................................... ,............ 4 


                                         Overall Recommendations for UNICOR Electronics 

                                         Recycling Operations ....................................................5 


                                         Refe rences .....................................................................7 




ACKNOWLEDGMENTS                      Acknowledgments and Availability of Report.. ..................... 8 





Health Hazard Evaluation Report 2008-0055-3098                                                                     Pagei
HIGHLIGHTS OF THE
                       What NIOSH Did
   NIOSH HEALTH
                        • 	 We conducted site visits in Elkton, Ohio, on February
   HAZARD EVALUATION        21-22,2008, and March 25,2008; in Atwater, California,
                            on October 15, 2008; in Texarkana, Texas, on June 24-25,
                            2008, and July 16, 2008; and in Marianna, Florida, on
                            February 17-18, 2009.
                        • 	 We reviewed medical surveillance records, individual medical
                            records, and industrial hygiene sampling records from each
                            institution.
                        • 	 We visited each institution and toured the current and/or
                            former recycling and glass breaking facilities.
                        • 	 We met with staff and inmates to hear their concerns and
                            present our findings.
                        • 	 We measured exposures to lead and cadmium at the Elkton
                            and Texarkana facilities.

                       What NIOSH Found
                        • 	 Available records, including results of biological monitoring,
                            and interviews with staff and inmates documented no health
                            problems that could be linked to recycling work. Very few
                            records were available for inmates who worked during the
                            early years of electronics recycling at Elkton and Texarkana.
                        • 	 Exposure monitoring and medical surveillance were not
                            performed during the first several years of operation at
                            Elkton and Texarkana, so we could not determine the
                            extent of exposure to lead and cadmium during that time.
                            Descriptions of operations during those times suggest that
                            exposures were not well controlled, causing the potential for
                            exposure above occupational exposure limits for lead and
                            cadmium.
                        • 	 Past exposure monitoring at Atwater documented exposure
                            to lead and cadmium over occupational exposure limits when
                            the glass breaking booth was in its first location, but not
                            when it was moved to the loading dock.
                        • 	 Past exposure monitoring at Marianna documented exposure
                            to lead and cadmium below occupational exposure limits.
                        • 	 The sampling we performed demonstrated exposure to lead
                             and cadmium far below occupational exposure limits at
                           . Elkton and Texarkana.




Page ii 	                                Health Hazard Evaluation Report 2008-0055-3098
HIGHLIGHTS OF THE
                                      What Managers Can Do
   NIOSH        HEALTH
                                        • 	 At a minimum, ensure full compliance with all applicable
   HAZARD 	EVALUATION                       Occupational Safety and Health Administration (OSHA)
                                            standards. The General Industry Lead Standard [29 CFR
   (CONTINUED)
                                            1910.1025], the Cadmium Standard [29 CFR 1910.1027],
                                            the Hazard Communication Standard [29 CFR 1910.1200],
                                            and the Respiratory Protection Standard [29 CFR 1910.134]
                                            should all be followed. Full compliance includes record
                                            keeping requirements, communication requirements,
                                            compliance plans, and medical surveillance.
                                        • 	 We strongly recommend that UNICOR voluntarily follow
                                            the more protective guidelines for lead exposure outlined in
                                            the letter we wrote for our site visitto Atwater, California.
                                        • 	 In addition to complying with the OSHA requirements, we
                                            recommend that the preplacement examination for cadmium
                                            exposure be identical to the periodic examinations so that
                                            baseline health status may be obtained prior to exposure.
                                            Contract a board-certified, residency-trained occupational
                                            medicine physician who is familar with applicable OSHA
                                            ations to oversee the medical surveillance program.
                                        • 	 Carefully evaluate the qualifications and expertise of any
                                            consultant who is hired to assess occupational health
                                            and safety issues. One useful benchmark for vetting
                                            individuals who provide industrial hygiene services is the
                                            designation of certified industrial hygienist. Hire a certified
                                            industrial hygienist if outside expertise is needed to assess
                                            environmental health and safety issues.
                                        • 	 Perform a detailed job hazard analysis prior to beginning
                                            any new operation or before making changes to existing
                                            operations.
                                        • 	 Designate a union safety and health representative to provide
                                            consistent employee representation on the joint labor­
                                            management safety committee that meets quarterly. Because
                                            inmates are not represented on this committee, ensure that
                                            they are informed of its proceedings and have a voice in
                                            improving workplace safety and health.

                                      What Employees Can Do
                                        • 	 Notify your supervisor and union safety representative if you
                                            have concerns or health problems you think are related to
                                            your job.
                                        • 	 Participate in employer sponsored medical surveillance
                                            programs.

Health Hazard Evaluation Report 2008-0055-3098                                                      Page iii
This page intentionally left blank.
EXECUTIVE SUMMARY 

                                     Introduction

                                     On November 27, 2007, the National Institute for Occupational
                                     Safety and Health (NIOSH) received a request for technical
                                     assistance from the United States Department of Justice
                                     (USDO]), Office of the Inspector General (OIG), in their
                                     health and safety investigation of the Federal Prison Industries,
                                     Inc. (UNICOR) electronics recycling program at Bureau of
                                     Prisons (BOP) institutions in Elkton, Ohio; Texarkana, Texas;
                                     and Atwater, California. We were asked to assess the current
                                     medical surveillance program for inmates and staff exposed to
                                     lead and cadmium during electronics recycling, and to make
                                     recommendations for future surveillance. In addition, we were
                                     asked to assess past exposures to lead and cadmium, and to
                                     investigate the potential for "take-home" exposure. Later we were
                                     asked to perform a similar evaluation for the BOP institution in
                                     Marianna, Florida.

                                     We reviewed medical surveillance records, individual medical
                                     records, and industrial hygiene sampling records from each
                                     institution. We visited each institution and toured the current
                                     and/or former recycling and glass breaking facilities and met
                                     with staff and inmates to hear their concerns and present
                                     our findings. We also performed industrial hygiene sampling
                                     at Elkton and Texarkana. At the time of our site visits, glass
                                     breaking was being performed at Elkton and Texarkana, but not
                                     at Marianna or Atwater. Letters containing detailed information
                                     about our assessment, findings, and recommendations for each
                                     facility were sent to the OIG and the warden and union at each
                                     facility after each of these evaluations. In August 2009, the OIG
                                     forwarded additional data for inmates at Elkton. This report
                                     contains a summary of our findings at each institution, a review
                                     of the additional biological monitoring for Elkton, and overall
                                     conclusions and recommendations. For a copy of the individual
                                     letters for each BOP institution, please call 513-841-4382.


                                      Facility Evaluations
                                      Federal Correctional Institution Elkton

                                     Electronics recycling at the Federal Correctional Institution (FCl)
                                     Elkton appears to have taken place from 1997 until May 2003
                                     without adequate engineering controls, respiratory protection,
                                     medical surveillance, or industrial hygiene monitoring. Because


Health Hazard Evaluation Report 2008-0055-3098                                                    Pagel
EXECUTIVE SUMMARY
   (CONTINUED)      of the lack of biological monitoring and industrial hygiene data,
                    we cannot determine the extent of exposure to lead and cadmium
                    that occurred during that time frame, but descriptions of work
                    tasks from staff and inmates indicate that exposures were not well
                    controlled, causing the potential for exposure above occupational
                    exposure limits (OELs) for lead and cadmium. Based upon
                    available sampling results, we determined that the current glass
                    breaking operation (GBO) controls exposure to lead and cadmium
                    to far below occupational exposure limits. The GBO can be further
                    enhanced to limit exposure to those performing glass breaking
                    as well as limiting the migration of lead and cadmium from the
                    GBO into other areas. Results of biological monitoring of staff
                    and inmates since 2003 were unremarkable. While some take­
                    home contamination was documented in inmate cubicles, surface
                    wipe sampling and biological monitoring suggest that take-home
                    contamination did not pose a health threat. In late August 2009,
                    the USDO} provided biological monitoring data for 10 inmates, 8
                    of whom were on the roster of inmates performing glass breaking.
                    The results of this monitoring were unremarkable. One inmate
                    glass breaker was tested in early April 2002, prior to the installation
                    of the glass breaking booth in 2003. This inmate is the only
                    individual for whom we have results prior to that time. His blood
                    lead level (BLL) was 5 micrograms per deciliter (J.lg/dL), and his
                    blood cadmium level (CdB) was 0.7 micrograms per liter.

                    We cannot determine the extent of exposure to lead that
                    occurred in the chip recovery process because of the lack of data.
                    Descriptions of work tasks from staff and a BLL of 5 J.lg/dL in an
                    inmate 4 months after the process ended indicate that exposure
                    to lead during this process did occur. We found no evidence that
                    actions were taken to prevent exposure to lead at the outset in
                    the chip recovery process and that no medical surveillance was
                    performed until after the process ended;

                    Medical surveillance has not complied with Occupational Safety
                    and Health Administration (OSHA) standards. No medical exams
                    (including physical examinations) were done on inmates, staff
                    received inconsistent examinations and biological monitoring by
                    their personal physicians, biological monitoring for lead was not
                    done at standard intervals, and results were not communicated
                    to the inmates. Inappropriate biological monitoring tests such
                    as urine lead and arsenic testing have been done. Records of
                    medical surveillance were not maintained by the employer for the
                    appropriate length of time.



Page 2                                  Health Hazard Evaluation Report 2008-0055-3098
EXECUTIVE SUMMARY
   ( CONTINUED)                      After careful review of existing records and current operations, we
                                     conclude that the only persons with current potential for exposure
                                     to either lead or cadmium over the OSHA action level are the
                                     inmates who perform glass breaking or monthly filter change-out.
                                     We believe that medical surveillance can be discontinued for all
                                     other inmates and staff. Some former inmates and/or staff may
                                     require surveillance under the OSHA Cadmium Standard.


                                     Federal Correctional Institution Texarkana

                                     Electronics recycling at FCI Texarkana appears to have been
                                     performed from late 2001 until May 2004 without appropriate
                                     engineering controls, respiratory protection, medical surveillance,
                                     or industrial hygiene monitoring. Because of the sparse biological
                                     monitoring and industrial hygiene data, we cannot determine the
                                     extent of exposure to lead and cadmium that occurred during that
                                     time. Descriptions of work tasks from staff and inmates indicate
                                     that exposures were not well controlled, causing a potential for
                                     exposure above OELs for lead and cadmium. Based on information
                                     provided to us and our industrial hygiene sampling, we believe
                                     that the current GBO is a significant improvement with respect
                                     to controlling worker exposures to cadmium and lead. Some lead­
                                     and cadmium-containing dust is still being carried out of the glass
                                     breaking booth. Although this does not represent a serious health
                                     hazard, it shows a need to maintain good housekeeping throughout
                                     the glass breaking area.

                                     Exposures since May 2004 are sufficiently low that the OSHA­
                                     mandated medical surveillance has not been required since that
                                     time. In addition, the results of medical surveillance conducted
                                     since 2003 on inmates and staff were generally unremarkable. It is
                                     not possible to quantify past exposures to determine whether they
                                     triggered the OSHA lead and/or cadmium standard prior to that
                                     time. Inmates are advised of the results of their monitoring and see
                                     the physician's assistant; however, records of medical surveillance
                                     are not maintained by the employer for the appropriate length of
                                     time. Some staff have refused to participate in medical surveillance
                                     paid by UNICOR but conducted by their personal physicians.

                                     After careful review of existing records and current operations, we
                                     conclude that medical surveillance can be discontinued for inmates
                                     and staff who work in electronics recycling and GBO. UNICOR
                                     may choose to continue to perform the limited biological
                                     monitoring currently in place as an additional safeguard against
                                     excessive exposure and to provide reassurance to inmates and staff.

Health Hazard Evaluation Report 2008-0055-3098                                                    Page 3
EXECUTIVE SUMMARY
   (CONTINUED)      United States Penitentiary Atwater

                    Inmates were exposed to cadmium and lead above OELs during
                    glass breaking from 2002-2003. It appears that inmates worked
                    without adequate respiratory protection from April 2002 until
                    July 2002. Exposures seem to have been better controlled with
                    relocation of the GBO to the spray booth; however, one sample
                    taken after the relocation demonstrated significant airborne
                    cadmium exposure. Results of medical surveillance of inmates and
                    staff were unremarkable. The medical surveillance program was not
                    in compliance with the OSHA lead and cadmium standards, and
                    medical clearance was not performed for respirator use, a violation
                    of the OSHA respiratory protection standard. If the GBO reopens,
                    UNICOR should thoroughly characterize exposures to lead and
                    cadmium and perform medical surveillance in compliance with
                    the applicable OSHA standards until documentation shows that
                    exposures are controlled below the OELs. Medical surveillance is
                    not needed if the GBO remains closed.


                    Federal Correctional Institution Marianna

                    Limited exposure monitoring data suggests that exposures to
                    metals in the FCI GBO may have been sufficiently low such
                    that OSHA-mandated medical surveillance was not required. In
                    addition, the results of medical surveillance conducted on inmates
                    and staff were unremarkable. However, if the GBO reopens,
                    UNICOR should continue to perform the limited biological
                    monitoring currently in place as an additional safeguard against
                    excessive exposure and to provide reassurance to inmates and staff.
                    Medical surveillance is not needed if the GBO remains closed.


                    Overall Conclusions

                    UNICOR did not conduct adequate planning and job hazard
                    analysis before initiating electronics recycling operations at the
                    facilities we evaluated. As a result, potential health hazards were
                    not identified in a timely manner, no training was provided
                    to UNICOR staff or inmate workers, and adequate hazard
                    controls were not established for up to several years at some BOP
                    institutions. Factory managers did not receive training, guidance,
                    or oversight needed to address health hazards associated with
                    electronics recycling. Despite this, although testing was incomplete,



Page 4                                 Health Hazard Evaluation Report 2008-0055-3098
EXECUTIVE SUMMARY
   ( CONTINUED)                      BLL, urine cadmium (CdU), and CdB results were below OELs for
                                     the vast majority of inmates and staff. No biological monitoring
                                     or medical records were available for inmates who were released or
                                     transferred.


                                     Overall Recommendations for UNICOR
                                     Electronics Recycling Operations

                                     Occupational health and safety should be an integral part of
                                     all UNICOR operations. UNICOR needs to commit adequate
                                     resources and staff to address workplace hazards and maintain an
                                     ongoing program of environmental monitoring to confirm that
                                     engineering and work practice controls are sufficiently. protective.
                                     Environmental monitoring also provides data to determine which
                                     provisions of the OSHA Cadmium and Lead Standards should
                                     be applied for the GBO. A union safety and health representative
                                     should be selected at each BOP institution. This individual
                                     should be a regular participant on the joint labor-management
                                     safety committee that meets quarterly. Because inmates have no
                                     mechanism for representation on this committee, they should be
                                     informed of its proceedings and have a way to voice their concerns
                                     about and ideas for improving workplace safety and health.

                                     Full compliance with all applicable OSHA standards is
                                     mandatory, including the General Industry Lead Standard [29
                                     CFR 1910.1025], the Cadmium Standard [29 CFR 1910.1027],
                                     the Hazard Communication Standard [29 CFR 1910.1200],
                                     and the Respiratory Protection Standard [29 CFR 1910.134].
                                     Full compliance includes record keeping requirements, hazard
                                     communication requirements, compliance plans, and medical
                                     surveillance. In addition, the preplacement examination
                                     for cadmium exposure should be identical to the periodic
                                     examinations so that baseline health status may be assessed and
                                     documented prior to exposure. UNICOR should voluntarily
                                     follow the more protective guidelines for lead exposure and BLLs
                                     set forth by an expert panel [Kosnett et al. 2007]. These guidelines
                                     were endorsed by the California Department of Public Health and
                                     the Council of State and Territorial Epidemiologists in 2009 and
                                     therefore were not included in the initial letters sent to Elkton and
                                     Texarkana, but they should be applied to all UNICOR facilities
                                     where exposure to lead occurs.




Health Hazard Evaluation Report 2008-0055-3098                                                     PageS
EXECUTIVE SUMMARY 

   (CONTINUED)            UNICOR should carefully evaluate the qualifications and expertise
                          of consultants hired to assess occupational or environmental health
                      ~ 	 and safety issues. One useful benchmark for vetting individuals
                          who provide industrial hygiene services is the designation of
                          certified industrial hygienist. Certification by the American Board
                          of Industrial Hygiene ensures that prospective consultants have
                          met standards for education, ongoing training, and experience and
                          have passed a rigorous certification examination. The UNICOR
                          and/or BOP industrial hygienists can assist in the selection of
                          consultants.

                        While air sampling in the GBOs suggests that the level of
                        protection afforded by powered air purifying respirators (PAPRs)
                        may not be needed, continued use ofPAPRs does have benefits
                        in this setting. Loose-fitting PAPRs are comfortable and provide
                        cooling in the potentially hot work environment. In addition, they
                        offer the benefit that fit testing is not required. Additional periodic
                        air sampling should be conducted to help ensure that exposures
                        remain consistently below all applicable OELs before a reduction
                        in the level of respiratory protection in the GBOs is considered.

                         A detailed job hazard analysis should be performed prior to
                         beginning any new operation or before making changes to
                         existing operations. This analysis will allow potential hazards
                         to be identified prior to exposing staff or inmates and identify
                         appropriate controls and personal protective equipment. Involve
                         the UNICOR industrial hygienist in these job hazard analyses. If
                         medical surveillance is needed, BOP should perform preplacement
                         evaluations of exposed staff and inmates. Use a board-certified,
                         residency-trained occupational medicine physician who is
                         familiar with applicable OSHA regulations to oversee the medical
                         surveillance program. UNICOR or BOP may be able to find a
                         local hysician, or contract with Federal Occupational Health.
                         The occupational medicine physician should also oversee medical
                         clearance for respirators.




Page 6 	                                    Health Hazard Evaluation Report 2008-0055-3098
EXECUTIVE SUMMARY
   (CONTINUED)                       References

                                     CFR. Code of Federal Regulations. Washington, DC: U.S.
                                     Government Printing Office, Office of the Federal Register.

                                     Kosnett MJ, Wedeen RP, Rothenberg SJ, Hipkins KL, Materna
                                     BL, Schwartz BS, Hu H, Woolf A [2007]. Recommendations for
                                     medical management of adult blood lead exposure. Environ Health
                                     Perspect 115(3):463-471.




Health Hazard Evaluation Report 2008-0055-3098                                                     Page 7
ACKNOWLEDGMENTS AND
   AVAILABILITY OF REPORT
                        The Hazard Evaluations and Technical Assistance Branch
                        (HETAB) of the National Institute for Occupational Safety and
                        Health (NIOSH) conducts field investigations of possible health
                        hazards in the workplace. These investigations are conducted
                        under the authority of Section 20(a)(6) of the Occupational Safety
                        and Health Act of 1970, 29 U.S.C. 669(a)(6) which authorizes
                        the Secretary of Health and Human Services, following a written
                        request from any employer or authorized representative of
                        employees, to determine whether any substance normally found
                        in the place of employment has potentially toxic effects in such
                        concentrations as used or found. HETAB also provides, upon
                        request, technical and consultative assistance to federal, state, and
                        local agencies; labor; industry; and other groups or individuals to
                        control occupational health hazards and to prevent related trauma
                        and disease.

                        The findings and conclusions in this report are those of the
                        authors and do not necessarily represent the views ofNIOSH.
                        Mention of any company or product does not constitute
                        endorsement by NIOSH. In addition, citations to websites
                        external to NIOSH do no constitute NIOSH endorsement of
                        the sponsoring organizations or their programs or products.
                        Furthermore, NIOSH is not responsible for the content of these
                        websites. All Web addresses referenced in this document were
                        accessible as of the publication date.

                        This report Was prepared by Elena H. Page and David Sylvain of
                        HETAB, Division of Surveillance, Hazard Evaluations and Field
                        Studies. Field assistance was provided by Manuel Rodriguez.
                        Health communication assistance was provided by Stephanie
                        Evans. Editorial assistance was provided by Ellen Galloway.
                        Desktop publishing was performed by Robin Smith.

                        Copies of this report have been sent to employee and management
                        representatives at all BOP facilities and to the USDO} OIG. This
                        report is not copyrighted and may be freely reproduced. The report
                        may be viewed and printed at www.cdc.gov/niosh/hhe/. Copies
                        may be purchased from the National Technical Information Service
                        at 5825 Port Royal Road, Springfield, Virginia 22161.




Page 8                                      Health Hazard Evaluation Report 2008-0055-3098
This page intentionally left blank.
ATTACHMENT 3 

f[
r          DEPARTMENT OF HEALTH & HUMAN SERVICES          Program Support Center
                                                          U.S. Public Health Service
                                                           Federal Occupational Health Service
L
[
[
                     FOH Review of the UNICOR Document:
[
                     cYARIANNA RECYCLING FACTORY
                            HEAT STRESS PROGRAM
                         Effectivf! Date: January 12, 2009"
[

[

r
\




     Submitted to:

                       Oversight and Review Division.
                       Office of the Inspector General
                       U.S. Department ofJustice


     Submitted by:     George Bearer, ern
                       FOH Safety and HeaJth Investigation Team
                       Program Support Center
                       U.S. Public Health Service
                       Federal Occupational Health Service




                                     April 14, 2010




                                            1
                                                                                  'I
                                                                                  I
                FOB Review of the UNICOR Document:
                   «MARIANNA RECYCLING FACTORY                                    I
                      HEAT STRESS PROGRAM
                   Effective Date: January      12~   2009"                       I
1.0   INTRODUCTION
                                                                                  I
During the course of the OIG investigation into UNICOR's.e-waste recycling
operations, the OIG technical team found that inmate workers conducting
                                                                                  I
certain recYcling operations at FeI Marianna including glass breaking and
some warehouse and disassembly operations were exposed to heat above
American Conference of Governmental Industrial Hygienists (ACGIH) Threshold
                                                                                  I
Limit Values (TLVs)and NIOSH Recommended Exposure Limits (RELs) and
were at risk of heat stress. Heat exposure was also a factor at other UNICOR e­
waste recycling factories. BOP aild UNICOR developecla draft operating
                                                                                  I
guideline and a draft heat stress procedure that FOH reviewed in early 2008.
FOH found these documents Were inadequate. UNICOR then prepared a
DRAFT Heat Stress Program, dated September 26, 2098 and finalized this,
                                                                                  I
document having an effective date of January 12,2009. As part ofpreparatlon
of the OIG Final Report, FOH reviewed the draft.and final UNICOR heat stress
program documents arid provides its comments below.
                                                                                  'I
2.0   DOCUMENT AND IMPLEMENTATION STATUS
                                                                                   I
The Marianna Recycling Factory (MNRC) Heat Stress Program has an effective
date, of January 12, 2009 and is in "fmal" status. During the course·of
                                                                                   I
developing its reports for the various UNICOR factOries, FO~ made inquiries of
various Factory Managers concerning the implementation of this program.
FOH found that this program has' been implemented at Marianna but not at
                                                                                   I
any other UNICOR recycling factory.

FOH confirmed through discussions with the Marianna Factory Manager and
                                                                                   I
review of recent heat exposure measurement data that FCI Marianna is taking
steps to implement the Heat Stress Program. Documentation showed that
Marianna staff collected heat stress measuremertts for nine days in August
                                                                                   I
2009. FOH also noted, however, that the heat measurement table lacked any
documentation of actions taken based on the results. FOH recommends that
heat stress measurements be accompanied by documentatiori of exposure
                                                                                   I
control actions taken, such as work/rest regimens or other controls.     .
                                                                                   I

                                                                                   I

                                       2
                                                                                   I
il
I·
      3.0   PROGRAM SCOPE AND APPLICABILITY
I      The scope and applicability of the MNRC Heat Stress Program is limited to
       UNICOR Marianna Recycling Factory operations, specifically conducted at FCI
I      Marianna. FOH notes that heat exposure is an. issue at various UNICOR .
      .factories other than MNRC, and that the scope and applicability should be
       UNICOR-wide. FOHalso. notes that the OIG technical team identified the
I      potential for heat stress for certain warehouse and factory operations, other
       than glass breaking. Therefore, this program is required even with the
       suspension of glass breaking. .        .

I

      4.0   TECHNICAL CONTENT
I     The technical content of the Heat Stress Programiridudes measures for heat 

      stress prevention, heat exposure control, heat measurement and evaluation, 

I
    worker training, medical evaluation and monitoring, and recordkeeping. The 

      content inCludes important elements [or an effective heat stress program, such 

      as worker acclimation, hydration, administrative controls that apply a 

I
    work/rest regimen, engineering controls and personal protective equipment 

      that are selected considering both the heat hazard and toxic metals hazard, . 

      heat stress monitoring using wet bulh globe temperature(WBGT) methods, 

I
    training requirements, and medical screening and evaluation at:pre­ 

      employment and underemergeIicy situations. Appendices associated with the 

      program provide useful and more detailed information and guidelines to

I     conduct certain elements of the program sllch as heat measurement and 

      evaluation, medical monitoring, and training.                    .


I     The MNRC Heat Stress Program refers to the American Conference of Industrial 

      Hygienists (ACGIH) Threshold Limit Values (Ti,vs) for evaluating and 

      controlling exposure. However, FOH recommends that the document explicitly

I     state in the Background and Purpose that it is UNICOR's policy to adopt the 

      ACGIH TLVs as its heat stress standard.           .


I       The Heat Stress Program was drafted when UNICOR was conducting glass 

      . breaking .operations, and therefore it includes content for glass breaking. 

        UNICOR suspended all glass breaking in June 2009. FOHrecommends that

I       UNICOR revise the program to reflect the current operations performed, which 

        do not include glass breaking. 


I     FOH is of the opinion that UNICOR factories could have some difficulty in 

      implementing this program without technical support from industrial . 

      hygienists experienced in heat stress evaluation. and controls and without an 

 I
   associated and straight forward implementing procedure. The program 

      requires that factories conduct heat stress evaluations (both monitoring and 

      work rate analyses for each activity) and then implement various requirements 

 I

                                             3

 I
based on the results. Factory personnel will need training in the performance
of heat measurements and. assistance in work rate determinations and other
aspects of implementation. The program does point out the need for training in
various aspects of implementation and for the need of industrial hygiene
assistance. FOH offers a recommended approach to implementation in Section         I
5.0, below.

In summary, the MNRC Heat Stress Program contains the information and
                                                                                   [
requirements necessary for effective heat exposure analysis and control.
UNICOR should apply this program across all its factories. Factory staff will
require assistance in its implementation as discussed below in Section 5.0. In
addition, UNICOR should add a clear statement to the program that it adopts
the ACGIH TLVs as its standard for heat stress evaluation and control.
                                                                                   l
5.0   RECOMMENDATIONS FOR IMPLEMENTATION AND PATH FORWARD
                                                                                   l
Assuming that glass breaking remains permanently suspended, UNICOR
should issue a revision to this program to eliminate the glass breaking content
and focus on current warehouse and factory operations. UNICOR should adopt
the ACGIH TLVs as its standard for heat stress control and should also define
the scope and applicability as UNICOR-wide, rather than Marianna (MNRC)
alone. These actions will serve to simplify the program, particularly since the
complicating factors of disposable protective coveralls and respiratory
protection should be largely eliminated in most cases (except for less routine
operations such as cleanup of accidentally broken CRTs or certain operations
and maintenance functions that impact recurring or legacy contamination).
FOH recommends a three tiered approach to safety and health programs, with
level one being overall safety and health policy, level two being topic~specific   1
safety and health programs and procedures, and level three being
straightforward factory level implementing procedures for the level two
documents. UNICOR should consider this MNRC Heat Stress Program to be a            l
level two program that then requires a level three implementing procedure to
assist the factories in effective application of the program's requirements.
Therefore, UNICOR should also develop a straightforward implementing
procedure that the factories can successfully apply. FOH provides the
following recommendations for this implementation process.

FOH recommends that UNICOR simplify the implementation of the heat stress
program at the factory level by taking the following steps.

   1. 	 Revise the Heat Stress Program as summarized above.

   2. 	As stated in the current program, the Factory Manager will arrange for 

       workload (work rate) assessments for each job category. UNICOR should 



                                       4
                                                                                       \

      provide experienced industrial hygiene support to determine work rates
      for work tasks for the various warehouse and factory operations. If tasks
      are consistent among factories, then UNICOR could determine work rates
      for one or two typical factories and apply those determinations UNICOR­
      wide. Where tasks differ in nature among factories, UNICOR should
      determine such rates at the individual factories. With this information in
      hand, the Factory Managers will be in a position to focus their efforts on
      the tasks of moderate or moderate to heavy work rate.

   3. 	Also as stated in the program, UNICOR should provide WBGT monitoring
       devices to Factory Managers and train staff assigned to perform these
       measurements in the use of this equipment.

   4. 	UNICOR should develop a straightforward step-wise implementing
       procedure for the Factory Managers. This procedure should define the
       work rates determined in step 2 above, as well as instruction on when
       and how to conduct WBGT measurements. The implementing procedure
       should also include actions to be taken based on the results of the
       measurements. For instance, the procedure should provide instruction
       on how the Factory Manager implements the work/rest regimen based on
       WBGTmeasurements and work rates of various tasks.

   5. 	The implementing procedure should also address other elements of
       implementing the heat stress program, such as the means for providing
       hydration, identifying and reporting on signs of heat stress, and
       providing for emergency assistance.

When the implementation process is complete, the Factory Managers should be
in a position to implement the practical daily aspects of the heat stress
program, without requiring expert industrial hygiene support. The expert
support, however, is essential during the initial implementation of the program
and implementing procedure.

If through hazard analysis processes UNICOR determines that heat stress is
not a factor at a particular factory, then it can exempt that factory from the
program even though the program would apply UNICOR-wide. For instance,
the USP Leavenworth Factory Manager stated that all work, even unloading of
trucks, is conducted in air conditioned areas. However, UNICOR should
confirm the presence or absence of a heat hazard through the hazard analysis
process.




                                       5
6.0   SUMMARY

In summary, the MNRC Heat Stress Program contains the essential elements
for the effective control of the heat hazard. UNICOR should revise the current
MNRC Heat Stress Program to reflect current recycling operations and
conditions and 'apply the program as a level two document on a UNICOR-wide
                                                                                 l
basis. UNICOR should also develop a straightforward implementing procedure
that can be applied at the factory level by factory staff. UNICOR should also
provide experienced industrial hygiene assistance to determine work rates,
                                                                                 l
train factory personnel, and perform other implementation assistance for the
program. Factory management should then be capable of applying the
program and procedure when conditions of potential excessive heat exposure
are present.




                                                                                 i

                                                                                 i


                                                                                 l

                                                                                 l


                                                                                 t
                                                                                 I
                                                                                 l
                                                                                 l
                                       6

ATTACHMENT 4 

                                             u.s. Department of Justice
                                             Federal Bureau of Prisons




Office ofthe Director 	                      Washington, DC 20534




                                             October 14, 2010




MEMORANDUM FOR 	 CAROL F. OCHOA
                 ASSISTANT INSPECTOR GENERAL
                 OVERSIGHT AND REVIEW DIVISION




FROM:

SUBJECT: 	                Response to the Office of Inspector General's
                          (OIG) Revised Draft Report: A Review of Federal
                          Prison Industries' Electronic-Waste Recycling
                          Program

The Bureau of Prisons (BOP) appreciates the opportunity to
provide a response to the recommendations from OIG's revised
draft report entitled A Review of Federal Prison Industries'
Electronic-Waste Recycling Program.  I have directed UNICOR and
the BOP to work together in a collaborative fashion to further
determine the best means for implementing these recommendations.

As you know, Federal Prison Industries (FPI) is one of the
Bureau of Prisons' most important correctional programs. While
FPI provides products and services, the program's real output is
inmates who are more likely to return to society as law-abiding
taxpayers because of the job skills training and work experience
they received while in FPI.  In fact, independent research
demonstrates that participation in prison industries and
vocational training programs has a significant positive effect
on post-release employment and recidivism.

Within all FPI operations nationwide, the continued safety of
both staff and inmates alike is a top priority.  Specifically,
UNICOR began to institute comprehensive health and safety
improvements to its e-waste recycling operations starting in
approximately June 2003.  By 2007, Robert Tonetti, who was then
a senior environmental scientist" with EPA, with over 35 years
experience in the waste management and recycling fields, stated
unequivocally in an email to OIG, "UNICOR facilities are among
the best electronics recyclers in the country, and likely are
among the best in the world in some regards, such as their
handling of CRT glass." As such, FPI is committed to ensuring
compliance with all applicable health, safety, and environmental
requirements.  Specific responses to your twelve recommendations
can be found below.

Implement the OIG Technical Team's Recommendations

Recommendation 1: UNICOR and the BOP should complete
implementation of the OIG technical team's recommendations.

     FOH, NIOSH, OSHA, and EPA made numerous recommendations
during our investigation to address deficiencies that they
identified from their field work at UNICOR's e-waste factories.
The OIG technical team's recommendations addressed 47 issues in
12 general topic areas, including toxic metal contamination,
personal protective equipment, medical surveillance, regulatory
compliance, hazard assessments, oversight, and glass breaking
procedures.

Following a request by the OIG to describe the progress that had
been made to implement the technical team's recommendations, the
BOP and UNICOR provided a written update in January 2010, which
is found in Appendix 1. After reviewing this submission, we
determined that UNICOR and the BOP have made significant
progress to implement the recommendations. However, 16 of the
47 issues require future updates to the OIG (Recommendations 1,
2, 7, 8, 9, 14, 16, 17, 19, 20, 23, 26, 32, 35, 36, and 38).
These 16 issued involve matters such as decontaminating prior
glass breaking areas, improving record keeping for medical
surveillance data, monitoring surface contamination levels, and
improving compliance with the OSHA noise standard.

Response: We agree with ~IG's assessment that, as documented in
our January 19, 2010, memorandum, UNICOR and the BOP have made
substantial progress implementing the recommendations that are
contained in the various OIG technical team reports.  UNICOR and
the BOP plan to work together in order to collaboratively
determine the best means for addressing the remaining


                                2

outstanding recommendations. We will report back to OIG with
progress updates as appropriate.

Enhance Accountability and Improve Inspections and Oversight

Recommendation 2: UNICOR and the BOP should hold their
supervisors accountable for compliance with health, safety, and
environmental requirements.  In particular, the performance
appraisals of UNICOR and BOP supervisors should address
compliance with these requirements.

     UNICOR and the BOP are required to comply with the OSHA and
EPA regulations cited throughout our report. We believe that
supervisors in UNICOR and the BOP should be held accountable for
ensuring compliance with these requirements.

     OSHA regulations provide that" [elach agency head shall
ensure that any performance evaluation of any management
official in charge of an establishment, any supervisory
employee, or other appropriate management official, measures
that employee's performance in meeting requirements of the
agency occupational safety and health program, .... " 29 C.F.R.
1960.11. Executive Order 13148 on Greening the Government
Through Leadership in Environmental Management also requires
that the implementation of pollution prevention and
environmental management efforts be accounted for in the
performance reviews of federal supervisory personnel.

     According to OSHA, UNICOR and the BOP's past and current
performance appraisals are inadequate.  For example, our review
of BOP performance appraisals for Wardens revealed that their
performance measures made no reference to ensuring occupational
safety and health. We believe that UNICOR and the BOP should
ensure that their performance appraisals account for performance
that directly impacts institution health and safety.

     In addition, we believe that supervisors' performance
appraisals should include input from the Health Services
Division and account for inspections made by local and regional
safety staff, the Program Review Division, UNICOR and BOP
Industrial Hygienists, and external auditors.

Response:  UNICOR and the BOP recognize that accountability for
environmental and occupational health and safety issues is
important. As such, we plan to evaluate the performance work
plans for managers at all levels, in order to ensure that
environmental and occupational health and safety remain a top

                                3

priority for all, and also to ensure that input on these issues
is received from the Health Services Division and others (as
appropriate) .

Recommendation 3: UNICOR and the BOP should develop inspection
checklists and guidelines for each UNICOR business group and
complete inspections of all business groups within 18 months
from the date of this report.

     An important tool to assist with the detection of non­
compliance with health and safety regulations and policies is an
inspection checklist. UNICOR does not have an inspection
checklist that is specifically designed for its recycling
operations. Although we do not believe that checklists are a
substitute for well-trained staff, the use of checklists by
local and regional safety staff during their inspections of
UNICOR's e-waste operations should improve the detection of
health, safety, and environmental problems. We also recommend
that checklists should be developed for new operations at the
time that their initial hazard assessments are performed.

     Our discussions with UNICOR and BOP staff revealed that the
regulatory non-compliance that we identified in the Recycling
Business Group's operations likely exists in other UNICOR
business groups. We. believe that the development of inspection
checklists for UNICOR's six other business groups is important
based on the general lack of effective oversight that we
identified during this investigation.

     In addition, our investigation found that the Program
Review Division's Guidelines for UNICOR's operations omit
evaluation of health and safety issues, and that the Guidelines
for Health Services and Safety do not reference UNICOR.   The
Assistant Director for the Program Review Division told us that
it is not guaranteed that Program Review Division safety
inspections will include UNICOR operations.  To remedy this
deficiency, we believe that the Program Review Division should
develop Guidelines that specifically address health and safety
issues in UNICOR's factories, and that the Health Services
Division and UNICOR's Environmental and Occupational Health
Services Manager should assist with this effort. Moreover, to
ensure that Program Review Division auditors are properly
trained on use of the new Guidelines, Health Services Division
or UNICOR hygienists should provide instruction to the auditors
and a hygienist should participate in the inspection when
practicable.


                                4

     We therefore recommend that within 18 months from the date
of this report, the Health Services Division, in conjunction
with UNICOR and BOP hygienists and regional and local safety
staff, should complete industrial hygiene inspections for all
UNICOR business groups. Results showing significant non­
compliance with regulatory requirements should be reported to
DOJ, consistent with Recommendation 4 below.

Response: The Recycling Business Group factories are pursuing
third-party certification under the Responsible Recycler (R2)
program for electronics recycling facilities.   It is expected
that all RBG factories will have this certification (which
includes the ISO 14001 environmental management system, as well
as the OHSAS 18001 worker safety management system) by the end
of calendar year 2011.  In order to obtain and maintain the R2
environmental and worker safety certification, RBG factories
will be audited annually by a third-party who has been approved
by a certifying organization authorized by the American National
Standards Institute.

Likewise, UNICOR and the BOP also plan to evaluate UNICOR's
other operations and develop checklists and additional training
materials if needed. We anticipate this would include an
industrial hygiene risk assessment for each business group. We
will continue to provide updates to OIG as this process
progresses.

UNICOR and the BOP have also been working together to enhance
the relevant Program Review guidelines.  Changes which have been
considered include environmental/safety policy issues, PPE, and
permitting. More specific enhancements to Program Review safety
guidelines will also be made in coordination with the BOP.

Recommendation 4: DOJ should monitor health, safety, and
environmental compliance by UNICOR and the BOP and establish
internal compliance oversight procedures to address repeat
noncompliance.

     Our interviews with the environmental and occupational
health and safety program managers in DOJ's Justice Management
Division revealed that DOJ does not monitor or collect health,
safety, and environmental compliance information from Department
components, including UNICOR and the BOP, such as the issuance
of fines or notices of violation from regulatory inspections.
Both JMD program managers told the OIG that they thought that
DOJ should receive and review compliance-related health and
safety information from components within the Department. The

                                5

occupational health and safety program manager said that three
types of information should be reported to him:   (1) OSHA
violations identified by OSHA inspectors; (2) OSHA violations
that inspectors, including Industrial Hygienists and local
safety staff, identified as serious and that are repeated; and
 (3) any imminent danger or hazard findings, including those made
by local safety staff.

     We believe that DOJ should monitor UNICOR and the BOP's
health, safety, and environmental compliance performance, and
should be prepared to ensure that corrective action is taken in
the event that it appears that the non-compliance is not being
adequately addressed.

Response:  The response to Recommendation 4 was provided by
Lee J. Lofthus, Assistant Attorney General for Administration,
to Carol F. Ochoa, Assistant Inspector General, Oversight and
Review Division, in an October 8, 2010, memorandum. A copy of
that memorandum is attached.

Acquire Necessary Technical Resources

Recommendation 5: UNICOR and the BOP should perform an
evaluation to determine how many additional Industrial
Hygienists are needed. UNICOR and the BOP should use hygienists
to oversee the selection and use of industrial hygiene
contractors.

     The OIG technical team concluded that UNICOR and the BOP
have an insufficient number of Industrial Hygienists. According
to the team, the increasing complexity of the occupational
health and safety fields requires trained safety staff with
ample skills and competencies.

     According to UNICOR's sole Industrial Hygienist, UNICOR's
operations frequently require evaluation by personnel with
training that exceeds that typically possessed by BOP safety
staff. The Assistant Director of the Health Services Division,
Dr. Newton Kendig, told the OIG that he was aware of the need to
improve the technical competency of safety staff and that he is
attempting to professionalize the discipline within the BOP. He
stated that there is probably more technical expertise required
for the safety discipline than almost any other in the BOP;
although, BOP safety staff member have not had the depth of
training that is needed for their positions.



                                6

     To increase the technical resources available to UNICOR and
the BOP, we believe that UNICOR and the Health Services Division
should perform an evaluation to determine how many hygienists
are needed.  The Chief Operating Officer of UNICOR, Paul Laird,
told the OIG that it would not be unreasonable for UNICOR and
the BOP to obtain four additional hygienists pending the outcome
of the evaluation above.

     We believe that oversight of the hygienists should be
performed by the Health Services Division, under the leadership
of an experienced Chief Industrial Hygienist and safety
professional who can manage the delivery of industrial hygiene
and safety services throughout UNICOR and the BOP. The
complexity of the industrial hygiene and safety services
required by UNICOR and the BOP warrants overall supervision of
those services by an experienced hygienist with familiarity in
managing a large industrial hygiene and safety program.
Recommendation 6 also discusses the need for hygienists or other
safety professionals from the Health Services Division to
supervise regional and institution safety staff.

     Our investigation also found that UNICOR and the BOP often
obtained industrial hygiene consulting services that were
deficient and that UNICOR and BOP staff lacked sufficient
training to recognize the deficiencies. We believe that this
problem can be addressed by requiring UNICOR and BOP Industrial
Hygienists to participate in drafting the scope of work for the
contractors, overseeing their selection and use, and evaluating
their work product.

Response:  UNICOR and the BOP agree with the OIG's assessment
that occupational health and safety issues are growing
increasingly complex and more often than not require hands-on
involvement from an Industrial Hygienist.

As such, UNICOR had previously hired an Industrial Hygienist,
and is in the process of adding a second Industrial Hygienist.
Likewise, the BOP recently added an Industrial Hygienist to
their staff as well.

In the coming months, UNICOR and the BOP plan to work together
to fully evaluate the agency's occupational health needs and
determine the number of additional trained staff required to
meet those needs.  In addition to simply evaluating the number
of staff required, we will also evaluate the best manner in
which to deploy the additional staff, in order to ensure their
skills and abilities will be best utilized by the agency.

                                7

Strengthen the Role of the Health Services Division

Recommendation 6: The Health Services Division should oversee
the delivery of health, safety, and environmental services at
BOP institutions and UNICOR factories.  We believe that the BOP
and UNICOR should consider requiring that local and regional
safety staff, as well as BOP and UNICOR Industrial Hygienists,
report to the Health Services Division rather than to
institution or regional correctional managers.  In addition,
compliance enforcement of health safety and environmental
regulations should be an integral part of the Division's
responsibilities.

      Our investigation revealed that the quality of services
that institution safety offices provided to the BOP and UNICOR
varied significantly, and that local safety staff at times
provided inaccurate information and advice. We found that BOP
regional and headquarters safety personnel are not responsible
for the management of local safety programs, including the
performance of institution safety staff, and that important
safety information often was "stove piped" at the institution
level and not shared. We believe that this method of furnishing
industrial hygiene and safety services exacerbated problems with
the e-waste recycling program, primarily by delaying both the
recognition of the hazards associated with e-waste and the
formulation of a sufficient response to these hazards that was
implemented consistently between factories.

     To avoid similar problems in the future, as well as to
improve UNICOR and the BOP's compliance performance, we believe
that the BOP should evaluate whether the Health Services
Division should be assigned management responsibility for the
delivery of industrial hygiene and safety services throughout
the BOP and UNICOR.  The Health Services Division presently
establishes health, safety, and environmental policies, and is
knowledgeable about regulatory requirements that must be
carried-out in BOP's institutions. We believe that for the BOP
and UNICOR to achieve compliance with regulatory requirements
and ensure that the advice of safety staff is consistent and
accurate, regional and local safety personnel should be overseen
by experienced Industrial Hygienists or other safety
professionals from the Health Services Division who are familiar
with regulatory requirements and are committed to seeing that
they are respected.

     This change would also ensure that local safety staff would
not be overseen by managers whose performance evaluations depend

                                8

in part on the outcome of safety staff inspections. OSHA
regulations require that the performance appraisals of UNICOR
and BOP supervisors include an assessment of their performance
in meeting the requirements of the BOP's occupational safety and
health program (see Recommendation 2), which mandates compliance
with applicable health, safety, and environmental regulations.
29 C.F.R. 1960.11. Requiring safety staff to report to
institutional correction managers whose performance evaluations
depend in part on the results of safety inspections could
compromise the independence of safety staff.

     We also believe that the Health Services Division should
adopt a rigorous program of compliance enforcement. The
Division should oversee regular, unannounced inspections of
UNICOR operations and UNICOR and BOP managers should be held
accountable for the results. When regulatory violations are
found, the Health Services Division should issue warnings to
institution and regional BOP managers. Large numbers of single
instance violations or repeated serious violations should be
addressed in manager performance appraisals, and the violations
should also be reported to DOJ.

     In addition, UNICOR's issuance of health, safety, and
environmental policies should be contingent on the Health
Services Division's review and approval. UNICOR currently is
able to issue its own health and safety policies without review
and approval from any oversight entity. We believe that BOP
should consider making the Health Services Division the sole
authority on health, safety, and environmental matters within
UNICOR and the BOP. We believe that without centralized BOP
control over policy development, inconsistent advice will be
provided to UNICOR and BOP managers.

Response:  The UNICOR and the BOP are currently evaluating a
variety of options for the delivery of health, safety, and
environmental services.  Items such as, but not limited to,
technical staff reorganization and compliance enforcement are
being considered during this evaluation to better ensure that
the mission of the BOP and UNICOR are met.

Recommendation 7:  The BOP should evaluate the need to establish
an occupational health program administered by the Health
Services Division.

     Our investigation determined that the BOP lacks an adequate
occupational health program that seeks to reduce illnesses and
injuries in the workplace. According to the Assistant Director

                                9
for the BOP's Health Services Division, Dr. Kendig, BOP health
staff is currently not assigned occupational health duties. We
believe that the deficiencies we identified with the BOP's
medical surveillance of UNICOR staff and inmates were caused in
large part by the lack of occupational health resources within
the BOP.  The BOP should evaluate the need to create an
occupational health program that would be overseen by the Health
Services Division.

Response:  The BOP is currently evaluating the establishment of
an occupational health program administered by the Health
Services Division.

Enhance Training

Recommendation 8: UNICOR and the BOP need to improve their
ability to detect violations of health, safety, and
environmental regulations, and should develop a joint plan to
enhance site-specific training for regional and institution
staff with oversight responsibilities of UNICOR operations.

     Our investigation found an unacceptably high number of
regulatory violations, the vast majority of which were not
identified by UNICOR and BOP staff. To improve staff members'
ability to identify health, safety, and environmental problems,
UNICOR and the BOP should jointly formulate and implement
intensive training on regulatory requirements for safety staff,
UNICOR Factory Managers, Production Controllers, Associate
Wardens, and Superintendents of Industries. This training
should supplement annual.training and be focused on the
particular operations that the managers are required to
supervise.

Response: UNICOR and the BOP recognize the need to further
improve health, safety, and environmental regulatory compliance
issues and training. UNICOR and the BOP are currently working
towards improving these areas.

Improve Communications

Recommendation 9: Safety Managers who oversee similar UNICOR
operations should communicate regularly about health, safety,
and environmental issues that they identify in their UNICOR's
factories.  The results of industrial hygiene and environmental
testing and inspections should be shared promptly between
institutions and with UNICOR Program Managers.


                                10 

     We found during our visits to BOP institutions that Safety
Managers who oversaw e-waste recycling operations did not
regularly communicate with each other about problems that they
were finding with the e-waste operations, and that the results
of industrial hygiene testing and inspections were not
consistently shared between institutions .and with UNICOR Program
Managers.  This "stove piping" of information and the lack of
communication between institutions and with UNICOR and BOP
Headquarters placed workers in jeopardy.   For example,
information on injuries from glass breaking operations was not
shared, resulting in delays in furnishing adequate protective
equipment to inmate glass breakers at some factories.

     To avoid problems related to poor communications, we
believe that safety staff with similar UNICOR operations should
consult through conference calls at least bi-annually, that
information about problems should promptly be shared with other
factories, and that testing and inspection results should be
promptly distributed to institutions with similar UNICOR
operations and to UNICOR Program Managers following receipt.

Response:  We concur with ~IG's recommendation that efforts
should be taken to seek to further promote communication and
that it would be beneficial for Safety Managers who oversee
similar UNICOR operations to communicate regularly about health,
safety, and environmental issues that they identify in their
UNICOR factories.  We also believe it would be beneficial to
share the results of industrial hygiene and environmental
testing and inspections done by UNICOR or the BOP promptly
between institutions and with UNICOR Program Managers. UNICOR
and BOP will seek to evaluate ways to enhance communication
between the factories and with Central Office.

Evaluate Use of OSHA Cooperative Programs

Recommendation 10: UNICOR should complete an assessment of the
feasibility of enrolling its factories in OSHA cooperative
programs and report the results to the OIG.

     During our investigation, OSHA encouraged UNICOR to enroll
in one of its cooperative programs to improve compliance
performance. Many agencies in the federal government
participate in programs such as the OSHA Voluntary Protection
Program, including the Postal Service and the Navy. A Voluntary
Protection Program establishes performance related criteria for
the management of safety and health systems and uses the
criteria to assess the progress of the program participant.

                                11 

     We believe that UNICOR currently is not in compliance with
many federal health and safety regulations, and that enrollment
of its factories in an OSHA cooperative program could
significantly improve compliance performance. UNICOR should
assess the feasibility of enrolling its factories in an OSHA
cooperative program and report the results of its evaluation to
the OIG. We recommend that the UNICOR Board of Directors be
briefed on the results of this evaluation.

Response: Although there may have been some compliance issues
in the past, UNICOR is committed to maintaining its current
compliance and to further ensuring compliance with all federal
health and safety regulations in the future.  Recently, UNICOR
developed an "Environmental Occupational Health Commitment
Statement" signed by senior UNICOR executive staff, to
demonstrate UNICOR's desire and commitment to continue to
achieve cpmpliance. We agree to further assess and/or pursue
occupational, safety and health management system recognition,
cooperative programs and other compliance efforts, and to
provide regular updates relating to UNICOR's compliance with
federal health and safety regulation to its Board of Directors.

Evaluate Controls on Exports of E-Waste

Recommendation 11: The Recycling Business Group should evaluate
ways to better ensure that exports of its e-waste are in
compliance with host-nation, and international laws and do not
result in harm to workers or to the environment.

     According to current General Manager of the Recycling
Business Group, Robert Tonetti, UNICOR currently sells e-waste
products to other recyclers and brokers who export them to
smelters in other countries in order to complete the recycling
process. Tonetti told the OIG that this practice is common in
e-waste recycling.  For example, he stated that recycled CRT
glass from u.S. goes to only four plants in the world that
manufacture new CRTs - two in India and one in Korea, and one is
in Malaysia. However, investigations of e-waste recycling
practices in many nations abroad have revealed serious health,
safety, and environmental problems.  To address this issue,
since approximately 2003, UNICOR has required its vendors to
self-certify that they do not send e-waste to landfills for
disposal and that their exports of e-waste comply with all
national and international laws.  Tonetti told the OIG while the
vendor self-certifications "are a start," he stated that "it is
nowhere near where we need to be." He said that he is seeking
to obtain third-party certifications for the Recycling Business

                                12 

Group's operations that address the issue of "downstream" due
diligence.

     We concur with Tonetti's actions and believe that the
Recycling Business Group should institute procedures to better
ensure that its e-waste that is sold to vendors does not end up
later causing harm to workers or to the environment.  We
recommend that within six months from the release of this
report, the Recycling Business Group should identify current
"best practices" for performing due diligence on downstream
vendors and develop a written plan to put those practices into
use.

Response:  UNICOR's Recycling Business Group has been working to
improve procedures for the screening of downstream market
vendors in regards to the adequacy of practices used by these
vendors in protecting worker safety and the environment.

Downstream due diligence for worker safety and environmental
protection is a major component of the R2 certification that all
RBG factories are pursuing. Two of the current seven UNICOR
factories are expected to achieve R2 certification by Spring of
2011. RBG's template for screening downstream vendors for
environmental and safety aspects would be completed as part of
this process.  Following certification of the initial two
factories, the other RBG factories will begin implementing this
same screening protocol for downstream vendors, with the goal of
achieving full implementation by the end of calendar year 2011.

Prevent Injuries

Recommendation 12: UNICOR and the Health Services Division
should track injury trends in UNICOR operations. UNICOR Program
Managers should be informed of all injuries in factories that
they oversee.

     Our investigation determined that the BOP was failing to
comply with OSHA regulations governing the recording of inmate
worker injuries. UNICOR and the BOP have advised the OIG that
they intend to comply with this requirement.

     We believe that UNICOR and the Health Services Division
should use the inmate injury data that is collected to determine
whether injury trends are evident in UNICOR operations, such as
would have been apparent from examination of injuries sustained
by inmate glass breakers.   In addition, all injuries in UNICOR
operations should be reported to Headquarters' Program Managers.

                               13 

This will enable UNICOR Headquarters staff to assist in
monitoring the safety of the operations for which they are
responsible.  The Assistant Director for the Health Services
Division, Dr. Kendig, told the OIG that he is attempting to
upgrade the Division's ability to collect and manage
occupational health and injury data, and he is evaluating web­
based options to perform this work.

Response:   UNICOR and the BOP agree that inmate injury data
should be collected in a central location, in order to better
identify trends throughout the agency.  This work has already
commenced.  The BOP is evaluating the best manner in which to
collect and manage-this data, as well as introduce and implement
the new system and train staff with respect to any new systems
to be utilized.

If you have any questions regarding this response, please
contact VaNessa P. Adams, Assistant Director, Program Review
Division, at (202) 353-3206.

Attachment




                                14 

                                                     u.s. Department of Justice
                                                                  Associate Attorney General




    OCT - 8



MEMORANDUM FORCAROLF. OCHOA
                          Assistant Inspector General
                          Oversight and Review Division

FROM:                     Lee J. Lofthus
                          Assistant Attorney Ge
                            for Administration

SUBJECT:                  Response to the Office of the Inspector General's (OIG)
                          Draft Report: A Review of Federal Prison Industries' Electronic-Waste
                          Recycling Program

The Justice Management Division (JMD) appreciates the opportunity to respond to a
recommendation from the DIG's draft report entitled A Review of Federal Prison Industries'
Electronic·Waste Recycling Progrnrn= dated July 2010. Please find JMD's response below:

OIG Recommendation if 4: 'IDOJ S!tOlild monitor health,    and envirol1memai compliance
by UN/COR and lhe BOP and establish imemal compliance oversight procedures to address
repeat non·compliance,"

JMD Response: JMD agrees that a strong Departnlental             and safety oversight program is
essential. According to DOJ Order I779.2A, "Occupational Safety and Health Program," Heads
of Components have primary responsibility for maintaining a safe workplace within their
organization. The Order also establishes monitoring and review processes and oversight
procedures to address health. safety and environmental compliance by aU Components, including
UNICOR and the Bureau of Prisons, The Order is in the process of being rewritten. and JMD
will clarify the practices and guidelines for Component and Departmental Safety and Health
Program Managers to use in conducting appropriate inspections and review ofrecords and
reports. The proposed plan of action is:

       A. JMD will update DOJ Order 1779.2A. "Occupational Safety and Health Program:' to
       clarify the requirements for maintaining records related to accidents, occupational
       injuries. and Feder-al and State occupational safetyaud health inspection activities. The
       updated Order win also clarify the role of the Department Safety and Health Program
       Manager (DSHPM), JMD Facilities and Administrative Services Staff (FASS), in
       reviewing the records prepared by the Components.
Memorandum for Carol F. Ochoa                                                       Page 2
Subject: Response to the Office of the Inspector General's (OIG)
         Draft Report: A Review of Federal Prison Industries' Electronic-Waste
                       Recycling Program


       B. The DSHPM will request and review the reports specified in the Safety and Health
       Order on a regular basis and win address any deficiencies found back to the appropriate
       Component official(s).

Please contact Steve Eck, Department Safety and Health Program Manager, FASS) at (202) 307­
6247 if you require additional infonnation.
                                                             U.S. Department of Justice 

                                                             Justice Management Division 





Office of the Assistant Attorney Oenel1ll 	                  Washington, D. C. 20530



                                                                   OCT 1 9

MEMORANDUM FOR CAROL F. OCHOA
               Assistant Inspector General
               Oversight and Review Divi sion

FROM: 	                          Lee J. Lofthus   .r4!JI
                                 Assistant Attom~ral
                                   for Administration

SUBJECT: 	                       Supplement to Response to the Office o f the Inspector General's (DIG)
                                 Draft Report : A Review of Federal Pri son Industries ' Electroni c-Waste
                                 Recycli ng Program

The Just ice Managemen t Divi sion (JMD) sent a response to a recomm endati on from the D IG's
draft report en titled A Review of Federal Prison Industries' Electronic-Waste Recycling
Program. on October 8, 2010. We offer additional information below to clarify and suppl ement
thai response:

O IG Recommendation # 4: "DO) should monitor health, safety alld environmental compliance
by UN/ COR alld the BOP alld establish internal compliance oversight procedures to address
repeatlloll·compliallce, "

JMD Additional n,cs pon se: JMD intends to mai ntai n a strong and effective program to ensure
appropriate oversigh t of component efforts in environmental protection. We are currentl y
developing a Department Order to implement an Environmental Management System in
accordance wi th Execut ive Order 13423 and we wi ll ensure that appropriate steps to ensure
strong and effective oversight and compliance enforcement for environmental protection issues
are included.

Pl ease contact Steve Eck, Department Safety and Health Program Manager, FASS, at
(202) 307· 6247 if you req uire additional infonnation.
ATTACHMENT 5 

                                                    u.s. Dqlartment of Justice
                                                    OffiCCQf the Associate Attorney General




    OCT - 8


MEMORANDtrr.1 FOR CAROL F. OCHOA
                  Assistant Inspector General
                  Oversight and Revie"w Division

FROM:                   Lee J. Lofthus
                        Assistant Attorney Gen
                          for Administration

SUBJECT: 	              Response to the Office of the Inspector Genera!' s (OIG)
                        Draft Report: A Review of Federai Prison Industries' Electronic-Waste
                        Recvding Program

The Justice Management Division (JMD) appreciates the opportunity to respond to a
recommendation from the OIG's draft report entitled A Review of Federal Prison Industries'
Electronic-Waste Recycling ProlZram. dated July 2010. Please find JMD's response below:

OIG Recommendation # 4: "DOJ should monitor health. safety and environmental compliance
by UN/COR and the BOP cmd establish internal compliance oversight procedures to address
repeat If()fl-compliance,"

JMD Response: JMD agrees that a strong Departl1'l{~utal health and safety oversight. program is
essentiaL According to DOJ Ordel' 1779/2A, "Occupational Safety and Health Program," Heads
of Components have primary responsibility for maintaining a safe workplace within their
organization. The Order also establishes rnonitoring and review processes and oversight
procedures to address health, safety and environmental compliance by all Components, including
UNICOR and the Bureau of Prisons. The Order is in the process of being rewritten. and JMD
will clarify the practices and guidelines for Component and Departmental Safety and Health
Program Managers to use in conducting appropriate inspections and review of records and
reports. The proposed plan of action is:

       A JMD will update DOJ Order I 779.2A. ··Occupational Safety and Health Program;' to
       clarify the re.quirements for maintaining records related. to accidents, occupational
       injuries, and Federal and State occupational safety and health inspection activities. The
       updated Order will also clarify the role of the Department Saiety and Health Program
       Manager (DSHPM). JMD Facilities and Administrative Services Staff (FASS), in
       revie\:ving tbe records prepared by the Components.
Memorandum for Carol F. Ochoa                                                        Page 2
Subject: Response to the Office of the Inspector General's (OrG)
         Draft Report: A Revie\v of Federal Prison Industries' Electronic-\Vaste
                       Recvdiu:II Program


       B. The DSHPM will request and review the reports specified in the Safety and Health
       Order on a regular basis and wiII address any deficiencies found back to the appropriate
       Component otTtcial(s).

Please contact Steve Eck, Department Safety and Health Program Manager, FASS~ at (202) 307­
6247 if you requite additional infonnation.
ATTACHMENT 6 

          OIG ANALYSIS OF BOP, UNICOR, AND DOJ RESPONSES 

                     TO OIG RECOMMENDATIONS 


       The OIG provided a draft of this report to the BOP, UNICOR, and DOJ for
their review and comment. The BOP’s and UNICOR’s response to the draft
report is included in Attachment 4. The DOJ provided comments on
Recommendation 4, which is included in Attachment 5. Our analysis of these
responses and a summary of the actions necessary to close each
recommendation are presented below.

Recommendation Number:

1.    Resolved. The BOP and UNICOR concurred with our recommendation
that they complete implementation of the OIG technical team’s
recommendations. The BOP and UNICOR stated that they plan to work
together to determine the best means to address the outstanding
recommendations and will provide progress updates to the OIG.

      This recommendation can be closed when the BOP and UNICOR provide
evidence that they have fully completed implementation of the technical team’s
recommendations.

2.    Resolved. The BOP and UNICOR concurred with our recommendation
that they hold their supervisors accountable for compliance with health, safety,
and environmental requirements. The BOP and UNICOR stated that they
recognize that accountability for health, safety, and environmental issues is
important and will evaluate the performance work plans of their managers.

      This recommendation can be closed when the BOP and UNICOR provide
documentation that they have considered and revised as appropriate the
performance work plans of supervisors to account for compliance with health,
safety, and environmental requirements, and that they have begun addressing
such compliance in performance appraisals of such supervisors. The BOP also
should establish procedures that require these performance appraisals to
include input from the Health Services Division about the supervisor’s
performance in achieving compliance with relevant health, safety, and
environmental requirements, and include consideration of any inspections of
the facility or facilities under the supervision of the relevant supervisor by local
and regional safety staff, the Program Review Division, UNICOR and BOP
industrial hygienists, and external auditors.




                                         1

3.     Resolved. In response to our recommendation that the BOP and
UNICOR develop inspection checklists and guidelines for each UNICOR
business group, the BOP stated that the Recycling Business Group is pursuing
third-party certification under the Responsible Recycler (R2) program, and that
its e-waste factories will be audited annually. The BOP and UNICOR further
stated that they plan to evaluate UNICOR’s other operations, and that they are
working together to improve the relevant Program Review Guidelines.

       We believe the Recycling Business Group’s decision to seek third-party
certification of its operations is a positive step. We believe that independent
assessments can provide valuable compliance and performance information
that will better ensure that workers and the environment are protected.
However, we believe it is important, in addition to the R2 program certification
and audit, that UNICOR and the BOP develop their own compliance resources,
including inspection checklists, and to train other BOP and UNICOR staff on
their use. The BOP’s response also did not address completion of the
inspections called for in the recommendation.

      This recommendation can be closed when the BOP and UNICOR provide
copies to the OIG of inspection checklists for UNICOR business groups, provide
revised Program Review Division guidelines that ensure evaluation of UNICOR
operations for health and safety issues, and provide documentation that the
inspections referred to in this recommendation have been completed.

4.    Resolved. In response to our recommendation that DOJ provide
oversight of UNICOR’s and the BOP’s health and safety compliance
performance, DOJ’s Justice Management Division (JMD) stated that it “agrees
that a strong Departmental health and safety oversight program is essential”
and that it is revising DOJ Order 1779.2A which, according to JMD,
“establishes monitoring and review processes and oversight procedures to
address health, safety, and environmental compliance by all Components,
including UNICOR and the Bureau of Prisons.” In a supplemental response
dated October 19, 2010 (included in Attachment 4), JMD further stated that
“JMD intends to maintain a strong and effective program to ensure appropriate
oversight of component efforts in environmental protection.” According to
JMD, it is developing a Department-wide Environmental Management System
(EMS) in accordance with Executive Order 13423, and will ensure that strong
and effective oversight and compliance enforcement are included in the EMS.

        This recommendation can be closed when DOJ establishes oversight
policies that allow it to monitor UNICOR and the BOP’s health, safety, and

                                       2

environmental compliance performance, and that these policies require
corrective action in the event that it appears that UNICOR and the BOP are not
adequately addressing non-compliance.

5.     Resolved. The BOP and UNICOR concurred with our recommendation
that they should perform an evaluation to determine how many additional
industrial hygienists they should recruit. The BOP and UNICOR response
stated that they recognize that occupational health and safety issues have
become highly complex and that “more often than not require hands-on
involvement from an Industrial Hygienist.” They also stated that they intend to
fully evaluate occupational health needs within the BOP and determine the
number of additional trained staff that are required to meet those needs and
how best to deploy them.

      However, we also recommended that the BOP’s Health Services Division
retain a Chief Industrial Hygienist to manage the delivery of industrial hygiene
and safety services throughout UNICOR and the BOP and that UNICOR and
the BOP should ensure that industrial hygienists oversee the work of safety
contractors. We believe that it is essential for the BOP to retain highly trained
and experienced professionals to oversee the delivery of safety and occupational
health services. The BOP and UNICOR did not respond to these aspects of our
recommendation.

       This recommendation can be closed when the BOP and UNICOR
complete an evaluation of how many industrial hygienists they need to hire;
recruit the hygienists that this evaluation determines are needed; establish
policies that ensure that oversight of BOP and UNICOR hygienists is performed
by the Health Services Division under the leadership of an experienced Chief
Industrial Hygienist and safety professional who can manage the delivery of
industrial hygiene and safety services throughout UNICOR and the BOP; and
establish policies that require BOP and UNICOR industrial hygienists to
participate in defining the work of health and safety contractors, overseeing
their selection and use, and evaluating their work product.

6.    Resolved. In response to our recommendation that the Health Services
Division oversee the delivery of health, safety, and environmental services at
BOP institutions and UNICOR factories, the BOP and UNICOR stated that they
currently are evaluating a variety of options to improve the delivery of health,
safety, and environmental services, including technical staff reorganization and
compliance enforcement.



                                       3

       This recommendation can be closed when: (1) the Health Services
Division assumes oversight responsibility for the delivery of health, safety, and
environmental services at BOP institutions and UNICOR factories; (2) the BOP
and UNICOR complete an evaluation to determine whether local and regional
safety staff, as well as BOP and UNICOR industrial hygienists, should report to
the Health Services Division rather than to institution or regional correctional
managers; (3) the Health Services Division adopts policies to implement a
compliance enforcement program; and (4) the BOP and UNICOR establish
policies requiring the Health Services Division’s review and approval of UNICOR
health, safety, and environmental policies.

7.    Resolved. The BOP and UNICOR concurred with our recommendation
to evaluate the need to establish an occupational health program administered
by the Health Services Division, and the BOP stated that the evaluation is
underway.

      This recommendation can be closed when the BOP completes its
evaluation and provides us with the results.

8.    Resolved. The BOP and UNICOR concurred with our recommendation
to improve training so that BOP and UNICOR staff can better detect violations
of health, safety, and environmental regulations. The BOP and UNICOR stated
that they currently are working to improve their training programs.

       This recommendation can be closed when the BOP and UNICOR provide
evidence that they have upgraded their training programs, including creating
and implementing site-specific training on regulatory requirements for safety
staff, UNICOR Factory Managers, Production Controllers, Associate Wardens,
and Superintendents of Industries.

9.    Resolved. The BOP and UNICOR concurred with our recommendation
to improve communications between Safety Managers who oversee similar
UNICOR operations, and to promptly share the results of industrial hygiene
and environmental testing and inspections between institutions and with
UNICOR Program Managers. The BOP and UNICOR agreed that efforts should
be taken to further promote communications and that “it would be beneficial
for Safety Managers who oversee similar UNICOR operations to communicate
regularly about health, safety, and environmental issues that they identify in
their UNICOR factories.”

       This recommendation can be closed when the BOP and UNICOR institute
policies that require the communications described in this recommendation.

                                       4

10. Resolved. The BOP and UNICOR concurred with our recommendation
to assess the feasibility of enrolling its factories in OSHA cooperative programs.

      This recommendation can be closed when the BOP provides us with this
assessment.

11. Resolved. In response to our recommendation that the Recycling
Business Group evaluate ways to better ensure that exports of its e-waste are
in compliance with U.S., host-nation, and international laws and do not result
in harm to workers or to the environment, the BOP and UNICOR stated that
the Recycling Business Group has been working to improve its procedures for
screening the safety and environmental practices of “downstream” vendors.
The BOP stated that the Recycling Business Group expects its participation in
the Responsible Recycler (R2) program to improve these screening procedures.

      This recommendation can be closed when the Recycling Business Group
provides evidence of improved procedures for screening the safety and
environmental practices of downstream vendors. For example, the BOP should
consider identifying current “best practices” for performing due diligence on
downstream vendors and developing a written plan to put those practices into
use.

12. Resolved. The BOP and UNICOR concurred with our recommendation
to record inmate injuries and to track injury trends in UNICOR operations.
The BOP and UNICOR stated that inmate injury data should be collected in a
central location in order to better identify injury trends.

       This recommendation can be closed when the BOP and UNICOR
establish policies that require the recording of inmate injuries, the assessment
of injury trends, and the sharing of injury information with UNICOR Program
Managers.




                                        5

U.S. Department of Justice
Office of the Inspector General
